<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]







              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA




                             ANNUAL REPORT


                                  2008


=======================================================================



                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



(Star Print)






                           2008 ANNUAL REPORT









              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA








                             ANNUAL REPORT





                                  2008

=======================================================================

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                   ______


                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2008

(Star Print) 44-748 PDF


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001










 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-
MARCY KAPTUR, Ohio                    Chairman
TOM UDALL, New Mexico                MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TIMOTHY J. WALZ, Minnesota           DIANNE FEINSTEIN, California
CHRISTOPHER H. SMITH, New Jersey     SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CHUCK HAGEL, Nebraska
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida



                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director

                                  (ii)



                             CO N T E N T S

                              ----------                              
                                                                   Page
Preface..........................................................     1

General Overview.................................................     3

I. Executive Summary and Recommendations.........................     8

    Findings and Recommendations by Substantive Area.............     8
    Political Prisoner Database..................................    27

II. Human Rights.................................................    32

    Rights of Criminal Suspects and Defendants...................    32
    Worker Rights................................................    41
    Freedom of Expression........................................    57
    Freedom of Religion..........................................    73
    Ethnic Minority Rights.......................................    94
    Population Planning..........................................    96
    Freedom of Residence.........................................   103
    Liberty of Movement..........................................   113
    Status of Women..............................................   115
    Human Trafficking............................................   118
    North Korean Refugees in China...............................   124
    Public Health................................................   128
    Environment..................................................   133
    2008 Beijing Summer Olympic Games............................   139

III. Development of the Rule of Law..............................   144

    Civil Society................................................   144
    Institutions of Democratic Governance........................   147
    Commercial Rule of Law.......................................   153
    Access to Justice............................................   163

IV. Xinjiang.....................................................   168

V. Tibet.........................................................   182

VI. Developments in Hong Kong....................................   205

VII. Endnotes....................................................   212
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2008 ANNUAL REPORT

                                Preface

    The findings of the Commission's 2008 Annual Report prompt 
us to consider not simply what the Chinese government and 
Communist Party may do in the months and years ahead, but what 
we must do differently in view of developments in China over 
the last year. We understand that China today is significantly 
changed from the China of several decades ago, and that the 
challenges facing its people and leaders are complex. As the 
United States engages China, it is also vital that our nation 
pursue the issues that are the charge of this Commission: 
individual human rights, including worker rights, and the 
safeguards of the rule of law. As China plays an increasingly 
significant role in the international community, this report 
describes how China repeatedly has failed to abide by its 
commitments to internationally recognized standards. Therefore 
it is vital that there be continuing assessment of China's 
commitments. This is not a matter of one country meddling in 
the affairs of another. Other nations, including ours, have 
both the responsibility and a legitimate interest in ensuring 
compliance with international commitments. It is in this 
context, as Chairman and Co-Chairman of the Congressional-
Executive Commission on China, that we submit the Commission's 
2008 Annual Report.
    This year the international community watched with dismay 
as Chinese authorities responded with overwhelming force to a 
wave of public protests that spread across Tibetan areas of 
China. Amidst the astonishment with which people around the 
world more recently witnessed the spectacular opening 
ceremonies of the 2008 Beijing Summer Olympic Games and China's 
effective management of the Games, Chinese authorities failed 
to fulfill several Olympics-related commitments--including 
commitments to press freedom, media access, the free flow of 
information, and freedom of assembly. The Chinese government's 
and Communist Party's continuing crackdown on China's ethnic 
minority citizens, ongoing manipulation of the media, and 
heightened repression of rights defenders reveal a level of 
state control over society that is incompatible with the 
development of the rule of law. The cases of well over a 
thousand of the political and religious prisoners languishing 
in jails and prisons in China today are documented by the 
Commission's publicly accessible Political Prisoner Database.
    During the past 12 months, the Chinese government and 
Communist Party have outlined legislative and regulatory 
developments in areas such as anti-monopoly, open government 
information, collective contracting, employment promotion, 
regulation of the legal profession, and intellectual property, 
among others. Based on China's record of past enforcement, 
these new measures will require consistent and transparent 
implementation if they are to fulfill the government's stated 
objectives. China's record on human rights and the development 
of the rule of law over the last year continued to reflect the 
following troubling trends: (1) heightened intolerance of 
citizen activism and suppression of information on matters of 
public concern; (2) ongoing instrumental use of law for 
political purposes; (3) stepped up efforts to insulate the 
central leadership from the backlash of national policy 
failures; and (4) heightened reliance on emergency measures as 
instruments of social control. The Chinese government and 
Communist Party continue to equate citizen activism and public 
protest with ``social 
instability'' and ``social unrest.'' China's increasingly 
active and engaged citizenry is one of China's most important 
resources for addressing the myriad public policy problems the 
Chinese people face, including food safety, forced labor, 
environmental degradation, and corruption. Citizen engagement, 
not repression, is the path to the effective implementation of 
basic human rights, and to the ability of all people in China 
to live under the rule of law.

Sander M. Levin, Chairman      Byron L. Dorgan, Co-Chairman

                            General Overview

    Over the last year, the following general trends with 
regard to human rights and the development of the rule of law 
have been evident in China:

    1. The Chinese government's and Communist Party's 
intolerance of citizen activism increased, as did the 
suppression by authorities of information on matters of public 
concern.
    2. The instrumental use of law for political purposes 
continued, and intensified in some areas, notwithstanding 
developments in areas such as death penalty reform, anti-
monopoly, open government information, employment promotion, 
and collective labor contracting.
    3. Official efforts to insulate the central leadership from 
the backlash of national policy failures continued, as efforts 
to prevent ``sensitive'' disputes from entering legal channels 
that lead to Beijing intensified.
    4. In the wake of Tibetan protests, the Sichuan earthquake, 
the 2008 Beijing Olympic Games, and, most recently, a food 
safety crisis involving tainted milk products, the stake that 
Chinese citizens and citizens of other countries have in 
improved governance in China continued to rise. The Chinese 
government's and Communist Party's increasing reliance on 
emergency measures as instruments of social control over the 
last year underscored the downside risk of insufficient or 
ineffective rule of law reforms.

                    INTOLERANCE OF CITIZEN ACTIVISM

    The clearest manifestations of Chinese government and 
Communist Party intolerance of citizen activism during the past 
year were the detention, ``patriotic education,'' isolation, 
and deaths of Tibetans following protests in Tibetan areas of 
China. Authorities failed to distinguish between peaceful 
protesters and rioters as required under both Chinese law and 
international human rights norms. Heightened intolerance of 
peaceful protest also was evident in the Xinjiang Uyghur 
Autonomous Region (XUAR) in the aftermath of demonstrations in 
Hoten and amid security preparations for the 2008 Olympic 
Games. Participants in the Hoten demonstrations protested 
government policies against a backdrop of rising controls and 
repressive measures in the XUAR, including wide-scale 
detentions, restrictions on Uyghurs' freedom to travel, and 
heightened surveillance over religious activities and religious 
practitioners.
    Illegal detentions and harassment of dissidents and 
petitioners followed the Chinese government and Communist 
Party's instructions to officials to ensure a ``harmonious'' 
and dissent-free Olympics. Individuals detained for circulating 
a ``We Want Human Rights, Not Olympics'' petition are now 
serving sentences in prison and ``reeducation through labor'' 
(RTL) centers. The government designated special locations or 
``zones'' for public protest during the 2008 Olympic Games, but 
no protests received approval, and the harassment of applicants 
for protest permits has been reported. Authorities also 
harassed legal advocates connected to religion-related cases 
and active in defending religious groups. Such harassment 
intensified in the run-up to and during the 2008 Olympic Games. 
Advocates and rights defenders were placed under 24-hour police 
surveillance during the resumption of the U.S.-China Human 
Rights Dialogue held in Beijing, and also during a visit to 
Beijing by Members of the U.S. Congress. Central and local 
officials also tightened controls over political organizations 
and political party figures affiliated with parties other than 
the ruling Chinese Communist Party. Central authorities took 
steps to quell burgeoning public discussion of the merits of 
eliminating or phasing out the one-child population planning 
policy. Authorities targeted a number of HIV/AIDS and other 
health advocacy organizations, and shut down or removed content 
from their Web sites.

             INSTRUMENTAL USE OF LAW FOR POLITICAL PURPOSES

    Chinese authorities' use of law as an instrument of 
politics continued unabated, and intensified in some areas. 
Provisions in Internet regulations that prohibit content deemed 
``harmful to the honor or interests of the nation'' and 
``disrupting the solidarity of peoples,'' supplied ``legal'' 
justification for the censorship of Internet content deemed 
politically sensitive. The crime of ``inciting subversion of 
state power'' under Article 105, Paragraph 2, of the Criminal 
Law continued to be a principal tool for punishing those who 
peacefully criticized the Chinese government or who advocated 
for human rights on the Internet. Chinese government 
authorities particularly targeted persons who openly tied their 
criticism to China's hosting of the 2008 Olympic Games or 
handling of the Sichuan earthquake. Legal provisions that 
prohibit the incitement of others ``to split the state or 
undermine unity of the country'' (Criminal Law, Article 103) 
have been invoked to punish Tibetans for peaceful expressions 
of support for the Dalai Lama or for their wish for Tibetan 
independence. Possession of a photograph of the Dalai Lama or a 
copy of one of his speeches continued to serve as evidence of 
``splittism.'' National and local measures regulating Tibetan 
Buddhism, and the Regional Ethnic Autonomy Law, prioritize 
fulfillment of government and Party political objectives and 
fail to protect Tibetan culture, language, or religion. 
Pursuant to a 1999 Decision of the National People's Congress 
Standing Committee that established a ban on ``cult 
organizations,'' the Chinese government continued to detain and 
punish Falun Gong practitioners and members of other spiritual 
and religious groups.
    Legal provisions concerning national unity, internal 
security, social order, and the promotion of a ``harmonious 
society'' that were included in new legislation and regulations 
in 2006 and 2007 were invoked in cases of detention and 
imprisonment in the last year. China's legal and judicial 
authorities continued to deny fundamental procedural 
protections (such as access to a lawyer or a public trial) to 
those accused of state security crimes. The number of cases in 
the Xinjiang Uyghur Autonomous Region of state security crimes, 
including cases involving peaceful expression or religious 
practice, remains high. Officials continued to use the charge 
of ``illegal operation of a business'' as a pretext to detain 
or convict individuals who publish religious materials or other 
materials deemed ``sensitive.''
    The Chinese government requires Home Return Permits (HRP) 
for Hong Kong and Macau residents who are Chinese citizens to 
visit the mainland. The Chinese government confiscated the HRPs 
of citizens deemed prone to overstep the limits of ``normal'' 
or ``approved'' activities, and continued to deny the issuance 
of HRPs to 12 pro-democracy members of Hong Kong's Legislative 
Council allegedly for their support of Tiananmen Square 
protesters in 1989 and their criticism of the Chinese 
government. In the past year, authorities confiscated, revoked, 
denied entry, or refused to renew or accept the passport 
applications of several known dissidents, and denied entry to a 
Hong Kong reporter covering the 2008 Olympic Games for a pro-
democracy Chinese-language newspaper.

   INSULATION OF THE CENTRAL LEADERSHIP FROM THE BACKLASH OF POLICY 
                                FAILURE

    One objective of China's new Law on Emergency Response, 
which took effect on November 1, 2007, is to ``prevent minor 
mishaps from turning into major public crises'' according to 
legislators cited in official reports. Shortly after the 
Sichuan earthquake in May, the Supreme People's Court issued a 
Circular titled, ``Completing Trial Work During the Earthquake 
Disaster Relief Period to Earnestly Safeguard Social 
Stability'' instructing courts to ``exercise caution in 
examining and docketing'' cases that are ``socially sensitive'' 
or ``collective'' (e.g., multiple plaintiffs litigating 
collectively), and ``to use mediation to achieve reconciliation 
through the withdrawal of charges to resolve disputes.'' In the 
wake of the earthquake, Party officials directed Chinese media 
and news editors to focus on ``positive'' stories that 
projected national unity and stability, and in the run-up to 
the 2008 Olympic Games ordered the media to avoid ``negative 
stories'' such as those relating to air quality and food safety 
problems.
    Following Tibetan protests this spring, which involved 
thousands of protesters, Chinese authorities repeatedly placed 
blame on the actions of ``a small handful'' of ``rioters'' and 
``unlawful elements.'' The emphasis on ``a small handful,'' 
combined with propaganda that holds the Dalai Lama personally 
accountable for events and developments, appears to be a 
strategy aimed at prompting Chinese citizens to rally around 
the government, and to pre-empt their pressing the government 
to explain the frustration and anger of the large number of 
Tibetan protesters. Authorities have revealed little 
information about the names of Tibetans detained, the charges 
(if any) against them, the locations of courts handling the 
cases, or the location of facilities where protesters have been 
or remain detained or imprisoned. As a result, China's non-
Tibetan citizens are even less likely than before to raise 
questions or complaints about China's Tibet policy.

                 RISING STAKES OF LEGAL REFORM IN CHINA

    In part due to China's increasing engagement with the world 
economy, events within China have had an increasing influence 
on its neighbors and trading partners. Unsafe Chinese exports 
continue to demonstrate the rising stakes of China's relative 
lack of government transparency, its weak legal institutions, 
and the Chinese government's failure to enforce its own product 
safety laws. China's global reach also affords the government 
an array of levers through which to reward overseas entities 
who support or remain silent on domestic Chinese human rights 
abuses, while penalizing those who criticize the Chinese 
government's practices. China's actions related to Darfur, 
Sudan, may be understood, at least in part, in this context.
    Government and Party rhetoric warning against foreign 
influence became more strident in the last year. The Commission 
also observed detentions of ethnic minority citizens active in 
international arenas or perceived to have ties with overseas 
groups. In the past year, authorities targeted some Chinese 
religious adherents with ties to foreign co-religionists for 
harassment, detention, and other abuses. In the region along 
China's border with North Korea, authorities reportedly shut 
down churches found to have ties with South Koreans or other 
foreign nationals.
    The rising stakes of legal reform also became increasingly 
evident in the non-governmental organization (NGO) sector over 
the last year. China's new Corporate Income Tax Law, which took 
effect on January 1, 2008, encourages public and corporate 
charitable donations through the provision of tax benefits. 
Increases in corporate donations and support for NGO activities 
in the wake of this year's earthquake in Sichuan may have been 
attributable in part to these provisions. The majority of NGOs 
in China, however, regardless of their registration status, 
cannot engage in fundraising activities because charity-related 
laws only allow a small number of government-approved 
foundations to collect and distribute donations. This 
restriction posed significant challenges for the provision of 
victims' support services in the aftermath of the May Sichuan 
earthquake, when unprecedented donations overwhelmed the 
government. China also is an origin, transit, and destination 
country for human trafficking. Chinese trafficking victims can 
be found in Europe, Africa, Latin America, Northeast Asia, and 
North America. Trafficking victims from Southeast Asia, the 
Russian Far East, Mongolia, and North Korea are trafficked to 
China, where victims are much in need of support services. The 
small number of government-approved foundations and the limited 
capacity to manage funds continued to impact the availability 
of victims' support and social services.
    Even as the Commission highlights these areas of concern, 
China over the past year has outlined a number of laws and 
regulations that have the potential to produce positive results 
if central and local government departments and Party officials 
prove their ability and willingness to implement them 
faithfully. Developments in areas such as anti-monopoly, open 
government information, collective contracting, employment 
promotion, regulation of the legal profession, and intellectual 
property, among others, are reported in detail in the pages 
that follow. The past year also marked the first time that 
Chinese courts mandated criminal punishment in a sexual 
harassment case, and issued a civil protection order in a 
divorce case involving domestic violence. And, as the 
Commission 
reported last year, the resumption of the Supreme People's 
Court's review of death penalty sentences was a significant 
development for China's criminal justice system. Since January 
1, 2007, when the death penalty reform took effect, the Chinese 
government has reported a 30-percent decrease in the number of 
death sentences. The Commission will continue to monitor the 
effectiveness of China's implementation of the rule of law and 
human rights in the year ahead.

The Commission's Executive Branch members have participated in 
and supported the work of the Commission. The content of this 
Annual Report, including its findings, views, and 
recommendations, does not necessarily reflect the views of 
individual Executive Branch members or the policies of the 
Administration.

                I. Executive Summary and Recommendations


            Findings and Recommendations by Substantive Area

    A summary of findings for the last year follows below for 
each area that the Commission monitors. In each area, the 
Commission has identified a set of specific findings that merit 
attention over the next year, and, in accordance with the 
Commission's mandate, a set of recommendations to the President 
and the Congress for legislative or executive action.

               RIGHTS OF CRIMINAL SUSPECTS AND DEFENDANTS

                                Findings

        <bullet> The rights of criminal suspects and defendants 
        continued to fall far short of the rights guaranteed in 
        the Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights, 
        as well as rights provided for under China's Criminal 
        Procedure Law (CPL) and Constitution.
        <bullet> The Lawyers' Law was revised to enhance the 
        rights of criminal defense lawyers, but some provisions 
        in the revised law conflict with the Criminal Procedure 
        Law.
        <bullet> Since the Supreme People's Court (SPC) 
        reclaimed its authority to review death penalty 
        sentences as of January 1, 2007, the SPC has overturned 
        15 percent of all death sentences handed down by lower 
        courts (through the first half of 2008). During 2007, 
        30 percent fewer death sentences were reportedly meted 
        out, compared with the number of death sentences in 
        2006. The number of executions carried out annually 
        remains a state secret, however.
        <bullet> Chinese authorities continued to imprison 
        individuals who were sentenced for political crimes, 
        including ``counter-revolutionary'' crimes that no 
        longer exist under the current Criminal Law. 
        Individuals involved in the 1989 democracy protests are 
        still being held in prisons in China.
        <bullet> Misuse of police power and arbitrary detention 
        remain serious problems. Police officers illegally 
        monitored and subjected to arbitrary ``house arrest'' 
        human rights lawyers and other advocates in Beijing and 
        elsewhere in connection with the 2008 Beijing Olympic 
        Games.
        <bullet> Local officials continued to abuse police 
        power to suppress public protests. Following numerous 
        clashes between police and civilians, the central 
        government promulgated new rules that hold local 
        officials responsible for misusing police power in 
        ``mass incidents'' and for mishandling grievances.

                            Recommendations

          Sponsor technical assistance programs to support 
        judicial reform and revisions to the Criminal Procedure 
        Law and to ensure their effective implementation, with 
        the aim of bringing China's criminal justice system 
        into conformance with the standards set forth in the 
        International Covenant on Civil and Political Rights.
          Press the Chinese government to amend state secrets 
        laws and related regulations that prohibit making 
        public the number of executions carried out in China, 
        and to implement such provisions effectively.
          Continue to call on the Chinese government to release 
        those prisoners still in prison for 
        counterrevolutionary and other 
        political crimes, including those imprisoned for their 
        involvement in the 1989 democracy protests, as well as 
        other prisoners included in this report and in the 
        Commission's Political Prisoner Database.

                             WORKER RIGHTS

                                Findings

        <bullet> Workers in China still are not guaranteed 
        either in law or in practice full worker rights in 
        accordance with international standards. China's laws, 
        regulations, and governing practices continue to deny 
        workers fundamental rights, including, but not limited 
        to, the right to organize into independent unions. 
        Workers who tried to establish independent associations 
        or organize demonstrations continue to risk harassment, 
        detention, and other abuses. Residency restrictions 
        continue to present hardships for workers who migrate 
        for jobs to urban areas. Tight controls over civil 
        society organizations hinder the ability of citizen 
        groups to champion worker rights.
        <bullet> Labor disputes and protests intensified during 
        2008. Management's failure to pay wage arrears, 
        overtime, severance pay, or social security 
        contributions, were the most common causes. Social and 
        economic changes, weak legislative frameworks, and 
        ineffective or selective enforcement continue to 
        engender abuses ranging from forced labor and child 
        labor, to violations of health and safety standards, 
        wage arrearages, and loss of job benefits.
        <bullet> The discovery of an extensive forced labor 
        network in Guangdong province this year revealed 
        authorities' inability to enforce basic protections for 
        workers against China's powerfully embedded labor 
        trafficking networks.
        <bullet> Three major national labor-related laws took 
        effect this year: Labor Contract Law and new Employment 
        Promotion Law took effect on January 1, 2008, and 
        China's new Labor Dispute Mediation and Arbitration Law 
        took effect on May 1, 2008.

                            Recommendations

          Fund multi-year pilot projects that showcase the 
        experience of collective bargaining in action for both 
        Chinese workers and All China Federation of Trade Union 
        (ACFTU) officials. Where possible, prioritize programs 
        that demonstrate the ability to conduct collective 
        bargaining pilot projects even in factories that do not 
        have an official union presence.
          Expand multi-year funding for conferences in China on 
        collective bargaining that bring together worker 
        representatives, labor rights NGO representatives, 
        labor lawyers, academics, ACFTU officials, and 
        government officials.
          Support the production and distribution in various 
        formats (print, online, video, etc.) of bilingual 
        English-Chinese ``how-to'' materials on conducting 
        elections of worker representatives, and on conducting 
        collective bargaining.
          Fund projects that prioritize the large-scale 
        compilation and analysis of Chinese labor dispute 
        litigation and arbitration cases, leading ultimately to 
        the publication and dissemination of bilingual English-
        Chinese casebooks that may be used as a common 
        reference resource by workers, arbitrators, judges, 
        lawyers, employers, unions, and law schools in China.
          Support capacity building programs to strengthen 
        Chinese labor and legal aid organizations involved in 
        defending the rights of workers.

                         FREEDOM OF EXPRESSION

                                Findings

        <bullet> The Chinese government and Communist Party 
        continued to deny Chinese citizens the ability to fully 
        exercise their rights to free expression.
        <bullet> The government and Party's efforts to project 
        a ``positive'' image before and during the 2008 Beijing 
        Summer Olympic Games were accompanied by increases in 
        the frequency and extent of official violations of the 
        right to free expression.
        <bullet> Official censorship and manipulation of the 
        press and Internet for political purposes intensified 
        in connection with both Tibetan protests that began in 
        March 2008 and the Olympics.
        <bullet>  Chinese officials failed to fully implement 
        legal provisions granting press freedom to foreign 
        reporters in accordance with agreements made as a 
        condition of hosting the Olympics, and which the 
        International Olympic Committee requires of all Olympic 
        host cities.
        <bullet> The government and Party continued to deny 
        Chinese citizens the ability to speak to journalists 
        without fear of intimidation or reprisal.
        <bullet> Officials continued to use vague laws to 
        punish journalists, writers, rights advocates, 
        publishers, and others for peacefully exercising their 
        right to free expression. Those who criticized China in 
        the context of the Olympics were targeted more 
        intensely. Restraints on publishing remained in place.
        <bullet> Authorities responsible for implementing a new 
        national 
        regulation on open government information retained 
        broad discretion on the release of government 
        information. Open government information measures 
        enabled officials to promote images of openness, and 
        quickly to provide official versions of events, while 
        officials maintained the ability at the same time to 
        censor unauthorized accounts.

                            Recommendations

          Support Federal funding for the study of press and 
        Internet censorship methods, practices, and capacities 
        in China. Promote programs that offer Chinese citizens 
        access to human rights-related and other information 
        currently unavailable to them. Sponsor programs that 
        disseminate through radio, television, or the Internet 
        Chinese-language ``how-to'' information and programming 
        on the use by citizens of open government information 
        provisions on the books.
          Support the development of ``how-to'' materials for 
        U.S. citizens, companies, and organizations in China on 
        the use of the Regulations on Open Government 
        Information and other records-access provisions in 
        Chinese central and local-level laws and regulations. 
        Support development of materials that provide guidance 
        to U.S. companies in China on how the Chinese 
        government may require them to support restrictions on 
        freedom of expression and best practices to minimize or 
        avoid such risks.
          In official correspondence with Chinese counterparts, 
        include statements calling for the release of political 
        prisoners named in this report who have been punished 
        for peaceful expression, including: Yang Chunlin (land 
        rights activist sentenced to five years' imprisonment 
        in March 2008 after organizing a ``We Want Human 
        Rights, Not Olympics'' petition); Yang Maodong (legal 
        activist and writer whose pen name is Guo Feixiong, 
        sentenced to five years' imprisonment in November 2007 
        for unauthorized publishing); Lu Gengsong (writer 
        sentenced to four years' imprisonment in February 2008 
        for his online criticism of the Chinese government); 
        and other prisoners included in this report and in the 
        Commission's Political Prisoner Database.

                          FREEDOM OF RELIGION

                                Findings

        <bullet> The Chinese government and Communist Party 
        continued to deny Chinese citizens the ability to fully 
        exercise their right to freedom of religion. The 
        Chinese government continued in the past year to 
        subject religion to a strict regulatory framework that 
        represses many forms of religious and spiritual 
        activities protected under international human rights 
        law, including in treaties China has signed or 
        ratified. The Chinese government continued its policy 
        of recognizing only select religious communities for 
        limited state protections, and of not protecting the 
        religious and spiritual activities of all individuals 
        and communities within China as required under China's 
        international legal obligations.
        <bullet> Religious adherents remained subject to tight 
        controls over their religious activities, and some 
        citizens met with harassment, detention, imprisonment, 
        and other abuses because of their religious or 
        spiritual practices.
        <bullet> The Chinese government and Communist Party 
        sounded alarms against foreign ``infiltration'' in the 
        name of religion, and took measures to hinder citizens' 
        freedom to engage with foreign co-religionists.
        <bullet> President and Party General Secretary Hu 
        Jintao called for recognizing a ``positive role'' for 
        religious communities within Chinese society, but 
        officials also continued to affirm the government and 
        Party's policy of control over religion.
        <bullet> The central government's ``6-10 Office'' 
        (established in 1999 to implement the policy that 
        outlaws Falun Gong) issued an internal directive to 
        local governments nationwide mandating propaganda 
        activities to prevent Falun Gong from ``interfering 
        with or harming'' the 2008 Beijing Olympic Games. 
        Beijing and Shanghai Public Security Bureaus also 
        issued local directives providing rewards for 
        informants who report Falun Gong activities to the 
        police. Stories published in the state-controlled 
        media, as well as statements made by Chinese officials, 
        sought to link Falun Gong with terrorist threats in the 
        lead-up to the Olympics.

                            Recommendations

          Include in China-related legislation and statements, 
        calls for the Chinese government to guarantee freedom 
        of religion to all Chinese citizens in accordance with 
        Article 18 of the Universal Declaration of Human 
        Rights.
          Call for the release of Chinese citizens confined, 
        detained, or imprisoned in retaliation for pursuing 
        their right to freedom of religion (including the right 
        to hold and exercise spiritual beliefs). Such prisoners 
        include Adil Qarim (imam in Xinjiang detained during a 
        security roundup in August); Alimjan Himit (house 
        church leader in detention on charges of subverting 
        state power and endangering national security); Gong 
        Shengliang (founder of unregistered church who 
        continues to serve a life sentence); Jia Zhiguo 
        (unregistered bishop repeatedly detained by Chinese 
        authorities and confined to his home since his most 
        recent release from detention on September 18, 2008); 
        Phurbu Tsering (Tibetan Buddhist teacher and head of a 
        Tibetan Buddhist nunnery whom authorities detained in 
        May 2008); Wang Zhiwen (Falun Gong practitioner who 
        continues to serve a 16-year sentence for alleged 
        crimes related to cults and acquiring state secrets); 
        and other prisoners included in this report and in the 
        Commission's Political Prisoner Database.
          Support continued funding for non-governmental 
        organizations that collect information on conditions 
        for religious freedom in China and that inform Chinese 
        citizens of how to defend their right to freedom of 
        religion against Chinese government abuses. Encourage 
        U.S. government-funded programs to orient priorities 
        toward expanded coverage of different religious and 
        spiritual communities within China.

                         ETHNIC MINORITY RIGHTS

                                Findings

        <bullet> Authorities continued to repress citizen 
        activism by ethnic minorities in China, especially 
        within Tibetan areas of China, the Xinjiang Uyghur 
        Autonomous Region, and the Inner Mongolia Autonomous 
        Region (IMAR). [See findings for Xinjiang and Tibet for 
        additional information.] In the past year, authorities 
        in the IMAR punished ethnic minority rights advocates 
        as well as citizens perceived to have links with ethnic 
        rights organizations, intensifying a trend noted by the 
        Commission in 2007.
        <bullet> The government reported taking steps in the 
        past year to improve economic and social conditions for 
        ethnic minorities. It remains unclear whether such 
        measures have been effectively implemented and include 
        safeguards to protect ethnic minority rights and to 
        solicit input from local communities. Ongoing 
        development efforts in ethnic minority areas have 
        brought mixed results for ethnic minority communities.
        <bullet> The Chinese government continued in the past 
        year to 
        protect some aspects of ethnic minority rights. 
        However, shortcomings in both the substance and the 
        implementation of Chinese ethnic minority policies 
        prevented ethnic minority citizens from enjoying their 
        rights in line with domestic Chinese law and 
        international legal standards. Ethnic minority citizens 
        of China do not enjoy the ``right to administer their 
        internal affairs'' as guaranteed to them in Chinese 
        law.

                            Recommendations

          China-related legislation should include language 
        that calls on Chinese authorities to formulate and 
        implement China's ethnic minority autonomy system in a 
        manner that respects ethnic minorities' ``right to 
        administer their internal affairs'' as guaranteed to 
        them in Chinese law.
          Call for the release of citizens imprisoned for 
        advocating ethnic minority rights, including Mongol 
        activist Hada (serving a 15-year sentence after 
        pursuing activities to promote ethnic minority rights 
        and democracy), as well as other prisoners mentioned in 
        this report and in the Commission's Political Prisoner 
        Database.
          Fund rule of law programs and exchanges that raise 
        awareness among Chinese leaders of different models for 
        governance that protect ethnic minorities' rights and 
        allow them to exercise meaningful autonomy over their 
        affairs. Support funding for non-governmental 
        organizations to continue or develop programs that 
        address ethnic minority issues within China, including 
        task-oriented training programs that build capacity for 
        sustainable development among ethnic minorities and 
        programs that research rights abuses in the Inner 
        Mongolia 
        Autonomous Region, as well as in other regions. (Also 
        see recommendations for Tibet and Xinjiang.)
          Support funding for programs at U.S. universities to 
        teach ethnic minority languages used in China, to 
        better preserve these languages as the Chinese 
        government implements programs to strengthen the use of 
        Mandarin within China and to better prepare the 
        international community to study and understand 
        conditions for ethnic minorities in China.

                          POPULATION PLANNING

                                Findings

        <bullet> The Chinese government announced that parents 
        who lost an only child in the May 2008 Sichuan 
        earthquake would be permitted to have another child if 
        they applied for a government-issued certificate.
        <bullet> The National Population and Family Planning 
        Commission (NPFPC) issued a directive imposing higher 
        ``social compensation fees'' levied according to income 
        on couples who violate the one-child rule. Under the 
        directive, urban families who violate the one-child 
        rule risk having officials apply negative marks on 
        financial credit records.
        <bullet> Reports of forced abortions, forced 
        sterilizations, and police beatings related to 
        population planning policies continued. In some areas, 
        government campaigns to forcibly sterilize women who 
        have more than one female child included government 
        payments to informants.
        <bullet> A brief public discussion about the continued 
        necessity of the one-child policy reportedly prompted 
        the NPFPC Minister to issue a statement that China 
        would ``by no means waver'' in its population planning 
        policies for ``at least the next decade.''

                            Recommendations

          Urge Chinese officials to cease all coercive 
        measures, including forced abortion and sterilization, 
        to enforce birth control quotas. Urge the Chinese 
        government to dismantle its system of coercive 
        population controls, while funding programs that inform 
        Chinese officials of the importance of respecting 
        citizens' diverse beliefs.
          Urge Chinese officials to release promptly Chen 
        Guangcheng, imprisoned in Linyi city, Shandong 
        province, after exposing forced sterilizations, forced 
        abortions, beatings, and other abuses carried out by 
        Linyi population planning officials.
          Encourage Chinese officials to permit greater public 
        discussion and debate concerning population planning 
        policies and to demonstrate greater responsiveness to 
        public concerns. Impress upon China's leaders the 
        importance of promoting legal aid and training programs 
        that help citizens pursue compensation and other 
        remedies against the state for injury suffered as a 
        result of official abuse related to China's population 
        planning policies. Provisions in China's Law on State 
        Compensation provide for such remedies for citizens 
        subject to abuse and personal injury by administrative 
        officials, including population planning officials. 
        Provide funding and support for the development of 
        programs and international cooperation in this area.

                          FREEDOM OF RESIDENCE

                                Findings

        <bullet> China's household registration (hukou) system 
        remains as a foundation for discrimination and the 
        violation of the rights of rural migrants in urban 
        areas. In security preparations for the 2008 Beijing 
        Summer Olympic Games, officials throughout the country 
        intensified inspections of migrants' hukou status. The 
        rights of migrants without legal residency status were 
        placed at increased risk, especially in urban areas 
        where employment and social benefits are linked to 
        hukou status.
        <bullet> Recent hukou reforms have relaxed restrictions 
        on citizens' choice of permanent place of residence, 
        but implementation at the local level has been uneven. 
        Jiangsu and Yunnan provinces and Shenzhen city 
        implemented major hukou reforms. Fiscal pressure 
        associated with the provision of services to rising 
        numbers of hukou holders prompted Zhuhai city to 
        suspend its hukou application process.

                            Recommendations

          Initiate a program of U.S.-China bilateral 
        cooperation that revives sister-city and sister-state/
        province exchanges as a vehicle for the discussion of 
        ideas on migrant issues among local officials. Engage 
        in international dialogue on migration and hukou reform 
        to develop effective models for China's reform efforts.
          Enlist the support of the business community in 
        encouraging measures to equalize citizens' ability to 
        change their residence, and to eliminate outstanding 
        rules that link hukou status to access to public 
        services like healthcare and education. Recognize as 
        good corporate citizens U.S. businesses in China with 
        corporate social responsibility programs that address 
        migrant issues in meaningful ways (e.g., awareness 
        campaigns to eliminate discrimination against migrants 
        and their children, and to reduce migrants' 
        vulnerability to exploitation).

                          LIBERTY OF MOVEMENT

                                Findings

        <bullet> China strictly controlled citizens' movement 
        between the mainland and the special administrative 
        regions (SAR) of Hong Kong and Macau. Officials used 
        the granting and denial of ``Home Return Permits'' to 
        limit access to the mainland by SAR-based pro-democracy 
        activists.
        <bullet> The use of extralegal house arrest to control 
        or punish religious adherents, activists, or rights 
        defenders deemed to act outside approved parameters 
        intensified during the past year.
        <bullet> Chinese authorities continued to use arbitrary 
        restrictions on individual liberty of movement for 
        retaliatory purposes. Authorities placed the family 
        members of rights advocates under house arrest in 
        retaliation for their advocacy activities.
        <bullet> In the past year, authorities confiscated, 
        revoked, denied entry, or refused to renew or accept 
        the passport applications of several known dissidents.

                            Recommendations

          Call for China's granting Home Return Permits to Hong 
        Kong- and Macau-based Chinese advocates.
          In press statements, letters, and town hall meetings, 
        spotlight the issue of arbitrary restrictions on 
        individual liberty of movement, including limitations 
        on Yuan Weijing and Zeng Jinyan, who have been under 
        house arrest because of their spouses' activism.
          Urge Chinese officials to consider passport renewals 
        of dissidents and raise the issue of arbitrary denial 
        of entry.

                            STATUS OF WOMEN

                                Findings

        <bullet> Women continued to encounter gender-based 
        discrimination, especially with respect to their 
        exercise of land and property rights, and when 
        attempting to access benefits associated with their 
        village hukous (household registration). Chinese women, 
        especially migrant, impoverished, and ethnic minority 
        women, continue to be unaware of their legal options 
        when their rights are violated.
        <bullet> Coercive population planning policies remain 
        in place in violation of internationally recognized 
        human rights.
        <bullet> This year marked the first time that a Chinese 
        court mandated criminal punishment in a sexual 
        harassment case. A Chinese court this year issued the 
        first civil protection order in a divorce case 
        involving domestic violence.
        <bullet> Women have the right to vote and run in 
        village committee elections, but continue to occupy a 
        disproportionately low number of seats, Communist Party 
        posts, government offices, and positions of significant 
        power.
        <bullet> Reliable statistical information and other 
        data that are disaggregated by sex and region are 
        insufficient, posing challenges for Chinese women's 
        rights advocacy organizations seeking to assess the 
        effectiveness with which the Communist Party and 
        government policies designed to help women are 
        implemented.

                            Recommendations

          Initiate new bilateral exchanges between U.S. and 
        Chinese law enforcement, judicial officials, and civil 
        society organizations geared toward expanding 
        comprehensive social services for women, including 
        literacy programs that focus on combating illiteracy 
        among women, longer-term options for sheltering 
        domestic violence survivors, and psychological 
        counseling and suicide prevention programs, especially 
        in rural areas.
          Urge Chinese counterparts to support initiatives that 
        help raise public awareness of women's issues and 
        rights, especially as they affect migrant women, women 
        from rural communities, and ethnic minority women.
          Fund non-governmental organizations that provide 
        training to independent Chinese groups that in turn 
        train legal officials and social service providers in 
        women's issues and rights, work on domestic violence 
        and sexual harassment issues, and that strengthen 
        collection and publication of data on issues affecting 
        women.

                           HUMAN TRAFFICKING

                                Findings

        <bullet> The Chinese government lacks a comprehensive 
        anti-trafficking policy to combat all forms of 
        trafficking. The government's definition of trafficking 
        is narrow, and focuses on the abduction and selling of 
        women and children. The National Plan of Action on 
        Combating Trafficking in Women and Children (2008-
        2012), released in December 2007, neglects male adults, 
        who are often targeted for forced labor.
        <bullet> The Chinese government has not fulfilled its 
        counter-trafficking-related international obligations, 
        and has obstructed the independent operation of non-
        governmental and international organizations that offer 
        assistance on trafficking issues.
        <bullet> Incidents this year involving child labor in 
        Guangdong province and forced labor in Heilongjiang 
        reflect legal and administrative weaknesses in China's 
        anti-trafficking enforcement.

                            Recommendations

          Urge Chinese government officials to sign and ratify 
        the Trafficking in Persons Protocol, to revise the 
        government's definition of trafficking and reform its 
        anti-trafficking laws to align with international 
        standards, and to abide by its international 
        obligations with regard to North Korean refugees who 
        become trafficking victims.
          Encourage Chinese embassy officials in the United 
        States to better protect Chinese citizens who have been 
        trafficked here by issuing the necessary travel 
        documents and other documentation to trafficking 
        victims in a timely manner.
          Fund research on trafficking-related issues in China, 
        including the interplay between population planning 
        policies, trafficking, and adoption.
          Support bilateral exchanges between U.S. and Chinese 
        law enforcement officials and civil society 
        organizations that work on trafficking.

                     NORTH KOREAN REFUGEES IN CHINA

                                Findings

        <bullet> In the lead-up to the 2008 Beijing Summer 
        Olympic Games, Chinese central and local authorities 
        stepped up efforts to locate and forcibly repatriate 
        North Korean refugees hiding in China. Border 
        surveillance and crackdowns against refugees and the 
        ethnic Korean citizens of China who harbored them 
        intensified.
        <bullet> Penalties for harboring North Korean refugees 
        reportedly were increased, including higher fines. 
        Searches by public security officials of the homes of 
        ethnic Koreans living in villages and towns near the 
        border intensified.
        <bullet> The central government ordered provincial 
        religious affairs bureaus to investigate religious 
        communities for signs of involvement with foreign co-
        religionists. Churches in the Yanbian Korean Autonomous 
        Prefecture in Jilin province that were found to have 
        ties to South Koreans or other foreign nationals were 
        shut down.
        <bullet> Chinese local authorities near the border with 
        North Korea continued to deny access to education and 
        other public goods for the children of North Korean 
        women married to Chinese citizens. Chinese government 
        officials contravened guarantees under the PRC 
        Nationality Law (Article 4) and Compulsory Education 
        Law (Article 5) by refusing to register the children of 
        these couples to their father's hukou (household 
        registration) without proof of the mother's status.

                            Recommendations

          Establish a task force to examine and support the 
        efforts of the United Nations High Commissioner for 
        Refugees to gain unfettered access to North Korean 
        refugees in China, and to recommend a strategy for 
        creating incentives for China to honor its obligations 
        under the 1951 UN Convention Relating to the Status of 
        Refugees and its 1967 Protocol by desisting from the 
        forced repatriation of North Korean refugees, and 
        terminating the policy of automatically classifying all 
        undocumented North Korean border crossers as ``illegal 
        economic migrants.''
          Support U.S. Government legal cooperation funding 
        with China to assist with the drafting of national 
        refugee regulations that provide formal and transparent 
        procedures for the review of North Korean claims to 
        refugee status.

                             PUBLIC HEALTH

                                Findings

        <bullet> China's Minister of Health stated for the 
        first time that all persons have the right to basic 
        healthcare regardless of age, gender, occupation, 
        economic status, or place of residence.
        <bullet> The effectiveness of central government 
        policies to combat the spread of HIV/AIDS remained 
        limited by Chinese leaders' concerns over uncontrolled 
        citizen activism and foreign-affiliated non-
        governmental organizations.
        <bullet> Discrimination against persons with Hepatitis 
        B Virus (HBV) remained widespread.
        <bullet> HBV carriers, many with the assistance of 
        legal advocacy groups, brought employment 
        discrimination lawsuits under anti-discrimination 
        provisions in China's new Employment Promotion Law that 
        took effect this year. The first such case 
        resulted in a court-ordered settlement and damage 
        award.
        <bullet> China's first employment discrimination case 
        involving mental depression resulted in a damage award 
        and reinstatement of employment.

                            Recommendations

          Call on the Chinese government to ease restrictions 
        on civil society groups and provide more support to 
        U.S. organizations that address HIV/AIDS and HBV. A 
        robust civil society is critical to achieving the 
        government's goal of prevention and treatment of HIV/
        AIDS and HBV.
          Urge Chinese officials to focus attention on 
        effective implementation of the Employment Promotion 
        Law and related regulations which prohibit 
        discrimination against persons living with HIV/AIDS, 
        HBV, and other illnesses in hiring and in the 
        workplace.

                              ENVIRONMENT

                                Findings

        <bullet> Experts encountered difficulties accessing 
        information on pollutants and in charting Beijing's 
        progress toward achieving its environment-related 
        Olympic bid commitments.
        <bullet> The structure of incentives at the local level 
        in China does not encourage action in favor of greater 
        environmental protection. Penalties for violations 
        remain low, and enforcement 
        capacity remains insufficient.
        <bullet> As the central government issues legislative 
        and regulatory measures aimed at reducing greenhouse 
        gases, implementation and enforcement at the local 
        level remains a challenge. According to a study 
        released in October 2008 by the Chinese Academy of 
        Sciences, China's emissions of greenhouse gases could 
        double in the next two decades.
        <bullet> Concerns over environmental degradation and 
        the government's perceived lack of transparency and 
        solicitation of public input have sparked protests in 
        major urban centers. Environmental protesters in urban 
        areas tended to organize protests through the Internet 
        and other forms of electronic communication. Urban 
        protests were relatively peaceful.
        <bullet> Environmental protests in rural areas more 
        frequently involved violent clashes with public 
        security officers.

                            Recommendations

          Support technical assistance programs aimed at 
        enhancing public participation in environmental impact 
        hearings and improving the ability of environmental 
        protection bureaus to respond to information requests 
        from citizens under new open government information 
        regulations.
          When arranging travel to China, request meetings with 
        officials from the central government to discuss 
        environmental governance best practices. In those 
        meetings, emphasize the importance of enhancing the 
        capacity and power of the Ministry of Environmental 
        Protection (MEP) by providing it with more staff and 
        resources and shifting control of local environmental 
        protection bureaus from local governments to the MEP.
           Encourage bilateral and exchange programs to 
        identify and catalogue the sources and amount of 
        greenhouse gas emissions. Expand support for the U.S. 
        EPA-China Environmental Law Initiative and for 
        bilateral exchange programs relating to environmental 
        protection and governance.
          Call attention to China's practice of criminally 
        punishing citizens who peacefully disseminate 
        information relating to environmental hazards and 
        emergencies. Urge Chinese officials to release 
        freelance writer Chen Daojun, who was detained on 
        suspicion of ``inciting splittism'' under Article 103 
        of the Criminal Law, after he published an article on a 
        foreign Web site calling for a halt in construction of 
        a chemical plant near Chengdu, citing environmental 
        concerns. Also urge Chinese officials to release other 
        environmental activists including those whose cases are 
        described in the Commission's Political Prisoner 
        Database.
          Encourage legal assistance programs aimed to create 
        incentives for government and business to build 
        partnerships that reduce greenhouse gas emissions by 
        deploying renewable energy and developing next 
        generation low carbon technologies. Encourage bilateral 
        cooperation and exchange programs whereby both the 
        United States and China work to develop a roadmap for 
        reducing emissions that is acceptable to both developed 
        and developing countries.

                             CIVIL SOCIETY

                                Findings

        <bullet> There were 387,000 registered civil society 
        organizations (CSOs) in China, including 3,259 legal 
        aid organizations, by the end of 2007, up from 354,000 
        in 2006 and 154,000 in 2000.
        <bullet> Chinese authorities strengthened control over 
        civil society and non-governmental organizations 
        (NGOs), especially in the run-up to the 2008 Beijing 
        Summer Olympic Games.
        <bullet> China has an urgent need for legal reform in 
        the non-profit sector, including in the management and 
        registration of NGOs, in the regulation of charitable 
        activities and donations, and in the provision of 
        social services to victims of human trafficking, forced 
        labor, and natural disasters. These needs became more 
        pronounced following the discovery last spring of 
        another extensive forced labor network in Guangdong 
        province, and after the May Sichuan earthquake.
        <bullet> The Corporate Income Tax Law, effective on 
        January 1, 2008, encourages public and corporate 
        charitable donations through the provision of tax 
        benefits. Corporate donations and support for NGO 
        activities increased during this year.

                            Recommendations

          Facilitate dialogue and consultation among Chinese 
        officials, NGOs, and rights advocates. Increase 
        exchanges between NGO leaders from the United States 
        and China, and bolster program funding to support civil 
        society development and capacity building in China.
          Encourage U.S. companies operating in China to make 
        in-kind pro bono contributions to the NGO sector (e.g., 
        by reserving places for representatives of Chinese NGOs 
        to participate free of charge in corporate training 
        programs in China that provide organizational and 
        management skills).

                 INSTITUTIONS OF DEMOCRATIC GOVERNANCE

                                Findings

        <bullet> The direct election of government officials by 
        non-Party members remained rare, the range of positions 
        filled through elections narrow in scope and strictly 
        confined to the local level, and mostly in villages.
        <bullet> Some localities implemented a new pilot 
        project called ``open recommendations, direct 
        elections.'' According to this model of local Party 
        leadership election, the general public participates 
        during the candidate nomination stage only. All local 
        Party members--not just officials--may participate in 
        the final casting of ballots.
        <bullet> Local leaders in Shenzhen proposed making the 
        city a ``special political zone'' for the trial of 
        political reforms. The Shenzhen Municipal Party 
        Committee approved a plan for electoral and governance 
        reform.
        <bullet> The 17th Party Congress in October 2007 failed 
        to produce a sustained program of significant political 
        reform. The Party Congress prepared for a likely 
        leadership transition in 2012 and promoted ideas such 
        as ``scientific development'' and ``inner-party 
        democracy.''

                            Recommendations

          Support research on recent efforts in China's Special 
        Economic Zones to expand experimentation with 
        democratic models of public participation in local 
        policymaking.
          Press Chinese officials to revive and expand 
        engagement with international NGOs specializing in 
        election monitoring.

                         COMMERCIAL RULE OF LAW

                                Findings

        <bullet> China continues to deviate in both law and 
        practice from World Trade Organization (WTO) norms and 
        other international economic norms. In a dispute 
        concerning China's legal and administrative measures 
        affecting imports of auto parts, the WTO Dispute 
        Resolution Body (DSB) ruled against China, in China's 
        first legal defeat since its accession to the WTO. In 
        two WTO dispute cases brought against China by the 
        United States and Mexico pertaining to Chinese export 
        and import substitution subsidies prohibited by WTO 
        rules, China agreed in settlements with both countries 
        to eliminate the subsidies.
        <bullet> China's new Anti-Monopoly Law, which took 
        effect in August 2008, may have a significant impact on 
        the development of commercial rule of law in China, if 
        it can be transparently and fairly implemented.
        <bullet> China's new National Intellectual Property 
        Strategy does not fully specify plans to address well-
        documented deficiencies in China's institutions for 
        intellectual property rights (IPR) enforcement.
        <bullet> Local governments in China are applying the 
        rhetoric and tools of IPR protection to traditional 
        knowledge possessed by China's ethnic minority groups, 
        but it remains unclear whether China's legal and 
        administrative institutions provide ways to accomplish 
        this in a manner that protects the rights of ethnic 
        minorities.
        <bullet> A food safety crisis in September 2008 
        involving tainted milk powder illustrated the 
        ineffectiveness of China's ``Special War'' on product 
        quality, declared in August 2007. China's food safety 
        and product quality problems do not stem from a failure 
        to legislate on the issue, but rather from duplicative 
        legislation and ineffective implementation.
        <bullet> New Land Registration Measures implement 
        China's Property Law in part by addressing a deficiency 
        in China's ``dual registration system'' for land and 
        buildings, and consolidating the registration of both 
        land and buildings under a single local government 
        entity.

                            Recommendations

          Convey to the Chinese government that international 
        criticism of China continues because, in spite of what 
        the Chinese government has written into its laws and 
        regulations, China's leaders in practice have failed to 
        abide by their commitments, including commitments to 
        WTO and other international economic norms, to worker 
        rights, and to the free flow of information on which 
        further development of the commercial rule of law 
        depends.
          Convey to the Chinese government that rapid 
        production of new legislation by itself is not a sign 
        of progress. Rather, new and existing laws and 
        regulations must be coupled with consistent, 
        transparent, and effective implementation that meets 
        international standards and protects individuals' 
        fundamental rights. Failure to do so risks undermining 
        even well-intended law, no matter how well-crafted on 
        paper, and diminishes not only the credibility of 
        China's stated commitments to reform but also the 
        integrity of China's legal and regulatory institutions. 
        Convey to the Chinese government that China's repeated 
        failure to live up to its international commitments has 
        seriously damaged its credibility.
          Convey to the Chinese government that its 
        increasingly significant role in the international 
        community also requires an increasing respect for and 
        enforcement of its commitments to that community. 
        Monitoring China's compliance with its commitments to 
        the international community is not meddling, but rather 
        is in the interests of all members of the international 
        community.

                           ACCESS TO JUSTICE

                                Findings

        <bullet> The intimidation and harassment of lawyers by 
        government and Party officials in China intensified 
        during the past year. Lawyers were pressured not to 
        take on politically sensitive cases, including the 
        representation of Tibetans charged with crimes in 
        connection with the March protests and parents seeking 
        compensation for injuries their children sustained from 
        drinking melamine-tainted milk. The authorities refused 
        to renew the lawyers' license of renowned human rights 
        lawyer Teng Biao for his involvement in the effort to 
        represent the Tibetans and his work on other human 
        rights cases.
        <bullet> Stronger Communist Party control over the 
        judiciary was evident during this past year, reflected 
        by the election as president of the Supreme People's 
        Court of Wang Shengjun, who rose to power through the 
        public security and political-legal committee systems. 
        President Hu Jintao instructed the courts, police, and 
        procuratorates to uphold the ``three supremes''--the 
        Party's cause, the people's interests, and the 
        Constitution and laws.

                            Recommendations

          Support funding for technical assistance programs on 
        best practices in structuring independent lawyers' 
        associations and self-governance of the bar.

                                XINJIANG

                                Findings

        <bullet> Human rights abuses in the Xinjiang Uyghur 
        Autonomous Region (XUAR) remained severe, and 
        repression increased in the past year. Authorities 
        tightened repression amid preparations for the 2008 
        Beijing Summer Olympic Games, limited reports of 
        terrorist and criminal activity, and protests among 
        ethnic minorities.
        <bullet> The Chinese government used anti-terrorism 
        campaigns as a pretext for enforcing repressive 
        security measures, especially among the ethnic Uyghur 
        population, including wide-scale detentions, 
        inspections of households, restrictions on Uyghurs' 
        domestic and international travel, restrictions on 
        peaceful protest, and increased controls over religious 
        activity and religious practitioners.
        <bullet> Anti-terrorism and anti-crime campaigns have 
        resulted in the imprisonment of Uyghurs for peaceful 
        expressions of dissent, religious practice, and other 
        non-violent activities.
        <bullet> The government also continued to strengthen 
        policies aimed at diluting Uyghur ethnic identity and 
        promoting assimilation. Policies in areas such as 
        language use, development, and migration have 
        disadvantaged local ethnic minority residents and have 
        positioned the XUAR to undergo broad cultural and 
        demographic shifts in coming decades.
        <bullet> In the past year, the Commission also observed 
        continuing problems in the XUAR government's treatment 
        of civil society groups, labor policies, population 
        planning practices, judicial capacity, and government 
        policy toward Uyghur refugees and other individuals 
        returned to China under the sway of China's influence 
        in other countries.

                            Recommendations

          Support legislation that expands U.S. Government 
        resources for raising awareness of human rights 
        conditions in the Xinjiang Uyghur Autonomous Region 
        (XUAR) and for protecting Uyghur culture.
          Raise concern about conditions in the XUAR to Chinese 
        officials and stress that protecting the rights of XUAR 
        residents is a crucial step for securing true stability 
        in the region. Condemn the use of the global war on 
        terror as a pretext for suppressing human rights. Call 
        for the release of citizens imprisoned for advocating 
        ethnic minority rights or for their personal connection 
        to rights advocates, including: Nurmemet Yasin 
        (sentenced in 2005 to 10 years in prison after writing 
        a short story); Abdulghani Memetemin (sentenced in 2003 
        to 20 years in prison for providing information on 
        government repression to an overseas human rights 
        organization); and Alim and Ablikim Abdureyim (adult 
        children of activist Rebiya Kadeer, sentenced in 2006 
        and 2007 to 7 and 9 years in prison, respectively, for 
        alleged economic and ``secessionist'' crimes); and 
        other prisoners mentioned in this report and the 
        Commission's Political Prisoner Database.
          Support funding for non-governmental organizations 
        that address human rights issues in the XUAR to enable 
        them to continue to gather information on conditions in 
        the region and develop programs to help Uyghurs 
        increase their capacity to defend their rights and 
        protect their culture, language, and heritage.
          Indicate to Chinese officials that Members of the 
        U.S. Congress and Administration are aware that Chinese 
        authorities themselves have called for improving 
        conditions in the XUAR judiciary. Urge officials to 
        take steps to address problems stemming from the lack 
        of personnel proficient in ethnic minority languages. 
        Call on rule of law programs that operate within China 
        to devote resources to the training of legal personnel 
        who are able to serve the legal needs of ethnic 
        minority communities within the XUAR.

                                 TIBET

                                Findings

        <bullet>  As a result of the Chinese government 
        crackdown on Tibetan communities, monasteries, 
        nunneries, schools, and workplaces following the wave 
        of Tibetan protests that began on March 10, 2008, 
        Chinese government repression of Tibetans' freedoms of 
        speech, religion, and association has increased to what 
        may be the highest level since approximately 1983, when 
        Tibetans were able to set about reviving Tibetan 
        Buddhist monasteries and nunneries.
        <bullet>  The status of the China-Dalai Lama dialogue 
        deteriorated after the March 2008 protests and may 
        require remedial measures before the dialogue can 
        resume focus on its principal objective--resolving the 
        Tibet issue. China's leadership blamed the Dalai Lama 
        and ``the Dalai Clique'' for the Tibetan protests and 
        rioting, and did not acknowledge the role of rising 
        Tibetan frustration with Chinese policies that deprive 
        Tibetans of rights and freedoms nominally protected 
        under China's Constitution and legal system. The Party 
        hardened policy toward the Dalai Lama, increased 
        attacks on the Dalai Lama's legitimacy as a religious 
        leader, and asserted that he is a criminal bent on 
        splitting China.
        <bullet>  State repression of Tibetan Buddhism has 
        reached its highest level since the Commission began to 
        report on religious freedom for Tibetan Buddhists in 
        2002. Chinese government and Party policy toward 
        Tibetan Buddhists' practice of their religion played a 
        central role in stoking frustration that resulted in 
        the cascade of Tibetan protests that began on March 10, 
        2008. Reports have identified hundreds of Tibetan 
        Buddhist monks and nuns whom security officials 
        detained for participating in the protests, as well as 
        members of Tibetan secular society who supported them.
        <bullet>  Chinese government interference with the 
        norms of Tibetan Buddhism and unrelenting antagonism 
        toward the Dalai Lama, one of the religion's foremost 
        teachers, serves to deepen division and distrust 
        between Tibetan Buddhists and the government and 
        Communist Party. The government seeks to use legal 
        measures to remold Tibetan Buddhism to suit the state. 
        Authorities in one Tibetan autonomous prefecture have 
        announced unprecedented measures that seek to punish 
        monks, nuns, religious teachers, and monastic officials 
        accused of involvement in political protests in the 
        prefecture.
        <bullet>  The Chinese government undermines the 
        prospects for stability in the Tibetan autonomous areas 
        of China by implementing economic development and 
        educational policy in a manner that results in 
        disadvantages for Tibetans. Weak implementation of the 
        Regional Ethnic Autonomy Law has been a principal 
        factor exacerbating Tibetan frustration by preventing 
        Tibetans from using lawful means to protect their 
        culture, language, and religion.
        <bullet>  At no time since Tibetans resumed political 
        activism in 1987 has the magnitude and severity of 
        consequences to Tibetans (named and unnamed) who 
        protested against the Chinese government been as great 
        as it is now upon the release of the Commission's 2008 
        Annual Report. Unless Chinese authorities have released 
        without charge a very high proportion of the Tibetans 
        reportedly detained as a result of peaceful activity or 
        expression on or after March 10, 2008, the resulting 
        surge in the number of Tibetan political prisoners may 
        prove to be the largest increase in such prisoners that 
        has occurred under China's current Constitution and 
        Criminal Law.

                            Recommendations

        Members of the U.S. Congress and Administration 
        officials are encouraged to:

          Convey to the Chinese government the heightened 
        importance and urgency of moving beyond the setback in 
        dialogue with the Dalai Lama or his representatives 
        following the March 2008 protests. A Chinese government 
        decision to engage the Dalai Lama in substantive 
        dialogue can result in a durable and mutually 
        beneficial outcome for Chinese and Tibetans, and 
        improve the outlook for local and regional security in 
        the coming decades.
          Convey to the Chinese government, in light of the 
        tragic consequences of the Tibetan protests and the 
        continuing tension in Tibetan Buddhist institutions 
        across the Tibetan plateau, the urgent importance of: 
        reducing the level of state antagonism toward the Dalai 
        Lama; ceasing aggressive campaigns of ``patriotic 
        education'' that can result in further stress to local 
        stability; respecting Tibetan Buddhists' right to 
        freedom of religion, including to identify and educate 
        religious teachers in a manner consistent with their 
        preferences and traditions; and using state powers such 
        as passing laws and issuing regulations to protect the 
        religious freedom of Tibetans instead of 
        remolding Tibetan Buddhism to suit the state.
          Continue to urge the Chinese government to allow 
        international observers to visit Gedun Choekyi Nyima, 
        the Panchen Lama whom the Dalai Lama recognized, and 
        his parents.
          In light of the heightened pressure on Tibetans and 
        their communities following the March protests, 
        increase funding for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        and health conditions of ethnic Tibetans living in 
        Tibetan areas of China; and that create sustainable 
        benefits without encouraging an influx of non-Tibetans 
        into these areas.
          Convey to the Chinese government the importance of 
        distinguishing between peaceful Tibetan protesters and 
        rioters, honoring the Chinese Constitution's reference 
        to the freedoms of speech and association, and not 
        treating peaceful protest as a crime. Request that the 
        Chinese government provide details about Tibetans 
        detained or charged with protest-related crimes, 
        including: each person's name; the charges (if any) 
        against each person; the name and location of the 
        prosecuting office (``procuratorate'') and court 
        handling each case; the availability of legal counsel 
        to each defendant; and the name of each facility where 
        such persons are detained or imprisoned. Request that 
        Chinese authorities allow access by diplomats and other 
        international observers to the trials of such persons.
          Continue to raise in meetings and correspondence with 

        Chinese officials the cases of Tibetans who are 
        imprisoned as punishment for the peaceful exercise of 
        human rights. Representative examples include: former 
        Tibetan monk Jigme Gyatso (now serving an extended 18-
        year sentence for printing leaflets, distributing 
        posters, and later shouting pro-Dalai Lama slogans in 
        prison); monk Choeying Khedrub (sentenced to life 
        imprisonment for printing leaflets); reincarnated lama 
        Bangri Chogtrul (serving a sentence of 18 years 
        commuted from life imprisonment for ``inciting 
        splittism''); and nomad Ronggyal Adrag (sentenced to 8 
        years' imprisonment for shouting political slogans at a 
        public festival).
          The United States should continue to seek a consulate 
        in Lhasa in order to provide services to Americans in 
        Western China. With the closest consulate in Chengdu, a 
        1,500 mile bus ride from the Tibetan capital of Lhasa, 
        American travelers are largely without assistance in 
        Western China. This was recently underscored during 
        unrest in Lhasa when U.S. citizens could not get out 
        and American diplomats could not enter the Tibetan 
        Autonomous Region.


    The Commission adopted this report by a vote of 22 to 
1.<dagger>

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

          Check the Political Prisoner Database (PPD) (http://
        ppd.cecc.gov) for reliable, up-to-date information on 
        one prisoner, or on groups of prisoners. Consult a 
        prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
          Advise official and private delegations traveling to 
        China to present Chinese officials with lists of 
        political and religious prisoners compiled from 
        database records.
          Urge U.S. state and local officials and private 
        citizens involved in sister-state and sister-city 
        relationships with China to explore the database, and 
        to advocate for the release of political and religious 
        prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's Annual Report provides information about 
Chinese political and religious prisoners\1\ in the context of 
specific human rights and rule of law abuses. Many of the 
abuses result from the Chinese Communist Party and government's 
application of policies and laws. The Commission relies on the 
Political Prisoner Database (PPD), a publicly available online 
database maintained by the Commission, for its own advocacy and 
research work, including the preparation of the Annual Report, 
and routinely uses the database to prepare summaries of 
information about political and religious prisoners for Members 
of Congress and Administration officials.
    The Commission invites the public to read about issue-
specific Chinese political imprisonment in sections of this 
Annual Report, and to access and make use of the PPD at http://
ppd.cecc.gov. (Information on how to use the PPD is available 
at: http://www.cecc.gov/pages/victims/index.php.)
    The PPD has served, since its launch in November 2004, as a 
unique and powerful resource for governments, non-governmental 
organizations (NGOs), educational institutions, and individuals 
who research political and religious imprisonment in China, or 
that advocate on behalf of such prisoners. The most important 
feature of the PPD is that it is structured as a genuine 
database and uses a powerful query engine. Though completely 
Web-based, it is not an archive that uses a simple or advanced 
search tool, nor is it a library of Web pages and files.
    The PPD received approximately 23,000 online requests for 
prisoner information during the 12-month period ending July 31, 
2008. During the entire period of PPD operation beginning in 
late 2004, approximately 36 percent of the requests for 
information have originated from government (.gov) Internet 
domains, 17 percent from network (.net) domains, 10 percent 
from international domains, 8 percent from commercial (.com) 
domains, 2 percent from education (.edu) domains, and 2 percent 
from organization (.org) domains. Approximately 20 percent of 
the requests have been from numerical Internet addresses that 
do not provide information about the name of an organization or 
the type of domain.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up-to-date. Commission staff members work 
to maintain and update political prisoner records based on 
their areas of expertise. The staff seek to provide objective 
analysis of information about individual prisoners, and about 
events and trends that drive political and religious 
imprisonment in China.
    As of October 31, 2008, the PPD contained information on 
4,793 cases of political or religious imprisonment in China. Of 
those, 1,088 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
3,705 are cases of prisoners who are known or believed to have 
been released, executed or to have escaped. The Commission 
notes that there are considerably more than 1,088 cases of 
current political and religious imprisonment in China. The 
Commission staff works on an ongoing basis to add cases of 
political and religious imprisonment to the PPD.
    During 2008, the Commission for the first time published a 
series of lists of current religious and political prisoners. 
The number of prisoners rose unusually steeply from list to 
list, principally as a result of the Commission's ongoing work 
creating new case records for the large number of Tibetan 
protesters detained from March 2008 onward. On June 26, 2008, 
the Commission published a list of 734 current religious and 
political prisoners in China.\2\ On August 7, 2008, the 
Commission posted on its Web site a list of 920 political 
prisoners currently known or believed to be detained or 
imprisoned in China. The August 7 PPD list was arranged in 
reverse chronological order by date of detention, placing the 
most recent detentions first and facilitating a review of 
detention and imprisonment in the months preceding the 2008 
Beijing Olympic Games.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database.\3\ The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on 
information provided by NGOs, other groups that specialize in 
promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                          DATABASE TECHNOLOGY

    The PPD aims to provide a technology with sufficient power 
to cope with the scope and complexity of political imprisonment 
in China. The first component of an upgrade to the database 
will be available for public use before the end of 2008 and 
additional upgrade components will be available in 2009. The 
upgrade will leverage the capacity of the Commission's 
information and technology resources to support research, 
reporting, and advocacy by the U.S. Congress and 
Administration, and by the public, on behalf of political and 
religious prisoners in China.

               Upgrading the Database To Leverage Impact

    The Commission began work to upgrade the PPD soon after 
publication of the 2007 Annual Report. The component of the 
upgrade that will be available for public use before the end of 
2008 will increase the number of types of information available 
from 19 to 40. The upgrade will allow users to query for and 
retrieve information such as the names and locations of the 
courts that convicted political and religious prisoners, and 
the dates of key events in the legal process such as sentencing 
and decision upon appeal. The users will be able to download 
PPD information as Microsoft Excel or Adobe PDF files more 
easily--whether for a single prisoner record, a group of 
records that satisfies a user's query, or all of the records 
available in the database. [See image, ``CECC PPD: Sample 
Appearance of a Record Summary Page After Forthcoming 
Upgrade,'' below.]
    Many records contain a short summary of the case that 
includes basic details about the political or religious 
imprisonment and the legal process leading to imprisonment. The 
upgrade will increase the length of the short summary about a 
prisoner and enable the PPD to provide Web links in a short 
summary that can open 
reports, articles, and texts of laws that are available on the 
Commission's Web site or on other Web sites. Web links in 
Commission reports and articles will be able to open a 
prisoner's PPD record.

               Powerful Queries Provide Useful Responses

    Each prisoner's record describes the type of human rights 
violation by Chinese authorities that led to his or her 
detention. These include violations of the right to peaceful 
assembly, freedom of religion, freedom of association, and free 
expression, including the freedom to advocate peaceful social 
or political change and to criticize government policy or 
government officials. Users may search for prisoners by name, 
using either the Latin alphabet or Chinese characters. The PPD 
allows users to construct queries that include one or more 
types of data, including personal information or information 
about imprisonment. [See box, ``Tutorial: How to Use the 
Commission's Political Prisoner Database,'' below.]

     Providing Information to Users While Respecting Their Privacy

    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
                                Tutorial
-------------------------------------------------------------------------
      How To Use the Commission's Political Prisoner Database (PPD)
-------------------------------------------------------------------------
Constructing a Query

Detailed PPD query instructions are available on the Commission's Web
 site at: http://www.cecc.gov/pages/victims/instructions.php
An illustrated PPD User Guide is available as a PDF download from the
 PPD Web site (http://ppd.cecc.gov) by clicking ``Help'' and then
 clicking ``User Guide.''

Step One: Select the Fields To Query

<bullet> Click ``Create a New Query.''
<bullet> Select the ``fields'' (types of information) to query from the
 ``Available Fields'' box (on the left) and use the ``>'' button to move
 those fields to the ``Selected Fields to Search On'' box (on the
 right).

Example: To search for the prisoners and detainees that the Commission
 knows or believes are currently imprisoned or detained, select
 ``detention status'' from the list of available fields and move it to
 the list of fields to search.

Step Two: Define Search Criteria

<bullet> Click ``Next Step.''
<bullet> For each field that a query will search, a user must specify
 the search criteria.

Example: Select the status designations that indicate that a prisoner is
 currently detained or imprisoned. To do so, select all of the following
 from the ``Value(s)'' list: DET, DET?, DET/bail, HOUSE, and HOUSE?
(Click ``Help'' for information about PPD fields.)

Step Three: Define the Sort Order for Query Results

<bullet> Click ``Next Step.''
<bullet> Users may choose not to sort query results, or to choose up to
 three fields by which to arrange the query results.
Example: To arrange the query results by prisoner names in alphabetical
 order, select ``main (or religious) name'' from the uppermost ``sort
 by'' list.
Or, to arrange the query results in reverse chronological order, with
 the most recent detentions first, select ``date of detention'' from the
 uppermost ``sort by'' list AND tick the ``descending'' box.

Step Four: Review and Save or Run the Query

<bullet> Click ``Next Step.''
<bullet> Users that have established a CECC PPD login can review the
 query, name the query, and then save and run the query.
<bullet> Users that have not established a CECC PPD login can review the
 query and run the query, but (at present) cannot save the query.

Example 1: Users that have established a CECC PPD login: Review the
 summary of Steps 1, 2, and 3. Edit any step by clicking ``EDIT'' for
 that step. If desired, type a name such as ``Currently detained,
 imprisoned'' into the ``Save As'' box. Then click ``Save'' or ``Save
 and Run.''
Example 2: Users without a CECC PPD login: Review the summary of Steps
 1, 2, and 3. Edit any step by clicking ``EDIT'' for that step. Then
 click ``Run.''
------------------------------------------------------------------------

                            II. Human Rights


               Rights of Criminal Suspects and Defendants


                              INTRODUCTION

    The Tibetan protests, the Sichuan earthquake, the unrest in 
the Xinjiang Uyghur Autonomous Region (XUAR), and a spate of 
bombings and ``mass incidents'' across China in 2008 threatened 
to 
derail the Chinese leaders' desire for a successful 2008 
Beijing Summer Olympic Games. As a result, suppressing dissent 
and maintaining stability took on an even greater than usual 
importance in the run-up to the Olympics. Abuse of police power 
was used to this end, and the rights of criminal suspects and 
defendants, as well as ordinary citizens, were violated. For 
example, in the aftermath of the March 14 protests in the 
Tibetan areas of China, Tibetans were subjected to arbitrary 
detention and torture, and denied access to counsel; in 
Sichuan, grieving parents seeking justice for their children 
who were buried under collapsed schools were arbitrarily 
detained and beaten by police.\1\ In the XUAR, police 
reportedly detained all non-resident Uyghurs in the city of 
Korla in mid-August, who were told that they would be confined 
through the Olympics.\2\ In order to maintain the appearance of 
a ``harmonious'' Olympics, Beijing Public Security Bureau 
officers and domestic security protection officers (guobao) put 
numerous human rights activists, lawyers, and intellectuals 
under illegal house arrest or forced them to leave Beijing for 
the duration of the Olympics.\3\ Moreover, Beijing law 
enforcement officials arbitrarily detained or sentenced to 
reeducation through labor (RTL) several citizens who applied to 
hold peaceful protests in the ``protest'' parks.\4\
    Despite the heightened use of coercive state power and the 
deteriorating human rights situation in China during the past 
year, there were several developments with respect to the 
rights of criminal suspects and defendants in China during 
2008. First, since January 1, 2007, when the Supreme People's 
Court resumed its review of death penalty cases to prevent 
miscarriages of justice and reduce the number of executions in 
China, the Chinese government reported a 30 percent decrease in 
the number of death sentences.\5\ Second, the revised Lawyers' 
Law, which contains provisions aimed at combating some of the 
difficulties criminal defense lawyers face in representing 
their clients, took effect on June 1, 2008.\6\ It remains to be 
seen how the revised Lawyers' Law will be implemented, 
particularly given that several of its provisions conflict with 
the Criminal Procedure Law.

                         ABUSE OF POLICE POWER

                         Suppression of Dissent

    The Chinese leadership's desire to ensure a ``harmonious'' 
and dissent-free Olympics led to numerous incidents of 
persecution, illegal detention, and harassment of peaceful 
activists and petitioners by public security and guobao 
officers. As security in Beijing intensified in the lead-up to 
the Olympics, prominent Beijing-based public intellectual and 
activist Liu Xiaobo told Agence France-Presse that the security 
crackdown was ``partly to prevent terrorism but even more of 
the public security power is being used to silence political 
dissent and keep domestic discontent away from the Games.'' \7\ 
For example, in July, Beijing-based Pastor Zhang Mingxuan, 
president of the Chinese House Church Alliance, and his wife 
were arbitrarily forced to leave Beijing because, as Zhang 
reported, public security officers did not want him to meet 
with foreigners during the Olympics.\8\ Public security 
officers also forced blogger and activist Zeng Jinyan, the wife 
of imprisoned human rights activist Hu Jia, to leave Beijing 
with their child on August 7, the day before the start of the 
Olympics.\9\ Such arbitrary restrictions on personal liberty 
violate Article 9 of the Universal Declaration of Human Rights 
(UDHR) and the International Covenant on Civil and Political 
Rights (ICCPR), as well as China's own laws.\10\

                            Public Protests

    As the Commission reported last year, the abuse of police 
power by local government and Party officials to quell public 
protests and ``mass incidents'' is a growing problem in 
China.\11\ Numerous clashes between public security officers 
and civilians during the spring and summer of 2008 prompted the 
central government to issue new rules that hold local officials 
responsible for mishandling grievances and for arbitrary use of 
police power in dealing with complaints and protests.\12\ 
According to the new rules, officials ``who violate laws and 
regulations in using police force to handle mass incidents'' 
will face punishment.\13\ The largest protest-turned-riot, 
involving at least 10,000 people--some reports had 30,000\14\--
occurred in Weng'an, Guizhou province, in late June, and was 
triggered by a perceived police coverup of an alleged rape and 
murder of a teenage student.\15\ Top local state and Party 
officials were dismissed for ``severe malfeasance,'' including 
abuse of police power, in dealing with citizens' underlying 
grievances that were the root cause of the unrest.\16\ In mid-
July, police and rubber farmers clashed in Menglian county, 
Yunnan province, regarding a conflict of economic interests 
between the farmers and the management of the Menglian rubber 
company.\17\ Top Yunnan officials held local cadres responsible 
for the protest-turned-riot, which left two farmers dead and 
more than 50 public security officers and farmers injured, 
citing poor governance and failure to properly manage the 
business dispute.\18\ The Party official responsible for law 
enforcement in the area was sacked and other officials were 
disciplined.\19\

                          ARBITRARY DETENTION

    The UN Working Group on Arbitrary Detention (UNWGAD) 
defines the deprivation of personal liberty to be ``arbitrary'' 
if it meets one of the following criteria: (1) there is clearly 
no legal basis for the deprivation of liberty; (2) an 
individual is deprived of his liberty for having exercised 
rights guaranteed under the Universal Declaration of Human 
Rights (UDHR) and the International Covenant on Civil and 
Political Rights (ICCPR); (3) there is grave non-compliance 
with fair trial standards set forth in the UDHR and other 
international human rights instruments.\20\
    Arbitrary detention, a widespread problem in China, takes 
several forms, including extralegal detention such as ``soft 
detention'' (ruanjin)--commonly referred to as ``house arrest'' 
\21\--which is most frequently used against petitioners and 
activists and occurs entirely outside the legal system; 
detention and imprisonment for the peaceful expression of civil 
and political rights; and administrative detention for which 
criminal procedure protections are not available. The Chinese 
authorities continue combating another form of arbitrary 
detention the Commission has reported on in previous years, 
illegal extended detention. Illegal extended detention occurs 
when suspects and defendants are detained beyond the maximum 
time periods for detention at a given stage in the criminal 
process set forth in China's Criminal Procedure Law (CPL). The 
Supreme People's Procuratorate work report submitted to the 
National People's Congress in March noted that in 2003 there 
were 24,921 cases of illegal extended detention and only 85 
such cases in 2007.\22\

                          Extralegal Detention

    In contravention of Chinese law and the prohibitions 
against arbitrary detention contained in the UDHR and the 
ICCPR, Chinese authorities subjected Chinese citizens to at 
least three forms of extralegal detention during the past year: 
(1) arbitrary house arrest and control, (2) detention in 
``black jails,'' and (3) shuanggui (often translated as 
``double regulation'' or ``double designation''), a form of 
detention used on Party members.\23\

arbitrary house arrest and control

    Many rights defense (weiquan) activists, lawyers, and their 
spouses were subjected to arbitrary house arrest, or ``soft 
detention'' (ruanjin,) during the past year.\24\ Extralegal 
house arrest is frequently accompanied by tight surveillance 
and monitoring by public security or guobao officers, or hired 
``guards.'' \25\ House arrest was applied unevenly during the 
past year; in some cases it meant total confinement in one's 
home and in other cases the ``controlled person'' could leave 
his or her home to run errands or go to work, but was strictly 
surveilled.\26\ Hu Jia's wife, blogger and activist Zeng 
Jinyan, has been under constant surveillance since Hu Jia's 
detention on December 27, 2007.\27\ Yuan Weijing, wife of 
imprisoned legal advocate and rights defender Chen Guangcheng, 
along with the couple's young daughter, has been subjected to 
extralegal house arrest for three years. In early July, she 
reported that there were more people monitoring her than 
usual--about 40 people divided into two shifts.\28\ Public 
security officers and private ``guards,'' aided by surveillance 
cameras, continue to monitor Shanghai-based rights lawyer Zheng 
Enchong around the clock.\29\ In early July, Zheng was 
reportedly placed under total home confinement and not 
permitted to leave his apartment.\30\

black jails

    ``Black jails'' are illegal detention centers primarily 
used to hold petitioners who have gone to Beijing to exercise 
their right under Chinese law to petition against injustices 
committed by local officials. These secret jails exist entirely 
outside the legal system.\31\ Detainees in black jails are 
deprived of their right to be free from arbitrary deprivation 
of personal liberty guaranteed under China's Constitution, the 
UDHR, and the ICCPR.\32\
    Black jails in Beijing are run by the Beijing liaison 
offices of local governments. Petitioners are held illegally 
for days or even months, without adequate food and healthcare, 
and are frequently beaten by hired ``guards.'' \33\ According 
to the non-governmental organization Chinese Human Rights 
Defenders, these black jails operate ``under the eyes of the 
Beijing police and often with their cooperation.'' \34\ The 
petitioners are detained until they are ``escorted'' back to 
their hometowns. Local officials in turn have sent many of the 
forcibly returned petitioners to local black jails.\35\ Amnesty 
International reports that the roundups and detention of 
petitioners in Beijing is reminiscent of the ``custody and 
repatriation'' system--``the abolition of which in 2003 was 
presented by the authorities as a major human rights 
improvement.'' \36\

------------------------------------------------------------------------
             Shuanggui_Extralegal Detention of Party Members
-------------------------------------------------------------------------
  ``Shuanggui'' (often translated as ``double regulation'' or ``double
 designation''), refers to the process of summoning a target of
 investigation to appear at a designated place at a designated time.\37\
 It is a form of extralegal detention used for investigating Communist
 Party members.\38\ Shuanggui was introduced in 1994 and is used by
 Communist Party commissions for discipline inspection primarily against
 officials suspected of corruption.\39\ Shuanggui not only contravenes
 the right to be free from arbitrary detention guaranteed by the
 Universal Declaration of Human Rights and the International Covenant on
 Civil and Political Rights, but also violates Chinese law.\40\
 Restrictions on personal liberty can only be authorized pursuant to
 legislation passed by the National People's Congress or its Standing
 Committee, but shuanggui is supported only by Party documents.\41\
 Shuanggui targets are generally held incommunicado and the protections
 for criminal suspects contained in the Criminal Procedure Law do not
 apply.\42\
  With shuanggui, the Party is able to control corruption
 investigations. The Party can decide which cases and what evidence gets
 transferred to the procuratorate, and which cases are handled
 internally as a matter of Party discipline.\43\ As Flora Sapio, a
 Chinese criminal law and procedure expert, observed: ``Were the party
 to relinquish its dominance over the policing of corrupt officials, it
 would lose an important component of its legitimacy. By dictating who
 should be punished and who should not, the Party can avoid the shame
 that would be caused by a thorough investigation on corruption.'' \44\
------------------------------------------------------------------------


------------------------------------------------------------------------
       Shuanggui_Extralegal Detention of Party Members--Continued
-------------------------------------------------------------------------
  Several high-ranking officials were subjected to shuanggui during
 2008. Wang Yi, a former top official at the China Development Bank and
 former vice-chairman of the China Securities Regulatory Commission,
 China's stock regulator, was detained by Party discipline inspection
 officials on corruption charges.\45\ A high-ranking official at the
 Ministry of Commerce, Guo Jingyi, was placed under shuanggui for
 suspected bribery.\46\ In October 2008, Huang Songyou, a vice president
 of the Supreme People's Court, was detained by Party officials in
 connection with a corruption scandal.\47\ In April, Zeng Jinchun, a
 former top-ranking Party secretary for the discipline inspection
 commission in Chenzhou, Hunan province, was put on trial for
 corruption. His case highlighted another problematic aspect of the
 shuanggui system--the virtually unchecked power of high-ranking
 discipline inspection officials. According to Caijing Magazine, Zeng
 had used shuanggui as a ``potent weapon . . . to make money, maintain
 control, and silenc[e] opponents.'' \48\
------------------------------------------------------------------------

                            Political Crimes

    During the past year, the Chinese government continued to 
harass, detain, and imprison citizens for the peaceful exercise 
of fundamental rights guaranteed under the Chinese 
Constitution, the Universal Declaration of Human Rights, and 
the International Covenant on Civil and Political Rights. For 
example, on April 3, human rights defender Hu Jia was convicted 
of ``inciting subversion of state power'' and sentenced to 
three years and six months' imprisonment for expressing 
dissenting views in essays posted on the Internet and in 
interviews with foreign media.\49\ [See Section II--Freedom of 
Expression.] The number of arrests for crimes of ``endangering 
state security,'' which replaced ``counterrevolutionary'' 
crimes in the 1997 Criminal Law, continues to rise.\50\ 
Research based on official Chinese statistics conducted by the 
Dui Hua Foundation found that arrests for ``endangering state 
security'' crimes doubled in 2006 over 2005, and that in 2007 
the number of such arrests--742--was the highest since 
1999.\51\
    The Chinese government continues to hold in prison 
individuals who were sentenced for crimes of 
``counterrevolution'' that were removed from the Criminal Law 
in 1997 and for charges relating to the 1989 democracy 
protests. John Kamm of the Dui Hua Foundation estimates that 
more than 150 ``counterrevolutionaries'' remain in prison in 
China.\52\ As of 2004, at least 130 people were still serving 
sentences related to the 1989 democracy protests, according to 
Human Rights Watch.\53\ Hu Shigen, who served 16 years in 
prison for ``counterrevolutionary'' crimes relating to his role 
in establishing the China Freedom and Democracy Party and an 
independent labor union, was released in August.\54\

                       Reeducation Through Labor

    The reeducation through labor (RTL) system operates outside 
of the judicial system and the Criminal Procedure Law (CPL); it 
is an administrative measure that enables Chinese law 
enforcement officials to detain Chinese citizens for up to four 
years.\55\ As Professor Jerome Cohen explained recently, RTL 
enables the police to ``punish anyone for virtually anything,'' 
without the accused having the benefit of ``the modest 
protections'' of the CPL.\56\ According to Chinese government 
statistics, more than 500,000 individuals were serving 
sentences in 310 RTL centers in 2005.\57\ The list of offenses 
punishable by RTL is vaguely defined, and RTL is frequently 
used against petitioners, activists, house church leaders, 
Falun Gong adherents, and others deemed to be 
``troublemakers.'' \58\ The Chinese authorities used RTL during 
this past year to punish and silence dissent. For example, 
Chinese officials in Heilongjiang sentenced Liu Jie, a 
petitioners' rights activist, to 18 months of RTL in November 
2007 after she released a public letter signed by 12,150 
petitioners to the 17th Party Congress calling for political 
and legal reforms.\59\ Tianjin-based activist Zheng Mingfang 
was reportedly sentenced to two years of RTL in April 2008 for 
collecting signatures for a petition calling for the release of 
Hu Jia.\60\ In June 2008, officials in Sichuan detained and 
later sentenced Liu Shaokun, a middle school teacher, to one 
year of reeducation through labor after he posted photos of 
collapsed schools online and criticized their construction in a 
media interview.\61\
    RTL has long been criticized by the international community 
as contravening rights set forth in the Universal Declaration 
of Human Rights and the International Covenant on Civil and 
Political Rights as well as China's own laws.\62\ Activists and 
scholars within China continue to call for the abolition of 
RTL. In November 2007, 69 renowned lawyers, legal scholars, and 
public intellectuals submitted a proposal to the National 
People's Congress Standing Committee (NPCSC) requesting that it 
conduct a constitutional review of the RTL system.\63\ In July 
2008, over 15,000 Chinese citizens, led by numerous legal 
scholars and lawyers, signed a petition to abolish RTL and 
circulated a citizens' draft proposal (gongmin jianyigao) of a 
``Law on the Correction of Unlawful Acts'' (weifa xingwei 
jiaozhi fa) to replace RTL.\64\

                      TORTURE AND ABUSE IN CUSTODY

    Torture is illegal in China, and although China's leaders 
have made some efforts to curb the use of torture by law 
enforcement officials, reports of widespread torture and abuse 
continue.\65\ Manfred Nowak, the UN Special Rapporteur on 
Torture, noted in 2006 that China lacked necessary procedural 
safeguards to make the prohibition on torture effective: these 
include, among others, the presumption of innocence, the right 
to remain silent, the right of habeas corpus, and timely access 
to counsel.\66\ During this past year, human rights lawyers and 
activists, Falun Gong adherents, and Tibetans detained in the 
wake of the March protests were among those subjected to 
torture and abuse in custody.\67\ The Uyghur Human Rights 
Project, a U.S.-based non-governmental organization, reported 
that torture and forced confessions of Uyghurs at the hands of 
law enforcement officials is commonplace.\68\ Legal activist 
and writer Yang Maodong (also known as Guo Feixiong),\69\ has 
reportedly been subjected repeatedly to shocks from electric 
batons, and according to Yang's wife, has five or six scars on 
his body that she called ``traces of torture.'' \70\ In late 
September 2007, after sending a detailed letter to the U.S. 
Congress about the ``human rights disaster'' in China while 
serving a three-year sentence for ``inciting subversion'' at 
his home under residential surveillance, rights lawyer Gao 
Zhisheng disappeared.\71\ During his two-month disappearance, 
he was reportedly struck repeatedly with electric batons.\72\ 
According to the Falun Dafa Information Center, since the 
beginning of 2008 at least nine Falun Gong adherents in Beijing 
have died in police custody.\73\ In April, Falun Gong adherent 
and popular Beijing-based folk singer Yu Zhou died in police 
custody within two weeks of being detained on his way home from 
a concert.\74\ [See Section II--Freedom of Religion--Falun 
Gong.] There have been reports of torture of Tibetan detainees 
in the aftermath of the March protests in the Tibetan areas of 
China. TibetInfoNet reported, for example, that four Labrang 
Tashikhyil Monastery monks were beaten so badly in detention 
that they were unable to walk unaided.\75\ Deaths resulting 
from torture during interrogations have also been reported.\76\

          ACCESS TO COUNSEL AND THE RIGHT TO PRESENT A DEFENSE

    Most Chinese defendants confront the criminal process and 
trial without the assistance of an attorney, despite the right 
to legal assistance provided under Article 14(3)(d) of the 
International Covenant on Civil and Political Rights.\77\ The 
public security bureaus and procuratorates must notify criminal 
defendants of their right to apply for legal aid, and lawyers 
are required to do some pro bono work each year, but because of 
the intimidation lawyers routinely face in handling criminal 
cases, many lawyers shy away from taking them.\78\ An estimated 
70 percent of criminal cases proceed without a defense lawyer's 
involvement.\79\ When lawyers do defend criminal cases, they 
face substantial obstacles in preparing a defense.\80\ The 
``three difficulties'' that the Commission reported on last 
year--gaining access to detained clients, reviewing the 
prosecutors' case files, and collecting evidence--are endemic 
and undermine lawyers' ability to effectively defend their 
clients.\81\ Article 306 of the Criminal Law, the lawyer-
perjury statute, makes defense lawyers vulnerable to 
prosecution for falsifying or tampering with evidence.\82\ If a 
defendant recants an earlier statement, for example, the lawyer 
may be detained for suborning perjury.\83\ Prosecutors have 
used Article 306 to threaten and intimidate defense lawyers, 
particularly in sensitive cases.\84\ According to Human Rights 
Watch, lawyers ``may decide to defend clients less forcefully 
than they otherwise would for fear of displeasing the 
prosecution.'' \85\
    An important development for criminal suspects and 
defendants and defense lawyers during this past year was the 
implementation of the revised Lawyers' Law on June 1, which 
contains several provisions that address the ``three 
difficulties.'' \86\ Most significantly, the revised Lawyers' 
Law provides that lawyers have an unequivocal right (you quan) 
to meet with detained suspects and defendants.\87\ However, 
this and several other revisions to the Lawyers' Law are 
inconsistent with the Criminal Procedure Law.\88\ There has 
been much commentary in the Chinese media and on law-related 
Web sites regarding the conflicts between the two laws, and 
concern that the revised Lawyers' Law will not be implemented 
effectively.\89\ Indeed, there were reports after the revised 
Lawyers' Law took effect of defense lawyers nonetheless being 
denied access to their clients.\90\ In mid-August, the Standing 
Committee of the National People's Congress (NPCSC), which is 
authorized to interpret laws, weighed in. In a reply (dafu) to 
a request by a member of the Chinese People's Political 
Consultative Conference that the NPC unify the content of the 
two laws, the NPCSC stated that the more recent law (i.e., the 
Lawyers' Law) takes precedence over the earlier law, and thus 
the revised Lawyers' Law should be followed if there are 
conflicts with the CPL.\91\

                      FAIRNESS OF CRIMINAL TRIALS

    Extremely high conviction rates in criminal cases are due 
in part to the lack of fairness of criminal trials, and the 
``three difficulties'' that hinder criminal defense lawyers' 
ability to defend their clients, discussed above.\92\ Public 
security officers often deny suspects and defendants access to 
counsel and use lengthy pre-trial detention to extract 
confessions under duress or torture.\93\ They also use 
detention and intimidation to obtain statements from 
``witnesses.'' \94\
    There is a strong presumption of guilt in criminal cases, 
and a guilty verdict is a virtual certainty in politically 
sensitive cases.\95\ The procedural rights of political 
dissidents and other targeted groups, such as Falun Gong 
adherents, house church pastors, and ethnic minority activists, 
are frequently violated.\96\ Hu Jia was subjected to torture 
and to almost daily interrogations lasting from 6 to 14 hours 
at a time during his first month of detention.\97\ Public 
security officers used ``abduction, detention, and threats'' to 
coerce Hu's friends to become ``witnesses.'' \98\ As is the 
case in the overwhelming majority of trials in China, no 
witnesses appeared in court during Hu's trial, so the defense 
attorneys had no opportunity to cross-examine them about their 
statements.\99\
    The little that is known about the trials of 30 Tibetans in 
Lhasa city in April suggests that they were not fair. Human 
Rights Watch reported that in mid-March, the Tibet Autonomous 
Region Communist Party secretary urged that there be ``quick 
arrests, quick hearings, and quick sentencings'' of those 
involved in the protests.\100\ Xinhua reported on April 29 that 
the sentences, ranging from three years to life imprisonment, 
were pronounced publicly.\101\ According to Human Rights Watch, 
the actual trials were conducted in secret earlier in 
April.\102\ Chinese Human Rights Defenders stated that most of 
the defendants were reportedly tortured and forced to confess, 
and that the families of the defendants reportedly were too 
afraid to contact the rights defense lawyers from Beijing and 
elsewhere who had offered to assist.\103\

                           CAPITAL PUNISHMENT

    The Commission reported last year about the initial results 
of the Supreme People's Court (SPC) reassertion of its legal 
authority to review all death penalty cases in order to limit 
the use of the death penalty to only the most serious criminal 
cases and to prevent miscarriages of justice.\104\ During 2007, 
the first year in which the SPC review of death penalty 
sentences was restored, 30 percent fewer death sentences were 
meted out, compared with the number of death sentences in 
2006.\105\ The SPC overturned 15 percent of all death sentences 
handed down by lower courts in 2007 and the first half of 
2008.\106\ Gao Jinghong, presiding judge of the SPC's Third 
Criminal Law Court, stated that the majority of the death 
sentences that were overturned in 2008 were due to insufficient 
evidence or because the death sentence was inappropriate.\107\
    Outgoing SPC President Xiao Yang reported at the National 
People's Congress session in March: ``The SPC has been working 
to 
ensure that the capital punishment only applies to the very few 
number of felons who committed extremely serious, atrocious 
crimes that lead to grave social consequences.'' \108\ As a 
result of the SPC reasserting its review authority, lower 
courts have reportedly become more cautious in handing out 
death sentences.\109\ Moreover, the SPC stated that 2007 was 
the first year that the number of death sentences with a two-
year suspension (i.e., if no crime is committed during the 
first two years of imprisonment, the death sentence is reduced 
to life imprisonment) exceeded the number of death sentences to 
be carried out immediately.\110\
    China's Criminal Law includes 68 capital offenses, many of 
which are for non-violent crimes such as drug trafficking, 
official corruption, and leaking state secrets abroad.\111\ The 
government does not publish official statistics on the number 
of executions, and this figure remains a state secret.\112\ 
Amnesty International reported in April that of the countries 
that have capital punishment, China was the leader with at 
least 470 executions, but indicated that this figure serves as 
``an absolute minimum'' because the number was based on public 
reports.\113\ The Dui Hua Foundation estimates that 5,000 
people were executed in 2007.\114\
    Wang Shengjun, the new president of the SPC, created a 
controversy during his first few months in office when he 
stated that one of the factors that should be weighed in 
deciding whether a convicted defendant should be sentenced to 
death is popular will.\115\ His statement does not appear to 
have affected the progress of the death penalty procedural 
reforms.

                             Worker Rights


                              INTRODUCTION

    Workers in China still are not guaranteed either in law or 
in practice full worker rights in accordance with international 
standards. China's laws, regulations, and governing practices 
continue to deny workers fundamental rights, including, but not 
limited to, the right to organize into independent unions.\1\
    Labor disputes and protests became increasingly intense and 
well-organized across China during 2008. Management's failure 
to pay wage arrears, overtime, severance pay, or social 
security contributions, were the most common causes. Social and 
economic changes, weak legislative frameworks, and ineffective 
or selective enforcement continue to engender abuses ranging 
from forced labor and child labor, to violations of health and 
safety standards, wage arrearages, and loss of job benefits. 
Residency restrictions continue to present hardships for 
workers who migrate for jobs in urban areas. Tight controls 
over civil society organizations hinder the ability of citizen 
groups to champion for worker rights.
    Significant obstacles--and risks--exist for workers in 
China who attempt to protect their rights.\2\ Workers who try 
to establish independent associations or organize 
demonstrations continue to risk arrest and imprisonment.\3\ 
Labor rights activist Hu Shigen (Hu Shenglun), was released 
from Beijing No. 2 prison on August 26, 2008, having served 
most of a 20-year sentence he received in 1994 for ``organizing 
and leading a counterrevolutionary group'' and ``engaging in 
counterrevolutionary propaganda and incitement'' after he 
helped to establish the China Freedom and Democracy Party and 
the China Free Trade Union Preparatory Committee.\4\ As 
detailed in the Commission's Political Prisoner Database, other 
independent labor organizers continue to serve long jail terms.
    Several high profile incidents during 2008 underscored the 
inhumane conditions and weak protections under which many 
Chinese continue to work. The discovery in Dongguan of yet 
another extensive forced labor network, less than a year after 
the discovery in 2007 of a massive network in Shanxi province, 
showed the difficulties even China's paramount leaders face in 
enforcing the most basic protections for workers against 
China's powerfully embedded labor trafficking networks.\5\ As 
detailed below [see box titled Forced Labor], it also revealed 
local officials' stunning defiance of Premier Wen's and 
President Hu's instructions last year to eradicate forced labor 
networks. Article 244 of the PRC Criminal Law makes forced 
labor a crime.\6\ Events in 2008 showed the deterrent value of 
this provision to be woefully inadequate. Some Chinese 
companies, including firms who manufactured products for the 
2008 Beijing Summer Olympic Games, reportedly relied on 
subcontractors who employed children aged 12 to 13 years.\7\
    China's legislative and regulatory landscape for worker 
rights changed during 2008, as three major national labor-
related laws outlining a number of legal protections for 
workers took effect. The new PRC Labor Contract Law and new PRC 
Employment Promotion Law took effect on January 1, 2008, and 
the new PRC Labor Dispute Mediation and Arbitration Law took 
effect on May 1, 2008.\8\
    Some prominent labor advocates suggest that, with the new 
Labor Contract Law now in effect, China's new legislative 
framework ``is more than sufficient for the development of 
collective bargaining in China.'' \9\ The biggest obstacle, 
they claim, ``is not the lack of legislation, but the inability 
of the official trade union to act as a proper representative 
trade union.'' \10\ The law entrenches the role of the All-
China Federation of Trade Unions (ACFTU) in contract 
negotiations.\11\ But the Labor Contract Law does not include 
provisions to guarantee equal bargaining power between workers 
and employers. The ACFTU is China's only legal trade union, and 
it is required by the Trade Union Law to ``uphold the 
leadership of the Communist Party.'' \12\ The vast majority of 
``trade unions'' in enterprises effectively remain under the de 
facto control of management.\13\
    At the same time, some experts caution against dismissing 
enterprise trade unions set up by the ACFTU as hollow shells. A 
study by Anita Chan, an expert on Chinese labor issues at the 
Australian National University, found ``workers who take an 
active interest in their store union, and at least in one case, 
an elected rank and file trade union chair using the trade 
union platform to actively defend workers' interests.'' \14\

        When given the space to struggle against management 
        through existing legal and institutional structures, if 
        competent and committed leadership emerges, [Chinese 
        workers] are willing to rally around it.\15\

    At the same time, companies, schools, and other employers--
including some government offices--began taking action to evade 
the Labor Contract Law's provisions even before the law took 
effect on January 1, 2008, and afterwards.\16\ Only in some 
isolated cases have local courts been effective in invalidating 
corporate policies and procedures found to contravene the new 
laws in ways that 
infringe on worker rights.\17\ Model contracts produced by 
local 
governments, and purportedly designed to comply with the new 
legislative framework, have been found by researchers and labor 
advocates to contain both restrictions on industrial action and 
provisions that contradict newly legislated protections for 
workers.\18\ The new legislative framework's imprecision limits 
some provisions that are potentially beneficial to workers. The 
Implementing Regulations for the PRC Labor Contract Law, which 
were issued and became effective on September 18, 2008, may 
address only some of these problems.\19\
    Inflation, shortages of skilled labor in particular 
locales,\20\ yuan appreciation, rising taxes, increasingly 
stringent environmental regulations, rising materials costs, 
and sunsetting government subsidies were among the many factors 
besides the new labor legislation that appeared to play 
significant roles in raising operating costs that, in turn, 
have prompted some foreign businesses to reevaluate operations 
in China during 2008.\21\ New labor legislation makes ongoing 
non-compliance with requirements governing benefits, wages, and 
working conditions more costly. For employers with longstanding 
non-compliant practices, moving from general non-compliance to 
general compliance may prove to be an expensive proposition. 
But employers who have been generally compliant are not 
expected to experience dramatic cost increases as a result of 
the new legislative framework.\22\ According to the Hong Kong-
based IHLO,\23\ one result of the new legislative framework, if 
implemented,

        will not necessarily be the automatic improvement of 
        workers rights and living conditions but perhaps the 
        shift in industrial relations to a situation where 
        employers no longer routinely flout the laws--as is 
        common now--but instead seek to legally circumvent the 
        new law. Thus we will see rising numbers of companies 
        employing part time workers with working hours just 
        under the amount needed for them to be covered by the 
        new law, or employers ensuring the bare minimum are 
        contained in the new contracts--even if all workers get 
        a copy.\24\

    Following the opening of trade union branches in many Wal-
Mart stores in China in 2006,\25\ Wal-Mart's Shenyang store 
signed a collective contract with the local trade union in July 
2008.\26\ (Shenyang city issued Regulations on Collective 
Contracts in August 2007.\27\) Wal-Mart's collective contract 
sets employees' wages above the legal minimum, guarantees two 
years of annual pay 
increases, and provides for overtime, paid vacations, and 
social security contributions.\28\ Shortly after concluding the 
Shenyang collective contract, Wal-Mart concluded collective 
contracts in several other of its stores in China, and 
indicated its intention to conclude collective labor contracts 
at all of its stores in China during 2008.\29\ ACFTU officials 
reportedly have stated that 80 percent of the top 500 global 
corporations operating in China would have unions by the end of 
September 2008.\30\ In July 2008, Nike, Adidas, Speedo, and 
Umbro among others formed a working group in cooperation with 
NGOs and trade unions to promote trade unionism and collective 
bargaining in China.\31\ In a posting dated July 2008, the Web 
site of the All-China Federation of Trade Unions acknowledged 
collective bargaining as an internationally recognized norm for 
labor contracting.\32\

                NATIONAL LEVEL LEGISLATIVE DEVELOPMENTS

                           Labor Contract Law

    The PRC's new Labor Contract Law took effect on January 1, 
2008.\33\ In addition to soliciting public comments on multiple 
draft versions of the law, the Ministry of Labor and Social 
Security also sought technical assistance from U.S. experts in 
drafting the law. In 2005 and 2006, a U.S. Department of Labor-
funded technical cooperation project sponsored a series of 
workshops and a study tour for Chinese officials who requested 
to be briefed on U.S. best practices in employment 
relationships, termination of contracts, part-time employment, 
regulation of labor recruitment, U.S. Wage and Hour 
regulations, the means of protecting worker rights, the means 
of enhancing compliance, and training for investigations.\34\
    The Labor Contract Law governs the contractual relationship 
between workers and employers from enterprises, individual 
economic organizations, and private non-enterprise units.\35\ 
The law expands requirements in the PRC's 1994 Labor Law that 
mandate the signing of labor contracts.\36\ It requires workers 
and employers to establish a written contract in order to begin 
a labor relation\37\ and creates the presumption of an open-
ended contract if the parties have not concluded a written 
contract within one year from the start of employment.\38\ The 
law also includes provisions that allow certain workers with 
existing fixed-term contracts to transition to open-ended 
employment.\39\
    The law mandates that contracts specify matters including 
working hours, compensation, social insurance, and protections 
against occupational hazards. In addition, the employer and 
worker may add contractual provisions for probationary periods, 
training, supplementary benefits, and insurance.\40\ The basic 
provisions on establishing contracts accompany a series of 
other stipulations within the law that attempt to regularize 
the status of workers employed through staffing agencies; 
strengthen protections in the event of job dismissals; and 
establish a framework for penalizing non-compliance with the 
law.\41\

              Labor Dispute Mediation and Arbitration Law

    The PRC's new Labor Dispute Mediation and Arbitration Law 
took effect on May 1, 2008. During the drafting process, a 
vice-chair of the Legislative Affairs Commission of the 
Standing Committee of the National People's Congress described 
the purpose of the law as ``strengthening mediation and 
improving arbitration so as to help fairly solve labor disputes 
without going to court and thus safeguard employee's legitimate 
rights and promote social harmony'' [emphasis added].\42\ As 
compared with the system of handling labor disputes provided 
for in the 1993 Regulations on the Handling of Labor Disputes 
in Enterprises and the 1994 Labor Law, the new law appears to 
expand the range of cases covered by the legal system.\43\ 
Compared with the previous system, the framework set forth 
under the new law expands channels available for mediation,\44\ 
makes arbitration committee rulings in routine cases legally 
binding,\45\ modifies the burden of production in favor of 
employees,\46\ revises choice of venue provisions in favor of 
employees by prioritizing the location where a labor contract 
is performed over the employer's location as the venue for 
dispute resolution,\47\ abolishes the arbitration application 
fee,\48\ and extends the time limit for filing an arbitration 
case from 60 days to one year from the date of the alleged 
infringement while shortening the period of arbitration.\49\ 
When an arbitration committee does not take a case, complaining 
parties retain the right to file a civil suit.\50\ Arbitration 
committees have found themselves suddenly short-staffed in the 
wake of a significant spike in the number of labor dispute 
cases filed following implementation of this law and the Labor 
Contract Law.\51\

                        Employment Promotion Law

    In August 2007, the Standing Committee of the National 
People's Congress adopted an Employment Promotion Law, 
effective January 1, 2008, that stipulates measures relating to 
the promotion of employment growth and equal access to 
employment.\52\ In addition to containing provisions aimed at 
prohibiting discrimination based on factors including 
ethnicity, race, sex, and religious belief,\53\ the law 
addresses the equal right to work for women and ethnic 
minorities;\54\ specifies disabled people's right to work;\55\ 
stipulates that rural workers' access to work should ``be equal 
to'' urban workers;\56\ and forbids employers from refusing to 
hire carriers of infectious diseases.\57\ The law also allows 
workers to initiate lawsuits in the event of 
discrimination.\58\ [See Section II--Status of Women for more 
information.]
    Some aspects of the law are potentially problematic. One 
article provides that ``the state encourages workers to develop 
correct job selection concepts.'' \59\ Another provision carves 
out a role for Communist Party-controlled organizations like 
the Communist Youth League to aid in implementation of the 
law,\60\ which may dampen the role of civil society groups that 
promote implementation in ways that challenge Party policy. 
Potentially beneficial safeguards also face barriers due to a 
lack of clearly defined terms. A provision to promote the 
employment of workers with ``employment hardship,'' for 
example, defines this category of workers in general terms but 
leaves precise details to local authorities, introducing the 
possibility of uneven protections that reduce the law's overall 
impact.\61\ In addition, the law specifies the establishment of 
an unemployment insurance system, but provides no extensive 
details on implementation.\62\
    The Employment Promotion Law's anti-discrimination 
provisions received particular attention during 2008. Under the 
law, ``employers can not refuse employment to prospective 
employees because they have or carry a communicable disease.'' 
\63\ On January 3--just two days after the law took effect--a 
court in Dongguan, Guangdong province, announced a court-
mediated settlement in the first Hepatitis B Virus (HBV) 
discrimination case heard in the province. Under the 
settlement, the Hong Kong-owned Vtech corporation was ordered 
to pay 24,000 yuan (US$3,494) to a job applicant it had refused 
to hire on the grounds that he carried HBV.\64\ It is worth 
noting that the plaintiff reportedly sought help during this 
process from an online HBV support group.\65\ Such civil 
society organizations are playing an increasingly important 
role in China today, even as official crackdown places many of 
them, their founders, personnel, and clients at risk of 
harassment, arrest, detention, or imprisonment. [See Section 
II--Public Health and Section III--Civil Society.]
    On April 2, 2008, another court-mediated civil suit 
resulted in compensation awarded to an individual in Shanghai 
whose employment offer was rescinded due to his HBV status.\66\ 
The Shanghai Public Health Bureau reportedly eliminated routine 
HBV testing for prospective employees the same day.\67\ On June 
18, 2008, a labor dispute arbitration committee (LDAC) ruled on 
China's first employment discrimination case involving mental 
depression.\68\ The case involved an employee dismissed from 
IBM's Shanghai subsidiary, and resulted in a monetary award and 
reinstatement of employment. The Pudong LDAC ruled according to 
provisions of the Labor Contract Law and Employment Promotion 
Law.

          LOCAL-LEVEL LEGISLATIVE AND REGULATORY DEVELOPMENTS

    A number of localities in China announced initiatives in 
the areas of collective contracting, labor dispute settlement, 
and oversight of the business sector during 2008. Guangdong 
province, Hebei province, Shenzhen city, and Hangzhou city 
provide representative examples.\69\

                               Guangdong

    As the rest of the country waited for the State Council to 
release for public comment its much debated Draft Implementing 
Regulations for the Labor Contract Law, the Guangdong 
provincial High People's Court and Labor Dispute Arbitration 
Commission on June 23, 2008, jointly issued a Guiding Opinion 
on Implementing the Labor Dispute Mediation and Arbitration Law 
and Labor Contract Law.\70\ The Guiding Opinion includes 
provisions aimed at unifying judicial and arbitral standards 
and fostering joint judicial and arbitral announcements in 
order to reduce inconsistencies between arbitration panels and 
courts, thereby allowing lawyers and litigants to better 
anticipate both timing and substance of rulings, thereby 
increasing the likelihood of informal settlement and reduced 
litigation and arbitration caseloads,\71\ which spiked in 
Guangdong during 2008.\72\ A number of scholars and 
practitioners have challenged the legal authority of the 
Guangdong Guiding Opinion to clarify national law. Guangzhou 
authorities concede that the Guiding Opinion is for 
``reference'' only.\73\

                                 Hebei

    China's first provincial-level legislation on collective 
consultations, Hebei province's Regulations on Enterprise 
Collective Consultations between Labor and Management took 
effect on January 1, 2008.\74\ The Hebei Regulations stipulate 
that negotiations between labor and management ``should be open 
and equal, seek consensus, and assign equal weight to the 
interests of the enterprise and the workers.'' \75\ The 
Regulations provide for democratic election of workers' 
representatives in the absence of a union, but, in the presence 
of a union, workers' representatives are to be recommended by 
the union, and reviewed by the workers' congress.\76\ 
Provisions stipulate representation in equal numbers for labor 
and management during negotiations, and a limit on the number 
of outside parties.\77\
    The Regulations address methods and times of wage payment, 
subsidies and allowances, holidays, sick leave and maternity 
leave, and length and conditions of renewal of the collective 
labor contract. The Regulations specify that wages under the 
collective contract must be at least the local minimum wage, 
and that wages under individual workers' contracts must be at 
least that specified in the collective contract. While the 
Regulations specify that negotiations should be ``legal open 
and on equal terms,'' \78\ they do not legally require the All 
China Federation of Trade Unions (ACFTU) to negotiate 
collectively.\79\

                                Shenzhen

    Shenzhen city issued Implementing Regulations for the Trade 
Union Law in July 2008. Instead of ``collective 
consultations,'' the term used in most labor legislation across 
China,\80\ the Shenzhen Regulations use the term ``collective 
bargaining.'' \81\ The Regulations emphasize the role of the 
trade union in representing workers in negotiations with 
management.\82\ In a move that could lessen trade union 
dependence on enterprises, the Regulations require the 
municipal branch of the trade union to provide local trade 
union officials with a monthly subsidy.\83\ Other provisions in 
the Shenzhen Regulations place collective bargaining at the 
center of trade union responsibilities.\84\ The ``supervision'' 
of grassroots unions by higher level unions remains, however, 
and mechanisms whereby lower level officials can hold higher 
level union officials to account are lacking.\85\
    Shenzhen also issued a new Regulation on the Promotion of 
Harmonious Labor Relations, due to take effect in November 
2008.\86\ Legislation from Singapore, Hong Kong, the United 
States, and Europe were referred to as models during drafting, 
and a draft regulation was produced through consultation and 
collaboration among city labor officials, enterprise managers, 
and employee representatives. Submitted for public comment on 
June 2, 2008, the draft was 
published in all major local newspapers and received nationwide 
attention.\87\ In particular, the Shenzhen draft regulations 
brought into public discussion the sensitive subject of strike 
action, prompting one local official openly to speculate that 
the right to strike in China--a right not contained in China's 
Constitution--would be ``only one step away.'' \88\ Such 
optimism was reported openly in the official media, as was the 
characterization of the All-China Federation of Trade Unions' 
inability to organize workers as ``an embarrassing joke.'' \89\
    The Regulation addresses the mediation of labor 
disputes\90\ and includes a chapter on collective 
consultation.\91\ For strikes or stoppages that interrupt the 
provision of essential public services, place public safety or 
the economy at risk, the Shenzhen Regulation provides for 
``return-to-work orders.'' \92\ Under this provision, local 
government officials may order a 30-day ``cooling off'' period 
during which the strike or stoppage is suspended and work 
resumes with both sides--management and labor--ordered to 
exercise restraint with respect to any behavior that could 
aggravate the--ongoing--dispute. At the same time, labor 
bureaus, trade unions, and management are required to work 
toward formal resolution of the 
dispute. Because the draft includes no provisions to limit the 
government's use of ``return-to-work orders,'' it leaves open 
the possibility that the orders may be abused by labor 
officials to suppress strikes and other worker actions 
summarily.
    The Shenzhen Regulation establishes a ``labor relations 
credit rating system.'' \93\ Under this provision, local labor 
bureaus collect information on specific worker rights 
violations and, within seven working days after issuing an 
administrative punishment decision, enter the information into 
a labor relations rating database. An enterprise whose 
information appears in the database loses or risks losing 
government investment and procurement benefits and 
opportunities. The ultimate impact of this system remains an 
open question because ratings ultimately are assigned by 
government labor bureaus and not by employees or their elected 
representatives.

                                Hangzhou

    Hangzhou city has implemented an ``early warning'' system 
for wage payment violations. Under this system, as soon as 
authorities determine that a company has failed to pay workers' 
salaries for one month or more, or that arrears total 50,000 
yuan or more and involve 30 or more employees, authorities 
notify employees to take action to protect their rights and 
interests.\94\ This new system is in the early stages of 
implementation, and data on its performance and impact as yet 
are unavailable.

------------------------------------------------------------------------
         Labor Dispute Cases Increase With New Labor Legislation
-------------------------------------------------------------------------
  Following implementation of the Labor Contract Law and the Employment
 Promotion Law, both of which took effect on January 1, 2008, and the
 new Law on the Mediation and Arbitration of Labor Disputes, which took
 effect May 1, 2008, locales have reported surges in the filing of labor
 dispute cases.\95\ A majority of cases have involved non-payment of
 salaries and wages in arrears.\96\ While implementation of the new
 legislative framework contributed to the rise in labor disputes during
 2008, other factors contributed as well. Yuan appreciation, inflation,
 and more stringent environmental protection requirements increased
 operating costs, prompting relocation of some factories to lower cost
 centers outside of China (e.g., Vietnam). In some cases where firms
 attempted to liquidate plant assets before settling unpaid wages,
 workers reportedly have been making use of litigation and arbitration
 to assert legal claims to plant assets, but success rates in litigation
 are not known at this time.
  The increase in labor dispute caseload has created staffing problems
 that have contributed in some locales to non-compliance with legally
 mandated 60-day deadlines for the resolution of disputes.\97\ This
 problem has been exacerbated by methods for setting staffing levels of
 local labor bureaus. Staffing levels are determined, in part, based on
 the official census. The official census, in turn, is based on the
 registered population, and typically excludes the largely unregistered
 migrant worker population. In many areas, the majority of workers
 filing labor dispute cases have been migrants, and, as a result, would
 not be reflected in staffing plans formulated using standard methods.
------------------------------------------------------------------------

               SIGNIFICANT LABOR ACTIONS DURING 2007-2008

    High profile strikes remain rare in China. China's first 
major pilots' strike occurred during 2008, as did other 
significant work stoppages and protests over the last 12 
months.\98\ Officials increasingly and more vocally began 
calling for legislative and regulatory action to govern, rather 
than to suppress, strikes and other work stoppages.\99\
    March 2008 saw multiple labor actions by civilian airline 
pilots in China. In early March 2008, pilots from Wuhan East 
Star Airlines and Shanghai Airlines called in sick en masse. On 
March 31, pilots from Yunnan Airlines, a subsidiary of China 
Eastern Airlines, protested low pay by landing at their 
destinations, but then not permitting passengers to disembark 
before taking off again and flying back to their points of 
origin.\100\ As reported by Xinhua, the pilots, the oldest of 
whom had been with the airline since 1995, had complained that 
workloads were ``too heavy and involved immense pressure,'' and 
that the ``return flights'' were protest actions.\101\ Shortly 
thereafter, 13 pilots collectively submitted their 
resignations, which the company reportedly rejected 
immediately.\102\ One editorial in the state-controlled 
Economic Observer Online suggested that the pilots' actions 
might have been preempted if they had enjoyed the benefit of 
effective union representation in their dealings with airline 
management.\103\
    Under the terms of contracts each pilot previously had 
signed with the airline, the airline was permitted to impose 
fines on pilots for resigning. Most contracts between pilots 
and state-owned carriers in China impose heavy penalties on 
pilots for resignation ``to prevent them from breaking away 
from the company,'' according to a prominent Chinese legal 
expert, as quoted by Xinhua.\104\ Chinese airlines face 
increasing difficulty recruiting qualified pilots, with a large 
number of pilot jobs unfilled and resignations on the 
rise.\105\ On September 10, 2008, the Intermediate People's 
Court in Wuhan city, Hubei province, ordered 10 of the original 
13 pilots to pay to the airline fines totaling 8 million yuan 
(US$1 million). The 8-million-yuan figure reportedly is roughly 
equivalent to the amount the airline invested in training the 
10 pilots.\106\ Initially the airline had sought 100 million 
yuan in compensation claiming it would suffer heavy losses if 
the pilots resigned.\107\ After the judgment was announced, one 
pilot reportedly ``feared the company will not accept the 
result, and refuse to give back [his] pilot [certificate].'' 
\108\
    In April 2008, Students and Scholars Against Corporate 
Misbehavior (SACOM), a Hong Kong-based NGO,\109\ alleged 
occupational safety and labor law violations at five firms, 
including Nine Dragons (ND Paper), a major Chinese paper 
manufacturer. Nine Dragons' CEO was elected in January to the 
Chinese People's Political Consultative Conference (CPPCC), a 
central-level leadership organ.\110\ Following an 
investigation, the Guangdong Provincial Federation of Trade 
Unions issued a report on May 26 that included findings of 
mistreatment of both managers and workers. In addition to 
unsafe working conditions--the company reported over 50 
industrial accidents, including 2 deaths and 8 serious injuries 
in the last year--the Union found the company's imposition of 
excessive penalties on employees to be a serious problem--fines 
totaling over 1 million yuan were imposed on over 70 percent of 
the company's workforce last year.\111\ The union has received 
no worker complaints, according to a union official.\112\

------------------------------------------------------------------------
                             Migrant Workers
-------------------------------------------------------------------------
  There are more than 170 million migrant workers in China, according to
 official statistics.\113\ Chinese migrants face numerous obstacles in
 the protection of their labor rights, and employers have exploited
 migrant workers' uprooted status to deny them fair working
 conditions.\114\ In February 2008, migrant workers for the first time
 joined the ranks of China's National People's Congress Deputies.\115\
 In July 2008, China's Ministry of Human Resources and Social Security
 established a new Department of Migrant Workers' Affairs. The new
 department will focus attention on problems that disproportionately
 affect migrant workers, such as wages arrears, access to social
 security and pension benefits, and discrimination. The department has
 announced its intention to focus attention on labor contracts for
 migrant workers.\116\ There were isolated reports during 2008 of
 migrant workers litigating and winning compensation for workplace
 injuries.\117\
  Non-payment of wages owed to migrant workers is rampant in China. The
 problem is particularly severe in the construction industry. Rural
 workers move frequently, and, when injured on the job, often return
 home, with no choice but to forfeit social insurance benefits. As a
 result, many migrant workers think of their contributions into the
 social insurance schemes as moneys they will not recover when needed,
 and some refuse to pay.\118\
  Next to unpaid wages, access to and portability of pension and social
 security benefits were among the most serious problems migrant workers
 faced during 2008. Local rules and regulations make it extremely
 difficult for migrant workers to remit their pension and social
 security benefits to their hometowns. Many of these same rules severely
 restrict the portability of pension and social security contributions
 made by workers and employers in locales in which workers are
 temporarily employed.\119\ Some localities began actively to address
 this problem during 2008. In Suzhou city, Jiangsu province, for
 example, migrant workers now are permitted to transfer pensions to
 their home location if the government department designated to receive
 the pension in the remote location agrees.\120\
  Under the new Labor Contract Law, labor contracts must require social
 security payments by both the worker and the employer. Local
 regulations in some locales, however, do not permit migrant workers,
 who typically reside in localities only for the duration of the project
 for which they are employed, to reclaim employers' social security and
 pension contributions when their work is done and they prepare to move
 on. In such circumstances, the accrued employer contributions remain
 with the local government. Some migrant workers, therefore, understand
 a labor contract only as a document requiring the payment by them of
 contributions for which they will have to expend effort later to
 recoup. For them, the perceived financial benefits of not signing a
 labor contract today outweigh the promise of untested legal protections
 in the future. As a result, some migrant workers, even those who are
 fully aware they have a legally enforceable right to work under a labor
 contract, refuse to sign labor contracts nonetheless because provisions
 originally designed to protect them are perceived to run counter to
 their short-term interests.
------------------------------------------------------------------------


------------------------------------------------------------------------
                       Migrant Workers--Continued
-------------------------------------------------------------------------
  The household registration (hukou) system perpetuates much of the
 discrimination that migrant workers confront. It remains to be seen
 whether the Department of Migrant Workers' Affairs will be permitted to
 emerge as a force for the reform or dismantling of the hukou system. A
 number of bureaucracies, including local public security bureaus, have
 vested interests in the perpetuation of the hukou system. As a result,
 the institutional challenges the new department faces are not
 insignificant.\121\
------------------------------------------------------------------------

                           WORKING CONDITIONS

    While migrant workers face disproportionate obstacles and 
risks in protecting their rights in China, poor working 
conditions--from insufficient wage guarantees, long working 
hours and uncompensated overtime, deficiencies in benefits, and 
workplace accidents, particularly for miners--impact Chinese 
workers, migrant and non-migrant alike.

                                 Wages

    The 1994 Labor Law guarantees minimum wages for workers, 
and assigns local governments to set wage standards for each 
region.\122\ The new Labor Contract Law improves formal 
monitoring requirements to verify workers receive minimum 
wages. Article 74 requires local labor bureaus to monitor labor 
practices to ensure rates adhere to minimum wage standards. 
Article 85 imposes legal liability on employers who pay rates 
below minimum wage. In addition, Article 72 guarantees minimum 
hourly wages for part-time workers.\123\
    Illegal labor practices have undermined minimum wage 
guarantees. Wage arrears remain a serious problem, especially 
for migrant workers. Subcontracting practices within industry 
exacerbate the problem of wage arrearages. When investors and 
developers default on their payments to construction companies, 
workers at the end of the chain of labor subcontractors lack 
the means to recover wages from the original defaulters. 
Subcontractors, including companies that operate illegally, 
neglect their own duties to pay laborers and leave workers 
without any direct avenue to demand their salaries. In 2007, 
the Commission reported a steady increase in the number of 
workers who turned to labor arbitration to settle their 
disputes with employers.\124\ As detailed below, this trend 
appears to have continued.\125\

                             Working Hours

    Chinese labor law mandates a maximum 8-hour workday and 44-
hour average workweek.\126\ Forced overtime and workdays much 
longer than the legally mandated maximum are not uncommon, 
especially in export sectors, where some employers avoid paying 
overtime rates by compensating workers on a piece-rate basis 
with quotas high enough to avoid requirements to pay overtime 
wages.\127\ It has been reported that suppliers in China avoid 
exposing themselves to claims of requiring illegal, long hours 
by hiring firms that help them set up double booking systems 
for foreign importers who aim to adhere to Chinese rules and 
regulations. These firms not only help suppliers prepare books 
to pass audits, but also coach managers and employees on 
answers to give the auditors.\128\

                                Benefits

    Gaps in social security and labor insurance coverage remain 
widespread in China. Under Chinese labor law, local governments 
bear responsibility for providing coverage for retirement, 
illness or injury, occupational injuries, joblessness, and 
childbirth.\129\ This means that systemic deficiencies in local 
governance exacerbate shortcomings in the provision of social 
security benefits. Improved oversight of social security 
benefits funds has been the focus of attention in some locales, 
but problems remain.\130\

                             Mine Accidents

    China's mining sector continues to have high accident and 
death rates. Miners are limited in their ability to promote 
safer working conditions in part due to legal obstacles to 
independent worker organizing. Market-oriented reforms since 
the 1980s led to the privatization of operations at thousands 
of formerly state-run mines. Facilities operated by private 
contractors failed to maintain even the minimum mine safety 
standards and practices that were upheld under state control, 
and unsafe mines remain in operation.\131\ Collusion between 
mine operators and local government officials reportedly 
remains widespread; in some cases, miners reportedly may earn 
higher than average wages for working in unsafe mines.\132\
    Media control following accidents remains strong. Central 
government directives encourage local governments to pressure 
bereaved families into signing compensation agreements, and to 
condition out-of-court compensation settlements on forfeiture 
by bereaved families of their rights to seek further 
compensation through the court system. There have been reports 
of local officials preempting class actions by prohibiting 
contact among members of bereaved families in order to 
forestall coordination.\133\

                              CHILD LABOR

    In spite of legal measures to prohibit the practice of 
child labor in China, child labor remains a persistent 
problem.\134\ As a member of the International Labour 
Organization (ILO), China has ratified the two core conventions 
on the elimination of child labor.\135\ China's Labor Law and 
related legislation prohibit the employment of minors under 
16,\136\ and both national and local legal provisions 
prohibiting child labor stipulate a series of fines for 
employing children.\137\ Under the Criminal Law, employers and 
supervisors face prison sentences of up to seven years for 
forcing children to work under conditions of extreme 
danger.\138\ Systemic problems in enforcement, however, have 
dulled the effects of these legal measures. The overall extent 
of child labor in China is unclear in part because the 
government classifies data on the matter as ``highly secret.'' 
\139\
    Child laborers reportedly work in low-skill service sectors 
as well as small workshops and businesses, including textile, 
toy, and shoe manufacturing enterprises.\140\ Many underage 
laborers reportedly are in their teens, typically ranging from 
13 to 15 years old, a phenomenon exacerbated by problems in the 
education system and labor shortages of adult workers.\141\ 
Children in detention facilities also have been subjected to 
forced labor.\142\ Events during 2008, 
especially the Dongguan forced labor scandal, highlighted the 
existence of what the ILO terms the ``worst forms of child 
labor.'' \143\ 
Reports of children as young as 12 years old working in the 
production of merchandise for the 2008 Summer Olympic Games in 
Beijing only underscored the Chinese government's inability to 
prevent child labor.\144\
    The Chinese government, which has condemned the use of 
child labor and pledged to take stronger measures to combat 
it,\145\ permits ``work-study'' programs and activities that in 
practical terms perpetuate the practice of child labor, and are 
tantamount to official endorsement of it.\146\ Under work-study 
programs implemented in various parts of China, children who 
are elementary school students pick crops and engage in other 
physical labor.\147\ [See Section IV--Xinjiang for more 
information on conditions in the Xinjiang Uyghur Autonomous 
Region.]
    Central government legislation allows this form of child 
labor. National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
labor organized by schools and other educational and vocational 
institutes do not constitute the use of child labor when such 
activities do not adversely affect the safety and health of the 
students.\148\ The Education Law supports schools that 
establish work-study and other programs, provided that the 
programs do not negatively affect normal studies.\149\ A 
nationwide regulation on work-study programs for elementary and 
secondary school students outlines the general terms of such 
programs, which it says are meant to cultivate morals, 
contribute to production outputs, and generate resources for 
improving schools.\150\ These provisions contravene China's 
obligations as a Member State to ILO conventions prohibiting 
child labor.\151\ In 2006, the ILO's Committee of Experts on 
the Applications of Conventions and Recommendations 
``expresse[d] . . . concern at the situation of children under 
18 years performing forced labor not only in the framework of 
re-educational and reformative measures, but also in regular 
work programs at school.'' \152\

------------------------------------------------------------------------
                              Forced Labor
-------------------------------------------------------------------------
  On April 28, 2008, Chinese media reported that more than 1,000
 children had been trafficked from Liangshan, Sichuan province, to work
 in factories across the Pearl River Delta.\153\ Local police sources
 were quoted as saying that, over the course of two days, at least 167
 children trafficked from Sichuan had been rescued. Another government
 official allegedly reported that a team of 20 officials from the
 Liangshan region had arrived in Dongguan to help repatriate the
 children.\154\ Dongguan's Deputy Mayor, however, told a press
 conference that the government had investigated over 3,600 companies
 employing 450,000 people, and that, ``in the factories we inspected, we
 did not come across any large-scale use of child labor. There might be
 some child labor from Liangshan, but at present we just don't have the
 evidence.'' \155\
  In part because the scandal was contemporaneous with coverage of the
 May 2008 Sichuan earthquake and the Olympic torch procession, press
 coverage was less extensive than that received by the Shanxi brick kiln
 forced labor scandal of 2007 and similar reported incidents dating back
 to 2003.\156\ The persistence of forced labor networks revealed
 stunning defiance by local officials of the central leadership's
 instructions last year, following the Shanxi brick kiln scandal, to
 investigate and to put an end to forced labor. Following as it did on
 the heels of last year's events in Shanxi, the Dongguan scandal reveals
 the weakness even of China's paramount leaders in enforcing the most
 basic of worker rights against China's powerfully embedded labor
 trafficking networks.\157\
  Article 244 of the PRC's Criminal Law makes forced labor a crime.
 Events in 2008 showed the deterrent value of this provision to be
 inadequate at best under current conditions.\158\ Current law applies
 only to legally recognized employers and does not apply to individuals
 or illegal workplaces. As the Commission noted in its last Annual
 Report, the All-China Lawyers Association in June 2007 asked the
 National People's Congress Standing Committee to introduce new
 legislation making slavery a criminal charge.\159\ It is unclear at the
 time of this writing whether such legislation is in process. However,
 in March 2008, members of the Chinese People's Political Consultative
 Conference (CPPCC) recommended to the CPPCC (which is not a lawmaking
 body) that the Criminal Law be amended to criminalize ``violently
 forcing labor.'' \160\
  The aftermath of these scandals has revealed a more general lack of
 victims support services in China. Officials regarded wages in arrears
 as the central issue, not criminal assault and unlawful deprivation of
 liberty.\161\ Under the All China Lawyers Association's Guiding Opinion
 on the Handling of Collective Cases, lawyers who file collective suits
 (the Chinese analog of class actions) on behalf of former forced
 laborers, are required to report all relevant details of the case to
 local government officials, regardless of whether those officials
 themselves are the target of the suit. There are no conflict of
 interest exemptions or provisions. The Opinion stipulates that ``after
 accepting a collective case lawyers must promptly explain the facts
 through the appropriate channels to the government organizations
 involved.'' \162\
------------------------------------------------------------------------


------------------------------------------------------------------------
                         Forced Labor--Continued
-------------------------------------------------------------------------
  As reported in the Commission's 2007 Annual Report, in May and June
 2007, Chinese media and Internet activists uncovered a network of
 forced labor in brick kilns in Shanxi and Henan provinces. On April 1,
 2008, the Linfen Municipal Intermediate People's Court accepted a civil
 suit filed by four of the brick kiln workers, against five defendants
 who had been criminally prosecuted in August 2007 and are currently
 serving prison terms.\163\ Plaintiffs reportedly are seeking damages
 for lost earnings, physical injury, and mental distress.
  The strategy in filing the case, according to their lawyers, is to
 prompt the Linfen government--not the defendants--to settle directly,
 to contribute to a court-awarded settlement, or both. Legislators and
 legal scholars revising the PRC's Law on State Compensation have
 promoted the establishment by local governments of compensation funds
 to provide damages to victims in criminal cases in which there is no
 realistic prospect of damages paid by criminal defendants.\164\ To the
 extent that this case publicizes the utility of such local compensation
 funds, it may help propel the development of public interest litigation
 in China.
------------------------------------------------------------------------

                    U.S.-CHINA BILATERAL COOPERATION

    Pursuant to Letters of Understanding renewed in 2007 
between the United States Department of Labor and two Chinese 
government agencies, the two countries continued to conduct 
cooperative activities during 2008 on wage and hour laws, 
occupational safety and health, mine safety, and pension 
oversight, with pledges by both sides to continue cooperative 
activities for three more years. In addition, implementation of 
two other cooperative agreements signed in 2007 in the areas of 
unemployment insurance program administration and labor 
statistics continued apace in 2008.\165\

------------------------------------------------------------------------
             China's International Worker Rights Commitments
-------------------------------------------------------------------------
  As a member of the International Labour Organization (ILO), China is
 obligated to respect a basic set of internationally recognized labor
 rights for workers, including freedom of association and the
 ``effective recognition'' of the right to collective bargaining.\166\
 China is also a permanent member of the ILO's governing body.\167\ The
 ILO's Declaration on the Fundamental Principles and Rights at Work
 (1998 Declaration) commits ILO members ``to respect, to promote and to
 realize'' these fundamental rights based on ``the very fact of [ILO]
 membership.'' \168\
------------------------------------------------------------------------


------------------------------------------------------------------------
       China's International Worker Rights Commitments--Continued
-------------------------------------------------------------------------
  The ILO's eight core conventions articulate the scope of worker rights
 and principles enumerated in the 1998 Declaration. Each member is
 committed to respect the fundamental right or principle addressed in
 each core convention, even if that member state has not ratified the
 convention. China has ratified four of the eight ILO core conventions,
 including two core conventions on the abolition of child labor (No. 138
 and No. 182) and two on non-discrimination in employment and occupation
 (No. 100 and No. 111).\169\ The ILO has reported that the Chinese
 government is preparing to ratify the two core conventions on forced
 labor (No. 29 and No. 105).\170\ Chinese labor law on paper generally
 incorporates the basic obligations of the ILO's eight core conventions,
 with the exception of the provisions relating to the freedom of
 association and the right to collective bargaining,\171\ but many of
 these obligations remain unrealized in practice.
  The Chinese government is a state party to the International Covenant
 on Economic, Social, and Cultural Rights (ICESCR), which guarantees the
 right of workers to strike, the right of workers to organize
 independent unions, the right of trade unions to function freely, the
 right of trade unions to establish national federations or
 confederations, and the right of the latter to form or join
 international trade union organizations.\172\ In ratifying the ICESCR,
 the Chinese government made a reservation to Article 8(1)(a), which
 guarantees workers the right to form free trade unions. The government
 asserts that application of the article should be consistent with
 Chinese law, which does not allow for the creation of independent trade
 unions.\173\
------------------------------------------------------------------------

                         Freedom of Expression


                              INTRODUCTION

    Over the past year, the Chinese government and Communist 
Party continued to deny Chinese citizens the ability to fully 
exercise their rights to free expression. In its 2007 Annual 
Report, the Commission noted that China lacked a free press and 
that Chinese officials provided only limited government 
transparency, practiced pervasive censorship of the Internet 
and other electronic media, and placed prior restraints on a 
citizen's ability to freely publish.\1\ This past year, the 
Commission has observed little to no improvement on these 
issues. To the contrary, censorship and manipulation of the 
press and Internet for political purposes worsened due to major 
events, including Tibetan protests that began in March 2008 and 
China's hosting of the 2008 Beijing Summer Olympic Games. The 
Chinese government continued to impose prior restraints on the 
publication of printed and online material. Authorities 
continued to punish religious practitioners for publishing or 
distributing religious materials without government permission. 
[See Section II--Freedom of Religion--Controls Over Religious 
Publications.] Officials continued to use vague laws to punish 
journalists, writers, rights advocates, and others for 
peacefully exercising their right to free expression, 
particularly those who criticized the government or Party in 
the context of the Olympics. Officials also continued to 
restrict the freedom of expression of Uyghurs [see Section IV--
Xinjiang--Controls Over Free Expression in Xinjiang] and to 
harass foreign journalists, despite a pledge to grant them 
greater press freedom for the Olympics [see Section II--2008 
Beijing Summer Olympic Games--Commitment to Foreign 
Journalists].
    Over the past year, the government continued its gradual 
policy of increasing citizen access to government-held 
information. Officials, however, maintained broad discretion on 
the release of government information. Open government 
information measures 
enabled officials to promote images of openness, and quickly to 
provide official versions of events, while officials maintained 
the ability at the same time to censor unauthorized accounts.
    The spread of the Internet and cell phones as mediums for 
expression continued to pose a challenge to the Party, a trend 
noted in the Commission's 2007 Annual Report.\2\ Internet and 
cell phone use continues to grow. By the end of June 2008, the 
number of Internet and cell phone users in China had risen to 
253 million\3\ and 601 million,\4\ respectively, increases of 
56 percent and 20 percent over the previous year.\5\ As the 
Commission noted in its 2007 Annual Report, Chinese citizens 
used these technologies to raise public awareness and protest 
government policies,\6\ a trend that continued this past 
year.\7\ Officials, however, continued to punish citizens who 
used these technologies to organize protests or to share 
politically sensitive information.\8\

   CHINESE CITIZENS ENTITLED TO FREEDOM OF EXPRESSION, SPEECH, PRESS

    Article 19 of the International Covenant on Civil and 
Political Rights (ICCPR), which China has signed and committed 
to ratify, provides:

        ``1. Everyone shall have the right to hold opinions 
        without interference. 2. Everyone shall have the right 
        to freedom of expression; this right shall include 
        freedom to seek, receive and impart information and 
        ideas of all kinds, regardless of frontiers, either 
        orally, in writing or in print, in the form of art, or 
        through any other media of his choice.'' \9\

    The Universal Declaration of Human Rights includes a 
similar provision.\10\ Article 35 of China's Constitution 
states: ``Citizens of the People's Republic of China enjoy 
freedom of speech, of the press, of assembly, of association, 
of procession, and of demonstration.'' \11\
    International human rights standards allow for restrictions 
on freedom of expression under limited circumstances. Article 
19 of the ICCPR provides that such restrictions must be 
``provided by law'' and ``necessary'' for the ``respect of the 
rights or reputations of others,'' ``protection of national 
security or of public order (ordre public),'' or ``of public 
health or morals.'' \12\ Chinese officials say that their 
restrictions on freedom of expression are ``in accordance with 
law,'' \13\ and at times cite national security or public 
safety concerns.\14\ Chinese law, however, does not require 
officials to prove that their actions are ``necessary'' to 
protect ``national security'' or ``public order'' and only 
vaguely defines crimes of ``endangering national security'' or 
``disturbing public order,'' allowing officials broad 
discretion to punish peaceful activity.'' \15\

               GOVERNMENT'S LIMITED STEPS TOWARD OPENNESS

    Over the past year, the government continued its gradual 
policy of increasing citizen access to government-held 
information. Both President Hu Jintao and Premier Wen Jiabao 
issued statements endorsing greater government transparency, 
echoing similar calls in recent years.\16\ As noted in the 
Commission's 2007 Annual Report, the first national Regulations 
on Open Government Information (OGI regulation) went into 
effect in May 2008, giving citizens the right to request 
government information and calling on government agencies at 
all levels to proactively disclose ``vital'' information to the 
public in a timely manner.\17\ [See addendum at the end of this 
section for Commission analysis of the OGI regulation.] The 
government and Communist Party reportedly increased media 
access to the 17th Party Congress in October 2007 and the March 
2008 meetings of the Chinese People's Political Consultative 
Conference and National People's Congress (NPC), although 
official media appeared to exaggerate the actual 
improvement.\18\ In April 2008, the NPC Standing Committee 
announced that it would begin releasing draft laws to the 
public for review.\19\ The Standing Committee generally does 
not have the power to draft criminal and civil legislation, 
however, meaning such important laws are not covered by the new 
policy.\20\
    Systemic obstacles to obtaining information from the 
Chinese government have limited the impact of the OGI 
regulation. The Commission noted a few of these obstacles, such 
as China's state secrets laws and the lack of a free press, in 
its 2007 Annual Report.\21\ As noted in that report, the OGI 
regulation contains a state secrets exception giving officials 
broad discretion to withhold information.\22\ Since the 
regulation took effect, mainland Chinese and Hong Kong news 
organizations reported that some officials have been evasive or 
uncooperative when handling information requests and have cited 
the ``state secrets'' exception in refusing to disclose 
information.\23\ The central government issued an opinion in 
April 2008 imposing a purpose test on information requests, 
saying that officials could deny requests for information not 
related to the requesting party's ``production, livelihood and 
scientific and technological research.'' \24\ China's lack of 
an independent judiciary has further hindered effective 
implementation of the OGI regulation. Chinese courts have been 
reluctant to accept disclosure cases and had not ordered any 
government agencies to release information as of September 
2008.\25\
    With few checks on their power to withhold information, 
officials continued to keep critical information from the 
public. In September 2008, for example, officials in 
Shijiazhuang city, Hebei province, reportedly waited more than 
a month before informing provincial officials about complaints 
of contaminated milk, which resulted in at least four deaths 
and injuries to thousands of infants.\26\ An editor of the 
Southern Weekend, a Chinese newspaper with a reputation for 
more independent reporting, revealed on his blog that the paper 
had discovered cases of sick children in July but were unable 
to publish the stories because of censorship before the 2008 
Olympic Games.\27\ In the run-up to the Olympics in August, 
propaganda officials issued several directives to domestic 
journalists, one of which warned editors that ``all food safety 
issues . . . is off limits.'' \28\ After the milk scandal broke 
open, officials ordered journalists to follow the ``official'' 
line and banned commentaries and news features about the 
tainted milk products.\29\ At least one Chinese journalist 
publicly criticized this censorship and called for press 
freedom.\30\ [For more information on the government's handling 
of the milk crisis, see Section III--Commercial Rule of Law--
Food and Product Safety.]
    In some cases this past year, officials and the state-
controlled media provided information about politically 
sensitive events more quickly than they might have in the past, 
but such moves were not necessarily a sign of greater openness. 
As noted in a Newsweek article by Jonathan Ansfield, Xinhua's 
English news service reported an attack that killed at least 16 
policemen in the Xinjiang Uyghur Autonomous Region on August 4, 
2008, more than an hour before the Chinese version and little 
more than three hours after the event occurred.\31\ Ansfield 
notes, however, that Chinese journalists told him that this 
unusual speed was ``no fluke,'' but rather the result of a top 
Party propaganda official ordering journalists at central news 
organizations to take the initiative to report ``major sudden 
incidents'' in order to ``get the official scoop on events 
before overseas media do, particularly around the time of the 
Olympic Games.'' One journalist called it a ``form of 
progress'' as it allowed them to report sensitive news before 
receiving specific instructions from propaganda authorities, 
but it only applied to central media outlets like Xinhua, and 
journalists were aware that they must still toe the Party line 
and that not all stories could be covered this way.\32\
    In May 2008, foreign observers noted that Chinese officials 
responded to the devastating Sichuan earthquake with unusual 
openness.\33\ The more open response of China's media, however, 
was in part due to large numbers of domestic reporters defying 
an initial ban on traveling to the disaster areas and other 
factors beyond the government's control.\34\ Nevertheless, 
officials sought to take credit for the ``openness'' for 
propaganda purposes. A Xinhua article described the response as 
showing ``unprecedented transparency,'' gave credit to recent 
reforms including the OGI regulation, and noted the ``positive 
response from domestic and international observers alike,'' 
making no mention of the original ban on travel or subsequent 
orders by Party and government officials dictating how the 
media should cover the event.\35\ [For more information on 
Party and government censorship of the media following the May 
2008 Sichuan earthquake, see box titled Tibetan Protests, 
Sichuan Earthquake, Olympics below.]

CENSORSHIP OF THE MEDIA AND INTERNET SERVES THE PARTY AND GOVERNMENT'S 
                               INTERESTS

                   Censorship of Media and Publishing

    The Communist Party continues to control what journalists 
may write or broadcast. In a June 2008 speech, President and 
Party General Secretary Hu Jintao reiterated the Chinese 
media's subordinate role to the Party, telling journalists they 
must ``serve socialism'' and the Party.\36\ The Party's Central 
Propaganda Department (CPD) issues directives that Chinese 
journalists must follow. The directives do not meet the 
international human rights standard requirement that they be 
``prescribed by law'' since they are issued by a Party entity, 
rather than pursuant to legislation issued by one of the organs 
authorized to pass legislation under the PRC Legislation Law. 
Reporters have no legal recourse to challenge such 
restrictions. Those that cross the line are subject to firing 
or removal of content. In November 2007, the CPD ordered the 
dismissal of a journalist who wrote about a major railroad line 
built with substandard materials.\37\ In July 2008, officials 
pulled the Beijing News from stands after it published a photo 
of injured protesters at the 1989 Tiananmen Square 
demonstrations.\38\
    The Chinese government relies on prior restraints on 
publishing, including licensing and other regulatory 
requirements, to restrict free expression.\39\ Anyone wishing 
to publish a book, newspaper, or magazine, or to work legally 
as a journalist, must obtain a license from the government's 
press regulator. The Chinese government forbids private 
publishing of religious materials and restricts the production 
of religious publications to state-licensed enterprises. Such 
restrictions have a chilling effect, and officials use them as 
a pretext to punish free expression. Shi Weihan, owner of a 
Christian bookstore in Beijing, was detained in November 2007 
and accused of illegally printing and distributing religious 
literature.\40\ In June 2008, authorities detained Ha Jingbo 
and Jiang Ruoling, two middle school teachers from Dongfeng 
county in Jilin province, for distributing educational leaflets 
about Falun Gong.\41\ In November 2007, a court in Guangdong 
province sentenced legal activist and writer Yang Maodong (who 
uses the pen name Guo Feixiong) to five years' imprisonment for 
``illegal operation of a business,'' for using another book's 
publication number, the quantity of which the government 
limits, to publish his own book. Local officials were 
apparently angry at Guo's book, which concerned a political 
scandal.\42\
    In May 2008, new book publishing regulations went into 
effect. Similar to other publishing regulations in China, the 
new regulations require book publishers to ``insist on Marxism-
Leninism, Mao Zedong Thought'' and ``the correct guidance of 
public opinion,'' to have a government-approved sponsor and 
meet financial requirements, and to abide by the government's 
plans for the ``number, structure, and distribution'' of 
publishing units.\43\ Officials continued to target political 
and religious publications as part of an ongoing campaign to 
``clean up'' the publishing industry.\44\

------------------------------------------------------------------------
                           Internet Censorship
-------------------------------------------------------------------------
  The Chinese government and Communist Party continue to control the
 Internet through an effective and pervasive system that relies on
 government regulation and public officials and Internet companies
 monitoring and censoring online content. China's measures to control
 the Internet do not conform to international standards for freedom of
 expression because they not only address issues of public concern such
 as pornography, privacy protection, and spam, but also content
 officials deem politically unacceptable. China's top officials continue
 to signal that its control over the Internet is motivated by political
 concerns. In his June 2008 speech, President Hu Jintao reiterated the
 importance of co-opting the Internet as a ``forward position for
 disseminating socialist advanced culture.'' \45\
  All Web sites hosted in China must either be licensed by or registered
 with the government,\46\ and sites providing news content or audio and
 video services require additional license or registration.\47\

  <bullet> In September 2007, the Shanghai Daily reported that officials
   shut down 9,593 unregistered Web sites, in a move that occurred just
   before the 17th Party Congress in October.\48\
  <bullet> In May 2008, officials reportedly ordered a domestic human
   rights Web site to shut down for failing to have the proper
   license.\49\

  This past year, Chinese officials also targeted audio and video
 hosting Web sites, whose content is increasingly popular but more
 difficult to censor, as well as online maps.

  <bullet> Provisions that went into effect in January 2008 reiterated
   the licensing requirement for audio and video Web sites and now
   require them to be state-owned or state-controlled.\50\
  <bullet> In March 2008, the State Administration of Radio, Film, and
   Television reported the results of a two-month crackdown, saying that
   it shut down 25 video Web sites and warned 32 others for, among other
   things, failing to have the proper license or ``endangering the
   security and interests of the state.'' \51\
  <bullet> Following the Tibetan protests that began in March, access to
   the U.S.-based video sharing Web site YouTube.com was reportedly
   blocked after dozens of videos about the protests showed up on the
   site.\52\ No footage of the protests was found on the Chinese-based
   video Web sites 56.com, Youku.com, and Tudou.com.\53\
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Internet Censorship--Continued
-------------------------------------------------------------------------
  <bullet> In February 2008, the State Bureau of Surveying and Mapping
   issued an opinion telling online map providers that they must obtain
   the appropriate licenses and avoid ``geographical information that
   could harm national security.'' \54\
  <bullet> In April 2008, officials began a year-long campaign to remove
   ``illegal'' maps on the Internet, including those that commit
   ``errors'' such as identifying Taiwan as separate from China.\55\

  Officials continued to use their control over the connection between
 China and the global Internet to block access to politically sensitive
 foreign-based Web sites, while also policing domestic content.\56\ Over
 the past year, media reports and testing done by OpenNet Initiative
 indicated that access within China to the Web sites for foreign or Hong
 Kong news organizations such as Guardian, BBC, Deutsche Welle, Hong
 Kong-based Apple Daily, Radio Free Asia, and Voice of America, human
 rights organizations such as Amnesty International, Reporters Without
 Borders, Committee to Protect Journalists, Human Rights in China, and
 Human Rights Watch, and sites relating to Tibetans, Uyghurs, Taiwan,
 Chinese activists, and the 1989 Tiananmen democracy protests was
 blocked at various times.\57\ In response to foreign reporters'
 complaints over blocked Web sites, a Chinese Olympics official publicly
 acknowledged in late July 2008 that sites relating to Falun Gong were
 blocked and would remain blocked despite the Olympics. Following those
 complaints, foreign media reported that some previously blocked sites,
 including those for Amnesty International, Human Rights Watch, and
 Radio Free Asia, became accessible at the Olympic village.\58\ Domestic
 Web sites continued to be targeted as well. In the first half of 2008,
 officials reportedly ordered several HIV/AIDS Web sites to shut down or
 remove content.\59\ In addition, the Commission has received no
 indication that access to its Web site has become available in China.
  The government compels companies providing Internet services in China,
 including those based in other countries, to monitor and record the
 online activities of its customers, to filter and delete information
 the government considers ``harmful'' or politically sensitive, and to
 report suspicious activity to authorities.\60\ An October 2007 report
 on Chinese Internet censorship released by Reporters Without Borders
 and Chinese Human Rights Defenders and written by an unnamed Chinese
 employee of an Internet company said that there were between 400 and
 500 banned key words and that companies censored these words to avoid
 fines.\61\ Internet users in China frequently complain that censors
 remove their postings or prevent them from appearing at all.\62\
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Internet Censorship--Continued
-------------------------------------------------------------------------
  Such censorship is particularly evident before or after events
 perceived by the Party to be politically sensitive. After Tibetan
 protests began in March 2008, foreign media reported that searches on
 the popular Chinese search engine Baidu and Google for news stories on
 Tibet turned up no protest news in the top results or inaccessible
 links.\63\ In April 2008, Chinese media reported that Baidu, Google,
 and Yahoo China were censoring searches that contained the word
 ``Carrefour,'' a French department store, amid public outcry over
 protests during the Paris leg of the Olympic torch relay.\64\ In the
 run-up to the Olympics, public officials across China ordered hotels to
 ensure that they had installed Internet security systems capable of
 monitoring and censoring users' Internet activities.\65\ In October
 2008, Information Warfare Monitor and ONI Asia issued a report
 detailing a large-scale surveillance system of Internet text messages
 sent by customers of Tom-Skype, a joint venture between a Chinese
 company and eBay, which owns Skype. They found that text messages
 relating to Falun Gong, Taiwan independence, the Chinese Communist
 Party, and words such as democracy, earthquake, and milk powder had
 been censored, and that customers' personal information, text messages,
 and chat conversations between users in China and outside China had
 been recorded.\66\ Skype's president said that the company was aware
 that the Chinese government was monitoring chat messages but not that
 its Chinese partner was storing those messages deemed politically
 sensitive.\67\
  The Communist Party also continued to directly order the removal of
 content or hire citizens to go online to influence public debate. In
 September 2008, Party propaganda officials ordered major financial Web
 sites to remove ``negative'' reports regarding China's stock markets
 amid a sharp downturn.\68\ According to one expert on Chinese media,
 the Party has funded training for an estimated 280,000 Web commentators
 whose task is to promote the Party's views in online chat rooms and
 forums, and to report ``dangerous'' content to authorities.\69\
  Rebecca Mackinnon, an expert on China's Internet controls, said in
 August 2008 that Internet users in China now faced a ``more targeted
 and subtle approach to censorship than before.'' \70\ She said blog
 postings about politically sensitive events were quickly taken down,
 while controlled reporting in Chinese media was allowed. She said the
 ``strategy seems clear: Give China's professional journalists a longer
 leash to cover breaking news even if it's not positive--since the news
 will come out anyway and unlike bloggers, the journalists are still on
 a leash.''
------------------------------------------------------------------------

           Restrictions Bolster Image of Party and Government

    The Chinese government and Communist Party continue to use 
the media and Internet to project an image of stability and 
harmony and ensure that the Party and central government are 
reflected positively. Such measures increase in the run-up to 
major political meetings and public events and following 
disasters and incidents of civil unrest or citizen activism. 
Three events this past year--Tibetan protests that began in 
March, the devastating Sichuan earthquake in May, and China's 
preparations for and hosting of the 2008 Olympic Games in 
August--illustrate the ways the Party and government restrict 
free expression in an attempt to manipulate public opinion in 
their favor.

------------------------------------------------------------------------
             Tibetan Protests, Sichuan Earthquake, Olympics
-------------------------------------------------------------------------
Tibetan Protests
  Chinese media initially devoted little coverage to a series of
 protests in Tibetan areas that began in March 2008.\71\ Web sites
 censored searches for news reports and footage of the protests, and
 some foreign Web sites and foreign satellite news telecasts about the
 protests were blocked.\72\ [See Censorship of the Media and Internet
 Serves the Party and Government's Interests--Internet Censorship
 earlier in this section.] When Chinese media stepped up reporting on
 the protests, they focused on violence committed against the ethnic Han
 population and denounced the Dalai Lama as a ``wolf with the face of a
 human and the heart of a beast.'' \73\ Chinese media also described
 U.S. Speaker of the House Nancy Pelosi as a ``disgusting figure'' and
 attacked the foreign media for its ``biased'' coverage.\74\ Officials
 expelled foreign journalists from Tibetan areas where reported protests
 had occurred and barred them from entering those areas, a move the head
 of the International Olympic Committee said contravened China's Olympic
 promise to provide greater press freedom to foreign journalists.\75\
 Cell phone, landline, and Internet transmissions were also reportedly
 disrupted in Tibetan areas of western China, adding to the difficulty
 of accessing information.\76\ [See Section V--Tibet for more
 information on the protests.]

Sichuan Earthquake

  Media access in the immediate aftermath of an 8.0 magnitude earthquake
 that hit Sichuan province on May 12, 2008, and killed nearly 70,000,
 was more open compared to previous natural disasters. Chinese
 television aired extensive and graphic live coverage from disaster
 areas and foreign reporters operated with few restrictions.\77\
 Propaganda officials, however, had initially ordered most journalists
 not to travel to disaster areas.\78\ After the order was ignored,
 public officials rescinded the original order, but instructed the
 domestic media to highlight the government's proactive response, avoid
 ``negative'' stories, and promote ``national unity'' and ``stability.''
 \79\ Officials later ordered domestic media not to report on protests
 by grieving parents, forcibly removed parents from protest sites, and
 briefly detained foreign reporters trying to cover the protests.\80\
------------------------------------------------------------------------


------------------------------------------------------------------------
        Tibetan Protests, Sichuan Earthquake, Olympics--Continued
-------------------------------------------------------------------------
Beijing Olympics

  In his June 2008 speech, President Hu Jintao told journalists to pay
 special attention to their coverage of the Olympics and said their
 first priority is to ``correctly guide opinion.'' \81\ In a January
 2008 speech to propaganda officials, Hu urged them to improve China's
 international image.\82\ From November 2007 to July 2008, propaganda
 officials issued several directives ordering journalists to avoid
 numerous topics for the Olympics, including air quality, food safety,
 protest zones designated for the games, and the performance of Chinese
 athletes.\83\ One directive ordered them to counter the ``negative''
 publicity stemming from protests along the Olympic torch relay by
 quickly producing reports that toed the Party line, as part of an
 ``unprecedented, ferocious media war against the biased western
 press.'' \84\ An ongoing campaign to weed out ``illegal publications''
 focused this past year on creating a ``positive public opinion
 environment'' for the Olympics.\85\
------------------------------------------------------------------------

 SELECTIVE USE OF LAWS TO PUNISH POLITICAL OPPONENTS AND HUMAN RIGHTS 
                               ACTIVISTS

    Officials continued to use vague laws to punish 
journalists, writers, rights advocates, and others for 
peacefully exercising their right to free expression, 
particularly those who criticized the Chinese government and 
Communist Party in the context of the Olympics. In 2006, the UN 
Working Group on Arbitrary Detention noted that China's vaguely 
defined crimes of endangering state security, splittism, 
subverting state power, and supplying state secrets left 
``their application open to abuse particularly of the rights to 
freedom of religion, speech, and assembly,'' and recommended 
the abolition of such ``political crimes.'' \86\ Among the most 
popular of these provisions to punish peaceful expression 
continued to be the ``inciting subversion of state power'' 
crime under Article 105(2) of the Criminal Law.\87\ Among those 
punished for this crime included outspoken health and 
environmental activist Hu Jia and land rights activist Yang 
Chunlin, after each tied their criticisms of the government and 
Party to the Olympics, and freelance writer Lu Gengsong, for 
his online essays. [See box titled Inciting Subversion: 
Punishment of Activists and Writers below.] Hu and Yang's 
arrests came despite claims by the Chinese foreign minister in 
February that it is ``impossible'' for someone in China to be 
arrested for saying ``human rights are more important than the 
Olympics.'' Officials targeted others for criticizing the 
government's response to the Sichuan earthquake. Sichuan 
officials detained retired professor Zeng Hongling in June 2008 
on charges of ``inciting subversion'' after she posted articles 
online alleging corruption and poor living conditions in areas 
affected by the earthquake.\88\

------------------------------------------------------------------------
        Inciting Subversion: Punishment of Activists and Writers
-------------------------------------------------------------------------
  Article 105(2) of the PRC Criminal Law reads in part: ``[w]hoever
 incites others by spreading rumors or slanders or any other means to
 subvert the State power or overthrow the socialist system shall be
 sentenced to fixed-term imprisonment of not more than five years'' \89\

Hu Jia\90\
Background: Well-known HIV/AIDS and environmental activist who for years
 has been an outspoken advocate for human rights and chronicler of
 rights abuses and who made extensive use of the Internet in his work.
 Hu had numerous run-ins with police, including spending more than 200
 days under virtual house arrest before his formal detention in December
 2007.\91\ A month before his January 2008 arrest, Hu provided testimony
 before the European Parliament and criticized China's human rights
 record and the Beijing Organizing Committee for the Games of the XXIX
 Olympiad.\92\
Sentence and Alleged Criminal Activity: On April 3, 2008, the Beijing
 No. 1 Intermediate People's Court sentenced Hu to three years and six
 months' imprisonment.\93\ Alleged ``subversive'' activities included
 posting essays online critical of the government's harassment of rights
 defenders and approach to governing Hong Kong, and making
 ``subversive'' comments to foreign reporters.

Yang Chunlin\94\
Background: Land rights activist who gathered more than 10,000
 signatures for a petition titled ``We Want Human Rights, Not the
 Olympics,'' which was also posted on the Internet. Most of the
 signatories were farmers seeking redress for land that officials
 allegedly took from them. Fellow petition organizers Yu Changwu and
 Wang Guilin were sentenced to reeducation through labor for two years
 and one-and-a-half years, respectively, for their advocacy on behalf of
 farmers in Fujin city, Heilongjiang province.\95\
Sentence and Alleged Criminal Activity: On March 24, 2008, the Jiamusi
 Intermediate People's Court in Heilongjiang sentenced Yang to five
 years' imprisonment for inciting subversion. Prosecutors accused Yang
 of writing essays critical of the Communist Party and alleged that the
 petition received heavy foreign media coverage that harmed China's
 image abroad. Prosecutors also accused Yang of accepting 10,000 yuan
 (US$1,430) from a ``hostile'' foreign group.\96\

Lu Gengsong\97\
Background: Freelance writer who has written about corrupt local
 officials who seize land in deals with property developers.\98\
Sentence and Alleged Criminal Activity: On February 5, 2008, the
 Hangzhou Intermediate People's Court affirmed Lu's four-year sentence.
 Alleged ``subversive'' activities included publishing on foreign Web
 sites essays that questioned the legitimacy of the Party-led government
 and called on activists, intellectuals, and religious activists to join
 together in opposition. The court made no attempt to determine the
 actual threat posed by the essays, none of which specifically called
 for violence.\99\
------------------------------------------------------------------------

    Officials also relied on vague charges of disturbing public 
order, inciting a disturbance, possessing state secrets, or 
inciting splittism, to punish free expression. Officials in 
Hubei province sentenced petitioner Wang Guilan to 15 months' 
reeducation through labor for disturbing social order after she 
spoke with a foreign reporter during the Olympics.\100\ In June 
2008, officials in Sichuan province detained and later 
sentenced Liu Shaokun, a middle school teacher, to one year of 
reeducation through labor after he posted photos of collapsed 
schools online and criticized their construction in a media 
interview.\101\ In another earthquake-related case, Sichuan 
officials arrested Huang Qi in July after he posted an article 
on his Web site detailing parents' demands for compensation and 
an investigation into the collapse of schools that took their 
children's lives.\102\ Officials charged Huang, founder of the 
rights advocacy Web site 64tianwang.com, with illegally 
possessing state secrets.\103\ In another state secrets case, 
officials released Hong Kong journalist Ching Cheong in 
February 2008, after he served almost two years of a five-year 
sentence.\104\ Ching was convicted of passing state secrets to 
a Taiwan foundation in a case that critics said lacked 
transparency and relied on weak evidence.\105\ Officials in 
Chengdu city, Sichuan province, detained freelance writer and 
journalist Chen Daojun in May 2008 on charges of inciting 
splittism,\106\ a crime under Article 103 of the Criminal 
Law,\107\ after he published an article on a foreign Web site 
calling for a halt in construction of a chemical plant, citing 
environmental concerns.\108\
    In its 2007 Annual Report, the Commission noted that 
Chinese officials' application of Article 25 of the Public 
Security Administration Punishment Law,\109\ which prohibits 
spreading rumors to 
disturb public order, threatened the free flow of 
information.\110\ Officials continued to apply this provision 
broadly to detain citizens for sharing information following 
emergencies\111\ or for organizing protests over the 
Internet.\112\ After a train collision in Shandong province, 
officials sentenced one citizen to five days of administrative 
detention for posting another person's Internet message, which 
contained what turned out to be inaccurate claims about the 
collision, even though few people viewed the post.\113\ 
Following a May 2008 protest against a chemical plant in 
Chengdu, officials put three activists under administrative 
detention pursuant to Article 25 for using the Internet to 
spread rumors and incite an illegal demonstration.\114\ In May, 
a top editor at Southern Metropolitan Daily wrote an editorial 
criticizing the Chinese public security's application of 
``spreading rumors'' provisions, saying it had a chilling 
effect on people's willingness to share information during 
public emergencies such as the Sichuan earthquake.\115\
    Officials also restricted individuals' freedom of 
expression by placing conditions on their release on bail or 
suspended sentence. Officials in the Guangxi Zhuang Autonomous 
Region accused Internet essayist Wang Dejia of ``inciting 
subversion,'' and released him on bail in January 2008, only 
after he agreed to stop posting online essays critical of the 
Chinese government and speaking with foreign journalists.\116\ 
Officials in Hubei province detained essayist Du Daobin in July 
for allegedly violating the terms of his suspended sentence by 
publishing articles overseas, days before his sentence was to 
expire.\117\

   HARASSMENT AND INTIMIDATION OF CITIZENS TO PREVENT FREE EXPRESSION

    Officials continued to harass citizens and warn them not to 
express opinions, particularly to foreign journalists and 
dignitaries. Plainclothes officers seized legal activist and 
law professor Teng Biao outside his home in Beijing in February 
2008, placed a sack over his head, and drove him away to be 
questioned.\118\ They warned him to stop writing articles 
criticizing China's human rights record and the Olympics or 
risk losing his university post and going to jail.\119\ In May, 
security personnel warned Zeng Jinyan, rights activist and wife 
of imprisoned human rights activist Hu Jia, that she would be 
prevented from leaving her home because ``a U.S. delegation 
wants to meet with you,'' referring to U.S. officials who had 
traveled to Beijing for the U.S.-China Human Rights 
Dialogue.\120\ Officials warned two human rights lawyers, Mo 
Shaoping and Zhang Xingshui, not to attend a May 27 lunch with 
Assistant Secretary of State David Kramer, who was taking part 
in the dialogue.\121\ In late June, officials detained or put 
under house arrest a group of human rights lawyers to prevent 
them from attending a dinner in Beijing with U.S. 
Representatives Chris Smith and Frank Wolf.\122\

  CHINESE GOVERNMENT ASSERTS THAT RESTRICTIONS ON FREE EXPRESSION ARE 
                              BASED IN LAW

    Officials continued to justify restrictions on freedom of 
expression with an appeal to laws, without regard to whether 
such laws or their application violate international human 
rights standards:

------------------------------------------------------------------------
                                             International Human Rights
              Official Claim                          Standards
------------------------------------------------------------------------
Internet Censorship: In April 2008, after   The government's Internet
 the International Olympic Committee         regulations prohibit
 expressed concern about Internet            content such as
 censorship following the Tibetan            pornography, online
 protests, a Ministry of Foreign Affairs     gambling, invasions of
 spokesperson said the Chinese               privacy, and intellectual
 government's regulation of the Internet     property violations.\124\
 is ``in line with general international     Such regulations, however,
 practice'' and ``the main reason for        also allow Chinese
 inaccessibility of foreign websites in      officials to censor
 China is that they spread information       politically sensitive
 prohibited by Chinese law.'' \123\          content through provisions
                                             that prohibit information
                                             vaguely defined as
                                             ``harmful to the honor or
                                             interests of the nation''
                                             or ``disrupting the
                                             solidarity of peoples.''
                                             \125\ The result is that
                                             the government continues to
                                             block access to a number of
                                             foreign news Web sites and
                                             Web sites promoting human
                                             rights and, along with
                                             Internet companies in
                                             China, frequently removes
                                             and censors political
                                             content.
------------------------------------------------------------------------


------------------------------------------------------------------------
                                            International Human Rights
             Official Claim                    Standards--Continued
------------------------------------------------------------------------
Imprisonment of Critics: In March 2008,
 Premier Wen Jiabao described as
 ``totally unfounded'' the allegation
 that the government is cracking down
 on dissidents before the Olympics. He
 said ``China is a country under the
 rule of law'' and that cases such as
 Hu Jia's would be ``dealt with in
 accordance with the law.'' \126\
                                         The UN Working Group on

Travel Restrictions on Foreign           The travel ban to Tibetan areas
 Reporters: In March 2008, a foreign      appeared much broader than
 ministry spokesperson defended a         necessary to protect  foreign
 travel ban to Tibetan areas following    journalists. The borders of
 reported protests as a measure           the closed-off areas extended
 intended to ensure the safety of         far beyond reported protest
 journalists and added ``it is legal      sites.\129\ The government's
 and responsible for local governments    attempts to otherwise censor
 to take some restrictive measures.''     and manipulate information
 \128\                                    about the protests on the
                                          Internet and in Chinese media
                                          strongly suggest that the near
                                          total ban on foreign
                                          journalists except for a few
                                          unsupervised tours was
                                          motivated by political rather
                                          than safety concerns.
                                          Furthermore, officials
                                          initially allowed foreign
                                          journalists open access to
                                          disaster zones following the
                                          May 2008 Sichuan earthquake,
                                          areas that also posed a threat
                                          to the physical safety of the
                                          journalists.
------------------------------------------------------------------------

        CHINESE CITIZENS CONTINUE TO SEEK FREEDOM OF EXPRESSION

    Citizens continue to seek ways to freely express their 
ideas and share information over the Internet and in the press. 
So many Chinese journalists rushed to the disaster areas 
following the May 2008 Sichuan earthquake that propaganda 
officials rescinded an earlier prohibition on such travel.\130\ 
Despite restrictions on reporting the controversy surrounding 
the collapse of shoddily constructed schools, investigative 
journalists at Southern Weekend and Caijing continued to report 
the story.\131\ Chinese citizens organized demonstrations 
against a chemical plant in Chengdu in May and against the 
proposed extension of the maglev train line in Shanghai using 
text messages.\132\ [For more information on these protests, 
see Section II--Environment.] Dozens of Chinese lawyers, 
academics, and writers signed an open letter condemning the 
arrest of human rights activist Hu Jia.\133\ In June 2008, 
Radio Free Asia reported that dozens of rights lawyers and 
scholars had begun an online free speech forum.\134\
    Citizens and some Chinese media and editorialists continue 
to question government measures that restrict freedom of 
expression.\135\ A January 2008 Southern Metropolitan Daily 
editorial criticized the regulations calling for state 
ownership of audio and video hosting Web sites as ``restraining 
the civil right of social expression in the era of the 
Internet.'' \136\ At the trial of land rights activist Yang 
Chunlin, defense lawyers argued that Chinese officials' 
application of the inciting subversion provision was likely to 
result in punishing free speech because of its vagueness and 
that neither the Supreme People's Court nor the National 
People's Congress Standing Committee had interpreted the law to 
provide guidance to citizens on the boundaries of free 
speech.\137\ More than 14,000 Chinese citizens signed an open 
letter released to the public on January 1, 2008, urging the 
Chinese government to ratify the International Covenant on 
Civil and Political Rights before the 2008 Olympic Games 
``without reservations.'' \138\ One of the letter's 
recommendations called on the Chinese government to allow 
freedom of speech and to protect the press and publishing.

                                Addendum


CHINA COMMITS TO ``OPEN GOVERNMENT INFORMATION'' (OGI) EFFECTIVE MAY 1, 
                                  2008

    In a move intended to combat corruption, increase public 
oversight and participation in government, and allow citizens 
access to government-held information, the State Council on 
April 5, 2007, issued the first national Regulations on Open 
Government Information (OGI Regulation), which took effect May 
1, 2008.\139\ Implementation begins at a time when the need for 
greater transparency in the areas of environmental health, land 
disputes, disease, and food, drug, and product safety has 
become apparent. The time lag between issue and effective date 
provided citizens and government departments a one-year 
preparatory period.
    The national regulation may alter relations between 
citizens and traditionally protective government bureaucracies. 
But it is not entirely a new development. While the overall 
impact of the national regulation remains unclear, over 30 
provincial and city-level governments throughout China as well 
as central government agencies and departments have adopted OGI 
rules in the last several years. Guangzhou, which was the first 
municipality to do so in 2002, and Shanghai, which issued its 
regulations in 2004, are but two examples. As implementation of 
the national OGI Regulation proceeds, a number of issues merit 
attention, the following among them:

                        Two Main Features of OGI

    Government agencies at all levels have an affirmative 
obligation to disclose certain information, generally within 20 
business days. This includes information that ``involves the 
vital interests of citizens,'' with emphasis on information 
relating to, among other items, environmental protection, 
public health, food, drug, and product quality, sudden 
emergencies, and land appropriation and compensation.
    Citizens, legal persons, and other organizations 
(Requesting Parties) may request information and are entitled 
to receive a reply within 15 business days and no later than 30 
business days. Requesting Parties can challenge a denial of 
access to information by filing a report with a higher-level or 
supervisory agency or designated open government information 
department or by applying for administrative reconsideration or 
filing an administrative lawsuit.

                  Areas To Watch During Implementation

    No clear presumption of disclosure. Premier Wen Jiabao 
urged officials to proceed with implementation ``insisting that 
disclosure be the principle, non-disclosure the exception.'' 
Chinese scholars and international experts, however, note that 
the national OGI Regulation does not set forth a clear 
presumption of disclosure. On this point it differs from 
earlier local-level OGI regulations and similar measures in 
other countries.
    Certain provisions may discourage officials from disclosing 
information. Under the OGI Regulation, officials who withhold 
information the disclosure of which is required under the 
Regulation may face both administrative and criminal penalties. 
At the same time, however, the OGI Regulation stipulates that 
officials must not disclose information involving ``state 
secrets, commercial secrets, or individual privacy,'' and must 
set up mechanisms to examine the secrecy of information 
requested. This emphasis on safeguarding secrecy and the 
breadth and vagueness of the definition of ``state secrets'' 
under Chinese law may encourage officials to err on the side of 
non-disclosure. The regulation also prohibits officials from 
disclosing information that might ``endanger state security, 
public security, economic security, and social stability.'' 
Agencies and personnel who fail to ``establish and perfect'' 
secrecy examination mechanisms or who disclose information 
later deemed exempt from disclosure under the OGI Regulation 
may face administrative or criminal punishment.
    Requesting Parties may be denied access if the request 
fails to meet a recognized purpose. An opinion issued by the 
State Council General Office on April 29, 2008, states that 
officials may deny requests if the information has no relation 
to the Requesting Party's ``production, livelihood and 
scientific and technological research.'' This reflects language 
in Article 13 of the OGI Regulation that says Requesting 
Parties may request information ``based on the special needs of 
such matters as their own production, livelihood and scientific 
and technological research.'' This introduction of an apparent 
purpose test differs from earlier local-level OGI regulations 
and international practice. Furthermore, another provision in 
the OGI Regulation which sets forth the information to be 
included in a request, does not instruct the Requesting Party 
to indicate the purpose of the request.
    Requesting Parties lack an independent review channel to 
enforce the OGI. Some Chinese scholars have noted that the OGI 
Regulation's relief provisions constrain citizens from using 
the courts to challenge decisions that deny requests for 
information. Because China's courts are subordinate to the 
National People's Congress Standing Committee and the Communist 
Party, ``it can be anticipated that enforcement of emerging 
information rights in China, even with the adoption of the 
State Council OGI Regulations, will continue to face high 
hurdles within the existing court system.'' While it is still 
too early to tell, one scholar notes that it may be possible, 
however, to achieve some independent review of non-political 
cases through creation of tribunals or commissions designed to 
handle OGI cases.
    Sufficiency of funding, preparedness, and public awareness. 
For many departments, OGI implementation may amount to an 
unfunded mandate. Many agencies face resource constraints or 
rely on funding sources predisposed to favor non-disclosure. 
Local governments may not favor information disclosure that 
could negatively impact local business. Local environmental 
protection bureaus, for example, which are funded by local 
governments, may not receive funding adequate to implement OGI 
effectively. Already, a number of localities failed to meet a 
March 2008 deadline to make catalogues and guides intended to 
assist parties in requesting information available to the 
public. This resulted in part from inadequate funding and 
technical expertise. While the government has focused on 
training officials, it has been less active in raising public 
awareness.
    Access to information may not apply to media, whether 
foreign or domestic. The national OGI Regulation applies to 
``citizens, legal persons, and other organizations.'' This 
suggests its applicability to foreigners remains open to 
interpretation during implementation. It also remains unclear 
whether journalists in general may request access to 
information under the national regulation. Some Chinese experts 
argue that the regulation clearly applies to news 
organizations, which have the status of ``legal persons or 
other organizations,'' and journalists, who have the status of 
``citizens,'' although foreign journalists may not be covered 
because they are not citizens. Some local-level OGI regulations 
in existence prior to the national regulation made clear its 
applicability to foreigners. The Guangzhou regulation, for 
example, provides that foreigners, stateless persons, and 
foreign organizations have the same rights and obligations to 
request information, limited to the extent that the requesting 
party's country or region of origin imposes restrictions on 
government information access to Chinese citizens. It remains 
to be seen whether the national OGI Regulation will be 
implemented so as to trump local OGI rules that are broader in 
application or whether the national regulation will be 
interpreted in a similarly broad fashion.

                          Freedom of Religion


                              INTRODUCTION

    Religious repression and persecution as detailed by the 
Commission in all previous Annual Reports persisted during this 
reporting year and intensified in the run-up to and during the 
2008 Beijing Summer Olympic Games. In the past year, religious 
adherents remained subject to tight controls over their 
religious activities, and some citizens met with harassment, 
detention, imprisonment, and other abuses because of their 
religious or spiritual practices. The government sounded alarms 
against foreign ``infiltration'' in the name of religion,\1\ 
and took measures to hinder citizens' freedom to engage with 
foreign co-religionists.\2\ Moderate gains in using the legal 
system to challenge official abuses\3\ were offset by the 
continuation of repressive policies and official harassment of 
some religious believers.
    The Chinese government and Communist Party continued to 
deny Chinese citizens the ability to fully exercise their 
rights to freedom of religion.\4\ The Chinese government 
subjects religion to a strict regulatory framework that 
represses many forms of religious and spiritual activities 
protected under international human rights law, including in 
treaties China has signed or ratified.\5\ Although some Chinese 
citizens are able to practice their faith within government 
confines,\6\ where some, but not all, Chinese citizens are 
allowed to do so, and where members of China's five state-
sanctioned religious communities\7\ also face tight controls 
over their 
religious activities, the Chinese government has failed in its 
obligation to guarantee citizens freedom of religion.
    The government and Communist Party remain hostile toward 
religion. The government and Party articulate a limited degree 
of tolerance for religion as a means of mobilizing support for 
their authority, and not as a commitment to promoting religious 
freedom. In the past year, President and Party General 
Secretary Hu Jintao called for recognizing a ``positive role'' 
for religious communities within Chinese society,\8\ but 
officials also continued to affirm the government and Party's 
policy of control over religion. In 2008, Ye Xiaowen, Director 
of the State Administration for Religious Affairs, stated, ``We 
should not expand religions, but strive to let existing 
religions do more for the motherland's reunification, national 
unity, economic development and social stability.'' \9\

                  CHINA'S LEGAL FRAMEWORK FOR RELIGION

    The Chinese government's legal framework for religion 
reflects rule by law rather than rule of law. Legal protections 
for religious activities are limited in scope, condition many 
activities on government oversight or approval, and apply only 
to state-sanctioned 
religious communities. Vague language and inconsistent 
implementation further hinder the effectiveness of these 
limited protections.\10\ After passing the Regulation on 
Religious Affairs (RRA)\11\ in 2004, the central government 
issued a series of supplementary regulations between 2005 and 
2007 that elaborate on controls stipulated within the RRA. [For 
more information, see box titled Timeline: Regulation of 
Religion below.] The central government did not publicize any 
additional regulations on religion in late 2007 or in 2008, 
prior to the publication of the Commission's 2008 Annual 
Report. Based on Commission staff monitoring, the pace of 
issuing comprehensive regulations on religion at the provincial 
level slowed in the past year.\12\

------------------------------------------------------------------------
                    Timeline: Regulation of Religion
-------------------------------------------------------------------------
  In 2004, the State Council issued the Regulation on Religious Affairs
 (RRA), marking the first national-level comprehensive regulation on
 religion. Since then, the government has not issued one consolidated
 set of implementing provisions, as some observers anticipated, but
 rather expanded upon specific articles within the RRA by issuing legal
 measures (banfa) regarding these articles. In addition, the State
 Administration for Religious Affairs continues to publicize a book of
 interpretations of the RRA that elaborates on each article of the
 regulation.\13\ The list below provides a brief chronology of the
 central government's legislative activity in the area of religion since
 the RRA's promulgation.\14\

<bullet>  Measures on the Examination, Approval, and Registration of
 Venues for Religious Activity, issued April 21, 2005.
<bullet>  Measures for Putting Religious Personnel on File, issued
 December 29, 2006.
<bullet>  Measures for Putting on File the Main Religious Personnel of
 Venues for Religious Activities, issued December 29, 2006.
<bullet>  Measures on the Management of the Reincarnation of Living
 Buddhas in Tibetan Buddhism, issued July 18, 2007.
<bullet>  Measures on Establishing Religious Schools, issued August 1,
 2007.
<bullet>  Measures Regarding Chinese Muslims Registering to Go Abroad on
 Pilgrimages (Trial Measures), undated (estimated date 2006).

  Some local governments have also reported amending or issuing new
 comprehensive regulations on religious affairs. Provincial-level areas
 reporting on such developments include:\15\
------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                        2006 (Date of issue or   2007 (Date of issue or   2008 (Date of issue or
  2005 (Date of issue or amendment)           amendment)               amendment)               amendment)
----------------------------------------------------------------------------------------------------------------
Shanghai Municipality Regulation on    Zhejiang Province        Anhui Province           Shaanxi Province
 Religious Affairs.                     Regulation on            Regulation on            Regulation on
                                        Religious Affairs.       Religious Affairs        Religious Affairs.
                                                                 (amended in 2006 and
                                                                 again in 2007).
----------------------------------------------------------------------------------------------------------------
Henan Province Regulation on           Anhui Province           Hebei Province
 Religious Affairs.                     Regulation on            Regulation on
                                        Religious Affairs        Religious Affairs.
                                        (amended in 2006 and
                                        again in 2007).
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                     2006 (Date of issue or  2007 (Date of issue or     2008 (Date of issue or
 2005 (Date of issue or amendment)         amendment)              amendment)           amendment)--Continued
----------------------------------------------------------------------------------------------------------------
Shanxi Province Regulation on        Beijing Municipality    Jiangxi Province
 Religious Affairs.                   Regulation on           Regulation on
                                      Religious Affairs.      Religious Affairs.
----------------------------------------------------------------------------------------------------------------
                                     Chongqing Municipality
                                      Regulation on
                                      Religious Affairs.
----------------------------------------------------------------------------------------------------------------
                                     Hunan Province
                                      Regulation on
                                      Religious Affairs.
----------------------------------------------------------------------------------------------------------------
                                     Liaoning Province
                                      Regulation on
                                      Religious Affairs.
----------------------------------------------------------------------------------------------------------------
                                     Sichuan Province
                                      Regulation on
                                      Religious Affairs.
----------------------------------------------------------------------------------------------------------------
                                     Tibet Autonomous
                                      Region Implementing
                                      Measures for the
                                      ``Regulation on
                                      Religious Affairs''.
----------------------------------------------------------------------------------------------------------------

             RESTRICTIONS ON CHILDREN'S FREEDOM OF RELIGION

    Children continued in the past year to face restrictions on 
their right to practice religion. Although a Ministry of 
Foreign Affairs official said in 2005 that no laws restrict 
minors from holding religious beliefs and that parents may give 
their children a religious education,\16\ recent legislation 
has not articulated a guarantee of these rights. In addition, 
regulations from some provinces penalize acts such as 
``instigating'' minors to believe in religion or accepting them 
into a religion.\17\ In practice, children in some areas of 
China have been able to participate in religious activities at 
registered and unregistered venues,\18\ but in other areas, 
they have been 
restricted from participating in religious services or 
receiving a 
religious education.\19\ [For information on recently reported 
restrictions in the Xinjiang Uyghur Autonomous Region, see 
China's Religious Communities--Islam within this section.]

                  CONTROLS OVER RELIGIOUS PUBLICATIONS

    The Chinese government forbids private publishing of 
religious materials and restricts the production of religious 
publications to state-licensed enterprises.\20\ Controls over 
the publication of religious materials and restrictions on 
their sale have led to a reported shortage of Bibles and other 
publications.\21\ Authorities continue to detain or imprison 
religious adherents who publish or distribute religious 
materials without permission, in some cases charging people 
with the crime of ``illegal operation of a business.'' People 
detained in the past year because of activities or alleged 
activities receiving, preparing, or distributing religious 
texts include Dong Yutao, Shi Weihan, Ha Jingbo, and Jiang 
Ruoling. Wang Zaiqing and Zhou Heng, imprisoned and detained, 
respectively, on similar grounds in 2006 and 2007, were 
released in the past year. [See box titled Religious Prisoners 
below for additional information.]
    Authorities also have continued campaigns to restrict 
``illegal'' religious publications. In January 2008, 
authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
announced ``illegal'' religious and political publications 
would be the focal point of a censorship campaign in the 
region.\22\ The announcement followed reports in earlier years 
of broad censorship of various religious and spiritual 
materials. In 2005, authorities reported confiscating 4.62 
million items of Falun Gong and ``other cult organization 
propaganda material'' nationwide.\23\ Authorities in the Tibet 
Autonomous Region confiscated 54 items described as ``Dalai 
Lama splittist group reactionary publications.'' \24\ In August 
2007, authorities in the XUAR capital of Urumqi reported 
destroying over 25,000 ``illegal'' religious books.\25\

                     CHINA'S RELIGIOUS COMMUNITIES

    The government recognizes only Buddhism, Catholicism, 
Daoism, Islam, and Protestantism for limited state 
protections\26\ and exerts control over the internal affairs of 
these groups. It uses a variety of methods within and outside 
its legal system to penalize citizens who practice religion 
outside of approved parameters.\27\ At the same time, 
variations in government implementation of religious policy 
have enabled a number of unregistered and unrecognized 
religious communities to operate in China.\28\

                                Buddhism

    In recent years authorities have reported closing or 
demolishing unregistered Buddhist and Daoist temples, including 
temples that incorporate practices the government deems as 
feudal superstitions.\29\ In a 2008 interview, Ye Xiaowen, 
Director of the State Administration for Religious Affairs, 
admonished against ``build[ing] temples and Buddha statues 
indiscriminately.'' \30\ In the past year, local authorities 
also reported suspending the operations of registered temples 
for failure to adhere to the national Regulation on Religious 
Affairs\31\ and confiscating ``illegal'' Buddhist compact 
discs.\32\
    Buddhist leaders and practitioners continue to face 
sanctions for expressing their opinions outside government-
approved parameters. In late 2007, authorities prevented 
Buddhist monk Shengguan from attending a human rights 
conference in another province. Authorities had dismissed 
Shengguan from his temple directorship in 2006 for leading a 
religious ceremony commemorating victims of the Tiananmen 
crackdown and for challenging corruption among government 
officials and the Buddhist Association.\33\

                            Tibetan Buddhism

    State repression of Tibetan Buddhism has reached its 
highest level since the Commission began to report on religious 
freedom for Tibetan Buddhists in 2002.\34\ Chinese government 
and Party policy toward Tibetan Buddhists' practice of their 
religion played a central role in stoking frustration that 
resulted in the cascade of Tibetan protests that began on March 
10, 2008. Chinese government interference with the norms of 
Tibetan Buddhism and unrelenting antagonism toward the Dalai 
Lama, one of the religion's foremost teachers, serve to deepen 
division and distrust between Tibetan Buddhists and the 
government and Communist Party. The government seeks to use 
legal measures to remold Tibetan Buddhism to suit the state. 
Authorities in one Tibetan autonomous prefecture have announced 
unprecedented measures that seek to punish monks, nuns, 
religious teachers, and monastic officials accused of 
involvement in political protests in the prefecture. [For more 
information, see Section V--Tibet.]

                              Catholicism

    The state-controlled Chinese Catholic church continues to 
deny its members the freedom to pursue full communion and free 
communications with the Holy See and other Catholic 
institutions outside of China. In the past year, the Commission 
observed ongoing harassment and detention of Catholics in 
China, especially unregistered bishops and priests; further 
restrictions on access to pilgrimage sites; continuing 
negotiations and disputes over the return of confiscated church 
property; and ongoing tensions with the Holy See, despite a 
shift toward re-accommodating discreet Holy See involvement in 
the appointment of bishops for the state-controlled church.

harassment, detention, and other abuses

    Catholics who choose not to join the state-controlled 
church, as well as registered church members or leaders who run 
afoul of the state-controlled church's policies, remain subject 
to harassment, detention, and other abuses. The Commission 
noted an increase in harassment and detention of unregistered 
Catholics in 2005, after the Regulation on Religious Affairs 
entered into force.\35\ The government targets unregistered 
bishops in particular. The bishops, approximately 40 in total, 
are reported to remain in detention, confinement in their 
homes, in hiding, or under strict surveillance by the 
government.\36\ In the past year, authorities continued their 
pattern of detention and harassment of Jia Zhiguo, the 
unregistered bishop of Zhengding diocese in Hebei province. 
[For more information, see box titled Religious Prisoners 
below.] The condition of some unregistered bishops, such as Su 
Zhimin, who was detained in 1997, remains unknown.\37\ In the 
run-up to the 2008 Beijing Summer Olympic Games, authorities 
reportedly restricted the activities of other unregistered 
bishops and priests and placed some under confinement.\38\ A 
court in Hebei province sentenced unregistered priest Wang 
Zhong to three years' imprisonment in November 2007 after he 
organized a ceremony in July to consecrate a new church 
registered with the government.\39\ Reports indicate that other 
priests, such as Lu Genjun, remain in custody from detentions 
in past years.\40\

access to religious sites and return of religious property

    In the past year, authorities continued to restrict 
Catholics' 
access to sites of religious significance. Authorities in 
Shanghai implemented measures to prevent Catholic pilgrims from 
visiting the Marian Shrine of Sheshan in May 2008.\41\ 
Authorities also detained some unregistered leaders to prevent 
them from visiting the shrine.\42\ The restrictions accompany 
longstanding limits on Catholics' freedom to visit the Marian 
Shrine of Donglu, in Hebei province, following a crackdown on 
pilgrimages there in the mid-1990s.\43\
    The return of church property confiscated in previous 
decades remained a contentious issue. In the past year, 
authorities returned church property to the registered diocese 
of Shanghai, but officials in Shanxi province refused to return 
property to Catholics there, some of whom met with physical 
attack while protesting.\44\

bishop appointment and china-holy see relations

    The state-controlled Catholic Patriotic Association (CPA) 
exercises influence over the selection of bishops for the 
registered church in China, including through coercion of 
bishops to officiate ordinations, but in recent years the CPA 
has tolerated discreet involvement by the Holy See in the 
selection of some bishops.\45\ The CPA directed the ordination 
of a total of five bishops in 2007 all of whom had Holy See 
approval, after breaking with the practice of selecting Holy 
See-approved bishops for some appointments in 2006.\46\
    In late 2007, authorities again took steps to block 
Catholics' 
access to an open letter sent to them by Pope Benedict XVI and 
subjected local Catholic leaders to political reeducation for 
their distribution of the text.\47\ The letter, originally 
released in June 2007, had urged reconciliation between 
registered and unregistered Catholic communities in China.\48\
    The Chinese government does not maintain diplomatic 
relations with the Vatican. Chinese officials visited Vatican 
City in May 2008 during a performance there by Chinese 
musicians, but the visit did not result in concrete steps 
toward establishing relations.\49\ In August, overseas media 
reported that in an interview with Italian television, Beijing 
Bishop Li Shan ``said relations with the Vatican are improving 
and that [Li] would welcome a papal visit to China.'' \50\ 
Travel to the region, by both registered and unregistered 
bishops, has been a sensitive issue. While organizers of the 
October 2008 12th General Assembly of the Synod of Bishops did 
not invite mainland bishops to attend this year, mainland 
bishops invited to the event in 2005 were denied permission to 
participate by the CPA.\51\ In recent years authorities have 
punished unregistered bishops for their travel to the 
region.\52\

                                 Daoism

    In recent years authorities have reported closing or 
demolishing unregistered Buddhist and Daoist temples, including 
temples that incorporate practices the government deems as 
feudal superstitions.\53\ Daoist leaders remain subject to 
state control and scrutiny over internal doctrine.\54\ In 2008, 
the national Daoist Association of China implemented measures 
for confirming Daoist personnel that require them to support 
the leadership of the Communist Party and subject personnel to 
penalties for engaging in activities deemed to involve ``feudal 
superstition'' or ``cults.'' \55\ The government co-opts Daoist 
communities to support Party propaganda campaigns. In 2008, the 
head of the national Daoist Association declared Daoists' 
opposition to the ``splittist'' policies of the Dalai Lama and 
said that Daoists call on ``hoodwinked'' Tibetans to ``repent'' 
their ways.\56\

                              Folk Beliefs

    Local governments in China have continued to take steps 
that provide some recognition for folk beliefs, but that also 
subject such practices to formal government scrutiny.\57\ In 
2007, Hunan province passed a set of provisional measures 
marking China's first provincial-level legislation on venues 
for folk beliefs. The measures provide a degree of legal status 
to some venues for folk belief activities, which may signify a 
broader trend in accommodating some folk belief practices, but 
also give authorities the discretion to deny state sanction to 
those venues deemed to support cults or superstitions. Although 
the State Administration for Religious Affairs maintains an 
office that carries out research and formulates policy 
positions on folk beliefs and religious communities outside the 
five recognized groups, neither this national office nor the 
adoption of the Hunan measures indicate that government 
officials have officially expanded the definition of protected 
forms of religious expression to fully encompass folk belief 
practices.\58\ [See box titled 
Regulation of Folk Beliefs below.]

------------------------------------------------------------------------
                       Regulation of Folk Beliefs
-------------------------------------------------------------------------
  The Hunan Province Provisional Measures for the Management of Venues
 for Folk Belief Activities (Provisional Measures), issued by the Hunan
 province Religious Affairs Bureau (RAB) in August 2007, mark China's
 first comprehensive provincial-level legal measures dedicated solely to
 activities related to folk beliefs.\59\ The Provisional Measures
 articulate some protection for venues for folk belief activities, but
 also subject such sites to requirements that are stricter than those
 imposed on general venues for religious activities. Key features of the
 Provisional Measures include:
------------------------------------------------------------------------


------------------------------------------------------------------------
                  Regulation of Folk Beliefs--Continued
-------------------------------------------------------------------------
  <bullet>  Defining Venues for Folk Belief Activities. The measures
   define venues for folk belief activities to mean temples with ``the
   characteristics of primitiveness, localism, diversity, historical
   tradition, and primordial religions.'' They also extend the
   definition to temples for ethnic minority beliefs. They exclude the
   ``religious activity venues'' of China's five recognized religions,
   as well as Confucian temples and ancestral halls. Venues for folk
   belief activities are forbidden from carrying out such ``feudal
   superstitious'' activities as rites to expel illness and exorcise
   demons [qubing gangui], ``spreading rumors to deceive people,''
   performing trance dances [tiaoshen fangyin], and other ``illegal''
   activities.
  <bullet>  Registering Venues. The Provisional Measures provide for the
   registration of existing folk belief activity venues, but do not
   establish a mechanism to allow for the construction and subsequent
   registration of new sites. The measures state that ``in principle,''
   no new venues for folk belief activities may be built, and ``in
   general,'' no venues that have been destroyed may be rebuilt. The
   measures allow for the rebuilding of venues of ``historical stature''
   and ``great influence'' upon consent of the provincial RAB. The
   requirements are stricter than those provided for in the national
   Regulation on Religious Affairs and related measures on registering
   religious venues, as well as those in provincial regulations.
  <bullet>  Registering Communities. Unlike regulations that apply to
   Buddhists, Catholics, Daoists, Muslims, and Protestants, the
   Provisional Measures do not provide a framework for organizing and
   registering communities of people who practice folk beliefs.
  <bullet>  Government and Party Control. Although all national and
   local regulations on religion establish active state control over
   religious organizations and venues, the Provisional Measures are more
   explicit in providing for direct state control. The measures state
   that members of a venue's management committee must endorse the
   leadership of the Communist Party, as well as submit to the
   administrative management of the government.
------------------------------------------------------------------------

                                 Islam

    Authorities increased repression of Islam in the Xinjiang 
Uyghur Autonomous Region (XUAR) in the past year, while the 
government and Party continued to strictly control the practice 
of Islam in other parts of the country. The Commission observed 
broad measures implemented in the XUAR to increase monitoring 
and control over religious communities and leaders; steps to 
restrict pilgrimages and the observance of religious holidays 
and customs; and continued measures to restrict children's 
freedom of religion. Throughout China, Muslims remained subject 
to state-sanctioned interpretations of their faith and to tight 
state control over their pilgrimage activities.

increased repression in xinjiang

    Authorities increased repression in the XUAR amid 
preparations for the 2008 Beijing Summer Olympic Games, 
protests in Uyghur and Tibetan areas of China, and government 
reports of terrorist and criminal activity in the region. 
During the year, local governments throughout the XUAR reported 
on measures to tighten control over religion, including 
measures to increase surveillance of mosques, religious 
leaders, and practitioners; gather information on 
practitioners' religious activities; curb ``illegal'' scripture 
readings; and increase accountability among implementing 
officials. Authorities connected control of religious affairs 
with measures to promote ``social stability'' and continued 
longstanding campaigns to link Islam to ``extremism'' and the 
threat of terrorism.\60\ [See box titled Religious Prisoners 
below for information on religion-related detentions from the 
past year and Section IV--Xinjiang--box titled Increased 
Repression in Xinjiang During the Olympics for more 
information.] In September 2008, XUAR chair Nur Bekri called 
for strengthening controls over religion and for increasing 
political training of religious leaders.\61\ Amid preparations 
in the XUAR for the Olympics, overseas media reported in June 
that authorities in Aqsu district razed a privately built 
mosque for refusing to post pro-Olympics posters.\62\
    Local authorities and educational institutions in the XUAR 
continued in 2007 and 2008 to impose restrictions on the 
observance of the holiday of Ramadan, including restrictions on 
state employees' observance of the holiday and prohibitions on 
closing restaurants during periods of fasting.\63\ Overseas 
media reported on the detention of two Muslim restaurant 
managers for failing to abide by instructions to keep 
restaurants open.\64\ Authorities intensified limits on the 
observance of Ramadan with measures to curb broader religious 
and cultural practices.\65\ Some local governments reported on 
measures to prevent women from wearing head coverings.\66\ In 
March, women in Hoten district who demonstrated against various 
human rights abuses in the region protested admonishments 
against such apparel issued during a government campaign to 
promote stability.\67\
    The XUAR government continues to maintain the harshest 
legal restrictions on children's right to practice religion. 
Regionwide legal measures forbid parents and guardians from 
allowing minors to engage in religious activity.\68\ In August 
2008, authorities reportedly forced the return of Uyghur 
children studying religion in another province and detained 
them in the XUAR for engaging in ``illegal religious 
activities.'' \69\ Local governments continued to implement 
restrictions on children's freedom of religion, taking steps 
including monitoring students' eating habits during Ramadan and 
strengthening education in atheism, as part of broader controls 
over religion implemented in the past year.\70\ Overseas 
sources have 
reported that some local governments have enforced restrictions 
on mosque entry by minors, as well as other populations.\71\
    [For more information on conditions in the XUAR, see 
Section IV--Xinjiang.]

restrictions on the freedom to make overseas pilgrimages

    XUAR authorities continued in the past year to support 
measures to prevent Muslims from making pilgrimages outside of 
state channels, following the confiscation of Muslims' 
passports in summer 2007 to restrict private pilgrimages.\72\ 
Officials also reportedly imposed extra restrictions on 
Uyghurs' participation in state-sanctioned pilgrimages.\73\ 
According to overseas media, authorities reportedly gave prison 
sentences to five Uyghur clerics for arranging pilgrimages 
without government permission.\74\
    The central government continued to maintain limits on all 
Muslims' pilgrimage activities, after intensifying state 
controls over the hajj in 2006.\75\ While the government 
permitted more than 10,000 Muslims to make the pilgrimage to 
Mecca under official auspices in 2007,\76\ pilgrims had to 
abide by state controls over the trip. Among various controls, 
participants have been subject to ``patriotic education'' prior 
to departure\77\ and to restrictions on their activities within 
Mecca in a stated effort to guard against contact with ``East 
Turkistan forces'' and other ``enemy forces.'' \78\

continuing controls over internal affairs and doctrine

    The government continued to tightly control the internal 
affairs of Muslim communities. The state-controlled Islamic 
Association of China aligns Muslim practice to government and 
Party goals by 
directing the confirmation and ongoing political indoctrination 
of religious leaders, publication of religious texts, and 
content of sermons.\79\ In the past year, authorities called 
for continued measures to control religious doctrine. In a 2008 
interview, Ye Xiaowen, head of the State Administration for 
Religious Affairs, justified state interference in the 
interpretation of Islamic doctrine on the grounds of ``public 
interests.'' \80\ According to a 2008 report from the Ningxia 
Hui Autonomous Region, a Communist Party official who took part 
in leading ``study classes'' for Muslim personnel in the region 
called for ``creatively interpreting and improving'' religious 
doctrine.\81\

                             Protestantism

    Members of China's state-controlled Protestant church 
remain subject to controls over their internal affairs and 
doctrine, while members of unregistered church communities and 
members of registered churches who run afoul of state policy 
remain subject to 
arbitrary harassment, detention, and imprisonment, as well as 
closure of churches and confiscation of church property. In the 
past year, the Commission noted increased repression of 
unregistered church leaders and members in the run-up to the 
Olympics, including an increase in the number of reported 
detentions; increased reports of repercussions for Chinese 
Protestants who interact with foreign co-religionists or 
foreign visitors; and ongoing efforts to control Protestant 
doctrine and co-opt church members to meet government and 
Communist Party goals.

harassment, detention, and other abuses

    Unregistered Protestant groups and registered churches that 
run afoul of Communist Party policy remain vulnerable to 
government crackdowns, as evidenced by reports of disruptions 
of church services and hundreds of detentions of Protestants in 
the past year. At the same time, variations in implementation 
of government policy have enabled some unregistered house 
churches to meet openly. Unregistered groups include those 
estimated to be in over 300 networks of house churches.\82\ 
China Aid Association (CAA), a U.S.-based organization that 
monitors freedom of religion for Chinese Protestants, marked a 
rise in the reported number of Protestants detained in 2007, up 
to 693 people compared to 650 in 2006, with reported total 
detentions near or above 100 people in Beijing, Henan province, 
and Shandong province.\83\ Unregistered church members who 
followed practices the government deemed ``cults'' were among 
groups vulnerable to detention.\84\ [An extrajudicial security 
apparatus called the 6-10 Office monitors and leads the 
suppression of groups that the government deems to be ``cult 
organizations,'' including groups that self-identify as 
Christian. See Falun Gong--Background: Anti-``Cult'' 
Institutions--6-10 Office in this section for more 
information.] The CAA also noted an increase in the number of 
people subjected to abuse while in detention, including 
``beating, torture and psychological abuse.'' \85\ Detentions 
were accompanied by damage to property, including two reported 
church demolitions in 2007 in Heilongjiang province and one in 
Hubei province.\86\ During raids on house churches, authorities 
confiscated property including Bibles and other religious 
materials.\87\ In January 2008, authorities beat house church 
members in Yunnan province who asked for the return of 
confiscated property.\88\
    In 2008 the CAA described a ``significant deterioration'' 
in conditions for house church Protestants in the run-up to the 
2008 Beijing Summer Olympic Games, including ``significant 
measures taken against key unregistered churches in Beijing,'' 
and a campaign against house churches in the Xinjiang Uyghur 
Autonomous Region.\89\ It reported in August that some house 
church leaders were forced to sign an agreement restricting 
their religious activities in the period surrounding the 
Olympics.\90\ Harassment of at least one prominent leader of 
unregistered Protestants, Chinese House Church Alliance 
president Zhang Mingxuan, persisted until the conclusion of the 
Paralympic Games in mid-September.\91\ While many reported 
detentions have not been long-term or resulted in formal legal 
charges,\92\ authorities also continued in the past year to 
pursue formal criminal charges against some Protestant house 
church leaders and members, and also sentenced some people to 
reeducation through labor.\93\ [See box titled Religious 
Prisoners below.]
     House church members made limited gains in using the legal 
system to challenge official abuses. In November 2007, house 
church members in Shandong province secured the return of their 
property after filing suit against the local public security 
bureau, following public security officers' confiscation of 
Bibles, computers, and other goods during a raid earlier in the 
year.\94\ In September 2008, a house church in Chengdu filed 
suit against a county-level religious affairs bureau (RAB), 
reportedly the first case of its kind, for shutting down church 
services earlier in the year.\95\ The Chengdu RAB reportedly 
later issued a decision condemning the county bureau's 
actions.\96\

freedom to interact with foreign co-religionists and foreign 
visitors

    In late 2007 and 2008, authorities targeted and detained 
Chinese Protestants with ties to foreign co-religionists and 
targeted foreign Protestants for penalties or expulsion from 
China.\97\ [For additional information, see box titled 
Religious Prisoners below.] The actions came as officials 
warned foreign groups throughout 2007 to abide by Chinese 
restrictions on religion and pledged harsh measures to ``strike 
hard'' against communities including ``hostile'' religious 
groups in the run-up to the Olympics and the 17th Party 
Congress.\98\
    Authorities also took steps in the past year to limit 
religious activists' and rights defenders' interaction with 
visiting overseas government delegations. Beijing officials 
detained Hua Huiqi and his brother in August as the two planned 
to visit a church that was scheduled to host U.S. President 
George W. Bush. Hua, who was also harassed by authorities 
earlier in the summer, escaped detention and reportedly remains 
in hiding.\99\ Officials harassed or detained rights defense 
lawyers, including those active in religion cases, to prevent 
them from meeting with Members of the U.S. Congress in late 
June.\100\ While Chinese House Church Alliance president Zhang 
Mingxuan met with the delegation, authorities placed him under 
surveillance after the event. Authorities later forcibly moved 
Zhang from Beijing until permitting him to return in September. 
Zhang was able to briefly resume house church services 
afterward, but Zhang and his wife were subsequently detained in 
October and his sons beaten. In June Beijing public security 
officers detained Zhang for two days for attempting to meet 
with a 
European Union representative.\101\ Authorities placed under 
surveillance a number of Beijing activists, including religious 
rights activists, during the U.S.-China Human Rights Dialogue 
in late May.\102\

controls over doctrine

    China's state-controlled Protestant church continued to 
interfere in internal church doctrine and to co-opt registered 
religious communities to meet Party goals. The state-controlled 
Three-Self Patriotic Movement (TSPM), which leads the 
registered Protestant church in China, suppresses 
denominational differences among Protestants and imposes a 
Communist Party-defined theology, called ``theological 
construction,'' on registered seminaries that, according to one 
TSPM official, will ``weaken those aspects within Christian 
faith that do not conform with the socialist society.'' \103\ 
In 2008, Ye Xiaowen, Director of the State Administration for 
Religious Affairs, said the government should support 
theological studies by the Protestant church aimed at 
``resist[ing] foreigners making use of religion to engage in 
infiltration.'' \104\ In an October 2007 interview, Cao 
Shengjie, head of the state-controlled China Christian Council, 
expressed concern about ``social problems'' that she said 
stemmed from a lack of properly trained preachers and resulting 
``misinterpretations'' of doctrine.\105\

                      Other Religious Communities

    In the past year, the Chinese government did not make 
progress in removing its framework of recognizing only select 
religious communities for limited state protections, nor did it 
formally approve any additional communities. Chinese government 
regulations permit foreign religious communities, including 
communities not recognized as domestic religions by the 
government, to hold services for expatriates, but Chinese 
citizens are not allowed to participate.\106\ Variations in 
implementation have enabled some Chinese citizens affiliated 
with non-recognized religious communities to gather for 
worship, including a report in 2006 that Chinese members of the 
Church of Jesus Christ of Latter-day Saints met for services in 
Beijing.\107\ In addition, while the central government does 
not recognize the Orthodox Church, some local governments 
permit the church to operate, in a limited number of cases 
recognizing the church within regulations on religion.\108\ In 
2008, authorities allowed Chinese Orthodox Christians in 
Beijing to hold Easter celebrations at a local church.\109\

------------------------------------------------------------------------
                           Religious Prisoners
-------------------------------------------------------------------------
Authorities continue to detain, formally arrest, and in some cases
 imprison Chinese citizens because of their religious activities or for
 protesting Chinese policies on religion.\110\ Known cases from the past
 year and new developments in previously reported cases include:

  <bullet>  Adil Qarim, an imam at a mosque in Kucha county, Xinjiang
   Uyghur Autonomous Region (XUAR), whom authorities detained during a
   security roundup in the aftermath of a reported series of bomb
   attacks in the county on August 10. An individual accused of
   involvement in the August 10 incident had attended the mosque. Adil
   Qarim denied having any links to the attacks. His current whereabouts
   are unknown.
  <bullet>  Alimjan Himit (Alimujiang Yimiti), a house church leader in
   the XUAR detained on January 12, 2008, and charged with subverting
   state power and endangering national security. Alimjan Himit had
   previously worked as the branch manager of a foreign-owned company
   shut down for ``engaging in illegal religious infiltration
   activities.'' A court in Kashgar tried the case on May 27, 2008, and
   returned it to the procuratorate due to ``insufficient evidence,''
   but authorities have kept Alimjan Himit in detention.
  <bullet>  Ha Jingbo and Jiang Ruoling, two middle school teachers from
   Dongfeng county in Jilin province, whom authorities detained in June
   2008 for distributing educational leaflets about Falun Gong. After
   taking the two women to the Dayang Public Security Bureau, male
   officers severely beat them in an attempt to coerce confessions. The
   women are currently held in Dongfeng County Detention Center on
   unknown charges.
  <bullet>  Jia Zhiguo, the unregistered bishop of Zhengding diocese,
   Hebei province, who was imprisoned for approximately 20 years and
   since 2004 has been detained multiple times, often over religious
   holidays. Authorities detained Jia in August 2007 because he removed
   a sign authorities placed on his church, identifying it as affiliated
   with the state-controlled Catholic Patriotic Association. Authorities
   released him from detention on December 14, 2007, but placed him
   under confinement in his home. Authorities detained him again on
   August 24, 2008, and released him into residential surveillance on
   September 18.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Religious Prisoners--Continued
-------------------------------------------------------------------------
  <bullet>  Mutellip (Mutallip) Hajim, a jade merchant and father of
   eight detained by XUAR authorities in January 2008 in apparent
   retribution for his activities helping underground Muslim schools, as
   well as for supporting the families of prisoners and for violating
   population planning requirements. Mutellip Hajim reportedly died in
   detention after being subjected to torture, and his corpse was
   returned to his family on March 3, 2008, with orders not to publicize
   his death.
  <bullet>  Phurbu Tsering, a Tibetan Buddhist trulku (a teacher that
   Tibetan Buddhists believe is a reincarnation) who founded and headed
   a Tibetan Buddhist nunnery in Ganzi Tibetan Autonomous Prefecture,
   Sichuan province, and whom public security officials detained on May
   18 or 19, 2008. A few days earlier security forces detained more than
   50 of the nuns he taught after they staged a political demonstration.
   The nuns were angry because patriotic education teams had attempted
   to force them to denounce the Dalai Lama and their teacher, Phurbu
   Tsering.
  <bullet>  Shi Weihan, owner of a Christian bookstore in Beijing, whom
   authorities detained on November 28, 2007, accusing him of illegally
   printing and distributing religious literature. Because of
   ``insufficient evidence,'' authorities released Shi on bail on
   January 4, 2008, but detained him again on March 19, 2008.
  <bullet>  Tagpa Rigsang, a 26-year-old Tibetan Buddhist trulku from a
   Qinghai province monastery who was studying at Sera Monastery in
   Lhasa, and one of approximately 16 monks detained on March 10, 2008,
   for staging a political protest near Lhasa's Jokhang Temple. On March
   24, the Lhasa procuratorate approved the formal  arrest of 13 of the
   monks, including Tagpa Rigsang, on charges of ``illegal assembly.''
  <bullet>  Wang Zaiqing, a house church pastor first detained on April
   28, 2006, in Huainan city, Anhui province, for printing and
   distributing Bibles and other religious materials without government
   authorization. Authorities charged Wang with ``illegal operation of a
   business,'' a crime under Article 225 of the Criminal Law. On October
   9, 2006, the Tianjia'an District People's Court in Huainan sentenced
   him to two years' imprisonment. Wang is presumed to have been
   released from prison at the expiration of his sentence on April 27,
   2008.
  <bullet>  Yang Xiyao, a 68-year-old resident of Yanshan county in
   Hebei province, whom authorities detained on May 20, 2008, after
   raiding his home and confiscating Falun Gong publications. Yang
   served 6 years of a 10-year prison sentence in Baoding Prison from
   2000 to 2006 for professing belief in Falun Gong. Officials released
   him in 2006 to receive medical treatment for heart palpitations and
   injuries reportedly caused by torture. Yang is once again in Baoding
   Prison. It is unclear whether he is continuing to serve his existing
   sentence, or if officials extended his sentence as a result of new
   criminal charges.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Religious Prisoners--Continued
-------------------------------------------------------------------------
  <bullet>  Zhang Jianlin and Zhang Li, Catholic priests affiliated with
   an unregistered church in Hebei province whom authorities detained in
   May 2008 as they intended to travel to the Marian Shrine of Sheshan
   in Shanghai. As of July 2008, overseas organizations reported that
   the two remained in detention.
  <bullet>  Zhou Heng, a house church leader and bookstore manager in
   the XUAR detained on August 3, 2007, while he was picking up a
   shipment of books reported to be Bibles donated by overseas churches
   for free distribution in China. Zhou was charged with ``illegal
   operation of a business.'' Procuratorate authorities returned the
   case to the public security bureau in November due to ``insufficient
   evidence'' but continued to hold Zhou Heng in custody until dropping
   the charges against him and releasing him on February 19, 2008.
------------------------------------------------------------------------

           SOCIAL WELFARE ACTIVITIES BY RELIGIOUS COMMUNITIES

    The Chinese government permits, and in some cases, 
sponsors, the social welfare activities of recognized religious 
communities where such activities do not conflict with Party 
goals.\111\ State-sanctioned religious groups took part in 
relief efforts for victims of the May 2008 Sichuan 
earthquake,\112\ but authorities reportedly detained some 
members of non-registered religious communities to prevent them 
from providing aid.\113\ In 2008, the government permitted a 
Taiwan-based Buddhist civil society organization to establish 
an office on the mainland, the first time authorities have 
allowed a group headed by a non-resident legal representative 
to operate in this capacity.\114\

                               Falun Gong

    On June 10, 1999, former President Jiang Zemin and 
Politburo member Luo Gan established an extrajudicial security 
apparatus called the ``6-10 Office.'' \115\ This entity was 
charged with the mission of enforcing a ban on Falun Gong and 
carrying out a crackdown against its practitioners, which 
commenced on July 22, 1999, when the government formally 
outlawed the movement.\116\ Falun Gong practitioners describe 
it as a ``traditional Chinese spiritual discipline that is 
Buddhist in nature,'' which consists of ``moral teachings, a 
meditation, and four gentle exercises that resemble tai-chi and 
are known in Chinese culture as `qigong.' '' \117\ Tens of 
millions of Chinese citizens practiced Falun Gong in the 1990s 
and adherents to the spiritual movement inside of China are 
estimated to still number in the hundreds of thousands despite 
the government's ongoing crackdown.\118\
    The central government intensified its nine-year campaign 
of persecution against Falun Gong practitioners in the months 
leading up to the 2008 Beijing Summer Olympic Games. Chinese 
security forces continued to detain and imprison Falun Gong 
practitioners and subjected some who refused to disavow the 
practice to torture and other forms of abuse in reeducation 
through labor (RTL) camps and other detention facilities.\119\ 
In September 2007, Zhou Yongkang, then-Minister of Public 
Security and current member of the Politburo Standing 
Committee, ordered that all police and public security forces 
``strike hard on overseas and domestic hostile forces, ethnic 
splittists, religious extremists, violent terrorists, and the 
Falun Gong cult'' to safeguard ``social stability'' for the 
17th Party Congress and the Olympics.\120\ Official accounts of 
the crackdown were publicly available on Web sites for all 31 
of China's provincial-level jurisdictions in 2007-2008.\121\
    Since the government outlawed Falun Gong in July 1999, it 
has detained thousands--most likely hundreds of thousands--of 
practitioners.\122\ Chinese government Web sites regularly 
report detentions of Falun Gong ``criminal suspects'' and some 
provincial and local authorities offer rewards as high as 5,000 
yuan (US$732) to informants who report Falun Gong ``escaped 
criminals.'' \123\ In July, Chinese state media reported the 
arrest of 25 Falun Gong practitioners and the destruction of 7 
Falun Gong publishing operations in the Xinjiang Uyghur 
Autonomous Region.\124\ In 2007, Yingshang county government in 
Anhui province revealed that it had detained 13 ``Falun Gong 
and other cult criminals,'' held another in ``public security 
detention,'' and ``reeducated and reprimanded'' more than 
1,600.\125\ During the same period, Miyi county in Sichuan 
province recorded detentions of 62 practitioners as part of its 
``strike hard'' campaign and claimed to have ``transformed'' 14 
of them.\126\ Relying on reports from practitioners and their 
families in China, sources outside of China, not all of whom 
are themselves Falun Gong practitioners, estimate that Chinese 
authorities detained ``at least 8,037'' practitioners between 
December 2007 and the end of June 2008 in a nationwide pre-
Olympics crackdown.\127\ International observers believe that 
Falun Gong practitioners constitute a large percentage--some 
say as many as half--of the total number of Chinese imprisoned 
in RTL camps.\128\ Falun Gong sources report that at least 
200,000 practitioners are being held in RTL and other forms of 
detention.\129\ As of April 2008, Falun Gong sources in the 
United States had documented over 3,000 deaths of practitioners 
as a result of government persecution as well as over 63,000 
cases of torture since 1999.\130\ From 2000 to 2005, Falun Gong 
practitioners accounted for 66 percent of all cases of alleged 
torture by Chinese authorities reported to the UN Special 
Rapporteur on Torture.\131\
    As this Commission reported in 2006, Chinese government 
persecution of Falun Gong practitioners contravenes the 
standards in Article 18 of the International Covenant on Civil 
and Political Rights, which China has signed but not 
ratified.\132\ The Chinese government asserts its anti-Falun 
Gong campaign is necessary to protect public safety, order, and 
morals in accordance with Article 36 of the Constitution.\133\ 
The UN Working Group on Arbitrary Detention, however, has 
rejected this argument.\134\

background: anti-``cult'' institutions

            6-10 Office
    Publicly available government documents detail the central 
role of the 6-10 Office in the persecution of Falun Gong. Since 
its inception, the 6-10 Office has also expanded its targets to 
include other religious and qigong groups that the central 
government deems ``harmful.'' \135\ According to Nanjing City 
Public Security provisions 
published in June 2008, the 6-10 Office is at the forefront of 
``organizing and leading the struggle against Falun Gong.'' Its 
responsibilities include ``directing investigations into 
significant cases,'' ``digging deep to uncover covert plots and 
organizers,'' ``gathering intelligence,'' and ``organizing and 
coordinating the prevention, control, and punishment of Falun 
Gong and other harmful qigong organizations by municipal public 
security forces.'' \136\ A notice posted on a Yunnan provincial 
government Web site in March 2008 declares that the government 
must ``sternly guard against'' Falun Gong, calling it a 
``cultic, anti-Communist Party, anti-socialist organization.'' 
It warns government workers that ``if [you] hear of Falun Gong 
reactionary propaganda immediately notify your unit leader and 
the public security `610' Office.'' \137\
    An April 2008 notice posted on the Gutian county government 
Web site in Fujian province describes the central government's 
``basic policy'' outlawing the practice of Falun Gong and 
outlines five primary tasks to implement: (1) ``explicitly 
order the dissemination of information regarding the ban [on 
Falun Gong],'' (2) ``carry out comprehensive administration [of 
the policy],'' (3) ``fully utilize all legal weapons, sternly 
punish the criminal activities of cult ringleaders and key 
members,'' (4) ``do a good job at transformation through 
reeducation for the great majority of practitioners,'' and (5) 
``prevent external cults from seeping into the area, reduce the 
conditions that allow cults to propagate.'' \138\
    Several reports mention ``three zeroes'' that security 
officials should aim to achieve. An official report from the 
Communist Party Political-Legal Committee of Wuling district in 
the city of Changde in Hunan province urges cadres to 
``resolutely achieve the `three zeroes goal' in 6-10 management 
work,'' which is defined as ``no petitions in Beijing, zero 
incidents of local assemblies and protests, zero incidents of 
interference with television broadcasts.'' \139\ The same 
report also stresses the need to carry out four tasks to this 
end: (1) ``strengthen the prevention, control, and management 
[of Falun Gong] and conscientiously keep an unflinching eye on 
Falun Gong practitioners,'' (2) ``strengthen the use of 
transformation through reeducation as a line of attack against 
their fortifications, use all your might to transform obstinate 
Falun Gong elements,'' (3) ``strengthen strikes against and 
punishment of [Falun Gong], give the `Falun Gong' underground 
gang a forceful scare,'' and (4) ``strengthen anti-cult 
cautionary education, reinforce the people's ability to 
recognize, prevent, and oppose cults.'' \140\
    Aggressive surveillance is a key aspect of the 6-10 
Office's work. The Wuling Party Political-Legal Committee 
describes having implemented a set of three ``responsibility 
measures'' to ensure that ``more than 600 Falun Gong 
practitioners'' are closely monitored by the district police, 
neighborhood committee, and their own relatives.\141\ The 
Committee also instructs security officials to organize an 
``inspect and control'' system whereby local police are to 
conduct home ``visits'' of Falun Gong practitioners three times 
per day.\142\ In order to monitor more ``die-hard'' 
practitioners, public security forces are to form an 
``inspection and control small group'' to carry out ``24-hour 
surveillance.'' \143\ A county report from Jiangxi province 
also stresses the need to ``dispatch inspection and control 
personnel'' during ``important periods of time'' in order to 
ascertain a practitioner's ``movement 24 hours a day,'' and 
report ``unusual situations'' in a timely manner to the 6-10 
Office.\144\ In addition to surveillance, the 6-10 Office is 
also required to develop broad ``intelligence channels'' that 
allow them to ``know whenever the enemy moves.'' \145\
    6-10 Offices throughout China maintain extrajudicial 
``transformation through reeducation'' facilities that are used 
specifically to detain Falun Gong practitioners who have 
completed terms in reeducation through labor (RTL) camps but 
whom authorities refuse to release.\146\ The term 
``transformation through reeducation'' (jiaoyu zhuanhua) 
describes a process of ideological reprogramming whereby 
practitioners are subjected to various methods of physical and 
psychological coercion until they recant their belief in Falun 
Gong.\147\ In 2002, local officials in Hunan joined with the 6-
10 Office to establish a ``transformation through reeducation 
camp'' for Falun Gong practitioners where ``management 
methods'' such as solitary confinement are employed. Four years 
after opening, the camp claimed a ``transformation rate'' of 70 
percent for the 77 detainees in custody.\148\ In reporting on a 
transformation camp in Weifang city in 2000, Pulitzer Prize 
winner Ian Johnson writes that it was ``at these unofficial 
prisons that the killings [of Falun Gong practitioners] 
occurred.'' \149\
    Chinese government sources contain many references to the 
6-10 Office calling for the ``punishment'' (chengzhi) of Falun 
Gong practitioners.\150\ In Hunan's Changde city, Wuling 
district officials boast of having ``cracked'' 31 Falun Gong 
cases that produced 33 ``public security detentions,'' 19 
``reeducation through labor sentences,'' 29 ``criminal 
detentions,'' 20 ``arrests,'' as well as the ``destruction of 
12 underground nests'' between 2002 and 2006.\151\ A city 
government Web site in the Inner Mongolia Autonomous Region 
lauded a security official for his role in ``striking against'' 
and ``disposing of'' over 1,000 cases involving ``core 
members'' of Falun Gong and the Disciples sect.\152\ A report 
to the 9th CCP Representative Assembly in Guandu District of 
Kunming City in Yunnan province acknowledges the capture of 
``26 Falun Gong criminal suspects'' in 2005. Eleven of these 
``suspects'' were formally arrested and six were sentenced to 
RTL camps.\153\ Officials from a township in Anhui province 
posted a report stating that after several years of ``strikes 
against and cleansing'' (daji qingli) of Falun Gong, the 
majority of local practitioners had ``realized their errors and 
mended their ways.'' \154\
    Gao Zhisheng, a lawyer who has defended various Chinese 
activists, exposed numerous forms of torture and violence 
employed by the 6-10 Office against Falun Gong 
practitioners.\155\ Gao describes the 6-10 Office as a 
``Gestapo-like organization'' with ``powers that no civilized 
state in the world would even consider trying to obtain.'' He 
further notes that ``of all the true accounts of incredible 
violence that I have heard, of all the records of the 
government's inhuman torture of its own people, what has shaken 
me most is the routine practice on the part of the 6-10 Office 
and the police of assaulting women's genitals.'' \156\ Gao went 
missing in September 2007 following the public release of a 
letter he sent to the U.S. Congress and remains in detention at 
an undisclosed location.\157\
            Anti-Cult Associations
    Working in concert with the 6-10 Office to undermine 
Chinese citizens' right to believe in and practice Falun Gong 
and other banned religious sects is a national network of 
``anti-cult associations'' (fanxiejiao xiehui).\158\ Local 
anti-cult associations can be found at the provincial, county, 
municipal, and neighborhood level.\159\ Such associations have 
emerged as a prominent information channel for the government's 
campaign against Falun Gong, as they widely disseminate anti-
Falun Gong propaganda by holding study sessions and other 
community activities to raise ``anti-cult awareness.'' \160\ 
The Beijing-based China Anti-Cult Association was founded in 
November 2000 and claims to be a ``non-profit, social welfare 
organization'' that was ``voluntarily formed'' and ``registered 
according to the law.'' \161\ The government's hand, however, 
can be clearly discerned in the publications and activities of 
anti-cult associations. An anti-cult association in Guizhou 
province admitted in one report that it was founded ``under the 
leadership of the Party and government.'' \162\ Anti-cult 
association publications often expose connections with the 6-10 
Office.\163\ A May 2007 report from Changchun revealed that the 
Jilin Provincial Anti-Cult Association partnered with 
provincial and municipal 6-10 Offices to ``jointly organize and 
launch'' anti-cult activities at 87 middle schools throughout 
the provincial capital.\164\

directives and measures related to falun gong and the olympics

    In April 2008, the central government 6-10 Office issued an 
internal directive to local governments nationwide mandating 
propaganda activities to prevent Falun Gong from ``interfering 
with or harming'' the Olympics.\165\ References to the 
directive appear on official Web sites in every province and at 
every level of government.\166\ Most official reports focus on 
demonstrating that local authorities have stepped up security 
and fulfilled the requirement to ``educate'' target audiences 
on the directive's content.\167\ Local authorities distributed 
the directive widely in an effort to raise public awareness. 
References can be found on various Web sites ranging from 
public entities with indirect relations with the state (state-
run enterprises, public schools, universities, parks, TV 
stations, meteorological bureaus, etc.) to commercial and 
social entities with no obvious ties to the state.\168\ Anti-
cult associations also actively circulated and promoted the 6-
10 Office's Olympic directive.\169\
    Olympic and municipal officials in Shanghai and Beijing 
also issued directives pertaining to Falun Gong in the lead-up 
to the 2008 Olympic Games. The Shanghai Public Security Bureau 
sent a warning to Falun Gong practitioners and other dissidents 
in April 2008 demanding that they remain in the city during the 
Olympics and report to the public security office at least once 
a week until the end of October. The notice threatened to 
detain or punish anyone who violates the order.\170\ In 
November 2007, Beijing Olympic organizers reminded visitors to 
the games that possession of Falun Gong writings is strictly 
forbidden and that no 
exceptions would be made for international visitors.\171\ The 
Beijing Public Security Bureau issued a public notice offering 
a reward of up to 500,000 yuan (US$73,100) for informants who 
report Falun Gong plans to ``sabotage'' the Olympics.\172\ From 
January to June 2008, public security agents reportedly 
arrested at least 208 practitioners from all 18 districts and 
counties in Beijing municipality. Falun Gong sources have 
documented the names and other information for 141 of the 208 
practitioners who were detained in Beijing, 30 of whom are now 
reportedly being held in reeducation through labor camps with 
sentences as long as two-and-a-half years.\173\
    Chinese security officials made statements prior to the 
Olympics that sought to link Falun Gong with terrorist threats, 
but produced no evidence to substantiate these claims.\174\ 
Tian Yixiang, the head of the Military Affairs Department of 
the Beijing Olympics Protection Group, listed Falun Gong among 
the groups that might ``use various means, even extreme 
violence, to interfere with or harm the smooth execution of the 
Olympic Games.'' \175\ Li Wei, Chairman of the Center for 
Counterterrorism Studies at the quasi-official China Institute 
of Contemporary International Relations, categorized Falun Gong 
as among the top five terrorist threats to the 2008 Olympic 
Games.\176\

domestic institutional sources of anti-falun gong activity

    The PRC Constitution stipulates that the state ``protects 
the legitimate rights and interests of Chinese nationals 
residing abroad and protects the lawful rights and interests of 
returned Chinese and of the family members of Chinese nationals 
residing abroad.'' \177\ The primary government institution to 
which the Constitution assigns this role is the State Council--
the executive body at the pinnacle of state power and 
administration.\178\ Within the State Council, the office 
responsible for implementing this mandate is the State 
Council's Overseas Chinese Affairs Office (OCAO).
    In 2001, then OCAO director, Guo Dongpo, urged cadres to 
``wake up and see that the struggle with the `Falun Gong' cult 
is a serious political struggle.'' \179\ Guo called for 
marshalling OCAO resources to ``unite all powers that can be 
united . . . make them understand and support the Chinese 
government's position and policy of handling the `Falun Gong' 
problem according to the law.'' Guo also called for ``striking 
against the overseas forces of the `Falun Gong' cult, stop them 
from spreading, and eliminate their bad influence.'' \180\ An 
official report on the January 2007 OCAO directors' meeting, in 
which OCAO provincial and municipal leaders gathered with the 
national leadership in Beijing, stated that the ``OCAO also 
coordinates the launching of anti `Falun Gong' struggles 
overseas by relevant departments.'' \181\
    A 2005 OCAO report urges overseas Chinese and returned 
overseas Chinese to ``firmly establish the concept of `greater 
overseas Chinese affairs,' '' and to ``aggressively expand 
domestic Chinese and overseas Chinese friendship ties.'' 
Specifically, overseas Chinese should ``aggressively expand the 
struggle with Taiwanese independence forces, the Falun Gong 
cult, ethnic separatism and other enemy forces in order to 
contribute to the defense of state security.'' \182\ A similar 
provincial report published on the OCAO Web site devotes a 
section to ``resolutely implementing and executing the Party 
line, the Party's guiding principles, and the Party's 
policies.'' Within this section, OCAO cadres are called to 
``attach a high degree of importance to launching struggles to 
oppose the `Falun Gong' cult and to the work of `safeguarding 
stability.' '' \183\ In an OCAO online research journal, a 
cadre from the Xinjiang Uyghur Autonomous Region (XUAR) 
discusses the formation of an ``Overseas Chinese Work Corps.'' 
The cadre writes that within the XUAR Overseas Chinese Work 
Corps system, ``more than 30,000 overseas Chinese'' operate 
under the ``correct leadership of the Party Work Corps,'' and 
are charged with ``resolutely implementing and executing each 
and every policy task in the Party's and nation's overseas 
Chinese work.'' One such policy task is defined as ``launching 
a resolute struggle against enemy forces, ethnic separatists, 
Taiwanese independence forces, and the Falun Gong cult 
organization.'' \184\
    In 2006, Chen Yujie, the Director of the OCAO, ``expressed 
his admiration'' to a visiting delegation of overseas Chinese 
and Chinese-Americans from Chicago for their ``positive 
contributions'' in the ``struggle against `Falun Gong' and 
other enemy forces.'' \185\ Reports of similar appeals to take 
action against Falun Gong have appeared in Europe, with the 
China Anti-Cult Association taking a leading role in spreading 
anti-Falun Gong propaganda there.\186\ In September 2008, the 
OCAO Web site reported that the Chinese Ambassador to Argentina 
attended an award ceremony in which a local Chinese man was 
honored for ``organizing members of the China Peaceful 
Unification Promotion Association of Argentina to aggressively 
struggle against `Falun Gong' elements and Tibetan 
independence'' during the Olympic torch relay.\187\
    In July 2008, the OCAO held a meeting in Beijing to discuss 
their ``integrated preparations and deployment during the 
Olympic period.'' A high-ranking official used this occasion to 
stress to OCAO cadres that ``inviting overseas Chinese to 
attend the opening and closing ceremonies is a heavy task for 
our office. We must adopt strict organizational measures, 
thorough security services, and good security defense.'' 
Immediately thereafter, the official reminded his audience to 
``strengthen network security protections and the security of 
internal office secrets'' because ``the activities of Falun 
Gong elements grow wilder by the day.'' \188\

                         Ethnic Minority Rights

    Ethnic minority citizens of China do not enjoy the ``right 
to administer their internal affairs'' as guaranteed to them in 
law.\1\ In 2008, Tibetans and Uyghurs in China demonstrated 
against government policy toward their communities, 
underscoring the failures of the government to provide 
meaningful autonomy in designated ethnic minority regions and 
to safeguard the rights of ethnic minorities throughout 
China.\2\ Although the Chinese government protects some aspects 
of ethnic minority rights and is more tolerant of ethnic 
minority communities that do not overtly challenge state 
policies, shortcomings in both the substance and the 
implementation of Chinese ethnic minority policies prevent 
ethnic minority citizens from enjoying their rights in line 
with domestic Chinese law and international legal standards.\3\
    Authorities continued in 2008 to repress citizen activism 
by ethnic minorities in China. [For more information on 
government 
responses to protests in Tibetan and Uyghur areas, see Section 
II--Rights of Criminal Suspects and Defendants, Section II--
Freedom of Expression, Section IV--Xinjiang, and Section V--
Tibet. For information on ethnic Koreans, see Section II--North 
Korean Refugees in China.] In the past year, authorities in the 
Inner Mongolia Autonomous Region (IMAR) punished ethnic 
minority rights advocates as well as citizens perceived to have 
links with ethnic rights organizations, intensifying a trend 
noted by the Commission in its 2007 Annual Report.\4\ In July, 
authorities in the IMAR detained businessman Burildguun for 
alleged ties to an overseas Mongolian political group.\5\ In 
March, authorities detained writer Naranbilig for 20 days in 
connection with his plans to attend the UN Permanent Forum on 
Indigenous Issues and with his broader activities advocating 
for the rights of ethnic Mongols. The same month, authorities 
also detained activist Tsebegjab for his alleged ties to 
overseas Mongolian activists. Authorities later placed both 
Naranbilig and Tsebegjab under confinement in their homes.\6\ 
In January, authorities at the Beijing airport detained 
Jiranbayariin Soyolt, a native of the IMAR and citizen of 
Mongolia who had been active in promoting ethnic minority 
rights in the IMAR. Chinese officials released him in June and 
returned him to Mongolia.\7\ Some of the activists had drawn 
attention to Chinese government practices infringing on the 
rights of ethnic Mongols. Longstanding government policies in 
the IMAR have disrupted traditional pastoralist livelihoods, 
forced resettlement and assimilation, and reduced the use of 
the Mongolian language.\8\ IMAR authorities have taken steps in 
recent years to spur the use of Mongolian, including through 
legislation implemented in 2005,\9\ but officials found in 2007 
that ``serious problems'' remained in promoting the 
language.\10\
    The government reported taking steps in the past year to 
improve economic and social conditions for ethnic minorities. 
It 
remains unclear, however, whether the new measures have been 
effectively implemented and include safeguards to protect 
ethnic minority rights and to solicit input from local 
communities. As the Commission noted in past reports, 
development efforts have brought mixed results for ethnic 
minority communities.\11\ In 2008 Premier Wen Jiabao announced 
more support for rural ethnic minority regions, but also tied 
economic improvement to the resettlement of villages.\12\ 
Officials reported in the past year continuing 
efforts to promote compulsory education in ethnic minority 
areas\13\ and taking steps to cultivate more ethnic minority 
cadres.\14\ The Guizhou provincial government continued efforts 
in 2008 to apply intellectual property protection to 
traditional knowledge used by ethnic minority communities. [See 
Section III--Commercial Rule of Law for an analysis of this 
development.] In 2008, authorities reported positively on 
implementation of a five-year development program for ethnic 
minorities and ethnic minority regions that was issued in 2007 
and first reported on by the Commission in its 2007 Annual 
Report.\15\ Although the program supports potentially 
beneficial reforms, it also includes measures designed to 
monitor and report on ethnic relations and perceived threats to 
stability.\16\ In 2007, central government authorities reported 
on researching strategies to monitor and report on ethnic 
relations.\17\

------------------------------------------------------------------------
                         Prisoner Profile: Hada
-------------------------------------------------------------------------
  The 2008 detentions of Burildguun, Naranbilig, Tsebegjab, and
 Jiranbayariin Soyolt underscore the repercussions ethnic Mongols have
 faced for advocating ethnic minority rights and challenging Chinese
 policy in the Inner Mongolia Autonomous Region (IMAR). Bookstore owner
 Hada continues to serve a 15-year sentence for his activities promoting
 ethnic minority rights and democracy. A brief chronology of his case
 follows.\18\

<bullet> 1992: Hada founds the Southern Mongolian Democratic Alliance to
 promote self-determination and democracy in Inner Mongolia.
<bullet> 1995: Authorities detain Hada on December 11 after he organizes
 peaceful protests for ethnic rights in the IMAR capital of Hohhot.
<bullet> 1996: The Hohhot Intermediate People's Court sentences Hada on
 November 11 to 15 years' imprisonment for ``splittism'' and
 ``espionage.'' Fellow activist Tegexi receives a 10-year sentence at
 the same trial for ``splittism'' and is released in early December
 2002.
<bullet> 1997: The Inner Mongolia High People's Court rejects Hada's
 appeal.
<bullet> 2006: Authorities detain Hada's wife Xinna and son Uiles while
 the two attend the trial of ethnic Mongol physician Naguunbilig and his
 spouse Daguulaa. Authorities reportedly beat Uiles for over 20 minutes
 while holding him in custody. Authorities release Xinna after 3 hours
 in custody, but order Uiles to spend 13 days in detention at the Hohhot
 City Detention Center.
<bullet> 2008: Hada remains in the Inner Mongolia No. 4 Prison in
 Chifeng, where he is reported to be in poor health, has been denied
 proper medical treatment, and has been subjected to routine physical
 abuse. He is due for release from prison on December 10, 2010.
------------------------------------------------------------------------

                          Population Planning


                              INTRODUCTION

    China's population planning policies in both their nature 
and implementation constitute human rights violations according 
to international standards. During 2008, the central government 
ruled out change to the policy for at least a decade. 
Population planning policies limit most women in urban areas to 
bearing one child, while permitting slightly more than half of 
women in rural areas to bear a second child if their first 
child is female.\1\ In the past year, the National Population 
and Family Planning Commission (NPFPC) retired some of its more 
strident slogans (e.g., ``one more baby means one more tomb'') 
in an effort to soften the public presentation of its policies, 
but no corresponding steps were taken to end or change the 
coercive nature of these policies.\2\ Central and local 
authorities continued to strictly control the reproductive 
lives of Chinese women through an all-encompassing system of 
family planning regulations in which the state is directly 
involved in the reproductive decisions of its citizens. Local 
officials and state-run work units monitor women's reproductive 
cycles in order to prevent unauthorized births. The government 
requires married couples to obtain a birth permit before they 
can lawfully bear a child and forces them to use contraception 
at other times. Violators of the policy are routinely punished 
with exorbitant fines, and in some cases, subjected to forced 
sterilization, forced abortion, arbitrary detention, and 
torture.\3\
    Although implementation tends to vary across localities, 
the government's population planning laws and regulations 
contravene international human rights standards by limiting the 
number of children that women may bear and by coercing 
compliance with population targets through heavy fines.\4\ For 
example, the Population and Family Planning Law, which became 
effective in 2002, is not consistent with the standards set by 
the 1995 Beijing Declaration and the 1994 Programme of Action 
of the Cairo International Conference on Population and 
Development.\5\ Controls 
imposed on Chinese women and their families, and additional 
abuses engendered by the system, from forced abortion to 
discriminatory policies against ``out-of-plan'' children, also 
violate standards in the Convention on the Elimination of All 
Forms of Discrimination Against Women,\6\ Convention on the 
Rights of the Child,\7\ and the International Covenant on 
Economic, Social, and Cultural Rights.\8\ As a state party to 
these treaties, China is bound to uphold their terms.

                      ``SOCIAL COMPENSATION FEES''

    The NPFPC issued a directive in September 2007 calling for 
``social compensation fees'' to be levied at higher levels 
according to income in order to discourage affluent Chinese 
from having more children than the law allows. It also warned 
urban residents that violations of the population planning 
regulations would now result in negative marks taken against 
their financial credit records.\9\ ``Social compensation fees'' 
(shehui baoyang fei) are penalties or fines that local 
governments assess against couples who give birth to an 
unapproved child. For certain couples, these fines pose a 
dilemma between undergoing an unwanted abortion and incurring 
devastating financial costs. Often with court approval, family 
planning officials are allowed to take ``forcible'' action 
against families who are not willing or able to pay the fines. 
These ``forcible'' actions include the confiscation of family 
belongings and the destruction of the violators' homes.\10\
    Provincial governments have also introduced new punitive 
measures--including the threat of job loss or demotion, denial 
of 
promotion, expulsion from the Party, and destruction of 
personal property--as a supplement to standard fines for all 
violators, regardless of their economic status.\11\ Hunan, 
Shaanxi, and Guangdong were among the first provinces to 
immediately target ``elite'' segments of the population with 
new penalties.\12\ Less than a month after the NPFPC directive 
was issued, Hunan adopted a new penalty standard equal to two 
to six times the violator's income for the previous year for 
each ``illegal conception.'' For each child conceived after the 
first ``unauthorized birth,'' a fine equal to three times the 
violator's income is imposed, which is in addition to the 
standard penalty. For children conceived out of wedlock, 
violators face a fine of six to eight times their income from 
the previous year.\13\
    Following suit in 2008, the Beijing Population and Family 
Planning Commission began drafting a proposal to penalize more 
affluent and socially prominent violators of the policy by 
placing their names on a financial blacklist and by banning 
them from receiving civic awards or honors.\14\ Other provinces 
are widely publicizing ``unlawful'' births in an effort to 
shame violators into compliance. Henan and Zhejiang provinces, 
for example, have adopted measures to ``expose celebrities and 
high-income people who violate the family planning policy'' and 
thereby tarnish their reputations.\15\ In January 2008, the 
Hubei Provincial Party Committee and government issued a three-
year ban on government employment and called for revocation of 
Party membership for violators of the population planning 
policies.\16\ In 2007, Hubei expelled 500 Party cadres and 
dismissed 395 government officials, including 3 provincial 
lawmakers and 4 members of the local Chinese People's Political 
Consultative Conference (CPPCC), for having ``unauthorized'' 
children.\17\ At least one county in Hubei has also begun to 
deny retirement benefits to teachers who violate birth 
quotas.\18\ Hunan disqualified 31 candidates for the local 
People's Congresses and CPPCC in November 2007, while Liaoning 
province barred 21 lawmakers from parliamentary duties in 
2008.\19\ One former CPPCC member and owner of a cement company 
in Hubei was fined 765,500 yuan (US$105,000) for fathering a 
second child without the government's permission.\20\ In 2007, 
Hubei punished 93,000 violators of population regulations and 
collected a total of 230 million yuan (US$33.5 million) in 
``social compensation fees.'' \21\ Local authorities often use 
legal action and coercive measures to collect money from poor 
citizens who cannot afford to pay the fees.\22\

                             IMPLEMENTATION

    The use of coercive measures in the enforcement of 
population planning policies remains commonplace despite 
provisions for the punishment of abuses perpetrated by 
officials outlined in the Population and Family Planning 
Law.\23\ The same law requires that local family planning 
bureaus conduct regular pregnancy tests on married women and 
administer unspecified ``follow-up'' services.\24\ The 
population planning regulations of at least 18 of China's 31 
provincial-level jurisdictions permit officials to take steps 
to ensure that birth quotas are not exceeded; these steps 
include forced abortion.\25\ In some cases, local officials 
coerce abortions even in the third trimester.\26\ ``Termination 
of pregnancy'' is explicitly required if a pregnancy does not 
conform with provincial population planning regulations in 
Anhui, Hebei, Heilongjiang, Hubei, Hunan, Jilin, Liaoning, and 
Ningxia provinces. In 10 other provinces--Fujian, Guizhou, 
Guangdong, Gansu, Jiangxi, Qinghai, Sichuan, Shanxi, Shaanxi, 
and Yunnan--population planning officials are authorized to 
take ``remedial measures'' to deal with ``unlawful'' 
births.\27\
    In April 2008, population planning officials in the town of 
Zhubao in Shandong province ``detained and beat'' the sister of 
a woman who had illegally conceived a second child, in an 
attempt to compel the pregnant woman to undergo an 
abortion.\28\ Chen Guangcheng, a legal advocate and rights 
defender from nearby Linyi city, was sentenced to more than 
four years in prison in 2006 for exposing widespread abuses by 
local family planning officials. In April 2008, Chen filed a 
lawsuit alleging that Linyi officials had ``trumped up 
charges'' against him in ``retaliation'' for his efforts to 
expose their misdeeds. Chen also wrote a detailed letter to the 
president of the Supreme People's Court and the procurator-
general at the Supreme People's Procuratorate to protest his 
imprisonment and petition for release.\29\ In 2007 and 2008, 
prison 
authorities prevented Chen from communicating with his family, 
refused a request for medical parole, and accused him of having 
``illicit relations with a foreign country.'' \30\ Chen's wife, 
Yuan Weijing, confirmed that cases of forced abortion and other 
abuses have resurfaced in Shandong in 2008. She remains under 
constant police surveillance because of her husband's prior 
advocacy.\31\ In March 2008, family planning officials in 
Zhengzhou city, the capital of Henan province, forcibly 
detained a 23-year-old unmarried woman who was seven months 
pregnant. Officials reportedly tied her to a bed, induced 
labor, and killed the newborn upon delivery.\32\ Regulations in 
most provinces forbid a single woman to have a child and 
residency permit regulations often deny registry to children 
born out of wedlock.\33\ ``Out-of-plan'' children in China, 
those whose birth violated population planning regulations, are 
frequently denied access to education and face hurdles to 
finding legitimate employment.\34\
    Recent reports indicate many localities continue to use 
forced sterilization to enforce population planning rules. One 
report 
describes lessons learned by Gansu provincial family planning 
officials from a recent visit to Shanxi province. It emphasizes 
the 
importance of ``firmly grasping the long-term implementation of 
effective contraception, especially persevering to the end with 
the sterilization of households with two female children.'' 
\35\ In spring 2008, in a reported effort to meet local targets 
for sterilization, authorities in Tongwei county in Gansu 
province allegedly forcibly sterilized and detained for two 
months a Tibetan woman who had abided by local population 
planning requirements.\36\ Most ethnic minorities in rural 
areas, such as Tibetans, are officially permitted to have more 
than one child under population planning regulations. In some 
localities, officials impose restrictions nevertheless. 
According to overseas Uyghur rights observers, Chinese 
authorities have carried out forced sterilizations and 
abortions against Uyghur women.\37\ In the aforementioned case 
of forced sterilization of a Tibetan woman in Gansu province, 
local officials were reportedly motivated by the promise of 
promotion and a monetary reward equal to three months' pay for 
performing a set number of sterilization procedures within 
their locality.\38\
    The linking of job promotion with an official's ability to 
meet or exceed such targets occurs in many provinces and 
provides a powerful structural incentive for officials to 
employ coercive measures in order to meet population goals.\39\ 
In a July 2006 speech, a Tongwei county official highlighted 
the county's failure to reach sterilization quotas and 
admonished local family planning workers to ``continue to keep 
the sterilization of households with two girls . . . as your 
focus.'' \40\ The official urged his subordinates to do the 
following:

        From the beginning to the end, each village and town 
        must give the highest priority to the tubal ligation of 
        women who have given birth to two girls, especially 
        within those villages where these women have not yet 
        had their tubes tied. We must demonstrate dogged 
        determination and break the normal procedures. We 
        should solder this assignment to the bodies of every 
        cadre. Set the time and set the assignment. On multiple 
        levels and using different channels, we should obtain 
        information on spouses who are attempting to flee the 
        county. By hook or crook, we must carry out 
        contraceptive measures and every village must meet at 
        least one of its target assignments.\41\

    The Tongwei official's reference to demonstrating ``dogged 
determination'' and breaking the ``normal procedures'' signals 
official tolerance of abuses perpetuated by family planning 
cadres against violators of population planning regulations. As 
noted in the Commission's last report, for example, large-scale 
protests erupted in Guangxi Zhuang Autonomous Region in 2007 
after local officials carried out forced abortions, 
sterilizations, and the looting of homes to punish violators of 
the policy.\42\
    Local governments often offer monetary incentives and other 
benefits to informants who report violations of population 
planning regulations. The Tongwei county government named 2008 
the ``year of fundamental construction'' for population 
planning and unveiled a ``peaceful life project'' of various 
social welfare initiatives for sterilized rural women with two 
female children.\43\ In September 2007, the Tongwei County 
Population Bureau began to give monetary incentives to 
informants who report unsterilized households with two female 
children and to women who voluntarily undergo tubal 
ligation.\44\ According to the announcement, informants are 
guaranteed ``strict secrecy'' and a ``one-time payment of 3,000 
yuan (US$438).'' Women who voluntarily take the initiative to 
arrange for a sterilization procedure with the local government 
are promised the same reward given to informants as well as a 
``social security deposit'' of 1,000 yuan (US$146) and an 
additional one-time 
reward of 10,000 yuan (US$1,459).\45\ At least three localities 
in Henan province have also adopted monetary incentives for 
compliance with population planning regulations, providing a 
``one-time reward of 3,000-5,000 yuan [US$438 to US$729] for 
[couples who abandon] plans to have a second child.'' \46\
    The utilization of positive incentives for compliance with 
birth quotas and sterilization policies in Henan and Gansu 
provinces reflects an emerging national pattern, but thus far 
incentives for compliance have only been implemented in 
addition to, rather than in place of, longstanding coercive 
measures. In November 2007, the central government issued a 
directive to encourage this ``benefit-oriented mechanism'' in 
population planning, which offers financial rewards in the 
areas of housing, healthcare, education, and poverty 
alleviation to compliant couples in rural areas.\47\ Examples 
of these benefits include government-provided insurance for 
compliant families and education subsidies for girls who are 
their families' only child.\48\ Some provinces have also eased 
restrictions to allow younger couples who come from single-
child families to give birth to two children. The National 
Population and Family Planning Commission's (NPFPC) original 
directive indicated that couples from one-child families in 27 
provinces would enjoy this exemption, but in 2007, a NPFPC 
spokesman claimed that the exemption applied to all such 
couples nationwide with the sole exception of Henan 
province.\49\ Like other population policies, implementation is 
likely uneven across provinces.

                     DEMOGRAPHIC AND SOCIAL CRISES

    The government's aim in relaxing birth quotas for couples 
from one-child families is to address a rising demographic 
crisis caused by three decades of restrictive population 
planning, but experts believe these efforts can only mitigate, 
not solve, trends that are already set in motion.\50\ China now 
faces two emerging demographic trends caused by population 
planning that could start to undermine its economic growth 
within the next decade: (1) a ``graying'' society in which the 
elderly population increases disproportionately to the working 
age population and creates pressure on young adults who must 
support a larger number of elderly dependents with no 
assistance from siblings, and (2) an artificially low fertility 
rate that will reduce the number of potential workers.\51\
    Another demographic challenge that China presently 
confronts is a severely skewed sex ratio. In 2000, the most 
recent year for which national census data is available, the 
male-to-female sex ratio for the infant-to-four year old age 
group was reportedly 120.8 males for every 100 females. This is 
far above the global norm of roughly 105 males for every 100 
females.\52\ At least five provinces--Jiangsu, Guangdong, 
Hainan, Anhui, and Henan--reported ratios over 130 in 2005.\53\ 
In 2007, the central government estimated that China has 37 
million more males than females.\54\ By 2020, the Chinese 
government estimates that there will be at least 30 million men 
of marriageable age that may be unable to find a spouse.\55\ 
Such a situation could fuel petty crime, prostitution, human 
trafficking, drug abuse, and HIV/STD transmission.\56\ Some 
political scientists argue that large numbers of ``surplus 
males'' could create social conditions that the Chinese 
government may choose to address by expanding military 
enlistment.\57\
    In response to strict birth limits imposed by the 
government, Chinese couples often engage in sex-selective 
abortion to ensure that they have a son, especially rural 
couples whose first child is a girl.\58\ For this reason, 
China's skewed sex ratio is largely attributable to its 
population planning policies and a traditional cultural 
preference for sons. Comparing China's skewed sex ratio with 
global averages, one economist estimates that more than 12 
million girls were unaccounted for by the 2000 census, many of 
whom may have been aborted upon discovery of the sex of the 
fetus.\59\ A UN expert based in Beijing estimates that by 2014 
the number of ``missing women'' in China will reach between 40 
to 60 million.\60\ In 2006, the National People's Congress 
Standing Committee considered, but did not pass, a proposed 
amendment to the Criminal Law that would have criminalized sex-
selective abortion.\61\ While at least one provincial 
government has passed regulations imposing fines on women who 
undergo sex-selective abortions and on the health organizations 
that perform them,\62\ the central government has taken no 
other action at the national level.
    In July 2008, Chinese authorities admitted that the country 
now has more than 100 million people with no siblings, which 
critics charge has deleterious effects on the social 
development of Chinese youth who are treated like ``little 
emperors'' within their homes.\63\ Many Chinese blame the 
population policies for social problems as diverse as rising 
crime among young men, obesity and selfishness among urban 
youth, and the growing prevalence of divorce among young 
couples from single-child families.\64\

                 SIGNS OF DISAGREEMENT AMONG OFFICIALS

    Population planning has been largely off-limits as a topic 
for public debate, but some officials began to speak out on the 
issue over the past year.\65\ In March 2007, 29 delegates to 
the Chinese People's Political Consultative Conference called 
for eliminating the one-child policy entirely because of the 
developmental and social problems that it caused China's 
youth.\66\ In February 2008, Zhao Baige, Vice-Minister of the 
National Population and Family Planning Commission (NPFPC), 
told reporters that the government was considering changing the 
population planning policy ``incrementally.'' \67\ Shortly 
thereafter, a deputy to the National People's Congress called 
for replacing the current policy with a new formula that 
encourages all couples to have one child, allows them to have 
two, prohibits them from having three, and rewards them for 
having none.\68\ Zhang Weiqing, the Minister of the NPFPC, 
moved quickly to quell the discussion by issuing an emphatic 
statement that China would ``by no means waver'' in its 
population planning policies for ``at least the next decade.'' 
\69\ The emergence of different views from Chinese official 
circles suggests the existence of previously unobserved debates 
within the Party regarding the future of the population 
planning policy. Restrictions on the public expression of 
dissent by ordinary citizens continue to obscure outsiders' 
ability to discern trends in the relative support and 
opposition to such regulations among the general Chinese 
populace. The Commission will continue to monitor and 
investigate these trends as greater information becomes 
available.

------------------------------------------------------------------------
                           Sichuan Earthquake
-------------------------------------------------------------------------
  On May 12, 2008, a powerful earthquake struck Sichuan province leading
 to the death of more than 80,000 people. Among the dead were thousands
 of children who lost their lives when school buildings collapsed. Many
 parents were left to face an uncertain future without the support
 system traditionally provided by one's offspring. This natural disaster
 exposed the deep resentment that many Chinese citizens harbor toward
 the nation's population planning policies as manifested in the
 emotional protests against the shoddy construction of public schools
 and local authorities who failed to rapidly rescue trapped
 schoolchildren.\70\

<bullet>  The Sichuan Population and Family Planning Commission
 estimates that at least 7,000 children from one-child families were
 killed and more than 16,000 were injured. More precise statistics are
 still being compiled.\71\
<bullet>  In May 2008, the government announced that parents who lost
 their only children in the earthquake would be permitted to have
 another child if they applied for a certificate from the Chengdu
 Population and Family Planning Commission.\72\
<bullet>  In June 2008, the National Population and Family Planning
 Commission sent a team of medical personnel to the earthquake zone to
 perform operations to reverse sterilization procedures for parents who
 lost their only child and want to have another.\73\ In-vitro
 fertilization was also offered to eligible couples.\74\
------------------------------------------------------------------------

                          Freedom of Residence


                              INTRODUCTION

    The Chinese government continues to enforce the household 
registration (hukou) system to limit the rights of Chinese 
citizens to choose their permanent place of residence. Since 
the enforcement of the Regulations on Household Registration in 
1958,\1\ the division between rural and urban hukous has 
prevented rural residents who migrate to cities from accessing 
healthcare, education, ownership of property, legal 
compensation, and other social welfare programs.\2\ 
Consequently, the hukou system has become a foundation of 
discrimination and violation of the right to equality for 
Chinese citizens who hope to change their residence.\3\ 
Security preparations for the 2008 Beijing Summer Olympic Games 
resulted in heightened scrutiny of the hukou status of migrants 
throughout China. In January, Beijing officials ordered public 
security bureaus to intensify inspections of migrants without a 
Beijing hukou to ensure security during the Olympics.\4\ In 
July, authorities in the Xinjiang Uyghur Autonomous Region 
launched a house-to-house search campaign reportedly targeting 
the migrant population and other groups on the eve of the 
Olympics.\5\ Some migrants reportedly believe that the 
government's intensified checks are aimed at preventing 
protests and incidents that Chinese authorities think could mar 
the government's and Communist Party's image.\6\
    The government's restriction on residence is inconsistent 
with the right to freedom of residence and the right to 
equality as defined by international human rights standards.\7\ 
Therefore, some have pursued legal action to challenge the 
system. A lawyer, Cheng Hai, filed a lawsuit against Beijing 
Public Security Bureau on February 25, 2008, requesting that 
the Beijing Changping People's Court revoke his temporary 
resident permit registration at the Changping district police 
station.\8\ Cheng said Beijing Public Security Bureau's 
requirement of a temporary permit conflicts with more than 10 
superior laws, including a citizen's right to equal treatment 
stipulated in the Constitution.\9\

                          RECENT HUKOU REFORMS

    Since the economic reform period in the late 1970s, former 
farmers and laid-off state-owned business employees without 
urban hukou began relocating to cities in search of higher 
earnings, becoming the so-called ``floating population.'' \10\ 
To accommodate the surplus of rural labor and the labor demand 
in urban areas, national and local authorities implemented 
reforms to enhance the mobility of rural residents.\11\ 
However, recent reforms only allow migrants to change hukou if 
they meet criteria that generally favor senior Communist Party 
officials, as well as the wealthy and educated.\12\ Those 
without a stable job, a stable place of residence, or family 
connections to urban hukou holders still face obstacles to 
obtaining city hukou.
    [Addendum: Recent Hukou Reforms is a representative, non-
comprehensive survey of local Chinese government hukou reforms 
enacted from 2005 through August 2008.]
    Generally, these reforms require that rural migrants have 
(1) a ``stable job or source of income'' and (2) lived in a 
``stable place of residence for a specified period of time'' as 
conditions for obtaining local hukou. Some also require a 
college education. Most of the reforms still exclude the vast 
majority of Chinese migrants who often work as manual laborers 
and live in temporary accommodations.
    Most recently, Jiangsu province loosened its hukou 
application requirements, allowing migrants with special skills 
and contributions as well as their family members to relocate, 
even if they do not own local property.\13\ Yunnan province 
issued an opinion on September 3, 2007, replacing the two-tier 
agriculture and non-agriculture system with one unified 
resident permit. The opinion states that individuals with a 
legal permanent residence, long-term employment contract, and 
stable source of income are eligible to apply for a hukou.\14\ 
Shenzhen city began a new residency card system on August 1, 
2008,\15\ abolishing the city's temporary resident card system 
in place since 1984.\16\ The measures stipulate that all 
citizens between 16 and 60 years old can register for a 
residency permit if they have been working in Shenzhen for more 
than 30 days without permanent residency status. Individuals 
over 60 are permitted to apply if they own property, invest in, 
or work for local enterprise, or bring technical expertise to 
the city. New permit holders will be entitled to a range of 
free public services. Children of permit holders will have 
access to local schools.\17\

                          REMAINING CHALLENGES

    Since 1984, the central government has sanctioned a locally 
based migrant registration system.\18\ Nevertheless, uneven 
implementation of hukou reform at the local level has dulled 
the impact of national calls for change. Some recent instances 
highlight 
remaining challenges.

        <bullet> In January 2008, a high school girl in Beijing 
        attempted suicide after learning that she was unable to 
        register for the college entrance examination without a 
        Beijing hukou, prompting public outcry over the slow 
        pace of hukou reform.\19\
        <bullet> In April 2008, Zhuhai city, Guangdong 
        province, suspended its hukou application process due 
        to increased fiscal pressure of providing services to 
        hukou holders, raising doubts over migrant integration 
        with limited resources.\20\

                                                                                 Addendum: Recent Hukou Reforms
 This table provides a representative sample of local Chinese government hukou reforms enacted between 2005 and August 2008. The first two pages of the table provide examples of hukou reforms
  at the provincial level; the remaining pages provide examples at the level of municipality, autonomous region, special economic zones and non-provincial-level city. Reforms are categorized
 according to two sets of key features. The first set includes three common eligibility requirements (income, residence and education or skill level). The second set includes two main policies
    discussed in the main body of this section (the elimination of agricultural/non-agricultural distinction, and the provision of benefits to new hukou holders). An ``X'' under ``income,''
   ``residence'' or ``education or skill'' indicates that the hukou reform in question demands that hukou applicants meet eligibility requirements in these areas respectively. An ``X'' under
  ``Eliminate Agricultural/Non-Agricultural Distinction'' indicates that the reform includes provisions that address the elimination of the agricultural/non-agricultural distinction. An ``X''
                                              under ``Benefits'' indicates that the reform includes the provision of benefits to new hukou holders.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     Key Reform Features
                                                             -------------------------------------------------------------------
                                                                   Eligibility Requirements                  Policy
                                                             -------------------------------------------------------------------
         Province               Date            Sources                                               Eliminate                                    Description and Past Reforms
                                                                                     Education    Agricultural/Non-
                                                               Income    Residence    or Skill      Agricultural      Benefits
                                                                                                     Distinction
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Zhejiang                       5/3/2006   Reform Reported in        X           X            X                   X           X   The provisions abolish the agricultural/non-agricultural
                             (Reported)          Xinhua\21\                                                                       classification system. In order to apply for a hukou,
                                                                                                                                  individuals must possess a lawful permanent residence and be
                                                                                                                                  stably employed. Urban public employment agencies at all
                                                                                                                                  levels should provide career guidance, job recommendations,
                                                                                                                                  and legal advice free of charge to migrant workers from rural
                                                                                                                                  areas seeking employment.
                                                                                                                                 The 2006 reforms build on reforms instituted in 2002\22\ at the
                                                                                                                                  county and small city levels to grant a hukou to individuals
                                                                                                                                  with a fixed place of residence, a stable source of income, or
                                                                                                                                  those holding advanced degrees.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Liaoning                      4/20/2007   Reform Reported in                    X                                X               The provisions abolish the agricultural/non-agricultural
                             (Reported)            Liaoning                                                                       classification system. The provisions only require that an
                                                 Provincial                                                                       individual have a legal, permanent residence in a city to be
                                             Population and                                                                       eligible for a hukou.
                                            Family Planning
                                                           Commission
                                                   News\23\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Yunnan                         1/1/2008   Yunnan Government         X           X                                X               The opinion abolishes the agricultural/non-agricultural system.
                            (Effective)         Opinion\24\                                                                       The opinion states that individuals with a legal permanent
                                                                                                                                  residence, long-term employment contract, and stable source of
                                                                                                                                  income are eligible to apply for a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Key Reform Features
                                                              -------------------------------------------------------------------
                                                                    Eligibility Requirements                  Policy
                                                              -------------------------------------------------------------------
         Municipality               Date          Sources                                              Eliminate                                   Description and Past Reforms
                                                                                      Education    Agricultural/Non-
                                                                Income    Residence    or Skill      Agricultural      Benefits
                                                                                                      Distinction
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Beijing                           4/19/2007   Reform Reported        X           X            X                               X   The new measures relax restrictions for a hukou registration
                                (Effective)      in Sina\25\                                                                       in Beijing. Children are permitted to adopt the household
                                                                                                                                   registration of their father. Age restrictions for hukou are
                                                                                                                                   eliminated. Previous regulations provided migrant workers
                                                                                                                                   with medical insurance and gave their children equal access
                                                                                                                                   to schooling. Earlier city regulations directed county-level
                                                                                                                                   governments to grant a hukou to individuals with a fixed
                                                                                                                                   place of residence or a stable source of income.
                                                                                                                                  Under past reforms,\26\ citizens who meet professional,
                                                                                                                                   educational, or investment requirements are eligible to apply
                                                                                                                                   for a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Chongqing                        10/19/2007   Reform Reported        X           X            X                   X           X   The five-year plan aims to abolish Chongqing's agricultural/
                                 (Reported)    in Xinhua\27\                                                                       non-agricultural registration system, replacing it with a
                                                                                                                                   single ``Chongqing Residency Permit'' scheme. It also
                                                                                                                                   provides government support for job skills training, migrant
                                                                                                                                   education, sanitation, housing, and social security.
                                                                                                                                  Past reforms\28\ mandated that nine districts pilot the hukou
                                                                                                                                   reform. Individuals with purchased property (30 sq/m per
                                                                                                                                   person), a college level of education, or a stable income can
                                                                                                                                   apply for a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Key Reform Features
                                                              -------------------------------------------------------------------
                                                                    Eligibility Requirements                  Policy
                                                              -------------------------------------------------------------------
     Autonomous Region           Date            Sources                                               Eliminate                                   Description and Past Reforms
                                                                                      Education    Agricultural/Non-
                                                                Income    Residence    or Skill      Agricultural      Benefits
                                                                                                      Distinction
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Guangxi Zhuang Autonomous       4/6/2005             Guangxi         X           X            X                   X               The circular abolishes the agricultural/non-agricultural
 Region                         (Issued)          Government                                                                       classification system, replacing it with a unified
                                                            Circular\29\                                                           ``residency permit system.'' Individuals who have their own
                                                                                                                                   residences are eligible to apply. Science and technology
                                                                                                                                   workers are eligible for a hukou. Migrant workers with a
                                                                                                                                   stable labor contract or a long-term lease can also establish
                                                                                                                                   a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Key Reform Features
                                                            -------------------------------------------------------------------
                                                                  Eligibility Requirements                  Policy
                                                            -------------------------------------------------------------------
  Special Economic Zone          Date           Sources                                              Eliminate                                    Description and Past Reforms
                                                                                    Education    Agricultural/Non-
                                                              Income    Residence    or Skill      Agricultural      Benefits
                                                                                                    Distinction
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Zhuhai                           4/9/2008   Reform Reported                    X                                            X   Zhuhai suspended the application process for residency on April
                              (Suspended)    in Xinhua\30\                                                                       9, 2008. Government officials cited increased fiscal pressure
                                                                                                                                 on the municipality as the primary reason for withdrawing its
                                                                                                                                 hukou reforms.
                                                                                                                                In recent years, the Zhuhai government had introduced a number
                                                                                                                                 of measures to improve living and welfare conditions for
                                                                                                                                 migrants, including 12 years of free education for children,
                                                                                                                                 medical insurance, and free bus travel for the elderly.
                                                                                                                                People buying new apartments of no less than 75 sq/m in Zhuhai
                                                                                                                                 were allowed to apply for a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                  Shenzhe        8/1/2008        Shenzhen City     X           X            X                   X           X   The measures stipulate that individuals aged 16 to 60 who have
                   n          (Effective)        Temporary                                                                       been working in Shenzhen for more than 30 days are eligible to
                                               Measures on                                                                       apply for a hukou at their local police station. Individuals
                                                  Resident                                                                       over 60 are permitted to apply if they own property, invest in
                                               Permits\31\                                                                       or work for a local enterprise, or bring technical expertise to
                                                                                                                                 the city. New permit holders will be entitled to a range of
                                                                                                                                 free public services. Children of permit holders will also be
                                                                                                                                 entitled to the same compulsory education as their permanent
                                                                                                                                 peers, and families will be able to apply for low-cost housing.
                                                                                                                                Under previous reforms, six categories of people, including
                                                                                                                                 those working, investing, or starting up a business in
                                                                                                                                 Shenzhen, or who had a lawful residence in Shenzhen, were
                                                                                                                                 permitted to apply for a hukou. In 2006, Shenzhen decided to
                                                                                                                                 include new residents in the city's retirement pension plan.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Key Reform Features
                                                               -------------------------------------------------------------------
                                                                     Eligibility Requirements                  Policy
Non-Provincial-Level City                                      -------------------------------------------------------------------
                                  Date             Sources                                              Eliminate                                   Description and Past Reforms
                                                                                       Education    Agricultural/Non-
                                                                 Income    Residence    or Skill      Agricultural      Benefits
                                                                                                       Distinction
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Zhengzhou,                         11/2/2005   Reform Reported                    X                                            X   In November 2001, the city provided a hukou to people who had
Henan                             (Reported)              in China                                                                  relatives living in Zhengzhou. However, increased pressure
                                                    Daily\32\                                                                       on transportation, education, and healthcare as well as a
                                                                                                                                    rise in crime forced the city to cancel the measure three
                                                                                                                                    years later.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Xi'an, Shaanxi                     2/27/2006           Xi'an City     X           X            X                   X               The provisions abolish the agricultural/non-agricultural
                                 (Effective)        Temporary                                                                       classification system, replacing it with a ``residency
                                               Provisions\33\                                                                       permit system.'' Scientists, engineers, and PhD recipients
                                                                                                                                    are encouraged to apply for a hukou. Individuals with a
                                                                                                                                    stable income and permanent housing are eligible to apply.
                                                                                                                                    The government announced plans to implement the management
                                                                                                                                    system in three districts and expand it citywide within
                                                                                                                                    three years.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Chengdu, Sichuan                  10/20/2006                 Chengdu CXty         X            X                   X               The opinion abolishes the agricultural/non-agricultural
                                 (Effective)   Public Security                                                                      system. Individuals who have purchased property or investors
                                                       Bureau                                                                       who have committed over 2 million yuan to an industry are
                                               Regulations\34\                                                                      eligible to apply for a hukou. The opinion stipulates that
                                                                                                                                    individuals who hold a bachelor's degree or higher may also
                                                                                                                                    establish a hukou in Chengdu. Individuals who have lived in
                                                                                                                                    the city temporarily for three years, have a legal permanent
                                                                                                                                    residence, and a working contract are eligible to apply for
                                                                                                                                    a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Qingdao, Shandong                   8/1/2007         Qingdao City     X           X            X                   X               The circular abolishes the agricultural/non-agricultural
                                 (Effective)       Government                                                                       classification system. Individuals with a PhD or who possess
                                                             Circular\35\                                                           technical skills may apply for a Qingdao hukou, as may
                                                                                                                                    individuals who pay 10,000 yuan in taxes for one year.
                                                                                                                                    Individuals with a residence and a steady source of income
                                                                                                                                    also are eligible to apply for a hukou.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                          Liberty of Movement


                              INTRODUCTION

    The Chinese government continues to enforce restrictions on 

citizens' liberty of movement within the country, in violation 
of international human rights standards.\1\ Chinese citizens 
who are mainland residents must obtain travel permits from 
their local government to leave the mainland, including to 
enter into the special administrative regions (SAR) of Hong 
Kong and Macau.\2\ SAR residents are required to have a ``Home 
Return Permit'' (HRP) to visit the mainland.\3\ The Chinese 
government for two decades has denied the issuance of HRPs to 
12 pro-democracy members of the Legislative Council of Hong 
Kong because of their support for protesters at Tiananmen 
Square in 1989, criticism of the Chinese government and 
Communist Party, or other reasons.\4\ Officials also 
arbitrarily confiscate HRPs to deny entry of citizens deemed to 
act outside permitted limits. On July 1, Norman Choy, a 
reporter covering the 2008 Beijing Summer Olympic Games for the 
Hong Kong-based pro-democracy Chinese-language newspaper Apple 
Daily, was denied entry at the Beijing airport. Authorities 
confiscated Choy's HRP and repatriated him, citing the national 
security law.\5\

            RESTRICTIONS ON RELIGIOUS CITIZENS AND ACTIVISTS

    The Chinese government controls or punishes religious 
adherents, activists, or rights defenders deemed to act outside 
approved parameters by restricting their liberty of movement. 
The authorities use methods such as extralegal house arrest 
(see Section II--Rights of Criminal Suspects and Defendants--
Arbitrary Detention--Arbitrary House Arrest and Control for a 
more detailed analysis of 
extralegal house arrest), detention, and surveillance. Recent 
cases include:

        <bullet> Zeng Jinyan, blogger and spouse of imprisoned 
        human rights activist Hu Jia, has been placed under 
        house arrest and heightened surveillance with limited 
        Internet connectivity since Hu's detention on December 
        27, 2007.\6\ During the 2008 Beijing Summer Olympic 
        Games, the authorities forced Zeng and her infant 
        daughter to leave Beijing for Dalian, and confined them 
        in a hotel for 16 days with limited communications with 
        family.\7\
        <bullet> The Uyghur community in the Xinjiang Uyghur 
        Autonomous Region has reported restrictions on air 
        travel within the country in the run-up to and during 
        the 2008 Olympic Games.\8\
        <bullet> During the U.S.-China Human Rights Dialogue in 
        late May, authorities placed under surveillance a 
        number of Beijing 
        activists, including a member of the China Democracy 
        Party, religious rights activists, and veterans of the 
        1989 Tiananmen democracy protests.\9\
        <bullet> During an official visit by Members of the 
        U.S. Congress in late June, eight Beijing-based human 
        rights lawyers were placed under house arrest 
        apparently to prevent them from meeting.\10\
        <bullet> In April, authorities in the Inner Mongolia 
        Autonomous Region placed Mongolian rights activist and 
        journalist Naranbilig under house arrest after 
        detaining him for 20 days in March and April.\11\
        <bullet> Yuan Weijing, spouse of imprisoned legal 
        advocate and rights defender Chen Guangcheng, has been 
        under house arrest since August 2005.\12\

    [See Section II--Freedom of Religion and Ethnic Minority 
Rights for more information.]

                       FREE ENTRY/EXIT FROM CHINA

    The Chinese government continues to restrict citizens' 
right to entry into and exit from the country, contravening 
international human rights standards.\13\ In the past year, 
authorities arbitrarily issued, confiscated, revoked, or denied 
the application for passports to activists deemed to pose a 
``possible threat to state security or national interests,'' 
\14\ which is inconsistent with Article 2 of the Passport 
Law.\15\
    During the 2008 Beijing Summer Olympic Games, a number of 
dissidents including Wang Dan,\16\ Yang Jianli,\17\ and Zhou 
Jian,\18\ were barred from entry into Hong Kong. Chinese 
authorities have refused to renew Wang's passport since 2003 
and Yang has a valid passport.\19\ Tsering Woeser, a well-known 
Tibetan writer, filed a lawsuit against the Chinese government 
in July for denying her a passport for over three years.\20\
    The Chaoyang People's Court in Beijing on May 14, 2008, 
upheld an administrative decision that barred Yuan Weijing, the 
spouse of jailed blind activist and barefoot lawyer Chen 
Guangcheng, from leaving the country in August 2007 to receive 
an award on her husband's behalf in the Philippines.\21\ Teng 
Biao, a prominent human rights lawyer, told reporters in March 
2008 that the authorities had seized his passport. Around the 
same time, the police warned him of potential detention unless 
he stopped talking to foreign media and writing about human 
rights abuses.\22\Authorities in the Xinjiang Uyghur Autonomous 
Region authorities continued to support measures to prevent 
Muslims from making pilgrimages outside of state channels, 
following the confiscation of Muslims' passports in summer 2007 
to restrict private pilgrimages.\23\
    [See Section II--Rights of Criminal Suspects and 
Defendants, Freedom of Expression, Freedom of Religion, and 
Section V--Tibet for more information.]

                            Status of Women


                              INTRODUCTION

    The Commission's 2007 Annual Report noted that 
discrimination against women in China remained widespread, 
equal access to justice has been slow to develop, and that 
Chinese women, especially migrant, impoverished, and ethnic 
minority women, tended to be unaware of their legal options 
when their rights are violated, in spite of considerable 
efforts by Chinese officials and women's organizations to build 
protections for women into the law.\1\ The Commission notes 
that the past year marked the first time that Chinese courts 
mandated criminal punishment in a sexual harassment case and 
issued a civil protection order in a divorce case involving 
domestic violence.

     GOVERNMENT RESPONSE TO SEXUAL HARASSMENT AND DOMESTIC VIOLENCE

    State protections against sexual harassment remain limited. 
The number of sexual harassment complaints, however, increased 
since the Law on the Protection of Women's Rights and Interests 
(LPWRI) was amended in 2005.\2\ The LPWRI prohibits sexual 
harassment and domestic violence and requires state government 
assistance to women to assert their rights in court.\3\
    At least one court case from the past year issued criminal 
penalties for sexual harassment. In June 2008, the Gaoxin 
People's Court in Chengdu, citing the Criminal Law rather than 
the LPWRI, sentenced a human resources manager at a high-tech 
firm to five months' criminal detention, which marks the first 
time someone has been criminally punished for sexual harassment 
in China.\4\
    While the Chengdu case is an important development, 
significant obstacles remain for plaintiffs in winning sexual 
harassment cases. Before the Chengdu case, almost all 
plaintiffs who lost their cases did so for ``lack of 
evidence.'' \5\ In addition, courts in China often view sexual 
harassment as a moral issue and therefore defendants receive 
lenient legal punishment that involves issuing an apology and 
paying limited compensation.\6\ Victims fear retaliation for 
reporting cases of sexual harassment, especially since 
companies and government agencies in China are not required to 
have a sexual harassment policy and companies are not held 
responsible for the sexual harassment of their staff.\7\
    Domestic violence remains a significant problem in China, 
with 29.7 to 35.5 percent of Chinese families reportedly 
experiencing some form of violence, and women making up 90 
percent of the victims.\8\ Some local officials have taken 
positive steps to enhance legal protections for domestic 
violence victims. In July 2008, the Chong'an People's Court in 
Wuxi city, Jiangsu province, announced a pilot project that 
designated a panel of judges, including a representative from 
the local women's federation, to handle all domestic violence-
related divorce cases.\9\ In August 2008, that same court 
issued the first protective order to a domestic violence victim 
in a civil proceeding.\10\
    To overcome victims' difficulty in obtaining adequate 
evidence of their abuse, judicial agencies and women's 
federations in at least 21 provinces have established domestic 
violence injury appraisal centers.\11\ The number of shelters 
for domestic violence victims has also increased.\12\

                           GENDER DISPARITIES

               Political Participation and Decisionmaking

    While the government has supported women's right to vote 
and run in village committee elections, few women hold 
positions with decisionmaking power in the upper echelons of 
the Communist Party or government. Women make up just 20 
percent of the Party and hold some 40 percent of government 
posts.\13\ Less than 8 percent of the Central Communist Party 
Committee (CCPC) is comprised of women; only one woman is a 
member of the CCPC's Politburo, and no women sit on the 
Politburo Standing Committee.\14\ During the past year women 
headed 2 of the country's 28 ministries, and one woman is the 
governor of a province.\15\

                                 Health

    The government announced an action plan to boost women's 
health by providing basic healthcare services to women in urban 
and rural areas, as part of a package of initiatives known as 
``Healthy China 2020.'' Maternity deaths in rural areas in 2006 
were almost double the number in urban areas, with the 
disparity even greater between eastern provinces and other 
areas.\16\ The government has pledged by 2015 to improve 
healthcare services so that all women can give birth in 
hospitals and maternal and infant mortality rates are cut.\17\

            Access to Rural Land Allocation and Compensation

    Women continue to experience gender-based discrimination 
when attempting to access benefits associated with their 
village hukous (household registration), including their right 
to land and property. In many of these cases, village rules 
contravene national laws and regulations, yet they are still 
enforced by village officials.\18\
    Women who are especially vulnerable to discrimination 
include ``married-out women,'' widowed women, but also women 
who come from a ``two-daughter household,'' and women who 
remarry after divorce or who marry a divorced man.\19\ 
``Married-out women'' are women who have either married men 
from other villages, but whose hukous remain in their 
birthplace, whose hukous are transferred from one place back to 
their birthplace, or whose hukous are transferred to their 
husbands' village.\20\ For more information on cases that were 
resolved, both judicially and extrajudicially, in the woman's 
favor, see box titled ``Results for Women: Two Hukou Cases'' 
below.

------------------------------------------------------------------------
                   Results for Women: Two Hukou Cases
-------------------------------------------------------------------------
Heilongjiang Province

A Heilongjiang province village leader told a woman who had married
 someone with a Sichuan hukou (household registration) that their son
 could only have a local village hukou if she signed an agreement to
 never seek land in the village. After the woman sought their
 assistance, the county women's federation, along with other local
 officials, worked with the village committee to reach a solution. The
 women's federation pointed out to village members that such action
 violated the PRC Law on Land Contracts in Rural Areas and the Law on
 the Protection of Women's Rights and Interests (LPWRI). Finally, the
 village committee and village representatives agreed to give the
 woman's son local hukou status and consideration for land
 allocation.\21\

Henan Province

A village in Dengzhou city, Henan province, issued rules stipulating
 that women who were not married and did not reside in the village would
 have to verify their single status in order to receive land
 compensation. After two female migrant workers from the village filed a
 suit, the Dengzhou People's Court ruled that the village's rules were
 void and that the group must provide the two women with 750 yuan
 (US$110) each for land compensation within five days. If the group did
 not do so, they would have to pay double the amount in accordance with
 Article 232 of the PRC Civil Procedure Law.\22\
------------------------------------------------------------------------

                           Human Trafficking


                              INTRODUCTION

    The Chinese government faces lingering challenges in its 
efforts to eliminate human trafficking, despite making 
significant strides to combat the problem. The Commission's 
2007 Annual Report noted that the Chinese government has taken 
steps to increase public awareness, expand the availability of 
social services, and improve international cooperation.\1\ The 
government needs to do more, however, to detect and protect 
victims, including victims trafficked for labor exploitation 
and Chinese citizens trafficked abroad. The lack of a 
comprehensive anti-trafficking policy to combat all forms of 
trafficking continues to hamper China's effort to combat 
trafficking.
    The government has not fulfilled its international 
obligations to combat trafficking and it obstructs the 
independent operation of non-governmental and international 
organizations that offer assistance on trafficking issues. At 
the same time, recent statements from central government 
officials, as well as the State Council's release of the 
National Plan of Action on Combating Trafficking in Women and 
Children (2008-2012), indicate high-level support for--and more 
focus on--proactive ways to address trafficking.

                  SCOPE OF HUMAN TRAFFICKING IN CHINA

    China is a country of origin, transit, and destination for 
human trafficking. Domestic trafficking for sexual 
exploitation, forced labor, and forced marriage comprise the 
majority of trafficking cases.\2\ Women and children, who make 
up 90 percent of these cases, are often trafficked from poorer 
or more remote areas to more prosperous locations, such as 
provinces along China's east coast.\3\ The Ministry of Public 
Security estimates that 10,000 women and children are abducted 
and sold each year, and the International Labour Organization 
(ILO) estimates that 10,000 to 20,000 people are trafficked 
annually.\4\
    Chinese citizens are trafficked to other countries in Asia 
and other parts of the world for commercial sexual exploitation 
or exploitative labor.\5\ Foreign victims are trafficked into 
China from Burma, North Korea, Mongolia, Vietnam, and Russia. 
Many of these victims are women trafficked for commercial 
sexual exploitation, forced marriage, or forced labor.\6\

------------------------------------------------------------------------
                Root Causes of Human Trafficking in China
-------------------------------------------------------------------------
<bullet> Economic Disparity and Migration: Economic development, the
 liberalization of some hukou (household registration) requirements, and
 increasing inequality among localities create incentives for people to
 migrate for work and marriage, but these opportunities also leave men,
 women, and children vulnerable to trafficking.\7\ There are an
 estimated 170 million migrant workers in China, with official data
 indicating that 60 percent of labor migration among and within
 provinces occurs through irregular channels.\8\ Of women who migrate,
 an estimated 30 percent do so for marriage. Some of these women end up
 being ``bought'' and ``sold'' as wives by men who want to bypass the
 high costs of dowries for marriage in rural areas.\9\
<bullet> Gender Imbalance Linked to Population Planning Policies and the
 Preference for Sons: Population planning policies and a preference for
 sons exacerbate imbalanced sex ratios in China, which contributes to
 the trafficking of women and children for forced or abusive marriages
 and false adoptions.\10\
<bullet> Population Planning Policies and the Preference for Sons: Since
 the early 1980s, the government's population planning policy has
 limited most women in urban areas to bearing one child, while
 permitting many women in rural China, among other exceptions, to bear a
 second child if their first child is female.\11\ Officials have
 enforced compliance with the policy through a system marked by
 pervasive propaganda, mandatory monitoring of women's reproductive
 cycles, mandatory contraception, mandatory birth permits, coercive
 fines for failure to comply, and in some cases, forced sterilization
 and abortion.\12\ A preference for sons is especially strong in certain
 areas\13\ and is tied to conceptions of gender inequality and
 traditional gender roles.
<bullet> Impact on Marriage: Men seeking to marry, especially in areas
 with severely unbalanced sex ratios, may try to ``purchase'' a
 wife.\14\ It is unclear what percentage of the women in this situation
 has been trafficked. However, this practice provides incentives for
 traffickers to abduct and ``sell'' women. It is also exacerbated by
 population planning policies. While experts consider a normal male-
 female birth ratio to be between 103 and 107:100, ratios in China stand
 at roughly 118 male births to 100 female births, with higher rates in
 some parts of the country and for second births.\15\ Some experts
 believe the gender imbalance contributes to the trafficking of women
 into China as brides from neighboring countries such as Mongolia, North
 Korea, Russia, and countries in Southeast Asia.\16\
<bullet> Impact on Adoption: Individuals or families who cannot have a
 child or son of their own due to biological reasons, population
 planning policies, the Adoption Law, or other reasons may sometimes
 attempt to ``purchase'' a child. When force, fraud, or coercion is
 involved, these become child trafficking cases. In some cases,
 traffickers presented the child as their own so that the buyers did not
 know the child has been trafficked.\17\
------------------------------------------------------------------------

                    CHINA'S NATIONAL PLAN OF ACTION

    The State Council issued the National Plan of Action on 
Combating Trafficking in Women and Children (2008-2012) on 
December 13, 2007. This first and long-awaited national plan 
formalizes cooperation among agencies and establishes a 
national information and reporting system.\18\ The plan sets 
specific targets and outlines measures for the prevention of 
trafficking, prosecution of traffickers, protection of victims, 
and strengthening of international cooperation. The plan 
designates the Ministry of Public Security as the lead agency 
in implementing the plan, and calls for coordination among 28 
agencies. The plan, with a focus on women and children, 
neglects male adults, who are often targeted for forced 
labor.\19\ Several localities, including Guizhou, Hainan, and 
Fujian provinces, and Hanzhong city, Shaanxi province, have 
issued their own plans to implement the National Plan.\20\ 
Various government agencies have also hosted training workshops 
on implementing the plan, often in collaboration with 
international organizations.\21\ It is unclear, however, if 
there are funds allocated to support implementation by local 
and provincial governments.\22\

                       INTERNATIONAL COOPERATION

    The release of its national plan fulfills an obligation 
made by the Chinese government to the Coordinated Mekong 
Ministerial Initiative Against Trafficking (COMMIT), and 
coincided with China's hosting of the COMMIT Second Inter-
Ministerial Meeting on December 12-14, 2007.\23\ COMMIT is a 
regional government initiative, supported by the United Nations 
Inter-Agency Project on Human Trafficking (UNIAP), to foster 
cooperation between countries in the Greater Mekong Sub-region, 
including China, Thailand, Cambodia, Vietnam, Laos, and 
Burma.\24\ The joint declaration signed at the meeting 
reaffirmed cooperation between the countries and pledged for 
the first time to include ``civil society groups'' in future 
anti-trafficking efforts.\25\ It is unclear, however, to what 
extent civil society groups will be included in future anti-
trafficking efforts in China.
    The Chinese government has not signed the Protocol to 
Prevent, Suppress, and Punish Trafficking In Persons, 
Especially Women and Children (the TIP Protocol), which 
supplements the United Nations Convention Against Transnational 
Organized Crime.\26\ The TIP Protocol contains the first 
legally binding global definition of trafficking and obligates 
state parties to criminalize trafficking-related offenses 
mentioned in the protocol.\27\ The Chinese government has been 
``considering'' the signing and ratification of the TIP 
Protocol for the past few years, and one of the work items for 
the State Council's National Working Committee on Children and 
Women in 2007 was to research the feasibility of ratifying the 
protocol.\28\ At an August 2007 conference in Yunnan province, 
participants noted that even though there is limited overlap 
between the TIP Protocol's definition and China's definition of 
trafficking, China's laws and regulations already include more 
than 95 percent of the protocol's contents. Experts stated that 
the time was ripe for China to sign the TIP Protocol, and to 
consider how to align the two definitions so that China can 
more easily engage in international cooperation.\29\ UNIAP and 
the Ministry of Foreign Affairs hosted an international seminar 
on the TIP Protocol in October 2008.\30\
    The Chinese government has ratified earlier UN conventions 
that relate to human trafficking, including the Convention to 
Eliminate All Forms of Discrimination Against Women, the 
Convention on the Rights of the Child, and the Worst Forms of 
Child Labour Convention, which legally bind the government to 
prohibit, prevent, and eliminate the trafficking of women and 
children.\31\ The Chinese government's forcible return of 
refugees to North Korea, however, contravenes its obligations 
under the 1951 Convention Relating to the Status of Refugees 
and its 1967 Protocol. The government classifies all North 
Koreans who enter China without documentation as illegal 
economic migrants and forcibly repatriates them to North Korea, 
even though they meet the definition of refugees under 
international law.\32\ The practice leaves trafficked North 
Korean refugees in China without legal alternatives besides 
repatriation to North Korea, where they face retribution or 
hardship. Trafficking of North Korean women remains pervasive. 
Women comprise two-thirds of the tens of thousands of North 
Korean refugees hiding in China.\33\ Although many North Korean 
women initially enter China voluntarily, it is estimated that 
up to 70 to 80 percent of these undocumented women become 
victims of trafficking.\34\ Traffickers sell them into forced 
marriage, commercial sexual exploitation, or exploitative 
labor.\35\ [For more information, see Section II--North Korean 
Refugees in China.]

                       PREVENTION AND PROTECTION

    The Chinese government has made noticeable trafficking 
prevention efforts by raising public awareness and providing 
training for officials on certain forms of trafficking.\36\ 
They are often tied to other awareness-raising programs, 
including those aimed at keeping children in school, and 
programs providing vocational training, awareness of legal 
rights, gender equality training, and poverty 
alleviation assistance.\37\ In addition, the Chinese 
government, in 
cooperation with international organizations and the All China 
Women's Federation (ACWF), has conducted training for law 
enforcement and border officials on identifying and assisting 
victims.\38\
    While China has made efforts since 2001 to offer victim 
services, these services remain limited in scope and funding. 
Law enforcement officials previously had returned trafficked 
victims who 
escaped to those who trafficked them, and local officials 
issued marriage licenses despite evidence that a bride had been 
trafficked into forced marriage.\39\ The government provides 
some funds for the protection of Chinese victims who are 
trafficked internally.\40\ The Ministry of Public Security, the 
Ministry of Civil Affairs, and the ACWF have opened shelters 
and rehabilitation centers.\41\ Victim care remains 
insufficient, however, as existing shelters tend to be 
temporary, not exclusively for trafficking victims, and provide 
little or no care to returned victims.\42\ Chinese authorities 
reportedly punish returned Chinese citizens who were trafficked 
abroad, for acts committed as a direct result of being 
trafficked, including 
violation of immigration controls.\43\ As for, or in terms of, 
victim repatriation and protection, while the Chinese 
government has created programs to increase cross-border 
collaboration, these efforts remain inadequate to address 
victims' needs.\44\

                       PROSECUTION AND PUNISHMENT

    The Chinese government punishes traffickers who engage in 
the crimes of trafficking in women and children. It 
investigates and prosecutes trafficking crimes, especially 
domestic cases, and those involving the abduction of women for 
forced marriage or commercial sexual exploitation.\45\ Article 
240 of the Criminal Law allows punishment up to death for the 
crime of human trafficking.\46\
    Public security officials launched a nationwide campaign 
focused on the problem of forced labor and involuntary 
servitude following incidents of trafficking for forced labor 
in brick kilns in Shanxi and Henan provinces in 2007.\47\ The 
problem persisted in 2008, however, as illustrated by cases of 
trafficking for forced labor in Heilongjiang province and for 
child labor in Guangdong factories in 2008.\48\ Authorities 
have taken limited actions against trafficking-related 
corruption. Officials were reportedly convicted of commercial 
sexual exploitation and ``issuing visas to facilitate 
trafficking'' in 2004 and 2005.\49\ Official reports state that 
no government officials have been involved in trafficking cases 
handled by the Ministry of Public Security (MPS) up to 
2006.\50\
    Public security officials resolved more than 27,280 
trafficking cases, rescued more than 54,121 victims, and 
arrested more than 25,000 traffickers from 2001 to 2005.\51\ 
Data suggests that the MPS resolves between 80 to 90 percent of 
the cases it registers annually.\52\ The MPS referred 3,144 out 
of 5,043 individuals, or 62.3 percent, for prosecution in 
2004.\53\ In 2000, the courts sentenced more than 11,000 out of 
19,000 individuals, or about 58 percent of those arrested, to 
punishment that included the death penalty.\54\ Between 2006 
and March 2007, officials rescued at least 371 victims and 
arrested 415 traffickers.\55\
    Chinese regulatory documents and official statistics do not 
reflect China's current trafficking situation. This disconnect 
has important implications for China's anti-trafficking work, 
including prosecution efforts, protection of victims, and 
funding. Observers note that MPS data on trafficking are 
sometimes conflated with smuggling figures and reflect a 
continued lack of understanding by officials on the issue of 
trafficking.\56\ It is also unclear to what extent the rights 
of criminal defendants were upheld.
    The Chinese government in recent years has announced a 
decrease in the number of trafficking cases registered by the 
MPS, a decrease in the number of trafficking cases adjudicated 
by the courts, and a reduction in the number of cross-border 
cases.\57\ Although the MPS stated that trafficking-related 
crimes in parts of China have been effectively contained based 
on the decreasing number of trafficking cases,\58\ the decrease 
is in fact due to fewer cases of abduction and selling of women 
and children.\59\ The MPS has also confirmed an increasing 
number of forced labor, commercial sexual exploitation, illegal 
adoption, gang-related, and cross-border trafficking cases in 
recent years.\60\
    There have been legislative proposals in recent years 
calling for the revision of Articles 241 and 244 of the 
Criminal Law to increase punishment for those who ``purchase'' 
trafficked women and children and those who directly force 
others to work by restricting their personal freedom.\61\ Party 
officials, scholars, and media articles have called for the 
revision of the Criminal Law, replacing the ``trafficking of 
women and children'' with the broader ``trafficking of 
persons.'' \62\

                              TRANSPARENCY

    Key information regarding the government's anti-trafficking 
efforts is not readily available. The U.S. Department of State 
has noted that ``Chinese government data is difficult to 
verify,'' and government funding for anti-trafficking efforts 
and conviction data is not easily obtainable.\63\ The lack of 
key information makes it difficult for the public and other 
individuals to assess the government's efforts in combating 
trafficking.
    In an effort to increase public oversight and participation 
in government, and allow citizens access to government-held 
information, the State Council issued the first national 
Regulations on Open Government Information, which became 
effective on May 1, 2008. These regulations may allow 
individuals to request trafficking figures from the Ministry of 
Public Security (MPS) and local public security bureaus, but 
officials may use exceptions in the regulations to refuse the 
release of this information.\64\ Local government proposals to 
increase budget transparency may also provide accessible 
information to the public on the amount of government funding 
available for anti-trafficking efforts.\65\

                     North Korean Refugees in China


                              INTRODUCTION

    In the year leading up to the 2008 Beijing Summer Olympic 
Games, Chinese central and local authorities stepped up efforts 
to locate and forcibly repatriate North Korean refugees hiding 
in China in violation of their commitments to these refugees 
under international law.\1\ The Chinese government intensified 
border surveillance, called on the North Korean government to 
tighten border security, and carried out periodic crackdowns 
against refugees and Chinese citizens who harbor them. The 
government routinely fines and imprisons Chinese citizens who 
provide material assistance or refuge to North Koreans.

         BORDER CRACKDOWN: INSPECTIONS, SURVEILLANCE, AND FINES

    In April 2008, Chinese public security agents conducted 
daily inspections of the homes of Chinese citizens of Korean 
descent living in villages and towns near the border.\2\ One 
resident reported that penalties for harboring refugees now 
include imprisonment and fines ranging from 8,000 to 10,000 
yuan (US$1,150-1,445).\3\ A U.S.-based NGO that works along the 
border estimates on the basis of eyewitness reports that 30 
percent of refugees have been caught and repatriated as a 
result of the recent house inspections.\4\ Recent interviews 
conducted with residents of the Yanbian Korean Autonomous 
Prefecture (YKAP) in Jilin province found that local 
authorities were repatriating ``several hundred'' refugees per 
month.\5\ Chinese border agents have installed electronic 
sensors along the river to detect incoming refugees while 
reports of executions of outgoing and repatriated refugees by 
North Korean security agents have risen in 2008.\6\ In 2007, 
North Korea began construction of a 10-kilometer wire-mesh 
fence near the Chinese city of Dandong to deter would-be 
refugees, not far from where a fence was erected by Chinese 
authorities in late 2006.\7\ One Christian activist working 
along the border indicated that North Korea may have raised the 
salaries of border guards and installed senior guards along the 
border in an apparent effort to stop them from accepting bribes 
from refugees.\8\ At least one refugee account supports this 
claim by attesting to a recent tripling of the rate required to 
bribe border guards from 500 yuan (US$72) to 1,500 yuan 
(US$216).\9\
    The intensified crackdown against North Korean refugees by 
Chinese authorities has reportedly extended to harassment of 
religious communities along the border. The central government 
reportedly has ordered provincial religious affairs bureaus to 
investigate religious communities for signs of involvement with 
foreign co-religionists. In Yanbian, this campaign has resulted 
in the shutting down of churches found to have ties to South 
Koreans or other foreign nationals.\10\ Shelters for refugees 
set up to look like commercial lodging have also been raided 
and closed.\11\ To further persuade Chinese citizens to shun 
refugees, the government provides financial incentives to 
informants who disclose the locations of refugees. The YKAP 
government ordered in spring 2008 that the local departments of 
public security and religious affairs raise the incentive pay 
given to informants by 16-fold from 500 yuan to at least 8,000 
yuan (US$1,171), which is more than half the average annual 
income in China.\12\
    The State Department reports that Chinese authorities 
continue to detain humanitarian activists who attempt to 
transport North Korean asylum seekers to third countries, and 
in many cases, charge them with human smuggling.\13\ Multiple 
checkpoints were set up in 2008 along the road from the border 
crossing at Tumen to Longjing and security agents have blocked 
the ``underground railroads'' that refugees use to travel from 
the border region to seek shelter at embassies in Beijing.\14\ 
Not only are Chinese authorities taking measures to prevent 
citizens from helping refugees who have crossed the border into 
China, but they reportedly are now placing restrictions on 
citizens who attempt to provide food to malnourished relatives 
and associates in North Korea. Chinese authorities have 
reportedly imposed strict limits on the quantity of food (200 
kg) that Chinese citizens can transport to North Korea when 
they visit relatives or do business there.\15\

                         UNLAWFUL REPATRIATION

    In the past year, China's unlawful repatriation of North 
Korean refugees continued.\16\ Plainclothes Chinese security 
agents carried out a massive raid in the city of Shenyang in 
Liaoning province on March 17, leading to the detention of 
around 40 North Korean refugees. Chinese authorities also 
detained four North Korean refugees on March 5 at a local 
restaurant in Shenyang and two others attempting to cross the 
Tumen River along the border.\17\ Researchers have found that 
the constant fear of arrest and deportation in China coupled 
with the experience of persecution and hunger in North Korea 
cause enormous psychological hardship for North Korean 
refugees. A recent large-scale survey concluded that many North 
Korean refugees ``suffer severe psychological stress akin to 
post-traumatic stress disorder.'' When asked which factors most 
fuel their anxiety, 67 percent of refugees answered ``arrest.'' 
\18\ Repatriated refugees routinely face the threat of 
arbitrary imprisonment, torture, and capital punishment upon 
return to North Korea.\19\
    As reported by the U.S. Commission on International 
Religious Freedom, North Korean refugees face a dual threat of 
arrest by Chinese security agents and abduction by North Korean 
agents operating clandestinely on the Chinese side of the 
border.\20\ According to three former North Korean agents who 
defected to South Korea, North Korean authorities have 
instructed public security agents to infiltrate ethnic Korean 
churches in China and to capture refugees by posing as 
religious leaders or converts. These former agents also 
described how repatriated refugees are ``brutally 
interrogated'' by the counterintelligence department of the 
National Security Agency (bowibu), North Korea's political 
police.\21\ Interrogations aim to determine if refugees had 
contact with South Korean churches or other Christian groups in 
China. Belief in Christianity is targeted as a political 
offense in North Korea, punishable by execution or an extended 
stay in a prison labor camp.\22\

                  TRAFFICKING AND DENIAL OF EDUCATION

    Female refugees must elude human traffickers in addition to 
Chinese and North Korean security agents.\23\ Lacking legal 
status or economic opportunities, North Korean women who cross 
the border are frequently picked up by traffickers and sold 
into marriage with Chinese nationals. In some cases, 
traffickers arrange for women to cross the border on the 
pretense that food and legitimate work awaits, but upon arrival 
in China, they are forced into prostitution or underground 
labor markets.\24\ Although the central government has taken 
some minor steps to address the trafficking problem along its 
borders with Vietnam and Burma, it continues to ignore North 
Korean trafficking victims and refuses to provide them with 
legal alternatives to repatriation.\25\ [See Section II--Human 
Trafficking.]
    Another problem that stems from China's unlawful 
repatriation policy is the denial of education and other public 
goods for the children of North Korean women married to Chinese 
citizens.\26\ Chinese law guarantees that all children born in 
China to at least one parent of Chinese nationality are 
afforded citizenship.\27\ It also decrees that all children who 
are six years old shall enroll in school and receive nine years 
of compulsory and free education, regardless of sex, 
nationality, or race.\28\ Chinese citizens married to women 
from North Korea cannot exercise this right on behalf of their 
children because the child must be added to the father's 
household 
registration (hukou) in order to enroll for school. Some local 
authorities along the border reportedly refuse to perform hukou 
registration for the children without seeing documentation that 
the mother is either a citizen, has been repatriated, or has 
run away.\29\ This extralegal requirement imposed exclusively 
on the children of one Chinese and one North Korean parent by 
local authorities contravenes Chinese law and violates China's 
commitments under international law.\30\

                    REEMERGENCE OF FAMINE CONDITIONS

    North Koreans who enter China do so for diverse reasons, 
which include fleeing from political oppression in some cases. 
Chief among these reasons is the pursuit of the basic 
necessities to survive, as North Korea suffers from chronic 
food shortages.\31\ Recent reports suggest that widespread 
hunger has reemerged as the food supply in North Korea has 
rapidly deteriorated to a level that could cause numerous 
hunger-related deaths if left unchecked.\32\ It is important to 
note that hunger and poverty as motivating factors for refugees 
are intrinsically linked to the prevailing political system in 
North Korea. Central authorities control food availability, and 
food distribution is carried out in accordance with the 
recipient's perceived loyalty and utility to the ruling 
party.\33\ The fact that food deprivation is mandated by the 
North Korean political system, along with its treatment of 
repatriated refugees as criminals and traitors, undercuts 
China's assertion that North Koreans who cross the border are 
``illegal economic migrants'' and obligates China to provide 
North Koreans with unfettered access to the United Nations High 
Commissioner for Refugees (UNHCR) for adjudication of their 
refugee status and swift resettlement.\34\ In 2008, however, 
China not only continued to refuse to recognize the refugee 
status of North Koreans, it also pressured the UNHCR to deny 
assistance to North Korean refugees who reached Beijing in the 
lead-up to or during the Olympics.\35\

                             Public Health


                              INTRODUCTION

    Minister of Health Chen Zhu acknowledged for the first time 
in January 2008 that all persons had the right to basic 
healthcare regardless of age, gender, occupation, economic 
status, or place of residence. Chen also acknowledged that the 
allocation of funds had been ``skewed'' to favor large urban 
hospitals.\1\ Statistics for 2007 show that 16.7 percent of 
medical workers provide care in rural areas where 60 percent of 
China's population lives.\2\
    Access to healthcare continues to be a significant 
challenge for the Chinese government. The government's policy 
of fiscal decentralization and requiring hospitals to generate 
their own revenue has led to a drop in government funding of 
healthcare and a focus on generating sales profits by over-
prescribing drugs.\3\
    Demographic changes in the last two decades, including an 
aging population and mass migration from rural to urban areas, 
have heightened strain on the healthcare system.\4\ Healthcare 
costs have soared and an increasing number of people cannot 
access medical care.\5\
    A survey conducted by China's National Bureau of 
Statistics, released in January 2008, revealed that medical 
costs are the Chinese people's top concern.\6\ Quality of care 
varies significantly among regions and income groups. Urban-
rural gaps remain in health indicators such as life expectancy 
and maternal and infant mortality rates.\7\ Individuals in 
Guizhou province, for example, live on average 13 years less 
than persons living in Shanghai.\8\ Health insurance coverage 
varies widely between rural and urban areas.\9\ Participation 
in China's Rural Cooperative Medical System (RCMS) does not 
guarantee affordable or quality healthcare because a low 
reimbursement rate, a lack of coverage for preventative or 
outpatient care, and inadequate medical resources present 
additional hurdles to adequate healthcare.\10\

                           HEALTHCARE REFORM

    China's central government allocated 83.2 billion yuan 
(US$11.7 billion) in 2008 to ``reform and develop'' the health 
sector, with a particular emphasis on modernizing facilities at 
the urban community and village level.\11\ The 2008 funding 
level represented an increase from the 66.5 billion yuan 
allocated in 2007. The boost in expenditure followed the 2007 
government announcement of plans to release a new national 
medical reform plan, and comes at a time of rising healthcare 
costs and a shortage of affordable healthcare.\12\ The 
government has not posted the draft plan for public comment, 
but held a meeting in April to hear opinions from selected 
individuals.\13\
    According to Vice Health Minister Gao Qiang, ``the aim [of 
the plan] is to provide safe, effective, convenient, and low-
cost public health and basic medical service to both rural and 
urban citizens.'' \14\
    Goals mentioned in the reform plan include:

        <bullet> Enroll all rural residents in the rural 
        cooperative medical system by the end of 2008.
        <bullet> Enroll all urban residents in the basic health 
        insurance scheme by the end of 2010.
        <bullet> Continue to improve medical services at the 
        county, township, and village levels.
        <bullet> Control drug prices and ensure their supply.
        <bullet> Expand free immunization programs.\15\

                            RURAL HEALTHCARE

    The Chinese central government has announced plans to 
increase public spending on healthcare in rural and remote 
areas, with particular attention to China's western and 
interior areas.\16\
    Rural Cooperative Medical System (RCMS) coverage increased 
by the end of 2007 to 730 million individuals, or 86 percent of 
the rural population, an increase of 35 percent over February 
2007.\17\ Central and local governments planned to increase 
their 2008 RCMS contributions from 40 yuan to 80 yuan 
(US$11.52) per participant in an effort to attract more 
participants.\18\ Under the scheme, individuals will likely 
increase their contribution from 10 to as much as 20 yuan.\19\ 
The central government allocated 10.1 billion yuan for RCMS in 
2007, an increase of 5.8 billion yuan from 2006.\20\

                            URBAN HEALTHCARE

    The Chinese government mandates employers to provide Basic 
Health Insurance (BHI).\21\ The government announced a plan to 
expand coverage to all urban residents on a trial basis in 
2007.\22\ The plan is to enroll all urban residents in BHI by 
2010. The plan would emphasize coverage of major illnesses for 
persons known to have greater need along with greater 
difficulty accessing healthcare services, including minors and 
the elderly.\23\
    The government established pilot BHI programs in 88 cities 
in 2007 and is implementing nearly triple that number in 2008 
with the aim of expanding the total coverage area to 317 cities 
by the end of 2008.\24\ The official goal is to cover another 
30 million non-working urban residents by the end of 2008.\25\ 
The Chinese government reports that 223 million of 500 million 
urban residents (44.6 percent) received BHI coverage in 2007, 
including 40.68 million non-working urban residents, an overall 
increase of 63 million from 2006.\26\ The average annual 
premium is 236 yuan for adults and 97 yuan for children.\27\
    A recent survey reportedly found that between October and 
December 2007, the number of patients who refused medical 
treatment out of fear of high costs decreased by 10 
percent.\28\ The Chinese government reportedly provides 
financial assistance to those living in poverty.\29\

                                HIV/AIDS

    Chinese leaders' concerns about uncontrolled citizen 
activism and foreign-affiliated non-governmental organizations 
(NGOs) limit the effectiveness of central government policies 
to combat the spread of HIV/AIDS. Official figures estimate 
that in 2007 there were 700,000 people in China with HIV, 
including 85,000 with AIDS, an increase over 2005 of 50,000 
people with HIV.\30\
    Discrimination and social stigma against people living with 
HIV/AIDS (PLWH) remain rampant.\31\ For example, 55 percent of 
private sector survey respondents ``strongly believed'' PLWH 
should be segregated.\32\ A lack of trust between some local 
officials and PLWH and their advocates hinders cooperative 
efforts to reduce stigma.\33\ This is especially true in Henan 
province, the focal point of media attention surrounding 
unsanitary blood collection centers in the 1990s that were 
reportedly fueled by official complicity. While Henan officials 
have made free treatment available to PLWH, some officials 
remain hesitant and even hostile to working with NGOs.\34\
    The Chinese government continues to place restrictions on 
travel for persons who have or are suspected of having HIV/
AIDS. Chinese citizens who live abroad for more than a year or 
work in the international transportation sector are required to 
take an HIV test.\35\ Foreigners planning to live in China for 
more than a year must also take an HIV test and present the 
results to a local public security bureau along with the rest 
of their application for a residency permit.\36\ The government 
has pledged to remove legal prohibitions preventing HIV 
carriers from entering China in 2009.\37\
    In spite of cooperative partnerships with international 
organizations and the private sector, the Chinese government 
continues to harass HIV/AIDS-related organizations, Web sites, 
and activists that it deems to be a threat. In the past year, 
officials cited legal measures and pressured third parties, 
such as Internet service providers, to block access to Web 
sites and restrict the rights of activists. Some examples 
include:

        <bullet> In May 2008, the local public security 
        bureau's Internet surveillance division reportedly 
        ordered the closure of the Web site of AIDS Museum run 
        by HIV/AIDS activist Chang Kun because it contained 
        information about ``firearms and ammunition.'' Shaanxi 
        province officials shut down another of Chang's Web 
        sites, AIDS Wikipedia, from February 20 to March 12, 
        2008, reportedly because of an article about farmland 
        confiscation on the site.
        <bullet> Beijing Public Security Bureau's Internet 
        surveillance division asked Aizhixing Center in March 
        2008 to remove ``illegal information,'' specifically 
        sensitive information about HIV/AIDS. The ``illegal 
        information'' was an Aizhixing statement on human 
        rights activist and HIV/AIDS advocate Hu Jia's 
        disappearance two years ago. Officials subsequently 
        blocked access to the Web site for a period of time, 
        and put Wan Yanhai, founder of Aizhixing, under 24-hour 
        surveillance for four days.
        <bullet> Officials ordered the cancellation of a 
        conference scheduled for late July and early August 
        2007 in Guangzhou on the legal rights of those affected 
        by HIV/AIDS. The conference would have brought together 
        50 Chinese and international HIV/AIDS activists and 
        experts. Authorities reportedly thought the subject 
        matter and the involvement of foreigners was ``too 
        sensitive.'' \38\ [For more information, see Section 
        III--Civil Society.]

                              HEPATITIS B

    China has approximately 120 million Hepatitis B Virus (HBV) 
carriers and some 300,000 people die annually from Hepatitis B-
related diseases.\39\ Discrimination against HBV carriers 
remains widespread.\40\ Recent laws and regulations explicitly 
forbid employment discrimination against persons with 
infectious diseases, 
including HBV, and mandate a fine for violating employers. The 
Employment Promotion Law, which went into effect on January 1, 
2008, prohibits employers from refusing to hire applicants on 
the grounds that they carry infectious diseases and allows 
workers to file a lawsuit against employers.\41\ The 
Regulations on Employment Services and Employment Management, 
which also went into effect on January 1, state that employers 
cannot reject applicants due to their HBV status or force 
employees or applicants to take an HBV test. Violating 
employers can be fined up to 1,000 yuan and sued.\42\
    HBV activists praised the Regulations on Employment 
Services and Employment Management.\43\ These new initiatives 
build on policy since 2004 that forbid discrimination against 
persons with infectious diseases.\44\ Legal prohibitions 
remain, however, that forbid HBV carriers from working in 
certain sectors such as the food industry.\45\
    HBV carriers, often working with legal advocacy groups, 
have brought employment discrimination lawsuits. Laws such as 
the Employment Promotion Law, which prohibits discrimination in 
employment, have played a role in the court's decision in at 
least one case.\46\ Many of these cases have resulted in court-
ordered settlements or have brought about changes in policy and 
public awareness. In October 2007, China held its first 
national conference on HBV discrimination in Zhengzhou city, 
Henan province, which brought together over 50 civil rights 
activists and people living with HBV.\47\ [For more information 
on legal advocacy efforts and the results of several HBV 
discrimination cases in the past year, see box below.]

------------------------------------------------------------------------
   Anti-HBV Discrimination Cases and Advocacy Efforts in the Past Year
-------------------------------------------------------------------------
November 2007: A Foshan-based subsidiary of a Taiwanese company dropped
 its plan to test all its employees for Hepatitis B Virus (HBV) after
 Yirenping, a legal advocacy and support group, made the company's HBV
 testing plan public. Yirenping distributed fliers explaining that the
 mandatory testing was illegal and encouraged the company's employees
 ``to protect their rights.'' Local officials sent health inspectors to
 the company on the designated testing day, and issued a circular
 mandating punishment for any company that forced its employees to take
 an HBV test. The subsidiary agreed to forgo mandatory HBV testing in
 the future.\48\
January 2008: In a court-mediated settlement, the Dongguan Municipal
 People's Court ordered the Vtech Corporation to pay 24,000 yuan
 (US$3,494) to a job applicant denied employment on the basis of his HBV
 status. The applicant, a university graduate, applied for a job in 2006
 and passed the company's recruitment exams, but was refused an offer of
 a position after his medical test showed he was HBV positive. This was
 the first HBV discrimination case heard in a Guangdong province
 court.\49\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Anti-HBV Discrimination Cases and Advocacy Efforts in the Past Year--
                                Continued
-------------------------------------------------------------------------
April 2008: The Shanghai Intermediate People's Court mediated a
 settlement in favor of a job applicant whose employment offer was
 withdrawn due to his HBV status. The applicant had sued the Shanghai-
 based subsidiary of a Taiwanese company in February 2007 for 12,800
 yuan (US$1,863) in potential earning losses and 50,000 yuan (US$7,277)
 in emotional damages. In October 2007, the Nanhui District Court
 awarded the applicant 5,000 yuan in compensation. Rejecting the award,
 the applicant appealed to the Shanghai Intermediate People's Court,
 which heard the case in December. The Shanghai Health Bureau mandated
 that HBV testing no longer be routine for job applicants, adding that
 applicants can only be tested per their own request or if the employer
 can prove that the job is legally prohibited for HBV carriers.\50\
------------------------------------------------------------------------

    While there have been successful anti-HBV discrimination 
cases, the Chinese government continues to control HBV-related 
rights activism. In November 2007, Beijing authorities closed 
the largest online forum for HBV carriers, Gandan Xiangzhao 
(``In the Hepatitis B Camp''), citing the forum's failure to 
apply for and set up a record with the Beijing Communication 
Administration (BCA).\51\ Web sites that provide medical 
treatment and health information services are required to seek 
approval from the Beijing Health Bureau and then submit an 
application with the BCA.\52\ An official reportedly told Lu 
Jun, the forum's operator, that the forum was blocked because 
of the Olympics. People could access the site for a brief 
period after Lu changed the host to an overseas server but 
authorities blocked it again in May 2008.\53\

                             MENTAL HEALTH

    Beijing's Regulation on Mental Health, which took effect in 
March 2007, requires that reviews of involuntary admissions be 
completed ``within three months.'' \54\ In its 2007 Annual 
Report, the Commission noted that the three-month provision 
would enable security officials to remove individuals from the 
streets of Beijing to mental health facilities for the duration 
of the 2008 Olympic Games, or longer, and still be within the 
letter of the law.\55\ Chinese leaders expanded state 
supervision of mental health patients in Beijing and other 
cities during the Olympics. Patients staying in open-style 
wards were allowed to leave only at certain times under 
supervision.\56\
    Other recent developments signal some improvement for the 
rights of persons with mental illness. In June 2008, a Shanghai 
labor dispute arbitration committee ordered IBM to pay 57,000 
yuan in compensation for firing an employee after he was 
diagnosed with depression. The committee also ordered IBM to 
reactivate its contract with the employee.\57\ A Ministry of 
Health (MOH) circular released in April 2008 stipulates that 
hospitals must obtain approval from MOH before conducting 
neurosurgical operations to treat mental disorders or starting 
clinical research. In addition, each operation should be 
approved by the hospital's ethical committee, with hospitals 
and doctors subject to punishment if they violate the 
circular.\58\

                              Environment

    During the past year, the central government and Communist 
Party leadership have paid increasing attention to 
environmental protection. For example, the State Environmental 
Protection Administration (SEPA) was upgraded to ministerial 
status in March.\1\ The number of staff of the newly renamed 
Ministry of Environmental Protection's (MEP) office in Beijing 
increased from 250 to 300,\2\ and three departments were added 
in July to monitor pollution, control total emissions, and 
conduct educational outreach.\3\ 
Although it is not yet clear if the status upgrade will lead to 
heightened decisionmaking and enforcement power for the 
historically weak and resource-challenged environmental 
protection agency, the MEP's ``bark'' is getting louder.\4\ In 
mid-September, the MEP warned the leaders of the 21 provincial-
level governments that they would be held personally 
responsible for failing to clean up China's major rivers and 
lakes.\5\
     Creating an incentive structure at the local level that 
encourages environmental protection has been a challenge for 
the central government.\6\ The central government stipulated 
last year, however, that 60 percent of all local officials' 
career prospects will be tied to their environmental protection 
efforts on a five-year basis.\7\ Local officials who fail to 
meet their targets will become ineligible to receive 
promotions.\8\ MEP and other agencies also released a 35-
billion-yuan five-year plan in 2008 to improve the enforcement 
capacity of environmental bureaus, including upgrades in 
existing monitoring and emergency response systems.\9\
    China's environmental crisis has emerged in recent years as 
one of the country's most rapidly growing causes of citizen 
activism. Last year, the Commission noted that participation in 
environmental protests has risen in recent years, particularly 
among urban middle-class residents; this trend continued in 
2008. Official responses to environment-related activism 
included suppression of citizen protests, as well as limited 
steps to increase public access to information. Urban middle-
class residents showed an increased willingness to protest 
injustice and malfeasance, as demonstrated by the protests 
against a chemical plant in Xiamen, the Shanghai maglev train 
extension, and a Chengdu chemical plant. [For more information 
on the Xiamen, Shanghai and Chengdu protests, see box below.]

           GOVERNMENT TRANSPARENCY AND THE ``GREEN OLYMPICS''

    The Beijing Organizing Committee for the Games of the XXIX 
Olympiad pledged to make preparations for the 2008 Olympic 
Games transparent; however, observers voiced concerns over the 
difficulty in accessing information on pollutants and charting 
Beijing's progress toward achieving its bid commitments.\10\ 
Beijing promised in its Olympic bid to achieve objectives in 
the city's environmental master plan three years ahead of 
schedule, with the completion of 20 major projects by 2007.\11\ 
Beijing's bid also promised that air quality would meet World 
Health Organization (WHO) standards and that the city's 
drinking water, which it said met WHO standards, would continue 
to be protected.\12\ While Beijing fulfilled many of its 
commitments, Chinese academics and other experts questioned the 
completeness and accuracy of the government's air pollution 
data.\13\ For example, one analyst contends that the Beijing 
Environmental Protection Bureau (EPB) dropped monitoring sites 
in locations with poor air quality in order to boost its 
overall air quality figures.\14\
    It remains to be seen whether the Chinese government's 
efforts to meet the environmental targets for the Olympics will 
lead to long-term improvements in environmental protection. 
Amid criticism that Beijing's air pollution data did not 
include ozone and PM2.5 (i.e., particulate matter that is 2.5 
micrometers or smaller in diameter), the Beijing EPB announced 
in August 2008 that it may begin monitoring the two pollutants 
next year.\15\

      PUBLIC PARTICIPATION AND PROTESTS RELATED TO THE ENVIRONMENT

    This past year, the government took limited steps to 
increase public access to environmental information. In May 
2008, the Measures on Open Environmental Information (Measures) 
became effective, along with national open government 
information (OGI) regulations.\16\ The Measures standardize the 
disclosure of environmental information by government agencies 
and enterprises, and provide the public with the right to 
request government information.\17\ The Measures also encourage 
enterprises to voluntarily disclose information and require 
EPBs to compile lists of enterprises whose pollution discharge 
exceeds standards.\18\ Citizens have already begun making 
information requests to EPBs, but how responsive officials will 
be remains to be seen.\19\ Incentives for local governments to 
attract investment could hinder EPBs from receiving the funding 
they need to implement the Measures. The Measures also prohibit 
EPBs from disclosing information that involves state secrets, 
an exception that gives the government broad latitude to 
withhold information from the public.\20\ In terms of 
implementation, the ministry appears understaffed, with only 
three staff responsible for open government information.\21\
    Public protests over environmental degradation have 
increased in recent years. An official noted in 2006 that there 
were more than 51,000 disputes relating to environmental 
pollution in 2005, and that mass protests involving pollution 
issues had risen 29 percent per year in recent years.\22\ Urban 
middle-class residents have shown an increased willingness to 
protest environmental injustice and malfeasance.\23\ These 
protests have largely not involved environmental non-
governmental organizations (NGOs), but rather groups formed ad 
hoc through blogs, text messaging, and Internet chat rooms.\24\ 
In contrast with protests in urban areas, rural protests are 
more likely to end in violent clashes with public security 
officials.\25\ The public has succeeded in several protests, 
such as the protest against the Xiamen plant, to halt 
construction of a project. In cases where citizen activists 
succeeded, local or higher-level officials also opposed the 
project.\26\ In most cases, participants initially sought other 
ways to resolve their grievances, such as through petitions or 
requests for more information from the government.\27\ When 
these methods failed to elicit a response, participants took to 
the streets to protest.

------------------------------------------------------------------------
                         Environmental Protests
-------------------------------------------------------------------------
Hazardous Chemical Plant Protest in Xiamen

  Officials in the southeastern port city of Xiamen, Fujian province,
 planned to build and operate a 300-acre 10.8-billion-yuan (then US$1.4
 billion) hazardous chemical (paraxylene or ``PX'') plant.\28\ In March
 2007, central government officials criticized the project's safety.\29\
 Officials in Xiamen did not publicize these concerns, however, and made
 sure local media touted the project's economic benefits. A local
 resident who became aware of the concerns used his blog to organize
 opposition to the PX plant, telling readers the plant would hurt the
 local property market and tourism industry. Word spread quickly over
 the Internet.\30\ In a city of less than three million people,
 individuals sent out approximately one million text messages in May
 2007 objecting to the plant's construction.\31\ Real estate prices in
 the Haicang district began to fall as public concern increased.\32\
  On May 29, Xiamen leaders briefed the Fujian provincial party
 committee about the project's status and public concern surrounding the
 project. On May 30, a Xiamen official announced that construction on
 the project would be halted.\33\ Demonstrations, nonetheless, still
 occurred on June 1 and 2 that involved thousands of people ``taking a
 stroll,'' demanding that government stop the project completely rather
 than simply suspend it.\34\
  The State Environmental Protection Administration (SEPA) announced on
 June 7, 2007, that an expert committee would carry out environmental
 impact assessments (EIA) for key regions and industries to ensure that
 development in these areas took environmental factors into
 consideration.\35\ Acting on SEPA's recommendation, the Xiamen
 government announced on the same day that the project's construction
 would depend on a planning EIA of Haicang district.\36\ In response to
 the experience in Xiamen and other places, SEPA announced in March 2008
 that the draft Planning EIA Regulation would be reviewed and released
 possibly at the end of 2008.\37\ The planning EIA, in contrast to a
 project EIA, would consider the environmental impact of major projects
 on a larger area.\38\
  The Chinese Research Academy of Environmental Sciences, charged with
 performing the EIA, published its report on December 5, which concluded
 that the Haicang district was ``too small . . . for the diffusion of
 atmospheric pollution.'' \39\ An abridged version was posted for public
 comment and citizens were allowed to send their comments via Internet,
 mail, and telephone over the next 10 days.\40\ Two government-organized
 public forums were held on December 13 and 14. Nearly 90 percent of the
 107 public citizens and 14 out of 15 of the local people's congress and
 CPPCC members who attended the forums voiced their disapproval of the
 PX plant project.\41\ The citizens were randomly selected during a live
 drawing on TV from a pool of 624 people who had signed up to
 participate. Critics were allowed to observe the selection process. An
 online poll on the Xiamen government's Web site on whether the plant
 should be built was disabled after the first day due to ``technical
 difficulties.'' A Xiamen official noted that the poll was disabled
 because the technical setup allowed people to vote more than once.
 Voting from the first day indicated that over 90 percent of the 58,000
 votes were against the plant's location in Xiamen.\42\
------------------------------------------------------------------------


------------------------------------------------------------------------
                    Environmental Protests--Continued
-------------------------------------------------------------------------
  A Xiamen deputy secretary-general noted that the transparency during
 the selection process was a first for Xiamen, and that public
 participation would probably continue in the future for important
 projects but not for lesser ones.\43\ An environmentalist noted that:
 ``This is the first time public opinion was properly expressed through
 official channels and had an impact on government policies.'' \44\
  Fujian provincial and Xiamen municipal governments agreed at the end
 of 2007 to relocate the plant to Fujian's Gulei Peninsula, near
 Zhangzhou city, pending approval from the central government and the
 project's investor.\45\ Xiamen Mayor Liu Cigui confirmed in March 2008
 that a relocation of the plant is ``likely.'' \46\
  Shortly thereafter, rumors circulated that the PX plant would be moved
 to Gulei Peninsula, and local environmental activists started passing
 out fliers documenting risks associated with the plant. These
 developments reportedly led to decreases in real estate prices and an
 increase in citizen concern over their health and livelihoods, since
 many in the area depended on fishing for their income.\47\ From
 February 29 to March 3, 2008, initially peaceful protests involving
 thousands of people took place in several fishing towns,\48\ but at
 times the protests turned violent as protesters clashed with public
 security officials. Several people were injured and public security
 officers took approximately 15 people into custody.\49\ No official
 announcement has been made regarding the plant's status at the time of
 writing. A Guangzhou Daily writer noted, however, that ``any victory
 has its cost, and this triumph by Xiamen residents merely transfers the
 cost of victory to the Gulei Peninsula, to Zhangpu county farmers who
 lack a strong public voice.'' \50\
Shanghai Residents Protest Maglev Extension

  Suburban Shanghai residents publicly objected to the proposed
 extension of Shanghai's high-speed magnetic levitation (maglev) train.
 The Shanghai government planned to extend the line by 20 miles through
 Shanghai.\51\ During the first half of 2007, homeowners close to the
 proposed route demonstrated, hung banners, and signed petitions
 protesting the plan, expressing concern about electromagnetic
 radiation, noise pollution, and the adverse effect of the rail line on
 their home property values.\52\ Protesters earned a temporary reprieve
 in May 2007 when the local government announced that the project would
 be suspended. A Shanghai People's Congress official was reported as
 saying that the public's concern about radiation was one of the reasons
 the project had been stopped.\53\ In December 2007, the government
 posted a new route proposal on an obscure Web site.\54\ In January
 2008, thousands of residents gathered in Shanghai's People's Square,
 many carrying signs and chanting slogans against the maglev
 extension.\55\
------------------------------------------------------------------------


------------------------------------------------------------------------
                    Environmental Protests--Continued
-------------------------------------------------------------------------
  Like protesters in Xiamen, the loosely organized Shanghai residents
 preferred to call their gathering a ``collective walk'' rather than a
 protest.\56\ Their grievances included concerns about not only
 radiation, noise, and threatened property values, but also the lack of
 public consultation regarding the project proposal.\57\ The project
 appears to be on hold at the moment. It was not included on Shanghai's
 list of projects for 2008, and its ultimate fate remains unclear.\58\
 The maglev extension is reportedly being reviewed by central government
 regulators.\59\

Protest in Chengdu: Taking a ``Stroll''

  About 200 people ``strolled'' the streets of Chengdu, the capital of
 Sichuan province, on May 4, 2008, to protest the operation of a nearby
 ethylene plant and crude oil refinery.\60\ The peaceful two-hour
 protest arose out of concern that the factories would pollute Chengdu's
 air and water and would affect the health of residents.\61\
 Construction had not yet started on one plant, while the other plant
 had already been built.\62\ Some individuals noted that the plants
 would bring jobs and development to the area, and would boost ethylene-
 related production. Others expressed concern that the project had not
 passed proper environmental procedures, such as an environmental impact
 assessment and a public hearing.\63\ The building of the crude oil
 refinery was approved by the National Development and Reform Commission
 on April 21, 2008.\64\ In the aftermath of the earthquake that hit
 Sichuan on May 12, officials have reportedly decided to review the
 project after factories in the area experienced chemical leaks.\65\
  Protesters organized through Web sites, blogs, e-mails, and cell phone
 text messaging.\66\ They called the event a ``stroll'' to avoid having
 to apply for a permit, which officials rarely grant. Dozens of public
 security officials accompanied the protesters, photographing and
 videorecording the protest.\67\ Following the protest, officials
 detained one organizer for using the Internet to start rumors and
 incite a disturbance and two more people for participating in an
 illegal demonstration. They warned others for disseminating harmful
 information on the Internet. Authorities detained Chen Daojun on May 9
 for suspicion of inciting ``splittism,'' a crime under Article 103 of
 the Criminal Law, after he published an  article on a foreign Web site
 calling for a halt in construction of the chemical plant, citing
 environmental concerns.\68\ Officials brought other individuals into
 police custody for questioning and beat at least one person.\69\ They
 also deleted some of the protesters' online articles.\70\
------------------------------------------------------------------------

              ENVIRONMENTAL TOLL OF THE SICHUAN EARTHQUAKE

    Although it is too early to assess the full environmental 
consequences of the May 2008 Sichuan earthquake, some of the 
environmental effects and challenges were apparent shortly 
after the earthquake hit. According to the World Resources 
Institute, the most pressing concerns are disposal of debris 
from buildings 
destroyed by the earthquake, ecosystem and habitat loss, water 
contamination, and destruction of arable land.\71\
    Moreover, numerous chemical factories, as well as nuclear 
facilities and research sites, are located in the quake region. 
As of late May, experts reportedly identified 50 buried 
radioactive ``sources,'' apparently primarily from materials 
used in hospitals, factories, and laboratories.\72\ While 35 of 
the 50 ``sources'' had been moved to safe areas, the remaining 
15 were inaccessible.\73\ Although Chinese officials assured 
the public that the nuclear facilities in the quake region were 
all safe, and a global network of sensors supported by the 
United Nations detected no radioactive leaks in the quake 
region, some nuclear scientists expressed doubts, because 
Beijing was silent with respect to details about specific 
facilities.\74\ More than 100 chemical plants are located in 
the quake zone, and according to the Ministry of Environmental 
Protection (MEP) approximately 75 percent of the plants stopped 
production because of damage after the earthquake.\75\ The 
environmental and health consequences of several accidental 
leaks and spills reported as of late May remain unclear.\76\ 
Chinese officials and others have also voiced concerns about 
weakened and cracked dams in the quake region.\77\ Furthermore, 
the MEP reported that the environmental monitoring system in 
the quake region was severely damaged, further complicating the 
task of protecting the local environment.\78\
    In late June, the MEP reported that the drinking water and 
air in Sichuan and other areas affected by the quake had been 
tested and found to be safe.\79\ In light of the earthquake, 
the National Development and Reform Commission is rethinking a 
plan to expand Sichuan's nuclear industry, which had included 
construction of a nuclear power station 200 kilometers from the 
epicenter of the earthquake.\80\

                   2008 Beijing Summer Olympic Games


                CHINA'S OLYMPIC COMMITMENTS AND PLEDGES

    In bidding for the 2008 Summer Olympic Games, China 
explicitly tied its hosting of the event with human rights. 
Hours before the International Olympic Committee (IOC) 
announced in July 2001 that it would award the Olympics to 
China, Beijing Mayor and Beijing Organizing Committee for the 
Games of the XXIX Olympiad President Liu Qi told IOC members 
that the Olympics ``will help promote our economic and social 
progress and will also benefit the further development of our 
human rights cause.'' \1\ As winner of the bid, Chinese 
officials agreed to be bound by Olympic documents that included 
commitments relating to press freedom for foreign journalists, 
the environment in Beijing, and protection of Olympic 
intellectual property.\2\ [See Section II--Environment--
Government Transparency and the ``Green Olympics'' for more 
information on the environmental commitments.] In 2002, Chinese 
officials issued an Olympic Action Plan, which though not 
binding, made broad claims about how China would prepare for 
the Olympics, including that it would be ``open in every aspect 
to the rest of the country and the whole world.'' \3\

        DETERIORATION IN HUMAN RIGHTS BEFORE AND DURING OLYMPICS

    The Chinese government and Communist Party's determination 
to host a successful Olympics and ensure a ``positive'' image 
before the event led to an overall deterioration in freedom of 
expression, freedom of religion, and other human rights, 
particularly this past year. Restrictions on domestic media 
increased in order to create a ``positive'' public opinion 
environment for the Olympics.\4\ Officials detained and 
harassed vocal critics of the government and Party, targeting 
individuals who had tied their criticism with China's hosting 
of the Olympics, made critical comments to foreign reporters or 
foreign officials, or sought to defend groups out of favor with 
the government.\5\ [See Section II--Freedom of Expression.]
    In the period just before the Olympics, officials sought to 
ensure that persons they deemed to be potential 
``troublemakers'' left Beijing, remained in their homes, or 
were kept under closer watch. In July 2008, Radio Free Asia 
reported that security officials had ordered activists Qi 
Zhiyong and Jiang Qisheng, and legal scholar Zhang Zuhua, to 
leave Beijing for the Olympics, tightened surveillance of 
rights defense lawyers Li Fangping and Zheng Enchong, former 
China Democracy Party member Zha Jianguo, and Yuan Weijing, 
wife of imprisoned legal advocate and rights defender Chen 
Guangcheng, and kept Jia Jianying, wife of imprisoned democracy 
activist He Depu, confined to her home.\6\ Beijing public 
security officials detained thousands of petitioners, while 
local and provincial officials reportedly sent personnel to the 
capital to repatriate, sometimes forcefully, residents who had 
come to Beijing to petition the government.\7\ Shanghai public 
security officials reportedly barred dissidents from leaving 
Shanghai and banned them from speaking to foreign reporters.\8\ 
In September 2006, Beijing officials dismissed allegations that 
the city was proposing to expel one million migrant workers 
during the Olympics, but migrant workers reported in July 2008 
that authorities were ordering them to leave Beijing.\9\ In 
February 2008, Beijing officials said that no one had been 
forcibly relocated due to construction of Olympic venues, but 
residents and non-governmental organizations reported forced 
relocations, allegations of embezzled compensation, and lack of 
notice and public participation in the relocation process.\10\
    Officials targeted religious practitioners and ethnic 
minorities. To prevent any disruption of the Olympic torch 
relay as it passed through parts of the Xinjiang Uyghur 
Autonomous Region in June 2008, officials reportedly detained 
thousands of citizens and required Muslim religious officials 
to receive ``political education'' on ``protecting'' the 
Olympics.\11\ [See Increased Repression in Xinjiang During the 
Olympics in this section.] Unregistered religious communities 
reported increased harassment and abuse in the run-up to the 
Olympics. Officials expelled Pastor Zhang Mingxuan, president 
of the Chinese House Church Alliance, from Beijing in July, 
then detained him for 23 days and barred him from returning to 
Beijing until after the Paralympics ended in September.\12\ 
Security officials also implemented a widespread campaign to 
round up and intimidate Falun Gong practitioners 
nationwide.\13\ [See Directives and Measures Related to Falun 
Gong and the Olympics in this section.]
    China announced in July 2008 that it would set up protest 
zones for the Olympics but Beijing's Public Security Bureau 
reported on August 18 that of the 77 applications received, 74 
had been withdrawn and none had been approved.\14\ Officials 
reportedly harassed or detained several citizens who had 
applied to protest.\15\ After two women in their late seventies 
applied to protest the government's alleged failure to 
compensate them for demolishing their homes, officials 
sentenced them to one year of reeducation through labor for 
disturbing public order.\16\ Human Rights in China reported in 
late August that officials later rescinded the decision.\17\

                   COMMITMENT TO FOREIGN JOURNALISTS

    Chinese officials failed to fully implement temporary 
regulations granting foreign journalists greater freedoms 
before and during the Olympics. Officials had issued the 
regulations, effective from January 2007 to October 2008, 
promising there would be ``no restrictions'' on foreign 
journalists reporting on the Olympics.\18\ In its 2007 Annual 
Report, the Commission recommended that Members urge Chinese 
officials to live up to this commitment, and noted at the time 
that fulfillment had been ``incomplete at best.'' \19\ Over the 
past year, foreign journalists reported occasions where access 
improved, most notably just after the May 2008 Sichuan 
earthquake, but overall, harassment appeared to worsen.\20\ 
Officials barred foreign journalists from covering the Tibetan 
protests that began in March 2008, and also prevented them from 
covering protests by grieving parents after the earthquake.\21\
    In July 2008, the Foreign Correspondents Club of China 
(FCCC) stated that the Chinese government ``has not yet lived 
up to its Olympic promise.'' \22\ As of September 11, FCCC had 
reported 176 incidents of ``reporting interference'' against 
foreign journalists in 2008, (including 60 cases during the 
Olympic period that began with the opening of the Olympic media 
center on July 25), more than the total reported for all of 
2007.\23\ FCCC and Human Rights Watch also noted intimidation 
of journalists' sources and Chinese colleagues.\24\ As the 
Olympics approached, authorities took other measures to limit 
the activities of foreign journalists, including tightening 
control over the selection of Chinese citizens who work for 
foreign journalists, proposing limits on live coverage from 
Tiananmen Square and the Forbidden City, and blocking access to 
Web sites in press facilities for foreign journalists at 
Olympic venues.\25\
    On October 17, 2008, a Chinese foreign ministry 
spokesperson announced the State Council's issuance of the 
Regulations of the People's Republic of China on News Covering 
Activities of the Permanent Offices of Foreign News Agencies 
and Foreign Journalists, which make permanent freedoms 
introduced under the temporary Olympic regulations.\26\ Prior 
to the Olympic regulations, rules from 1990 required foreign 
reporters to obtain the approval of a local foreign affairs 
office before reporting outside of Beijing, a process that 
sometimes took days.\27\ Like the Olympic regulations, the new 
regulations allow journalists to travel to much of China for 
reporting without prior approval and require that they only 
obtain the consent of the individual or organization to be 
interviewed.\28\ The spokesperson noted, however, that 
government approval would still be required for travel to the 
Tibet Autonomous Region and other areas closed to foreign 
reporters.\29\ The new regulations do not affect the status of 
domestic journalists, who continue to be subject to the same 
restrictions as in the past, with no sign that officials are 
considering any measures to grant them greater freedom. [See 
Section II--Freedom of Expression.]

          INCREASED REPRESSION IN XINJIANG DURING THE OLYMPICS

    Officials in the Xinjiang Uyghur Autonomous Region (XUAR) 
reiterated a pledge in August 2008 to use harsh security 
measures to crack down against the government-designated 
``three forces'' of terrorism, separatism, and extremism.\30\ 
On August 13, Wang Lequan, XUAR Communist Party Chair, 
described the battle against the ``three forces'' as a ``life 
or death struggle'' and pledged to ``strike hard'' against 
their activities. XUAR Party Committee Standing Committee 
member Zhu Hailun reiterated the call to ``strike hard'' at an 
August 18 meeting. The announcements followed the release of 
limited information on terrorist and criminal activity in the 
region and came amid a series of measures that increased 
repression in the XUAR. The measures build off of earlier 
campaigns to tighten repression in the region, including 
efforts to tighten control as the Olympic torch passed through 
the region in June. Reported measures implemented in the run-up 
to and during the Olympics include:

        <bullet> Wide-scale Detentions. Authorities have 
        carried out wide-scale detentions as part of security 
        campaigns in cities throughout the XUAR, according to a 
        report from the Uyghur Human Rights Project. Reported 
        measures include ``security sweeps'' resulting in mass 
        detentions in the Kashgar area and Kucha county, 
        including blanket detentions in Kucha of young people 
        who have been abroad; the detention of non-resident 
        Uyghurs in Korla city; the forced return of Uyghur 
        children studying religion in another province and 
        their detention in the XUAR for engaging in ``illegal 
        religious activities''; and the detention of family 
        members or associates of people suspected to be 
        involved in terrorist activity.
        <bullet> Restrictions on Uyghurs' Domestic and 
        International Travel. Authorities reportedly continued 
        to hold Uyghurs' passports over the summer, building 
        off of a campaign in 2007 to confiscate Muslims' 
        passports and prevent them from making overseas 
        pilgrimages, according to reports from overseas media. 
        Authorities also coupled restrictions on overseas 
        travel with reported measures to limit Uyghurs' travel 
        within China.
        <bullet> Controls Over Religion. XUAR officials have 
        enforced a series of measures that ratchet up control 
        over religious practice in the region, according to 
        reports from Chinese and overseas sources. Authorities 
        in Yengisheher county in Kashgar district issued 
        accountability measures on August 5 to hold local 
        officials responsible for high-level surveillance of 
        religious activity in the region. Also in August, 
        authorities in Peyziwat county, Kashgar district, 
        called for ``enhancing management'' of groups including 
        religious figures as part of broader government and 
        Party measures of ``prevention'' and ``attack.'' The 
        previous month, authorities in Mongghulkure county, Ili 
        Kazakh Autonomous Prefecture, called for strengthening 
        management of religious affairs; inspecting all mosques 
        and venues for religious activity; curbing ``illegal'' 
        recitations of scripture and non-government-approved 
        pilgrimages; and ``penetrating'' groups of 
        religious believers to understand their ways of 
        thinking. Authorities in Lop county, Hoten district, 
        have been forcing women to remove head coverings in a 
        stated effort to promote ``women for the new era.'' 
        Authorities have also continued to enforce measures to 
        restrict observance of the Muslim holiday of Ramadan, 
        which, in 2008, took place in September.\31\
        <bullet> Controls Over Free Expression. Authorities in 
        the XUAR ordered some Uyghur Web sites to shut down 
        their bulletin board services (BBS) during the 
        Olympics, according to Radio Free Asia. In a review of 
        Uyghur Web sites carried out during the Olympics, 
        Commission staff found that BBS on the Web sites 
        Diyarim, Orkhun, and Alkuyi had been suspended. The BBS 
        Web page on Diyarim contained the message, ``[L]et's 
        protect stability with full strength and create a 
        peaceful environment for the Olympic Games[!] Please 
        visit other Diyarim pages[.]'' The message on the BBS 
        Web page on Orkhun stated, ``Based on the requirements 
        of the work units concerned, the Orkhun Uyghur history 
        Web site has been closed until August 25 because of the 
        Olympic Games.''
        <bullet> Inspections of Households in Ghulja. 
        Authorities in the predominantly ethnic minority city 
        of Ghulja searched homes in the area in July in a 
        campaign described by a Chinese official as aimed at 
        rooting out ``illegal activities'' and finding 
        residents living without proper documentation, 
        according to Radio Free Asia.

     DIRECTIVES AND MEASURES RELATED TO FALUN GONG AND THE OLYMPICS

    In April 2008, the central government 6-10 Office issued an 
internal directive to local governments nationwide mandating 
propaganda activities to prevent Falun Gong from ``interfering 
with or harming'' the Olympics.\32\ References to the directive 
appear on official Web sites in every province and at every 
level of government.\33\ Most official reports focus on 
demonstrating that local authorities have stepped up security 
and fulfilled the requirement to ``educate'' target audiences 
on the directive's content.\34\ Local authorities distributed 
the directive widely in an effort to raise public awareness. 
References can be found on various Web sites ranging from 
public entities with indirect relations with the state (state-
run enterprises, public schools, universities, parks, TV 
stations, meteorological bureaus, etc.) to commercial and 
social entities with no obvious ties to the state.\35\ Anti-
Cult Associations also actively circulated and promoted the 6-
10 Office's Olympic directive.\36\
    Olympic and municipal officials in Shanghai and Beijing 
also issued directives pertaining to Falun Gong in the lead-up 
to the Olympics. The Shanghai Public Security Bureau sent a 
warning to Falun Gong practitioners and other dissidents in 
April 2008 demanding that they remain in the city during the 
Olympics and report to the public security office at least once 
a week until the end of October. The notice threatened to 
detain or punish anyone who violates the order.\37\ In November 
2007, Beijing Olympic organizers reminded visitors to the games 
that possession of Falun Gong writings is strictly forbidden 
and that no exceptions would be made for international 
visitors.\38\ The Beijing Public Security Bureau issued a 
public notice offering a reward of up to 500,000 yuan 
(US$73,100) for informants who report Falun Gong plans to 
``sabotage'' the Olympics.\39\ From January to June 2008, 
public security agents reportedly arrested at least 208 
practitioners from all 18 districts and counties in Beijing 
municipality. Falun Gong sources have documented the names and 
other information for 141 of the 208 practitioners who were 
detained in Beijing, 30 of whom are now reportedly being held 
in reeducation through labor camps with sentences as long as 
two-and-a-half years.\40\
    Chinese security officials made statements prior to the 
Olympics that sought to link Falun Gong with terrorist threats, 
but produced no evidence to substantiate these claims.\41\ Tian 
Yixiang, head of the Military Affairs Department of the Beijing 
Olympics Protection Group, listed Falun Gong among the groups 
that might ``use various means, even extreme violence, to 
interfere with or harm the smooth execution of the Olympic 
Games.'' \42\ Li Wei, Chairman of the Center for 
Counterterrorism Studies at the quasi-official China Institute 
of Contemporary International Relations, categorized Falun Gong 
as among the top five terrorist threats to the Games.\43\
    [See Section VI--Developments in Hong Kong for coverage of 
protest and dissent in Hong Kong during the 2008 Olympic 
Games.]

                  III. Development of the Rule of Law


                             Civil Society


                              INTRODUCTION

    The Chinese government has strengthened control over civil 
society and non-governmental organizations (NGOs),\1\ 
especially in the run-up to the 2008 Beijing Summer Olympic 
Games.\2\ Although the government has acknowledged the 
contributions of civil society organizations (CSOs),\3\ 
especially in the aftermath of the May 2008 Sichuan 
earthquake,\4\ legal constraints and heightened surveillance 
continue to limit civil society activities in China.

                           LEGAL CONSTRAINTS

    Political and economic reforms since the late 1970s have 
created more space for citizen participation in society.\5\ 
Chinese citizens, often unsatisfied with government response to 
rising social problems, have learned to pursue justice through 
self-help and self-organizing.\6\
    There were 387,000 registered civil society organizations 
(CSOs) in China, including 3,259 legal aid organizations\7\ by 
the end of 2007, up from 354,000 in 2006 and 154,000 in 
2000.\8\ To obtain NGO status, organizations must have a 
sponsor organization, i.e., a government or a Communist Party 
organization, to support the initial registration, and apply to 
a government department for review and approval.\9\ Although 
the government controls registered organizations to some 
degree, some NGOs are still able to operate with certain 
independence.\10\
    The constraints on NGO registration are inconsistent with 
the right to freedom of association as defined by Article 22 of 
the International Covenant on Civil and Political Rights 
(ICCPR), of which China is a signatory.\11\ They also lead many 
organizations to operate without formal legal status.\12\ Some 
grassroots NGOs have had to register as commercial entities and 
have been unable to solicit funding or receive donations.\13\
    The majority of NGOs in China, regardless of their 
registration status, cannot engage in fundraising activities 
because charity-related laws only allow a small number of 
government-approved foundations to collect and distribute 
donations.\14\ This restriction has posed significant 
challenges in the aftermath of the May 2008 Sichuan earthquake 
when unprecedented donations\15\ overwhelmed the government. 
The small number of government-approved foundations and the 
government's limited capacity to manage funds have obstructed 
relief operations and resulted in public outcry for charity 
reform.\16\
    For years, the Ministry of Civil Affairs has considered 
legal reforms to regulate the civil society sector, including 
the management and registration of NGOs as well as their 
charity activities.\17\ In 2008, officials reportedly held 
consultative meetings to draft amendments to the 1998 
Regulations on the Registration and Management of Social 
Organizations.\18\ Nevertheless, the government remains wary 
that stronger NGOs and civil society will reduce its control 
over society.\19\

                      INTOLERANCE OF NGO ACTIVISM

    The Chinese government systematically restricts the 
development of civil society. It has heightened surveillance of 
NGO advocates since a series of democratic revolutions in other 
parts of the world in 2005.\20\ The government's crackdown on 
civil society organizations intensified in the lead-up to the 
2008 Beijing Summer Olympic Games,\21\ silencing voices of 
dissent in the name of national security and social 
stability.\22\
    The Chinese government and Communist Party ban activities 
of certain CSOs, such as political parties and religious groups 
independent of government control, and cracks down on their 
leaders.\23\
        <bullet> Authorities reportedly have harassed non-
        Communist political party leaders such as Guo Quan, the 
        Acting Chair of the New People's Party and a former 
        scholar in Nanjing,\24\ and members of the China 
        Democracy Party including Yue Tianxiang,\25\ Xie 
        Changfa,\26\ and Huang Xiaoqin.\27\
        <bullet> In July, China Aid Association reported that 
        Beijing police forced Zhang Mingxuan, president of the 
        Chinese House Church Alliance, and his wife to live on 
        the streets after Zhang met with a U.S. Congressional 
        delegation.\28\ Authorities later detained Zhang and 
        his wife two days before the opening of the 
        Olympics.\29\
        <bullet> Officials ordered China Development Brief, a 
        Beijing-based non-profit online publication that 
        reports on civil society news and connects NGOs in 
        China, to discontinue its Chinese edition in July 
        2007.\30\ Later in September 2007, officials denied the 
        re-entry of Nick Young, founder of the publication, 
        citing Article 12 of the Immigration Law.\31\
        <bullet> In the area of HIV/AIDS, officials curbed the 
        activities of organizations and activists.\32\
                  The Xincai People's Court convicted Wang 
                Xiaoqiao, an AIDS activist from Henan province, 
                of ``extortion'' and sentenced her to one year 
                in prison on August 12.\33\ Wang had been 
                detained since November 27, 2007, when 
                petitioning to the Henan government for her 
                husband, who contracted HIV/AIDS through a 
                blood transfusion.\34\
                  In May, authorities reportedly ordered the 
                closure of the ``AIDS Museum'' Web site, 
                www.aidsmuseum.cn, a platform for HIV/AIDS 
                information exchange.\35\
                  Police reportedly harassed HIV/AIDS activist 
                Wan Yanhai in May during the U.S.-China Human 
                Rights Dialogue. Wan was put under 24-hour 
                police surveillance for four days. Several 
                other human rights activists reportedly had 
                similar experiences during the same time.\36\
                  Public security officials sentenced human 
                rights activist Hu Jia, who has advocated on 
                behalf of people living with HIV/AIDS, to three 
                years and six months in prison for ``inciting 
                subversion of state power'' on April 3. [See 
                Section II--Rights of Criminal Suspects and 
                Defendants for more detailed information about 
                Hu Jia.\37\]
                  Officials banned a conference scheduled for 
                late July and early August 2007 in Guangzhou on 
                the legal rights of those infected with HIV. 
                The conference would have brought together 50 
                Chinese and international HIV/AIDS activists 
                and experts. One of the conference organizers, 
                the New York-based Asia Catalyst, suggested 
                that authorities canceled the conference 
                because the subject matter and the involvement 
                of foreigners were ``too sensitive.'' \38\
                  Leading HIV/AIDS experts and advocates from 
                around the world submitted an open letter dated 
                September 27, 2007, to the Joint United Nations 
                Programme on HIV/AIDS (UNAIDS) expressing 
                concern over Chinese government actions against 
                the AIDS work of Chinese NGOs and advocates, 
                including Li Dan. State security officials held 
                Li, founder of the China Orchid AIDS Project 
                and winner of the 2005 Reebok Human Rights 
                Award, in custody in Beijing for 24 hours on 
                July 26, 2007. The China Orchid AIDS Project 
                was the co-organizer of the canceled conference 
                in August.\39\

    [See Section II--Worker Rights, Freedom of Religion, Status 
of Women, and Environment for more information.]

                        ROLE OF BUSINESS SECTOR

    China encourages the business sector to engage in civil 
society activities and to support NGOs. The Public Welfare 
Donations Law and the Corporate Income Tax Law encourage public 
and corporate donations by providing tax benefits.\40\ As a 
result, international and domestic companies made significant 
contributions to relief efforts in the aftermath of the Sichuan 
earthquake.\41\ In addition to charitable giving, China also 
sets policy guidelines to encourage corporate social 
responsibility.\42\ Since 2005, President Hu Jintao's 
``Harmonious Society'' \43\ vision had promoted the widespread 
adoption of corporate social responsibility initiatives in 
China.\44\ While Chinese companies recognize certain human 
rights, they reflect government positions more explicitly in 
their human rights policies.\45\ Chinese government also 
compels corporations, including the Internet and media 
companies, to assist in censorship to restrict freedom of 
expression.
    [See Section II--Freedom of Expression for more 
information.]

                 Institutions of Democratic Governance


                              INTRODUCTION

    During 2008, China implemented some limited reforms to 
increase public participation, including greater public 
involvement in the selection of officials in some localities. 
However, the Chinese Communist Party's monopoly on political 
power remains firmly intact. Reforms have not removed barriers 
to the formation of competing political parties or an 
independent judiciary. Thirty years after the launch of the 
reform era and nearly 60 years after the founding of the 
People's Republic of China, the basic structure of China's 
government--an authoritarian political system controlled by the 
top leaders of the Communist Party--remains unchanged.
    The Communist Party exercises control over government and 
society through networks of Party committees, which exist at 
all levels in government, legislative, judicial, and security 
organs; major social groups (including unions); enterprises; 
and the People's Liberation Army. Party committees formulate 
all major state policies before the government implements them. 
Party secretaries who chair Party committees simultaneously 
hold corresponding government positions, retaining final 
decisionmaking authority on most issues.\1\ The vast majority 
of government leadership positions remain the exclusive domain 
of Party members, with a few token non-Communist officials 
relegated to mostly symbolic positions.\2\

         FORMAL GOVERNMENT ELECTIONS: ``GRASSROOTS DEMOCRACY''

    In the 20 years that have now passed since the Chinese 
government introduced direct elections at the village level, 
the gradual expansion of elections to higher levels of 
government has largely stalled. The direct election of 
officials by ordinary Chinese citizens remains narrow in scope 
and strictly confined to the local level. None of the Party or 
government officials at the municipal, provincial, or national 
level are directly elected by Chinese citizens. Chinese 
citizens are formally permitted to directly elect officials for 
just three types of local governing institutions: villagers 
committees in rural areas, residents committees in urban areas, 
and local legislatures--known as People's Congresses--at the 
township and county levels.\3\ In 2001, the Central Committee 
of the Chinese Communist Party declared that directly electing 
a township head was unconstitutional.\4\
    In light of the restrictions imposed from the center, some 
townships have experimented with models of indirect elections 
that 
provide for a limited degree of public participation and a 
greater 
degree of rank-and-file party participation in the selection of 
township leaders. Elections of villagers committees occur 
regularly every three years, and in 2008, elections were 
scheduled to be held for about half of the more than 620,000 
villagers committees across China.\5\ Since 1995, the Party has 
experimented with reforms that allow a limited degree of 
citizen participation in the selection of local Party cadres, 
but the Party retains tight control over the candidate pool and 
the selection process. For example, by 2002, a few thousand 
townships had participated in a model of indirect elections 
known as ``open recommendation and selection'' (gongtui 
gongxuan). This approach to township elections allows any adult 
resident in a community to declare his or her candidacy for 
township head, but direct participation in the process 
essentially stops there for the general public. The residents 
committee is responsible for narrowing the pool of candidates 
to two finalists from whom the local People's Congress chooses 
the winner in a caucus.\6\ In total, approximately 200-300 
people typically participate in the selection process under 
``open recommendation and selection.'' \7\
    Following the 17th Party Congress in October 2007, a number 
of localities have utilized the notion of ``inner-party 
democracy'' to promote movement toward a more participatory 
model of local Party leadership election. The most prominent of 
these efforts is a new pilot project called ``open 
recommendations, direct elections'' (gongtui zhixuan). This 
method of conducting elections is characterized by the adoption 
of ``three recommendations, two announcements, and one 
election.'' \8\ Candidates are first recommended by rank-and-
file Party members, the local Party organization, and most 
importantly, the general public. Second, the residents 
committee evaluates the qualifications of the recommended 
candidates and publicly announces the candidates they have 
approved to run in the ``election.'' Finally, at the local 
Party convention, all Party members in attendance--not just 
Party leaders or representatives--cast ballots to determine the 
final winner(s).\9\
    In 2007-2008, reports of localities introducing the ``open 
recommendations, direct elections'' pilot project surfaced from 
provinces ranging from the relatively affluent (Shanghai, 
Guangdong) to the generally underdeveloped (Guangxi).\10\ In 
Guizhou province, the Party Committee Secretary for a small 
township was directly elected by 234 local Party members who 
attended an election rally in April 2008. The secretary was 
chosen among two final candidates who were selected from a pool 
of 35 total candidates through ``such procedures as eligibility 
screening, theory examinations, open recommendation rallies, 
and focal-point inspections.'' \11\ In September 2007, direct 
election of township officials was administered for the first 
time in seven townships simultaneously in Yunnan province.\12\ 
In January 2008, Ningbo city in Zhejiang province became the 
first city in the nation in which all of the city's 
neighborhoods practice ``direct elections'' of residents 
committees.\13\ A village in Hunan's Xiangxi Autonomous 
Prefecture held that area's first ``no-candidate direct 
election'' for five village leadership positions in May 
2008.\14\ The Ministry of Civil Affairs defines a 
``no-candidate'' election as one in which no candidates are 
predetermined prior to election day and any individual villager 
can nominate himself or herself for consideration.\15\
    Some localities have also established mechanisms aimed at 
soliciting the views of the general public on issues of 
governance. A village in Anhui province instituted a ``villager 
discussion system'' in which the second weekend of every month 
is designated as a time when villagers meet to ``discuss, 
deliberate, and evaluate'' current issues before the community 
in the presence of leaders from the villagers committee. The 
county of which this township is a part has also opened a 
``villager discussion room'' in each of its 120 administrative 
villages where villagers can meet with leaders at times outside 
of the designated weekend.\16\ A similar ``villager 
deliberation system'' exists in a small mountain village in 
Jiangxi in which elected villager representatives can introduce 
proposals and make critiques of village affairs and cadre 
performance.\17\ Since 2004, another county in Jiangxi has 
gradually expanded an inner-party voting system in which town 
and village authorities discuss ``matters of great concern 
within the party'' and put them to a vote by secret ballot 
among all Party members and some villager representatives. In 
2007, such votes were reportedly held on 1,128 matters 
throughout the county with 1,017 of the ballot decisions fully 
adopted and executed by the authorities.\18\
    Although to a lesser extent than many counties and 
townships, some municipal governments also rolled out new 
initiatives aimed at broadening civic participation in 
governance. The Nanjing city government, in particular, took 
two steps that were largely unprecedented. First, 16 candidates 
vying for 4 positions in the city government--directors of the 
labor, drug surveillance, tourism, and government 
administration bureaus--participated in the country's first 
televised debate in April 2008. The candidates each gave a 
five-minute speech and answered questions. The studio audience 
of more than 240 people, reportedly from diverse backgrounds, 
was allowed to comment and vote on the candidates. Three 
candidates with the most votes for each position were then 
``recommended'' to the Nanjing Party Committee and its Standing 
Committee for final selection.\19\ Second, Nanjing authorities 
decided in late 2007 to allow migrant workers to stand for 
election as deputies to the county and township people's 
congresses for the first time.\20\

    TAKING A ``SPECIAL ECONOMIC ZONE'' TO THE NEXT LEVEL: ``SPECIAL 
                          POLITICAL ZONES? ''

    In recent years, the city of Shenzhen in Guangdong 
province, a bustling metropolis of 10 million people bordering 
Hong Kong, has proven to be a dynamic center of political 
experimentalism. The Shenzhen municipal government has been 
proactive in promoting the ``open recommendation, direct 
elections'' model throughout every district in the city with 
direct elections occurring in 80 percent of resident 
committees.\21\ In 2005, Yantian district became the first in 
the nation to directly elect residents committees that were 
legally defined as grassroots autonomous mass 
organizations.\22\ Luohu district has also distinguished itself 
by conducting so-called ``double elections'' whereby Party 
rank-and-file members are allowed to directly elect 
representatives to the district Party branch as well as its 
secretary and deputy secretary.\23\
    A number of Shenzhen city officials and academics have 
called for the transformation of Shenzhen into a ``special 
political zone'' that would serve as a democratic laboratory in 
the same way that it served as a capitalist laboratory in the 
beginning of the reform era.\24\ In March 2008, the Guangdong 
Party Secretary rejected that proposal as too radical and 
instead encouraged Shenzhen to focus on building ``socialist 
democracy''--the Party's watchword for allowing marginal public 
participation in politics while preserving its monopoly on 
power.\25\ Undeterred, the Shenzhen Municipal Party Committee 
approved a ``breakthrough'' reform plan three months later, 
which if implemented, could require that multiple candidates 
for mayor be presented for a vote before the local People's 
Congress, introduce competitive elections for members of that 
body, 
expand its supervisory powers over the executive, and promote 
judicial independence.\26\ Shenzhen's reform plan did not 
include a timetable for implementation and it is unclear if 
central authorities will permit reforms to go as far as the 
proposal recommends. The Commission will monitor closely and 
assess the progress that Shenzhen achieves toward this end.

                        THE 17TH PARTY CONGRESS

    A sustained program of significant political reform was 
absent from the agenda of the 17th Party Congress in October 
2007. Instead, the Party focused largely on setting the stage 
for a likely leadership transition in 2012 and reaffirming the 
importance of pursuing sustainable economic growth through 
Party General Secretary Hu Jintao's ``scientific development 
concept.'' \27\ ``Inner-party democracy,'' a recurring idea in 
the rhetoric of the current Chinese leadership, dominated the 
statements regarding political reform at the Congress. Hu 
appeared to open the door for incremental political reforms at 
the local level when he declared that the Party would ``spread 
the practice in which candidates for leading positions in 
primary party organizations are recommended both by party 
members and the public in an open manner and by the party 
organization at the next higher level, gradually extend direct 
election of leading members in grass-roots party organizations 
to more places, and explore various ways to expand inner-party 
democracy at the primary level.'' \28\
    Any chance that the Party might allow movement toward true 
political pluralism or show greater tolerance for organized 
political dissent was lost by Hu's call to ``firmly uphold the 
centralized and unified leadership of the party.'' \29\ Less 
than a month after the Party Congress, Hu's message was echoed 
in the text of a White Paper published by the State Council 
entitled ``China's Political Party System.'' The document 
praised China's ``multi-party cooperation system'' that 
preserves the Communist Party's absolute dominance and 
``replaces confrontation and contention with cooperation and 
consultation'' so as to safeguard ``social and political 
stability and solidarity.'' It concludes with a final 
assessment that the ``multi-party cooperation system'' is 
``inevitable, innovative, and superior.'' \30\ The so-called 
``multi-party cooperation system'' refers to seven nominal 
political parties that the Communist Party permits to exist in 
a subordinate role at the margins of the political process. The 
Communist Party has strongly repressed attempts to organize 
independent parties outside of these seven, such as the China 
Democracy Party.\31\ Another State Council White Paper, the 
first ever on the rule of law, was published in February 2008. 
It also emphasizes that the Communist Party is ``always'' the 
``core'' leadership, which has ``consolidated'' its ``ruling 
position'' through promoting and adhering to the law.\32\ To 
the extent that the 17th Party Congress appeared to approve of 
greater political participation at the local level, the 
available evidence suggests that it aims to make China's 
authoritarian system more sustainable rather than creating 
space for a potential challenger to the Party's legitimacy.\33\

                   PUBLIC PARTICIPATION IN LAWMAKING

    In his report at the 17th Party Congress in October 2007, 
President and Party General Secretary Hu Jintao said the Party 
must ``expand the citizens' orderly participation in political 
affairs at each level and in every field'' and that ``in 
principle, public hearings must be held for the formulation of 
laws, regulations and policies that bear closely on the 
interests of the public.'' \34\ In April 2008, the National 
People's Congress Standing Committee (NPCSC) announced that 
draft laws under its consideration would ``in general'' all be 
made public for review.\35\ The State Council issued an opinion 
in May calling on city and county governments to solicit the 
public's input in formulating policies that ``have a close 
relationship to interests directly affecting the people.'' \36\ 
Local governments 
continued to pass measures establishing procedures for public 
participation at hearings.\37\ According to a central 
government news organization in January, more than 70 percent 
of county-level governments had set up procedures for holding 
public hearings or panel discussions to solicit input on 
proposed laws.\38\ The official China Daily reported in October 
a proposal in Gansu province to allow citizens to directly 
propose legislation.\39\ Official media cast these initiatives 
in a positive light.\40\
    At the national level, the NPCSC's decision to make draft 
laws public has led to publication of some major laws. Xinhua 
reported that on the same day NPC officials announced the new 
policy, a draft of a new food safety law was made public.\41\ 
Chinese law, however, grants the NPCSC the power to draft only 
certain laws, while the NPC itself has the direct power to 
enact and amend basic laws such as important criminal or civil 
legislation.\42\ Thus, much anticipated amendments to the PRC 
Criminal Procedure Law, which officials have been considering 
revising for several years, would not have to be made public in 
draft form under the policy introduced in April.\43\
    One new regulation that authorities never released in draft 
form for public comment, according to one observer, is the new 
open government information (OGI) regulation that took effect 
in May 2008.\44\ The OGI regulation is intended to increase 
public access to government information, but lacks a clear 
presumption of disclosure.\45\ The regulation's ``state 
secrets'' exception and penalties for failure to ``establish 
and perfect'' procedures for making secrecy determinations may 
encourage officials to err on the side of non-disclosure 
instead of open government information. Furthermore, on the eve 
of OGI's effective date, the central government further 
broadened officials' discretion to withhold information when it 
issued an opinion saying officials could deny requests for 
information not related to the requesting party's ``production, 
livelihood and scientific and technological research.'' \46\ 
This introduction of an apparent purpose test differs from 
earlier local-level OGI regulations and international 
practice.\47\ Initial reports from Mainland Chinese and Hong 
Kong media indicated that some officials were being evasive or 
uncooperative in handling requests for information.\48\
    Local measures providing for public hearings empower local 
officials to decide which members of the public may attend or 
offer testimony at hearings.\49\ Xiong Lei, a former editor at 
Xinhua, wrote in the July 2008 issue of the China Society for 
Human Rights Studies' magazine that this created problems since 
the government sponsor's ``independence is questionable.'' \50\ 
She also said that provisions for public participation had been 
``sporadically written'' into some laws and that ``public 
participation is mostly witnessed in hearings on pricing, 
legislation and some administrative moves, but is absent in 
many projects immediately affecting people's life, like land 
leasing, neighborhood renovation and city renewal projects.'' 
Local measures also provide little guidance on what weight to 
give input from hearings. One local measure stipulated that 
hearing summaries, which are prepared by the government 
sponsor, should be an ``important reference'' for 
policymaking.\51\ According to mainland Chinese and Hong Kong 
media reports, at two public hearings in December 2007 
concerning public opposition to the construction of a chemical 
plant in Xiamen [see Section II--Environment], officials 
selected citizens randomly during a live drawing on television 
from a pool of 624 people who had signed up to participate. 
Officials also allowed observers to monitor the selection 
process.\52\ Following the hearings, officials decided to move 
the plant, and the China Daily admonished local officials in 
January 2008, saying that if they had ``invited local residents 
to weigh in on the matter before the plan had been approved, 
all the troubles might have been avoided.'' \53\

                         Commercial Rule of Law


                              INTRODUCTION

    As a member of the World Trade Organization (WTO), China is 
bound by commitments outlined under both the WTO agreements and 
China's accession documents.\1\ These commitments require that 
the Chinese government ensure non-discrimination in the 
administration of trade-related measures, and prompt 
publication of all laws, regulations, judicial decisions, and 
administrative rulings relating to trade. Over the past year, 
concerns have persisted over China's continued deviation from 
WTO norms in both law and practice. China's uneven 
implementation of its WTO commitments pursuant to its 
obligations as a member of the WTO have led to multiple WTO 
challenges against China.\2\ [See box at the end of this 
section.]
    The new PRC Anti-Monopoly Law, which took effect in August 
2008, heralds the potential for structural change that may have 
a significant impact on the development of commercial rule of 
law in China. China's new National Strategy for Intellectual 
Property, on the other hand, is similar to China's past 
approaches to the enforcement of intellectual property 
protection, which have been largely unsuccessful. Implementing 
measures related to land and property rights, and enterprise 
income tax also had an impact on China's development of the 
commercial rule of law in the last year. Tightened visa 
restrictions in the period around the 2008 Beijing Summer 
Olympic Games impacted operations across commercial sectors 
significantly.\3\
    China has taken steps over the last year to increase 
opportunities for interested parties to become aware of and 
engaged in the development of new laws and regulations, and the 
formulation of amendments to existing laws and regulations. The 
National People's Congress (NPC) and China's State Council 
Legislative Affairs Office (SCLAO) separately took steps to 
establish public notice-and-comment systems for proposed laws 
and regulations. On April 21, 2008, the NPC announced that in 
principle the NPC Standing Committee would release the full 
text of draft laws, on its Web site, for public comment.\4\ 
[See Section III--Institutions of Democratic Governance, Public 
Participation in Lawmaking.] This announcement helped to 
formalize a process that the NPC had practiced on select laws 
over the last year (for instance, on a new draft Food Safety 
Law in March, and on the latest draft of the proposed new 
patent law, which the NPC posted on its Web site with an 
invitation to comment on September 8, 2008; in a similar vein, 
the Supreme People's Court released a draft interpretation of 
the PRC Property Law for public comment on June 16, 2008\5\). 
In addition, the SCLAO committed, as part of ongoing work on 
transparency under the U.S./China Strategic Economic Dialogue 
(SED), to publish on its Web site all trade- and economic-
related administrative regulations and departmental rules that 
are proposed for adoption, and to provide a public comment 
period of not less than 30 days from the date of 
publication.\6\ Comment procedures are intended to afford 
interested parties, including both foreign and domestic firms 
and trade associations, some limited opportunities to offer 
input prior to implementation. China must ensure full and 
consistent implementation and institute additional efforts to 
fully develop strong rule of law before these steps may be 
deemed positive.

                             ANTI-MONOPOLY

    The new PRC Anti-Monopoly Law (AML) took effect on August 
1, 2008,\7\ but the text of the law did not fully specify who 
would be responsible for its enforcement.\8\ The law created an 
Anti-Monopoly Commission under the State Council but the 
government did not announce until earlier this year that three 
government entities would share responsibility for enforcement: 
the Ministry of Commerce, the National Development and Reform 
Commission (NDRC), and the State Administration for Industry 
and Commerce (SAIC). The Anti-Monopoly Commission's role is to 
coordinate the enforcement activities of these three 
entities.\9\ Competition matters previously were dealt with 
under provisions in China's 1993 Anti-Unfair Competition 
Law\10\ and 1997 Price Law.\11\ The AML codifies doctrines of 
state action that have prompted some experts, both in China and 
outside, to liken it to a ``new Economic Constitution.'' \12\
    There appear to have been several motivations for issuing 
the AML. One main motivation appears to have been to strengthen 
the legal foundation for China's transition to a market 
economy. Some legislators reportedly perceived a need to curb 
government power and combat local protectionism.\13\ The AML 
has an entire chapter devoted to ``Abuse of Administrative 
Powers to Eliminate or Restrict Competition.'' \14\ At the same 
time, the AML also contains a provision that seemingly grants 
privileges to state-owned enterprises (SOEs) operating in 
sectors important to national security and the economy.\15\ 
Other Chinese legislators reportedly feared that superior 
access to capital might enable foreign firms to attain dominant 
positions in specific industries in China.\16\ However, this 
concern does not appear to have been the main motivation for 
the law.\17\
    Within a month after the AML took effect, there were 
reports of at least four antitrust cases filed (though not 
necessarily accepted), including cases that targeted a state 
agency,\18\ and also a petition filed asking the government to 
open an investigation against Microsoft.\19\ In addition, a 
number of implementing rules and regulations remain in the 
pipeline. The United States has provided technical assistance 
funding to the American Chamber of Commerce in China to 
increase dialogue and cooperation with Chinese enforcement 
officials during the law's implementation.\20\
    The AML includes a national security provision as follows:

        If the merger with or acquisition of domestic 
        enterprises by foreign investors or other forms of 
        concentration involving foreign investors concerns 
        national security, in addition to the review of 
        concentration of undertakings in 
        accordance with the provisions of this Law, it shall be 
        examined for national security review in accordance 
        with relevant regulations of the State.\21\

    The ultimate impact of this provision, whether negative or 
positive, remains unclear. Attorneys practicing in China are 
watching to see whether the approval of some mergers may be 
conditioned on commitments to licensing.\22\ Guidelines issued 
by the Supreme People's Court at the time the AML took effect 
indicated that anti-monopoly civil cases would be decided by 
the intellectual property divisions of people's courts. This 
was motivated in part to take advantage of these divisions' 
relative professionalism and sophistication compared with other 
courts, specifically their familiarity with complex legal, 
technical and economic matters.\23\

                         INTELLECTUAL PROPERTY

    The State Council issued its Outline of the National 
Intellectual Property Strategy (National Strategy) on June 5, 
2008.\24\ The National Strategy calls for the establishment of 
mechanisms to coordinate bureaucracies with overlapping 
responsibilities, but does not fully specify plans to achieve 
those goals.\25\ There is little that addresses the need for 
coordination between administrative authorities, who handle 
most intellectual property (IP) enforcement in China, and 
public security bureaus--a need that was highlighted in this 
year's United States Trade Representative Special 301 
Report.\26\ Finally, the National Strategy's call for 
``innovation'' appears at odds with its rhetoric of ``self-
reliance.'' Its introduction of the new concept of ``self-
reliant innovation'' may suggest tensions at the top over the 
future direction of China's IP policy. If such tensions are 
more pronounced than before, they may have negative 
implications for China's ability to perform on its stated 
commitments to improve IP enforcement going forward.
    The language in which the National Strategy presents 
China's commitments on matters related to intellectual property 
rights (IPR) enforcement is excessively vague. Vague pledges by 
themselves will not achieve the objective of fulfilling IPR 
commitments. Pledges to ``strengthen'' the system, and make it 
``sound'' and ``effective'' do not lend themselves well to 
objective assessment of China's performance in fulfilling (or 
failing to fulfill) its commitments to enforce IPR. For 
instance, the National Strategy mentions the protection of 
trade secrets, stating that ``the behavior of stealing trade 
secrets should be severely punished in accordance with law.'' 
\27\ However, it says little else to specify in detail how this 
objective is to be implemented or achieved effectively. As a 
result, to protect trade secrets, firms must rely heavily on 
provisions governing employee non-competition agreements in the 
new PRC Labor Contract Law, which has been in effect only since 
January 2008, and implementing regulations which were issued 
only in September.\28\
    The National Strategy is the work of the National Working 
Group for Intellectual Property Rights Protection, which was 
established in 2005 for the purpose of coordinating IP policies 
among 12 government agencies and ministries that make IP-
related policy. The Working Group has 13 members, including 
officials from the Ministry of Commerce, State Intellectual 
Property Office, Customs, Supreme People's Court, and State 
Administration for Industry and Commerce. In addition to 
promising amendments to China's patent,\29\ trademark, and 
copyright laws, the National Strategy proposes to investigate 
the possible establishment of specialized IP courts, including 
a central IP court in Beijing for cases involving highly 
technical matters, and a special court for IP appeals.\30\
    The Office of the United States Trade Representative (USTR) 
concluded in April that ``rampant counterfeiting and piracy 
problems have continued to plague China,'' noting that the 
``goal of significantly reducing IPR infringement throughout 
China has not yet been achieved.'' \31\ The World Trade 
Organization's (WTO) Trade Policy Review noted that, 
``(q)uestions remain about the sufficiency of fines and 
criminal penalties to deter IPR violations.'' \32\ USTR has 
argued that, under China's criminal IPR thresholds, its 
prosecutors and judges cannot, as a matter of law, act in ways 
that allow China to meet its obligations under the WTO's Trade-
Related Aspects of Intellectual Property Rights (TRIPS) 
Agreement.\33\ USTR also has argued that China's customs 
regulations do not grant Chinese customs officials the 
authority or discretion to act in accordance with the TRIPS 
Agreement, and China's Copyright Law conflicts with China's 
obligations under the TRIPS Agreement.\34\ In material 
submitted before a WTO panel in April 2008, USTR argued that 
``the safe harbors from criminal liability created by China's 
high thresholds for criminal liability (i.e., minimum values or 
volumes required to initiate criminal prosecution, normally 
calculated on the basis of the infringer's actual or marked 
price) continue to be a major reason for the lack of an 
effective criminal deterrent. These safe harbors are among the 
matters for which the United States has requested WTO dispute 
settlement with China.'' \35\
    Most IPR enforcement in China is handled by administrative 
authorities, not courts, and, because administrative fines are 
low, they amount to no more than a cost of doing business for 
IPR infringers, instead of as deterrents to infringing 
activity. Difficulties in initiating and transferring cases for 
criminal prosecution and low civil damages also contribute 
significantly to inadequate IPR enforcement, and also offer 
little to deter infringement. IPR enforcement at the local 
level in China also is hampered by poor coordination among 
government departments, local protectionism, lack of training, 
non-transparent processes, and corruption. As a result, piracy 
and counterfeiting levels in China remain high even as the 
number of IPR cases in Chinese courts increases. USTR notes, 
for example, that China's May 2006 Regulations on the 
Protection of Copyright Over Information Networks, fail to 
implement fully the World Intellectual Property Organization 
Internet Treaties to which China acceded last year.\36\ 
According to USTR, ``(u)nauthorized retransmission of live 
sports telecasts over the Internet is reportedly becoming an 
increasing problem internationally, particularly in China.'' 
\37\

------------------------------------------------------------------------
              IPR and Ethnic Minority Economic Development
-------------------------------------------------------------------------
  In Guizhou province, authorities are drafting legislation that treats
 the indigenous knowledge possessed by ethnic minority citizens as
 intellectual property.\38\ The Guizhou provincial Intellectual Property
 Office has been developing an IPR-based regulatory system for
 traditional know-how related to the cultivation of special forms of
 rice, medicinal plants, and other knowledge, such as embroidery
 techniques, for which there is known market potential. Officials have
 publicized the effort as part of China's national efforts to strengthen
 and align IPR enforcement in China with international standards and
 with China's international obligations. They also have cast it as
 development policy for the benefit of ethnic minority citizens.\39\
  Specialists in sustainable development note that the most recent
 (August 2008) draft of China's proposed new patent law is silent on
 traditional knowledge. ``As it stands, the draft provides no
 safeguards, no restrictions, against outright `biopiracy' in terms of
 traditional knowledge.'' \40\ To the extent that the ability to patent
 inventions based on traditional knowledge appeals to investors, and
 their prohibition may turn potential investors away, the Chinese
 government may not wish to prohibit patents on traditional knowledge.
 Moreover, some development specialists note that, ``a lot of groups,
 especially indigenous peoples, don't want to see patent law extended to
 traditional knowledge.'' \41\
  The application of IP to traditional knowledge may give farmers
 leverage over companies wishing to market local products produced with
 traditional know-how. At the same time, it is not clear whether Chinese
 law does or can effectively address methods for deciding whether IP
 rights and royalties must be shared among communities or collectives in
 a manner that protects the rights of ethnic minorities.\42\ It remains
 to be seen whether the ``protection'' of ethnic minorities' traditional
 knowledge in the long-run will safeguard ethnic minority rights.\43\
------------------------------------------------------------------------

                        FOOD AND PRODUCT SAFETY

    In August 2007, after a series of safety scares involving 
Chinese products worldwide, China's Commerce Minister called 
for a ``Special War'' against unsafe food and inferior product 
quality.\44\ A food safety crisis in September 2008 involving 
tainted milk products (milk, milk powder, infant formula, cake, 
candy, and chocolate) that have killed at least four children 
and sickened more than 60,000 others, illustrated the 
ineffectiveness of China's ``Special War.'' The Commission's 
2007 Annual Report included extended coverage of the 
significant challenges China faces in the area of food and 
product safety.\45\ Regulatory fragmentation, insufficient 
oversight, and the censorship practices of the Chinese 
government and Communist Party have contributed to a sharp rise 
in domestic and international concern over food safety and 
product quality problems in China.
    On September 15, 2008, Xinhua announced the arrest of 
individuals involved in the contamination, sale, and 
distribution of tainted milk products on charges of ``producing 
and selling toxic and hazardous food'' under the PRC Food 
Hygiene Law.\46\ In addition, Xinhua reported on September 22 
that the director of China's General Administration of Quality 
Supervision, Inspection and Quarantine had stepped down, and 
that the Communist Party chief and mayor of Shijiazhuang, Hebei 
province were sacked.\47\ (Hebei is the headquarters of the 
Sanlu Group, the dairy producer implicated in the scandal.) The 
Party chief reportedly ``was removed for delaying the reporting 
of the issue to higher authorities and incompetence'' in 
accordance with the PRC Civil Servants Law\48\ and the State 
Council Regulation on the Punishment of Civil Servants of 
Administrative Organs.\49\ These measures provide that 
administrative 
officials who fail to fulfill their duties and cause avoidable 
severe accidents as a result face removal and punishment.
    The government reportedly said that Sanlu ``had first 
received complaints about its powder in March 2008 and had 
recalled some products but delayed reporting the problems to 
the government or the public.'' \50\ A Central Propaganda 
Department directive reportedly sent to newspaper editors in 
June included restrictions on coverage of politically sensitive 
topics during the Olympics, saying that coverage of ``all food 
safety issues . . . is off-limits.'' \51\
    China's food safety and product quality problems do not 
stem from a failure to legislate on the issue, but rather from 
duplicative legislation and ineffective implementation. China's 
legislation on the issue includes, for example, the Food 
Hygiene Law, Product Quality Law, Agricultural Product Quality 
Safety Law, Consumer Rights Protection Law, State Council Rules 
on Strengthening Supervision and Management of Food Safety, and 
National Plan for Major Food Safety Emergencies. These laws and 
regulations create overlapping portfolios and less than clear 
lines of responsibility among multiple regulatory actors, 
including the State Administration for Industry and Commerce, 
the State Food and Drug Administration, the General 
Administration of Quality Supervision, Inspection and 
Quarantine, the Standardization Administration, the Ministry of 
Health, the Ministry of Agriculture, and the Ministry of 
Commerce. A new draft Food Safety Law that aims to consolidate 
the regulatory and legislative landscape governing food safety 
and product quality, and that provides for penalties up to life 
imprisonment, was released for comment in April 2008,\52\ and 
debated in August 2008.\53\ It is now reportedly being 
revisited in light of the present food safety crisis.

                           LAND AND PROPERTY

    Arable land is perhaps China's most important non-renewable 
resource. But it is rapidly shrinking as a result of 
urbanization and the conversion of farmland to industrial use. 
Land-use efficiency and the conservation of undeveloped land 
have motivated the government's efforts in the last year to 
clarify procedures concerning interests in land and related 
property. The PRC Property Law, which took effect on October 1, 
2007, consolidated China's various laws affecting both public 
and private property. Property in China heretofore had been 
governed by a diffuse network of legal provisions distributed 
across several laws (primarily the General Principles of Civil 
Law, the Land Administration Law, the Urban Real Estate 
Administration Law, the Law on Rural Land Contracting, and the 
Securities Law). [See the Commission's 2007 Annual Report for 
discussion of the Property Law.\54\]
    New Land Registration Measures,\55\ which were issued in 
December 2007, and took effect February 1, 2008, effectively 
serve as 
implementation rules for key provisions in the Property 
Law.\56\ Under Land Registration Rules issued in 1995, there 
were separate registration systems, at separate government 
departments for buildings and the land on which they were 
built. Property disputes and illegal property transfers have 
been attributed to the confusion caused by this dual-
registration system. The new Land Registration Measures address 
the confusion prompted by the dual-registration system by 
requiring that registration of both buildings and land now be 
handled by a single local government authority.\57\ This is 
significant in part because, under Article 16 of the Property 
Law, registration is the method through which interests in land 
are created.\58\ Another significant related development in the 
last year was the implementation of the PRC Urban and Rural 
Planning Law, issued in October 2007, and effective January 1, 
2008,\59\ replacing the PRC Urban Planning Law.\60\ The new 
Urban and Rural Planning Law brings rural land within China's 
land planning system, such that all rural land use now must 
comply with official government planning department plans. 
Finally, in June, the Supreme People's Court published a draft 
judicial interpretation of the PRC Property Law for public 
comment.\61\

                          EXCHANGE RATE POLICY

    The Articles of Agreement of the International Monetary 
Fund (IMF) state that ``each member shall . . . avoid 
manipulating exchange rates or the international monetary 
system in order to prevent effective balance of payments 
adjustment or to gain an unfair competitive advantage over 
other members.'' \62\ While the yuan has appreciated against 
the dollar since mid-2005, it remains significantly 
undervalued. The United States and other IMF members have 
continued to urge China to change its exchange rate policy. 
Some prominent economists and former IMF officials have taken 
the view that ``China's exchange rate and related policies are 
in clear violation of Article IV Section 1(iii) [of the IMF 
Articles of Agreement].'' \63\ The Deputy Director of the Asia 
and Pacific Department of the IMF has concluded that, 
``[b]ecause China has persisted in heavily managing its 
exchange rate, it has created for itself a major problem with 
macroeconomic control.'' \64\ China's regular intervention in 
the exchange market to resist appreciation of the yuan has been 
``persistent, one-way, and growing in size,'' according to 
leading economists who gathered in Washington, DC, to debate 
China's exchange rate policy in October 2007.\65\

                         ENTERPRISE INCOME TAX

    The new PRC Enterprise Income Tax Law, issued in March 
2007, and Implementing Regulations issued in December 2007, 
both took effect on January 1, 2008. The new law consolidates 
the two tax regimes set forth under the PRC Foreign Investment 
Enterprise and Foreign Enterprise Law (1991) and the Interim 
Measures of Enterprise Income Tax (1993).\66\ Until now, 
separate tax regimes for domestic and foreign invested 
enterprises had been an important part of China's overall 
scheme for attracting foreign investment. The new Enterprise 
Income Tax Law's regime is more industry focused. Industry-
based incentives favor companies engaged in advanced 
technology, environmental protection, agriculture, utilities, 
water conservation, high technology, forestry, animal 
husbandry, fisheries and infrastructure construction, venture 
capital, and enterprises supporting disadvantaged groups.\67\

------------------------------------------------------------------------
                              WTO Disputes
-------------------------------------------------------------------------
  To date, China has been respondent in 11 World Trade Organization
 (WTO) dispute cases, and complainant in 3 cases.\68\ The following
 provides an overview of ongoing WTO disputes filed against China.

Automobile Parts

  On July 18, 2008, following complaints by the European Communities,
 the United States, and Canada regarding China's legal and
 administrative measures affecting imports of automobile parts, the WTO
 Dispute Resolution Body (DSB) ruled against China, in its first legal
 defeat since its accession to the WTO.\69\ The panel found that Chinese
 measures ``accord imported auto parts less favorable treatment than
 like domestic auto parts.'' \70\ Specifically, Chinese tax measures on
 imported auto parts were found to result in unfair competition and
 violated international trade rules. China appealed the ruling in
 September 2008.\71\

Publications and Audiovisual Entertainment Products

  In March 2008, the WTO Director-General composed a dispute-settlement
 panel in relation to a dispute in which the United States challenged
 legal and administrative measures issued by the Chinese government that
 ``restrict trading rights with respect to imported films for theatrical
 release, audiovisual home entertainment products (e.g., video cassettes
 and DVDs), sound recordings and publications (e.g., books, magazines,
 newspapers, and electronic publications)''; and ``certain measures that
 restrict market access for, or discriminate against, foreign suppliers
 of distribution services for publications and foreign suppliers of
 audiovisual services (including distribution services) for audiovisual
 home entertainment products.'' \72\ The panel announced on September
 22, 2008, that it expects to issue its final report in February
 2009.\73\
------------------------------------------------------------------------


------------------------------------------------------------------------
                         WTO Disputes--Continued
-------------------------------------------------------------------------
Financial Information Services

  Also in March 2008, the United States and European Union requested
 consultations in a dispute pertaining to several legal and
 administrative measures issued by the Chinese government that empower
 China's state-run Xinhua News Agency to act as the regulatory and
 approval authority for foreign news agencies and for foreign financial
 information providers in China.\74\ Xinhua requires foreign suppliers
 to operate in China only through agents designated by Xinhua, and does
 not permit them directly to solicit subscriptions for their services in
 China.\75\ The measures in dispute have permitted Xinhua to designate a
 branch of Xinhua as the only agent, and to make the renewal of foreign
 financial information suppliers' licenses conditional upon the
 signature of agent agreements with the Xinhua branch. The measures also
 have permitted Xinhua to require, as a condition of license renewal,
 the release by foreign suppliers of detailed and confidential
 information concerning their financial information services and their
 customers and detailed information regarding their financial
 information services contracts with foreign suppliers.
  The United States, European Union, and Canada contend that individuals
 within Xinhua appear to be participants in Xinhua's commercial
 activities that compete with foreign service suppliers, and that
 ``China thus appears to have failed to provide a regulatory authority
 that is separate from and not accountable to a service supplier that
 authority regulates.'' Because the Chinese measures impose market
 access restrictions and discriminatory requirements on foreign firms in
 China, the United States contends China has failed to live up to its
 commitments under various provisions of the General Agreement on Trade
 in Services, the WTO's Trade-Related Aspects of Intellectual Property
 Rights Agreement, and China's Protocol of Accession.\76\ Canada
 requested consultations in a similar dispute in June 2008,\77\ which
 the United States requested to join in July 2008.\78\

Intellectual Property

  In December 2007, the WTO Director-General composed a panel in
 relation to a dispute in which the United States challenged
 deficiencies in China's intellectual property rights (IPR) protection
 and enforcement regime attributable to weaknesses in China's legal
 institutions and systems of policy implementation.\79\ The DSB expects
 to issue a Panel Report in this dispute in November 2008.\80\ [See
 Intellectual Property in this section above.]
------------------------------------------------------------------------


------------------------------------------------------------------------
                         WTO Disputes--Continued
-------------------------------------------------------------------------
Subsidies

  In July 2007, the United States and Mexico requested the establishment
 of a panel to review Chinese export and import-substitution subsidies
 prohibited by WTO rules.\81\ The United States and Mexico alleged that
 a number of legal and administrative measures issued by the Chinese
 government provide refunds, reductions, or exemptions to enterprises in
 China on the condition that those enterprises purchase domestic over
 imported goods, or on the condition that those enterprises meet certain
 export performance criteria.\82\ In December 2007, China and the United
 States informed the WTO's Dispute Settlement Body (DSB) that they had
 reached an agreement in this dispute, in the form of a memorandum of
 understanding.\83\ In February 2008, China and Mexico informed the DSB
 that they also had reached an agreement in a similar dispute.\84\
------------------------------------------------------------------------

         ADDENDUM: U.S. JOINT COMMISSION ON COMMERCE AND TRADE

    On September 15-16, 2008, U.S. Commerce Secretary Carlos M. 
Gutierrez and U.S. Trade Representative Susan C. Schwab, 
together with Chinese Vice Premier Wang Qishan, held the 19th 
U.S.-China Joint Commission on Commerce and Trade (JCCT) at the 
Richard M. Nixon Presidential Library and Museum in Yorba 
Linda, California. U.S. Secretary of Agriculture Ed Schafer 
also participated. This meeting marked the 25th anniversary of 
the founding of the JCCT in 1983. The JCCT is a high-level 
government-to-government forum for addressing trade and 
investment issues. At the 19th JCCT, a number of agreements 
were reached on issues of concern to American businesses in 
several areas including intellectual property rights (IPR) 
protection, healthcare, 
agriculture, and information security, among others. On IPR 
protection, China and the United States agreed to continue 
pursuing cooperative activities on such issues as: IPR and 
innovation, including China's development of guidelines on IPR 
and standards; public-private discussions on copyright and 
Internet piracy challenges, including infringement on user-
generated content sites; reducing the sale of pirated and 
counterfeit goods at wholesale and retail markets; and other 
issues of mutual interest. On healthcare, China agreed to 
remove remaining redundancies in testing and certifying 
imported medical devices, and the United States and China 
agreed to continue cooperation to close loopholes that allow 
the sale of bulk chemicals to downstream drug counterfeiters. 
On agriculture, China lifted avian influenza-related bans on 
poultry imports from six U.S. states--Connecticut, Nebraska, 
New York, Pennsylvania, Rhode Island, and West Virginia--and 
agreed to work jointly to address remaining bans on poultry 
from Virginia and Arkansas; and China agreed to immediately 
allow seven U.S. poultry processing plants to resume exports to 
China. On information security, China announced that it will 
delay publication of final rules on information security 
certification that would have potentially barred several types 
of U.S. products from China's market, pending further mutual 
discussion of issues related to information security.\85\

                           Access to Justice


                              INTRODUCTION

    Chinese citizens continue to face obstacles in seeking 
remedies to government actions that violate their legal rights. 
External government and Communist Party controls continue to 
limit the independence of the judiciary. During the past year, 
local government and Party officials have stepped up the 
intimidation and harassment of human rights lawyers and 
advocates, and lawyers have been pressured not to take on 
``sensitive'' cases.
    Chinese law includes judicial and administrative mechanisms 
that allow citizens to challenge government actions, including 
administrative litigation in courts and administrative 
reconsideration in government agencies. Chinese law also 
permits citizens to petition the government through the xinfang 
(``letters and visits'') system. Chinese authorities, however, 
impose punishments on local 
officials based on the mere existence of petitions in their 
jurisdiction. Local officials face heavier punishments for 
petitions involving greater numbers of people and petitions 
directed at higher levels, creating an incentive for 
petitioners to organize large-scale petitions to pressure local 
officials to act. At the same time, it gives local authorities 
an interest in suppressing mass petitions and preventing 
petitioners from approaching higher authorities.\1\

       INTERNATIONAL HUMAN RIGHTS STANDARDS AND ACCESS TO JUSTICE

    International human rights standards require effective 
remedies for official violations of citizen rights. Article 8 
of the Universal Declaration of Human Rights provides: 
``Everyone has the right to an effective remedy by the 
competent national tribunals for acts violating the fundamental 
rights granted him by the constitution or by law.'' \2\ Article 
2 of the International Covenant on Civil and Political Rights 
(ICCPR) requires that all parties to the ICCPR ensure that 
persons whose rights or freedoms are violated ``have an 
effective remedy, notwithstanding that the violation has been 
committed by persons acting in an official capacity.'' \3\

        ACCESS TO LEGAL REPRESENTATION AND HARASSMENT OF LAWYERS

    China's Measures on the Payment of Litigation Costs\4\ 
lowered litigation fees, and the Measures for the 
Administration of Lawyers' Fees\5\ helped to regulate price 
gouging by attorneys. At the same time that China has promoted 
efforts to expand legal assistance to citizens, however, the 
government also has harassed, intimidated, or detained lawyers 
and other human rights defenders who challenge government 
abuses. As shown by an extensive study conducted by Human 
Rights Watch, violence and intimidation by the Chinese 
government and Communist Party directed against lawyers has 
become extreme.\6\
    Criminal defense lawyers are vulnerable to prosecution for 
the crime of ``falsifying evidence'' under Article 306 of the 
Criminal Law, which Human Rights Watch observes has been used 
to intimidate and threaten lawyers.\7\ Criminal defense lawyers 
also face significant obstacles in representing their clients, 
including lack of access to detained suspects and defendants, 
lack of access to case files, and limitations on their ability 
to collect evidence.\8\ [See Section II--Rights of Criminal 
Suspects and Defendants.] The legal profession is not 
independent, and the Ministry of Justice has authority over 
lawyers, law firms, and bar associations.\9\ Government 
authorities have used their control over the annual renewal of 
lawyers' licenses to punish and intimidate lawyers who take on 
sensitive cases.\10\
    For example, according to Chinese Human Rights Defenders 
(CHRD), 30 Tibetans who were detained and tried in April 2008 
after the March protests were denied their right to have legal 
assistance of their own choosing.\11\ Twenty-one lawyers who, 
in an open letter posted on the Internet, had volunteered free 
legal representation to detained Tibetans, received warnings 
from Chinese authorities not to take on such cases.\12\ The 
Tibetan defendants were reportedly represented by government-
appointed attorneys at trial.\13\ Teng Biao, a well-known legal 
activist and law professor, told the South China Morning Post, 
``The relatives of the defendants [were] under even bigger 
pressure than us. They didn't dare to come to us.'' \14\ CHRD 
reported that most of the 21 lawyers were summoned by 
authorities for questioning and threatened with punishment if 
they persisted in attempting to represent the Tibetans.\15\ 
Many were placed under police surveillance, and the process for 
annual renewal of their lawyers' licenses (usually completed by 
the end of May) was suspended.\16\ All of the lawyers except 
Teng Biao eventually had their licenses renewed.\17\ Teng Biao 
told Agence France-Presse in early June that he believed the 
authorities refused to renew his license not only because of 
his role in the offer to provide free legal representation to 
the Tibetans but also for his other human rights defense 
work.\18\

------------------------------------------------------------------------
               Lawyers Told Not To Take Tainted Milk Cases
-------------------------------------------------------------------------
  Chinese authorities are preventing citizens with grievances related to
 tainted milk products from using the judicial system to seek redress.
 They have invoked the importance of ``maintaining social stability'' in
 seeking to thwart efforts to organize large groups of angry citizens
 through collective lawsuits.\19\
  By early October, more than 100 lawyers nationwide had joined forces
 to offer free legal aid to the parents of babies who had fallen sick
 from tainted milk.\20\ Many of the lawyers have been pressured to
 withdraw from the group.\21\ Judicial authorities in Henan, for
 example, have pressured more than 20 Henan lawyers to rescind their
 offers to assist the parents.\22\ One of the lawyers, Chang Boyang,
 told the Associated Press that he was informed that if he did not
 withdraw, he and his firm would be ``dealt with.'' \23\ Judicial
 authorities in some provinces have told volunteer lawyers that
 litigation could lead to ``social unrest.'' \24\
------------------------------------------------------------------------


------------------------------------------------------------------------
         Lawyers Told Not To Take Tainted Milk Cases--Continued
-------------------------------------------------------------------------
  Li Fangping, one of the lead attorneys organizing the effort, told the
 Chinese financial magazine Caijing that because courts are permitted
 not to accept lawsuits on ``social stability'' grounds, filing a
 lawsuit for damages relating to public incidents presents a
 challenge.\25\ Li was urged by the government-controlled Beijing
 Lawyers' Association ``to put faith in the party and government.'' \26\
 By the middle of October, three individual lawsuits had been filed
 separately on behalf of infants who had become sick or died from being
 fed melamine-tainted milk in Guangdong, Gansu, and Henan provinces.\27\
 The Guangzhou Intermediate People's Court refused to receive the
 lawsuit, and instead treated it as a petition.\28\ The court in Gansu
 province stated that it could not accept the case until it had further
 direction from above.\29\ The first lawsuit against Sanlu, the Chinese
 dairy products company at the center of the tainted milk powder crisis,
 was filed on September 22 in Henan province; a month later the court
 still had not announced whether it would accept the case, exceeding the
 seven-day time limit set forth in the PRC Civil Procedure Law for
 determining whether to accept or reject a case.\30\ Parents and lawyers
 have reportedly been informed by government authorities that the
 parents' claims can be handled through out-of-court compensation.\31\
------------------------------------------------------------------------

           JUDICIAL AND ADMINISTRATIVE REVIEW OF STATE ACTION

    Chinese law provides methods for citizens to seek a remedy 
when they believe the government has violated their rights. 
These 
methods allow Chinese citizens limited legal recourse against 
individual officials or local governments who exceed their 
authority.\32\ Under the Administrative Reconsideration Law 
(ARL), Chinese citizens may submit an application to an 
administrative agency for 
administrative review of specific government actions.\33\ Under 
the Administrative Litigation Law (ALL), citizens may file a 
lawsuit in a people's court to challenge certain government 
actions.\34\ The State Compensation Law authorizes citizens to 
seek compensation for illegal government acts along with an ARL 
or ALL action, or present their claims directly to the relevant 
government bureau.\35\ Citizens face obstacles, however, in 
filing suits against local officials or government entities, 
particularly in ``sensitive'' cases. Earlier this year, courts 
in Sichuan refused to hear cases against local officials 
brought by parents of children who were killed in school 
collapses during the May 12 Sichuan earthquake.\36\

                          CITIZEN PETITIONING

    Since the 1950s, xinfang (``letters and visits'') offices 
have been an avenue outside the judicial system for citizens to 
present their grievances.\37\ Under the 2005 National 
Regulations on Letters and Visits, citizens may ``give 
information, make comments or suggestions, or lodge 
complaints'' to xinfang bureaus of local governments and their 
departments.\38\ Although Chinese citizens have a legal right 
to petition and there is an extensive ``letters and visits'' 
bureaucracy to handle petitions, the reality is that 
``officials at all levels of government have a vested interest 
in preventing petitioners from speaking up about mistreatment 
and injustices they have suffered.'' \39\
    In its last Annual Report, the Commission noted the large 
``clean- up'' operation of petitioners in Beijing, which 
resulted in the detention of over 700 individuals, in advance 
of the annual March meeting of the National People's 
Congress.\40\ As Human Rights Watch suggested, this roundup of 
petitioners was a ``grand rehearsal'' for the 2008 Beijing 
Summer Olympic Games.\41\ Chinese Human Rights Defenders 
concluded in March 2008 that ``illegal interception and 
arbitrary detention of petitioners'' had become ``more 
systematic and extensive'' during the past year, particularly 
in Beijing in the run-up to the Olympics.\42\ [See Section II--
Rights of Criminal Suspects and Defendants, for a discussion of 
the ``black jails'' used in Beijing and elsewhere to detain 
petitioners.]

                               PROSPECTS

    Prospects for improved access to justice in China have 
dimmed during the last year due to the Chinese government's 
failure to afford basic legal protections to protesters, the 
Beijing Olympic Games organizers' decision to bar petitioners 
from Beijing,\43\ the politicization of the courts and 
continuing problems with corruption,\44\ and ongoing harassment 
and intimidation of lawyers.\45\
    After the earthquake in Sichuan, the Supreme People's Court 
(SPC) quickly issued a ``Circular on Completing Judicial Work 
During the Earthquake Disaster Relief Period to Earnestly 
Safeguard Social Stability in the Disaster Area.'' \46\ The 
Circular calls on judges to ``make best efforts to use 
mediation or reconciliation through the withdrawal of charges 
as the method to resolve disputes.'' \47\ Like the Emergency 
Response Law that took effect in November 2007,\48\ the 
emphasis appears to be on preventing isolated events from 
blossoming into national problems.
    During the past year, Hu Jintao's administration appears to 
have enhanced the Communist Party's control over the 
judiciary.\49\ President Hu has ordered the courts, 
procuratorates, and public security bureaus to uphold the 
``three supremes''--the Party's cause, the people's interest, 
and the constitution and laws.\50\ Wang Shengjun, the new 
president of the Supreme People's Court (SPC), has instructed 
courts to study the ``three supremes.'' Wang--who did not 
attend law school and has no experience as a judge, prosecutor, 
lawyer, or legal scholar--appears to have been selected not for 
his law credentials, but because he is a ``trusted party 
functionary.'' \51\ Where Wang Shengjun's predecessor Xiao Yang 
was a distinguished legal scholar and prosecutor before 
becoming president of the SPC, Wang rose to his new position 
through the public security and political-legal affairs 
apparatus.\52\ Wang previously was the head of the Anhui 
provincial public security department and was promoted to the 
Central Political and Legal Affairs Committee in 1993.\53\
    In February, the PRC State Council issued a white paper 
titled, ``China's Efforts and Achievements in Promoting the 
Rule of Law,'' which noted the damage that official corruption 
has caused to the development of China's legal system.\54\ The 
conclusion of the rule of law white paper states in part:

        China's legal construction is still facing some 
        problems: The development of democracy and the rule of 
        law still falls short of the needs of economic and 
        social development; the legal framework . . . calls for 
        further improvement; in some regions and departments, 
        laws are not 
        observed, or strictly enforced, violators are not 
        brought to justice; local protectionism, departmental 
        protectionism and difficulties in law enforcement occur 
        from time to time; some government functionaries take 
        bribes and bend the law, abuse their power when 
        executing the law, abuse their authority to override 
        the law, and substitute their words for the law, thus 
        bringing damage to the socialist rule of law. . . .\55\

    During the past year, the Chinese leadership has stepped up 
its efforts to rein in official corruption. In September 2007, 
the government established its first National Bureau of 
Corruption Prevention.\56\ The Web site of the new 
anticorruption bureau reportedly crashed only a day or two 
after its roll-out, overwhelmed by the large number of people 
attempting to log on to register complaints.\57\ This June, the 
Party announced its first five-year plan to prevent and punish 
corruption.\58\
    The outgoing top prosecutor told the National People's 
Congress (NPC) this March that during the past five years 
nearly 14,000 officials at or above the county level were 
investigated for embezzlement, bribery, or misappropriation of 
public funds--of these, 35 officials were at the provincial or 
ministerial level and 930 at the municipal level.\59\ Xiao 
Yang, the former president of the Supreme People's Court, told 
the NPC this March that court trials involving corruption cases 
during the past five years were up more than 12 percent 
compared with the previous five years.\60\ Moreover, during 
2008, there was a spate of high-profile corruption 
investigations and trials, including the conviction in April of 
former Shanghai Party chief and Politburo member Chen Liangyu, 
who was sentenced to 18 years in prison for bribery and abuse 
of power in connection with the Shanghai pension fund 
scandal.\61\
    At the March 2007 NPC session, Xiao Yang stated that he had 
continuing fears about the ``grave situation'' of judicial 
corruption.\62\ In March 2008, Xiao Yang reported that during 
the previous year 218 judges had been punished for abuse of 
judicial power and 
corruption.\63\ In October 2008, a vice president of the 
Supreme People's Court, Huang Songyou, was placed under Party 
``double regulation'' (shuanggui) for his alleged role in a 
corruption scandal 
involving a former top official at the Guangdong High People's 
Court.\64\ [See Section II--Rights of Criminal Suspects and 
Defendants--Shuanggui: Extralegal Detention of Party Members.]

                              IV. Xinjiang


      Human Rights Abuses in the Xinjiang Uyghur Autonomous Region


                              INTRODUCTION

    Human rights abuses in the Xinjiang Uyghur Autonomous 
Region (XUAR) remain severe, and repression increased in the 
past year. As detailed by the Commission in past Annual 
Reports,\1\ the government uses anti-terrorism campaigns as a 
pretext for enforcing repressive security measures and for 
controlling expressions of religious and ethnic identity, 
especially among the ethnic Uyghur population, within which it 
alleges the presence of separatist activity. It enforces 
``strike hard'' anti-crime campaigns against the government-
designated ``three forces'' of terrorism, separatism, and 
extremism to imprison Uyghurs for peaceful expressions of 
dissent, 
religious practice, and other non-violent activities. In the 
past year, the government used these longstanding campaigns as 
a springboard to increase repressive practices amid 
preparations for the 2008 Beijing Summer Olympic Games, reports 
of terrorist activity, and protests among ethnic minorities. In 
the past year, the government also continued to strengthen 
policies aimed at diluting Uyghur ethnic identity and promoting 
assimilation. Policies in areas such as language use, 
development, and migration have disadvantaged local ethnic 
minority residents and have positioned the XUAR to undergo 
broad cultural and demographic shifts in coming decades.
    Government policy in the XUAR violates China's own laws and 
contravenes China's international obligations to safeguard the 
human rights of XUAR residents. The government has failed to 
implement its legally stipulated ``regional ethnic autonomy'' 
system in a manner that provides XUAR residents with meaningful 
control over their own affairs. Instead, authorities exert 
central and local government control at a level antithetical to 
regional autonomy. Government policies violate the basic human 
rights of XUAR residents and have a disparate impact on ethnic 
minorities.\2\

  ANTI-TERRORISM POLICIES, ANTI-CRIME CAMPAIGNS, AND SECURITY MEASURES

    The Chinese government uses anti-terrorism campaigns as a 
pretext for enforcing harsh security policies in the XUAR. In 
the past year the government used security preparations for the 
2008 Beijing Summer Olympic Games, reports of terrorist 
activity, and protests in Tibetan areas of China and within the 
XUAR as platforms for advancing repressive security measures in 
the region. In spring 2008, the Chinese government claimed it 
had broken up three terrorist plots to disrupt the Olympics, as 
well as an attempted terrorist attack on an aircraft. As in the 
past,\3\ however, the government provided scant evidence to 
back up its claims and continued to enforce restrictions on 
free press that hindered efforts to report on the region.\4\ 
During the same period, local governments implemented a series 
of measures to tighten security, restrict religious activity, 
and hinder citizen activism.\5\ In March 2008, authorities in 
Hoten district suppressed demonstrations by Uyghurs calling for 
human rights and detained protesters.\6\ The government 
continued to implement repressive security measures throughout 
the summer, during which time the Olympic torch passed through 
the XUAR in June\7\ and as the government provided limited 
reports of terrorist and criminal activity in the region in 
August.\8\ Measures reported by Chinese government sources or 
overseas observers included wide-scale detentions, inspections 
of households, restrictions on Uyghurs' domestic and 
international travel, controls over Uyghur Web sites, and 
increased surveillance over XUAR religious personnel, mosques, 
and religious practitioners, as well as increased monitoring of 
other populations.\9\ [For more information, see box titled 
Increased Repression in Xinjiang During the Olympics below.] 
Authorities in cities outside of the XUAR also increased 
controls over Uyghur residents leading up to and during the 
Olympics.\10\ In the aftermath of the Olympics, XUAR chair Nur 
Bekri outlined increased measures to ``strike hard'' against 
perceived threats in the region, casting blame on U.S.-based 
Uyghur rights activist Rebiya Kadeer and ``western hostile 
forces.'' \11\ Local governments and other authorities reported 
carrying out propaganda education campaigns, and in September, 
XUAR Communist Party Secretary Wang Lequan described plans to 
launch regionwide anti-separatism education later in the 
year.\12\
    ``Strike hard'' anti-crime campaigns in the region have 
resulted in high rates of incarceration of Uyghurs in the 
XUAR.\13\ Statistics from official Chinese sources indicate 
that cases of endangering state security from the region 
account for a significant percentage of the nationwide total, 
in some years possibly comprising most of the cases in 
China.\14\ In 2007, the head of the Xinjiang High People's 
Court said that the region bears an ``extremely strenuous'' 
caseload for crimes involving endangering state security.\15\ 
In August 2008, Chinese media reported that XUAR courts would 
``regard ensuring [state] security and social stability [as] 
their primary task.'' \16\

------------------------------------------------------------------------
          Increased Repression in Xinjiang During the Olympics
-------------------------------------------------------------------------
  Officials in the Xinjiang Uyghur Autonomous Region (XUAR) reiterated a
 pledge in August 2008 to use harsh security measures to crack down
 against the government-designated ``three forces'' of terrorism,
 separatism, and extremism.\17\ On August 13, Wang Lequan, XUAR
 Communist Party Chair, described the battle against the ``three
 forces'' as a ``life or death struggle'' and pledged to ``strike hard''
 against their activities. XUAR Party Committee Standing Committee
 member Zhu Hailun reiterated the call to ``strike hard'' at an August
 18 meeting. The announcements followed the release of limited
 information on terrorist and criminal activity in the region and came
 amid a series of measures that increased repression in the XUAR. The
 measures build off of earlier campaigns to tighten repression in the
 region, including efforts to tighten control as the Olympic torch
 passed through the region in June. Reported measures implemented in the
 run-up to and during the 2008 Beijing Summer Olympic Games include:
------------------------------------------------------------------------


------------------------------------------------------------------------
     Increased Repression in Xinjiang During the Olympics--Continued
-------------------------------------------------------------------------
  <bullet> Wide-scale Detentions. Authorities have carried out wide-
   scale detentions as part of security campaigns in cities throughout
   the XUAR, according to a report from the Uyghur Human Rights Project.
   Reported measures include ``security sweeps'' resulting in mass
   detentions in the Kashgar area and Kucha county, including blanket
   detentions in Kucha of young people who have been abroad; the
   detention of non-resident Uyghurs in Korla city; the forced return of
   Uyghur children studying religion in another province and their
   detention in the XUAR for engaging in ``illegal religious
   activities''; and the detention of family members or associates of
   people suspected to be involved in terrorist activity.
  <bullet> Restrictions on Uyghurs' Domestic and International Travel.
   Authorities reportedly continued to hold Uyghurs' passports over the
   summer, building off of a campaign in 2007 to confiscate Muslims'
   passports and prevent them from making overseas pilgrimages,
   according to reports from overseas media. Authorities also coupled
   restrictions on overseas travel with reported measures to limit
   Uyghurs' travel within China.
  <bullet> Controls Over Religion. XUAR officials have enforced a series
   of measures that ratchet up control over religious practice in the
   region, according to reports from Chinese and overseas sources.
   Authorities in Yengisheher county in Kashgar district issued
   accountability measures on August 5 to hold local officials
   responsible for high-level surveillance of religious activity in the
   region. Also in August, authorities in Peyziwat county, Kashgar
   district, called for ``enhancing management'' of groups including
   religious figures as part of broader government and Party measures of
   ``prevention'' and ``attack.'' The previous month, authorities in
   Mongghulkure county, Ili Kazakh Autonomous Prefecture, called for
   strengthening management of religious affairs; inspecting all mosques
   and venues for religious activity; curbing ``illegal'' recitations of
   scripture and non-government-approved pilgrimages; and
   ``penetrating'' groups of religious believers to understand their
   ways of thinking. Authorities in Lop county, Hoten district, have
   been forcing women to remove head coverings in a stated effort to
   promote ``women for the new era.'' Authorities have also continued to
   enforce measures to restrict observance of the Muslim holiday of
   Ramadan, which, in 2008, took place in September.\18\
  <bullet> Controls Over Free Expression. Authorities in the XUAR
   ordered some Uyghur Web sites to shut down their bulletin board
   services (BBS) during the Olympics, according to Radio Free Asia. In
   a review of Uyghur Web sites carried out during the Olympics,
   Commission staff found that BBSs on the Web sites Diyarim, Orkhun,
   and Alkuyi had been suspended. The BBS Web page on Diyarim contained
   the message, ``[L]et's protect stability with full strength and
   create a peaceful environment for the Olympic Games[!] Please visit
   other Diyarim pages[.]'' The message on the BBS Web page on Orkhun
   stated, ``Based on the requirements of the work units concerned, the
   Orkhun Uyghur history Web site has been closed until August 25
   because of the Olympic Games.''
------------------------------------------------------------------------


------------------------------------------------------------------------
     Increased Repression in Xinjiang During the Olympics--Continued
-------------------------------------------------------------------------
  <bullet> Inspections of Households in Ghulja. Authorities in the
   predominantly ethnic minority city of Ghulja searched homes in the
   area in July in a campaign described by a Chinese official as aimed
   at rooting out ``illegal activities'' and finding residents living
   without proper documentation, according to Radio Free Asia.
------------------------------------------------------------------------

                    FREEDOM OF RELIGION IN XINJIANG

    The government imposes harsh restrictions over religious 
practice in the XUAR. [For detailed information, see Section 
II--Freedom of Religion--China's Religious Communities--Islam.]

               CONTROLS OVER FREE EXPRESSION IN XINJIANG

    Authorities in the XUAR repress free speech. Authorities 
have levied prison sentences on individuals for forms of 
expression ranging from conducting historical research to 
writing literature. [For more information on these cases, see 
box titled Speaking Out: Uyghurs Punished for Free Speech in 
Xinjiang below.] In August 2008, Mehbube Ablesh, an employee in 
the advertising department at the Xinjiang People's Radio 
Station was fired from her job and detained in apparent 
connection to her writings on the Internet that were critical 
of the government.\19\ The government engages in broad 
censorship of political and religious materials. In 2008, the 
XUAR Propaganda Bureau announced it would make ``illegal'' 
political and religious publications the focal point of its 
campaign to ``Sweep Away Pornography and Strike Down Illegal 
Publications.'' \20\ The focus on religious and political 
materials builds off of earlier campaigns to root out such 
publications.\21\ Also in 2008, officials in Atush city 
reported finding ``illegal'' portraits of Uyghur activist 
Rebiya Kadeer and pictures with religious content.\22\ [For 
more information on Rebiya Kadeer, see box titled The Chinese 
Government Campaign Against Rebiya Kadeer below.] In addition, 
authorities closed some Uyghur-language Internet discussion 
forums during the period of the 2008 Beijing Summer Olympic 
Games.\23\
    Central and local authorities further regulate religious 
expression by controlling the contents of materials published 
by the 
Islamic Association of China, a Communist Party ``mass 
organization'' that, along with local branches, controls Muslim 
practice in China.\24\ Authorities have detained individuals 
for their possession of unauthorized religious texts.\25\

        LANGUAGE POLICY AND ``BILINGUAL'' EDUCATION IN XINJIANG

    In recent years the XUAR government has taken steps to 
diminish the use of ethnic minority languages in XUAR schools 
via 
``bilingual'' and other educational policies that place primacy 
on Mandarin, such as by eliminating ethnic minority language 
instruction or relegating it solely to language arts 
classes.\26\ The policies contravene provisions in Chinese law 
to protect ethnic minority languages and promote their use as 
regional lingua franca.\27\ According to reports from official 
Chinese media, by 2006, the number of students receiving 
``bilingual'' education in the XUAR had expanded 50-fold within 
six years.\28\ Although the long-term impact remains unclear, 
sustained implementation of Mandarin-focused ``bilingual'' 
education and other language policies increases the risk that 
Uyghur and other ethnic minority languages are eventually 
reduced to cultural relics rather than actively used languages 
in the XUAR. [For more information on ``bilingual'' education, 
see Addendum: ``Bilingual'' Education in Xinjiang at the end of 
this section.]

------------------------------------------------------------------------
       Speaking Out: Uyghurs Punished for Free Speech in Xinjiang
-------------------------------------------------------------------------
  As detailed by the Commission in past Annual Reports,\29\ Chinese
 authorities have detained or imprisoned ethnic Uyghurs for various
 forms of peaceful expression, including non-violent dissent. Such cases
 include:

  <bullet> Tohti Tunyaz, a Uyghur historian living in Japan whom Chinese
   authorities detained in 1998 while he was visiting the Xinjiang
   Uyghur Autonomous Region (XUAR) to conduct research. He received an
   11-year sentence in 1999 for ``stealing state secrets'' and
   ``inciting splittism,'' based on a list of documents he had collected
   from official sources during the course of his research, and on a
   ``separatist'' book he had allegedly published.\30\
  <bullet> Abduhelil Zunun, who received a 20-year sentence in November
   2001 after translating the Universal Declaration of Human Rights into
   the Uyghur language.\31\
  <bullet> Abdulghani Memetemin, a journalist sentenced to nine years'
   imprisonment in 2003 after providing information on government
   repression against Uyghurs to an overseas organization. Authorities
   characterized this act as ``supplying state secrets to an
   organization outside the country.''
  <bullet> Abdulla Jamal, a teacher arrested in 2005 for writing a
   manuscript that authorities claimed incited separatism.\32\
  <bullet> Nurmemet Yasin, a writer who received a 10-year sentence in
   2005 for ``inciting splittism'' after he wrote a story about a caged
   bird who commits suicide rather than live without freedom.\33\
  <bullet> Korash Huseyin, chief editor of the journal that published
   Yasin's story, who received a three-year sentence in 2005 for
   ``dereliction of duty.'' Huseyin's sentence expired in February 2008,
   and he is presumed to have since been released from prison.\34\
  <bullet> Mehbube Ablesh, an employee in the advertising department at
   the Xinjiang People's Radio Station, who was fired from her job in
   August 2008 and detained in apparent connection to her writings on
   the Internet that were critical of government policies, including
   bilingual education.\35\
------------------------------------------------------------------------

                       CIVIL SOCIETY IN XINJIANG

    XUAR government policy hinders the growth of civil society 
in the region. Authorities have banned gatherings of private 
Islam-centered social groups, which had aimed at addressing 
social problems like drug use and alcoholism.\36\ Fears of 
citizen activism have prompted the suppression of locally led 
political movements, including demonstrations in Hoten district 
in March led by women protesting repressive policies in the 
region.\37\ Government policy in the XUAR also affects the work 
of non-governmental organizations (NGOs) that aim to research 
conditions in the region. In July 2007, authorities in Beijing 
ordered the Beijing-based foreign NGO publication China 
Development Brief to stop publishing its Chinese-language 
edition and accused the English-language editor of having ties 
to Xinjiang ``separatist'' groups.\38\ Though the charge of 
contact with these groups may have served as a cover for other 
motivations for barring the publication,\39\ that authorities 
wield contact with overseas Uyghur organizations as such a 
pretext presents a chilling effect on organizations that 
research the XUAR.\40\ [For more information, see Section III--
Civil Society.]

         MIGRATION AND POPULATION PLANNING POLICIES IN XINJIANG

    While the Commission supports Chinese government 
liberalizations that give citizens more choices to determine 
their places of residence,\41\ the Commission remains concerned 
about government policies that use economic and social 
benefits\42\ to channel migration to the XUAR and engineer 
demographic changes in the region.\43\ The government has 
touted migration policies as a means to promote development and 
ensure ``stability'' and ``ethnic unity.'' \44\ Demographic 
shifts have skewed employment prospects in favor of Han Chinese 
and funneled resources in their favor.\45\ In addition, 
migration also has created heavy social and linguistic 
pressures on local ethnic minority residents.\46\
    The Commission also remains concerned that while the 
government promotes migration to the region,\47\ it implements 
policies that target birth rates among local ethnic minority 
groups to reduce population increases.\48\ In 2008, the 
government reported that the XUAR had achieved 65,000 fewer 
births in 2007 under policies of providing rewards to families 
who had fewer children than legally permitted.\49\ Overseas 
Uyghur rights advocates have reported that authorities have 
carried out forced sterilizations and forced abortions to 
implement population planning policies.\50\

------------------------------------------------------------------------
          The Chinese Government Campaign Against Rebiya Kadeer
-------------------------------------------------------------------------
  The government has waged a longstanding campaign against Uyghur rights
 activist Rebiya Kadeer. Authorities sentenced her in 2000 to eight
 years in prison for ``supplying state secrets or intelligence to
 entities outside China,'' after she sent newspaper clippings to her
 husband in the United States. Kadeer has reported that before her
 release on medical parole in 2005, Chinese authorities threatened
 repercussions against her family members and business interests if she
 discussed Uyghur human rights issues in exile. Soon after Kadeer moved
 to the United States, authorities began a campaign of harassment
 against her family members remaining in the Xinjiang Uyghur Autonomous
 Region (XUAR), culminating in the imprisonment of two of her sons in
 2006 and 2007.\51\
------------------------------------------------------------------------


------------------------------------------------------------------------
    The Chinese Government Campaign Against Rebiya Kadeer--Continued
-------------------------------------------------------------------------
  <bullet> In May 2005, authorities detained Aysham Kerim and Ruzi
   Mamat, two employees at Kadeer's trading company in the XUAR, and
   attempted to take her son, Ablikim Abdureyim, into detention.
   Authorities ransacked the company offices at the same time and
   confiscated documents. Authorities released Aysham Kerim and Ruzi
   Mamat in December 2005, after detaining them for seven months without
   charges.\52\
  <bullet> In August 2005, Radio Free Asia reported that authorities in
   the XUAR had formed a special office to monitor Kadeer's relatives
   and business ties in the XUAR. Around the same time, authorities
   detained two of Kadeer's relatives to pressure them to turn in their
   passports.\53\
  <bullet> In April 2006, authorities held Kadeer's son, Alim Abdureyim,
   in custody and informed him that he was under suspicion for evading
   taxes.\54\
  <bullet> Authorities held Alim in custody again in late May 2006,
   along with his brother, Ablikim, and sister, Roshengul, and
   authorities later placed Alim and Ablikim in criminal detention and
   Roshengul under house arrest. Authorities beat Alim and Ablikim while
   in custody. In June, authorities took their brother Kahar into
   custody as well and charged him with tax evasion, Alim with tax
   evasion and splittism, and Ablikim with subversion of state power.
   Alim reportedly confessed to the charges against him after being
   tortured. During the same period, authorities placed Kadeer's brother
   under house arrest and other family members under surveillance,
   including grandchildren whom authorities prevented from leaving home
   to attend school.\55\
  <bullet> On November 27, 2006, an Urumqi court sentenced Alim to seven
   years in prison and fined him 500,000 yuan (US$62,500) for tax
   evasion. The court imposed a 100,000 yuan (US$12,500) fine on Kahar,
   also for tax evasion. Kadeer described the cases against her sons as
   a ``vendetta'' against her. Sources had informed her that authorities
   would offer leniency to her children if she refrained from
   participating in a November 26 election for presidency of the World
   Uyghur Congress.\56\
  <bullet> An Urumqi court sentenced Ablikim to nine years in prison and
   three years' deprivation of political rights on April 17, 2007, for
   ``instigating and engaging in secessionist activities,'' alleging he
   disseminated pro-secession articles, planned to incite anti-
   government  protest, and wrote an essay misrepresenting human rights
   conditions in the XUAR.\57\ Both Alim and Ablikim remain in prison,
   where they are reported to have been tortured and abused, and where
   Ablikim is reported to be in poor physical health without adequate
   medical care.\58\
------------------------------------------------------------------------

                     DEVELOPMENT POLICY IN XINJIANG

    Development policies in the XUAR have brought mixed results 
for ethnic minority residents. While economic reforms and 
development projects have raised living standards in the 
region,\59\ they also have spurred migration,\60\ strained 
local resources,\61\ and disproportionately benefited Han 
Chinese.\62\ Han benefit through 
development projects focused on Han-majority regions and 
development-related employment prospects that privilege Han 
areas and Han employees.\63\ Development policies in the XUAR 
reflect tight central government control over the region\64\ 
and are intertwined with policies to promote ``social 
stability.'' \65\ In the past year, the government reported on 
development projects directed at improving conditions for 
ethnic minority residents, but the overall impact remains 
unclear.\66\

                      LABOR CONDITIONS IN XINJIANG

    The government enforces repressive labor policies, 
including measures that have a disproportionate negative impact 
on ethnic minorities. While the Chinese government continues to 
fill local jobs in the XUAR with migrant labor, it also 
maintains programs that send young ethnic minorities to work in 
factories in China's interior.\67\ Authorities reportedly have 
coerced participation and subjected workers to abusive labor 
practices.\68\ In addition, in 2007 and 2008, overseas media 
reported that authorities in the XUAR continued to impose 
forced labor on area farmers in predominantly ethnic minority 
regions.\69\ The XUAR government also continues to impose 
forced labor on local students to meet yearly harvesting 
quotas. In 2007, Chinese media reported that work-study 
programs requiring students to pick cotton have decreased in 
recent years, but also reported that some 1 million students 
picked cotton in the region that year.\70\ In addition, both 
public and private employers continue to enforce discriminatory 
job hiring practices that limit job prospects for ethnic 
minorities.\71\ [For more information on labor conditions, see 
Addendum: Labor Conditions in Xinjiang at the end of this 
section.]

                     ACCESS TO JUSTICE IN XINJIANG

    Ethnic minority residents in the XUAR face special barriers 
to accessing China's legal system. In addition to financial 
shortfalls and general personnel shortages, the XUAR judicial 
system lacks a sufficient number of legal personnel and 
translators who speak ethnic minority languages, entrenching 
systemic procedural irregularities into the judicial process 
and undercutting legal bases that guarantee the use of ethnic 
minority languages in judicial proceedings.\72\ [For detailed 
information, see Addendum: Access to Justice in Xinjiang.]

------------------------------------------------------------------------
                 Spotlight: Uyghur Refugees and Migrants
-------------------------------------------------------------------------
  Chinese government repression in the Xinjiang Uyghur Autonomous Region
 (XUAR) has forced some Uyghurs into exile, where, depending on their
 destination or transit country, they face an uncertain legal status,
 barriers to local asylum proceedings, and risk of refoulement to China
 under the sway of Chinese influence and in violation of international
 protections. Uyghur migrants outside the refugee and asylum-seeker
 population also face dangers, as China's increasing influence in
 neighboring countries has made Uyghur migrant communities there
 vulnerable to harassment and to deportation proceedings without
 adequate safeguards. A summary of key concerns follows:\73\

China's Increasing Influence\74\

  <bullet> China has exerted a strong influence on neighboring countries
   through mechanisms including bilateral agreements and the multi-
   country Shanghai Cooperation Organization (SCO).
  <bullet> Under the SCO, member countries agree to cooperate in anti-
   terrorism activities. China has been a key player in advancing
   cooperation and promoting campaigns that use the fight against
   terrorism as a pretext for repressive policies against Uyghurs both
   inside and outside China.

Vulnerabilities Outside China

  <bullet> In some neighboring countries, Uyghurs are unable to apply
   for asylum locally, increasing their vulnerability as they seek other
   forms of protection, such as by applying for refugee status through
   the UN High Commissioner for Refugees (UNHCR) and resettling in a
   third country.\75\

      In one neighboring country, Chinese influence reportedly has
     swayed authorities to block Uyghurs' access to local asylum
     proceedings, while letting asylum seekers of most other
     nationalities apply.
      Access to local asylum proceedings would increase the likelihood
     that authorities safeguard the rights of asylum seekers during the
     refugee status determination process. In one of China's neighboring
     countries, for example, extradition proceedings are suspended for
     individuals who seek asylum locally.

  <bullet> Some countries have extradited Uyghurs with UNHCR refugee
   status to China, where they have faced abuse, imprisonment, and risk
   of execution.\76\ In other cases, the UNHCR has been unable to gain
   access to individuals who want to initiate asylum proceedings,
   including some people who reportedly have been deported to China
   without adequate safeguards.
------------------------------------------------------------------------


------------------------------------------------------------------------
           Spotlight: Uyghur Refugees and Migrants--Continued
-------------------------------------------------------------------------
Violations of International Law
  <bullet> The 1951 Convention Relating to the Status of Refugees\77\
   forbids the return of refugees to ``the frontiers of territories
   where his life or freedom would be threatened on account of his race,
   religion, nationality, membership of a particular social group or
   political opinion.''
  <bullet> Under the Convention Against Torture,\78\ ``No State Party
   shall expel, return (`refouler') or extradite a person to another
   State where there are substantial grounds for believing that he would
   be in danger of being subjected to torture.''
  <bullet> China violates international protections for freedom of
   movement\79\ by denying travel documents to family members of
   refugees who are entitled to derivative refugee status.
------------------------------------------------------------------------

             ADDENDUM: ``BILINGUAL'' EDUCATION IN XINJIANG

    In recent years the XUAR government has taken steps to 
diminish the use of ethnic minority languages via ``bilingual'' 
and other educational policies that place primacy on Mandarin, 
such as by eliminating ethnic minority language instruction or 
relegating it solely to language arts classes.\80\ Authorities 
justify ``bilingual'' education as a way of ``raising the 
quality'' of ethnic minority students and tie knowledge of 
Mandarin to campaigns promoting patriotism and ethnic 
unity.\81\ XUAR Communist Party Secretary Wang Lequan noted in 
2005 that XUAR authorities are ``resolutely determined'' to 
promote Mandarin language use, which he found ``an extremely 
serious political issue.'' \82\ He has also stated that ethnic 
minority languages lack the content to express complex 
concepts.\83\
    XUAR language policies violate Chinese laws that protect 
and promote the use of ethnic minority languages, which form 
part of broader legal guarantees to protect ethnic minority 
rights and allow autonomy in ethnic minority regions. For 
example, Article 4 of the Chinese Constitution and Article 10 
of the Regional Ethnic Autonomy Law (REAL) guarantee that 
ethnic minorities have ``the freedom to use and develop'' their 
languages.\84\ In the area of education, Article 37 of the REAL 
stipulates that ``[s]chools (classes) and other educational 
organizations recruiting mostly ethnic minority students 
should, whenever possible, use textbooks in their own languages 
and use these languages as the media of instruction.'' \85\ 
While educational programs that diminish the use of ethnic 
minority languages respond to a growing need for fluency in 
Mandarin to achieve educational and professional advancement, 
XUAR officials do not acknowledge that the need stems from 
official failures to implement autonomy in ethnic minority 
regions as provided for in Chinese law.\86\
    Government efforts to limit minority language use have 
intensified in recent years, through both ``bilingual'' 
programs and other efforts. In 2004, the XUAR government issued 
a directive to accelerate the development of ``bilingual'' 
education.\87\ According to a 2005 Xinjiang Daily article, many 
``bilingual'' programs have moved from offering only math and 
science classes in Mandarin to teaching the entire curriculum 
in Mandarin, except in classes devoted specifically to 
minority-language study.\88\ In 2006, authorities in the 
predominantly Uyghur city of Atush announced that all first-
grade elementary school classes would teach in Mandarin Chinese 
beginning in September 2006 and that all primary and secondary 
schools would be required to teach exclusively in Mandarin by 
2012.\89\ According to a report from official Chinese media, by 
2006, the number of students receiving ``bilingual'' education 
in the XUAR had expanded 50-fold within six years.\90\ 
According to 2007 figures reported by the Xinjiang Education 
Department, more than 474,500 ethnic minority students in 
preschool, elementary school, and secondary school programs, 
including vocational programs, took classes that employed 
``bilingual education.'' According to the Xinjiang Education 
Department, the figure accounts for almost 20 percent of the 
ethnic minority student population and excludes those students 
studying in longstanding programs that track ethnic minority 
students into Mandarin Chinese schooling.\91\ In contrast, in 
1999, experimental ``bilingual'' classes reportedly reach 2,629 
students through 27 secondary schools.\92\ The government 
prepared a draft opinion in 2008 that details steps to further 
expand ``bilingual'' education.\93\
    Authorities also have limited opportunities for XUAR 
residents to obtain higher education and vocational education 
in ethnic minority languages, thereby diminishing the value of 
ethnic minority languages in XUAR schooling and creating an 
incentive for younger students to study in Mandarin instead of 
ethnic minority languages. In May 2002, the XUAR government 
announced that Xinjiang University would change its medium of 
instruction to Mandarin Chinese in first- and second-year 
classes.\94\ In 2005, authorities announced plans to offer two-
year vocational degrees through programs that offer instruction 
entirely in Mandarin Chinese.\95\ Recruitment materials for 
2007 for the Xinjiang Preschool Teachers College stated that 
all classes offered would be taught in Mandarin.\96\
    XUAR authorities also have expanded ``bilingual'' education 
policies to the preschool level, and provide material 
incentives to 
attract students. Authorities issued an opinion in 2005 to 
bolster ``bilingual'' education in XUAR preschools and prepared 
a draft opinion on further expanding ``bilingual'' education, 
including preschool education, in 2008.\97\ In 2006, official 
media reported the government would invest 430 million yuan 
(US$59.76 million) over five years to support ``bilingual'' 
preschool programs in seven prefectures and would aim to reach 
a target rate of over 85 percent of rural ethnic minority 
children in all counties and municipalities able to enroll in 
two years of ``bilingual'' preschool education by 2010.\98\ The 
following year, the XUAR Department of Finance allotted 70.39 
million yuan (US$9.78 million) to cover 
material subsidies for both students and teachers in 
``bilingual'' preschool programs.\99\ In February 2007, 
authorities in the XUAR implemented a program to send student-
teachers from the Xinjiang Preschool Teachers College to 
preschools in Kashgar prefecture to supplement the area's 
shortage of ``bilingual'' teaching staff, providing financial 
and other incentives to the student-teachers in the 
program.\100\ In 2008, the government appeared to have pushed 
back its timeline for reaching target enrollment rates, while 
investing more money to bring this goal to fruition, perhaps 
signifying a firmer and more realistic commitment to promoting 
``bilingual'' preschool education. The government pledged 3.75 
billion yuan (US$549 million) in 2008 for ``bilingual'' 
preschool education and called for achieving a target rate of 
over 85 percent of ethnic minority children in rural areas 
receiving ``bilingual'' education by 2012.\101\ While the 
current scope of the program's coverage varies by locality, 
news from local governments indicates that ``bilingual'' 
preschool programs are already widespread in some areas.\102\ 
According to 2007 figures from the Xinjiang Education 
Department, 180,458 ethnic minority children received 
``bilingual'' preschool education.\103\
    The government's language policies have impacted ethnic 
minority teachers' job prospects. Ethnic minority teachers who 
do not speak Mandarin must face additional language 
requirements that are not imposed on monolingual Mandarin-
speaking teachers. Teachers have reportedly faced dismissal or 
transfers to non-teaching positions for failure to conform to 
new language requirements.\104\
    The Chinese government's current stance on ``bilingual'' 
education hinders productive dialogue on ways to carry forward 
policies in a manner to protect ethnic minority languages. In 
March 2008, XUAR Chair Nur Bekri described criticisms of 
``bilingual'' education as an attack from the ``three forces'' 
of terrorism, separatism, and extremism operating outside 
China. He also claimed that ``bilingual'' education in the 
region equally valued ethnic minority languages and Mandarin, 
despite evidence of the focus on Mandarin from sources 
including official Chinese media.\105\ 
Although the long-term impact remains unclear, sustained 
implementation of Mandarin-focused ``bilingual'' education and 
other language policies increases the risk that Uyghur and 
other ethnic 
minority languages are eventually reduced to cultural relics 
rather than actively used languages in the XUAR.

                 ADDENDUM: LABOR CONDITIONS IN XINJIANG

                            Labor Transfers

    While the Chinese government continues to fill local jobs 
in the XUAR with migrant labor, it also maintains programs that 
send young ethnic minorities to work in factories in China's 
interior under conditions reported to be abusive. Overseas 
sources indicate that local authorities have coerced 
participation and mistreated workers. According to a 2008 
report issued by an overseas human rights organization, local 
officials, following direction from higher levels of 
government, have used ``deception, pressure, and threats'' 
toward young women and their families to gain recruits into the 
labor transfer program. Women interviewed for the report 
described working under abusive labor conditions after being 
transferred to interior factories through the state-sponsored 
programs.\106\ In 2007, Radio Free Asia (RFA) reported on local 
authorities who recruited women under false pretenses to work 
in Shandong province.\107\

                              Forced Labor

    In 2007 and 2008, overseas media reported that authorities 
in the XUAR continued to impose forced labor on area farmers. 
According to reports from RFA, based on official Chinese 
sources and on information provided through interviews with 
officials and residents in the XUAR, in 2007 authorities in 
Yeken (Yarkand) county required 100,000 farmers to turn 
uncultivated land into a nut production base. The farmers, 
whose work included building roadways, forest belts, and 
irrigation canals, reportedly received no pay for their work. 
One resident interviewed by RFA said that residents who refused 
to do the work were fined for each day of labor missed.\108\ 
The Kashgar district government, which publicized information 
about the land cultivation project, including the scope of 
labor involved and the projects completed, did not describe how 
the labor force was recruited or compensated.\109\ Authorities 
reportedly continued to carry out forced labor in 2008, 
requiring local residents in the southern XUAR to plant trees 
and build irrigation works.\110\

                        ``Work-Study'' Programs

    The XUAR government imposes forced labor on local students 
to meet yearly harvesting quotas. Acting under central 
government authority bolstered by local legal directives, XUAR 
authorities implement the use of student labor, including labor 
by young children, via work-study programs to harvest crops and 
do other work. Students work under arduous conditions and do 
not receive pay for their work. While ``work-study'' programs 
exist elsewhere in China, the XUAR work-study program also 
reflects features unique to the region. The central government 
holds close control over both the general XUAR economy and 
through its directly administered Xinjiang Production and 
Construction Corps farms, where some of the region's cotton is 
harvested. The central government placed special focus on 
supporting the XUAR's cotton industry during its 11th Five-Year 
Program, and central, rather than local, authorities reportedly 
made the decision to launch the comprehensive work-study 
program to pick cotton in the XUAR. In 2007, Chinese media 
reported that work-study programs requiring students to pick 
cotton have decreased in recent years, but also reported that 
some 1 million students picked cotton in the region that 
year.\111\

                ADDENDUM: ACCESS TO JUSTICE IN XINJIANG

    Ethnic minority residents in the XUAR face special barriers 
to accessing China's legal system. In addition to financial 
shortfalls and general personnel shortages, the XUAR judicial 
system lacks a sufficient number of legal personnel and 
translators who speak ethnic minority languages, entrenching 
systemic procedural irregularities into the judicial process 
and presenting barriers to citizens' right to have legal 
proceedings conducted in their native language.\112\ According 
to 2007 reports from the Chinese media, 1,948 of 4,552 judges 
in the XUAR were ethnic minorities, and as of September of that 
year, 380 lawyers, or 17 percent of the region's total, were 
ethnic minorities. The reports did not identify the language 
capabilities of these groups.\113\ A law office reported as 
China's first bilingual operation opened in the XUAR in 
2006.\114\
    Recent measures to address shortcomings in the XUAR 
judicial system may have mixed results in meeting the needs of 
ethnic minority residents. Efforts to dispatch legal workers to 
rural areas may strengthen privilege for Mandarin Chinese if 
new personnel are not required to speak ethnic minority 
languages.\115\ Other steps may bring improvements. In 2007, 
the Ili Lawyers Association in the Ili Kazakh Autonomous 
Prefecture, for example, reportedly encouraged law offices to 
increase efforts to recruit ethnic minority graduates who 
majored in law in college or other higher education 
programs.\116\ In September 2007, the government announced a 
program to train 200 native Mandarin-speaking college students 
each year in ethnic minority languages, with the goal of 
addressing general shortages of interpreters.\117\
    The government ties some judicial reform efforts to 
government campaigns to promote ``stability'' and fight the 
government-designated ``three forces'' of terrorism, 
separatism, and extremism. In August 2007, the Supreme People's 
Court (SPC) announced it had launched a work program to have 
judicial institutions nationwide aid XUAR courts, describing 
having stability in the region as part of its strategy for the 
project.\118\ Jiang Xingchang, vice president of the SPC, said 
that China continued to face plots by ``hostile forces in the 
West'' to westernize and divide China, and that ``religious 
extremism'' and ``international terrorism'' remain ``fully 
active'' in the XUAR, while ethnic separatists inside and 
outside the country continue ``sabotage activities.'' \119\ 
Jiang also stated that personnel of the appropriate political 
mindset should be selected for judicial exchange programs in 
the XUAR.\120\ In August 2008, Chinese media reported that XUAR 
courts would ``regard ensuring [state] security and social 
stability [as] their primary task.'' \121\

                                V. Tibet


                                Findings

        <bullet>  As a result of the Chinese government 
        crackdown on Tibetan communities, monasteries, 
        nunneries, schools, and workplaces following the wave 
        of Tibetan protests that began on March 10, 2008, 
        Chinese government repression of Tibetans' freedoms of 
        speech, religion, and association has increased to what 
        may be the highest level since approximately 1983, when 
        Tibetans were able to set about reviving Tibetan 
        Buddhist monasteries and nunneries.
        <bullet>  The status of the China-Dalai Lama dialogue 
        deteriorated after the March 2008 protests and may 
        require remedial measures before the dialogue can 
        resume focus on its principal objective--resolving the 
        Tibet issue. China's leadership blamed the Dalai Lama 
        and ``the Dalai Clique'' for the Tibetan protests and 
        rioting, and did not acknowledge the role of rising 
        Tibetan frustration with Chinese policies that deprive 
        Tibetans of rights and freedoms nominally protected 
        under China's Constitution and legal system. The Party 
        hardened policy toward the Dalai Lama, increased 
        attacks on the Dalai Lama's 
        legitimacy as a religious leader, and asserted that he 
        is a criminal bent on splitting China.
        <bullet>  State repression of Tibetan Buddhism has 
        reached its highest level since the Commission began to 
        report on religious freedom for Tibetan Buddhists in 
        2002. Chinese government and Party policy toward 
        Tibetan Buddhists' practice of their religion played a 
        central role in stoking frustration that resulted in 
        the cascade of Tibetan protests that began on March 10, 
        2008. Reports have identified hundreds of Tibetan 
        Buddhist monks and nuns whom security officials 
        detained for participating in the protests, as well as 
        members of Tibetan secular society who supported them.
        <bullet>  Chinese government interference with the 
        norms of Tibetan Buddhism and unrelenting antagonism 
        toward the Dalai Lama, one of the religion's foremost 
        teachers, serves to deepen division and distrust 
        between Tibetan Buddhists and the government and 
        Communist Party. The government seeks to use legal 
        measures to remold Tibetan Buddhism to suit the state. 
        Authorities in one Tibetan autonomous prefecture have 
        announced unprecedented measures that seek to punish 
        monks, nuns, religious teachers, and monastic officials 
        accused of 
        involvement in political protests in the prefecture.
        <bullet>  The Chinese government undermines the 
        prospects for stability in the Tibetan autonomous areas 
        of China by implementing economic development and 
        educational policy in a manner that results in 
        disadvantages for Tibetans. Weak implementation of the 
        Regional Ethnic Autonomy Law has been a principal 
        factor exacerbating Tibetan frustration by preventing 
        Tibetans from using lawful means to protect their 
        culture, language, and religion.
        <bullet>  At no time since Tibetans resumed political 
        activism in 1987 has the magnitude and severity of 
        consequences to Tibetans (named and unnamed) who 
        protested against the Chinese government been as great 
        as it is now upon the release of the Commission's 2008 
        Annual Report. Unless Chinese authorities have released 
        without charge a very high proportion of the Tibetans 
        reportedly detained as a result of peaceful activity or 
        expression on or after March 10, 2008, the resulting 
        surge in the number of Tibetan political prisoners may 
        prove to be the largest increase in such prisoners that 
        has occurred under China's current Constitution and 
        Criminal Law.

        INTRODUCTION: TIBETAN PROTESTS ON AN UNPRECEDENTED SCALE

    The Tibet section of the 2008 Annual Report focuses on the 
unprecedented cascade of Tibetan protests that began in Lhasa 
on March 10, 2008,\1\ and by the end of March had swept across 
much of the ethnic Tibetan areas of China.\2\ No peacetime 
Chinese government\3\ has been confronted by expressions of 
Tibetan discontent as widely dispersed and sustained since the 
Chinese Communist Party established the People's Republic of 
China in 1949. Two key factors distinguish the current protests 
from the March 10, 1959, Lhasa uprising that followed the Dalai 
Lama's escape from Tibet, and the March 5-7, 1989, protests and 
rioting that led to the imposition of martial law in Lhasa. 
First, the 2008 protests spread far beyond Lhasa and the Tibet 
Autonomous Region (TAR). Second, protests continued to occur 
even after Chinese security forces established and maintained 
lockdowns.
    As a result of the Chinese government crackdown beginning 
in March 2008 on Tibetan communities, monasteries, nunneries, 
schools, and workplaces, the repression of the freedoms of 
speech, religion, and association has increased to what may be 
the highest level since approximately 1983, when Tibetans were 
able to set about reviving Tibetan Buddhist monasteries and 
nunneries.\4\ The Commission has reported since releasing its 
first Annual Report in 2002 on underlying human rights issues 
that played important roles in the 2008 Tibetan protests.\5\ 
The Commission's 2007 Annual Report observed that then-
declining numbers of political detentions of monks and nuns 
showed that state repression of Tibetan Buddhism may have 
resulted in a more subdued monastic community--and that such a 
decline concurrent with a high level of monastic resentment 
against Chinese policies suggested that the potential for 
resurgent political protest exists.
    Tibetan protesters resorted to rioting in a total of 12 
county-level areas, according to official Chinese media 
reports,\6\ but Tibetan protests (generally peaceful) took 
place in more than 40 additional county-level areas.\7\ China's 
state-run media generally reported only the protests during 
which some Tibetans turned to violence, and characterized all 
of the participants linked to such events as ``rioters.'' 
Rioting took place in Lhasa city on March 14,\8\ in Aba (Ngaba) 
county, Aba Tibetan and Qiang Autonomous Prefecture, Sichuan 
province, on March 16,\9\ and in six counties in Gannan 
(Kanlho) Tibetan Autonomous Prefecture, Gansu province, from 
March 14-19.\10\ International media and non-governmental 
organization reports noted that Tibetans attacked ethnic Han 
and Hui individuals and businesses.\11\ The Lhasa rioting 
resulted in substantial property damage and at least 19 deaths, 
according to official reports; the actual death toll could be 
much higher (see Consequences of the Protests: Death, 
Detention, Patriotic Education, Isolation in this section).\12\ 
[See figure titled Map of Tibetan Protest Sites, County-level 
Areas below and Addendum: List of Tibetan Protest Sites, 
County-level Areas at the end of this section.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Peaceful Tibetan protesters called for Tibetan 
independence, the Dalai Lama's return to Tibet,\13\ the release 
of the Panchen Lama,\14\ and freedom of religion generally.\15\ 
Many, but not all, of the protests began at Tibetan Buddhist 
monasteries and nunneries,\16\ the institutions impacted most 
negatively by Chinese government regulation of Tibetan Buddhism 
and Party policy toward the Dalai Lama, whom most Tibetan 
Buddhists regard as their spiritual leader.\17\ Monastic 
protests gained support from members of Tibetan secular 
society.\18\ The large scale of Tibetan participation in the 
protests--at substantial peril to the protesters--reflects the 
urgency of the underlying issues and the imperative for Chinese 
authorities and Tibetans to work together to resolve them.

          TIBETAN FRUSTRATION: FACTORS UNDERLYING THE PROTESTS

    China's leadership blamed the Dalai Lama and ``the Dalai 
Clique'' for the Tibetan protests and rioting in the run-up to 
the 2008 Beijing Summer Olympic Games,\19\ and did not 
acknowledge the role of rising Tibetan frustration with Chinese 
policies toward Tibetans. A senior TAR Party official used 
language that attributed directly to the Dalai Lama violent 
activity during rioting such as ``beating, smashing, looting, 
and burning.'' \20\
    Chinese government policies that deprive Tibetans of rights 
and freedoms nominally protected under China's Constitution and 
legal system have been the root cause of the protests and 
riots. Party control over China's legislative, governmental, 
and policymaking process, as well as contradictory provisions 
in Chinese laws and regulations, support the government's 
unrestricted ability to implement unpopular programs among 
Tibetans. Heightened state interference with Tibetan Buddhist 
norms since 2005 has left the 
religion especially hard-hit.\21\ [See Heightened Repression of 
Tibetan Buddhism in this section.] The unproductive dialogue 
between Chinese officials and the Dalai Lama's representatives, 
along with the lurid invective of the Party's anti-Dalai 
campaign, frustrate Tibetan hopes for improved relations with 
the Chinese government, and strike at Tibetan sensibilities.

                      Policy Toward the Dalai Lama

    The Party hardened policy toward the Dalai Lama in the wake 
of the Tibetan protests, increasing attacks on the Dalai Lama's 
legitimacy as a religious leader, and asserting that he is a 
criminal bent on splitting China.\22\ ``Even the Lord Buddha 
will definitely not tolerate this honey-mouthed and dagger-
hearted Dalai Lama, the scum of Buddhism, an insane ruffian and 
a beast in a human shape!'' said the Party-run Tibet Daily.\23\ 
Tibet Autonomous Region Party Secretary Zhang Qingli likened 
the Dalai Lama to ``a jackal and wolf cloaked in a [monk's 
robe]'' and called for a ``people's war'' against threats to 
stability and unity that he blamed on ``the Dalai Clique.'' 
\24\ Officials launched aggressive reimplementation of 
political indoctrination campaigns\25\ across the Tibetan 
autonomous areas of China, and sought to compel Tibetans to 
denounce the Dalai Lama\26\ and sometimes to state that he was 
responsible for the protest and riot activity.\27\
    Chinese government officials have intensified their 
campaign to discredit the Dalai Lama by holding him directly 
responsible for Tibetan violence committed during rioting, and 
seeking to tie him to allegations of Tibetan ``terrorist'' 
objectives and activity. A Ministry of Public Security (MPS) 
spokesman claimed on April 1,\28\ but provided no credible 
evidence to prove, that the Dalai Lama is responsible for the 
objectives and activities of two Tibetan NGOs based in India--
the Tibetan Youth Congress (TYC) and the Tibetan People's 
Uprising Movement (TPUM). TPUM\29\ and the TYC,\30\ according 
to their Web sites, seek Tibetan independence, thereby 
rejecting the Dalai Lama's autonomy-based Middle Way 
Approach.\31\ TPUM's ``Declaration'' states, ``The Tibetan 
People's Uprising Movement is a global movement of Tibetans 
inside and outside of Tibet taking control of our political 
destiny by engaging in direct action to end China's illegal and 
brutal occupation of our country. Through unified and strategic 
campaigns we will seize the Olympic spotlight and shine it on 
China's shameful repression inside Tibet, thereby denying China 
the international acceptance and approval it so fervently 
desires.'' \32\
    The MPS claimed, but did not substantiate, that the TYC and 
other unnamed groups provided two classes on how to carry out 
terrorist activities.\33\ According to China's state-run media, 
after monks in the eastern TAR allegedly carried out a series 
of small bombings in April, the alleged bombers confessed 
that--by listening to radio broadcasts--they ``were following 
separatist propaganda from the Dalai Lama.'' \34\ A Chinese 
security official told a Western media organization in October 
that on September 23, 2008, the Changdu (Chamdo) Intermediate 
People's Court sentenced several of the monks to terms of 
imprisonment for ``terrorist actions.'' \35\ According to an 
international media agency report, in December 2005 then-TYC 
President Kalsang Phuntsok said: ``[We] have a youth section 
which is not so much influenced by the Buddhist philosophy. 
They are very much attracted by the movements which are going 
on all over the world, mostly violence-infested movements, and 
people see they are achieving results. They look around 
everywhere, whether it's Israel or Palestine or the Middle 
East--these give them every reason to believe in every 
[violent] movement that is being waged on this Earth.'' \36\ 
According to a Tibetan media report, former TYC President 
Lhasang Tsering told about 200 young Tibetans gathered at a 
public forum in India in February 2007 that the 2008 Beijing 
Olympics provide ``an amazing opportunity as we can fight them 
when they would be most needed to be `well-behaved.' '' He told 
the audience, ``For a committed activist you don't need CIA's 
support to cut a telephone line in Beijing or throw an iron rod 
on the power cables in Shanghai. These kinds of sabotages can 
be done by any ordinary person, and can weaken the power from 
inside. Sometimes the whole city goes dark by one simple but 
technically correct act.'' \37\
    The Dalai Lama, however, has expressed no support for the 
political objectives or methods of TPUM or the TYC, and has 
maintained his consistently pacifist counsel to Tibetans--
wherever they live. In an April 6 statement, the Dalai Lama 
appealed to Tibetans to ``practice non-violence and not waver 
from this path, however serious the situation might be.'' He 
urged Tibetans living in exile to ``not engage in any action 
that could be even remotely interpreted as violent.'' \38\ He 
continued to reiterate his explicit support for China's role as 
the Olympics host throughout the period of the protests and 
their aftermath.\39\

  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    U.S. government policy recognizes the Tibet Autonomous 
Region (TAR) and Tibetan autonomous prefectures and counties in 
other provinces to be a part of China.\40\ The U.S. State 
Department's 2008 Report on Tibet Negotiations observed that 
the Dalai Lama ``represents the views of the vast majority of 
Tibetans and his moral and spiritual authority helps to unite 
the Tibetan community inside and outside of China.'' President 
George W. Bush met in September 2007 with President Hu Jintao 
at the Asia Pacific Economic Cooperation Forum in Sydney, 
Australia, and told Hu that if Chinese leaders ``were to sit 
down with the Dalai Lama they would find him a man of peace and 
reconciliation.'' \41\ The Report on Tibet Negotiations stated:

        The United States encourages China and the Dalai Lama 
        to hold direct and substantive discussions aimed at 
        resolution of differences at an early date, without 
        preconditions. The Administration believes that 
        dialogue between China and the Dalai Lama or his 
        representatives will alleviate tensions in Tibetan 
        areas and contribute to the overall stability of 
        China.\42\

    The U.S. Congress awarded the Congressional Gold Medal to 
the Dalai Lama on October 17, 2007.\43\ The congressional act 
providing for the award found that the Dalai Lama ``is the 
unrivaled spiritual and cultural leader of the Tibetan people, 
and has used his leadership to promote democracy, freedom, and 
peace for the Tibetan people through a negotiated settlement of 
the Tibet issue, based on 
autonomy within the People's Republic of China.'' \44\
    The status of the China-Dalai Lama dialogue, which resumed 
in 2002,\45\ deteriorated after the March 2008 protests from a 
condition characterized by the absence of evident progress, to 
one that may require remedial measures before the dialogue can 
resume focus on its principal objective--resolving the Tibet 
issue. The Chinese government and the Dalai Lama continue to 
maintain their fundamental positions toward the dialogue. [See 
CECC 2007 Annual 
Report, Section IV--Tibet: Special Focus for 2007, for 
additional information.]
    The Dalai Lama's Special Envoy Lodi Gyari and Envoy Kelsang 
Gyaltsen met on May 4, 2008, in Shenzhen city, Guangdong 
province, for an ``informal meeting'' \46\ with Communist Party 
United Front Work Department (UFWD) Executive Deputy Head Zhu 
Weiqun and Deputy Head Sita (Sithar).\47\ The purpose of the 
meeting, Gyari said on May 8, was to discuss the ``critical 
situation in Tibet'' and to reach a decision to continue formal 
discussions.\48\ The envoys called on Chinese authorities to 
release prisoners (Tibetan protesters), allow injured persons 
(protesters) to receive adequate medical treatment, and allow 
``unfettered access'' to Tibetan areas by tourists and media 
organizations.\49\ The Dalai Lama included similar points in an 
April 6 statement that he addressed to Tibetans worldwide\50\ 
and reiterated them as his priorities in a May 25 interview 
with a Western newspaper.\51\ President Hu Jintao said on May 
7, soon after the Shenzhen meeting, ``We hope that the Dalai 
Lama side take[s] concrete actions to show its sincerity by 
earnestly stopping activities involving splitting the 
motherland, instigating violence and disrupting the Beijing 
Olympics so as to create conditions for next consultation.'' 
\52\
    On July 1 and 2, 2008, the Dalai Lama's envoys met in 
Beijing with UFWD officials, including UFWD Head Du Qinglin, 
for the seventh round of formal dialogue.\53\ The Chinese team 
presented the envoys a set of new preconditions (the ``four no 
supports'')\54\ that intensify the Chinese government and Party 
campaign to hold the Dalai Lama personally accountable for 
Tibetan views and activities that he does not support and that 
contradict his policies and guidance.\55\ A UFWD spokesman 
described the four types of activity that the Dalai Lama must 
not support as: (1) attempting to disrupt the 2008 Beijing 
Summer Olympic Games; (2) inciting violence (during Tibetan 
protests); (3) alleged ``terrorist activities'' by a Tibetan 
NGO; and (4) seeking Tibetan independence.\56\ Du Qinglin 
demanded that the Dalai Lama ``should openly and explicitly 
promise'' to fulfill the requirements of the ``four no 
supports'' and ``prove it in his actions.'' \57\ The demands 
pressure the Dalai Lama to serve as an active proponent of 
Chinese government political objectives as a precondition to 
continuing a dialogue that seeks to resolve political issues, 
and to take action to alter the political positions and 
activities of Tibetans within China and internationally.\58\
    After the Beijing talks, Chinese officials and the Dalai 
Lama's envoys both stated that continuing the dialogue is in 
jeopardy and depends on measures that the other side should 
undertake. A UFWD official said that if ``the Dalai side'' 
could not ``materialize'' the ``four no supports,'' then 
``there would hardly be the atmosphere and conditions required 
for the contacts and discussions between the two sides.'' \59\ 
Special Envoy Lodi Gyari said that the Tibetan delegation had 
been ``compelled to candidly convey to our counterparts that in 
the absence of serious and sincere commitment on their part the 
continuation of the present dialogue process would serve no 
purpose.'' \60\

               Heightened Repression of Tibetan Buddhism

    State repression of Tibetan Buddhism in 2008 has reached 
the highest level since the Commission began to report on 
religious freedom for Tibetan Buddhists in 2002. Chinese 
government and Party policy toward Tibetan Buddhists' practice 
of their religion played a central role in stoking frustration 
that resulted in the cascade of Tibetan protests that started 
on March 10, 2008, when approximately 300 Drepung Monastery 
monks attempted a protest march in Lhasa.\61\ The protests 
spread quickly across the Tibetan plateau and involved a large 
but undetermined number of Tibetan Buddhist monastic 
institutions and thousands of monks and nuns.\62\ [See figure 
titled Map of Tibetan Protest Sites, County-level Areas above 
and Addendum: List of Tibetan Protest Sites, County-level Areas 
at the end of this section.]
    Reports have identified hundreds of Tibetan Buddhist monks 
and nuns whom security officials detained for participating in 
the protests,\63\ as well as members of Tibetan secular society 
who supported them. Peaceful protesters raised Tibetan Buddhist 
issues by calling for the return of the Dalai Lama,\64\ the 
release of the Panchen Lama (Gedun Choekyi Nyima),\65\ and 
freedom of religion generally.\66\ [See box titled The Panchen 
Lama and the Golden Urn: China's Model for Selecting the Next 
Dalai Lama.] Details about the detainees' well-being and status 
under the Chinese legal system are few. Armed security forces 
maintained heightened security at some monasteries and 
nunneries after the protests as authorities conducted 
aggressive campaigns of patriotic education (``love the 
country, love religion'').\67\ Demands that monks and nuns sign 
statements denouncing the Dalai Lama angered monks and nuns and 
prompted a second wave of protests and detentions.\68\

------------------------------------------------------------------------
  The Panchen Lama and the Golden Urn:  China's Model for Selecting the
                             Next Dalai Lama
-------------------------------------------------------------------------
  Gedun Choekyi Nyima, the boy the Dalai Lama recognized as the Panchen
 Lama in May 1995, turned 19 years old in April 2008. Chinese
 authorities have held him and his parents incommunicado in an unknown
 location since May 17, 1995,\69\ three days after the Dalai Lama
 announced his recognition of Gedun Choekyi Nyima.\70\ The Chinese
 government told the UN Special Rapporteur on Freedom of Religion in
 September 2005 that Gedun Choekyi Nyima is leading a ``normal, happy
 life and receiving a good cultural education.'' \71\ A TAR official
 described Gedun Choekyi Nyima in July 2007 as a ``patriotic'' boy who
 is ``living a normal life in Tibet'' and ``studying at a senior high
 school'' and ``does not want his life to be disturbed.'' \72\ The
 Chinese government has provided no information to support the statement
 that Gedun Choekyi Nyima is in the TAR or any other Tibetan area of
 China.
  The State Council declared the Dalai Lama's 1995 announcement
 ``illegal and invalid'' \73\ and installed Gyaltsen Norbu, whose
 appointment continues to stir widespread resentment among Tibetans--
 evidenced by Tibetan protesters' calls in March 2008 for Chinese
 authorities to ``release'' Gedun Choekyi Nyima.\74\ Party officials
 assert that the next Dalai Lama will be selected in the same manner as
 Gyaltsen Norbu: by drawing a name from a golden urn. Ye Xiaowen,
 Director of the State Administration for Religious Affairs (SARA), and
 an alternate member of the Communist Party Central Committee,\75\ said
 in an interview published on March 13, 2008, that SARA would ``take
 control'' of identifying the next Dalai Lama using ``historical
 conventions.'' One of those conventions would be drawing a lot from an
 urn containing the names of three government-approved candidates to be
 the ``soul boy'' (reincarnated lama).\76\
  Ye's reference to ``historical conventions'' refers to a 1792 Qing
 Dynasty edict demanding that the Tibetan government in Lhasa reform
 religious, administrative, economic, and military practices to suit the
 Qing court.\77\ The first of the edict's 29 articles directed that the
 Dalai Lama and Panchen Lama be selected by drawing lots from a golden
 urn, and that a high-ranking imperial official must be present to
 confirm the result.\78\
------------------------------------------------------------------------

      THE NORM FOR TIBETAN BUDDHISM: SYSTEMATIC STATE INTERFERENCE

    Chinese government interference with the norms of Tibetan 
Buddhism and unrelenting antagonism toward the Dalai Lama, one 
of the religion's foremost teachers, serves to deepen division 
and 
distrust between Tibetan Buddhists and the government and 
Communist Party. As the Commission's 2007 Annual Report 
documented, law, regulation, and policy that seek to prevent or 
punish Tibetan Buddhist devotion to the Dalai Lama, categorize 
him as a ``splittist'' (a criminal under Chinese law\79\), and 
that set aside centuries of religious tradition\80\ create 
obstacles of profound implications for Tibetan Buddhists.\81\ 
Legal and regulatory interference with Tibetan Buddhism 
antagonizes Tibetans in general, but it is especially harmful 
to Tibetans who regard the Dalai Lama (in his capacity as the 
spiritual leader of the Gelug tradition of Tibetan 
Buddhism\82\) as their guide on what Buddhists believe is the 
path toward enlightenment.
    The function and legitimacy of Tibetan Buddhism--the core 
of Tibetan culture--has been especially hard-hit since 2005. 
Legal measures closely regulating monastic life in the TAR took 
effect in January 2007.\83\ Nationwide measures establishing 
state supervision of the centuries-old Tibetan tradition of 
identifying, seating, and educating boys whom Tibetans believe 
are reincarnations of Buddhist teachers took effect in 
September 2007.\84\ The government seeks to use such legal 
measures to remold Tibetan Buddhism to suit the state, and to 
use legal pressure to compel Tibetan acceptance of such 
measures. For example, a February 2008 Tibet Daily report 
provided information about conditions in TAR monasteries and 
nunneries less than one month before the protests erupted.\85\ 
The TAR procuratorate reported that it had ``targeted monks and 
nuns'' with campaigns on ```love the country and love religion' 
thinking'' (patriotic education), and implemented measures 
linked to the government and Party's ``integrated management of 
the temples.'' \86\

      THE GANZI MEASURES: PUNISHING ``MONK AND NUN TROUBLEMAKERS''

    The government of Ganzi (Kardze) Tibetan Autonomous 
Prefecture (TAP), Sichuan province, issued on June 28, 2008, 
with immediate effect, unprecedented measures that seek to 
punish or eliminate from the prefecture's Tibetan Buddhist 
institution those monks, nuns, religious teachers, and monastic 
officials whom public security officials accuse of involvement 
in political protests in the prefecture.\87\ Of 125 documented 
Tibetan protests across the Tibetan plateau from March 10 to 
June 22, at least 44 took place in Ganzi TAP according to an 
August 5 advocacy group report.\88\ Protesters at 40 of the 44 
documented protests included Tibetan monks or nuns.\89\ Nearly 
38,000 Tibetan Buddhist monks and nuns were residents of 515 
monasteries and nunneries in Ganzi TAP as of 2005, according to 
the Sichuan Daily.\90\ Ganzi TAP has been the site of more 
known political detentions of Tibetans by Chinese authorities 
than any other TAP outside the TAR since the current period of 
Tibetan political activism began in 1987,\91\ based on data 
available in the Commission's Political Prisoner Database 
(PPD).\92\
    The ``Measures for Dealing Strictly With Rebellious 
Monasteries and Individual Monks and Nuns'' (the Ganzi 
Measures) took effect on the date they were issued and punish 
speech and association, not violent activity:

        In order to defend social stability, socialist law and 
        the basic interests of the people, the measures listed 
        below have been resolutely drafted for dealing clearly 
        with participants in illegal activities aimed at 
        inciting the division of nationalities, such as 
        shouting reactionary slogans, distributing reactionary 
        writings, flying and popularizing the ``snow lion 
        flag'' and holding illegal demonstrations.\93\

    The Ganzi Measures appear to apply some punishments that 
may be without precedent in post-Mao Zedong China and that, 
based on Commission staff analysis, do not appear to have a 
clear basis in national legal measures that establish central 
government regulatory power over religious activity in China. 
Such measures include the 2004 Regulation on Religious 
Affairs\94\ and the 2007 Management Measures for the 
Reincarnation of Living Buddhas in Tibetan Buddhism.\95\ For 
example, punishments in some cases can include the partial 
destruction or closure of a monastery or nunnery.\96\ In other 
cases, authorities may punish a trulku (a teacher that Tibetan 
Buddhists believe is a reincarnation) by stripping the trulku 
of his religious position and function.\97\ [See Addendum: The 
June 2008 Ganzi Measures: Dealing Strictly With Troublemaking 
Monks, Nuns, and Monasteries.]

            Weak Implementation of Regional Ethnic Autonomy

    Tibetan protesters, in their widespread calls for Tibetan 
independence, provided an unprecedented de facto referendum 
rejecting China's implementation of its constitutionally 
enshrined regional ethnic autonomy system.\98\ The Regional 
Ethnic Autonomy Law\99\ (REAL) is the state's principal legal 
instrument for managing the affairs of ethnic minorities. Its 
weak implementation has prevented Tibetans from using lawful 
means to protect their culture, language, and religion. This 
has exacerbated Tibetan frustration. The Chinese leadership's 
refusal to recognize the REAL's failure to fulfill the law's 
premise that it guarantees ethnic minorities the ``right to 
administer their internal affairs'' could expose the leadership 
to further increases in Tibetan resentment, continued calls for 
Tibetan independence, and the risk of local instability. [See 
box titled Impediments to Regional Ethnic Autonomy: Conflicts 
Within and Between Laws below.]

------------------------------------------------------------------------
 Impediments to Regional Ethnic Autonomy:  Conflicts Within and Between
                                  Laws
-------------------------------------------------------------------------
The Premise of Autonomy

  The REAL's Preamble asserts that the regional ethnic autonomy  system
 ``reflects the state's full respect for and guarantee of ethnic
 minorities' right to administer their internal affairs,'' and ``has
 played an enormous role in giving full play to ethnic minorities'
 enthusiasm for being masters over their own affairs.'' \100\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Impediments to Regional Ethnic Autonomy:  Conflicts Within and Between
                             Laws--Continued
-------------------------------------------------------------------------
Conflicts That Impede Autonomy

<bullet> Article 3 obligates ethnic autonomous governments to apply the
 decisions of higher-level authorities under ``the principle of
 democratic centralism''--a system that is more consultative than
 democratic. A Chinese government White Paper said that democratic
 centralism ``requires that the majority be respected while the minority
 is protected.'' \101\
<bullet> Article 7 sets aside ethnic minority rights to ``administer
 their internal affairs'' by subordinating ethnic autonomous governments
 to every higher level of government authority.\102\
<bullet> Article 12 provides a basis for establishing boundaries of
 ethnic autonomous areas that can reflect factors such as ``historical
 background'' and ``the relationship among the various nationalities''--
 but it is Beijing's view of history and ethnic relations that
 determines whether the REAL unites--or divides--territory where ethnic
 minority groups live.\103\
<bullet> Article 19 (and Constitution Article 116) provide ethnic
 autonomous congresses the power to enact autonomy or self-governing
 regulations ``in the light of the political, economic, and cultural
 characteristics'' of the relevant ethnic group(s)\104\--but China's
 Legislation Law intrudes upon the right of ethnic minority people's
 congresses to issue such regulations.\105\
<bullet> Article 20 provides ethnic autonomous governments the right to
 apply to a higher-level state agency to alter or cancel the
 implementation of a ``resolution, decision, order, or instruction'' if
 it does not ``suit the actual conditions in an ethnic autonomous area''
 \106\--but the Legislation Law bars ethnic autonomous governments from
 enacting any variance to the laws and regulations that matter the most:
 those that are ``dedicated to matters concerning ethnic autonomous
 areas.'' \107\
------------------------------------------------------------------------

     Economic Development vs. Ethnic Minorities' Autonomous Rights

    The Chinese government undermines the prospects for 
stability in Tibetan autonomous areas of China by implementing 
economic development and educational policy in a manner that 
results in disadvantages for Tibetans. In a November 2007 
academic thesis, Dr. Andrew Fischer analyzed the relationship 
in Tibetan areas of China between ``economic polarisation, 
social exclusion, and social conflict.'' \108\ ``The 
exclusionary experiences of Tibetans in different tiers of the 
labor market are interlinked through polarisation,'' he said, 
``and operate along educational or cultural axes of 
disadvantage''--with the result that ``class grievances mutate 
into cross-class collective grievances.'' \109\ The relevance 
of the point is evident in the social and professional range of 
Tibetan protesters who were not monks and nuns: business 
operators, workers, university graduates, junior high school 
students, farmers, and nomads.
    The Chinese government facilitates resentment among non-
monastic Tibetans against the increasing Han dominance in 
economic and cultural spheres principally by failing to empower 
local Tibetan autonomous governments to protect Tibetan 
interests. Among the consequences are the decline of the 
use\110\ and teaching\111\ of Tibetan language, and educational 
and training programs that leave Tibetans poorly prepared to 
compete in a Han-dominated job market.\112\ Fischer observes in 
a forthcoming paper that preferential policies toward Tibetans 
are not as important in ``dealing with disjunctures across 
changing educational and employment systems'' as achieving 
``holistic political representation and decision making of 
minority groups.'' \113\
    The Qinghai-Tibet railway, a premier project of the Great 
Western Development program\114\ that entered service in July 
2006,\115\ is an example of how Chinese policies prioritize 
accelerating economic development over protecting ethnic 
minorities' rights of autonomy. The impact of the Qinghai-Tibet 
railway could overwhelm Tibetans and sharply increase pressure 
on the Tibetan culture. Based on Commission analysis of 
fragmentary and sometimes contradictory information, more than 
a half million passengers, most of whom are likely to be ethnic 
Han, may have traveled during the first 18 months of railway 
operation (July 2006 through December 2007) to the TAR to seek 
work, trade, and business opportunities.\116\
    The Chinese government announced in January 2008 steps 
toward building a new railway that will open up the eastern TAR 
and Ganzi (Kardze) TAP--areas where Tibetan protesters have 
been active--to population influx from one of China's most 
populous provinces.\117\ The railway will originate in Chengdu 
city, the capital of Sichuan province, and traverse Kangding 
(Dartsedo), Yajiang (Nyagchukha), Litang (Lithang), and Batang 
(Bathang) counties in Ganzi TAP before entering the TAR near 
Mangkang (Markham) county in Changdu (Chamdo) prefecture, based 
on a China Daily sketch.\118\
    A Ministry of Railways spokesman said in August 2008 that 
the government expects to complete construction by 2020 of six 
rail lines feeding the Qinghai-Tibet railway.\119\ Authorities 
had announced two of the rail lines (Lhasa-Rikaze and Lhasa-
Linzhi) previously.\120\ The spokesman did not provide any 
information about the railway route between Golmud city and 
Chengdu city. Depending on the government's economic, 
political, and geographic objectives, the route could traverse 
a number of Tibetan autonomous areas, including one or both of 
Yushu and Guoluo (Golog) TAPs in Qinghai province, and one or 
both of Ganzi TAP and Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture in Sichuan province.\121\ Such a route would pass 
through some of the most remote Tibetan autonomous areas--areas 
where remoteness and the unavailability of high-capacity 
transportation links have helped the proportion of Tibetan 
population to remain relatively high.\122\
    A five-year TAR government economic development program 
announced in the aftermath of the Tibetan protests indicates 
that government policy will prioritize and accelerate 
industrial expansion and resource extraction.\123\ TAR economic 
commission director Li Xia said that the government ``will pool 
21.17 billion yuan (about 3 billion U.S. dollars) for 10 mining 
projects, four construction and building material enterprises, 
three medicine and food plants, and five industrial development 
zones in five years.'' \124\ The government expects the 
projects to be operational by 2013, Li said.\125\ The report 
did not disclose details about the source of the funding for 
the projects, the location of the industrial development zones, 
or the extent to which authorities expect the new projects to 
attract non-Tibetans to the TAR to seek employment. The total 
cost of the 22 projects will be equal to approximately two-
thirds of the 33 billion yuan cost of constructing the Qinghai-
Tibet railway.\126\
    Another state-run program that prioritizes economic 
development by settling Tibetan nomads into compact communities 
is nearing completion throughout Tibetan areas, disrupting an 
important sector of the Tibetan culture and economy.\127\ 
Nomads participated in the wave of protests following March 10 
in substantial numbers, placing some Tibetan counties on the 
protest map for the first time\128\ since the current period of 
Tibetan political activism began in 1987.\129\

 Consequences of the Protests: Death, Detention, Patriotic Education, 
                               Isolation

    At no time since Tibetans resumed political activism in 
1987 has the magnitude and severity of consequences to Tibetans 
(named and unnamed) who protested against the Chinese 
government been as great as it is now upon the release of the 
Commission's 2008 Annual Report. Few details are available 
about the thousands of Tibetans whom Chinese security officials 
detained, beat, fired on, or otherwise harmed as armed forces 
suppressed protests or riots and maintained security lockdowns. 
China's state-run media reported extensively on personal injury 
and property damage that Tibetan rioters caused from March 14 
to 19 in locations such as Lhasa city, Aba county, and Gannan 
TAP, but authorities provided few details about the thousands 
of Tibetans whom they acknowledge detaining as a result of the 
incidents. Moreover, officials have provided little information 
about the suppression of peaceful Tibetan protests that took 
place over a period of weeks in more than 40 counties where 
Chinese state media did not report rioting, and where security 
officials reportedly detained thousands more Tibetans.\130\ 
[See Section II--Rights of Criminal Suspects and Defendants for 
more information about legal process and abuse of Tibetan 
detainees.]

death

    At least 218 Tibetans had died by June as the result of 
Chinese security forces using lethal force (such as gunfire) 
against Tibetan protesters, or from severe abuse (such as 
beating and torture), according to an August 21 Tibetan 
government-in-exile (TGiE) report.\131\ The Tibetan Centre for 
Human Rights and Democracy 
reported on June 20 that ``more than 100'' Tibetans had 
died.\132\ Neither organization commented publicly on the 
substantial difference between the estimates. If a report is 
accurate that, on March 28, authorities cremated near Lhasa 
more than 80 (apparently unidentified) bodies of Tibetans 
killed in connection with protest (or riot) activity, then a 
full accounting of all of the casualties may never occur.\133\
    The March 14 Lhasa protests and rioting resulted in the 
largest number of Tibetan fatalities reported for a single 
incident. On March 16, the TGiE reported that ``at least 80 
people were killed'' on March 14 in Lhasa.\134\ Jampa Phuntsog 
(Xiangba Pingcuo), Chairman of the TAR government, denied at a 
March 17 press conference, however, that security forces 
carried or used ``any destructive weapons'' as they suppressed 
the March 14 riot.\135\ Additional incidents of lethal weapons 
fire against Tibetan protesters took place on at least six 
occasions outside the TAR, according to NGO and media reports: 
on March 11 in Daocheng (Dabpa) county, Ganzi TAP, Sichuan 
province;\136\ March 16 in Aba county, Aba prefecture, Sichuan 
province;\137\ March 16 (or March 18) in Maqu county, Gannan 
TAP, Gansu province;\138\ March 18 in Ganzi county, Ganzi 
TAP;\139\ March 24 in Luhuo (Draggo) county, Ganzi TAP;\140\ 
and on April 3 in Ganzi county.\141\ Up to 15 Tibetans were 
reportedly wounded by weapons fire on April 5 in Daofu (Dawu) 
county, Ganzi TAP, but no fatalities were reported.\142\ The 
Dalai Lama issued statements on March 18\143\ and April 6\144\ 
appealing to Tibetans to refrain from violent activity.
    Chinese officials have not acknowledged the deaths of 
Tibetan protesters as the result of lethal force used by 
Chinese security forces.\145\ Instead, state-run media has 
emphasized the consequences of Tibetan violence, especially the 
deaths of 18 civilians and 1 policeman in the March 14 Lhasa 
riot.\146\ International media and non-governmental 
organizations also reported Tibetan violence, sometimes 
resulting in death, against ethnic Han and Hui individuals in 
Lhasa.\147\

detention

    Unless Chinese authorities have released without charge a 
very high proportion of the Tibetans reportedly detained as a 
result of peaceful activity or expression on or after March 10, 
2008, the resulting surge in the number of Tibetan political 
prisoners may prove to be the largest increase in such 
prisoners\148\ that has occurred under China's current 
Constitution\149\ and Criminal Law.\150\ The current period of 
Tibetan political activism began in 1987. [See chart titled 
Tibetan Political Detention by Year, 1987-2008 below.]
    Chinese security officials detained thousands of Tibetans, 
first in connection with the cascade of protests (and sometimes 
rioting) followed by the imposition of security lockdowns at 
protest locations, and then as monks, nuns, and other Tibetans 
expressed anger at the aggressive reimplementation of political 
indoctrination campaigns, including patriotic education. 
China's state-run media acknowledged in reports in March and 
April 2008 that a total of 4,434 persons characterized as 
``rioters'' had either surrendered to security forces or were 
detained by them in nine counties where rioting reportedly took 
place between March 14 and 19.\151\ The nine counties were 
located in Lhasa municipality and Gannan TAP. The reports did 
not name or provide detailed information about any of the 
detainees. Two official reports on April 9\152\ and one report 
on June 21\153\ disclosed the release of a total of 3,027 of 
the 4,434 persons who reportedly surrendered or were detained. 
The June 21 report (on Lhasa) noted that the persons released 
had ``expressed regret for conducting minor crimes.'' \154\ 
Based on the April 9 and June 21 reports, the status of more 
than 1,200 of the persons who had surrendered or been detained 
remained unknown.\155\ [For detailed information, see table 
titled Official Chinese Sources: Detention, Surrender, and 
Release of Alleged ``Rioters'' below.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               Official Chinese Sources: Detention, Surrender, and Release of Alleged ``Rioters''
----------------------------------------------------------------------------------------------------------------
                                                                                    Linzhou
                                                                                    county,      Aba
                                                                                    March 14   county,
                                 Lhasa city,  March 14   Gannan TAP,  March 14-19   rioting    March 18
                                    rioting  Xinhua,      rioting  Xinhua, April     Tibet     rioting    Total
                                      April 9\156\                9\157\             Daily,    Xinhua,
                                                                                     March      March
                                                                                    19\158\    25\159\
----------------------------------------------------------------------------------------------------------------
Surrender: Total                 362                    2,204 (incl. 519 monks)           94        381    3,041
  Surrender: Released            328                    1,870 (incl. 413 monks)
  Surrender: Formal arrest
  Surrender: Remain detained     34                     334 (incl. 106 monks)
Police detention: Total          953                    440 (incl. 170 monks)                              1,393
  Police detention: Released
  Police detention: Formal       403                    8
   arrest
  Police detention: Remain
   detained
Total: Surrendered or detained   1,315                  2,644                             94        381    4,434
Total: Remain detained           116                                                                         116
(Reports as of June)             China Daily, June
                                  21\160\
Total: Sentenced                 42                                                                           42
(Reports as of June)             China Daily, June 21
Total: Released                  1,157                  1,870                                              3,027
(Reports as of June)             China Daily, June 21   Xinhua, April 9
Total: Status unknown            0                      774                               94        381    1,249
(Reports as of June)
----------------------------------------------------------------------------------------------------------------

    Chinese authorities had by late June provided detailed 
legal process information about only a few dozen of the 
protest- and riot-related cases that may have reached trial in 
the Lhasa area, and no information about a possibly greater 
number of prosecutions that could take place in other locations 
across the Tibetan protest area. All but 14\161\ of the 
individual cases known to the Commission about which China 
disclosed criminal charge information 
involved charges of violent or ordinary crime committed during 
activity characterized as rioting.
    The largest such disclosure of official information was on 
the Lhasa Intermediate People's Court April 29, 2008, 
sentencing of 30 Tibetans to imprisonment for periods ranging 
from three years to life.\162\ The court convicted the 
defendants for crimes described as ``arson, looting, picking 
quarrels and provoking troubles, assembling a crowd to storm 
state organs, disrupting public service, and theft.'' \163\ A 
Lhasa court convicted an additional 12 persons on similar 
charges on June 19 and 20, bringing to 42 the total of 
officially acknowledged convictions linked to alleged riot-
related activity in Lhasa municipality, according to an 
official report.\164\ An additional 116 persons were awaiting 
trial.\165\ A Party-run Web site disclosed on March 30 a 
reshuffling of TAR court and procuratorate personnel that could 
have facilitated an increase in case handling capacity by the 
two intermediate people's courts located nearest to Lhasa.\166\ 
An official Chinese report disclosed on July 11 that on June 19 
and 20 four local courts in Lhasa and Shannan (Lhoka) 
Prefecture sentenced an additional 12 persons to imprisonment 
for alleged involvement in the Lhasa rioting.\167\ The same 
report disclosed that courts had not yet sentenced anyone to 
death in connection with alleged rioting, but that 116 persons 
``were on trial'' and that Chinese law would determine whether 
some of the persons tried would be sentenced to execution.\168\
    The most extensive NGO compilation of detailed information 
about the detention of Tibetans resulting from the protests has 
been an April 25, 2008, Tibetan Centre for Human Rights and 
Democracy (TCHRD) list of 518 Tibetans.\169\ Media 
organizations and NGOs continued to report additional 
detentions during the months preceding publication of the 
Commission's Annual Report. Two reports released in August by 
different Tibetan reporting agencies placed the total number of 
Tibetan detentions since March 10 at 6,705 and ``over 6,500'' 
respectively.\170\ Neither report provided any information 
about the number of detainees who had been released or remain 
detained, or who had been sentenced to imprisonment or 
reeducation through labor (RTL). Security officials in the TAR 
``deported'' on April 25 to Qinghai province 675 monks, 
including 405 monks studying at Drepung Monastery and 205 monks 
studying at Sera Monastery, according to an August 28 media 
organization report.\171\ Many of the monks were originally 
from Qinghai; others were from Tibetan autonomous areas of 
Sichuan province.\172\ ``All'' of the monks from Qinghai 
remained detained in their hometowns, according to the report, 
which did not name any of the detainees and provided few 
details about detainees' current locations.\173\ The 610 
Drepung and Sera monks removed from the TAR were among a total 
of approximately 950 monks authorities detained from the two 
monasteries on April 10 and April 14, according to the same 
report.\174\

patriotic education

    The Party responded to the Tibetan protests with further 
escalation of the very political indoctrination campaigns, such 
as patriotic education (``love the country, love religion''), 
that helped to 
provoke Tibetans into protesting in the first place.\175\ Party 
Secretary Zhang Qingli issued an order on April 3 that 
officials across the TAR must conduct patriotic education 
programs at monastic institutions, workplaces, businesses, and 
schools, and require participants to sign denunciations of the 
Dalai Lama, according to a media report.\176\ The Tibet Daily 
reported that the Party had organized a teleconference to warn 
cadres against ``war-weariness'' and to conduct educational 
activities that would ``remove the scales'' from the eyes of 
the ``vast masses'' so that they would ``see clearly what Dalai 
really wants and what he has already done.'' \177\ According to 
another Tibet Daily report, the Lhasa city school system 
trained nearly 3,700 patriotic education ``core instructors'' 
who lectured a total of nearly 180,000 persons who attended a 
total of more than 1,000 lectures.\178\ Officials in Tibetan 
autonomous areas outside the TAR launched political 
indoctrination campaigns\179\ in prefectures where protests 
took place,\180\ as well as in locations where protests were 
not reported.\181\
    The aggressive new patriotic education campaigns fueled a 
second wave of protests and detentions that began in April and 
continued as the Commission prepared the 2008 Annual Report. 
Authorities may have detained hundreds of monks, nuns, and 
other Tibetans as the result of incidents arising from Tibetan 
refusals to fulfill the demands of patriotic education 
instructors.\182\ Government measures to prevent information 
from reaching international observers have hindered an accurate 
assessment of the full impact of patriotic education and other 
political indoctrination programs on Tibetan communities. In 
addition to the standard demand that monks and nuns denounce 
the Dalai Lama, officials sought to pressure senior Tibetan 
Buddhist figures\183\ and ordinary monks, nuns, and 
villagers\184\ to affirm support for the Chinese government 
assertion that the Dalai Lama was responsible for the protests 
and rioting. Authorities in some cases vandalized or destroyed 
images of the Dalai Lama, offending monks and nuns and 
prompting comparisons with the Cultural Revolution.\185\ 
Security forces responded to an April 3 protest resulting from 
patriotic education in Ganzi county with lethal weapons 
fire.\186\

isolation

    Chinese security officials imposed and maintained measures 
that isolated Tibetan communities from each other and from the 
outside world as the Tibetan protests spread and the Chinese 
government response gathered momentum. Authorities confiscated 
cell phones and computers, turned off cellular transmission 
facilities, and interfered with Internet access, according to 
accounts.\187\ Authorities threatened Tibetans with punishment 
if they shared information about Tibetan fatalities or 
detentions.\188\
    The Chinese government continued to deny international 
journalists and foreign tourists access to the TAR after 
dropping plans to reopen the region to such visitors on May 
1.\189\ Ministry of Foreign Affairs Spokesman Qin Gang 
confirmed on June 12, 2008, that the TAR remained temporarily 
closed to foreign journalists and blamed the closure on ``the 
Dalai Clique.'' \190\ The level of access by foreign 
journalists and tourists to Tibetan autonomous areas located in 
other provinces--which unlike the TAR do not require special 
permits of foreigners for entry--varied during the post-March 
10 period. [See Section II--Freedom of Expression--Restrictions 
Bolster Image of Party and Government.] The Dalai Lama stated 
in a May 25 interview that the most important gesture he would 
like to see from the Chinese government would be to permit 
international journalists to travel to the Tibetan areas of 
China to ``look, investigate, so the picture becomes clear.'' 
\191\

             Long-term Implications of the Tibetan Protests

    Chinese government decisions guiding recovery from the wave 
of protests (and rioting) could alter the outlook for the 
Tibetan culture, religion, language, and heritage. Continuing 
with the current mix of policy, law, and implementation, and 
waiting for the Dalai Lama to pass away so that Chinese 
officials can supervise the installation of a Dalai Lama whom 
Tibetans are unlikely to accept, could result in heightened 
risks to local and regional security for decades to come.
    A Chinese government decision to fulfill the Constitution's 
guarantees of the freedoms of speech, religion, and 
association; to ensure that laws and regulations on regional 
ethnic autonomy deliver to Tibetans the right to ``administer 
their internal affairs''; and to engage the Dalai Lama in 
substantive dialogue on the Tibet issue, can result in a 
durable and mutually beneficial outcome for Chinese and 
Tibetans.

  Tibetan Political Imprisonment: No News of Early Release, Sentence 
                               Reduction

    The Commission is not aware of any reports of Tibetan 
political prisoners to whom Chinese authorities granted a 
sentence reduction or an early release from imprisonment during 
the past year. The Dui Hua Foundation noted in a June 17, 2008, 
report that it had not seen any such developments recently, and 
that cases involving the charge of splittism\192\ are being 
``strictly handled.'' \193\ Officials rarely grant clemency to 
Tibetan or Uyghur political prisoners, who are typically 
charged with splittism, Dui Hua said.\194\
    The Commission is not aware of new developments in the 
cases of Tibetan monk Jigme Gyatso\195\ (detained in 1996 and 
serving an extended 18-year sentence for printing leaflets, 
distributing posters, and later shouting pro-Dalai Lama slogans 
in prison); monk Choeying Khedrub\196\ (sentenced in 2000 to 
life imprisonment for printing leaflets); reincarnated lama 
Bangri Chogtrul\197\ (detained in 1999 and serving a sentence 
of 18 years commuted from life imprisonment for ``inciting 
splittism''); or nomad Ronggyal Adrag (sentenced in November 
2007 to 8 years' imprisonment for shouting political slogans at 
a public festival).

      Addendum: List of Tibetan Protest Sites, County-level Areas

    County-level areas and cities where peaceful Tibetan 
protests (and in some cases, riots) reportedly took place from 
March 10, 2008, through the end of April. Multiple protests 
took place in several counties.
    Beijing municipality (1)
    Beijing municipality (1): Beijing city.

    Tibet Autonomous Region (17)
        <bullet> Lhasa municipality (7): Lasa (Lhasa) city, 
        Linzhou (Lhundrub) county, Dangxiong (Damshung) county, 
        Qushui (Chushur) county, Duilongdeqing (Toelung Dechen) 
        county, Dazi (Tagtse) county, Mozhugongka (Maldro 
        Gongkar) county.
        <bullet> Changdu (Chamdo) prefecture (4): Jiangda 
        (Jomda) county, Gongjue (Gonjo) county, Basu (Pashoe) 
        county, Mangkang (Markham) county.
        <bullet> Shannan (Lhoka) prefecture (1): Zhanang 
        (Dranang) county.
        <bullet> Rikaze (Shigatse) prefecture (2): Rikaze city, 
        Sajia (Sakya) county.
        <bullet> Naqu (Nagchu) prefecture (2): Naqu county, Suo 
        (Sog) county.
        <bullet> Ali (Ngari) prefecture (1): Ritu (Ruthog) 
        county.

    Qinghai province (13)
        <bullet> Xining municipality (1): Xining city.
        <bullet> Haidong prefecture (1): Hualong Hui Autonomous 
        County.
        <bullet> Huangnan (Malho) Tibetan Autonomous Prefecture 
        (TAP) (3): Tongren (Rebgong) county, Jianzha (Chentsa) 
        county, Zeku (Tsekhog) county, Henan (Yulgan) Mongol 
        Autonomous county.
        <bullet> Hainan TAP (4): Gonghe (Chabcha) county, 
        Tongde (Gepasumdo) county, Xinghai (Tsigorthang) 
        county, Guinan (Mangra) county.
        <bullet> Guoluo (Golog) TAP (3): Banma (Pema) county, 
        Dari (Darlag) county, Jiuzhi (Chigdril) county.
        <bullet> Yushu (Yulshul) TAP (1): Yushu (Kyegudo) 
        county.

    Gansu province (7)
        <bullet> Lanzhou municipality (1): Lanzhou city.
        <bullet> Gannan (Kanlho) TAP (6): Hezuo (Tsoe) city, 
        Xiahe (Sangchu) county, Luqu (Luchu) county, Maqu 
        (Machu) county, Diebu (Thewo) county, Zhuoni (Chone) 
        county.

    Sichuan province (17)
        <bullet> Chengdu municipality (1): Chengdu city.
        <bullet> Aba (Ngaba) Tibetan and Qiang Autonomous 
        Prefecture (5): Ma'erkang (Barkham) county, Songpan 
        (Zungchu) county, Ruo'ergai (Dzoege) county, Aba 
        county, Rangtang (Dzamthang) county.
        <bullet> Ganzi (Kardze) TAP (11): Kangding (Dartsedo) 
        county, Daocheng (Dabpa) county, Yajiang (Nyagchukha) 
        county, Litang (Lithang) county, Xinlong (Nyagrong) 
        county, Daofu (Tawu) county, Luhuo (Draggo) county, 
        Ganzi county, Dege county, Shiqu (Sershul) county, Seda 
        (Serthar) county.

                                Addendum


   THE JUNE 2008 GANZI MEASURES: DEALING STRICTLY WITH TROUBLEMAKING 
                      MONKS, NUNS, AND MONASTERIES

    The government of Ganzi (Kardze) Tibetan Autonomous 
Prefecture (TAP), located in Sichuan province, issued with 
immediate effect on June 28, 2008, the ``Measures for Dealing 
Strictly With Rebellious Monasteries and Individual Monks and 
Nuns'' (Ganzi Measures).\198\ The Ganzi Measures are divided 
into three groups: Articles 1 to 4 deal with ``monk and nun 
troublemakers''; Articles 5 to 9 address ``troublemaking 
monasteries''; Articles 10 to 12 seek to punish management 
officials of monasteries and nunneries who failed to ``fulfill 
their responsibilities.''
    Based on Commission staff analysis, some punishments do not 
appear to have a clear basis in national legal measures that 
establish central government regulatory power over religious 
activity in China. Three examples are:

        <bullet> The punitive demolition of lawfully 
        constructed monastic residences;
        <bullet> The punitive reduction of the number of 
        lawfully registered monks or nuns entitled to reside at 
        a monastery or nunnery; and
        <bullet> The punitive removal from a reincarnated 
        Tibetan Buddhist teacher of his religious position and 
        function.

        MONKS AND NUNS: REEDUCATION, CRIMINAL CHARGES, EXPULSION

    Articles 1 to 4 divide punishment for monks and nuns into 
four levels of severity. Determinants include official 
assessment of whether an alleged offense is ``minor'' or 
``serious,'' whether or not a monk or nun is cooperative and 
provides a written statement of guilt, and whether a monk or 
nun is ``stubborn.''
    Articles 1 to 3 impose ``reeducation.'' Article 1 applies 
the least level of punishment and allows a monk or nun to 
undergo reeducation in a family household if the head of 
household serves as guarantor that the monk or nun will remain 
inside the house and ``strictly follow reeducation.'' Articles 
2 and 3 require that reeducation take place ``in custody,'' but 
the measures do not specify the type of facility in which the 
monk or nun will be confined while under custody.
    Article 4 provides for punishment ``according to law'' for 
activities such as ``instigating splittism and disturbances'' 
(e.g., prosecution in a court on charges such as Article 103 of 
China's Criminal Law (inciting ``splittism''), or Article 293 
(``creating disturbances'')). Other activities punishable by 
law are ``hatching conspiracies,'' ``forming organizations,'' 
and ``taking a leading role.''
    Articles 3 and 4 include expulsion of a monk or nun from a 
monastery or nunnery and permanent revocation of official 
status as a monk or nun.

       MONASTERIES AND NUNNERIES: SHRINKING SOME, CLOSING OTHERS

    Articles 5 to 9 describe ``cleansing and rectification'' of 
monasteries and nunneries, a process that penalizes the 
institution of Tibetan Buddhism.
    Article 5 provides rectification for monasteries and 
nunneries where 10 percent to 30 percent of monks and nuns 
participated in ``disturbances.'' The monastery or nunnery will 
be sealed off, searched, religious activity suspended, and 
``suspect persons detained according to law.''
    Article 6 provides for rectification of Democratic 
Management Committees (DMCs) at monasteries and nunneries where 
DMC members ``participated in disturbances.'' Local government 
officials may take over the management of a monastery or 
nunnery if they deem ``suitable personnel'' to be unavailable. 
Normal management functions of monasteries and nunneries will 
be suspended while a DMC undergoes rectification.
    Article 7 provides for expelling monks and nuns from 
monasteries and nunneries and annulling their official status 
as ``religious practitioners'' if they do not ``assist'' 
officials conducting rectification, refuse to be photographed 
and registered, leave a monastery or nunnery without 
permission, or fail to ``correct themselves'' during 
reeducation.
    Article 7 provides for the demolition of monastic 
residences that were occupied by monks or nuns that officials 
expel. (The Commission is not aware of a national or provincial 
legal measure that provides for the demolition of monastic 
residences as punishment for offenses such as those listed in 
Article 7. Based on information available to the Commission, 
monasteries and nunneries apply for and receive permission from 
local government officials to renovate or construct monastic 
residences.\199\ The Ganzi Measures do not make clear whether 
the residences of monks and nuns expelled under Articles 3 and 
4 will also be demolished.)
    Article 8 requires re-registration of all monks and nuns 
resident at monasteries and nunneries involved in 
``disturbances.''
    Article 8 reduces the total number of monks and nuns 
permitted to reside at monasteries and nunneries involved in 
``disturbances'' by the number of monks or nuns who are 
expelled from each monastery or nunnery. (Once officials reduce 
the number of monks and nuns permitted to reside at a monastery 
or nunnery, restoring the number of monks and nuns to its 
previous level would require coordination between a monastery 
or nunnery's Democratic Management Committee,\200\ a state-
controlled Buddhist association, and the local 
government.\201\)
    Article 9 provides for the investigation, loss of status as 
a ``registered religious institution,'' and closure of a 
monastery or nunnery if officials determine that a DMC does not 
improve after rectification, or if monks or nuns ``go out again 
and make trouble.'' (Once a monastery or nunnery is de-
registered and closed, provisions of the Regulation on 
Religious Affairs would require provincial-level approval 
before the monastery or nunnery could be re-established.\202\)

MONASTIC OFFICIALS, TEACHERS, AND TRULKUS: PUBLIC HUMILIATION, LOSS OF 
                                POSITION

    Articles 10 to 12 punish members of a monastery or 
nunnery's DMC that do not maintain control of monks and nuns 
and ``take a clear stand on the issue'' (e.g., uphold 
government and Party policy). All three measures refer to DMC 
officials including monks, khenpos (abbots), geshes (teachers 
who have attained the most advanced degree of monastic 
education), and trulkus (teachers that Tibetan Buddhists 
believe are reincarnated).
    Article 10 provides for ``careful scrutiny'' of mistakes, 
criticism, and reeducation of DMC members that were ``not 
directly involved in disturbances,'' but that failed to ``take 
a clear stand on the issue,'' investigate and discipline monks 
and nuns that protested, or that were ``lax'' or deemed to have 
committed ``instances of poor management.''
    Article 11 provides for television and newspaper coverage 
of ``detailed examination'' of DMC members before a monastic 
assembly if DMC members are ``two-faced'' or fail to ``make 
their attitude clear.'' Such DMC members must submit a 
``written guarantee'' (presumably of correct behavior) at the 
publicized event.
    Article 12 provides for punishment under China's Criminal 
Law as well as loss of government, consultative, and religious 
positions for DMC members that ``collude with foreign 
separatists'' (a probable reference to the Dalai Lama and the 
Tibetan Buddhist monastic community in other countries), 
``assist'' protests, ``tolerate'' protests, or ``incite'' 
others to protest. Officials will strip trulkus accused of such 
behavior of ``the right to hold the incarnation lineage.'' (The 
Commission is not aware of a legal basis in China's national 
regulations on religion for stripping a trulku of ``the right'' 
to be a trulku. The 2007 Management Measures for the 
Reincarnation of Living Buddhas in Tibetan Buddhism (MMR) 
provide detailed regulation of the process of identifying, 
seating, and educating a reincarnated Tibetan Buddhist 
teacher--including regulation of whether or not a reincarnated 
teacher is entitled to reincarnate once again.\203\ The MMR 
does not, however, provide a process whereby the state may 
``strip'' a trulku of his religious position and function.)

                     VI. Developments in Hong Kong


                              INTRODUCTION

    The United States supports a stable, autonomous Hong Kong 
under the ``one country, two systems'' formula articulated in 
the Sino-U.K. Joint Declaration and the Basic Law.\1\ The 
people of Hong Kong enjoy the benefits of an independent 
judiciary\2\ and an open society in which the freedoms of 
religion, speech, and assembly are respected. The Commission 
notes, however, that full democracy in Hong Kong has been 
delayed again at least until 2017 by the Chinese central 
government. The Commission strongly supports the provisions of 
the Basic Law that provide for the election of the Chief 
Executive and the entire Legislative Council through universal 
suffrage, and highlights the importance of the central 
government's obligation to give Hong Kong the ``high degree of 
autonomy'' promised in the Basic Law.

                           UNIVERSAL SUFFRAGE

    Although the Basic Law promises democracy through universal 
suffrage to the people of Hong Kong,\3\ the central government 
continued to obstruct progress toward the fulfillment of that 
promise by refusing to allow constitutional and electoral 
reforms to proceed in the near term. The National People's 
Congress Standing Committee (NPCSC) issued a decision in 
December 2007 prohibiting the people of the Hong Kong Special 
Administrative Region (HKSAR) from directly electing both the 
Chief Executive and the entire Legislative Council (LegCo) in 
2012.\4\ This decision marked the second time in less than four 
years that the NPCSC has issued a formal ruling to delay the 
commencement of universal suffrage in Hong Kong.\5\
    The NPCSC's decision to further postpone electoral reforms 
came despite public polling that demonstrated widespread 
popular support for 2012 as the start date for universal 
suffrage in Hong Kong.\6\ Three short weeks before the NPCSC 
made its position known, Anson Chan, a candidate who ran on a 
platform that called for universal suffrage in 2012, won a 
directly elected seat in the LegCo. Chan won the support of 
54.6 percent of voters in the Hong Kong Island district, 
defeating her main opponent, Regina Ip, who advocated 2017 as a 
possible date for direct election.\7\ In July 2007, the HKSAR 
government issued a Green Paper on Constitutional Development 
to consult the public on plans for implementing universal 
suffrage for the Chief Executive.\8\ The public's views were 
consolidated into a report and submitted to the NPCSC more than 
two weeks before it issued its decision in December 2007. The 
HKSAR report stated that ``implementing universal suffrage for 
the Chief Executive first in 2012 is the expectation of more 
than half of the public, as reflected in the opinion polls; 
this expectation should be taken seriously and given 
consideration.'' \9\ In spite of these indications of broad 
support for universal suffrage, the NPCSC ruled out that 
possibility for 2012 without offering a justification for its 
decision.\10\
    The NPCSC decision, however, stated that the election of 
the fifth Chief Executive in 2017 ``may be implemented by the 
method of universal suffrage.'' Thereafter, all members of the 
Legislative Council may be elected by universal suffrage in 
2020 at the earliest.\11\ On the day that the NPCSC released 
its decision, Qiao Xiaoyang, Deputy Secretary General of the 
NPCSC, personally conveyed its message to a symposium on the 
future of Hong Kong's political development. Qiao said that the 
decision ``made clear'' the ``timetable for universal 
elections'' and that it indicated that ``the Chief Executive 
can be elected through universal suffrage in 2017.'' \12\ The 
Chief Executive is currently selected by an 800-member Election 
Committee that includes representatives from Hong Kong's 
functional constituencies, ex-officio members (members of the 
Legislative Council, Hong Kong deputies to the National 
People's Congress, and Hong Kong representatives to the Chinese 
People's Political Consultative Conference), and religious 
representatives. Only half of the Legislative Council's 60 
seats are currently 
returned by direct elections. The remaining seats are chosen by 
functional constituency voters, who are largely comprised of 
representatives of business interests that are pro-status quo 
and unwilling to challenge the central government.\13\ In 
September 2008, the lack of electoral reform depressed voter 
enthusiasm, as turnout for the LegCo election fell more than 10 
percentage points from 2004. Advocates for greater democracy 
retained roughly the same level of support (24 seats in the 60-
member Legislature--a loss of 2 seats) despite the retirement 
of several prominent senior leaders, while pro-business leaders 
struggled amidst a climate that favored bread-and-butter 
economic issues.\14\
    Several remaining hurdles must be removed before universal 
suffrage can be achieved in Hong Kong, including the future of 
functional constituency seats and the method of candidate 
selection. The NPCSC's decision stipulated that any proposal to 
change the current selection methods to direct election by 
universal suffrage must originate from the HKSAR government, be 
approved by a two-thirds majority of the Legislative Council, 
and be subjected to final approval by the NPCSC.\15\ Proponents 
of democracy in Hong Kong are concerned that the ultimate 
proposal introduced by the government could fall short of 
genuine democracy. Zhang Xiaoming, a Deputy Director of the 
State Council's Hong Kong and Macau Affairs Office, fueled 
concern in Hong Kong when he stated earlier this year that the 
functional constituency seats are not necessarily in conflict 
with universal suffrage.\16\ Zhang's comments were later echoed 
by Chief Executive Donald Tsang, who said during a May 2008 
LegCo session, ``I believe under some kind of arrangements, 
functional constituencies can achieve the principles of equal 
and universal suffrage.'' \17\ Some lawmakers also expressed 
concerns that restrictions on candidacy might be imposed to 
screen out or otherwise exclude certain figures from 
consideration in the nomination process for the Chief 
Executive.\18\ The NPCSC's December 2007 decision insisted that 
candidates for Chief Executive shall continue to be nominated 
by an Election Committee after universal suffrage is 
implemented.\19\

           THE 2008 OLYMPICS: PROTEST & DISSENT IN HONG KONG

    In 2008, the HKSAR government denied entry into the 
territory to human rights activists planning to protest during 
Olympic events, giving rise to concern that Hong Kong's 
autonomy has eroded in the 10 years since its handover to the 
People's Republic of China. During the April torch relay, the 
government denied entry into Hong Kong to three Danish human 
rights activists who intended to protest. The Immigration 
Department declined to comment on the case but reiterated that 
the department had a duty to ``uphold effective immigration 
controls.'' \20\ Some sources also alleged that a Tibetan monk 
traveling to Hong Kong for a religious seminar at the same time 
was stopped on arrival at the airport and forced to fly to 
another destination.\21\ In addition to these incidents, the 
government barred at least four other activists from Hong Kong 
prior to the torch relay.\22\ The HKSAR Security Bureau 
submitted a report to the Legislative Counsel in May that 
defended its policy barring activists and warned that the 
government would not welcome ``any person (who) seeks to damage 
the solemnity of the Olympics.'' \23\
    In August, obstruction of protests and barring of activists 
continued as Hong Kong served as the host city for the 2008 
Olympic equestrian events. Hong Kong immigration officers 
deported Yang Jianli, a prominent Chinese pro-democracy 
activist who lives in exile in the United States, upon his 
arrival in Hong Kong. The Hong Kong Falun Dafa Association also 
said that three Falun Gong practitioners--two Taiwanese and one 
American--were denied entry to the city in August.\24\ Local 
activists complained that the designated protest zones were too 
far from the Olympic venue, and two protesters who entered the 
venue were quickly removed by security when they attempted to 
display a Tibetan flag.\25\ Security officials also evicted 
Leung Kwok-hung, a pro-democracy lawmaker in Hong Kong, and his 
friend from an Olympic event for shouting slogans and holding 
up a banner promoting human rights.\26\
    Two weeks after the Olympic closing ceremony, the HKSAR 
government called for public consultation regarding the city's 
human rights situation. The results of this consultation are to 
be included in a larger report that the central government will 
submit to the UN Human Rights Council.\27\ The Commission is 
concerned that efforts to prevent protest during the Olympic 
period represent a compromise of Hong Kong's political 
autonomy, and over the coming year will monitor the 
government's response to these concerns as expressed by the 
people of Hong Kong.
    [See Section II--2008 Beijing Summer Olympic Games.]

        Appendix: China's International Human Rights Commitments

    The Universal Declaration enshrines a core set of rights 
and freedoms that individuals everywhere enjoy. China voted to 
adopt the Universal Declaration in 1948, and the current 
Chinese government has continued to commit itself to upholding 
human rights through international agreements and its own 
domestic law. In March 2008, Premier Wen Jiabao reiterated 
China's commitment to ratify the International Covenant on 
Civil and Political Rights, saying it would do so ``as soon as 
possible.'' \1\ The chart below lists what action China has 
taken on major human rights treaties and protocols to the 
treaties.

------------------------------------------------------------------------
                                     Ratification
     Convention or Protocol             Status           Reservations
------------------------------------------------------------------------
International Covenant on         Ratified March 27,  The application of
 Economic, Social and Cultural     2001.               article 8.1(a) of
 Rights                                                the Covenant to
                                                       the People's
                                                       Republic of China
                                                       shall be
                                                       consistent with
                                                       the relevant
                                                       provisions of the
                                                       Constitution of
                                                       the People's
                                                       Republic of
                                                       China, Trade
                                                       Union Law of the
                                                       People's Republic
                                                       of China and
                                                       Labor Law of the
                                                       People's Republic
                                                       of China.
International Covenant on Civil   Signed October 5,
 and Political Rights              1998; not yet
                                   ratified.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 International Covenant on Civil   ratified.
 and Political Rights
------------------------------------------------------------------------
Second Optional Protocol to the   Neither signed nor
 International Covenant on Civil   ratified.
 and Political Rights
------------------------------------------------------------------------
International Convention on the   Acceded to          The People's
 Elimination of All Forms of       December 29, 1981.  Republic of China
 Racial Discrimination                                 has reservations
                                                       on the provisions
                                                       of article 22 of
                                                       the Convention
                                                       and will not be
                                                       bound by it.
------------------------------------------------------------------------
Convention on the Elimination of  Ratified November   The People's
 All Forms of Discrimination       18, 1980.           Republic of China
 Against Women                                         does not consider
                                                       itself bound by
                                                       paragraph 1 of
                                                       article 29 of the
                                                       Convention.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention on the Elimination     ratified.
 of All Forms of Discrimination
 Against Women
------------------------------------------------------------------------
Convention on the Rights of the   Ratified March 3,   The People's
 Child                             1992.               Republic of China
                                                       shall fulfill its
                                                       obligations
                                                       provided by
                                                       article 6 of the
                                                       Convention under
                                                       the prerequisite
                                                       that the
                                                       Convention
                                                       accords with the
                                                       provisions of
                                                       article 25
                                                       concerning family
                                                       planning of the
                                                       Constitution of
                                                       the People's
                                                       Republic of China
                                                       and in conformity
                                                       with the
                                                       provisions of
                                                       article 2 of the
                                                       Law of Minor
                                                       Children of the
                                                       People's Republic
                                                       of China.
------------------------------------------------------------------------
Optional Protocol to the          Ratified February
 Convention on the Rights of the   20, 2008.
 Child on the Involvement of
 Children in Armed Conflict
------------------------------------------------------------------------
Optional Protocol to the          Ratified December
 Convention on the Rights of the   3, 2002.
 Child on the Sale of Children,
 Child Prostitution and Child
 Pornography
------------------------------------------------------------------------
Convention Against Torture and    Ratified October    1. The Chinese
 Other Cruel, Inhuman or           4, 1988.            Government does
 Degrading Treatment or                                not recognize the
 Punishment                                            competence of the
                                                       Committee Against
                                                       Torture as
                                                       provided for in
                                                       article 20 of the
                                                       Convention. 2.
                                                       The Chinese
                                                       Government does
                                                       not consider
                                                       itself bound by
                                                       paragraph 1 of
                                                       article 30 of the
                                                       Convention.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention Against Torture and    ratified.
 Other Cruel, Inhuman or
 Degrading Treatment or
 Punishment
------------------------------------------------------------------------
Convention Relating to the        Acceded to          [Subject to]
 Status of Refugees                September 24,       reservations on
                                   1982.               the following
                                                       articles: 1. The
                                                       latter half of
                                                       article 14, which
                                                       reads ``In the
                                                       territory of any
                                                       other Contracting
                                                       State, he shall
                                                       be accorded the
                                                       same protection
                                                       as is accorded in
                                                       that territory to
                                                       nationals of the
                                                       country in which
                                                       he has his
                                                       habitual
                                                       residence.'' 2.
                                                       Article 16 (3).
------------------------------------------------------------------------
Protocol Relating to the Status   Acceded to
 of Refugees                       September 24,
                                   1982.
------------------------------------------------------------------------
Convention on the Prevention and  Ratified April 18,
 Punishment of the Crime of        1983.
 Genocide
------------------------------------------------------------------------
Convention Against Transnational  Ratified September
 Organized Crime                   23, 2003.
------------------------------------------------------------------------
Protocol to Prevent, Suppress     Neither signed nor
 and Punish Trafficking in         ratified.
 Persons, Especially Women and
 Children, supplementing the
 United Nations Convention
 Against Transnational Organized
 Crime
------------------------------------------------------------------------
Protocol Against the Smuggling    Neither signed nor
 of Migrants by Land, Sea and      ratified.
 Air, supplementing the United
 Nations Convention Against
 Transnational Organized Crime
------------------------------------------------------------------------
Convention on the Protection of   Neither signed nor
 the Rights of All Migrant         ratified.
 Workers and Members of Their
 Families
------------------------------------------------------------------------
Convention on the Rights of       Ratified August 1,
 Persons With Disabilities         2008.
------------------------------------------------------------------------
Optional Protocol to the          Neither signed nor
 Convention on the Rights of       ratified.
 Persons With Disabilities
------------------------------------------------------------------------


                                      Ratification of the International Labour Organization Fundamental Conventions
--------------------------------------------------------------------------------------------------------------------------------------------------------
                Forced Labor                           Freedom of  Association               Discrimination                      Child Labor
--------------------------------------------------------------------------------------------------------------------------------------------------------
            C. 29                   C. 105             C. 87             C. 98            C. 100            C. 111           C. 138           C. 182
--------------------------------------------------------------------------------------------------------------------------------------------------------
Not ratified.                  Not ratified....  Not ratified....  Not ratified....  Ratified          Ratified         Ratified April   Ratified August
                                                                                      November 2,       January 12,      28, 1999.        8, 2002.
                                                                                      1990.             2006.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                             VII. Endnotes

    <dagger> Voted to adopt: Representatives Levin, Kaptur, Udall, 
Honda, Walz, Smith, Manzullo, Royce, and Pitts; Senators Dorgan, 
Baucus, Levin, Feinstein, Brown, Hagel, Smith, and Martinez; Under 
Secretary Dobriansky, Assistant Secretary Hill, Deputy Secretary 
Radzely, Under Secretary Padilla, and Assistant Secretary Kramer.
    Voted not to adopt: Senator Brownback.

    Notes to Section I--Executive Summary and Recommendations
    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's law and Constitution, or by international law, or both.
    \2\ CECC Commissioner Christopher Smith and former Commissioner 
Frank Wolf handed this list to former Foreign Minister Li Zhaoxing 
during a visit to Beijing at the end of June, 2008. It was the first 
time that Members of the U.S. Congress provided to Chinese officials a 
prisoner list derived from the PPD. Jim Yardley, ``China Blocks U.S. 
Legislators' Meeting,'' New York Times (Online), 2 July 08.
    \3\ The Tibet Information Network (TIN) ceased operations in 
September 2005.

    Notes to Section II--Rights of Criminal Suspects and Defendants
    \1\ ``Police Detain Parents After China Quake City Protest,'' 
Reuters (Online), 21 June 08.
    \2\ Uyghur American Association (Online), ``The Uyghur American 
Association Warns of Fierce Repression in Post-Olympic East 
Turkestan,'' 22 August 08.
    \3\ See, e.g., ``Under Olympics House Arrest,'' Radio Free Asia 
(Online), 28 July 08; Dan Martin, ``Beijing Goes Into `Fortress Mode' 
with Tightened Security Prior to Olympics,'' Agence France-Presse, 22 
July 08 (Open Source Center, 22 July 08).
    \4\ ``Grannies Vow to Fight on After Punishment for Olympic 
Protests,'' Agence France-Presse (Online), reprinted in Yahoo!, 22 
August 08.
    \5\ Dui Hua Foundation (Online), ``Welcome Reduction in Use of 
Capital Punishment in China,'' 27 June 08.
    \6\ PRC Law on Lawyers, enacted 1 January 97, amended 28 October 
07.
    \7\ Martin, ``Beijing Goes into `Fortress Mode.' ''
    \8\ Kristine Kwok, ``Police Force Pastor to Leave Beijing,'' South 
China Morning Post (Online), 20 July 08.
    \9\ Chinese Human Rights Defenders (Online), ``Update on Imprisoned 
Activist Hu Jia and His Wife Zeng Jinyan,'' 25 August 08; Audra Ang, 
``Detained Chinese Activist Returns to Beijing,'' Associated Press, 
reprinted in Washington Post (Online), 26 August 08.
    \10\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217 A (III) of 10 December 48, art. 9 
[hereinafter UDHR]; International Covenant on Civil and Political 
Rights, adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 9 [hereinafter ICCPR].
    \11\ CECC, 2007 Annual Report, 10 October 07, 45-47.
    \12\ Chris Buckley, ``China Vows to Punish Officials Who Fuel 
Unrest,'' Reuters, reprinted in Guardian (Online), 25 July 08.
    In addition to the unrest in Weng'an, Guizhou province and Menglian 
county, Yunnan province, the following are representative examples of 
other clashes between police and civilians that occurred during the 
summer of 2008: (1) hundreds of supporters and relatives of a high 
school boy who was beaten to death at school in Qianjiang city, Hubei 
province, clashed with police in late June (Ding Xiao, ``Hubei Clashes 
Over Dead Boy,'' Radio Free Asia (Online), 26 June 08); (2) in mid-
July, after a worker was reportedly beaten by a police officer and 
subsequently detained while attempting to obtain a residence permit in 
the town of Kanmen, Yuhuan county, Zhejiang province, hundreds of 
migrant workers attacked the police station (Hong Kong Information 
Center for Human Rights and Democracy, ``PRC Hebei Villagers Said Set 
Off Explosion at Country Police Station on 9 Jul,'' 20 July 08 (Open 
Source Center, 20 July 08)) .
    \13\ Buckley, ``China Vows to Punish Officials Who Fuel Unrest.''
    \14\ Simon Elegant, ``China Protests: A New Approach,'' Time 
(Online), 4 July 08; ``China Focus: Police Attacked in South China Over 
Controversial Death of Motorcyclist,'' Xinhua (Online), 18 July 08 
(Open Source Center, 18 July 08).
    \15\ Li Datong, ``The Weng'an Model: China's Fix-it Governance,'' 
openDemocracy (Online), 30 July 08.
    \16\ Elegant, ``China Protests: A New Approach''; Li Datong, ``The 
Weng'an Model: China's Fix-it Governance.''
    \17\ See, e.g., Chow Chung-yan, ``City Leaders Disciplined Over 
Fatal Yunnan Riots,'' South China Morning Post (Online), 5 September 
08; ``Summary: Yunnan Provincial Party Committee Punishes Cadres Over 
Menglian Incident,'' China News Agency, 4 September 08 (Open Source 
Center, 4 September 08); ``Two Killed in Yunnan Mass Action,'' China 
Daily (Online), 21 July 08.
    \18\ Chow Chung-yan, ``City Leaders Disciplined Over Fatal Yunnan 
Riots''; Li Hanyong, ``Yunnan Province Adopts Effective Measures to 
Channel the Masses' Emotions and Appropriately Handle the Menglian 
Clash Incident to Maintain Stability in the Border Area,'' 21 July 08 
(Open Source Center, 21 July 08).
    \19\ Ibid.
    \20\ Office of the United Nations High Commissioner for Human 
Rights (Online), Working Group on Arbitrary Detention, Fact Sheet No. 
26. Examples of the first category include individuals who are kept in 
detention after the completion of their prison sentences or despite an 
amnesty law applicable to them, or in violation of domestic law or 
relevant international instruments. The rights and freedoms protected 
under the second category include those in Articles 7, 10, 13, 14, 18, 
19, and 21 of the UDHR and in Articles 12, 18, 19, 21, 22, and 27 of 
the ICCPR. The ICCPR provides that the deprivation of an individual's 
liberty is permissible only ``on such grounds and in accordance with 
such procedure as are established by law,'' and that an individual must 
be promptly informed of the reasons for his detention and any charges 
against him or her.
    \21\ Brad Adams, ``Hard Facts on `Soft Arrests' in China,'' Wall 
Street Journal (Online), 25 May 07. Adams translates ruanjin as ``soft 
arrest''; Chinese Human Rights Defenders translates the term as ``soft 
detention.'' See Chinese Human Rights Defenders (Online), Dancing in 
Shackles: A Report on the Situation of Human Rights Defenders, May 2008 
[hereinafter Dancing in Shackles].
    \22\ Supreme People's Procuratorate Work Report, 10 March 08, 5 
(Open Source Center, 22 March 08).
    \23\ Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' 
China Information, 2008, 26, note 1 (noting that shuanggui has been 
translated as ``double regulation'' or ``double designation'') 
[hereinafter Shuanggui]; Shen Hu, ``Quiet Factory Buzzes with Graft 
Scandals,'' Caijing (Online), 26 August 08 (translating shuanggui as 
``double regulation'').
    \24\ See, e.g., ``Under Olympics House Arrest,'' Radio Free Asia; 
Chinese Human Rights Defenders, Dancing in Shackles; Human Rights Watch 
(Online), ``Walking on Thin Ice'': Control, Intimidation and Harassment 
of Lawyers in China, April 2008 [hereinafter ``Walking on Thin Ice''].
    \25\ ``Under Olympics House Arrest,'' Radio Free Asia; Chinese 
Human Rights Defenders, Dancing in Shackles; Human Rights Watch, 
``Walking on Thin Ice''; Adams, ``Hard Facts on `Soft Arrests' in 
China.''
    \26\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, Macau), 11 March 08; Edward Cody, ``China 
Uses Heavy Hand Even With Its Gadflies,'' Washington Post (Online), 9 
April 08.
    \27\ Zeng Jinyan, ``Open Letter to Plainclothes Police'' [Zhi 
bianyi jingcha de gongkai xin], posted on Zeng Jinyan's blog, Liao Liao 
Yuan, 30 May 08; Audra Ang, ``Detained Chinese Activist Returns to 
Beijing.''
    \28\ ``Under Olympics House Arrest,'' Radio Free Asia; Ben 
Blanchard, ``China Dissident's Wife Appeals for End to Harassment,'' 
Reuters (Online), 24 July 08.
    \29\ ``Lawyer's Fight for Property Rights,'' Associated Press, 
reprinted in International Herald Tribune (Online), 9 May 08.
    \30\ Chinese Human Rights Defenders (Online), ``Lawyer Zheng 
Enchong Once Again Confined to his Home'' [Zheng Enchong lushi zaici 
zaodao ruanjin], 07 July 08.
    \31\ Chinese Human Rights Defenders, China Human Rights Yearbook 
2007-2008, 1 August 08, 4 [hereinafter China Human Rights Yearbook].
    \32\ Ibid.
    \33\ Amnesty International (Online), People's Republic of China: 
The Olympics Countdown--Crackdown on Activists Threatens Olympics 
Legacy,'' 1 April 08 [hereinafter Crackdown on Activists]; Chinese 
Human Rights Defenders, China Human Rights Yearbook, 4-5.
    \34\ Chinese Human Rights Defenders, China Human Rights Yearbook, 
4.
    \35\ Amnesty International, Crackdown on Activists; Chinese Human 
Rights Defenders, China Human Rights Yearbook, 8.
    \36\ Amnesty International, Crackdown on Activists.
    \37\ Human Rights and the Rule of Law in China, Hearing of the 
Congressional-Executive Commission on China, 20 September 06, Written 
Statement Submitted by Jerome A. Cohen, Professor of Law, NYU Law 
School.
    \38\ Sapio, ``Shuanggui,'' 7; Human Rights and the Rule of Law in 
China, Written Statement Submitted by Jerome A. Cohen.
    \39\ Human Rights and the Rule of Law in China, Written Statement 
Submitted by Jerome A. Cohen.
    \40\ See Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, art. 9; International Covenant on Civil and Political Rights, 
adopted by General Assembly resolution 2200A (XXI) of 16 December 66, 
entry into force 23 March 76, art. 9.
    \41\ Sapio, ``Shuanggui,'' 23-24.
    \42\ Human Rights and the Rule of Law in China, Written Statement 
Submitted by Jerome A. Cohen.
    \43\ Sapio, ``Shuanggui,'' 21.
    \44\ Ibid.
    \45\ See, e.g., ``Reports: Vice Chairman of China Development Bank 
Facing Probe for Alleged Corruption,'' Associated Press, reprinted in 
International Herald Tribune (Online), 19 June 08; Jamil Anderlini, 
``Beijing Detains Senior Official in Anti-Corruption Investigation,'' 
Financial Times, 26 June 08.
    \46\ Teng Xiaomeng, ``Investigations into Guo Jingyi's `Double 
Regulations,' '' 21st Century Business Herald, 2 September 08 (Open 
Source Center, 18 September 08).
    \47\ Vivian Wu, ``High Court Judge Placed Under Party 
Investigation,'' South China Morning Post (Online), 18 October 08; 
Zhang Lisheng, ``Court Director Investigated: Report,'' China Daily 
(Online), 11 July 08.
    \48\ Luo Changping and Ouyang Hongliang, ``Who Disciplines Corrupt 
Disciplinarians?,'' Caijing (Online), 19 June 08.
    \49\ For more information about Hu Jia and others imprisoned for 
political crimes, see their records of detention searchable through the 
CECC's Political Prisoner Database.
    \50\ Donald Clarke, Wrongs and Rights: A Human Rights Analysis of 
China's Revised Criminal Law, Lawyers Committee for Human Rights, 1998, 
43; ``New Statistics Point to Dramatic Increase in Chinese Political 
Arrests in 2006,'' Dui Hua News (Online), 27 November 07; ``Statistics 
Show Chinese Political Arrests Rose Again in 2007,'' Dui Hua News 
(Online), 16 March 08.
    \51\ ``New Statistics Point to Dramatic Increase in Chinese 
Political Arrests in 2006,'' Dui Hua News; ``Statistics Show Chinese 
Political Arrests Rose Again in 2007,'' Dui Hua News.
    \52\ Charles Hutzler, ``Rights Activist Urges China To Grant 
Olympic Pardon,'' Associated Press (Online), 8 May 08.
    \53\ Human Rights Watch (Online), ``China: Free Tiananmen Prisoners 
Before Olympics: Dozens Still in Prison on 19th Anniversary of 
Massacre,'' 2 June 08.
    \54\ Benjamin Kang Lim, ``China Frees Dissident Hu After 16 years 
in Prison,'' Reuters, reprinted in Guardian (Online), 26 August 08.
    \55\ CECC, 2007 Annual Report, 39.
    \56\ Jerome Cohen, ``Triumph and Adversity: China's Distinctive 
Authoritarian Regime,'' South China Morning Post (Online), 4 September 
08.
    \57\ CECC, 2007 Annual Report, 39-40 (U.S. Department of State, 
Country Report on Human Rights Practices--2006, China, sec.1.d.).
    \58\ See, e.g., CECC, 2007 Annual Report, 39-40; Amnesty 
International (Online), 2008 Annual Report for China, 28 May 08; Cohen, 
``Triumph and Adversity.''
    \59\ Chinese Human Rights Defenders (Online), ``CHRD Urges China To 
End Torture of Detained Human Rights Activist,'' 22 August 08; Chinese 
Human Rights Defenders, China Human Rights Yearbook, 152. For more 
information about Liu Jie, see her record of detention searchable 
through the CECC's Political Prisoner Database.
    \60\ Chinese Human Rights Defenders (Online), ``Zheng Mingfang, 
Petitioner and Activist, Sent to Re-education through Labor,'' 20 April 
08; Li Rongtian, ``Tianjin Human Rights Defender Zheng Mingfang 
Arrested'' [Tianjinshi weiquan renshi Zheng Mingfang bei daibu], Radio 
Free Asia (Online), 3 March 08. For more information about Zheng 
Mingfang, see her record of detention searchable through the CECC's 
Political Prisoner Database.
    \61\ Human Rights in China (Online), ``Press Release: Family Visits 
Still Denied to Sichuan School Teacher Punished After Quake-Zone 
Visit,'' 29 July 08; Graham Bowley, ``Sichuan Teacher Punished for 
Quake Photos, Rights Group Says,'' New York Times (Online), 31 July 08. 
In September 2008, Human Rights in China reported that Liu was released 
on September 24 and allowed to serve his sentence outside of the labor 
camp. Human Rights in China (Online), ``Sichuan Teacher, Liu Shaokun, 
Was Released To Serve His Reeducation-Through-Labor Sentence Outside of 
Labor Camp,'' 26 September 08.
    \62\ See, e.g., CECC, 2007 Annual Report, 39; Human Rights in China 
(Online), ``Reeducation Through Labor: A Summary of Regulatory Issues 
and Concerns,'' 1 February 01; Human Rights Watch (Online), 
``Reeducation Through Labor in China,'' 1998; Amnesty International 
(Online), ``Abolishing `Re-education Through Labour' and Other Forms of 
Punitive Administration Detention: An Opportunity To Bring the Law into 
Line with the International Covenant on Civil and Political Rights,'' 
12 May 06.
    \63\ Thomas Kellogg and Keith Hand, ``NPCSC: The Vanguard of 
China's Constitution?,'' Jamestown Foundation China Brief (Online) 
(vol. 8, issue 2, 17 January 08); Chen Liang, ``Legal Academics Start 
Process to Submit the Reeducation through Labor System for 
Constitutional Review'' [Faxuejie tiqing laojiao zhidu qidong weixian 
shencha], Southern Weekend (Online), 5 December 07.
    \64\ ``Reeducation Through Labor Inappropriate, More Than 10,000 
Scholars Petition To Abolish RTL'' [Laojiao zhidu bu shiyi shangwan 
ming Zhongguo zuezhe yu feichu], China Times (Online), 9 July 08; 
Chinese Human Rights Lawyers Concern Group (Online), ``Abolish 
Reeducation Through Labor System, Build a Rule-of-Law Country--15,339 
Chinese Citizens Propose Unlawful Behavior Corrections Law (Citizens' 
Draft Proposal)'' [Feichu laodong jiaoyang zhidu, jianshe fazhi 
guojia--15,339 ming Zhongguo gongmin tichu weifa xingwei jiaozhifa 
(gongmin jianyigao)], 7 July 08.
    \65\ Human Rights Watch (Online), ``China: Events of 2007,'' 
January 2008; U.S. Department of State, Country Report on Human Rights 
Practices--2007, China; Gao Zhisheng, ``Open Letter to the United 
States Congress,'' 12 September 07, reprinted in Epoch Times (Online), 
27 September 07; CECC, 2007 Annual Report, 43-44.
    \66\ Manfred Nowak, Report of the Special Rapporteur on Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment, Mission to 
China, 10 March 06, para. 54 [hereinafter Nowak Report].
    \67\ Gao Zhisheng, ``Open Letter to the United States Congress''; 
Coalition To Investigate the Persecution of Falun Gong (CIPFG) 
(Online), ``Torture Outside the Olympic Village: A Guide to China's 
Labor Camps,'' 3 August 08.
    \68\ Uyghur Human Rights Project (Online), A ``Life or Death 
Struggle'' in East Turkestan: Uyghurs Face Unprecedented Persecution in 
Post-Olympic Period, 4 September 08, 3, 10.
    \69\ Chinese Human Rights Defenders, China Human Rights Yearbook, 
135-36. For more information about Yang Maodong (Guo Feixiong), see his 
record of detention searchable through the CECC's Political Prisoner 
Database.
    \70\ See, e.g., Chinese Human Rights Defenders, China Human Rights 
Yearbook, 135-36; Reporters Without Borders (Online), ``Detained Cyber-
dissident Has Been on Hunger Strike for Nearly 80 Days,'' 27 February 
08; U.S. Department of State, Country Report on Human Rights 
Practices--2007, China; Zhang Min, ``Lawyer Mo Shaoping Briefly 
Discusses China's Coerced Confessions and Legislative Shortcomings'' 
[Mo Shaoping lushi jiantan Zhongguo xingxun bikong yu lifa qianque], 
Radio Free Asia (Online), 19 December 07.
    \71\ Gao Zhisheng, ``Open Letter to the United States Congress.'' 
For more information about Gao Zhisheng, see his record of detention 
searchable through CECC's Political Prisoner Database.
    \72\ Chinese Human Rights Defenders, China Human Rights Yearbook 
2007-2008, 29; Yu Hang and Lillian Chang, ``Source Reveals Torture of 
Gao Zhisheng and Family,'' Epoch Times (Online), 8 August 08.
    \73\ Falun Dafa Information Center (Online), ``Behind the Olympic 
Spectacle: A Journalist's Walking Guide to the Persecution of Falun 
Gong in Beijing,'' 3 August 08.
    \74\ Michael Sheridan, ``Yu Zhou Dies as China Launches Pre-Olympic 
Purge of Falun Gong,'' Times Online, 20 April 08.
    \75\ TibetInfoNet (Online), ``Punitive Expeditions,'' 30 June 08.
    \76\ Ibid.
    \77\ See, e.g., CECC, 2007 Annual Report, 47; Chinese Human Rights 
Defenders, China Human Rights Yearbook, 103.
    \78\ See, e.g., CECC, 2007 Annual Report, 47; PRC Law on Lawyers, 
enacted 26 August 80, amended 15 May 96, and 28 October 07, art. 42; 
Chinese Human Rights Defenders, China Human Rights Yearbook, 103; Tom 
Kellogg, ``A Case for the Defense,'' China Rights Forum (Online), No. 2 
(2003); Terence C. Halliday and Sida Liu, ``Birth of a Liberal 
Movement? Looking Through a One-Way Mirror at Lawyers' Defence of 
Criminal Defendants in China,'' in Fighting for Political Freedom: 
Comparative Studies of the Legal Complex and Political Liberalism, ed. 
Terence C. Halliday et al. (Oxford: Onati IISL, 2007), 72.
    \79\ Chinese Human Rights Defenders, China Human Rights Yearbook, 
103; CECC, 2007 Annual Report, 47.
    \80\ Halliday and Liu, ``Birth of a Liberal Movement? '' 72-75; 
Human Rights Watch (Online), ``Walking on Thin Ice'': Control, 
Intimidation and Harassment of Lawyers in China, April 2008.
    \81\ CECC, 2007 Annual Report, 10 October 07, 47; Halliday and Liu, 
``Birth of a Liberal Movement? '', 72-75; Human Rights Watch, ``Walking 
on Thin Ice.''
    \82\ Human Rights Watch, ``Walking on Thin Ice''; Halliday and Liu, 
``Birth of a Liberal Movement?,'' 72; CECC, 2002 Annual Report, 2 
October 02, 32.
    \83\ Human Rights Watch, ``Walking on Thin Ice''; Chinese Human 
Rights Defenders, Dancing in Shackles.
    \84\ Human Rights Watch, ``Walking on Thin Ice''; Chinese Human 
Rights Defenders, Dancing in Shackles; Halliday and Liu, ``Birth of a 
Liberal Movement? ''
    \85\ Human Rights Watch, ``Walking on Thin Ice.''
    \86\ PRC Law on Lawyers, enacted 26 August 80, amended 15 May 96, 
and 28 October 07.
    \87\ According to a 2006 Chinese study cited in Human Rights 
Watch's report, ``Walking on Thin Ice,'' access to detained clients 
``remains the biggest and most often seen problem of criminal defense 
lawyers.'' Human Rights Watch, ``Walking on Thin Ice,'' note 154.
    \88\ Hou Yijun, ``The New Lawyers' Law and the Criminal Procedure 
Law Have Three Major Conflicts'' [Xin lushifa yu xingsufa cun san da 
chongtu], Beijing Youth Daily, 6 June 08.
    \89\ See, e.g., Hou Yijun, ``The New Lawyers' Law and the Criminal 
Procedure Law Have Three Major Conflicts''; ``Implementation of New 
Lawyers' Law Will Have ``Three Major Difficulties'' [Xin lushifa shishi 
you ``san danan''], Dayoo.com, reprinted in All China Lawyers 
Association (Online), 29 May 08; Huang Zhihe, ``More Thoughts on the 
Progress and Deficiencies of the New Lawyers' Law'' [Zaitan xin lushifa 
de jinbu yu buzu], All China Lawyers Association (Online), 29 May 08.
    \90\ Yan Xiu, ``Huang Qi's Wife and Lawyer Still Have Not Been Able 
to See Him'' [Qizi he weituo lushi reng bu neng jian Huang Qi], Radio 
Free Asia (Online), 10 June 08; Human Rights in China (Online), 
``Revised `Lawyers Law' Fails to Protect Lawyers,'' 19 June 08; Lin 
Shiyu, ``Lawyer Blocked from Meeting with Client Sues Public Security 
Bureau'' [Shenqing huijian shou zu'ai lushi qisu gonganju], 
Procuratorial Daily, reprinted in Justice Net (Online), 1 July 08.
    \91\ ``NPC Standing Committee's Reply to Lawyer's Proposal'' 
[Quanguo renda dui lushi ti'an de dafu], All China Lawyers Association 
(Online), 15 August 08.
    \92\ CECC, 2007 Annual Report, 51. See also official data included 
in ``(Two Sessions Authorized Release) Supreme People's Court Report,'' 
Xinhua (Online), 22 March 08; Halliday and Liu, ``Birth of a Liberal 
Movement? '' 87 (noting the persistence of a less than 1 percent 
acquittal rate in criminal cases).
    \93\ Human Rights Watch, ``Walking on Thin Ice.''
    \94\ Jerome A. Cohen and Eva Pils, ``Hu Jia in China's Legal 
Labyrinth,'' Far Eastern Economic Review (Online), May 2008.
    \95\ CECC, 2007 Annual Report, 43, 51; Nowak Report, para. 54 & 
note 62.
    \96\ Human Rights in China, Empty Promises: Human Rights 
Protections and China's Criminal Procedure Law in Practice, 2001, 85-
86; Randall Peerenboom, ``Out of the Pan and Into the Fire: Well-
Intentioned but Misguided Recommendations to Eliminate All Forms of 
Administrative Detention in China,'' 98 Northwestern University Law 
Review, 991, 994-95 (2004); Randall Peerenboom, China's Long March 
Toward Rule of Law (Cambridge, 2002), 137.
    \97\ Cohen and Pils, ``Hu Jia in China's Legal Labyrinth.''
    \98\ Ibid.
    \99\ Jerome Cohen, ``The Plight of China's Criminal Defence 
Lawyers,'' 33 HKLJ 231, 241-242 (2003); Worden, ``Law and its Limits in 
China''; CECC Staff Interviews.
    \100\ Human Rights Watch (Online), ``Tibetan Protestors Denied Fair 
Trial: Sentenced in Secret After Party Urges `Quick Hearings,' '' 30 
April 08.
    \101\ Jia Lijun, ``Judgments Pronounced Publicly on Some Defendants 
Involved in Lhasa's `14 March' Incident,'' Xinhua (Online), 29 April 08 
(Open Source Center, 29 April 08); Henry Sanderson, ``China Sentences 
30 people--Some to Life--over Tibet Riots,'' Associated Press (Online), 
29 April 08.
    \102\ Human Rights Watch, ``Tibetan Protestors Denied Fair Trial.''
    \103\ Chinese Human Rights Defenders, ``Tibetans Sentenced without 
Fair Trial,'' 2 May 08.
    \104\ CECC, 2007 Annual Report, 52-55.
    \105\ ``China Sees 30 Pct Drop in Death Penalty,'' Xinhua (Online), 
9 May 08.
    \106\ ``China's Top Court Rejects 15 Percent of Death Sentences,'' 
Reuters (Online), 8 March 08; Xie Chuanjiao, ``Top Court Overturns 15% 
Death Sentences in 1st Half Year,'' China Daily (Online), 27 June 08.
    \107\ Xie Chuanjiao, ``Top Court Overturns 15% Death Sentences in 
1st Half Year''; Chen Su, ``China's SPC Overturned 15% of Death 
Sentences'' [Zhongguo zuigao fayuan tuifan 15% sixing panjue], Voice of 
America (Online), 28 June 08.
    \108\ ``Top Judge: Death Sentences Meted Out Only to `Tiny Number 
of Felons' in China,'' Xinhua (Online), 10 March 08.
    \109\ ``Top Judge: Death Sentences Meted Out Only to `Tiny Number 
of Felons' in China''; Xie Chuanjiao, ``Fewer Executions After Legal 
Reform,'' China Daily (Online), 8 June 07.
    \110\ ``China's Top Court Rejects 15 Percent of Death Sentences,'' 
Reuters; `` `Hold the Execution,' the Supreme People's Court Overturns 
15 Percent of Death Sentences'' [`Dao xia liu ren,' yi cheng ban sixing 
an jing zuigao fayuan fuhe hou bohui], Beijing Morning News, posted on 
China News Net (Online), 8 March 08.
    \111\ CECC, 2007 Annual Report, 52; Jerome Cohen, ``A Slow March to 
Legal Reform,'' Far Eastern Economic Review, October 2007; Dui Hua 
Foundation (Online), ``Welcome Reduction in Use of Capital Punishment 
in China,'' 27 June 08.
    \112\ See, e.g., Wang Guangze, ``The Mystery of China's Death 
Penalty Figures,'' China Rights Forum (Human Rights in China, No. 2, 
2007), 41; ``PRC FM Spokesman Defends Keeping PRC Execution Statistics 
Secret,'' Agence France-Presse, 5 February 04 (Open Source Center, 5 
February 04); Jerome Cohen, ``A Slow March to Legal Reform.''
    \113\ Amnesty International (Online), ``Death Sentences and 
Executions in 2007,'' 15 April 08; ``PRC FM Spokesman Says Conditions 
`Not Ripe' for China to Abolish Death Penalty,'' Agence France-Presse 
(Online), 15 April 08.
    \114\ Dui Hua Foundation, ``Welcome Reduction in Use of Capital 
Punishment in China.''
    \115\ Antoaneta Bezlova, ``China Mulls Death Penalty Reform,'' Asia 
Times (Online), 17 June 08.

    Notes to Section II--Worker Rights
    \1\ China Labour Bulletin (Online), ``Are Trade Union and Labour 
Officials in Guangdong Beginning To Take Their Responsibilities 
Seriously? '' 28 February 08. See also, for example, ``Shuangyashan 
City of Heilongjiang Province Dispatches Troops to Stop Nearly 10,000 
Laid-off Workers from Taking Their Petition to Beijing,'' Radio Free 
Asia (Online), 24 June 08. ``Migrant Workers Beaten for Asking for Back 
Pay'' [Mingong tao xin zao bao'an bao da, yu yi tiao lou xiang weixie], 
People's Picture Net, reprinted in news163.com (Online), 22 July 08.
    \2\ See, for example, ``Shuangyashan City of Heilongjiang Province 
Dispatches Troops to Stop Nearly 10,000 Laid-off Workers from Taking 
Their Petition to Beijing'' [Heilongjiang sheng shuangyashan shi 
chudong quanbu jingli jiezhi jin wan ming maiduan gongren shangfang], 
Radio Free Asia (Online), 24 June 08. ``Migrant Workers Beaten for 
Asking for Back Pay,'' People's Picture Net.
    \3\ See, for example, International Trade Union Confederation 
(Online), ``China: Workers Arrested While Participating in Collective 
Protest Action,'' 6 March 08; ``Shuangyashan City of Heilongjiang 
Province Dispatches Troops to Stop Nearly 10,000 Laid-off Workers from 
Taking Their Petition to Beijing,'' Radio Free Asia.
    \4\ See the CECC Political Prisoner Database for more details.
    \5\ Russell Hsiao, ``Child Labor Ring Exposed in Guangdong,'' China 
Brief, Volume 8, Issue 10, Jamestown Foundation (Online), 13 May 08.
    \6\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 244 (``Where an employer, in violation of the laws 
and regulations on labor administration, compels its employees to work 
by restricting their personal freedom, if the circumstances are 
serious, the persons who are directly responsible for the offence shall 
be sentenced to fixed-term imprisonment of not more than three years or 
criminal detention and shall also, or shall only, be fined.'')
    \7\ See, e.g., Michael Bristow, ``Olympic Firm Admits Child 
Labor,'' BBC (Online), 13 June 07. On the use of child labor in Africa 
in the manufacture of Olympic medals for the Beijing Olympic Summer 
Games, see, for example, ``Child Labor; Seeking Social Harmony; 
Expanding Alliances,'' International Herald Tribune (Online), 14 August 
08.
    \8\ Other legislative and regulatory activity occurred at both the 
central and local levels. See for example, Implementing Regulations for 
the PRC Labor Contract Law [Zhonghua renmin gongheguo laodong hetong fa 
shishi tiaoli], issued and effective 18 September 08. In an effort to 
clarify provisions in the Employment Promotion Law before it took 
effect, the Ministry of Labor and Social Security issued new 
Regulations on Employment Services and Employment Management (Jiuye 
fuwu yu jiuye guanli guiding) on November 5, 2008, which took effect on 
January 1, 2008. China Labour Bulletin (Online), ``Ministry of Labour 
Tightens Controls on Employment Discrimination,'' 19 June 08; The 
Ministry of Labor and Social Security's Decision on Abolishing Some 
Regulations Concerning Labor and Social Security [Laodong he shehui 
baozhang bu guanyu feizhi bufen laodong he shehui baozhang guizhang de 
jueding], issued 9 November 07. A number of local regulations took 
effect during 2008, as detailed in the main body of this section. See 
subsections below on Collective Contracting and Local-level Legislative 
and Regulatory Developments. See also China Labour Bulletin, ``Are 
Trade Union and Labour Officials in Guangdong Beginning to Take Their 
Responsibilities Seriously? ''
    \9\ China Labour Bulletin, ``Are Trade Union and Labour Officials 
in Guangdong Beginning to Take Their Responsibilities Seriously? ''
    \10\ Ibid.
    \11\ See the discussion of the ``Labor Contract Law,'' infra, for 
more information.
    \12\ PRC Trade Union Law, enacted 3 April 92, amended 27 October 
01, art. 2, 4.
    \13\ See, for example, China Labour Bulletin Research Report No. 4 
(Online), ``Breaking the Impasse: Promoting Worker Involvement in the 
Collective Bargaining and Contracts Process,'' 4, November 2007.
    \14\ Anita Chan, ``The Emergence of Real Trade Unionism in Wal-Mart 
Stores,'' China Labor News Translations (Online), 4 May 08.
    \15\ Ibid.
    \16\ ``Sichuan Post Office Evades New Labor Law Provisions for 
Long-Term Employees by Requiring Them To Resign and Sign New Contract'' 
[Sichuan youzhengju feifa jie pin daliang yuangong], Radio Free Asia 
(Online), 14 December 07. ``Mass Layoffs? In Booming China? '' Forbes 
(Online), 13 November 07. China Labor Bulletin (Online), ``Employers 
Sacking Workers Before the Labor Contract Law Is Implemented,'' 14 
September 07. See also China Labor Bulletin (Online), ``Is Corporate 
`Wolf-culture' Devouring China's Over-worked Employees? '' 27 May 08, 
for an account of how Huawei, a telecom company with 60,000 employees, 
reportedly bribed 7,000 employees to resign and then re-hired them on 
short-term contracts. See also ``Chinese Workers in Coca-Cola 
Dispute,'' Radio Free Asia (Online), 12 September 08.
    \17\ See, for example, ``Internal Regulations Infringe on Workers 
Rights, Not Given Support,'' China Women's News (Online), 15 July 08.
    \18\ ICFTU/GUF/HKCTU/HKTUC Hong Kong Liaison Office (henceforth 
IHLO) (Online), ``The New Contract Law of China--Opportunities and 
Threats,'' December 2007.
    \19\ Implementing Regulations for the PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa shishi tiaoli], issued and 
effective 18 September 08.
    \20\ ``Surplus Labor Pool Shrinking,'' Xinhua (Online), 14 August 
08.
    \21\ Ariana Eunjung Cha, ``New Law Gives Chinese Workers Power, 
Gives Businesses Nightmares,'' Washington Post (Online), 14 April 08.
    \22\ ``New Labour Contract Law: Myth and Reality Six Months After 
Implementation,'' IHLO (Online), June 2008.
    \23\ The Hong Kong Liaison Office (HLO) of the international trade 
union movement (hence ``IHLO'') was founded in 1997 following 
reunification of Hong Kong with the PRC. Its Board comprises 
representatives of the International Confederation of Free Trade Unions 
(ICFTU), Global Union Federations (GUF), Hong Kong Confederation of 
Trade Unions (HKCTU), and the Hong Kong Trades Union Council (HKTUC).
    \24\ New Labour Contract Law: Myth and Reality Six Months After 
Implementation.'' IHLO.
    \25\ ``Six Unions Formed in Walmart in Six Months, Walmart 
Executives Say This is Related to a Shift In Recognition About Chinese 
Unions'' [Banyue nei liu jia fendian lian jian gonghui, wo'erma gaoceng 
chen ci zhuanbian yu dui zhongguo gonghui de renshi youguan], Beijing 
News (Online), 15 August 06; ``Number of Unions in Walmart Branches Up 
To 19'' [Zhongguo wo'erma fendian gonghui zeng zhi 19 jia], Beijing 
News (Online), 19 August 06; ``Wal-Mart Gets Communist Branch in 
China,'' Associated Press (Online), 25 August 06; ``Commentary: Enter 
the Fire-breathing Dragon? '' South China Morning Post (Online), 30 
September 06; The ACFTU hoped foreign invested enterprises would be 
encouraged to sign collective labor contracts. Some labor activists 
have been skeptical of the ACFTU's apparent ``trickle down'' approach 
to collective contracting. China Labour Bulletin (Online), ``Wal-Mart 
to Sign Collective Contracts at All China Stores,'' 4 August 08.
    \26\ ``Wal-Mart in Pay Deals With Chinese Unions,'' Financial Times 
(Online), 24 July 08. ``Trade Unions in China: Membership Required,'' 
Economist (Online), 31 July 08.
    \27\ Shenyang City Regulation on Collective Contracts [Shenyang shi 
jiti hetong guiding], effective 1 August 07. Shenyang's Regulations 
stipulate that a company may be fined up to 20,000 yuan for a variety 
of enumerated reasons, including rejecting a request for collective 
consultations, for failing to provide relevant documentation, for 
impeding the consultation process and for obstructing the conclusion or 
implementation of a collective labor contract (Article 17). The 
Shenyang Regulations include provisions that mandate collective 
consultations and collective contracts on remuneration, work safety and 
health issues for workers (Article 4), including migrant workers 
(Article 7). Explicit reference is made to the Liaoning United Migrant 
Workers' Union (Articles 7-9, 13). For further background, see China 
Labour Bulletin (Online), ``Wal-Mart Signs Its First Collective Wage 
Agreement With Employees in China,'' 16 July 08. (The mandated 
involvement Migrant Workers' Union in collective consultations and 
contracting expanded the Union's role, which heretofore had been 
limited to providing legal aid and assistance in accessing social 
services. The union was established in 2006 for the purpose of bringing 
migrant workers into the ACFTU. The implementation of Shenyang's 
Regulations on Collective Contracts appear to be a move in furtherance 
of that objective.)
    \28\ China Labour Bulletin, ``Wal-Mart Signs Its First Collective 
Wage Agreement With Employees in China.''
    \29\ China Labour Bulletin (Online), ``Wal-Mart to Sign Collective 
Contracts at All China Stores,'' 4 August 08.
    \30\ David Barbosa, ``China Tells Businesses To Unionize,'' New 
York Times (Online), 12 September 08.
    \31\ ``Leading Sports Brands, Unions, NGOs Form Working Group,'' 
Playfair 2008 (Online), 2 July 08.
    \32\ ``Walmart Signs a Collective Contract--a Review'' [Wo'ermaduo 
fendian qianding jiti hetong shiping] All China Federation of Trade 
Unions (ACFTU) (Online), 31 July 08.
    \33\ According to information from the ACFTU reported by CSR Asia 
Weekly, the government enacted its first comprehensive labor law in 
1994, and officials first proposed supplementing it with a labor 
contract law in 1996. After drafting of the law stalled in 1998, work 
on a new labor contract law began in 2004. ``Labor Contract Law of the 
PRC,'' CSR Asia Weekly (Online), 4 July 07. ``China's Legislature 
Adopts Labor Contract Law,'' Xinhua (Online), 29 June 07. The 
government claimed that more than 65 percent of the comments were from 
Chinese workers. ``Chinese Public Makes Over 190,000 Suggestions on 
Draft Labor Contract Law,'' Xinhua, 21 April 06 (Open Source Center, 21 
April 06).
    \34\ CECC Staff Interviews
    \35\ PRC Labor Contract Law, enacted 29 June 07, art. 2.
    \36\ PRC Labor Law, enacted 5 July 94, art. 16, 19.
    \37\ PRC Labor Contract Law, art. 10. If no contract exists at the 
time the relationship starts, it must be signed within one month.
    \38\ Ibid., art. 14.
    \39\ Ibid., art. 14.
    \40\ Ibid., art. 17.
    \41\ Ibid., arts. 36-50 (on terminations generally); 57-67 (on 
workers employed through staffing firms); and 80-95 (on legal 
liability). See also discussion infra.
    \42\ ``Law to Deal with Rising Number of Labor Disputes to Be 
Enacted,'' Xinhua, 27 August 07, reprinted on the National People's 
Congress Web site.
    \43\ Labor Dispute Mediation and Arbitration Law [Zhonghua renmin 
gongheguo laodong zhengyi tiaojie zhongcai fa], enacted 29 December 07, 
arts. 2, 52.
    \44\ Ibid., arts. 3, 10.
    \45\ Ibid., art. 47. See also articles 14 and 16 with respect to 
mediated outcomes. Previously, final arbitration awards were not 
legally binding. Article 47 of the new law, however, changes that 
(``(u)nless otherwise specified herein, the written arbitration award 
in any of the following employment disputes shall be final and become 
legally effective on the date it is rendered: (1) disputes involving 
recovery of labor remuneration, medical bills for a work-related 
injury, severance pay or damages, in an amount not exceeding the 
equivalent of twelve months of the local minimum wage rate; (2) 
disputes over working hours, rest, leave, social insurance, etc. 
arising from the implementation of state labor standards.)
    \46\ Labor Dispute Mediation and Arbitration Law, arts. 6, 39, and 
49.
    \47\ Ibid., art. 21.
    \48\ Ibid., art. 53.
    \49\ Ibid., arts. 27, 29, and 43.
    \50\ Ibid., art. 29.
    \51\ Fiona Tam, ``Caseloads Surge as Labourers Air Gripes,'' South 
China Morning Post (Online), 9 July 08. ``300 Construction Workers 
Demonstrate for Shirked Back Pay,'' Radio Free Asia (Online), 29 
October 07. ``Yunnan Peasants Owed 100 Million Yuan in Back Wages'' 
[Yunnan tuoqian nongmingong gongzi yiyi yuan], Radio Free Asia 
(Online), 3 December 07. ``Labor Arbitration Cases in Guangzhou Have 
Increased Dramatically: The Haizhu Region Witnessed a 15-fold 
Increase'' [Guangzhou laodong zhongcai anjian meng zeng, Haizhuqu zeng 
fuda shiwu bei], Radio Free Asia (Online), 26 March 08. See also, ``HK 
Companies in PRD Embroiled in Labor Disputes,'' NewsGD.com, 10 June 08. 
Apart from the overwhelming caseloads with which arbitration committees 
now must contend, the new law itself also displays other deficiencies. 
See, for example, China Labour Bulletin (Online) Research Reports 
``Help or Hindrance to Workers: China's Institutions of Public 
Redress,'' 23 April 08.
    \52\ PRC Employment Promotion Law, enacted 30 August 07, art. 28. 
In an effort to clarify provisions in the Employment Promotion Law 
before it took effect, the Ministry of Labor and Social Security issued 
Regulations on Employment Services and Employment Management [Jiuye 
fuwu yu jiuye guanli guiding] on October 30, 2007, which took effect on 
January 1, 2008. China Labour Bulletin (Online), ``Ministry of Labour 
Tightens Controls on Employment Discrimination,'' 19 June 08.
    \53\ PRC Employment Promotion Law, art. 3. Other laws have also 
included this provision. See, e.g., PRC Labor Law, art. 12.
    \54\ PRC Employment Promotion Law, arts. 27, 28.
    \55\ Ibid., art. 29. Interestingly, reference to the new law was 
conspicuously absent in some coverage of discrimination in the official 
media. See, for example, ``Disabled Yunnan Student Questions School's 
Employment Discrimination [Yunnan canji daxuesheng yingpin jiaoshi 
zaoju: zhiyi xiaofang jiuye qishi],'' Chuncheng Evening News, reprinted 
in Xinhua (Online), 11 March 08.
    \56\ PRC Employment Promotion Law, art. 31.
    \57\ Ibid., art. 30.
    \58\ Ibid., art. 62.
    \59\ Ibid., art. 7.
    \60\ Ibid., art. 9.
    \61\ Ibid., art. 52.
    \62\ Ibid., art. 16.
    \63\ Ibid., art. 30.
    \64\ ``Dongguan Court Orders Vtech to Pay Plaintiff 24,000 Yuan in 
Compensation for HBV Discrimination,'' China Labour Bulletin (Online), 
7 January 08.
    \65\ Ibid.
    \66\ Beijing Yirenping Center (Online), ``Mediation in the Second 
Trial in the First Shanghai HBV Discrimination Case is Successful: The 
Plaintiff Receives Satisfactory Compensation'' [Shanghai yigan qishi di 
yi an ershen tiaojie chenggong yuangao huo manyi buchang], 9 April 08, 
citing Shanghai Intermediate Court, civil ruling No. 4302. See also, 
China Labour Bulletin (Online), ``Shanghai HBV Discrimination Case 
Reaches `Satisfactory' Conclusion,'' 24 April 08.
    \67\ What Will Drive China's Future Legal Development? Reports from 
the Field. Hearing of the Congressional-Executive Commission on China, 
18 June 08 Testimony of Han Dongfang.
    \68\ China Labour Bulletin (Online), ``IBM Case Highlights Work 
Pressures in China's Hi-tech Industries,'' 30 June 08.
    \69\ For additional examples, see also ``Zhejiang to Promote 
Collective Wage Negotiation,'' CSR Asia (online), Vol. 4, Week 37, 10 
September 2008. (``The Zhejiang Provincial Party Committee and Zhejiang 
Provincial Government have jointly announced a document promoting 
collective wage negotiations. They aim to ensure that 70% of all 
enterprises and 100% of state-owned and collective enterprises adopt 
the system by the end of 2010.'') Shanghai also has seen noteworthy 
regulatory developments, including issuance of new Regulations on 
Collective Contracting (Shanghai shi jiti hetong tiaoli) which took 
effect on January 1, 2008. See also U.S.-China Business Council (USCBC) 
(Online), ``Human Resources Update, China's Evolving Labor Law 
Regime,'' 18 September 07.
    \70\ Guangdong Province High People's Court and Guangdong Province 
Labor Dispute Arbitration Commission Guiding Opinion on Implementing 
the Labor Dispute Mediation and Arbitration Law and Labor Contract Law 
[Guangdong sheng zuigao renmin fayuan, Guangdong sheng laodong zhengyi 
zhongcai weiyuanhui ``Guanyu shiyong `laodong zhengyi tiaojie zhongcai 
fa,' `laodong hetong fa' ruogan wenti de zhidao yijian' ''], issued 23 
June 08.
    \71\ ``Labour Law: State Council Delays, as Guangdong Makes it 
Better,'' China Law and Practice (Online), September 2008. Earlier, in 
December 2007, Guangzhou city issued an Urgent Circular on 
Strengthening the Administration of Mass Layoffs by Employers 
[Guangzhou shi guanyu jiaqiang dui yongren danwei guimoxing caiyuan 
guanli de jinji tongzhi], issued 16 December 07.
    \72\ Tam, ``Caseloads Surge as Labourers Air Gripes''; ``Yunnan 
Peasants Owed 100 million Yuan in Back Wages, Radio Free Asia. ``Labor 
arbitration Cases in Guangzhou have Increased Dramatically: The Haizhu 
Region Witnessed a 15-fold Increase,'' Radio Free Asia. See also, ``HK 
Companies in PRD Embroiled in Labor Disputes,'' NewsGD.com.
    \73\ ``Labour Law: State Council Delays, as Guangdong Makes It 
Better,'' China Law and Practice. Earlier, in December 2007, Guangzhou 
city issued an Urgent Circular on Strengthening the Administration of 
Mass Layoffs by Employers.
    \74\ ``Hebei Province Regulations on Enterprise Collective 
Consultations between Labor and Management'' [Hebei sheng qiye zhigong 
gongzi jiti xieshang tiaoli], issued 21 September 07. See also, China 
Labour bulletin (Online), ``Hebei Takes the Lead in Implementing 
Legislation on Collective Consultations,'' 30 January 08.
    \75\ Ibid.
    \76\ Ibid.
    \77\ Ibid., art. 8.
    \78\ Ibid., art. 4.
    \79\ Ibid.
    \80\ China Labour Bulletin (Online), ``A Turning Point for China's 
Trade Unions,'' 21 August 08; PRC Trade Union Law, art. 27. (``In case 
of a work-stoppage or slow-down in an enterprise or institution, the 
trade union shall, on behalf of the workers and staff members, hold 
consultations with the enterprise or institution or the parties 
concerned.'')
    \81\ China Labour Bulletin, ``A Turning Point for China's Trade 
Unions''; Shenzhen City Implementing Regulations for the Trade Union 
Law, [Shenzhen shi shishi ``zhonghua renmin gongheguo gonghui fa'' 
banfa], art. 47.
    \82\ China Labour Bulletin, ``A Turning Point for China's Trade 
Unions''; Shenzhen City Implementing Regulations for the Trade Union 
Law, [shenzhen shi shishi ``shonghua renmin gongheguo gonghui fa'' 
banfa], issued 31 July 08, Chapter 3, ``Trade Union Rights and 
Obligations'' (``Gonghui de quanli he yiwu''). The Trade Union Law of 
2001 refers to the trade union's role in helping the enterprise to 
restore normal production in the event of a work stoppage or slowdown. 
The Shenzhen regulations contain no references to such a role.
    \83\ Shenzhen City Implementing Regulations for the Trade Union 
Law, art. 36. See also, China Labour Bulletin, ``A Turning Point for 
China's Trade Unions.''
    \84\ Shenzhen City Implementing Regulations for the Trade Union 
Law. See especially arts. 18(3), 27-31, 44 and 45.
    \85\ China Labour Bulletin (Online), ``A Turning Point for China's 
Trade Unions,'' 21 August 08. The Regulations require union committees 
to submit candidate lists to the union at the next level up for 
approval before holding elections for workplace union officials. See 
Shenzhen City Implementing Regulations for the Trade Union Law, art. 
11.
    \86\ China Labour Bulletin (Online), ``New Shenzhen Labor 
Regulations Offer Hope for the Future,'' 13 Aug 08. Draft Regulations 
on the Growth and Development of Harmonious Labor Relations in the 
Shenzhen Special Economic Zone [Shenzhen jingji tequ goujian he fazhan 
hexie laodong guanxi ruogan guiding (cao an)]. The Draft Regulations 
were approved by the Shenzhen Municipal People's Congress on 23 
September 2008 as the Shenzhen Special Economic Zone Regulations on 
Promotion of Harmonious Labor Relations [Shenzhen jingji tequ hexie 
laodong guanxi cujin tiaoli], effective 1 November 2008. See China 
Labour Bulletin (Online), ``Shenzhen Labour Regulations Modified With 
Some Gains and Some Losses for Workers,'' 8 October 2008. Commission 
analysis of the final Regulations, including comparison with the Draft 
Regulations discussed herein, will be published during the Commission's 
2009 reporting cycle.
    \87\ China Labour Bulletin, ``New Shenzhen Labor Regulations Offer 
Hope for the Future.''
    \88\ Chen Yu, ``Shenzhen is One Step Away from the Right to 
Strike,'' New Express, 5 June 08, reprinted in China Labour Bulletin, 
17 June 08. China Labour Bulletin, ``New Shenzhen Labor Regulations 
Offer Hope for the Future.''
    \89\ Chen Yu, ``Shenzhen is One Step Away from the Right to 
Strike.''
    \90\ China Labour Bulletin, ``New Shenzhen Labor Regulations Offer 
Hope for the Future''; Draft Regulations on the Growth and Development 
of Harmonious Labor Relations in the Shenzhen Special Economic Zone, 
art. 45. Article 45 stipulates that, in the event of major labor 
disputes, members of the municipal or district labor relations 
committee may organize mediation proceedings according to a ``special 
mediation'' system. As written, this system perpetuates the direct 
involvement of government in labor dispute resolution.
    \91\ China Labour Bulletin, ``New Shenzhen Labor Regulations Offer 
Hope for the Future''; Draft Regulations on the Growth and Development 
of Harmonious Labor Relations in the Shenzhen Special Economic Zone, 
chapter 3. Under Article 20 of the Shenzhen Draft regulations, ``If 
production and business operations make it necessary to prolong working 
hours, the employer may decide or agree to do so by means of collective 
consultation or a collective contract in accordance with the law, 
provided that the workers give their free consent and their health is 
ensured.'' This stands in contrast with Article 41 of the Labor Law, 
under which employers may, after consulting with the trade union and 
workers, temporarily prolong working hours as production or businesses 
operations require.
    \92\ China Labour Bulletin, ``New Shenzhen Labor Regulations Offer 
Hope for the Future''; Draft Regulations on the Growth and Development 
of Harmonious Labor Relations in the Shenzhen Special Economic Zone, 
art. 47.
    \93\ Shenzhen Special Economic Zone Regulations on Promotion of 
Harmonious Labor Relations [Shenzhen jingji tequ hexie laodong guanxi 
cujin tiaoli], art. 39. China Labour Bulletin, ``New Shenzhen Labor 
Regulations Offer Hope for the Future''; Draft Regulations on the 
Growth and Development of Harmonious Labor Relations in the Shenzhen 
Special Economic Zone, art. 35.
    \94\ ``Hangzhou Arranges Back Pay Early Warning Mechanism,'' CSR 
China (Online), 26 August 08.
    \95\ Tam, ``Caseloads Surge as Labourers Air Gripes.''
    \96\ Tam, ``Caseloads Surge as Labourers Air Gripes;'' ``Labor 
Arbitration Cases in Guangzhou have Increased Dramatically: The Haizhu 
Region Witnessed a 15-fold Increase,'' Radio Free Asia. See also, ``HK 
Companies in PRD Embroiled in Labor Disputes,'' NewsGD.com; ``300 
Construction Workers Demonstrate for Shirked Back Pay,'' Radio Free 
Asia; ``Yunnan Peasants Owed 100 million Yuan in Back Wages,'' Radio 
Free Asia.
    \97\ ``Labor Arbitration Cases in Guangzhou Have Increased 
Dramatically: The Haizhu Region Witnessed a 15-fold Increase,'' Radio 
Free Asia. See also, ``HK Companies in PRD Embroiled in Labor 
Disputes,'' NewsGD.com.
    \98\ See, for example, ``Multinationals Face Chinese Labor Clout,'' 
Caijing (Online), 12 June 08; ``Behind the Defiance in the Skies'' 
[Fanhang shijian zhong de zhidu quexian], Economic Observer Online 
(Online), 15 April 08 (English version published 22 April 08); ``China 
Pay Row Pilots `Turn Back,' '' BBC (Online), 3 April 08; ``Pilots Set 
to Win Deal After Strike,'' South China Morning Post (Online), 3 April 
08; ``China Eastern Airlines Suspends Two Officials Over Flight 
Disruptions,'' CSR Asia (Online), 9 April 08; ``Licenses of Protest 
Pilots Cancelled,'' South China Morning Post (Online), 3 July 08; 
``Thousands Strike Over Pay Deductions At South China Factory,'' Radio 
Free Asia (Online), 28 November 07; ``Shanghai's Korean Invested 
Chongming Enterprises Wage Disputes: 600 Workers Stage Sit In'' 
[Shanghai chongming han zi qiye qianxin jiufen liubai duo gongren reng 
zai jing zuo], Radio Free Asia (Online), 29 November 07; Fiona Tam, 
``Shenzhen Strike Strands Thousands,'' South China Morning Post 
(Online), 30 August 08; ``Migrant Workers Riot in Eastern China 
[Zhejiang],'' Associated Press, reprinted in International Herald 
Tribune (Online), 14 July 08. Hong Kong Information Center for Human 
Rights and Democracy, ``PRC: 10,000 Peasant Workers Clash With Police 
in Zhejiang's Ningbo, Some Nabbed,'' 5 September 08 (Open Source 
Center, 5 September 08); ``Masseurs in Shenzhen Protest Against 
Layoffs,'' South China Morning Post (Online), 25 December 2007.
    \99\ Chen Yu, ``Shenzhen is One Step Away from the Right to 
Strike.'' See also China Labour Bulletin (Online), ``Shenzhen Trade 
Union Sees Strikes as a Natural Phenomenon,'' 15 April 08.
    \100\ ``China Eastern Airlines Pilots Accept Verdict on Contract 
Dispute,'' Xinhua (Online), 12 September 08. ``Chinese Pilots Ordered 
to Pay Compensation for Resignation,'' Agence France-Presse (Online), 
12 September 08. Sun Liping, ``Behind the Defiance in the Skies,'' 
Economic Observer Online (Online), 15 April 08; ``China Pay Row Pilots 
`Turn Back,' '' BBC (Online), 3 April 08; ``Pilots Set to Win Deal 
After Strike,'' South China Morning Post (Online), 3 April 08; ``China 
Eastern Airlines Suspends Two Officials Over Flight Disruptions,'' CSR 
Asia (Online), 9 April 08; ``Licenses of Protest Pilots Cancelled,'' 
South China Morning Post (Online), 3 July 08.
    \101\ Ibid.
    \102\ Ibid.
    \103\ Sun Liping, ``Behind the Defiance in the Skies.''
    \104\ ``China Eastern Airlines Pilots Accept Verdict on Contract 
Dispute,'' Xinhua. ``Chinese Pilots Ordered to Pay Compensation for 
Resignation,'' Agence France-Presse. Some pilots, however, have 
prevailed in court. On August 27, 2008, the Shunyi District Court in 
Beijing ruled that a pilot with Xinhua Airlines could resign without 
compensating the airline. A local labor arbitration committee had ruled 
in April in the pilot's favor on the question of termination, but the 
committee made no decision on compensation claimed by both sides. Both 
the airline and the pilot pursued their claims in court. The Shunyi 
District Court ruled that, under China's Labor Law, the pilot had a 
right to resign without fine or penalty. The court rejected the pilot's 
claims for seniority and bonus payments, but awarded him 7,800 yuan in 
back pay and overtime. See ``Chinese Pilot Wins Landmark Labor Suit,'' 
Xinhua (Online), 28 August 08.
    \105\ See ``Chinese Pilot Wins Landmark Labor Suit,'' Xinhua.
    \106\ ``China Eastern Airlines Pilots Accept Verdict on Contract 
Dispute,'' Xinhua. ``Chinese Pilots Ordered to Pay Compensation for 
Resignation.'' Agence France-Presse.
    \107\ Ibid.
    \108\ Ibid.
    \109\ ``Nine Dragons Paper: Sweatshop Paper,'' Students and 
Scholars Against Corporate Misbehavior (SACOM) (Online), 18 June 08.
    \110\ The point is worth noting because another firm (Topstar 
Lighting Co. Ltd, a General Electric supplier), with a similar record 
of violations, received relatively less favorable treatment. See 
``Guangdong Provincial ACFTU Finds Itself in Muddy Waters,'' IHLO 
(Online), May 08.
    \111\ Fu Yanyan, ``Papermaker's Labor Tension Sparks Debate,'' 
Caijing (Online), 28 May 08.
    \112\ Ibid.
    \113\ This figure has been confirmed by Chinese Ministry of Labor 
officials; CECC Staff Interview.
    \114\ See, for example, Human Rights Watch (Online), `` `One Year 
of My Blood'--Exploitation of Migrant Construction Workers in Beijing'' 
12 March 08. In addition, a 2006 report from the State Council Research 
Office found that wages for migrant workers are ``universally low;'' 
workplaces lack ``the most basic labor protection[s];'' migrant workers 
``engage in overly intensive labor for excessively long hours,'' 
without a guaranteed right to rest; and migrant workers are ``unable to 
obtain . . . employment rights and public employment services'' on a 
par with permanent urban residents. Translated portions of the study, 
conducted by the State Council Research Office Study Group and 
originally published as the book China Peasant Worker Research Report 
in April 2006, is available at ``PRC: Excerpts of State Council 
Research Report on Migrant Workers'' (Open Source Center, 12 September 
07).
    \115\ ``Three Rural Migrant Workers Enter China's Top 
Legislature,'' Xinhua (Online), 28 February 08.
    \116\ ``State Council Migrant Workers Office: Migrant Workers Labor 
Contract Handbook to Be Published'' [Guowuyuan nonggongban: nongmingong 
jianyi laodong hetong wenben youwang chutai], People's Daily (Online), 
12 August 08.
    \117\ China Labour Bulletin (Online), ``Migrant Workers Start To 
Win Significant Compensation Awards in the Courts,'' 8 January 08.
    \118\ Li Bingqin and Peng Huamin, ``The Social Protection of Rural 
Workers in the Construction Industry in Urban China,'' LSE Research 
Paper No. 113, November 2006.
    \119\ See, for example, Anita Chan, ``Systematic Government Theft 
of Migrant Workers' Retirement Pensions,'' China Labor News 
Translations (Online), 13 July 08.
    \120\ China Labour Bulletin (Online), ``New Migrant Worker 
Department Faces a Daunting Task,'' 22 July 08.
    \121\ Ibid.
    \122\ PRC Labor Law, art. 48.
    \123\ PRC Labor Contract Law, arts. 72, 74, 85.
    \124\ CECC, 2007 Annual Report, 66; See also, Ministry of Labor and 
Social Security (Online), ``2006 Statistical Communique on the 
Development of Labor and Social Security Affairs'' [2006 niandu laodong 
he shehui baozhang shiye fazhan tongji gongbu], last visited 10 October 
07. For statistics by year, see data from the National Bureau of 
Statistics of China Web site. See also Guan Xiaofeng, ``Labor Disputes 
Threaten Stability,'' China Daily, 30 January 07 (Open Source Center, 
30 January 07); ``China To Enact Law To Deal With Rising Number of 
Labor Disputes,'' Xinhua, 26 August 07 (Open Source Center, 26 August 
07).
    \125\ China Labour Bulletin, ``Help or Hindrance to Workers: 
China's Institutions of Public Redress,'' 2.
    \126\ PRC Labor Law, art. 36.
    \127\ China Labor Bulletin (Online), ``Falling Through the Floor: 
Migrant Women Workers' Quest for Decent Work in Dongguan, China,'' 
September 2006, 6, 10, 15.
    \128\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops,'' Business Week (Online), 27 November 06.
    \129\ PRC Labor Law, art. 73.
    \130\ See, for example, ``Guangxi Labor Security Supervision 
Approach Implemented In September,'' China CSR (Online), 28 August 08. 
``Hubei Tieshu Group Retired Workers Demand Court Action on Judicial 
Decision'' [Hubei tieshu jituan tuixiu zhigong yaoqiu fayuan zhixing 
laodong panjue], Civil Rights and Livelihood Watch (Minzhu Guancha) 
(Online), 12 June 08.
    \131\ ``China Mine Explosion `Kills 20,' '' BBC Asia (Online), 22 
January 08; France-Presse (Online), 8 September 08; Mine Collapse Kills 
9, Injures 11,'' China Daily (Online), 6 June 08.
    \132\ ``Why Chinese Coal Miners Are Willing to Risk Their Lives,'' 
CSR Asia (Online), 12 December 07; Deaths in Coal Mine Explosion 
[Shanxi yuxian meikuang fasheng meichen baozha 5 ren siwang], 
Chinanews.com (Online), 22 May 08;'' Scramble Continues in Coal 
Country,'' New York Times (Online), 9 February 08; Leak Kills 29 
Chinese Miners,'' BBC Asia (Online), 9 November 07; Mine Blast Death 
Toll Rises to 104,'' Reuters (Online), 7 December 07. The second worst 
coal mine disaster in the history of contemporary China occurred in 
August 2007, when 172 miners drowned underground after the Wenhe River 
flooded and poured 12 million cubic meters of water into the Huayuan 
coal mine in Shandong province. With 3,786 miners killed in 2007, 
according to official figures, China's coal mines are the world's 
deadliest--in spite of the fact that mining accident and death rates 
have declined over the last five years. In February 2008, nine miners 
were killed in a gas explosion at a mine in Shaanxi province. ``China 
Mine Blast Kills 9 Amid New Drive for Coal,'' Reuters, 3 February 08. 
The accident came three days after President Hu personally visited 
mines in a neighboring province and paid tribute to miners who worked 
through the Spring Festival in order to maximize coal production 
levels. On January 31, 2008, President Hu Jintao visited coal fields in 
Datong, Shanxi Province and inspected Qinhuangdao Port, Hebei province, 
a major transportation hub for much of Shanxi's coal. According to 
Chinese media reports, at the time of President Hu's visit, which 
followed major snow storms in many parts of China, ``miners at the 
Datangtashan coal mine in Datong had been working overtime in 
temperatures of minus 20 degrees Celsius to increase supply.'' 
According to official reports, ``[President Hu] asked the miners to 
produce as much coal as they could safely to provide more fuel for 
generating electricity amid a nation-wide shortage. `Disaster-hit areas 
need coal and the power plants need coal,' Hu told administrators and 
workers of the mine, saying that coal supply had been a crucial part in 
fighting the snow disaster. `I pay an early new year call here to those 
miners who will not go back home to celebrate the Spring Festival for 
the coal production.' '' ``Hu Urges Coal Mines, Ports to Safeguard 
Supplies,'' Xinhua (Online), 31 January 08;
    \133\ China Labour Bulletin Research Report (Online), ``Bone and 
Blood: The Price of Coal in China,'' No. 6, 17 March 08.
    \134\ See, for example, ``Enterprises Were Found to Use Child 
Workers without Employment Contracts and Workers' Insurance in 
Zhaoqing, Guangdong'' [Zhaoqing bufen qiye yong tonggong wu hetong que 
baoxian], Xinhua (Online), 6 August 08.
    \135\ ILO Convention (No. 138) concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labor, 17 June 99.
    \136\ PRC Labor Law, art. 15. See also Law on the Protection of 
Minors, enacted 4 September 91, art. 28. See generally Provisions on 
Prohibiting the Use of Child Labor [Jinzhi shiyong tonggong guiding], 
issued 1 October 02.
    \137\ Provisions on Prohibiting the Use of Child Labor, art. 6. See 
also, for example, ``Legal Announcement--Zhejiang Determines Four 
Circumstances that Define Use of Child Labor'' [Fazhi bobao: Zhejiang 
jieding shiyong tonggong si zhong qingxing], China Woman (Online), 26 
July 08.
    \138\ This provision was added into the fourth amendment to the 
Criminal Law in 2002. Fourth Amendment to the Criminal Law of the 
People's Republic of China [Zhonghua renmin gonghe guo xingfa xiuzheng 
an (si)], issued 28 December 02. See also PRC Criminal Law, art. 244.
    \139\ China Labour Bulletin (Online), ``Small Hands: A Survey 
Report on Child Labor in China,'' September 07, 3.
    \140\ Ibid., 8.
    \141\ Ibid., 15, 22, 25-32.
    \142\ For more information on this phenomenon, see International 
Labour Organization (Online), Report of the Committee of Experts on the 
Application of Conventions and Recommendations Worst Forms of Child 
Labor Convention, 1999 (No. 182) China (ratification: 2002) 
Observation, CEACR 2006/77th Session, 2006.
    \143\ See, e.g., ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, art. 3, defining such labor to include forced or 
compulsory labor.
    \144\ See, e.g., ``Olympic Firm Admits Child Labor,'' BBC. On the 
use of child labor in Africa in the manufacture of Olympic medals for 
the Beijing Olympic Summer Games, see, for example, ``Child Labor; 
Seeking Social Harmony; Expanding Alliances,'' International Herald 
Tribune.
    \145\ For the government response to forced labor in brick kilns, 
including child labor, see, e.g., Zhang Pinghui, ``Crackdown on Slave 
Labor Nationwide--State Council Vows To End Enslavement,'' South China 
Morning Post (Online), 21 June 07.
    \146\ ``China Urged to End `Child Labor' in Schools,'' Reuters 
(Online), 3 December 07; Human Rights Watch (Online), ``China: End 
Child Labor in State Schools,'' 3 December 07.
    \147\ Ibid.
    \148\ Provisions on Prohibiting the Use of Child Labor, art. 13.
    \149\ PRC Education Law, issued 18 March 95, art. 58.
    \150\ See generally ``Regulation on Nationwide Temporary Work-Study 
Labor for Secondary and Elementary Schools'' [Quanguo zhong xiaoxue 
qingongjianxue zanxing gongzuo tiaoli], issued 20 February 83.
    \151\ ILO Convention 138 permits vocational education for underage 
minors only where it is an ``integral part'' of a course of study or 
training course. ILO Convention 182 obligates Member States to 
eliminate the ``worst forms of child labor,'' including ``forced or 
compulsory labor.'' ILO Convention (No. 138) Concerning Minimum Age for 
Admission to Employment; ILO Convention (No. 182) Concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour.
    \152\ Report of the Committee of Experts on the Application of 
Conventions and Recommendations Worst Forms of Child Labour Convention, 
1999 (No. 182) China (ratification: 2002) Observation, CEACR 2006/77th 
Session, International Labour Organization, 2006.
    \153\ ``Large Numbers `Kidnapped' from the Mountains into the Pearl 
River Delta'' [Zouchu dashan dapi bei `guai' zhusanjiao], Southern 
Metropolitan Daily, 28 April 08; ``Police Find Sichuan Children Sold as 
Workers,'' South China Morning Post (Online), 1 May 08; ``Investigation 
into Child Slavery Launched,'' South China Morning Post (Online), 1 May 
08. See also David Barboza, ``Child Labor Rings Reach China's Distant 
Villages,'' New York Times (Online), 10 May 08.
    \154\ ``Large Numbers ``Kidnapped'' from the Mountains into the 
Pearl River Delta,'', Southern Metropolitan Daily; ``Police Find 
Sichuan Children Sold as Workers,'' South China Morning Post; 
``Investigation into Child Slavery Launched,'' South China Morning Post 
(Online).
    \155\ Li Aoxue, ``Investigation Confirms Use of Child Labor,'' 
China Daily (Online), 2 May 08. ``Guangdong Denies Child Slave 
Reports,'' South China Morning Post (Online), 7 May 08; ``Dongguan: 
Inspection of 3,629 Enterprises Reveals No Child Labor So far'' 
[Dongguan: Paicha 3,629 jia zhiye zanwei faxian Sichuan Liangzhou 
tonggong], Guangzhou Daily, 1 May 08; China Labour Bulletin (Online), 
``Authorities Attempt to Play-down Dongguan Child Labor Scandal,'' 2 
May 08.
    \156\ For a fully hyperlinked compilation of Chinese press stories 
on the Shanxi forced labor scandal of 2007 and its aftermath, see China 
Labour Bulletin (Online), ``From Shanxi to Dongguan, Slave Labor is 
Still in Business,'' 21 May 08. See also, CECC, 2007 Annual Report, 
Section on Worker Rights, 56-72.
    \157\ ``Commentary: Liu Hongbo: Reappearance of Brick Kiln Official 
Is not Necessarily Strange'' [Liu hongbo: heiyao guanyuan fuchu bubi 
cheng qiqiao], Southern Metropolitan Daily (Online), 16 April 08; 
``Editorial: Brick Kiln Official's Reappearance Uncovers a Scar that 
has not Fully Healed'' [She hei zhuanyao guanyuan fuchu, jiekai 
shangwei guanyu de shangba], Southern Metropolitan Daily (Online), 16 
April 08; ``Female Official Removed After Brick Kiln Incident 
Reappears; It Has not yet been Made Public that She Was Appointed as 
Assistant District Head for Yaodu County'' [Hei zhuanyao shijian bei 
che guanyuan fuchu weijing gongshi ji bei renming yaodu qu quzhang 
zhuli], Southern Metropolitan Daily (Online), 15 April 08.
    \158\ PRC Criminal Law, art. 244. (``Where an employer, in 
violation of the laws and regulations on labor administration, compels 
its employees to work by restricting their personal freedom, if the 
circumstances are serious, the persons who are directly responsible for 
the offence shall be sentenced to fixed-term imprisonment of not more 
than three years or criminal detention and shall also, or shall only, 
be fined.'')
    \159\ CECC, 2007 Annual Report, 72, citing Ng Tze-wei, ``Lawyers' 
Group Calls for Anti-Slavery Law,'' South China Morning Post (Online), 
10 July 07.
    \160\ ``Chinese People's Political Consultative Conference Proposes 
Making the Violent Forcing of Someone to Work a Crime in Response to 
Brick Kiln Cases'' [Zhengxie weiyuan zhendui hei zhuanyao an tiyi she 
baoli qiangpo laodong zui], Procuratorial Daily (Online), 11 March 08; 
``Commentary: This Is Slavery, but There Is no Slavery Charge'' [Zhe 
shi nuyi, que meiyou nuli zuiming], Southern Metropolitan Daily 
(Online) 9 April 08.
    \161\ The local government paid victims in Hongdong wages in 
arrears and ``sympathy'' money (weiwenjin). China Labour Bulletin, 
``From Shanxi to Dongguan, Slave Labor is Still in Business.''
    \162\ All China Lawyers Association's Guiding Opinion on the 
Handling of Collective Cases [Zhonghua quanguo lushi xiehui guanyu 
lushi banli quntixing anjian zhidao yijian], issued 20 March 06. The 
Opinion stipulates that, ``after a lawyer agrees to take on a 
collective case they must enter into prompt and full communication with 
the judicial authorities, and give a factual account of the situation, 
highlighting points needing attention.'' The Opinion also stipulates 
that ``after accepting a collective case lawyers must promptly explain 
the facts through the appropriate channels to the government 
organizations involved.''
    \163\ ``Official Defends Response to Forced Labor Scandal,'' CECC 
China Human Rights and Rule of Law Update, January 2008. China Labour 
Bulletin (Online), ``Former Slave Labourers File Civil Suit against 
Their Oppressors,'' 11 April 2008.
    \164\ CECC Staff Interview.
    \165\ Ibid.
    \166\ These other rights are ``the elimination of all forms of 
forced or compulsory labor; the effective abolition of child labor; and 
the elimination of discrimination in respect of employment and 
occupation.'' ILO Declaration on Fundamental Principles and Rights at 
Work, 18 June 98, International Labour Organization (Online), art. 2 
[hereinafter ILO Declaration].
    \167\ See ``ILO Tripartite Constituents in China,'' International 
Labour Organization (Online), viewed September 27, 2007.
    \168\ ILO Declaration, art. 2. China has been a member of the ILO 
since its founding in 1919. For more information, see the country 
profile on China in the ILO database of labor, social security and 
human rights legislation (NATLEX) (Online).
    \169\ International Labour Organization (Online), ``Ratifications 
of the Fundamental Human Rights Conventions by Country,'' 11 September 
07.
    \170\ International Labour Organization, Committee on Legal Issues 
and International Labour Standards (Online), ``Ratification and 
Promotion of Fundamental ILO Conventions,'' 300th Session Governing 
Body, Geneva, November 2007. Item 20: ``China has not yet ratified 
Conventions Nos 29, 87, 98 and 105. In September 2007, the Government 
indicated that cooperation with the ILO was continuing regarding the 
ratification of Conventions Nos 29 and 105, which would be ratified 
when effective implementation was ensured. With regard to Conventions 
Nos 87 and 98, the Government indicated that it continued to promote 
capacity building for workers' and employers' organizations as well as 
collective bargaining. It expressed interest in continued collaboration 
with the ILO on these Conventions.''
    \171\ See generally PRC Labor Law, art. 12.
    \172\ International Covenant on Economic, Social, and Cultural 
Rights adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.
    \173\ Declarations and Reservations, United Nations Treaty 
Collection (Online), 5 February 02. Article 10 of China's Trade Union 
Law establishes the All China Federation of Trade Unions (ACFTU) as the 
``unified national trade union federation,'' and Article 11 mandates 
that all unions must be approved by the next higher-level union body, 
giving the ACFTU an absolute veto over the establishment of any local 
union and the legal authority to block independent labor associations. 
PRC Trade Union Law, art. 10, 11.

    Notes to Section II--Freedom of Expression
    \1\ CECC, 2007 Annual Report, 10 October 07, 73, 74.
    \2\ Ibid., 85-87.
    \3\ China Internet Network Information Center (Online) [hereinafter 
CNNIC], ``CNNIC Releases the 22nd Statistical Report on the Internet 
Development in China,'' 31 July 08.
    \4\ Ministry of Industry and Information Technology (Online), 
``Nation's Cell Phone Users Breaks 600 Million, Telecommunications 
Industry Increases by 25.9%'' [Wo guo yidong dianhua yonghu tupo liuyi 
hu dianxin yewu zongliang tongbi zengzhang 25.9%], 23 July 08.
    \5\ In June 2007, the number of Internet users in China reached 162 
million. CNNIC, ``The 20th CNNIC Statistical Survey Report on the 
Internet Development in China,'' July 2007, 9. The change from 162 
million to 253 million is a 56 percent increase. In June 2007, the 
number of cell phone users in China was 501 million. Ministry of 
Industry and Information Technology (Online), ``June 2007 
Telecommunications Industry Statistics Monthly Report'' [2007 nian 6 
yue tongxin hangye tongji yuebao], 25 July 07. The change from 501 
million to 601 million is a 20 percent increase.
    \6\ CECC, 2007 Annual Report, 86.
    \7\ David Eimer, ``Mobile Dissent,'' South China Morning Post 
(Online), 14 May 08; Quentin Sommerville, ``Well-Heeled Protests Hit 
Shanghai,'' BBC (Online), 14 January 08.
    \8\ See, e.g., Chinese Human Rights Defenders (Online), ``Cyber 
Activists Detained for `Inciting' Anti-Pollution March in Chengdu,'' 12 
May 08; Zhang Dongfeng, ``Shandong Top Secret: Netizen Who Forwarded 
Inaccurate Post About Jiaoji Railway Train Collision Is Detained by 
Police'' [Shandong gaomi yi wangyou zhuanfa jiaoji tielu huoche 
xiangzhuang shishi tiezi bei jingfang juliu], Southern Metropolitan 
Daily (Online), 5 May 08.
    \9\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76, art. 19 [hereinafter ICCPR]. In March 2008, Premier 
Wen Jiabao reiterated China's commitment to ratify the ICCPR, saying 
``we are conducting inter-agency coordination to address the issue of 
compatibility between China's domestic laws and international law so as 
to ratify the Covenant as soon as possible.'' Ministry of Foreign 
Affairs (Online), ``Premier Wen Jiabao Answered Questions at Press 
Conference,'' 18 March 08.
    \10\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217A(III) of 10 December 48, art. 19 
[hereinafter UDHR].
    \11\ PRC Constitution, art. 35. Article 51, however, states: ``The 
exercise by citizens of the People's Republic of China of their 
freedoms and rights may not infringe upon the interests of the state, 
of society and of the collective, or upon the lawful freedoms and 
rights of other citizens.'' PRC Constitution, art. 51.
    \12\ ICCPR, art. 19. Article 29 of the UDHR states the following: 
``everyone shall be subject only to such limitations as are determined 
by law solely for the purpose of securing due recognition and respect 
for the rights and freedoms of others and of meeting the just 
requirements of morality, public order and the general welfare in a 
democratic society.''
    \13\ See, e.g., Ministry of Foreign Affairs, ``Premier Wen Jiabao 
Answered Questions at Press Conference.''
    \14\ See, e.g., Ministry of Foreign Affairs (Online), ``Foreign 
Ministry Spokesperson Qin Gang's Regular Press Conference on March 25, 
2008,'' 26 March 08.
    \15\ Following its 2005 visit to China, the UN Working Group on 
Arbitrary Detention noted that the vague definition of crimes of 
endangering national security, splitting the state, subverting state 
power, and supplying state secrets ``leaves their application open to 
abuse particularly of the rights to freedom of religion, speech, and 
assembly.'' It recommended that political crimes ``that leave large 
discretion to law enforcement and prosecution authorities such as 
`endangering national security,' `subverting State power,' `undermining 
the unity of the country,' `supplying of State secrets to individuals 
abroad,' etc. should be abolished.'' Manfred Nowak, Report of the 
Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Mission to China, 10 March 06, para. 34, 
82(s). In a January 2008 report, Chinese Human Rights Defenders studied 
41 cases from 2000 to 2007 in which officials used the ``inciting 
subversion'' provision of the Criminal Law (Article 105(2)) to punish 
Chinese citizens for exercising their right to freedom of expression. 
It found that in such cases ``[t]he `evidence' often consists of no 
more than the writings of an individual or simply shows that he/she 
circulated certain articles containing dissenting views, without any 
effort to show that the expression had any potential or real subversive 
effect. That is to say, speech in and of itself is interpreted as 
constituting incitement of subversion. . . .'' Chinese Human Rights 
Defenders (Online), ``Inciting Subversion of State Power: A Legal Tool 
for Prosecuting Free Speech in China,'' 8 January 08.
    \16\ ``Analysis: PRC--Despite Claims, Limited Transparency Seen at 
`Two Sessions,' '' Open Source Center, 26 March 08 (Open Source Center, 
26 March 08); ``Full Text: Report on the Work of the Government,'' 
Xinhua (Online), 19 March 08; ``Full Text of Hu Jintao's Report at 17th 
Party Congress'' [Hu jintao zai dang de shiqi da shang de baogao], 
Xinhua (Online), 24 October 07.
    \17\ CECC, 2007 Annual Report, 75; ``China Commits to `Open 
Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \18\ ``Analysis: Limited Transparency Seen at `Two Sessions,' '' 
Open Source Center; ``CPC Promises Broader Information Access to Media 
During Crucial Congress,'' Xinhua (Online), 14 October 07.
    \19\ ``New Measures To Promote Scientific Issuance of Laws, 
Democratic Issuance of Laws'' [Tuijin kexue lifa, minzhu lifa de xin 
jucuo], Xinhua (Online), 19 April 08.
    \20\ PRC Legislation Law, enacted 15 March 00, art. 7.
    \21\ CECC, 2007 Annual Report, 73.
    \22\ Ibid., 75.
    \23\ David Bandurski, ``China Newsweekly: Government `Cold' on 
`Information Openness,' '' China Media Project (Online), 31 July 08; 
Han Yong, ``Open Information: Citizens' `Hot' and the Government's 
`Cold' Stand in Stark Contrast'' [Xinxi gongkai: gongmin ``re'' he 
zhengfu ``leng'' xingcheng xianming dui bi], China News.com, reprinted 
in Xinhua Baoye Net (Online), 22 July 08; Owen Fletcher, ``China's 
Transparency Is Just Thin Air,'' Asia Times (Online), 12 September 08.
    \24\ Opinions on Several Questions Regarding the People's Republic 
of China Regulations on Open Government Information [Zhonghua renmin 
gongheguo zhengfu xinxi gongkai tiaoli ruogan wenti de yijian], issued 
30 April 08, art. 14. This apparent purpose test differs from 
international practice. Jamie P. Horsley, ``China Adopts First 
Nationwide Open Government Information Regulations,'' Freedominfo.org 
(Online), 9 May 07.
    \25\ Fletcher, ``China's Transparency Is Just Thin Air.''
    \26\ Edward Wong, ``Mayor in China Fired in Milk Scandal,'' 18 
September 08.
    \27\ Jim Yardley and David Barboza, ``Despite Warnings, China's 
Regulators Failed to Stop Tainted Milk,'' New York Times (Online), 26 
September 08.
    \28\ ``Propaganda Officials Issue 21 Restrictions on Domestic 
Coverage of Olympics,'' Congressional-Executive Commission on China 
(Online), 22 August 08.
    \29\ Raymond Li, ``Censorship Hammer Comes Down Over Scandal,'' 
South China Morning Post (Online), 16 September 08.
    \30\ Xin Yu, ``Ling Cangzhou Writes Essay Criticizing Toxic Milk 
Powder Scandal and Calling for Press Freedom,'' Radio Free Asia 
(Online), 18 September 08.
    \31\ Jonathan Ansfield, ``Even the Propaganda Dept Wants Records 
Broken,'' Newsweek (Online), 4 August 08. For an English article from 
Xinhua on the day of the incident, see ``Police Station Raided in West 
China, Terrorists Suspected,'' Xinhua (Online), 4 August 08.
    \32\ Ansfield, ``Even Propaganda Dept Wants Records Broken.''
    \33\ See, e.g., Ching-Ching Ni, ``China Saw New Freedoms With TV 
Quake Coverage,'' Los Angeles Times (Online), 23 May 08.
    \34\ Howard W. French, ``Earthquake Opens Gap in Controls on 
Media,'' New York Times (Online), 18 May 08; ``China's Earthquake 
Coverage More Open But Not Uncensored,'' CECC China Human Rights and 
Rule of Law Update, June 2008, 2.
    \35\ Meng Na, Lu Chuanzhong, ``Gov't Transparency in Quake 
Relief.''
    \36\ ``Speech by Hu Jintao Delivered While Inspecting the Work of 
Renmin Ribao'' [Zai renmin ribao she kaocha gongzuo shi de jianghua], 
People's Daily (Online), 21 June 08.
    \37\ Edward Cody, ``Chinese Muckraking a High-Stakes Gamble,'' 
Washington Post (Online), 12 November 07.
    \38\ ``China Paper Censored for Breach,'' BBC (Online), 25 July 08.
    \39\ As noted in the Commission's 2006 Annual Report: ``The Chinese 
government imposes a strict licensing scheme on news and information 
media that includes oversight by government agencies with discretion to 
grant, deny, and rescind licenses based on political and economic 
criteria.'' CECC, 2006 Annual Report, 20 September 06, 25.
    \40\ See Section II--Freedom of Religion--Religious Prisoners and 
the CECC Political Prisoner Database for more information about Shi's 
case.
    \41\ See Section II--Freedom of Religion--Religious Prisoners and 
the CECC Political Prisoner Database for more information about these 
cases.
    \42\ ``Guo Feixiong Sentenced to Five Years for Illegal Business 
Operation,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5.
    \43\ Provisions on the Administration of Book Publishing [Tushu 
chuban guanli guiding], issued 21 February 08, arts. 3, 9.
    \44\ See, e.g., ``Institutional Structure Has New Breakthrough, 
Great Achievement for 2007 `Anti-Pornography, Illegal Material' 
Campaign, Noticeable Change in Market Practices'' [Gongzuo jizhi qude 
xin tupo yanli chachu yi pi da'an yanan 2007 nian ``shaohuang dafei'' 
chengxiao xianzhe shichang mingxian gaiguan], Sweep Away Pornography 
and Strike Down Illegal Publications Task Force (Online), 14 January 
08.
    \45\ ``Speech by Hu Jintao While Inspecting Renmin Ribao,'' 
People's Daily.
    \46\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00. All non-
commercial Web site operators must register. Registration 
Administration Measures for Non-Commercial Internet Information 
Services [Fei jingyingxing hulianwang xinxi fuwu bei'an guanli banfa], 
issued 28 January 05. Because the MII's registration system gives the 
government discretion to reject an application based on content (i.e., 
whether the Web site operator intends to post ``news,'' and if so, 
whether it is authorized to do so), it is qualitatively different from 
registration which all Web site operators must undertake with a domain 
registrar, and constitutes a de facto licensing scheme.
    \47\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued 25 
September 05, arts. 5, 11, 12; Provisions on the Administration of 
Internet Video and Audio Programming Services [Hulianwang shiting jiemu 
fuwu guanli guiding], issued 20 December 07, art. 7.
    \48\ Lydia Chen, ``China Disconnects 18,400 Illegal Websites,'' 
Shanghai Daily (Online), 11 September 07.
    \49\ ``Mainland's `China Rights Defense' Shut Down'' [Dalu 
``weiquan zhongguo'' zao guanbi], Boxun (Online), 11 May 08.
    \50\ ``New Internet Regulations Tighten State Control Over Audio 
and Video Content,'' CECC China Human Rights and Rule of Law Update, 
March/April 2008, 3.
    \51\ Ibid.
    \52\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \53\ Ibid.
    \54\ Opinion Regarding Strengthening Monitoring of Internet Maps 
and Geographic Information Services Web Sites [Guanyu jiaqiang 
hulianwang ditu he dili xinxi fuwu wangzhan jianguan de yijian], issued 
25 February 08, art. 5.
    \55\ ``Problem That Most Online Maps of China Involves Secrets and 
Other Problems Are Prominent, Eight Departments Administering'' 
[Dabufen wangshang zhongguo ditu shemi deng wenti tuchu ba bumen 
zhili], People's Daily (Online), 5 May 08.
    \56\ OpenNet Initiative (Online), ``Internet Filtering in China in 
2004-2005: A Country Study,'' 14 April 05; ``Censorship of Internet and 
Foreign News Broadcasts Following Tibetan Protests,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \57\ Andrew Jacobs, ``Restrictions on Net Access in China Seem 
Relaxed,'' New York Times (Online), 1 August 08; ``Censorship of 
Internet and Foreign News Broadcasts Following Tibetan Protests,'' CECC 
China Human Rights and Rule of Law Update, May 2008, 2; OpenNet 
Initiative (Online), ``ONI Analysis of Internet Filtering During 
Beijing Olympic Games: Week 1,'' 19 August 08. OpenNet Initiative 
comprises researchers at the Citizen Lab at the Munk Centre for 
International Studies, University of Toronto, Berkman Center for 
Internet & Society at Harvard Law School, the Advanced Network Research 
Group at the Cambridge Security Programme, University of Cambridge, and 
the Oxford Internet Institute, Oxford University.
    \58\ ``The Human Toll of the Olympics,'' CECC China Human Rights 
and Rule of Law Update, August 2008, 2.
    \59\ ``China Continues to Crack Down on HIV/AIDS Web Sites and 
Activists,'' CECC China Human Rights and Rule of Law Update, June 2008, 
3.
    \60\ See, e.g., Provisions on the Administration of Internet News 
Information Services, arts. 19, 20, 21; ``Officials Order Hotels To 
Step Up Monitoring and Censorship of Internet,'' Congressional-
Executive Commission on China (Online), 1 August 08.
    \61\ Reporters Without Borders and China Human Rights Defenders 
(Online), Journey to the Heart of Internet Censorship, October 2007; 
``Censor's Grip Tightening on Internet in China,'' Reuters (Online), 10 
October 08.
    \62\ ``PRC Netizens on Major BBS Complain of Censorship,'' Open 
Source Center, 20 August 08 (Open Source Center, 20 August 08).
    \63\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \64\ ``A Number of Search Engine Web Sites Screen `Carrefour' '' 
[Duojia wangluo sousuo yinqing pingbi ``jialefu''], Southern 
Metropolitan Daily (Online), 30 April 08.
    \65\ ``Officials Order Hotels To Step Up Monitoring and Censorship 
of Internet,'' Congressional-Executive Commission on China (Online), 1 
August 08.
    \66\ John Markoff, ``Surveillance of Skype Messages Found in 
China,'' New York Times (Online), 2 October 08; Nart Villeneuve, 
Information Warfare Monitor and ONI Asia (Online), Breaching Trust: An 
Analysis of Surveillance and Security Practices on China's Tom-Skype 
Platform, 1 October 08.
    \67\ Marguerite Reardon, ``Skype: We Didn't Know About Security 
Issues,'' CNet (Online), 3 October 08.
    \68\ Daniel Ren, ``Beijing Censors Financial Websites,'' South 
China Morning Post (Online), 10 September 08.
    \69\ David Bandurski, ``China's Guerrilla War for the Web,'' Far 
Eastern Economic Review (Online), July/August 2008.
    \70\ Rebecca MacKinnon, ``The Chinese Censorship Foreigners Don't 
See,'' Wall Street Journal (Online), 14 August 08.
    \71\ Loretta Chao, ``News of Protests Is Hard to Find In China--in 
Media or Online,'' Wall Street Journal (Online), 18 March 08.
    \72\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \73\ Ibid.
    \74\ Ibid. See also, ``China's Propaganda on Tibet a Verbal Blast 
from the Past,'' Agence France-Presse (Online), 16 April 08; 
``Commentary: On Hypocricy of Pelosi's Double Standards,'' Xinhua 
(Online), 13 April 08.
    \75\ ``China Blocks Foreign Reporters From Covering Tibetan 
Protests,'' CECC China Human Rights and Rule of Law Update, May 2008, 
2-3; Maureen Fan, ``Olympic Chief Vows Free Speech Defense,'' 
Washington Post (Online), 11 April 08.
    \76\ ``Communication Disruptions in Tibetan Areas Impede Flow of 
Information,'' CECC China Human Rights and Rule of Law Update, June 
2008, 3.
    \77\ Andrew Jacobs, ``A Rescue in China, Uncensored,'' New York 
Times (Online), 14 May 08; Tini Tran, ``China Media Unusually 
Aggressive in Covering Quake,'' Associated Press (Online), 14 May 08; 
Nicholas Zamiska and Juliet Ye, ``Xinhua Goes Beyond Propaganda,'' Wall 
Street Journal (Online), 14 May 08.
    \78\ French, ``Earthquake Opens Gap in Controls on Media.''
    \79\ ``Central Propaganda Departments and Main News Media To Do 
Good Reporting on Anti-Earthquake Disaster Relief'' [Zhongyang 
xuanchuanbumen he zhuyao xinwen meiti zuohao kangzhen jiuzai baodao], 
Xinhua (Online), 14 May 08; ``Kong Yufang Demands News Media to 
Conscientiously Perform Reporting on Quake Aftermath and Relief 
Efforts'' [Kong yufang yaoqiu xinwen meiti zuohao kangzhen jiuzai 
baodao gongzuo], Xinhua (Online), 15 May 08; ``Li Changchun Visits, 
Salutes Journalists on Quake Resistance, Disaster Relief'' [Li 
changchun kanwang weiwen kangzhen jiuzai xinwen gongzuozhe], Xinhua 
(Online), 17 May 08; ``Liu Yunshan's Condolences and Instructions 
Regarding News Reporting Work on the Quake Relief Efforts'' [Liu 
yunshan guanyu kangzhen jiuzai xinwen baodao gongzuo de weiwen he 
zhishi], Sichuan Daily (Online), 15 May 08.
    \80\ Geoffrey York, ``Beijing Can't Muzzle Outrage over Deadly 
Collapsed Schools,'' Globe and Mail (Online), 16 June 08. Central 
officials have noted their concern about local officials denying access 
to certain areas and promised foreign reporters to ``resolve it.'' 
James Areddy, ``China Stifles Parents' Complaints About Collapsed 
Schools,'' Wall Street Journal (Online), 18 June 08.
    \81\ ``Speech by Hu Jintao While Inspecting Renmin Ribao,'' 
People's Daily.
    \82\ Christopher Bodeen, ``China Calls for Stepped-Up Propaganda,'' 
Associated Press (Online), 23 January 08; ``Hu Jintao's Speech Before 
National Propaganda and Ideological Work Meeting of Representatives'' 
[Hu jintao tong quanguo xuanchuan sixiang gongzuo huiyi daibiao 
zuotan], Xinhua (Online), 22 January 08.
    \83\ ``Central Propaganda Department Restricts Reporting on Air 
Quality, Food Safety,'' CECC China Human Rights and Rule of Law Update, 
January 2008, 3; ``Propaganda Officials Issue 21 Restrictions,'' 
Congressional-Executive Commission on China.
    \84\ Peter Simpson, ``Screws Tighten on Mainland Journalists,'' 
South China Morning Post (Online), 12 August 08.
    \85\ Sweep Away Pornography and Strike Down Illegal Publications 
Task Force (Online), ``Continue the Spirit of the Rescue Effort, For 
the Olympics Create a Wonderful Cultural Environment and Promote 
Positive Public Opinion'' [Dali fayang kangzhen jiuzai jingshen wei 
Beijing aoyunhui chenggong juban chuangzao lianghao shichang wenhua 
huanjing he yulun fenwei], 29 May 08.
    \86\ Manfred Nowak, Report of the Special Rapporteur on Torture, 
para. 34, 82(s).
    \87\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 105.
    \88\ Minnie Chan, ``Activist Held for Subversion After Accusing 
Officials of Graft,'' South China Morning Post (Online), 19 June 08.
    \89\ PRC Criminal Law, art. 105.
    \90\ ``Beijing Court Sentences Hu Jia to 3 Years 6 Months' 
Imprisonment,'' CECC China Human Rights and Rule of Law Update, March/
April 2008, 1.
    \91\ Dui Hua Human Rights Journal, ``Hu Jia Formally Arrested: 
Human Rights in Olympic Spotlight,'' 31 January 08.
    \92\ Ibid.
    \93\ ``CECC Translation: Hu Jia's Criminal Judgment,'' CECC China 
Human Rights and Rule of Law Update, June 2008, 2.
    \94\ ``Land Rights Activist Yang Chunlin Sentenced to Five Years,'' 
CECC China Human Rights and Rule of Law Update, March/April 2008, 1.
    \95\ Ibid.
    \96\ Ibid.
    \97\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \98\ Evan Osnos, ``In China, Uncovering Crime Is Also One, As It 
Cracks Down on Corruption, Nation also Rounds Up a Writer Who Condemned 
the Offense,'' Chicago Tribune (Online), 30 January 08.
    \99\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \100\ Chinese Human Rights Defenders (Online), ``Olympics Crackdown 
Continues as Another Activist is Sent to Labor Camp,'' 31 August 08.
    \101\ Human Rights in China (Online), ``Press Release: Family 
Visits Still Denied to Sichuan School Teacher Punished after Quake-Zone 
Visit,'' 29 July 08. In September 2008, Human Rights in China reported 
that Liu was released on September 24 and allowed to serve his sentence 
outside of the labor camp. Human Rights in China (Online), ``Sichuan 
Teacher, Liu Shaokun, Was Released To Serve His Reeducation-Through-
Labor Sentence Outside of Labor Camp,'' 26 September 08.
    \102\ Jake Hooker, ``Voice Seeking Answers for Parents About a 
School Collapse is Silenced,'' New York Times (Online), 11 July 08.
    \103\ Chinese Human Rights Defenders (Online), ``Human Rights 
Defender Huang Qi Formally Charged with Illegally Possessing State 
Secrets,'' 18 July 08.
    \104\ David Lague, ``China Frees Hong Kong Journalist,'' New York 
Times (Online), 6 February 08.
    \105\ ``Beijing Court Rejects Ching Cheong's Appeal, Affirms Five-
Year Sentence,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 4-5.
    \106\ ``Chengdu Police Punish Those Using Internet To Spread Rumors 
About Sichuan Petrochemical Project'' [Chengdu jingfang chufa liyong 
Sichuan shihua xiangmu wangshang sanbu yaoyanzhe], Sichuan Daily 
(Online), 10 May 08; Chinese Human Rights Defenders, ``Cyber Activists 
Detained.''
    \107\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103.
    \108\ Pen American Center (Online), ``Chen Daojun Detained as 
Crackdown Intensifies in China During Olympic Torch Relay,'' 12 May 08; 
Chen Daojun, ``Quickly Together, People of Chengdu Facing Extinction'' 
[Gankuai qilai, mianlin juezhong de chengde ren], China EWeekly 
(Online), 5 May 08.
    \109\ Article 25 of the Public Security Administration Punishment 
Law provides for detention of five to 10 days for, among other things, 
``spreading rumors; making false reports of dangerous conditions, 
epidemics, or police situations; or using other means to intentionally 
disturb public order.'' PRC Public Security Administration Punishment 
Law, enacted 28 August 05, art. 25.
    \110\ CECC, 2007 Annual Report, 76.
    \111\ ``Chongqing Police Detain Two for Spreading Rumors About 
Earthquake Disaster Conditions'' [Chongqing jingfang juliu liangming 
sanbuo dizhenqing yaoyan renyuan], Xinhua (Online), 14 May 08.
    \112\ ``Chengdu Police Punish Those Using Internet To Spread Rumors 
About Sichuan Petrochemical Project'' [Chengdu jingfang chufa liyong 
Sichuan shihua xiangmu wangshang sanbu yaoyanzhe], Sichuan Daily 
(Online), 10 May 08; Chinese Human Rights Defenders, ``Cyber Activists 
Detained.''
    \113\ Zhang Dongfeng, ``Shandong Top Secret.''
    \114\ ``Chengdu Police Punish Those Using Internet,'' Sichuan 
Daily; Chinese Human Rights Defenders, ``Cyber Activists Detained.''
    \115\ Chang Ping, ``When Encountering a Strong Shock, Please Make 
Allowances for the Masses' Demand for Information'' [Zaofeng qiangzhen, 
qing tiliang minzhong de xinxi keqiu], Southern Metropolitan Daily 
(Online), 13 May 08.
    \116\ ``Wang Dejia, Shi Weihan Released on Bail,'' CECC China Human 
Rights and Rule of Law Update, January 2008, 5.
    \117\ ``Dissident Jailed Ahead of Olympics,'' Radio Free Asia 
(Online), 22 July 08.
    \118\ ``Foreign Minister `Freedom of Speech' Comments At Odds With 
Arrests, Detentions,'' CECC China Human Rights and Rule of Law Update, 
March/April 2008, 2-3.
    \119\ Ibid. In September, Teng and Hu co-wrote a letter titled 
``The Real China Before the Olympics,'' which criticized Beijing for 
failing to live up to its promise to improve human rights for the 
Olympics.
    \120\ ``Harassment of Beijing-based Activists During the U.S.-China 
Human Rights Dialogue,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 3.
    \121\ Ibid.
    \122\ Jill Drew and Edward Cody, ``Chinese Lawyers Arrested Before 
Meeting with Congressmen,'' Washington Post (Online), 1 July 08.
    \123\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Jiang Yu's Regular Press Conference on April 1, 2008,'' 2 
April 08.
    \124\ See, e.g., Measures for the Administration of Internet 
Information Services, art. 15.
    \125\ Ibid.
    \126\ Ministry of Foreign Affairs, ``Premier Wen Jiabao Answered 
Questions at Press Conference.''
    \127\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \128\ Ministry of Foreign Affairs, ``Spokesperson Qin Gang's Press 
Conference on March 25, 2008.''
    \129\ ``China Blocks Foreign Reporters From Covering Tibetan 
Protests,'' CECC China Human Rights and Rule of Law Update, May 2008, 
2-3.
    \130\ French, ``Earthquake Opens Gap in Controls on Media.''
    \131\ Yang Binbin, Zhao Hejuan, Li Zhigang, Chang Hongxiao, Zhang 
Yingguang, Chenzhong, Xiaolu, and Zhang Bolin, ``Why Did So Many 
Sichuan Schools Collapse? '' Caijing (Online), 17 June 08; York, 
``Beijing Can't Muzzle Outrage.''
    \132\ Eimer, ``Mobile Dissent''; Sommerville, ``Well-Heeled 
Protests Hit Shanghai.''
    \133\ Lindsay Beck, ``China Hits Back at Critics of Activists' 
Arrest,'' Reuters (Online), 8 January 08; ``Statement on the Criminal 
Detention of Hu Jia,'' Boxun (Online), 7 January 08. Also, six 
prominent activists and writers spoke candidly of the problems they 
faced in a July 6 interview with the Observer. Lijia Zhang, ``China's 
New Freedom Fighters,'' Observer (Online), 6 July 08.
    \134\ ``Tens of Beijing Rights Lawyers and Scholars Start Online 
Discussion on the Freedom of Speech'' [Shushiwei beijing weiquan lushi 
ji xuezhe zhaokai wanglu yanlun ziyou taolunhui], Radio Free Asia 
(Online), 23 June 08.
    \135\ See, e.g., ``Chinese Journalist Calls for Press Freedom on 
Release from Jail,'' Radio Free Asia (Online), 16 April 08. (New York 
Times researcher calls for greater press freedom upon release from 
three-year sentence.)
    \136\ ``Editorial: Cold Wind Blows On the Internet, Regulation 
Mistakenly Targets Competition'' [Shelun: lengfeng chuixiang wangluo 
jianguan mowu jingzheng], Southern Metropolitan Daily (Online), 4 
January 08.
    \137\ Chinese Human Rights Defenders (Online), ``Yang Chunlin 
Inciting Subversion of State Power Criminal Defense Pleading'' [Yang 
chunlin Shandong dianfu guojia zhengquan zui bianhu ci], 19 February 
08.
    \138\ ``Thousands of Chinese Citizens Call for Ratification of 
ICCPR Before Olympics,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 3.
    \139\ Information in this addendum is drawn from ``China Commits to 
`Open Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.

    Notes to Section II--Freedom of Religion
    \1\ See discussion infra, as well as, e.g., ``Ye Xiaowen: It Is 
Necessary to Firmly Resist Those Outside Our Borders Using Religion to 
Carry Out Infiltration'' [Ye Xiaowen: bixu jianjue diyu jingwai liyong 
zongjiao jinxing de shentou], Yaoshi Magazine, reprinted in China News 
Net (Online), 3 June 08.
    \2\ See discussion infra, especially China's Religious 
Communities--Catholicism, China's Religious Communities--Islam, and 
China's Religious Communities--Protestantism in this section.
    \3\ See China's Religious Communities--Protestantism--Harassment, 
Detention, and Other Abuses in this section for additional information.
    \4\ This section of the Commission's Annual Report primarily uses 
the expression ``freedom of religion'' but encompasses within this term 
reference to the more broadly articulated freedom of ``thought, 
conscience, and religion'' (see, e.g., the Universal Declaration of 
Human Rights (UDHR), adopted and proclaimed by General Assembly 
resolution 217A (III) of 10 December 48, art. 18).
    \5\ For protections in international law, see, e.g., UDHR, art. 18; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18; International Covenant on Economic, 
Social, and Cultural Rights (ICESCR), adopted by General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 3 January 
76, art. 13(3) (requiring States Parties to ``ensure the religious and 
moral education of . . . children in conformity with [the parents'] own 
convictions''); Convention on the Rights of the Child (CRC), adopted 
and opened for signature, ratification, and accession by General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 14; Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, General 
Assembly resolution 36/55 of 25 November 81. See General Comment No. 22 
to Article 18 of the ICCPR for an official interpretation of freedom of 
religion as articulated in the ICCPR. General Comment No. 22: The Right 
to Freedom of Thought, Conscience, and Religion (Art. 18), 30 July 93, 
para. 1. China is a party to the ICESCR and the CRC, and a signatory to 
the ICCPR. The Chinese government has committed itself to ratifying, 
and thus bringing its laws into conformity with, the ICCPR and 
reaffirmed its commitment on April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
also stated on other occasions that they are preparing for ratification 
of the ICCPR, including in March 18, 2008, press conference remarks by 
Chinese Premier Wen Jiabao, in a September 6, 2005, statement by 
Politburo member and State Councilor Luo Gan at the 22nd World Congress 
on Law, in statements by Wen Jiabao during his May 2005 Europe tour, 
and in a January 27, 2004, speech by Chinese President Hu Jintao before 
the French National Assembly.
    \6\ See generally Bureau of Democracy, Human Rights, and Labor, 
U.S. Department of State (Online), International Religious Freedom 
Report--2008, China (includes Tibet, Hong Kong, and Macau), 19 
September 08. According to the U.S. Commission on International 
Religious Freedom, a ``zone of toleration'' exists within China for 
registered religious communities acting within the parameters set by 
the government. U.S. Commission on International Religious Freedom, 
``Policy Focus: China,'' 9 November 05, 4.
    \7\ As discussed infra, the Chinese government recognizes only 
Buddhism, Catholicism, Daoism, Islam, and Protestantism for limited 
state protections.
    \8\ See State Administration for Religious Affairs (Online), 
``Presiding Over Political Bureau's Second Collective Study, Hu Jintao 
Stresses Doing Religious Work Well'' [Hu Jintao zhuchi zhengzhiju di er 
ci jiti xuexi qiangdiao zuohao zongjiao gongzuo], 20 December 07; 
``Politburo Study Session Calls for Uniting Religious Communities 
Around Party,'' CECC China Human Rights and Rule of Law Update, January 
2008, 3.
    \9\ Wen Ping, ``How Was the Problem Between Religion and Socialism 
Cracked--Exclusive Interview With Religious Affairs Administration 
Director Ye Xiaowen,'' Southern Weekend (Online), 13 March 08 (Open 
Source Center, 10 April 08). For more information on Ye's remarks, see 
``Government Official Reaffirms State Controls Over Religion,'' CECC 
China Human Rights and Rule of Law Update, May 2008, 3.
    \10\ For a general overview of China's legislative framework for 
religion, see the CECC, 2007 Annual Report, 10 October 07, 93 and 
accompanying footnotes.
    \11\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04.
    \12\ Lack of transparency in the legislative process and lags in 
reporting time make it difficult to determine with precision and 
timeliness when new legislation is adopted. (For example, the Web site 
of the State Administration for Religious Affairs links to only one 
2005 provincial-level regulation on religion under the category of 
``regional laws and regulations,'' thus providing no information on 
recent legislative activity in the area of religion.) Based on ongoing 
searches of legislation on the Beijing University Legal Information Net 
Web site (Beida falu xinxi wang, www.chinalawinfo.com) and on central 
and local government religious affairs bureau Web sites and other 
Internet sites, the Commission did not find information on the passage 
of new central government legislation on religion. Although some 
provincial-level governments reported passing legislation on specific 
aspects of the management of religious affairs, as of August 2008, the 
Commission did not locate any provinces that had issued a new 
comprehensive regulation on religious affairs [zongjiao shiwu tiaoli] 
in the past reporting year. The Commission found only one province that 
had amended an older regulation. Shaanxi Province Regulation on 
Religious Affairs [Shanxisheng zongjiao shiwu tiaoli], adopted 23 
September 00, amended 30 July 08. During the period covered by the 2007 
CECC Annual Report, Jiangxi province issued a regulation on religious 
affairs, but this information was not included in the 2007 CECC Annual 
Report. Jiangxi Province Regulation on Religious Affairs [Jiangxisheng 
zongjiao shiwu tiaoli], issued 29 March 07. For more information on 
recently issued regulations, see the box, inset, ``Timeline: Regulation 
of Religion.''
    \13\ Shuai Feng and Li Jian, Interpretation of the Regulation on 
Religious Affairs [Zongjiao shiwu tiaoli shiyi], (Beijing: Beijing 
Religious Culture Press, 2005).
    \14\ Full citations are as follows. Measures on the Examination, 
Approval, and Registration of Venues for Religious Activity [Zongjiao 
huodong changsuo sheli shenpi he dengji banfa], issued 21 April 05; 
Measures on the Management of the Reincarnation of Living Buddhas in 
Tibetan Buddhism [Cangchuan fojiao huofo zhuanshi guanli banfa], issued 
18 July 07; Measures on Establishing Religious Schools [Zongjiao 
yuanxiao sheli banfa], issued 1 August 07; Measures for Putting on File 
the Main Religious Personnel of Venues for Religious Activities 
[Zongjiao huodong changsuo zhuyao jiaozhi renzhi bei'an banfa], issued 
29 December 06; Measures for Putting on File Religious Personnel 
[Zongjiao jiaozhi renyuan bei'an banfa], issued 29 December 06; 
Measures Regarding Chinese Muslims Signing Up To Go Abroad on 
Pilgrimages (Trial Measures) [Zhongguo musilin chuguo chaojin baoming 
paidui banfa (shixing)], undated (estimated date 2006), available on 
the State Administration for Religious Affairs Web site.
    \15\ Full citations are as follows. Shanghai Municipality 
Regulation on Religious Affairs [Shanghaishi zongjiao shiwu tiaoli], 
adopted 30 November 95, amended 21 April 05; Henan Province Regulation 
on Religious Affairs [Henansheng zongjiao shiwu tiaoli], issued 30 July 
05; Shanxi Province Regulation on Religious Affairs [Shanxisheng 
zongjiao shiwu tiaoli], issued 29 July 05; Zhejiang Province Regulation 
on Religious Affairs [Zhejiangsheng zongjiao shiwu tiaoli], issued 6 
December 97, amended 29 March 06; Anhui Province Regulation on 
Religious Affairs [Anhuisheng zongjiao shiwu tiaoli], issued 15 October 
99, amended 29 June 06 and 28 February 07; Beijing Municipality 
Regulation on Religious Affairs [Beijingshi zongjiao shiwu tiaoli], 
issued 18 July 02, amended 28 July 06; Chongqing Municipality 
Regulation on Religious Affairs [Chongqingshi zongjiao shiwu tiaoli], 
issued 29 September 06; Hunan Province Regulation on Religious Affairs 
[Hunansheng zongjiao shiwu tiaoli], issued 30 September 06; Liaoning 
Province People's Congress Standing Committee Decision on Amending the 
Liaoning Province Regulation on Religious Affairs [Liaoningsheng renmin 
daibiao dahui changwu weiyuanhui guanyu xiugai ``Liaoningsheng zongjiao 
shiwu tiaoli'' de jueding], issued on 28 November 98 as the Liaoning 
Province Regulation on the Management of Religious Affairs, amended and 
name changed on 1 December 06; Sichuan Province Regulation on Religious 
Affairs [Sichuansheng zongjiao shiwu tiaoli], issued on 9 May 00 as the 
Sichuan Province Regulation on the Management of Religious Affairs, 
amended and name changed on 30 November 06; Tibet Autonomous Region 
Implementing Measures for the ``Regulation on Religious Affairs'' 
(Trial Measures) [Zizang zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa 
(shixing)], issued 19 September 06; Hebei Province Regulation on 
Religious Affairs [Hebeisheng xongjiao shiwu tiaoli], issued 18 July 
03, amended 14 January 07; Jiangxi Province Regulation on Religious 
Affairs [Jiangxisheng zongjiao shiwu tiaoli], issued 29 March 07; 
Shaanxi Province Regulation on Religious Affairs [Shanxi zongjiao shiwu 
tiaoli], issued 23 September 00, amended 30 July 08.
    \16\ Ministry of Foreign Affairs (Online), ``MFA Spokesperson Liu 
Jianchao Answers Reporters Questions'' [Waijiaobu fayanren liu jianchao 
huida jizhe tiwen], 16 March 05.
    \17\ See, e.g., Fujian Province Implementing Measures on the Law on 
the Protection of Minors [Fujiansheng shishi ``Zhonghua renmin 
gongheguo weichengnianren baohufa'' banfa], issued 21 November 94, 
amended 25 October 97, art. 33; Inner Mongolia Autonomous Region (IMAR) 
Implementing Measures on the Management of Venues for Religious 
Activity [Neimenggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 13. While the national regulation 
addressed in the IMAR measures was annulled in 2005, the IMAR measures 
appear to remain in force.
    \18\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06.
    \19\ Ibid.; U.S. Department of State, International Religious 
Freedom Report--2008, China. See China's Religious Communities--Islam 
within this subsection for information on restrictions in the Xinjiang 
Uyghur Autonomous Region.
    \20\ For more information, see ``Prior Restraints on Religious 
Publishing in China,'' Congressional-Executive Commission on China 
(Online), last visited 8 October 08.
    \21\ U.S. Department of State, International Religious Freedom 
Report--2008, China.
    \22\ ``Xinjiang Government Strengthens Campaign Against Political 
and Religious Publications,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 4.
    \23\ Sui Xiaofei and Qu Zhihong, ``China's Publishing Sector's 
Glorious Development Must Move From Being a Great Country to a Powerful 
Country'' [Woguo chubanye fanrong fazhan yao cong chuban daguo zouxiang 
qiangguo], People's Daily (Online), 25 March 06.
    \24\ ``Tibet `Sweep Away Pornography and Strike Down Illegal 
Publications' Campaign Has Clear Results'' [Xizang ``saohuang dafei'' 
gongzuo chengxiao xianzhu], Xinhua (Online), 18 January 06.
    \25\ ``Over 70,000 Illegal Publications `Smashed to Dust' '' [7 wan 
duo ce feifa chubanwu ``fenshensuigu''], Xinjiang Legal Daily (Online), 
6 August 07.
    \26\ The central government has referred to the five religions as 
China's main religions, but in practice the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection. See, e.g., State Council Information 
Office, White Paper on Freedom of Religious Belief in China [Zhongguo 
de zongjiao xinyang ziyou zhuangkuang], 1 October 97 (stating that the 
religions citizens ``mainly'' follow are Buddhism, Daoism, Islam, 
Catholicism, and Protestantism). Wording from this White Paper is 
posted as a statement of current policy on the Web sites of the United 
Front Work Department, the agency that oversees religious affairs 
within the Communist Party, and the State Administration for Religious 
Affairs. Some local regulations on religious affairs define religion in 
China to mean only these five categories. See, e.g., Guangdong Province 
Regulation on the Administration of Religious Affairs [Guangdongsheng 
zongjiao shiwu guanli tiaoli], adopted 26 May 00, art. 3, and Henan 
Province Regulation on Religious Affairs, art. 2. There is some limited 
formal tolerance outside this framework for some ethnic minority and 
``folk'' religious practices. See text infra and see also Kim-Kwong 
Chan and Eric R. Carlson, Religious Freedom in China: Policy, 
Administration, and Regulation (Santa Barbara: Institute for the Study 
of American Religion, 2005), 9-10, 15-16.
    \27\ For more information, see ``Head of Religious Association: 
Religious Adherents Not Arrested Due to Their Faith,'' Congressional-
Executive Commission on China (Online), 26 June 06.
    \28\ See discussion infra and, e.g., U.S. Department of State, 
International Religious Freedom Report--2008, China.
    \29\ See, e.g., Ningdu County People's Government (Online), 
``Proposal Regarding Curbing the Illegal Construction of Temples'' 
[Guanyu dali zhizhi feifa luan jian simiao de ti'an], 24 March 08; 
Shanghai Baoshan Ethnic and Religious Affairs Office (Online), 
``Dachang Demolishes Illegal Small Temple According to Law'' [Dachang 
zhen yifa chaichu yichu feifa xiao miao], 1 September 06; Beilun 
District People's Government Xiaogang Neighborhood Committee Office 
(Online), ``Investigative Report on the Situation of Unregistered Small 
Temples and Convents'' [Weijing zhengfu dengji de xiao miao xiao an 
qingkuang de diaoyan baogao], 12 September 06. Yixing United Front Work 
Department (Online), ``Some Reflections on Rural Religious Work in a 
New Period'' [Xin shiqi nogcun zongjiao gongzuo de jidian sikao], 13 
June 05.
    \30\ Wen Ping, ``How Was the Problem Between Religion and Socialism 
Cracked--Exclusive Interview With Religious Affairs Administration 
Director Ye Xiaowen.'' For additional information on this interview, 
see ``Government Official Reaffirms State Controls Over Religion,'' 
CECC China Human Rights and Rule of Law Update.
    \31\ Ningbo City Ethnic and Religious Affairs Bureau (Online), 
``Yinzhou District Ethnic and Religious Affairs Bureau Implements 
Rectification and Reform Toward Two Venues for Religious Activities'' 
[Yinzhouqu minzongju dui liang chu zongjiao huodong changsuo shixing 
xianqi zhenggai], 26 November 07.
    \32\ Minhou County People's Government (Online), ``Ethnicity and 
Religious Work'' [Minzu yu zongjiao gongzuo], 17 September 07.
    \33\ Human Rights in China (Online), ``Case Update: Buddhist Monk 
Shengguan Prevented From Attending Human Rights Conference,'' 10 
December 07; ``Jiangxi Buddhist Master Accused of Being a Womanizer and 
Driven out of Temple,'' Sing Tao Jih Pao, 25 August 06 (Open Source 
Center, 27 August 06).
    \34\ See Section V--Tibet, for more information on Tibetan 
Buddhism, including detailed citations.
    \35\ CECC, 2005 Annual Report, 11 October 05, 49.
    \36\ Cardinal Kung Foundation (Online), ``Prisoners of Religious 
Conscience for the Underground Roman Catholic Church in China,'' 9 July 
08. For numbers of unregistered bishops, see U.S. Department of State 
(Online), International Religious Freedom Report--2008, China.
    \37\ See the CECC Political Prisoner Database for more information.
    \38\ ``Restrictions Placed On `Underground' Priests As Olympics 
Loom,'' Union of Catholic Asian News (Online), 7 August 08; ``Catholics 
Attend Mass Despite Warnings, Priests Taken To Guesthouses,'' Union of 
Catholic Asian News (Online), 20 August 08.
    \39\ See the CECC Political Prisoner Database for more information.
    \40\ Ibid.
    \41\ May is the period during which Catholics observe Marian month, 
and in 2007, in an open letter to Catholics in China, Pope Benedict XVI 
mentioned the significance of the Sheshan Shrine to the occasion. In 
addition, he called for May 24 to serve as a day for Catholics 
throughout the world ``to be united in prayer'' with Catholics in 
China. ``Authorities Take Measures to Prevent Pilgrimage to Catholic 
Shrine,'' CECC China Human Rights and Rule of Law Update, June 2008, 4.
    \42\ Zhang Yiming, ``Pope's Prayer for Church in China Banned in 
Some Dioceses,'' AsiaNews (Online), 31 May 08; Wang Zhicheng, ``Even in 
Persecution We Pray to Our Lady of Sheshan,'' AsiaNews (Online), 24 May 
08.
    \43\ For background, see ``China's Marian Shrines,'' AsiaNews 
(Online), 27 May 04.
    \44\ ``Shanghai's Byzantine Church Reopens, Attracts Catholics And 
Others,'' Union of Catholic Asian News (Online), 24 June 08; 
``Catholics Beaten, Threatened Over Disputed Church Property,'' Union 
of Catholic Asian News (Online), 11 July 08.
    \45\ See CECC, 2007 Annual Report, 96-97, for information on 
coercion to participate in bishop appointments in previous years.
    \46\ ``Bishop Ordinations in 2007 Return to Holy See Involvement,'' 
CECC China Human Rights and Rule of Law Update, January 2008, 3.
    \47\ ``Guangxi: Stop the Pope's Letter, Even by Brain Washing,'' 
AsiaNews (Online), 9 October 07. For more information on the letter, 
see the CECC, 2007 Annual Report, 97.
    \48\ ``Letter of the Holy Father Pope Benedict XVI to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China,'' Vatican Web site, 27 May 07. Though 
dated May 27, the Holy See released the letter on June 30. ``More on 
Pope's Letter to China Over Religious Freedom, Appointment of 
Bishops,'' Agence France-Presse, 30 June 07 (Open Source Center, 30 
June 07).
    \49\ For more information on the visit of Chinese musicians to 
Vatican City and attendance by Chinese officials, see ``Pope Praises 
Chinese Artists For Historic Musical Performance,'' Union of Catholic 
Asian News (Online), 8 May 08. For Chinese reporting on the 
performance, see, e.g., State Administration for Religious Affairs, 
(Online), ``Great Success for China Philharmonic Performance in Vatican 
City'' [Zhongguo aiyue yuetuan fandigangcheng yanchu qude chenggong], 
12 May 08.
    \50\ Mike O'Sullivan, ``Divided Chinese Catholic Church Looks for 
Reconciliation,'' Voice of America (Online), 23 August 08.
    \51\ ``Three Chinese Bishops To Attend October Synod On Bible, No 
Mainlanders Named,'' Union of Catholic Asian News (Online), 12 
September 08; ``Catholic Patriotic Association Leaders Deny Bishops 
Permission to Attend Synod in Rome,'' CECC China Human Rights and Rule 
of Law Update, October 05, 7.
    \52\ In 2006, authorities detained two leaders of the unregistered 
Wenzhou diocese, Peter Shao Zhumin and Paul Jiang Surang, after they 
returned from a pilgrimage to Rome. Six months after their detention, 
Shao and Jiang received prison sentences of 9 and 11 months, 
respectively, after authorities accused them of falsifying their 
passports and charged them with illegally exiting the country. ``Two 
Priests Detained in Wenzhou After Arrest on Return from Europe,'' Union 
of Catholic Asian News, 3 October 06; ` ``Underground' Chinese Catholic 
Priests Charged, Likely To Face Trial,'' Union of Catholic Asian News 
(Online), 26 October 06; ``Two Underground Priests from Wenzhou Soon To 
Be Freed,'' AsiaNews, 17 May 07; ``Two Underground Priests, Arrested 
After Pilgrimage, Sentenced Six Months After Arrest,'' Union of 
Catholic Asian News (Online), 16 May 07. Authorities released Shao from 
prison in May 2007 to obtain medical treatment. ``Jailed Wenzhou Priest 
Released Provisionally for Medical Treatment,'' Union of Catholic Asian 
News, 30 May 07. Authorities released Jiang in August. ``Second Of Two 
Jailed Wenzhou Priests Released, Diagnosed With Heart Conditions,'' 
Union of Catholic Asian News (Online), 29 August 07. See the CECC 
Political Prisoner Database for more information. Jiang Surang is also 
known by the name Jiang Sunian.
    \53\ See, e.g., Ningdu County People's Government, ``Proposal 
Regarding Curbing the Illegal Construction of Temples''; Shanghai 
Baoshan Ethnic and Religious Affairs Office, ``Dachang Demolishes 
Illegal Small Temple According to Law''; Beilun District People's 
Government Xiaogang Neighborhood Committee Office, ``Investigative 
Report on the Situation of Unregistered Small Temples and Convents''; 
Yixing United Front Work Department, ``Some Reflections on Rural 
Religious Work in a New Period.''
    \54\ Jiangxi Province Ethnic and Religious Affairs Bureau (Online), 
``Xinjian County Daoist Association Holds Third-Term Training Class for 
Religious Personnel'' [Xinjianxian daojiao xiehui juban di san qi 
jiaozhi renyuan peixunban], 21 March 08. Chengdu Ethnic and Religious 
Affairs Bureau (Online), ``Comrade Zhao Lu Lectures on the Party's 
Basic Policy on Religious Work for Our City's Daoist Circles'' [Zhao lu 
tongzhi wei wo shi daojiao jie jiangshou dang de zongjiao gongzuo jiben 
fangzhen], 10 April 08. On control over internal doctrine, see 
generally ``Government Official Reaffirms State Controls Over 
Religion,'' CECC China Human Rights and Rule of Law Update; ``SARA 
Director Calls for Continued Controls on Religion,'' CECC China Human 
Rights and Rule of Law Update, September 2006, 8.
    \55\ Measures for Confirming Daoist Personnel [Daojiao jiaozhi 
renyuan rending banfa], issued 4 March 08, art. 3(1), 11(2), (3).
    \56\ State Administration for Religious Affairs (Online), ``Chinese 
Daoist Circles Firmly Oppose the Evil Act of Waving the Banner of 
Religion to Try to Split Motherland'' [Zhongguo daojiao jie jianjue 
fandui da zongjiao qihao fenlie zuguo de zui'e xingjing], 8 April 08.
    \57\ In addition to the provincial regulation passed in Hunan, 
discussed infra, lower-level governments also reported passing 
legislation on folk beliefs or issuing guidance on the regulation of 
folk beliefs. See, e.g., Hebei Province Ethnic and Religious Affairs 
Department (Online), ``Xingtai City, Pingxiang County Puts Forth Our 
Province's First `Provisional Measures on the Management of Folk Belief 
Affairs' '' [Xingtaishi piangxiangxian qutai wo sheng shoubu ``Minjian 
xinyang shiwu guanli zanxing banfa''], 16 October 07; Ningbo City 
Ethnicity and Religious Affairs Bureau (Online), ``Yinzhou District 
Standardizes Management of Venues for Folk Belief Activities'' 
[Yinzhouqu guifan minjian xinyang huodong changsuo guanli], 22 January 
08. Authorities in Pingxiang county cited concerns about 
``instability,'' inadequate management, and ``hidden dangers'' as 
reasons for establishing the first legal measures in the province on 
the management of folk beliefs, even as they also cited ``protecting 
citizens' freedom of religious belief'' as another motivation for the 
legislation.
    \58\ ``Hunan Authorities Issue New Legal Measures To Regulate Folk 
Belief Venues,'' Congressional-Executive Commission on China (Online), 
14 December 07.
    \59\ The Chinese term used is minjian xinyang huodong. For 
additional information on these legal measures, see ``Hunan Authorities 
Issue New Legal Measures To Regulate Folk Belief Venues,'' 
Congressional-Executive Commission on China.
    \60\ The government describes religious extremism as one of the 
``three forces'' against which it has launched a ``strike-hard'' 
campaign. The other forces are separatism and terrorism. Local 
government reported maintaining surveillance of religious practice 
through a ``two-point system,'' which has been in force in recent years 
and is described by local government sources as a mechanism for 
maintaining regular contact with mosques and carrying out ``chats'' 
with religious figures. For a basic description of the two-point 
system, see Aqsu Party Building (Online), ``32nd Installment'' [Di 32 
qi], 18 January 05; Onsu Party Building, ``United Front Embraces the 2 
Systems, Perfects the 3 Kinds of Mechanisms'' [Tongzhanbu weirao liang 
xiang zhidu gaishan sanzhong jizhi], 5 April 06. For reports from the 
past year on the two-point system and other measures to control 
religious practice in the region, including via increased controls over 
mosques and religious leaders, see, e.g., Kashgar District Government 
(Online), ``Yengisar County Speech on Its Current Stance'' 
[Yingjishaxian biaotai fayan], 5 January 08; Qumul District Government 
(Online), ``Gulshat Abduhadir Stresses at District Education Work 
Meeting, Enlarge Investments for Optimal Environment'' [Gulixiati 
Abudouhade'er zai diqu jiaoyu gongzuo huiyishang qiangdiao jiada touru 
youhua huanjing], 9 March 08; Yeken [Yarkand] County Government 
(Online), ``Yeken County Almaty Village Implements `8 Acts' To 
Establish Safe and Sound Village'' [Shachexian alamaitixiang shishi 
``baxiang jucuo'' chuangjian pingan xiangzhen], 16 October 07; Kashgar 
District Government (Online), ``Let Society Be Stable and Harmonious, 
For the People To Be Without Fear--Work Report on Poskam County 
Striving to Establish a Region-Level Quiet and Stable County'' [Rang 
shehui wending hexie wei baixing anjuleye--zepuxian zheng chuang 
zizhiquji ping'an xian gongzuo jishi], 3 December 07; ``Crackdown on 
Xinjiang Mosques, Religion,'' Radio Free Asia (Online), 14 August 08; 
``Mongghulkure County `Protect Olympics, Protect Stability' Supervision 
Group Reports Work to Ili Prefecture'' [Zhaosuxian shang yili zhou 
``bao ao yun cu wending'' dudao xiaozu huibao gongzuo], Ili Peace Net 
(Online), 16 July 08; Monghulkure County Promptly Arranges 
Implementation of Spirit of Ili 7.13 Stability Meeting [Zhaosuxian 
xunsu anpai luoshi yilizhou ``7.13'' wending huiyi jingshen], Ili Peace 
Net (Online), 16 July 08; Kashgar District Government, ``Usher in the 
Olympics and Ensure Stability; Jiashi People Are of One Heart and 
Mind,'' 8 August 08 (Open Source Center, 8 August 08).
    \61\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er Baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08.
    \62\ ``Uyghur Mosque Demolished,'' Radio Free Asia (Online), 23 
June 08; Jume, ``Mosque in Kelpin County Destroyed by the Government'' 
[Kelpin nahiyisi tewesidiki bir meschit hokumet teripidin 
cheqiwetildi], Radio Free Asia (Online), 23 June 08. In response to a 
question about the demolition, China's Ministry of Foreign Affairs 
spokesperson described the mosque as part of two ``unlawfully built 
structures'' used ``without authorization'' for religious activity and 
said that local residents tore down the structures on their own after 
learning their construction violated Chinese law. Lin Liping and Rong 
Yan, ``Foreign Ministry Spokesman Says the Report Alleging the 
`Demolition of a Mosque in Xinjiang' Grossly Untrue,'' Xinhua, 8 July 
08 (Open Source Center, 8 July 08). See also ``AFP Reporters Barred 
From China Village Where Mosque Was Razed,'' Agence France-Presse, 30 
July 08 (Open Source Center, 30 July 08).
    \63\ For examples of reported measures, see, e.g., ``Religious 
Repression in Xinjiang Continues During Ramadan,'' CECC China Human 
Rights and Rule of Law Update, January 2008, 3; Shayar County 
Government (Online), ``Town of Yengi Mehelle in Shayar County Xinjiang 
Adopts Nine Measures to Strengthen Management During Ramadan'' 
[Shayaxian yingmaili zhen caiqu jiu xiang cuoshijiaqiang ``zhaiyue'' 
qijian guanli], 28 August 08; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security'' [Zhaosuxian wu cuoshi 
tiqian zuohao zhaiyue guanli bao ao yun wending], Fazhi Xinjiang 
(Online), 23 August 08; ``Toqsu County Deploys Work to Safeguard 
Stability During Ramadan'' [Xinhexian bushu zhaiyue qijian weiwen 
gongzuo], Xinjiang Peace Net (Online), 2 September 08; Yopurgha County 
Government (Online), ``Our County Carries Out Plans for Work on 
Management of Religious Affairs During Ramadan'' [Wo qu dui zhaiyue 
qijian zongjiao shiwu guanli gongzuo jinxing anpai], 1 September 08; 
Kuytun City Government (Online), ``Kuytun City Convenes Meeting on Work 
to Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day'' [Kuitunshi zhaokai wei wen 
gongzuo huiyi dui can'aohui, zhaiyue he guoqingjie qijian anquan 
gongzuo jinxing anpai], 3 September 08; ``Ramadan Curbs on China's 
Muslims,'' Radio Free Asia (Online), 6 September 08.
    \64\ ``Xinjiang Uyghurs Committed to Ramadan Are Detained, Retired 
Han Official Criticizes Corruption'' [Xinjiang weizuren jianchi 
fengzhai beiju hanren tuixiu guan pi zhengfu tanfu], Radio Free Asia 
(Online), 16 September 08.
    \65\ See generally Shayar County Government, ``Town of Yengi 
Mehelle in Shayar County Xinjiang Adopts Nine Measures to Strengthen 
Management During Ramadan''; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security,'' Fazhi Xinjiang; 
``Toqsu County Deploys Work to Safeguard Stability During Ramadan,'' 
Xinjiang Peace Net; Yopurgha County Government, ``Our County Carries 
Out Plans for Work on Management of Religious Affairs During Ramadan''; 
Kuytun City Government, ``Kuytun City Convenes Meeting on Work to 
Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day''; ``Ramadan Curbs on China's 
Muslims,'' Radio Free Asia.
    \66\ Shayar County Government, ``Town of Yengi Mehelle in Shayar 
County Xinjiang Adopts Nine Measures to Strengthen Management During 
Ramadan''; ``Five Measures from Mongghulkure County Ensure Ramadan 
Management and Olympics Security,'' Fazhi Xinjiang; ``Ramadan Curbs on 
China's Muslims,'' Radio Free Asia; Weli, ``Chinese Government Now 
Forcing Women in Xoten to Expose Their Faces'' [Xitay hokumiti hazir 
xotende ayallarni yuzini echiwetishqa mejburlimaqta], Radio Free Asia 
(Online), 27 August 08.
    \67\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update, May 2008, 
3.
    \68\ Xinjiang Uyghur Autonomous Region Implementing Measures of the 
Law on the Protection of Minors [Xinjiang weiwuer zizhiqu shishi 
``Weichengnianren baohufa'' banfa], issued 25 September 93, art. 14. No 
other provincial or national regulation on minors or on religion 
contains this precise provision. Human Rights Watch and Human Rights in 
China (Online), ``Devastating Blows: Religious Repression of Uighurs in 
Xinjiang,'' April 2005, 58 (pagination follows ``text-only'' pdf 
download of this report).
    \69\ Uyghur Human Rights Project (Online), ``A Life or Death 
Struggle in East Turkestan; Uyghurs Face Unprecedented Persecution in 
post-Olympic Period,'' 4 September 08, 4.
    \70\ See, e.g., Shayar County Government, ``Town of Yengi Mehelle 
in Shayar County Xinjiang Adopts Nine Measures to Strengthen Management 
During Ramadan''; Yopurgha County Government, ``Our County Carries Out 
Plans for Work on Management of Religious Affairs During Ramadan''; 
Kuytun City Government, ``Kuytun City Convenes Meeting on Work to 
Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day''; Kashgar District Government 
(Online), ``Maralbeshi Launches Activities for Developing and 
Cultivating National Spirit in Elementary and Secondary Schools Month'' 
[Bachu kaizhan zhongxiaoxue hongyang he peiyu minzu jingshen yue 
huodong], 26 September 08; ``Qorghas County Langan Village `Attaches 
Importance, Propagates, Arranges, Examines, Protects, Strikes, and 
Prevents' to Do Various Work Regarding Muslim Population During 
Ramadan'' [Huochengxian langan xiang ``zhong, xuan, pai, cha, bao, yan, 
fang'' zuo hao musilin qunzhong zhaiyue qijian ge xiang gongzuo], 
Qorghas Peace Net (Online), 27 August 08; ``Religious Repression in 
Xinjiang Continues During Ramadan,'' CECC China Human Rights and Rule 
of Law Update, January 2008, 3; ``Ramadan Curbs on China's Muslims,'' 
Radio Free Asia.
    \71\ See, e.g., ``Xinjiang Government Continues Restrictions on 
Mosque Attendance,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 8; U.S. Department of State, International Religious 
Freedom Report--2008, China.
    \72\ See, e.g., Xinjiang Uyghur Autonomous Region Government 
(Online), ``Nur Bekri's Work Report at First Session of the 11th 
Xinjiang Autonomous Regional People's Congress'' [Zai zizhiqu shiyi jie 
renda yi ci huiyi shang nu'er baikeli suo zuo zhengfu gongzuo bao], 16 
January 08; Yeken County Government, ``Yeken County Almaty Village 
Implements `8 Acts' To Establish Safe and Sound Village.'' For 
information on the 2007 passport restrictions, see the CECC, 2007 
Annual Report, 10 October 07, 99.
    \73\ U.S. Department of State, International Religious Freedom 
Report--2008, China.
    \74\ ``China Jails Clerics for Planning Mecca Trips, Group Says,'' 
Deutsche Presse-Agentur (DPA), reprinted in Taipei Times (Online), 25 
June 08. According to the DPA article, authorities also reportedly 
punished the group for distributing copies of the Quran at a criminal 
sentencing rally.
    \75\ For more information on recent controls, see CECC 2007 Annual 
Report, 99.
    \76\ ``Record Number of Chinese Muslims To Make Mecca Pilgrimage,'' 
Xinhua, 14 November 07 (Open Source Center, 14 November 07).
    \77\ Islamic Association of China, ed., Practical Pilgrimage 
Handbook for Chinese Muslims [Zhongguo musilin chaojin shiyong shouce], 
(Ningxia People's Publishing Company), 121.
    \78\ Ibid., 106-107.
    \79\ For more information on recent controls imposed on Muslim 
communities across China, see CECC, 2006 Annual Report, 20 September 
06, 89-91, and CECC, 2007 Annual Report, 98-100.
    \80\ Wen Ping, ``How Was the Problem Between Religion and Socialism 
Cracked--Exclusive Interview With Religious Affairs Administration 
Director Ye Xiaowen.''
    \81\ United Front Work Department (Online), ``Ningxia's `2008 
First-Term Study Class for Muslim Personnel' Opens'' [Ningxia ``2008 
nian di yi qi yisilanjiao jiaozhi renyuan dushuban'' kaixue], 14 March 
08.
    \82\ U.S. Department of State, International Religious Freedom 
Report--2008, China.
    \83\ China Aid Association (CAA) (Online), ``Annual Report of 
Persecution by the Government on Christian House Churches within 
Mainland China,'' February 2008, 2-3, 21, 22 (noting detentions of 
roughly 100 people in each of these areas except Shandong, where the 
recorded number was 334). The CAA report provides a synthesis of 
reported cases annually involving harassment of Protestants and 
closures of house churches. For an example of reporting from a local 
government on measures against Protestants, see, e.g., Minhou County 
People's Government (Online), ``Ethnicity and Religious Work.''
    \84\ For a case from the last year of house church members accused 
of cult involvement, see China Aid Association (Online), ``Henan 
Christian Brother Bai Cheng and his Coworker Sister Zhang Yu 
Released,'' 7 March 08.
    \85\ China Aid Association, ``Annual Report of Persecution by the 
Government on Christian House Churches within Mainland China,'' 3. For 
additional information on treatment toward Protestant groups deemed 
cults, see U.S. Department of State, International Religious Freedom 
Report--2008, China. For more information on general government policy 
toward cults, see Section II--Freedom of Religion--Falun Gong.
    \86\ See, e.g., China Aid Association, ``Annual Report of 
Persecution by the Government on Christian House Churches within 
Mainland China,'' 7, 15.
    \87\ See, e.g., China Aid Association, ``Annual Report of 
Persecution by the Government on Christian House Churches within 
Mainland China,'' 9-13, 15; China Aid Association (Online), ``Shandong 
House Church Raided, Hymnals and Cross Confiscated,'' 1 October 08; 
U.S. Department of State, International Religious Freedom Report--2008, 
China.
    \88\ China Aid Association (Online), ``House Church Members Beaten 
After Demanding Officials to Account for the Burning of Bibles,'' 30 
January 08.
    \89\ Christian Solidarity Worldwide and China Aid Association 
(Online), ``China: Persecution of Protestant Christians in the Approach 
to the Beijing 2008 Olympic Games,'' June 2008, 3, 4, 6.
    \90\ China Aid Association (Online), ``Beijing House Churches 
Forced to Sign Document Pledging Not to Meet During the Olympic 
Games,'' 13 August 08.
    \91\ China Aid Association (Online), ``Pastor Bike Mingxuan and 
Wife Released from Detention but Prohibited From Returning to 
Beijing,'' 29 August 08. See the CECC Political Prisoner Database for 
more information on Zhang, as well as discussions of his case in 
Freedom to Interact with Foreign Co-Religionists and Foreign Visitors, 
in this section, and Section II--Rights of Criminal Suspects and 
Defendants, Section II--Olympics, and Section III--Civil Society.
    \92\ For example, in 2006, fewer than one-sixth of reported 
detentions exceeded 10 days. China Aid Association (Online), ``Annual 
Report on Persecution of Chinese House Churches by Province from 
January 2006 to December 2006,'' January 2007, 19.
    \93\ In 2007, overseas observers recorded 16 cases of people given 
criminal sentences or sentences to RTL, compared to 17 cases noted in 
2006. China Aid Association (Online), ``Annual Report of Persecution by 
the Government on Christian House Churches within Mainland China,'' 22.
    \94\ China Aid Association (Online), ``Senior House Church Leader 
Issued Open Letter to Chinese Communist Party Leader for Religious 
Freedom; Shandong House Church Christians Won Legal Battle Against PSB 
After Being Raided,'' 28 November 07. For more information on 
challenges to government abuses, see, e.g., China Aid Association 
(Online), ``4 House Church Leaders Released from Labor Camp in Hubei 
Province after Unprecedented Legal Victory; Three Female Leaders Still 
Held,'' 18 January 08. For more information see also the CECC, 2007 
Annual Report, 10 October 07, 102.
    \95\ Human Rights in China (Online), ``Chengdu House Church Files 
First Suit in China Against Government Religious Authority,'' 18 
September 08.
    \96\ ``Turn of Events in Suit Lodged Against Chengdu Religious 
Affairs Bureau by Autumn Rain Blessings Church'' [Qiuyu zhi fu jiaohui 
qisu chengdu shi zongjiaoju yi an chuxian zhuanzhexing bianhua], Radio 
Free Asia (Online), 2 October 08.
    \97\ See, e.g., ``Xinjiang Authorities Target Christian-Owned 
Businesses for Closure,'' Congressional-Executive Commission on China 
(Online), 16 November 07. China Aid Association (Online), ``Annual 
Report of Persecution by the Government on Christian House Churches 
within Mainland China,'' 3-4; China Aid Association (Online), 
``Business License of Australia Company in China Revoked; Three Chinese 
Employee [sic] Arrested; Company Founders Issued Urgent Open Letter to 
the Chinese President,'' 21 November 07. For information on cases of 
Chinese citizens targeted for their connection to foreign groups, see 
also the box titled Religious Prisoners, and see the CECC 2007 Annual 
Report, 94-95, for information on similar trends in early and mid-2007.
    \98\ ``Xinjiang Authorities Target Christian-Owned Businesses for 
Closure,'' Congressional-Executive Commission on China; Michael 
Bristow, ``China Tightens Grip Ahead of Congress,'' BBC (Online), 14 
September 07. Kristine Kwok, ``Olympic Missionaries Warned To Follow 
Rules,'' South China Morning Post (Online), 29 May 07.
    \99\ Human Rights in China (Online), ``In Hiding, Beijing House 
Church Activist Hua Huiqi Appeals for Help,'' 11 August 08; China Aid 
Association (Online), ``Eviction of Christian Rights Activist Hua Huiqi 
and Family/Behind the Scenes Surprises During U.S. Congressional 
Delegation Visit in Beijing,'' 2 July 08.
    \100\ China Aid Association, ``Eviction of Christian Rights 
Activist Hua Huiqi and Family/Behind the Scenes Surprises During U.S. 
Congressional Delegation Visit in Beijing.''
    \101\ Ibid.; Kristine Kwok, ``Police Force Pastor To Leave 
Beijing,'' South China Morning Post (Online), 20 July 08; China Aid 
Association (Online), ``Pastor Zhang Mingxuan Given Permission to 
Conduct House Church Services,'' 1 October 08; China Aid Association 
(Online), ``Son of Pastor Bike Zhang in Critical Condition After Severe 
Beating From PSB Officials,'' 16 October 08; China Aid Association 
(Online), ``Zhang Mingxuan and Son Jian's Conditions Updated,'' 22 
October 08. See the CECC Political Prisoner Database for more 
information.
    \102\ ``Harassment of Beijing-based Activists During the U.S.-China 
Human Rights Dialogue,'' Congressional-Executive Commission on China 
(Online), 8 July 08.
    \103\ See CECC, 2006 Annual Report, 93 for more information.
    \104\ Wen Ping, ``How Was the Problem Between Religion and 
Socialism Cracked--Exclusive Interview With Religious Affairs 
Administration Director Ye Xiaowen.'' For more information on Ye's 
remarks, see ``Government Official Reaffirms State Controls Over 
Religion,'' CECC China Human Rights and Rule of Law Update.
    \105\ ``Cao Shengjie: Independent Development for Chinese Religions 
Not To Change'' [Cao Shengjie: Zhongguo zongjiao jianchi dulizizhu 
fazhan buhui gaibian], Xinhua (Online), 14 October 07. See also 
``Xinjiang Authorities Target Christian-Owned Businesses for Closure,'' 
Congressional-Executive Commission on China.
    \106\ Only Chinese religious personnel affiliated with recognized 
registered religious communities may attend such services upon 
invitation to do so. Provisions on the Management of the Religious 
Activities of Foreigners within the PRC [Zhonghua renmin gongheguo 
jingnei waiguoren zongjiao huodong guanli guiding], issued 31 January 
94, art. 4; Detailed Implementing Rules for the Provisions on the 
Management of the Religious Activities of Foreigners within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, arts. 7, 17(5).
    \107\ The members met at a facility used by foreign members of the 
church, but at a different time from the foreign church members. U.S. 
Department of State, International Religious Freedom Report--2006, 
China.
    \108\ U.S. Department of State, International Religious Freedom 
Report--2008, China; Heilongjiang Regulation on the Management of 
Religious Affairs [Heilongjiangsheng zongjiao shiwu guanli tiaoli], 
issued 12 June 97, art. 2; Inner Mongolia Autonomous Region 
Implementing Measures for the Management of Venues for Religious 
Activity [Nei menggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 2.
    \109\ Nailene Chou, ``Orthodox Christians Celebrate Easter with 
Prayers and Music,'' South China Morning Post (Online), 1 May 08.
    \110\ See the CECC Political Prisoner Database for more information 
about these cases.
    \111\ For general information, see CECC, 2007 Annual Report, 95-96.
    \112\ See, e.g., State Administration for Religious Affairs 
(Online), ``China Protestant Circles' Contributions for Sichuan 
Earthquake Disaster Area Already Exceeds 100 Million Yuan'' [Zhongguo 
jidujiao jie wei sichuan dizhen zaiqu jiankuan yi chao yi yuan], 6 June 
08; State Administration for Religious Affairs (Online), ``Hebei 
Province Buddhist Association Rushes to Sichuan Earthquake Disaster 
Area to Provide Disaster Relief'' [Hebeisheng fojiao xiehui jinji fu 
sichuan dizhen zaiqu zhenzai], 23 May 08.
    \113\ China Aid Association (Online), ``House Church Members 
Detained in Guizhou Province/Government Officials Arrest Volunteer 
House Church Earthquake Aid Workers,'' 20 May 08.
    \114\ ``Tzu Chi Gets Nod to Set Up Charity in China,'' Central News 
Agency, reprinted in China Post (Online), 28 February 08. For an 
analysis of this development, see Carl Minzner, ``Mainland Authorities 
Support Operations of Taiwan-Based Buddhist Civil Society 
Organization,'' Chinese Law and Politics Blog (Online), 22 May 08.
    \115\ The name ``6-10'' comes from the date that the office was 
founded. Maria Hsia Chang, ``Falun Gong: the End of Days'' (New Haven: 
Yale University Press, 2004), 9; Minnie Chan, ``Lawyer's Conviction 
`Sign of Tyranny,' '' South China Morning Post (Open Source Center, 23 
December 06); Human Rights Watch, ``Dangerous Meditation: China's 
Campaign Against Falun Gong,'' January 2002, 36.
    \116\ PRC Ministry of Civil Affairs' Decision Concerning the Ban on 
Falun Dafa Research Association [Zhonghua renmin gongheguo minzhengbu 
guanyu qudi falun dafa yanjiuhui de jueding], issued 22 July 99. For 
further information, see National People's Congress Standing Committee, 
Decision Regarding the Ban on Cult Organizations and the Prevention and 
Punishment of Cult Activities [Quanguo renda changweihui guanyu qudi 
xiejiao zuzhi, fangfan he chengzhi xiejiao huodong de jueding], issued 
30 October 99; CCP Central Committee Circular on the Forbidding of 
Party Members from Practicing Falun Dafa [Zhonggong zhongyang guanyu 
gongchandangyuan buzhun xiulian `falun dafa' de tongzhi], issued 19 
July 99; Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2007, China (includes 
Tibet, Hong Kong, and Macau), September 2007, 1.
    \117\ Falun Dafa Information Center (Online), ``Overview of Falun 
Gong,'' 30 April 08.
    \118\ Official estimates placed the number of adherents inside 
China at 30 million prior to the crackdown. Falun Gong sources estimate 
that there was twice that number. Chang, Falun Gong, 2; U.S. Department 
of State, International Religious Freedom Report--2007, China, 2.
    \119\ RTL camps are an extrajudicial system of detention without 
trial in which sentences are handed down at police discretion. 
According to 2005 official statistics, a total of 500,000 inmates were 
held in 310 RTL camps throughout China. For RTL figure, see Bureau of 
Democracy, Human Rights and Labor, U.S. Department of State, Country 
Reports on Human Rights Practices--2007, China (includes Tibet, Hong 
Kong, and Macau), 11 March 08, 4. For information on Falun Gong 
detainees, see U.S. Department of State, International Religious 
Freedom Report--2007, China, 1; Margot O'Neill and Hamish Fitzsimmons, 
``Spy Claims Terrify Falun Gong Followers,'' Australian Broadcasting 
Corporation (Online), 8 June 05; Michael Sheridan, ``Yu Zhou Dies as 
China Launches pre-Olympic Purge of Falun Gong,'' Times of London 
(Online), 20 April 08.
    \120\ Michael Bristow, ``China Tightens Grip Ahead of Congress,'' 
BBC (Online), 14 September 07.
    \121\ The availability of these reports was determined by a 
Chinese-language search performed by CECC staff from June 2008 to 
August 2008. Search terms included `Falun Gong' and targeted searches 
of each of China's 31 provincial-level governments.
    \122\ U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, 18-19; Chang, Falun Gong, 10; Falun Dafa 
Information Center (Online), ``Arbitrary Imprisonment and Slavery,'' 17 
May 08.
    \123\ Liaoyang Municipal Public Security Bureau (Online), 
``Procedures for `Rewarded Reports' at the Liaoyang Municipal Public 
Security Bureau's Criminal Report Center'' [Liaoyang shi gonganju 
xingshi fanzui jubao zhongxin `youjiang jubao' chengxu], 11 December 
06; Panjin Municipal Government Administration Public Network of China 
(Online), ``Put into Practice Harmonious Ideas, Promote Social 
Stability, Make an Active Contribution to the Construction of a 
Harmonious Homeland: Vice Mayor Yang Zhenfu's 2007 Policy Speech'' 
[Jianxing hexie linian, cujin shehui wending, wei jianshe hexie jiayuan 
zuo chu jiji gongxian--fushizhang Yang Zhenfu 2007 shizheng baogao], 22 
March 07.
    \124\ Cao Zhiheng, ``Urumqi Police Destroy Five Violent Terrorist 
Gangs Plotting To Damage the Olympics'' [Wulumuqi jingfang dadiao wuge 
yumou pohuai aoyun de baoli kongbu tuanhuo], Xinhua (Online), 11 July 
08; Matthew Weaver, ``China Kills Five Muslim `Militants' in Olympic 
Crackdown,'' Guardian (Online), 10 July 08.
    \125\ Yingshang County Government (Online), ``2007 Yingshang County 
Political and Legal Work Summary and 2008 Work Plan'' [2007 Nian 
yingshang xian zhengfa gongzuo zongjie ji 2008 nian gongzuo jihua], 7 
January 08.
    \126\ Miyi County (Online), ``Miyi County 2007 Public Order 
Comprehensive Administration Safety Work'' [Miyi xian 2007 niandu 
shehui zhian zonghe zhili pingan chuangjian gongzuo], 9 December 07.
    \127\ Falun Dafa Information Center (Online), ``Thousands of Falun 
Gong Adherents Arrested throughout China in Run up to Olympics,'' 7 
July 08.
    \128\ U.S. Department of State, International Religious Freedom 
Report--2007, China, 10.
    \129\ Falun Dafa Information Center, ``Arbitrary Imprisonment and 
Slavery.''
    \130\ Falun Dafa Information Center (Online), ``Falun Gong Deaths 
Escalate as Olympics Approach,'' 8 April 08; Falun Dafa Information 
Center (Online), ``Overview of Persecution,'' 4 May 08.
    \131\ UN Commission on Human Rights, ``Report of the Special 
Rapporteur on Torture and Other Cruel, Inhuman, or Degrading Treatment 
or Punishment, Manfred Nowak: Mission to China,'' 10 March 06, 15.
    \132\ CECC, 2006 Annual Report, 20 September 06, 95. Article 18(1) 
of the ICCPR guarantees everyone ``the right to freedom of thought, 
conscience, and religion [and] to manifest his religion or belief in 
teaching, practice, worship, and observance.'' International Covenant 
on Civil and Political Rights, adopted by General Assembly resolution 
2200A(XXI) of 16 December 66, entry into force 23 March 76, art. 18. 
The official General Comment 22 to Article 18 states, ``The right to 
freedom of thought, conscience and religion (which includes the freedom 
to hold beliefs) in article 18(1) is far-reaching and profound; it 
encompasses freedom of thought on all matters, personal conviction, and 
the commitment to religion or belief, whether manifested individually 
or in community with others.'' General Comment No. 22: The Right to 
Freedom of Thought, Conscience, and Religion (Art. 18), 30 July 93, 
para. 1.
    \133\ CECC, 2006 Annual Report, 20 September 06, 95; UN Commission 
on Human Rights, Opinions Adopted by the Working Group on Arbitrary 
Detention, Opinion No. 32/2005, 2 September 05 [hereafter UNWGAD 
Opinions]; ``Student Imprisoned for Falun Gong Activities Becomes 
Eligible for Parole,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 5; PRC Constitution, art. 36.
    \134\ UNWGAD Opinions, Opinion No. 32/2005.
    \135\ ``Countless Spies Sent Overseas,'' South China Morning Post 
(Open Source Center, 10 June 05); Joseph Kahn, ``Competing for Souls: 
Violence Taints Religion's Solace for China's Poor,'' New York Times 
(Online), 25 November 04. For a Chinese source, refer to statement that 
6-10 Office ``strikes against illegal activities of `Falun Gong' and 
other cult organizations,'' in Yichun Municipal Government (Online), 
``Shixi Township's Implementation Plan for Rural Anti-Cult Warning and 
Education Activities'' [Shixi banshichu nongcun fanxiejiao jingshi 
jiaoyu huodong shishi fangan], 9 January 04.
    \136\ Notice Concerning Provisions for Nanjing City Public Security 
Departments' Functional Deployment, Internal Mechanisms, and Force Size 
[Shizhengfu bangongting guanyu yinfa nanjing shi gonganju zhineng 
peizhi, neishe jigou he renyuan bianzhi guiding], issued 23 June 08, 
art. 2(20).
    \137\ Yunnan Provincial State Taxation Administration (Online), 
``Suijiang County State Taxation Bureau Carries Out Stability Work 
Using the `Three Upgrades' and `Two Implementations' '' [Suijiang xian 
guoshuiju yi `san ge tigao' `liang ge luoshi' qieshi zuohao zongzhi he 
weiwen gongzuo], 28 March 08.
    \138\ Gutian County Government (Online), ``2008 Propaganda 
Materials for Prevention, Warning, and Education against Cults'' [2008 
Nian fangfan xiejiao jingshi jiaoyu xuanchuan cailiao], 3 April 08.
    \139\ People's Government of Chengmai County (Online), ``Wang 
Hanmin: Work Report on Constructing a `Peaceful Chengmai' '' [Jianshe 
`pingan chengmai' gongzuo baogao: Wang Hanmin], 10 March 05; CCP 
Political-Legal Committee of Wuling District (Online), ``Political and 
Legal Work, This Term's Basic Situation, and Next Term's Basic Plan'' 
[Zhengfa gongzuo benjie jiben qingkuang ji xiajie jiben guihua], 1 
October 07; Xiamen Municipal Office for the Prevention of Cults, 
reprinted in Office of the Xiamen Municipal Leading Work Group for 
Private Enterprise (Online), ``Preventing and Handling Cults: the 
General Situation'' [Fangfan he chuli xiejiao gongzuo: gaikuang], 4 
February 06.
    \140\ CCP Political-Legal Committee of Wuling District, ``Political 
and Legal Work.''
    \141\ Ibid. For reference to the ``three responsibility measures'' 
consisting of district police, neighborhood committee, and their own 
relatives, see Anti-Cult Association of Qiandong Neighborhood, Yunyan 
District, Guiyang City, Guizhou province, reprinted in National Anti-
Cult Association (Online), ``Implement Comprehensive Administration, 
Fight for Position Against `Falun Gong' '' [Shixing zonghe zhili, yu 
`Falungong' zhengduo zhendi], 16 July 07.
    \142\ CCP Political-Legal Committee of Wuling District, ``Political 
and Legal Work.''
    \143\ Ibid.
    \144\ Shanggao County Government (Online), Report on the County 
Trade and Economic Commission's Education and Transformation of `Falun 
Gong' Personnel [Xian jingmaowei `Falun Gong' renyuan jiaoyu zhuanhua 
gongzuo huibao], 29 July 08.
    \145\ Lancang Lanhu Ethnic Minority Autonomous County (Online), 
``Regarding the Printing & Distribution of the Notice on Lancang Lanhu 
Ethnic Minority Autonomous County Provisions on the Internal Functional 
Deployment and Distribution of Personnel'' [Guanyu yinfa lancang 
lanhuzu zizhixian renmin zhengfu bangongshi zhineng peizhi neishe jigou 
he renyuan bianzhi guiding de tongzhi], 24 December 02; ``Second 
Chinese Defector Backs Chen's Claims,'' Australian Broadcasting 
Corporation (Online), 7 June 05.
    \146\ U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, 5.
    \147\ Ian Johnson, ``Death Trap: How One Chinese City Resorted to 
Atrocities to Control Falun Dafa,'' Wall Street Journal, reprinted in 
Pulitzer Prizes (Online), 26 December 00. For discussion of 
``transformation'' in Chinese sources, see Shaanxi Anti-Cult 
Association, ``Thoughts on Current Transformation through Education 
Work'' [Dangqian jiaoyu zhuanhua gongzuo de sikao], Kaifeng Web, 25 
July 08; Cao Huaxia and Liang Haijun, ``Our Perspective on the 
Transformation through Reeducation of Falun Gong Criminals'' [Jiaoyu 
zhuanhua falun gong zuifan zhi wo jian], Journal of the Shanxi Cadres 
School of Coal Management, March 2007; Nanjing City Gulou District 
Anti-Cult Association and Jiangsu Provincial Academy of Social 
Sciences, reprinted in China Anti-Cult Web (Online), ``An Exploration 
of Two Rules for Transformation through Reeducation Work'' [Dui jiaoyu 
zhuanhua gongzuo zhong liangge guilu de tantao], 15 July 08. For 
English sources that describe general methods used against Falun Gong 
in RTL camps and other detention facilities (which are similar to those 
employed at transformation centers), see Human Rights Watch, 
``Dangerous Meditation,'' 93; Margot O'Neill and Hamish Fitzsimmons, 
``Spy Claims Terrify Falun Gong Followers,'' Australian Broadcasting 
Corporation (Online), 8 June 05; Sheridan, ``Yu Zhou Dies.''
    \148\ CCP Political-Legal Committee of Wuling, ``District Political 
and Legal Work.''
    \149\ Johnson, ``Death Trap.''
    \150\ National People's Congress Standing Committee, Decision 
Regarding the Ban on Cult Organizations and the Prevention and 
Punishment of Cult Activities; Yueyang Municipal Government (Online), 
``Never Tire in the Punishment of Cults'' [Chengzhi xiejiao changzhua 
buxie], 5 September 07.
    \151\ CCP Political-Legal Committee of Wuling, ``District Political 
and Legal Work.''
    \152\ Aohan Banner Municipality, Chifeng Prefecture, IMAR (Online), 
``A Brave Man Who Has Struggled Against Cults'' [Yu xiejiao douzheng de 
yongshi], 5 December 07; The Disciples Sect, or Mentuhui (also known as 
Narrow Gate), is an indigenous Chinese sect founded by a man named Ji 
Sanbao in Shaanxi province in 1989. Its teachings are based on 
Christianity, but the sect embraces an unorthodox view of its leader as 
``living Christ.'' It was banned as a ``cult'' in 1990. Chang, Falun 
Gong, 148.
    \153\ Guandu District Government (Online), Report to the Ninth CCP 
Representative Assembly in the Guandu District of Kunming City: 2006 
Guandu District Yearbook [Zai zhongguo gongchandang kunming shi guandu 
qu dijiuci daibiao dahui shang de baogao: 2006 nian guandu nianjian], 6 
June 06.
    \154\ Shucheng County Government (Online), ``Chengguan Township's 
Operation to Attack and Clean Up `Falun Gong' Shows Results'' 
[Chengguan zhen daji qingli `Falun Gong' zhuanxiang xingdong xian 
chengxiao], 8 April 08.
    \155\ Gao has also faced government harassment for his 
participation in the Christian house church movement. He does not 
practice or profess a belief in Falun Gong.
    \156\ Gao Zhisheng, A China More Just (San Diego: Broad Press, 
2007), 136-137; Chan, ``Lawyer's Conviction `Sign of Tyranny.' ''
    \157\ Amnesty International (Online), ``China: Fear for Safety, 
Possible Incommunicado Detention: Gao Zhisheng,'' 28 September 07.
    \158\ China Anti-Cult Association (Online), ``China Anti-Cult 
Association Opens its 2007 Annual Conference in Hangzhou'' [Zhongguo 
fanxiejiao xiehui 2007 nian de nianhui zai hang zhaokai], 27 November 
07.
    \159\ Examples include: Provincial--Changting County Party 
Committee, posted on Fujian Provincial Anti-Cult Association (Online), 
``Methods and Experiences Transforming Peasant `Falun Gong' 
Extremists'' [Zhuanhua nongmin `fa lun gong' chimizhe de zuofa yu 
tihui], 2 January 08; County--Rongchang County Government (Online), 
``The First Anti-Cult Association in Chongqing Municipality is 
Established in Our County'' [Wo shiqu shouge fanxiejiao xiehui zai wo 
xian chengli], 7 May 08; Municipal--Laigang Anti-Cult Association 
(Online) ``Laigang Earnestly Organizes and Launches a Month of 
`Building Peace and Leaving Cults Far Behind' Propaganda Activities'' 
[Laigang renzhen zuzhi kaizhan `pingan jianshe yuanli xiejiao' 
xuanchuan yue huodong], 25 March 08. Neighborhood/Community--Anti-Cult 
Association of Qiandong Neighborhood, ``Implement Comprehensive 
Administration.''
    \160\ Dushan County Travel Bureau, ``Strengthen our Studies, 
Strengthen and Increase Anti-Cult Awareness'' [Jiaqiang xuexi, 
zengqiang fanxiejiao yishi], Dushan Party Committee and Dushan County 
Government (Online), 6 June 08; Laigang Anti-Cult Association, 
reprinted in Zhengqi Web (Online), ``Laigang Anti-Cult Association 
Propaganda Activities Yield Results'' [Laigang Fanxiejiao Xiehui 
Xuanjiang Huodong Qude Chengxiao], 31 July 08.
    \161\ ``China Anti-Cult Associations Established in Beijing'' 
[Zhongguo fanxiejiao xiehui zai beijing chengli), People's Daily 
(Online), 13 November 00; China Anti-Cult Association (Online), 
``General Survey of the China Anti-Cult Association'' [Zhongguo 
Fanxiejiao Xiehui Gaikuang], 20 August 08. The Association's Web site 
suggests independence from the government by insisting that the 
organization was founded by concerned citizens from the ``fields of 
technology, social science, religion, law, and media.''
    \162\ Anti-Cult Association of Qiandong Neighborhood, ``Implement 
Comprehensive Administration.''
    \163\ Shandong Province Civil Organizations Information Web 
(Online), ``Liaocheng City Office of the Anti-Cult Association 2006 
Work Summary and 2007 Work Plan'' [Liaocheng shi fanxiejiao xiehui 
bangongshi 2006 nian gongzuo zongjie, 2007 nian gongzuo jihua), 19 
April 08.
    \164\ Luyuan District Government Information Center (Online), 
``Seeking Truth & Pragmatism, Seizing the Moment: My District's Anti-
Cult Warning Education Work Surges Again'' [Qiuzhen wushi, qiangzhua 
shiji: woqu fanxiejiao jingshi jiaoyu gongzuo zai xian gaochao], 29 May 
07.
    \165\ The directive is entitled ``A Propaganda Outline Regarding 
the Prevention of `Falun Gong' Interference with and Harming of the 
Beijing Olympics,'' or in Chinese ``Guanyu Fangfan `Falun Gong' Ganrao 
Pohuai Beijing Aoyunhui de Xuanjiang Tigang.'' While references to this 
directive are abundant and easy to locate on the Chinese web, the full 
text does not appear to be publicly available.
    \166\ Examples include: Urumqi Municipal Government, Shayibake 
District, Xinjiang Uighur Autonomous Region (Online), ``The Olympic 
Security Work Implementation Scheme for the Friendly South District'' 
[Youhao nan diqu aoyun anbao gongzuo shishi fang'an], 3 April 08; 
Ge'Ermu City Economic and Trade Commission (Online), ``Municipal 
Economic and Trade Commission Launches Activities and Discussions 
Focusing on `A Propaganda Outline Regarding the Prevention of ``Falun 
Gong'' Interference with and Harming of the Beijing Olympics' '' [Shi 
jingmaowei kaizhan xuanjiang `guanyu fangfan ``falun gong'' ganrao 
pohuai beijing aoyunhui de xuanjiang tigang'], 4 June 08; Weining Yi 
Hui Miao Ethnic Autonomous County Government (Online), ``Xiaohai 
Township Launches Guarding Against `Falun Gong' Interference and 
Destruction of Beijing Olympics Discussion Activities'' [Xiaohai zhen 
kaizhan ``falun gong'' ganrao pohuai beijing aoyunhui xuanjiang 
huodong], 8 July 08; Tibetan Science and Technology Committee (Online), 
``The District S&T Office Studies `A Propaganda Outline Regarding the 
Prevention of ``Falun Gong'' Interference with and Harming of the 
Beijing Olympics' '' [Qu kejiting xuexi xuanchuan `guanyu fangfan 
``falun gong' ganrao pohuai beijing aoyunhui de xuanjiang tigang], 13 
June 08; Political and Legal Committee of Huocheng County, Ili Kazakh 
Autonomous Prefecture, Xinjiang Uyghur Autonomous Region (Online), 
``Huocheng County Bureau of Public Health Seriously Studies Anti-Cult 
Discussion Outline'' [Huocheng xian weishengju renzhen xuexi fanxiejiao 
xuanjiang tigang], 2 June 08.
    \167\ Er'lianhaote City Law Enforcement Department, Xilinguole 
League (Online), ``Law Enforcement Department Launches Activities to 
Publicize Efforts to Guard Against `Falun Gong' Interference with 
Beijing Olympics'' [Xingzheng zhifaju kaizhan fangfan ``falun gong'' 
ganrao pohuai beijing aoyunhui xuanjiang huodong], 19 June 08; Luxi 
City Department of National Resources (Online), ``Luxi City National 
Resources Department Launches Guarding Against `Falun Gong' 
Interference and Destruction of Beijing Olympics Discussion 
Activities'' [Luxi shi guotu ziyuan ju jiji kaizhan fangfan ``falun 
gong'' ganrao pohuai beijing aoyunhui xuanjiang huodong], 26 June 08; 
Qianjiang District Government (Online), ``Zhengyang Township Steadily 
Carries Out Prevention and Punishment of Cults'' [Zhengyang zhen zhashi 
zuohao fangchu xiejiao gongzuo], 14 June 08.
    \168\ Chengdu Dayi County Adolescent Ideology and Morality 
Development Network (Online), ``Propaganda and Education Activities to 
Guard Against `Falun Gong' Interference with and Destruction of the 
Beijing Olympics'' [Fangfan ``falun gong'' ganrao pohuai beijing 
aoyunhui xuanjiang jiaoyu huodong], 13 June 08; International Cargo 
Transport Limited of China (Online), ``International Cargo Transport of 
China, Hangzhou Headquarters Convenes Plenary Meeting on Situation'' 
[Zhongguo guoji huoyun hangkong hangzhou yunying jidi zhaokai xingshi 
dahui], 24 June 08; Chinese Academy of Social Sciences, South China Sea 
Institute of Oceanology (Online), ``Our Institute Convenes Meeting to 
Discuss Protecting Stability and Defending Security Work'' [Wosuo 
zhaokai weihu wending, anquan baowei yu anquan chansheng gongzuo 
huiyi], 19 June 08.
    \169\ Laigang Anti-Cult Association, ``Laigang Anti-Cult 
Association Propaganda Activities.''
    \170\ ``Shanghai To Restrict Dissidents During Olympics,'' 
Associated Press (Online), 24 June 08.
    \171\ ``Religious Texts Allowed at Beijing Olympics, But for 
Personal Use; Falun Gong Excluded,'' Associated Press, reprinted in 
International Herald Tribune (Online), 7 November 07.
    \172\ ``Beijing Offers Hefty Rewards for Security Threat 
Information During Olympics,'' Xinhua (Online), 11 July 08.
    \173\ Falun Dafa Information Center, ``Thousands of Falun Gong 
Adherents Arrested.'' The list of 141 practitioners detained in Beijing 
from January 2008 to June 2008 can be accessed at the Falun Dafa 
Information Center's Web site.
    \174\ Chinese public security officials also used supposed security 
concerns to justify a request made to the government of Japan in which 
they solicited information on Falun Gong practitioners residing in 
Japan who might attend the Olympic Games. The Japanese government 
refused to cooperate. ``China Asks Japan for Information on Falun Gong 
Members Ahead of Olympics,'' Kyodo World Service (Online), 17 July 08; 
Timothy Chui, ``More Games Security to Come, Says Expert,'' Hong Kong 
Standard (Online), 19 May 08; Edward Cody, ``China Set to Protect 
Olympics,'' Washington Post (Online), 25 July 08.
    \175\ ``Interview with Tian Yixiang, Head of the Military Affairs 
Department of the Beijing Olympics Protection Leading Group'' 
[Zhuanfang aoyun anbao xietiao gongzuo xiaozu jundui bu tian yixiang], 
Outlook Weekly (Online), 8 July 08; ``PLA Has Finalized Plans to Deal 
With Sudden Contingencies During Olympic Games'' [Jiefangjun aoyun 
anbao budui yi zhiding chongfen cuoshi yingdui tufa shijian], China 
News (Online), 8 May 08.
    \176\ ``Olympic Counterterrorism Warning: Major Threats are Eastern 
Turkestan, Tibetan Independence, and Falun Gong'' [Aoyun laxiang 
fankong jingbao: zhuyao fangfan dongtu zangdu xiejiao falungong], 
ChinaGo (Online), 24 July 08.
    \177\ PRC Constitution, art. 50.
    \178\ PRC Constitution, art. 89(12).
    \179\ ``Guo Dongpo: Tap Into Overseas Compatriots to Expose the 
False Reasoning and Heresies of `Falun Gong,' '' [Guo dongpo: fahui 
haiwai tongbao zuoyong jielu ``falun gong'' waili xieshuo], China 
Central Television (Online), 2 February 01.
    \180\ Ibid.
    \181\ Chongqing Municipal Overseas Chinese Affairs Office (Online), 
``Outline on the Transmission of the Spirit of the Director's Meeting 
of the National Office of Overseas Chinese Affairs'' [Quanguo qiaoban 
zhuren huiyi jingshen chuanda tigang], 5 April 07.
    \182\ Guo Xiangrun and Peng Fei, Luzhou Municipal Federation of 
Returned Overseas Chinese, reprinted in Overseas Chinese Affairs Office 
of the State Council (Online), ``Strengthen the Party's Development of 
Governance Capabilities, Accelerate the Development of the China 
Federation of Returned Overseas Chinese'' [Jiaqiang dang de zhizheng 
nengli jianshe, cujin qiaolian shiye fazhan], 8 May 05.
    \183\ Overseas Chinese Affairs Office of the State Council 
(Online), ``The Exemplary Deeds of the Overseas Chinese Affairs Office, 
Hubei Provincial Government'' [Hubei dheng renmin zhengfu qiaowu 
bangongshi xianjinshiji], 2004.
    \184\ Liu Chengxuan, ``Seeking Truth and Pragmatism, Diligently 
Forge Ahead With the New Dimensions of Starting Overseas Chinese Work 
Corps'' [Qiuzhen wushi nuli jinqu, kaizhan bingtuan qiaowu gongzuo xin 
jumian], 4 Journal of Overseas Chinese Affairs Work Research (Online), 
2004.
    \185\ Overseas Chinese Affairs Office of the State Council 
(Online), ``Director Chen Yujie Meets with the Metro Chicago Area 
United Federation of Overseas Chinese & Chinese Americans'' [Chen yujie 
zhuren zai beijing huijian da zhijiage diqu hualianhui fanghuatuan], 14 
June 06.
    \186\ ``Delegation from China Anti-Cult Association Holds Public 
Lecture in Geneva'' [Zhongguo fanxiejiao xiehui daibiaotuan zai rineiwa 
juxing baogao hui], Xinhua (Online), 16 November 07; ``Delegation from 
China Anti-Cult Association Holds Talks with Overseas Chinese in 
Switzerland'' [Zhongguo fanxiejiao xiehui daibiaotuan tonglu rei huaren 
huaqiao zuotan], Xinhua (Online), 25 March 02; ``Spain Establishes 
`World Chinese and Overseas Chinese Anti-Cult Association' '' [Xibanya 
chengli `shijie huaqiao huaren fanxiejiao xiehui'], People's Daily 
(Online), 16 October 02.
    \187\ Overseas Chinese Affairs Office of the State Council 
(Online), ``Commending All of the Contributions, Chinese Immigrants 
Select Argentina's `Outstanding Immigrant' '' [Zhang suozuo gongxian, 
zhongguo yimin dangxuan a'genting `jiechu yimin'], 11 September 08.
    \188\ Overseas Chinese Affairs Office of the State Council 
(Online), ``Ma Rupei Attends Meeting Held by the Overseas Chinese 
Affairs Office of the State Council To Address Integrated Preparations 
& Deployment Work During the Olympic Period'' [Ma Rupei chuxi 
guoqiaoban aoyun qijian zonghe zhengzhi gongzuo bushu huiyi], 14 July 
08.

    Notes to Section II--Ethnic Minority Rights
    \1\ Regional Ethnic Autonomy Law (REAL), enacted 31 May 84, amended 
28 February 01, preamble.
    \2\ For more information on the protests, see Section IV--Xinjiang 
and Section V--Tibet.
    \3\ For additional background on ethnic minority rights, see the 
``Special Focus for 2005: China's Minorities and Government 
Implementation of the Regional Ethnic Autonomy Law,'' CECC, 2005 Annual 
Report, 11 October 05, 13-23. Regarding international human rights 
standards, see, e.g., the Universal Declaration of Human Rights, 
adopted and proclaimed by General Assembly resolution 217 A (III) of 10 
December 48, arts. 2, 7; International Covenant on Civil and Political 
Rights (ICCPR), adopted by General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, arts. 2(1), 26, 27; 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR), adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 2(2); Convention on 
the Rights of the Child (CRC), adopted and opened for signature, 
ratification, and accession by General Assembly resolution 44/25 of 20 
November 89, entry into force 2 September 90, arts. 2(1), 30. See 
generally, International Convention on the Elimination of All Forms of 
Racial Discrimination (CERD), adopted and opened for signature and 
ratification by General Assembly resolution 2106 (XX) of 21 December 
65, entry into force 4 January 69. Article 1(1) of CERD defines racial 
discrimination to mean ``any distinction, exclusion, restriction or 
preference based on race, colour, descent, or national or ethnic origin 
which has the purpose or effect of nullifying or impairing the 
recognition, enjoyment or exercise, on an equal footing, of human 
rights and fundamental freedoms in the political, economic, social, 
cultural or any other field of public life.''
    China is a party to the ICESCR, CRC, and CERD, and a signatory to 
the ICCPR. The Chinese government has committed itself to ratifying, 
and thus bringing its laws into conformity with, the ICCPR and 
reaffirmed its commitment on April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
also stated on other occasions that they are preparing for ratification 
of the ICCPR, including in March 18, 2008, press conference remarks by 
Chinese Premier Wen Jiabao, in a September 6, 2005, statement by 
Politburo member and State Councilor Luo Gan at the 22nd World Congress 
on Law, in statements by Wen Jiabao during his May 2005 Europe tour, 
and in a January 27, 2004, speech by Chinese President Hu Jintao before 
the French National Assembly.
    \4\ CECC, 2007 Annual Report, 10 October 07, 105-106.
    \5\ Southern Mongolian Human Rights Information Center (Online), 
``Another Mongolian Arrested for Alleged Links with `Separatists,' '' 2 
August 08.
    \6\ Southern Mongolian Human Rights Information Center (Online), 
``Well-known Journalist Naranbilig under House Arrest following 20 Days 
Detention,'' 28 April 08; Southern Mongolian Human Rights Information 
Center (Online), ``Statement of the Southern Mongolian Human Rights 
Information Center to the United Nations Permanent Forum on Indigenous 
Issues 7th Session,'' 2 May 08; Southern Mongolian Human Rights 
Information Center (Online), ``Jaranbayariin Soyolt Released and 
Deported Back to Mongolia,'' 19 June 08.
    \7\ Southern Mongolian Human Rights Information Center (Online), 
``Mongolian Dissident Arrested in Beijing,'' 27 February 08; Southern 
Mongolian Human Rights Information Center (Online), ``China's Official 
Response to Mongolia on J. Soyolt's Case,'' 4 June 08; Southern 
Mongolian Human Rights Information Center, ``Jaranbayariin Soyolt 
Released and Deported Back to Mongolia.'' According to the Southern 
Mongolian Human Rights Information Center, Jiranbayariin Soyolt was a 
leader of a Mongolian student movement in the early 1980s. He left 
China in 1992 and gained refugee status in Mongolia.
    \8\ For more information on Chinese policies in the IMAR, see, 
e.g., China's Ethnic Regional Autonomy Law: Does it Protect Minority 
Rights?, Staff Roundtable of the Congressional-Executive Commission on 
China, 11 April 05, Testimony of Christopher P. Atwood, Associate 
Professor, Department of Central Eurasian Studies, Indiana University; 
Uradyn E. Bulag, ``Inner Mongolia: The Dialectics of Colonization and 
Ethnicity Building,'' in Governing China's Multiethnic Frontiers, ed. 
Morris Rossabi (Seattle: University of Washington Press, 2004), 100-
107; Naran Bilik, ``Language Education, Intellectuals and Symbolic 
Representation: Being an Urban Mongolian in a New Configuration of 
Social Evolution,'' in Nationalism and Ethnoregional Identities in 
China, ed. William Safran (London: Frank Cass, 1998).
    \9\ ``Regulation on Inner Mongolia Autonomous Region Mongolian 
Language Work'' [Neimenggu zizhiqu menggu yuyan wenzi gongzuo tiaoli], 
issued 26 November 04. See also ``Inner Mongolia Government Promotes 
Mongolian Language,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 10-11. For recent examples of steps to promote 
Mongolian language use, see, e.g., State Ethnic Affairs Commission 
(SEAC) (Online), ``Inner Mongolia Gives Priority to Students of 
Teacher's Colleges [Majoring in] Teaching Classes in Mongolian by 
Implementing Free Education'' [Neimenggu youxian dui mengguyu shouke 
shifansheng shixing mianfei jiaoyu], 26 November 07; Inner Mongolia 
Autonomous Region Ethnic and Religious Affairs Commission (Online), 
``Inner Mongolia Increases 170 Million Yuan in Educational Expenditures 
to Subsidize Lodging for Students in Classes Taught in Mongolian'' 
[Neimenggu xin zeng 1.7 yi yuan jiaoyu zhichu buzhu mengyu shouke jisu 
xuesheng], 1 March 08.
    \10\ ``31st Standing Committee Meeting of 10th Inner Mongolia 
Autonomous Region People's Congress Holds Group Deliberation'' 
[Neimenggu shi jie renda changweihui di 31 ci huiyi juxing fenzu 
shenyi], Inner Mongolia News Net (Online), 29 November 07.
    \11\ CECC, 2007 Annual Report, 106; CECC, 2005 Annual Report, 17-
18.
    \12\ ``Chinese Premier Pledges More Support to Poor Minority 
Areas,'' Xinhua, 2 April 08 (Open Source Center, 2 April 08).
    \13\ ``China's 9-Year Compulsory Education To Cover Most of Western 
Areas by Year-End,'' Xinhua, 27 November 07 (Open Source Center, 27 
November 07).
    \14\ ``China Vows To Foster More Professional Cadres From 
Minorities,'' Xinhua, 26 October 07 (Open Source Center, 26 October 
07).
    \15\ State Ethnic Affairs Commission (Online), ``Summary of One-
Year Implementation of 11th 5-Year Program for Ethnic Minority 
Undertakings'' [Shaoshu minzu shiye ``shi yi wu'' guihua shishi yinian 
zongshu], 29 February 08; State Council General Office Circular on 
Printing and Issuing the 11th 5-Year Program for Ethnic Minority 
Undertakings [Guowuyuan bangongting guanyu yinfa shaoshu minzu shiye 
`shiyiwu' guihua de tongzhi], issued 27 February 07. For earlier CECC 
reporting on this program, see CECC, 2007 Annual Report, 106.
    \16\ State Council General Office Circular on Printing and Issuing 
the 11th 5-Year Program for Ethnic Minority Undertakings, item 2(11).
    \17\ State Ethnic Affairs Commission (Online), ``State Ethnic 
Affairs Commission Organizes and Launches Research on Ethnic Relations 
Evaluation System and Early Warning Mechanism'' [Guojia minwei zuzhi 
kaizhan minzu guanxi pinggu tixi he yujing jizhi yanjiu], 9 August 07.
    \18\ Information based on the CECC Political Prisoner Database and 
``Authorities Try Mongol Couple, Assault Son of Imprisoned Mongol 
Activist,'' CECC China Human Rights and Rule of Law Update, August 
2006, 2.

    Notes to Section II--Population Planning
    \1\ The population planning policy was first launched in 1979, 
canonized as a ``fundamental state policy'' in 1982, and codified as 
national law in 2002. As of 2007, 19 of China's 31 provinces--
accounting for 53.6 percent of China's population--allow rural dwellers 
to have a second child if their first child is a girl. Gu Baochang, et 
al., ``China's Local and National Fertility Policies at the End of the 
Twentieth Century,'' 33 Population and Development Review 133, 138 
(2007).
    \2\ ``China Changes Family Planning Slogans from `Coarse' to 
`Amiable,' '' Xinhua (Online), 11 October 07; Shan Juan, ``Family 
Planning Posters Toned Down,'' China Daily (Online), 12 October 07.
    \3\ CECC, 2006 Annual Report, 20 September 06, 109.
    \4\ CECC, 2007 Annual Report, 10 October 07, 108.
    \5\ Beijing Declaration and Platform for Action (1995), para. 17; 
Cairo International Conference on Population and Development, para. 
7.2. On the concept of ``illegal pregnancy'' and its use in practice, 
see Elina Hemminki, et al., ``Illegal Births and Legal Abortions--The 
Case of China,'' Reproductive Health 2, no. 5 (2005).
    \6\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted and opened for signature, ratification, and 
accession by General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, art. 2, 3, 16(1)(e).
    \7\ Convention on the Rights of the Child, adopted and opened for 
signature, ratification, and accession by General Assembly resolution 
44/25 of 20 November 89, entry into force 2 September 90, art. 2, 3, 4, 
6, 26.
    \8\ International Covenant on Economic, Social, and Cultural Rights 
(ICESCR), adopted by General Assembly resolution 2200 A (XXI) of 16 
December 66, entry into force 3 January 76, art. 10 (3).
    \9\ ``Family Planning Rules Tightened,'' China Daily (Online), 14 
September 07; ``China Cracks Down on One-Child Violators,'' Associated 
Press (Online), 14 September 07.
    \10\ Bureau of Democracy, Human Rights and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08, 9.
    \11\ Ibid., 9.
    \12\ Ma Lie and Chen Hong, ``New Family Policy Attacks Elites' 
Egos,'' China Daily (Online), 19 September 07.
    \13\ ``Chinese Province Raises Fines on Wealthy Flouters of Family 
Planning Laws,'' Xinhua (Online), 29 September 07; ``Hunan Writes Local 
Legislation To Hold Back the Number of Wealthy Families Having More 
Than One Child'' [Hunan ba ezhi furen chaosheng xinjin difang fagui], 
Xinhua (Online), 14 January 08.
    \14\ Tania Branigan, ``China's Celebrities `Buy' Extra Children,'' 
The Guardian (Online), 22 January 08; ``Hunan: Famous, Rich People Who 
Violate the One Child Policy will be Entered into a Bad Credit 
Blacklist'' [Hunan: Mingren furen chaosheng jiangshang xinyong 
heimingdan], China Youth Daily (Online), 26 March 2007; ``Beijing to 
Fine Celebrities Who Break Family Planning Rule,'' Xinhua (Online), 21 
January 08.
    \15\ ``Chinese Province Raises Fines,'' Xinhua.
    \16\ ``Hubei Releases New Family Planning Rule: Violators Banned 
from Government Service for 3 Years'' [Hubei chutai jisheng xingui: 
chaosheng zhe sannian nei bude luwei gongwuyuan], Wuhan Hubei Daily 
(Online), 5 January 08; Maureen Fan, ``Officials Violating `One-Child' 
Policy Forced Out in China,'' Washington Post (Online), 8 January 08.
    \17\ ``Last Year More than 90,000 in Hubei Exceeded One-Child 
Policy, Paid 230 Million in Social Compensation Fees'' [Hubei qunian 9 
wanyu ren `chaosheng' jiaona shehui fuyang fei 2.3yi yuan], Wuhan Hubei 
Daily (Online), 6 January 08; ``Hubei Luminaries Fined for Flouting 
Family Rules,'' China Daily (Online), 2 January 08.
    \18\ ``Private Teachers Who Violate One-Child Policy Will Not 
Receive Retirement Wages'' [Minban jiaoshi weifan jisheng zhengce bu 
neng xiangshou tuixiu daiyu], Radio Free Asia (Online), 26 April 07.
    \19\ ``Nominations for Local People's Congress and CPPCC in Henan 
Blocked Due to One-Child Policy Violations'' [Renda zhengxie weiyuan 
houxuanren yin weifan jihua shengyu bei foujue], Radio Free Asia 
(Online), 3 November 07; ``Lawmakers Barred for Breaking One-Child 
Rule,'' Xinhua (Online), 4 April 08.
    \20\ ``Hubei Luminaries Fined,'' China Daily.
    \21\ ``Last Year More than 90,000 in Hubei Exceeded 1 Child 
Policy,'' Wuhan Hubei Daily.
    \22\ Under Article 41 of the Population and Family Planning Law, 
when a citizen does not pay the social compensation fee, the 
``administrative department for family planning that makes the decision 
on collection of the fees shall, in accordance with the law, apply to 
the People's Court for enforcement.'' PRC Population and Family 
Planning Law, enacted 29 December 01, art. 41; U.S. Department of 
State, Country Reports on Human Rights Practices--2007, China, 9; CECC 
Staff Interview.
    \23\ PRC Population and Family Planning Law, art. 39.
    \24\ Ibid., art. 33.
    \25\ U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, 9.
    \26\ ``Henan Family Planning Office Forcibly Induces Labor and 
Kills Infant'' [Henan jishengban qiangxing yinchan bing shasi yinger], 
Radio Free Asia (Online), 6 May 08.
    \27\ U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, 9.
    \28\ ``China's One-Child Policy Stays, Abuses Resurface,'' Radio 
Free Asia (Online), 2 April 08.
    \29\ Li Jinsong, ``Chen Guangcheng Sues Li Qun, Liu Jie, and Other 
Officials for Trumped Up Charges and Retaliation'' [Chen guangcheng 
konggao li qun liu jie deng shexian fanyou baofu xianhai zui zhi, 
gongmin bao'an konggao han], Chinese Human Rights Defenders (Online), 5 
April 08.
    \30\ ``Chen Guangcheng Discriminated Against in Prison; Wife Barred 
From Leaving Home'' [Chen guangcheng yuzhong shou qishi, qizi jixu bei 
boquan], Radio Free Asia (Online), 21 November 07; Cai Jin, 
``Imprisoned Rights Defenders Guo Feixiong, Chen Guangcheng Prevented 
from Communicating with Families, Lawyers Stress Constitution Provides 
Freedom of Communication'' [Xianyu weiquanzhe guo feixiong chen 
guangcheng jia tongxun shouzu, lushi qiangdiao xianfa fuyu gongmin 
tongxun ziyou], Boxun (Online), 27 November 07; Chinese Human Rights 
Defenders (Online), ``Chen Guangcheng, Human Rights Defender in Prison, 
Update: Officials Ignored Requests for Medical Parole and for Filing 
Complaints to Higher Court about Verdict,'' 23 March 07; Zhang Min, 
Chinese Human Rights Defenders (Online), ``With the Paralympics Close, 
Imprisoned Blind Rights Activist Chen Guangcheng's Family Members, 
Villagers, and Lawyers Have Had Cellular Communications Obstacles'' 
[Canao jin, yuzhong mangren weiquanzhe chen guangcheng jiaren, cunmin 
ji lushi shouji tongxun zhang'ai], 3 September 08.
    \31\ ``China's One-Child Policy Stays,'' Radio Free Asia.
    \32\ ``Henan Family Planning Office Forcibly Induces Labor,'' Radio 
Free Asia.
    \33\ U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, 9; Howard French, ``Single Mothers in China 
Forge a Difficult Path,'' New York Times (Online), 6 April 08.
    \34\ He Yafu, ``Are Children of One-Child Policy Violators Chinese 
Citizens'' [Heihu haizi shibushi zhongguo gongmin], China Youth Daily 
(Online), 18 September 07; ``Second Child of Disabled Parents Deprived 
of Education Over One-Child Policy Violation'' [Beijing chaoshenger 
dushu wumen, canji fumu zou tou wulu], Radio Free Asia (Online), 13 
February 08.
    \35\ Gansu Provincial Government (Online), ``Gansu Provincial 
Population Commission Leadership Group Goes to Shanxi to Observe and 
Study'' [Gansu sheng renkou wei lingdao banzi jituan fu shanxi sheng 
kaocha xuexi], 24 April 08.
    \36\ ``Seeking Help: Chinese Government Begins to Force Tibetan 
Women to Undergo Sterilization Procedure'' [Qiuzhu, zhongguo zhengfu 
kaishi qiangzhi zangzu funu zuo jueyu shoushu], Boxun (Online), 6 June 
08.
    \37\ See, e.g., Uyghur Human Rights Project (Online), ``Rural East 
Turkistan To Be `Focus' of China's Family Planning Policies,'' 15 
February 06; Human Rights in China: Improving or Deteriorating 
Conditions, Hearing of the Subcommittee on Africa, Global Human Rights, 
and International Operations, Committee on International Relations, 
U.S. House of Representatives, 19 April 06, Testimony of Rebiya Kadeer.
    \38\ ``Seeking Help,'' Boxun.
    \39\ For more information on the importance of incentive structures 
for local officials in China, see Jean C. Oi, Rural China Takes Off: 
Institutional Foundations of Economic Reform (Los Angeles: University 
of California Press, 1999).
    \40\ Tongwei County Government (Online), ``Comrade Tian Xiangrong's 
Speech at the Tongwei County Lidian Meeting on Population and Family 
Planning Work'' [Tian Xiangrong tongzhi zai quanxian renkou yu jihua 
shengyu gongzuo lidian xianchang huiyi shang de jianghua], 31 July 06.
    \41\ Ibid.
    \42\ CECC, 2007 Annual Report, 110; U.S. Department of State, 
Country Reports on Human Rights Practices--2007, China, 9.
    \43\ Tongwei Population Bureau, Gansu Population and Family 
Planning Commission (Online), ``Tongwei County Launches `Month of 
Investigating and Sorting Out' and Concentrated Administrative 
Activities for Basic Population and Family Planning Work'' [Tongwei 
kaizhan jihua shengyu jiceng jichu gongzuo `qingcha qingli yue' jizhong 
zhili huodong], 5 May 08; Tongwei Population Bureau, Gansu Population 
and Family Planning Commission (Online), ``Tongwei County's `Peaceful 
Life Project' of Sterilization of Rural Women with 2 Female Children 
Advances Smoothly'' [Tongwei xian nongcun pinkun ernu jieza hu `anju 
gongcheng' jinzhan shunli], 11 June 08.
    \44\ Tongwei Population Bureau, Gansu Population and Family 
Planning Commission (Online), ``Tongwei County Unveils Prizes for 
Reports that Lead to Voluntary Carrying Out of Sterilization Procedures 
for Rural Families with 2 Female Children'' [Tongwei xian jiji kaizhan 
youjiang jubao huodong bing zhongjiang zhudong luoshi jueyu shoushu de 
nongcun ernu hu jiating], 10 September 07.
    \45\ Ibid.
    \46\ ``Circular on the Distribution of the Henan Province 
Population and Family Planning Commission's 2007 Work Summary and 2008 
Essential Work Areas'' [Henan sheng renkou jisheng wei guanyu yinfa 
2007 nian gongzuo zongjie he 2008 nian gongzuo yaodian de tongzhi], 19 
December 07.
    \47\ ``China Plans Favorable Policies for One-Child Families,'' 
Xinhua (Online), 19 November 07; ``China Will Speed Up Establishment of 
Benefit-Oriented Mechanism in Family Planning,'' Xinhua (Online), 21 
January 08.
    \48\ ``Jiangxi: Government Buys Insurance for Rural Families with 
Appropriate Number of Children'' [Jiangxi: zhengfu wei nongcun jisheng 
jiating mai baoxian], Xinhua (Online), 5 January 07; ``Guizhou: 3000 
Households Compliant with Birth Planning Receive Support to `Strengthen 
Girls' '' [Guizhou 3000 jihua shengyu jiating `ziqiang nuhai' huo 
bangfu], Xinhua (Online), 13 July 07.
    \49\ Quanlin Qiu, ``Only-Children Parents Urged to Have Two Kids,'' 
China Daily (Online), 10 November 06; ``Official: Single-Child Parents 
in China Can Have Second Child,'' Xinhua (Online), 11 July 07.
    \50\ See Robert Stowe England, Aging China: The Demographic 
Challenge to China's Economic Prospects (Westport: Praeger/CSIS, 2005).
    \51\ Barry Naughton, The Chinese Economy: Transitions and Growth 
(Cambridge, MA: MIT Press, 2007), 161-177.
    \52\ Ibid., 171-172.
    \53\ State Council National Working Committee on Children and Women 
(Online), ``Adjusting Sex Ratio Imbalance Should Be Done Without 
Delay'' [Zhili xingbie shiheng keburonghuan], 6 July 07.
    \54\ ``China has 37 Million More Males than Females,'' People's 
Daily (Online), 10 July 07; State Council National Working Committee on 
Children and Women, ``Adjusting Sex Ratio Imbalance Should Be Done 
Without Delay.''
    \55\ James Reynolds, ``Wifeless Future for China's Men,'' BBC News 
(Online), 12 February 07.
    \56\ ``China Grapples with Legacy of its `Missing Girls,' '' China 
Daily (Online), 15 September 04.
    \57\ See Valerie M. Hudson and Andrea M. den Boer, Bare Branches: 
Security Implications of Asia's Surplus Male Population (Cambridge: MIT 
Press, 2004).
    \58\ See Chu Junhong, ``Prenatal Sex Determination and Sex-
Selective Abortion in Rural Central China,'' 27. Population and 
Development Review 2 (2001), 259; Joseph Chamie, ``The Global Abortion 
Bind: A Woman's Right to Choose Gives Way to Sex-Selection Abortions 
and Dangerous Gender Imbalances,'' Yale Global (Online), 29 May 08.
    \59\ Naughton, The Chinese Economy, 171-172.
    \60\ ``China Grapples with Legacy of its `Missing Girls,' '' China 
Daily.
    \61\ ``Abortion Law Amendment to be Abolished,'' China Daily, 
reprinted in Xinhua (Online), 26 June 06; Andrew Yeh, ``China Retreats 
on Selective Abortion Law Plan,'' Financial Times (Online), 25 June 06.
    \62\ CECC, 2007 Annual Report.
    \63\ ``Chinese Policy Spawns 100 Million Only Children,'' 
Associated Press, reprinted in Toronto Star (Online), 8 July 08; Joshua 
Kurlantzick, ``The Family Way,'' Time (Online), 29 May 08.
    \64\ ``One-Child Policy Fueling Youth Crime,'' South China Morning 
Post (Online), 5 December 07; ``One-Child Policy Spawns Divorces,'' 
South China Morning Post (Online), 1 December 07; ``One-Child Policy 
Blamed for Nation of Non-Starters,'' South China Morning Post (Online), 
29 October 07.
    \65\ For information on the absence of public debate on population 
planning issues, see Susan Greenhalgh, Just One Child: Science and 
Policy in Deng's China (Berkeley: University of California Press, 
2008), 3-4.
    \66\ Kristine Kwok, ``Delegates Seek End to One-Child Policy,'' 
South China Morning Post (Online), 16 March 07.
    \67\ ``China May Scrap One-Child Policy, Official Says,'' Reuters 
(Online), 28 February 08.
    \68\ Shi Jiangtao and Josephina Ma, ``One-Child Policy Must be 
Overhauled: Deputy,'' South China Morning Post (Online), 7 March 08; 
Sim Chi Yin, ``Formula To Tweak One-Child Policy,'' Straits Times 
(Online), 7 March 08.
    \69\ ``China Won't Waver in Family Planning Policy,'' Xinhua 
(Online), 6 March 08; ``Minister Zhang Weiqing Rules Out Drastic Change 
in One-Child Rule,'' China Daily (Online), 10 March 08.
    \70\ Ching-Ching Ni, ``One-Child Policy Adds to the Grief of China 
Quake,'' Los Angeles Times (Online), 15 May 08; Kyung Lah, ``Parents' 
Losses Compounded by China's One-Child Policy,'' CNN (Online), 15 May 
08; Christopher Bodeen, ``China's One-Child Policy Causes Extra Pain,'' 
Associated Press (Online), 16 May 08.
    \71\ ``China To Send Medical Team to Quake Zone for Reproduction 
Surgery,'' Xinhua (Online), 6 June 08.
    \72\ ``Quake Victims Allowed Extra Child,'' Radio Free Asia 
(Online), 27 May 08; Andrew Jacobs, ``One-Child Policy Lifted for Quake 
Victims,'' New York Times (Online), 27 May 08.
    \73\ ``China To Send Medical Team to Quake Zone,'' Xinhua.
    \74\ ``China Earthquake: IVF Offered for Grieving Parents,'' 
Telegraph (Online), 6 June 08.

    Notes to Section II--Freedom of Residence
    \1\ Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued 9 January 58.
    \2\ For a detailed discussion of the Chinese hukou system and 
related reforms, see China's Household Registration (Hukou) System: 
Discrimination and Reform, Staff Roundtable of the Congressional-
Executive Commission on China, 2 September 05.
    \3\ Amnesty International, China: International Migrants: 
Discrimination and Abuse. The Human Cost of an Economic `Miracle,' 1 
March 07.
    \4\ ``Beijing To Inspect Status of Migrants'' [Beijing jiang hecha 
liudong renyuan shenfen], Beijing News (Online), 13 January 08.
    \5\ See, e.g., ``Urumchi City Carefully Organizes, Thoroughly 
Deploys Group To Launch Series of Investigation and Rectification 
Activities'' [Wulumuqi jingxin zuzhi zhoumi bushu zuzhi kaizhan yixilie 
paicha zhengzhi huodong], Urumqi Peace Net (Online), 16 July 08; 
``Homes Raided in Xinjiang,'' Radio Free Asia (Online), 23 July 08.
    \6\ ``Beijing Olympic Migrant Workers Cleaned Out,'' Community TV 
Network (Online), 17 July 08.
    \7\ See, e.g., arts. 1 and 13(1) of the Universal Declaration of 
Human Rights, adopted and proclaimed by the General Assembly resolution 
217A (III) of 10 December 48; arts. 2(2) and 12(1) of the International 
Covenant on Civil and Political Rights (ICCPR), adopted by General 
Assembly resolution 2200A (XXI) of 16 December 66, entry into force 23 
March 76. China became a signatory to ICCPR in 1998 and has committed 
to ratify.
    \8\ ``Lawyer Cheng Hai Sued Beijing City for Temporary Resident 
Permit'' [Lushi Cheng Hai zhuanggao beijingshi banli zanzhuzheng 
xingwei weifa], Procuratorial Daily (Online), 3 March 08.
    \9\ ``Lawyer Cheng Hai Sued Beijing City for Temporary Resident 
Permit,'' Procuratorial Daily (Online).
    \10\ Dorothy J. Solinger, ``China's Floating Population: 
Implications for State and Society,'' in The Paradox of China's Post-
Mao Reforms, ed. Merle Goldman and Roderick MacFarquhar (Cambridge: 
Harvard University Press, 1999).
    \11\ ``China's Household Registration Reform: Sustained Reform 
Needed to Protect China's Rural Migrants,'' Congressional-Executive 
Commission on China, 7 October 05.
    \12\ Fei-Ling Wang, ``Reformed Migration Control and New Targeted 
People: China's Hukou System in the 2000s,'' The China Quarterly, March 
2004, 122-123.
    \13\ ``Jiangsu To Implement `One Card' for Floating Population's 
Temporary Permit'' [Jiangsusheng jiang shixing wailairenkou zanzhuzheng 
shengnei yizhengtong], Xinhua, reprinted in People's Daily (Online), 7 
August 08.
    \14\ Yunnan Government Opinion Regarding Deepening Household 
Registration Reform [Yunnansheng renminzhengfu guanyu shenhua huji 
guanli zhidu gaige de yijian], issued 3 September 07.
    \15\ See arts. 16, 19, 30, 31 of Shenzhen City Temporary Measures 
on Residency Permits [Shenzhenshi juzhuzheng zanxing banfa], issued 22 
May 08.
    \16\ Qi Zhifeng, ``Shenzhen Begins Permanent Resident Permit System 
But Still Limited to Hukou System'' [Shenzhen qiyong juzhuzheng wei 
pochu huji zhidu], Voice of America (Online), 1 August 08.
    \17\ Shenzhen City Temporary Measures on Residency Permits 
[Shenzhenshi juzhuzheng zanxing banfa], issued 22 May 08.
    \18\ Beatriz Carrillo Garcia, ``Rural-Urban Migration in China: 
Temporary Migrants in Search of Permanent Settlement,'' Portal Journal 
of Multidisciplinary International Studies, July 2004, 9-11.
    \19\ ``High School Student without Hukou Attempted Suicide for 
Unsuccessful Registration of College Entrance Exam'' [Gaosan nusheng 
yiyin wu beijing hukou buneng canjia gaokao fudu zisha], Xinhua 
(Online), 6 January 08.
    \20\ ``Zhuhai Suspends Residency Applications,'' China Daily 
(Online), 18 April 08.
    \21\ Chai Jicheng, ``Zhejiang To Implement Household Registration 
New Policy and To Cancel Agricultural Hukou'' [Zhejiang shixing huji 
xinzheng mingnien quxiao dongye hukou], Xinhua (Online), 3 May 06.
    \22\ Zhejiang People's Government Circular Regarding Public 
Security Bureau's Opinion on the Reform Expansion of the Residency 
Permit System [Zhejiangsheng renmin zhengfu ban'gongting zhuanfa sheng 
gong'an ting guanyu jinyibu shenhua huji guanli zhidu gaige yijian de 
tongzhi], issued 29 March 02.
    \23\ ``Liaoning To Thoroughly Abolish Differences Between 
Agricultural and Non-Agricultural Household Registration'' [Wosheng 
jiang chedi quxiao nongye hukou he fei nongye hukou qubei], Liaoning 
Evening News, reprinted in Liaoning Provincial Population and Family 
Planning Commission News (Online), 20 April 07.
    \24\ Yunnan Government Opinion Regarding Deepening Household 
Registration Reform [Yunnansheng renmin zhengfu guanyu shenhua huji 
guanli zhidu gaige de yijian], issued 3 September 07.
    \25\ Lu Guoqiang, ``Beijing Household Registration Management To 
Launch Nine New Measures'' [Beijing huji guanli guichu jiuxiang xin 
jucuo], Jinghua Daily, reprinted in Sina (Online), 20 April 07.
    \26\ ``Recent Chinese Hukou Reforms,'' Congressional-Executive 
Commission on China (Online).
    \27\ Jin Rong, ``Wang Yang: Chongqing Urban and Rural Hukou Same in 
2012'' [Wangyang chongqing chengshiren nongcunren 2012 nian hukou 
tongyang], Chongqing Business Daily, reprinted in Xinhua (Online), 19 
October 07.
    \28\ ``Recent Chinese Hukou Reforms,'' Congressional-Executive 
Commission on China.
    \29\ Guangxi Zhuang Autonomous Region Circular Regarding Printing 
and Distributing Implementing Measures of Reform Expansion of the 
Household Registration System [Guangxi zhuangzu zizhiqu renmin zhengfu 
ban'gongting guanyu yinfa quanqu jinyibu gaige huji guanli zhidu], 
issued 6 April 05.
    \30\ Guo Guoliang, Wu Buo, Li Jing, ``Guangdong Zhuhai Suspends 
Hukou Transfer Due to Fiscal Pressure'' [Guangdong zhuhai yiyin 
gonggong caizheng yali zanting hukou qianru], Qian Long Net, reprinted 
in Zhenhai People's Government (Online), 16 April 08.
    \31\ Shenzhen City Temporary Measures on Residency Permits 
[Shenzhenshi juzhuzheng zanxing banfa], issued 22 May 08, effective 1 
August 08.
    \32\ Du Jing, ``Rural Dwellers To Be Granted Urban Rights,'' China 
Daily, reprinted in PRC Central People's Government (Online), 2 
November 05.
    \33\ Xi'an City Temporary Provisions on Hukou Registration 
[Xi'anshi qianru shiqu renkou huji zhunru zanxing guiding], issued 27 
February 06.
    \34\ Chengdu City Public Security Bureau Regulations on the Chengdu 
City Government Opinion Regarding Expanding Household Registration 
Reform and Integrating City and County [Chengdushi gong'anju guanyu 
guanche zhonggong chengdu shiwei chengdushi renmin zhengfu guanyu 
shenhua huji zhidu gaige shenru tuijin chengxiang yitihua de yijian 
shixing de shishi xize], issued 20 October 06.
    \35\ Qingdao City Government Circular Regarding Deepening Household 
Registration Reform [Qingdaoshi renmin zhengfu guanyu jinyibu shenhua 
huji guanli zhidu gaige de tongzhi], issued 1 August 07.

    Notes to Section II--Liberty of Movement
    \1\ See, e.g., Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, art. 13(1); International Covenant on Civil and Political Rights 
(ICCPR), adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 12(1).
    \2\ Bureau of Exit and Entry of the Ministry of Public Security 
(Online), Permit Application Notice of Mainland Resident Travel to Hong 
Kong and Macau [Wanglai gang'ao tongxingzheng he qianzhu shenqing 
xuzhi], last visited 25 August 08. Mainland residents can apply for 
travel permits to Hong Kong and Macau for purposes including family 
visits, business, group tours, education, and others. According to 
Ministry of Public Security statistics, in 2007, there were 
approximately 10.5 million legal visits from mainland residents to Hong 
Kong and 8.2 million to Macau. See Bureau of Exit and Entry of the 
Ministry of Public Security (Online), ``2007 Mainland Resident Travel 
Permits to Hong Kong and Macau'' [2007 nian pizhun neidi jumin wanglai 
gang'ao diqu qingkuang], 15 April 08.
    \3\ Ibid.
    \4\ ``Hong Kong Celebrity's Journey to Challenge the Right to Home 
Return Permit'' [Gang mingxing yongtiao huixiangzheng de pobing zhil?], 
Epoch Times (Online), 30 March 08.
    \5\ Ng Kang-chung, ``Apple Daily Reporter Denied Entry to 
Beijing,'' South China Morning Post (Online), 4 July 08. The Beijing 
Organizing Committee for the Olympic Games explained that Choy's entry 
was denied because his press pass was not effective until July 8 but 
did not comment on the confiscation of his Home Return Permit. Loretta 
Fong, ``Apple Daily Reporter Denied Entry to Beijing Over `Invalid 
Press Pass,' '' South China Morning Post (Online), 9 July 08. Choy re-
entered Beijing on July 21 and retrieved his HRP from an airport 
official. See Vivian Wu, ``Banned Reporter Finally Allowed into 
Beijing,'' South China Morning Post (Online), 22 July 08.
    \6\ See, e.g., Ding Xiao, "Under House Arrest, Police Threaten Zeng 
Jinyan With Arrest" [Zeng jinyan fankang ruanjin zao jinggao zhuabu], 
Radio Free Asia (Online), 22 January 08; Zeng Jinyan, ``Gratitude'' 
[Gan'en], Zeng Jinyan's Blog, 29 March 08.
    \7\ See, e.g., Zeng Jinyan, ``Recent Developments'' [Jinkuang], 
Zeng Jinyan's Blog, 25 August 08; Audra Wong, "Detained Chinese 
Activist Returns to Beijing," Washington Post (Online), 26 August 08.
    \8\ See, e.g., Malcom Moore, "China Tightens Grip on Western 
Province Xinjiang," Telegraph (Online), 8 August 08; Dan Martin, 
``Uyghurs Discouraged From Air Travel Amid China's Olympic Security 
Clampdown,'' Agence France-Presse, 31 July 08 (Open Source Center, 31 
July 08).
    \9\ ``Harassment of Beijing-based Activists During the U.S.-China 
Human Rights Dialogue,'' Congressional-Executive Commission on China 
(Online), 8 July 08.
    \10\ Chinese Human Rights Defenders (Online), ``Eight Beijing 
Lawyers Under House Arrest During Visit of U.S. Members of Congress'' 
[Beijing baming lushi yin meiyiyuan daofang er bei ruanjin], 29 June 
08.
    \11\ ``Mongolian Rights Advocate Released From Detention, Placed 
Under House Arrest,'' CECC China Human Rights and Rule of Law Update, 
June 2008.
    \12\ ``Olympic Torch Relay Planned in Linyi, Monitors of Yuan 
Weijing Increased to Over 40'' [Aoyun huoju niguo linyi jiankong 
yuanweijing zhe zengzhi sishiduo], Radio Free Asia (Online), 9 July 08.
    \13\ See, e.g., Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, arts. 13(2); International Covenant on Civil and Political Rights 
(ICCPR), adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 12(2), (4).
    \14\ Dui Hua Foundation (Online), ``Welcome Return for Chinese 
Dissident, Others Not Free To Travel,'' 27 August 07.
    \15\ Passport Law of the People's Republic of China, enacted 29 
April 06, art. 2.
    \16\ ``China Blocks Wang Dan From HK Visit During Olympics,'' 
Reuters (Online), 23 August 08.
    \17\ Nora Boustany, ``Hong Kong Bars Chinese Dissident,'' 
Washington Post (Online), 8 August 08.
    \18\ Ibid.
    \19\ ``China Blocks Wang Dan From HK Visit During Olympics,'' 
Reuters. Nora Boustany, ``Hong Kong Bars Chinese Dissident.''
    \20\ ``Tibetan Writer, A Rare Outspoken Voice Against Beijing's 
Policies, Sues Chinese Government,'' Associated Press, reprinted in 
International Herald Tribune (Online), 23 July 08.
    \21\ Human Rights in China (Online), ``HRIC Press Release: Wife of 
Jailed Activist Targeted and Harassed,'' 14 May 08.
    \22\ Jonathan Watts, ``Lawyer Missing After Criticizing China's 
Human Rights Record,'' Guardian (Online), 8 March 08.
    \23\ See, e.g., Xinjiang Uyghur Autonomous Region Government 
(Online), "Nur Bekri's Work Report At First Sessions of the 11th 
Xinjiang Autonomous Regional People's Congress" [Zai zizhiqu shiyi jie 
renda yi ci huiyi shang nu'er baikeli sui zuo zhengfu gongzuobao], 16 
January 08; Yeken County Government (Online), ``Yeken County Almaty 
Village Implements `8 Acts' To Establish Safe and Sound Village 
[Shachexian alamaitixiang shishi ``baxiang jucuo'' chuangjian pingan 
xiangzhen], 16 October 07. For information on the 2007 passport 
restrictions, see CECC, 2007 Annual Report, 10 October 07, 99.

    Notes to Section II--Status of Women
    \1\ CECC, 2007 Annual Report, 10 October 07, 18-19.
    \2\ Tania Branigan, ``Manager Becomes First Man Jailed Under 
Chinese Harassment Laws,'' Guardian (Online), 16 July 08.
    \3\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, amended 28 August 05; CECC, 2007 Annual Report, 
115.
    \4\ ``Turning off the Light and Forcefully Kissing Someone: 
Workplace Sexual Harassment Case Receives Criminal Punishment'' [Guan 
deng qiang wen bangongshi xingsaorao huo xing], Chengdu Commercial 
Daily (Online), 15 July 08.
    \5\ Fiona Tam, ``Activists Celebrate Victory in Sexual Harassment 
Lawsuit,'' South China Morning Post (Online), 16 July 08.
    \6\ Ibid.
    \7\ Tania Branigan, ``Manager Becomes First Man Jailed Under 
Chinese Harassment Laws.'' Tam, ``Activists Celebrate Victory.''
    \8\ The actual incidence is believed to be higher because spousal 
abuse went largely unreported. According to a 2005 survey by the All-
China Women's Federation (ACWF), domestic violence occurred in 30 
percent of 270 million families. The ACWF receives 40,000 to 50,000 
domestic violence-related complaints annually, with the number 
increasing in recent years. The number of serious complaints filed, in 
which women and children are badly beaten or even killed, is also on 
the rise. Guo Yunnuo, Women's Watch--China, ``The Nature of Domestic 
Violence and Measures to Counter its Existence,'' 14 August 08; Jiao 
Xiaoyang, ``Call for Legislation on Domestic Violence,'' China Daily 
(Online), 13 March 08; ``Combating Domestic Violence: Victims Can Apply 
for Personal Safety Protective Orders'' [Fan jiating baoli: shouhairen 
ke shenqing renshen baohuling], Jiangnan Evening News, reprinted in 
Xinhua (Online), 16 July 08.
    \9\ ``Combating Domestic Violence: Victims Can Apply for Personal 
Safety Protective Orders,'' Jiangnan Evening News, reprinted in Xinhua.
    \10\ ``Combating Domestic Violence: China Issues First Ruling for a 
Personal Safety Protective Order'' [Fan jiabao zhongguo fachu shou ge 
renshen anquan baohu caiding], Legal Daily, reprinted in Chinagate 
(Online), 18 August 08.
    \11\ ``Anti-Domestic Violence Drive Needs Legal Support,'' China 
Daily, reprinted in China Internet Information Center (Online), 23 
August 05.
    \12\ ``China Sets Up Centers To Handle Domestic Violence Calls,'' 
Xinhua, reprinted in China Daily (Online), 14 January 08.
    \13\ CECC, 2007 Annual Report, 117; ``Chinese Communist Party 
Membership Exceeds 74 mln in 2007,'' Xinhua (Online), 1 July 08; 
Maureen Fan, ``Party Looks Beyond China's `Miss Fix-It,' '' Washington 
Post (Online), 21 October 07; ``Shanghai Women Prop Up `Half the Sky' 
of Social and Economic Development'' [Shanghai nuxing chengqi shehui 
jingji fazhan ``banbiantian''], Xinhua (Online), 21 April 08.
    \14\ Jane Macartney, ``China Jails Liu Lun, Its First Office Sex 
Pest,'' Times (Online), 17 July 08.
    \15\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08, Section 3; Maureen 
Fan, ``Party Looks Beyond China's `Miss Fix-It.' '' Washington Post
    \16\ Shan Juan, ``Women's Health in Rural Areas Targeted,'' China 
Daily (Online), 3 March 08.
    \17\ Ibid.
    \18\ CECC, 2007 Annual Report, 118-119.
    \19\ Ibid.
    \20\ Ibid.
    \21\ ``Married-Out Woman Who Wants to Register Her Child for Hukou 
Must Sign `Don't Want Land Agreement' '' [Chujia nu shengzi luohu yao 
qian ``buyao tudi xieyi''], China Women's News, reprinted in Women's 
Watch--China (Online), 29 May 08.
    \22\ ``A Village in Henan: Single Young Women Claiming Land 
Compensation Must Present Certification of Single Status'' [Henan yi 
cun: weihun nu qingnian ling tudi buchangjin yao kan ``weihun zheng''], 
Dahe Net, reprinted in Women's Watch--China (Online), 10 June 08.

    Notes to Section II--Human Trafficking
    \1\ CECC, 2007 Annual Report, 10 October 07, 120.
    \2\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 4 June 08, 
91-94.
    \3\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 5 June 06, 
91.
    \4\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2003, China 
(includes Tibet, Hong Kong, and Macau), 25 February 04, sec. 6.f; 
``Action Plan To Fight Human Trafficking Finalized,'' China Daily, 13 
December 07.
    \5\ U.S. Department of State, Trafficking in Persons Report 2008, 
91-92.
    \6\ Ibid, 91-94.
    \7\ International Labour Organization, ``Situation Analysis on 
Trafficking in Girls and Young Women for Labour Exploitation within 
China,'' 2005, 5; ``China's Household Registration System: Sustained 
Reform Needed To Protect China's Rural Migrants,'' Congressional-
Executive Commission on China (Online), 7 October 05, 3-4.
    \8\ CECC Staff Interview. ``China Currently Has Approximately 200 
Million Migrant Workers, Issues Concerning Migrant Workers Are 
Comparatively Complex'' [Dangqian wo guo yue you 2 yi nongmin gong, 
nongmin gong wenti jiao fuza], PRC Central People's Government 
(Online), 26 January 07; ``China Plans To Combat Cross Province 
Trafficking for Forced Labor'' [Zhongguo ni kua sheng liandong daji 
guaimai renkou qiangpo laodong], China Youth Daily, reprinted in Xinhua 
(Online), 5 September 07.
    \9\ Margaret Y. K. Woo, ``Shaping Citizenship, Chinese Family Law 
and Women,'' 15 Yale J.L. & Feminism 99, Bureau of Democracy, Human 
Rights, and Labor, U.S. Department of State, Country Reports on Human 
Rights Practices--2007, China (includes Tibet, Hong Kong, and Macau), 
11 March 08, sec. 5.
    \10\ U.S. Department of State, Trafficking in Persons Report--China 
2006, 91; U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, sec. 5.
    \11\ Some other exceptions include: those who were only children 
themselves or who have a disabled child may have more than one child. 
In the aftermath of the earthquake that struck Sichuan province on May 
12, the government allowed families who lost their only child in the 
quake to have a second child after obtaining official permission. Liz 
Gooch, ``Skewed Gender Ratio Leaves Mainland Men Out in the Cold,'' 
South China Morning Post (Online), 16 June 08; CECC, 2006 Annual 
Report, 20 September 06, 109; Andrew Jacobs, ``One-Child Policy Lifted 
for Quake Victims' Parents,'' New York Times (Online), 27 May 08.
    \12\ The Chinese government's population planning laws and 
regulations contravene international human rights standards by limiting 
the number of children that women may bear, by enforcing compliance 
with population targets through heavy fines, and by discriminating 
against ``out-of-plan'' children. CECC, 2006 Annual Report, 20 
September 06, 109.
    \13\ Liz Gooch, ``Skewed Gender Ratio Leaves Mainland Men Out in 
the Cold,'' South China Morning Post.
    \14\ The purchase of a wife is also influenced by other reasons, 
such as the health condition or age of the man. Bu Wei, ``Looking for 
`the Insider's Perspective:' Human Trafficking in Sichuan,'' in Doing 
Fieldwork in China, Maria Heimer and Stig Thogersen, eds. (Honolulu, 
Hawai'i: University of Hawai'i Press, 2006), 213.
    \15\ CECC, 2007 Annual Report, 110-111.
    \16\ U.S. Department of State, Trafficking in Persons Report 2008, 
92.
    \17\ See, e.g. `` `Uncle' Sentenced to Five Years in Prison for 
Trafficking Colleague's Child'' [Guaimai gongyou xiaohai ``shushu'' huo 
xing wu nian], Urumqi Evening News, reprinted in Tianshan Net (Online), 
19 November 07; ``Criminal Gang Trafficked 38 Children in Three Years 
from Dongguan, Ringleader Sentenced to Death'' [Fanzui tuanhuo zai 
dongguan 3 nian guaimai 38 ming ertong shoufan bei pan sixing], 
Southern Metropolitan Daily, reprinted in Sina.com (Online), 25 
November 05.
    \18\ ``China's Long-Awaited Action Plan on Trafficking Aims To 
Provide `Sustainable' Solutions,'' CECC China Human Rights and Rule of 
Law Update, March/April 2008, 3.
    \19\ Ibid.
    \20\ ``Guizhou People's Government General Office Circular 
Regarding the Printing and Distribution of Fujian Province's Anti-
Trafficking Implementation Plan'' [Guizhou sheng renmin zhengfu 
bangongting guanyu yinfa guizhou sheng fandui guaimai funu ertong 
xingdong jihua 2008-2012 nien shishe fangan de tongzhi], China Law 
Education (Online), 4 May 08; The People's Government of Hainan 
Province (Online), ``Hainan People's Government General Office Circular 
Regarding the Printing and Distribution of Hainan Province's Working 
Plan To Combat the Trafficking of Women and Children'' [Hainan sheng 
renmin zhengfu bangongting guanyu yinfa hainan sheng fandui guaimai 
funu ertong gongzuo jihua de tongzhi], 6 June 08; The People's 
Government of Fujian Province (Online), ``Fujian People's Government 
Circular Regarding the Printing and Distribution of Fujian Province's 
Anti-Trafficking Implementation Plan (2008-2012)'' [Fujian sheng renmin 
zhengfu bangongting guanyu yinfa fujian sheng fandui guimai funu ertong 
xingdong shishi jihua de tongzhi], 11 June 08; The People's Government 
of Hanzhong City (Online), ``Hanzhong City People's Government General 
Office Circular Regarding the Printing and Distribution of Hanzhong 
Plan of Action To Combat the Trafficking of Women and Children (2008-
2012)'' [Hanzhong shi renmin zhengfu bangongshi guanyu yinfa hanzhong 
shi fandui guaimai funu ertong xingdong jihua (2008-2012) de tongzhi], 
26 March 08.
    \21\ ``UNIAP China Office Held An Inter-Agency Meeting,'' UNIAP 
China Latest News Digest (Online), 1 August 08, 1.
    \22\ U.S. Department of State, Trafficking in Persons Report 2008, 
92.
    \23\ ``China's Long-Awaited Action Plan on Trafficking Aims To 
Provide `Sustainable' Solutions,'' CECC China Human Rights and Rule of 
Law Update, March/April 2008, 3.
    \24\ Ibid.
    \25\ Ibid.
    \26\ United Nations Office on Drugs and Crime (Online), ``The 
United Nations Convention against Transnational Organized Crime and Its 
Protocols,'' last visited 17 March 08; UN Convention Against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 2000, entry into force 29 September 03; Protocol 
To Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children, adopted by General Assembly resolution 55/25 of 15 
November 2000, entry into force 25 December 03.
    \27\ Ibid., arts 3, 5. The TIP protocol also establishes that 
trafficked persons are victims of a crime, and contains provisions on 
law enforcement, protection, and assistance. United Nations Office on 
Drugs and Crime, ``The United Nations Convention against Transnational 
Organized Crime and Its Protocols''; United Nations Global Initiative 
To Fight Human Trafficking, ``What Is the Importance of the Trafficking 
Protocol? '' last visited 21 April 08; The Vienna Forum To Fight Human 
Trafficking, Background Paper: The Effectiveness of Legal Frameworks 
and Anti-Trafficking Legislation, February 2008.
    \28\ Combating Human Trafficking in China, Hearing of the 
Congressional-Executive Commission on China, 6 March 06, Testimony of 
Ambassador John R. Miller, Director, Office to Monitor and Combat 
Trafficking in Persons, U.S. Department of State; Office of the 
National Working Committee on Children and Women under the State 
Council, ``National Working Committee on Women and Children's Report on 
the Work Situation in 2006 and Work Items for 2007,'' undated.
    \29\ ``Synopsis of UNIAP's National-Level Training Workshop'' 
[Lianheguo fandui guaimai renkou guojiaji peixun ban jianjie], UNIAP 
China Office, reprinted in China Jiangsu Net (Online), 13 September 07.
    \30\ Wang Zhuoqiong, ``China Set To Ratify UN Trafficking 
Protocol,'' China Daily (Online), 24 October 08.
    \31\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; Convention on the 
Rights of the Child, adopted by the General Assembly resolution 44/25 
of 20 November 1989, entry into force 2 September 90, art. 35; 
Convention concerning the Prohibition and Immediate Action for the 
Elimination of the Worst Forms of Child Labour (Convention), adopted by 
the 87th Session of the General Conference of the International Labour 
Organization of 17 June 99, entry into force 19 November 00, art. 3. 
Worst forms of child labor mentioned in the Convention include but are 
not limited to the ``sale and trafficking of children,'' debt bondage, 
and forced labor.
    \32\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's Regular Press Conference on 19 June, 2007,'' 20 
June 07; CECC, 2006 Annual Report, 173. Under the 1951 Convention and 
its Protocol ``no Contracting State shall expel or return (`refouler') 
a refugee in any manner whatsoever to the frontiers of territories 
where his life or freedom would be threatened on account of his race, 
religion, nationality, membership of a particular social group or 
political opinion.'' The government derives its policy of repatriating 
North Koreans on a 1961 treaty and border management protocol with 
North Korea signed in 1968 and 1998. Yet the 1951 Convention, its 
Protocol, and the Convention Against Torture, which China has ratified, 
supersedes the government's bilateral commitments with North Korea 
regarding refugees. Convention relating to the Status of Refugees, 28 
July 51 by the United Nations Conference of Plenipotentiaries on the 
Status of Refugees and Stateless Persons convened under General 
Assembly resolution 429 (V) of 14 December 50, art. 33. China acceded 
to the Convention on September 24, 1982; CECC, 2007 Annual Report, 125, 
endnote 10-12.
    \33\ A Struggle for Survival: Trafficking of North Korean Women, 
Remarks by Mark P. Lagon, Ambassador-at-Large and Director, Office to 
Monitor and Combat Trafficking in Persons, U.S. Department of State, at 
the Woodrow Wilson International Center for Scholars, 3 March 08; 
Mikyoung Kim, ``Beijing's Hot Potato: North Korean Refugees and Human 
Rights Debates,'' Jamestown Foundation (Online), 16 March 05; CECC, 
2006 Annual Report, 20 September 06, 174.
    \34\ A Struggle for Survival: Trafficking of North Korean Women, 
Remarks by Mark P. Lagon; Combating Human Trafficking in China, Hearing 
of the Congressional-Executive Commission on China, 6 March 06, Written 
Statement of Abraham Lee, Director of Public Relations, Crossing 
Borders.
    \35\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Interim Assessment--China, 
19 January 07; U.S. Department of State, Country Reports on Human 
Rights Practices--2007, China, sec. 5.
    \36\ Recent campaigns to raise public awareness use posters, 
videos, pamphlets, and other forms of communication, and are directed 
at women, youth, rural farmers, migrant workers, journalists, and 
public officials, among others. See, e.g., Office to Monitor and Combat 
Trafficking in Persons, U.S. Department of State, Trafficking in 
Persons Report--China, 12 June 07, 81; U.S. Department of State, 
Trafficking in Persons Report--China, 14 June 04, 84; U.S. Department 
of State, Trafficking in Persons Report--China, 3 June 05, 83; U.S. 
Department of State, Trafficking in Persons Report--China, 11 June 03, 
47; U.S. Department of State, Trafficking in Persons Report 2006, 91.
    \37\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 5 June 02, 
39; Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Interim Assessment--China, 
1 February 06; Office to Monitor and Combat Trafficking in Persons, 
U.S. Department of State, Trafficking in Persons Interim Assessment--
China, 28 February 08; U.S. Department of State, Trafficking in Persons 
Report 2003, 47; U.S. Department of State, Trafficking in Persons 
Report 2005, 84; U.S. Department of State, Trafficking in Persons 
Report 2006, 93; First Hand Knowledge--Voices Across the Mekong: 
Community Action Against Trafficking of Children and Women, (Bangkok: 
International Labour Office, 2005), 62.
    \38\  U.S. Department of State, Trafficking in Persons Report 2002, 
39; U.S. Department of State, Trafficking in Persons Interim Assessment 
2006; Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report Interim Assessment--
China, 28 February 08.
    \39\ Xin Ren, ``Violence against Women under China's Economic 
Modernisation: Resurgence of Women Trafficking in China,'' 
International Victimology, 69-73, 71 (1996).
    \40\ U.S. Department of State, Trafficking in Persons Report 2005, 
84.
    \41\ U.S. Department of State, Trafficking in Persons Report 2006, 
92-3; U.S. Department of State, Trafficking in Persons Interim 
Assessment 2008.
    \42\ Ibid.; U.S. Department of State, Trafficking in Persons Report 
2007, 81.
    \43\ U.S. Department of State, Trafficking in Persons Report 2006, 
92-3.
    \44\ U.S. Department of State, Trafficking in Persons Report 2008, 
92.
    \45\ U.S. Department of State, Trafficking in Persons Interim 
Assessment 2006.
    \46\ Criminals convicted of abducting and trafficking women and 
children face between five to ten years or a minimum of ten years of 
fixed-term imprisonment depending on severity, a 10,000 yuan (US$1,412) 
fine or confiscation of personal property, and in ``especially 
serious'' cases, the death sentence and confiscation of property. 
Decision of the Standing Committee of the National People's Congress 
Regarding the Severe Punishment of Criminals Who Abduct and Traffic in 
or Kidnap Women or Children [Quanguo renmin daibiao dahui changwu 
weihuanhui guanyu yancheng guaimai bangjia funu ertong de fanzui fenzi 
de jueding], issued and effective 4 September 91; PRC Criminal Law, 
enacted 1 July 79, amended 14 March 97, 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, art. 240.
    \47\ John Ruwitch, ``Child Labor Scandal Highlights Worrying Trend 
in China,'' Reuters (Online), 1 May 08.
    \48\ Ibid.; ``Dozens of Slave Workers Freed in China: Report,'' 
Reuters (Online), 20 March 08.
    \49\ U.S. Department of State, Trafficking in Persons Report 2005, 
84.
    \50\ A Ministry of Public Security representative said that there 
was no local official, including public security official, involvement 
in the more than 2,500 trafficking cases that were registered in 2006. 
``The Crime of Trafficking Women and Children Does Not Have a 
Protective Umbrella in Our Country'' [Woguo guaimai funu ertong fanzui 
meiyou baohusan], Beijing Youth Daily (Online), 15 December 07. 
Convention on the Elimination of All Forms of Discrimination against 
Women (Online), ``Responses to the List of Issues and Questions for 
Consideration of the Combined Fifth and Sixth Periodic Report of 
China,'' 8 June 06, 8.
    \51\ U.S. Department of State, Trafficking in Persons Report 2007, 
80; U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, sec. 5.
    \52\ ``The Crime of Trafficking Women and Children Does Not Have a 
Protective Umbrella in Our Country,'' Beijing Youth Daily.
    \53\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China, sec. 5.
    \54\ U.S. Department of State, Country Reports on Human Rights 
Practices--2003, China, sec. 6.f.
    \55\ U.S. Department of State, Trafficking in Persons Report 2007, 
80; U.S. Department of State, Country Reports on Human Rights 
Practices--2007, China, sec. 5.
    \56\ U.S. Department of State, Trafficking in Persons Report 2007, 
80.
    \57\ Ministry of Public Security (Online), ``Public Security 
Agencies Adopt `Strike Hard' Measures against Criminal Acts of 
Trafficking in Women and Children'' [Gong'an jiguan caiqu jiji cuoshi 
yanli daji guaimai funu ertong fanzui xingwei], 12 December 07; 
Convention on the Elimination of All Forms of Discrimination against 
Women (Online), ``Responses to the List of Issues and Questions for 
Consideration of the Combined Fifth and Sixth Periodic Report of 
China,'' 8 June 06, 10; U.S. Department of State, Country Reports on 
Human Rights Practices--2007, China, sec. 5.
    \58\ An August 31, 2005, statement posted on the PRC Embassy in the 
United Kingdom's Web site notes that ``more concerted efforts by the 
government and local communities as well as increasing social awareness 
have led to a gradual decline in China's women trafficking cases.'' 
Ministry of Public Security, ``Public Security Agencies Adopt `Strike 
Hard' Measures against Criminal Acts of Trafficking in Women and 
Children.'' See also, ``China's Long-Awaited Action Plan on Trafficking 
Aims To Provide `Sustainable' Solutions,'' CECC China Human Rights and 
Rule of Law Update, March/April 2008.
    \59\ Ibid.
    \60\ Wang Zhuoqiong ``More Forced into Labor, Prostitution,'' China 
Daily (Online), 27 July 07. The U.S. State Department noted an increase 
in child trafficking in its 2007 Human Rights Report. U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China, sec. 
5.
    \61\ See, e.g., ``Representative Zhou Jianyuan Proposes Amending 
the Criminal Law To Severely Punish Buyers of Trafficked Women [Zhou 
Jianyuan daibiao jianyi gai xingfa yancheng shoumai bei guaimai funu 
zhe],'' Legal Daily (Online), 10 March 08; ``Representative Yuan 
Jinghua: Amend the Criminal Law To Strike Hard on Crimes of Trafficking 
Women and Children [Yuan Jinghua daibiao: xiugai xingfa yanda guaimai 
funu ertong fanzui],'' Legal Daily (Online), 14 March 07; ``Hubei 
Group's Proposal To Amend the Criminal Law: Severe Punishments for the 
Crime of Trafficking Women and Children [Hubei tuan ti'an xiugai 
xingfa: guaimai funu ertong zui yao zhongpan],'' Chutian City Paper 
(Online), 13 March 08; ``CPPCC Members Propose Establishing the Crime 
of Forced Labor through the Use of Violence as a Result of the Brick 
Kiln Case'' [Zhengxie weiyuan zhendui hei zhuanyao an tiyi she baoli 
qiangpo laodong zui], Yanzi Dushi Bao, reprinted in Xinhua (Online), 11 
March 08.
    \62\ Shi Zhuanfei, ``Brief Talk on Limitations in China's Criminal 
Law Regarding Crimes of Trafficking in Persons,'' 2 Seeking Truth 219, 
220 (2005); Liu Xianquan, ``On Perfecting China's Punishment for 
Trafficking in Persons Crimes in the Criminal Law'' [Lun woguo chengzhi 
guaimai renkou fanzui de xingfa wanshan], 5 Legal Studies 93, 100 
(2003). ``China Plans Cross-Province Cooperation To Attack Human 
Trafficking for Forced Labor,'' China Youth Daily. As a reflection of 
the government's definition of trafficking, MPS figures for trafficking 
are usually labeled under ``abducting women or children'' and may be 
conflated with smuggling cases. ``China's Long-Awaited Action Plan on 
Trafficking Aims To Provide `Sustainable' Solutions,'' CECC China Human 
Rights and Rule of Law Update, March/April 2008; U.S. Department of 
State, Trafficking in Persons Report 2007, 80.
    \63\ Ibid.; U.S. Department of State, Trafficking in Persons Report 
2006, 92.
    \64\ ``China Commits to `Open Government Information' Effective May 
1, 2008,'' CECC China Human Rights and Rule of Law Update, May 2008.
    \65\ The challenge here will be if the budget provided to the 
public will be broken down at a level that would provide information on 
anti-trafficking funds. For example, anti-trafficking funds for public 
security bureaus come out of the criminal investigation unit's budget 
for handling cases. While having systematic information on the amount 
of this budget allocation will be helpful, the information may need to 
be broken down into smaller components in order to shed light on how 
much funds were used for anti-trafficking efforts. See, e.g., 
Convention on the Elimination of All Forms of Discrimination against 
Women, ``Responses to the List of Issues and Questions for 
Consideration of the Combined Fifth and Sixth Periodic Report of 
China,'' 8 June 06, 10; ``Letting the Government's Money Box Become 
More Transparent--Liaoning Province Constructs `Sunshine Financial 
Administration' (Series of Reports Number 1)'' [Rang zhengfu de qiangui 
gengjia touming--liaoning sheng jianshe `yangguang caizheng' xilie 
baodao zhiyi], Caijing (Online), 12 October 07; ``Shanghai People's 
Congress Issues Notice Regarding How Representatives Should Examine 
Government Budgets'' [Shanghai renda chushu jiao daibiao ruhe shencha 
zhengfu yusuan], Nanfeng Chuang, reprinted in NetEase (Online), 24 
February 08; ``Promoting Sunshine Financial Administration, Shanghai 
Will Implement Real-Time Supervision of Budgets'' [Tuidong yangguang 
caizheng, shanghai jiang shishi yusuan zaixian shishi jiandu], Diyi 
Caijing Ribao, reprinted in Sohu (Online), 31 January 08; Su Yongtong 
and Zhao Lei, ``The Operation of the New Open Information Regulations 
Test the Government's Ability To Reveal the Truth,'' Southern Weekend, 
8 May 08 (Open Source Center, 29 July 08).

    Notes to Section II--North Korean Refugees in China
    \1\ The Chinese government's repatriation of North Korean refugees 
contravenes its obligations under the 1951 Convention Relating to the 
Status of Refugees and its 1967 Protocol. The 1951 Convention and its 
Protocol mandate that ``[n]o Contracting State shall expel or return 
(`refouler') a refugee in any manner whatsoever to the frontiers of 
territories where his life or freedom would be threatened on account of 
his race, religion, nationality, membership of a particular social 
group or political opinion.'' Convention relating to the Status of 
Refugees, 28 July 51 by the United Nations Conference of 
Plenipotentiaries on the Status of Refugees and Stateless Persons 
convened under General Assembly resolution 429 (V) of 14 December 50, 
art. 33. China acceded to the Convention on September 24, 1982.
    \2\ Life Funds for North Korean Refugees (Online), ``North Korea 
Defectors Report on Current Border Situation,'' 19 June 08; ``North 
Korean Defectors: China Urged To Provide Shelter to Those in Plight,'' 
Korea Times (Online), 26 May 08.
    \3\ Prior to 2008, fines imposed on Chinese citizens who shelter 
North Koreans were typically 1,000 yuan (US$125). CECC, 2006 Annual 
Report, 20 September 06, 175. Life Funds for North Korean Refugees, 
``North Korea Defectors Report''; Michael Sheridan, ``Refugees Shot 
Fleeing North Korea,'' Times of London (Online), 29 June 2008.
    \4\ ``North Korean Defectors: China Urged To Provide Shelter,'' 
Korea Times.
    \5\ Sheridan, ``Refugees Shot Fleeing North Korea.''
    \6\ Ibid. Good Friends (Online), North Korea Today, 114th Edition, 
March 2008, 1-2.
    \7\ ``North Korea Erects 10km Wire-Mesh Fence to Prevent Refugees 
from Fleeing to China'' [Chaoxian jian shi gongli tiesi wangjia, 
fangzhi nanmin taowang zhongguo], SingTao Net (Online), 27 August 07. 
The fence construction may have been a response to pressure from 
Beijing to halt the flow of refugees before the Olympics. See Bill 
Powell, ``North Korea's Deadly Exit,'' Time (Online), 6 March 08.
    \8\ Powell, ``North Korea's Deadly Exit.''
    \9\ Life Funds for North Korean Refugees, ``North Korea Defectors 
Report.''
    \10\ Life Funds for North Korean Refugees (Online), ``China Raises 
Bounty on North Korean Refugees 1600 Percent,'' 10 April 08.
    \11\ Sunny Lee, ``China's `Olympic Approach' to Refugees,'' Asia 
Times (Online), 26 January 08.
    \12\ Life Funds for North Korean Refugees, ``China Raises Bounty.'' 
In 2006, China's national per capita income reached US$1,740, according 
to the PRC National Bureau of Statistics. ``China's National Per Capita 
Income Reaches $1,740,'' People's Daily (Online), 18 August 06.
    \13\ Bureau of Democracy, Human Rights and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08, 21.
    \14\ Border guards are stopping all vehicles along this road and 
searching their trunks, checking ID cards, and questioning passengers 
about their destination and purpose of visit. Life Funds for North 
Korean Refugees, ``North Korea Defectors Report''; Lee, ``China's 
`Olympic Approach' to Refugees.''
    \15\ Life Funds for North Korean Refugees, ``North Korea Defectors 
Report.''
    \16\ For more information on how China's repatriation policy 
violates the 1951 UN Convention Relating to the Status of Refugees and 
its 1967 Protocol, please see the section on ``North Korean Refugees in 
China'' from the CECC 2006 and 2007 Annual Reports.
    \17\ ``Chinese Stage Sweep, Arrest 40 North Koreans,'' Radio Free 
Asia (Online), 21 March 08.
    \18\ 1,319 refugees participated in the survey. Yoonok Chang, 
Stephan Haggard, and Marcus Noland, Peterson Institute for 
International Economics, Working Paper, Migration Experiences of North 
Korean Refugees: Survey Evidence from China, March 2008, 2, 9.
    \19\ ``North Korea Executes 15 Attempting Escape, China Arrests 40 
Refugees,'' CECC China Human Rights and Rule of Law Update, June 2008, 
3; International Crisis Group (Online), ``Perilous Journeys: The Plight 
of North Koreans in China and Beyond,'' 26 October 06; United States 
Commission on International Religious Freedom, ``A Prison Without Bars: 
Refugee and Defector Testimonies of Severe Violations of Freedom of 
Religion or Belief in North Korea,'' March 2008.
    \20\ U.S. Commission on International Religious Freedom, ``A Prison 
Without Bars,'' preface.
    \21\ Ibid., preface, 4-5.
    \22\ Ibid., 11, 21-22, 28.
    \23\ ``Human Trafficking Thrives Across North Korea-China Border,'' 
Chosun Ilbo (Online), 2 March 08; Kang Shin-who, ``Korea's Cited as 
Source of Sex Trafficking,'' Korea Times (Online), 5 June 08; ``U.S. 
Blames China on NK Human Trafficking,'' Yonhap News Agency (Online), 8 
March 08.
    \24\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 4 June 08, 
198-199.
    \25\ Ibid., 7.
    \26\ Human Rights Watch (Online), ``Denied Status, Denied 
Education: Children of North Korean Women in China,'' April 2008.
    \27\ PRC Nationality Law, effective 10 September 80, art. 4.
    \28\ PRC Compulsory Education Law, enacted 12 April 86, art. 5.
    \29\ Human Rights Watch, ``Denied Status, Denied Education,'' 3.
    \30\ Convention Relating to the Status of Refugees, 189 U.N.T.S. 
150, effective 22 April 1954, art. 22; PRC Nationality Law, art. 4; PRC 
Compulsory Education Law, art. 5.
    \31\ A survey conducted from August 2004 to September 2005 found 
that most refugees crossed the border for ``economic'' reasons. Yoonok 
Chang, with Stephan Haggard and Marcus Noland, ``North Korean Refugees 
in China: Evidence from a Survey,'' in The North Korean Refugee Crisis: 
Human Rights and International Response, eds. Stephan Haggard and 
Marcus Noland (Washington, DC: U.S. Committee for Human Rights in North 
Korea, 2006), 19.
    \32\ Stephan Haggard, Marcus Noland, and Erik Weeks, ``North Korea: 
the Emergence of Pre-Famine Conditions,'' Vox (Online), 7 June 08; Good 
Friends (Online), North Korea Today, 108th edition, January 2008, 1-3; 
Good Friends (Online), North Korea Today, 109th edition, January 2008, 
2; Good Friends (Online), North Korea Today, 114th edition, March 2008, 
2, 4.
    \33\ Joshua Kurlantzick and Jana Mason, ``North Korean Refugees: 
The Chinese Dimension,'' in The North Korean Refugee Crisis: Human 
Rights and International Response, eds. Stephan Haggard and Marcus 
Noland (Washington, DC: U.S. Committee for Human Rights in North Korea, 
2006), 43.
    \34\ The central authorities categorize the entire North Korean 
population into three classes--core, wavering, and hostile--by which 
access to food and other public goods is determined. Members of the 
hostile class, an estimated 27 percent of the total population, are the 
last to receive food and their inferior political status is 
transferable from generation to generation. Joel R. Charny, Acts of 
Betrayal: The Challenge of Protecting North Koreans in China 
(Washington, DC: Refugees International, 2005), 13-14.
    \35\ ``Government Grants Exit Visas to Seven North Koreans, 
Pressures UNHCR in Pre-Olympic Crackdown,'' CECC China Human Rights and 
Rule of Law Update, June 2008, 3; ``China Threatens U.N. Agency over 
North Korean Refugees,'' Kyodo News (Online), 20 March 08.

    Notes to Section II--Public Health
    \1\ ``Gov't Promises Equitable Healthcare for All,'' China Daily, 
reprinted in PRC Central People's Government (Online), 8 January 08.
    \2\ Ibid.
    \3\ Jonathan Watts, ``China's Health Reforms Tilt Away from the 
Market,'' 371 Lancet 292, 292 (2008). See also, Gerald Bloom and 
Shenglan Tang, eds., Health Care Transition in Urban China (Hants, 
England: Ashgate Publishing Limited, 2004).
    \4\ Xie Chuanjiao, ``Aging Population a Major Challenge,'' China 
Daily (Online), 12 March 07; United Nations Development Programme 
(Online), ``Bridging Development Gaps in Today's China,'' 23 September 
06. See also, Bloom and Shenglan Tang, eds., Health Care Transition in 
Urban China.
    \5\ Catharine Paddock, ``China Puts Healthcare at the Top of the 
Agenda,'' Medical News Today (Online), 10 January 08.
    \6\ ``Medical Service Becomes China's Most Topical Social Issue'' 
[Yiliao fuwu chengwei zhongguo minzhong zui guanzhu wenti], Radio Free 
Asia (Online), 10 January 08.
    \7\ Watts, ``China's Health Reforms Tilt Away from the Market,'' 
292-293.
    \8\ The maternal mortality rate in Guizhou province is ten times 
higher than the rate in Shanghai, while the child mortality rate before 
the age of five is five times higher in Guizhou than in Shanghai. 
Watts, ``China's Health Reforms Tilt Away from the Market,'' 292-293.
    \9\ ``Gov't Promises Equitable Healthcare for All,'' China Daily.
    \10\ Anna Lora-Wainwright, China Environmental Health Project, ``A 
Village Perspective of Rural Healthcare in China,'' January 2008, 3; 
``Gov't Under Pressure To Make Rural Healthcare System Work,'' Xinhua, 
reprinted in China.org.cn (Online), 21 April 07.
    \11\ ``China To Solicit Public Opinions on Health Care Reform,'' 
Xinhua, reprinted in PRC Central People's Government (Online), 5 March 
08.
    \12\ ``Healthcare for All,'' China Daily (Online), 28 December 07; 
``China To Solicit Public Opinions on Health Care Reform,'' Xinhua.
    \13\ ``Wen: China's Health Care Reform Focuses on Public Service,'' 
Xinhua, reprinted in China Daily (Online), 15 April 08.
    \14\ ``Looking Forward: China's Major Events in 2008,'' Xinhua, 
reprinted in PRC Central People's Government (Online), 2 January 08; 
Paddock, ``China Puts Healthcare at Top of Agenda.''
    \15\ ``China To Expand Rural Healthcare System with Increased Fund, 
Full Coverage,'' Xinhua (Online), 15 February 08; ``Looking Forward: 
China's Major Events in 2008,'' Xinhua; 08; ``In 2008, China's Rural 
Cooperative Medical System Subsidies Will Double, Scope to Increase'' 
[2008 nian woguo xin nong he buzhu biaozhun fanfan fanwei kuoda], 
Xinhua (Online), 15 February 08; Josephine Ma, ``Experts Doubt 
Financing of Public Hospitals,'' South China Morning Post (Online), 6 
March 08.
    \16\ Ministry of Health (Online), ``Circular Regarding the 
Completion of Rural Cooperative Medical System Work in 2008'' [Guanyu 
zuohao 2008 nian xinxing nongcun hezuo yiliao gongzuo de tongzhi], 13 
March 08.
    \17\ ``Insurers Eyeing Rural Medical Care,'' Xinhua, reprinted in 
China Daily (Online), 27 March 08; CECC, 2007 Annual Report, 10 October 
07, 132.
    \18\ ``China's Rural Cooperative Medical System Subsidies Will 
Double,'' Xinhua.
    \19\ ``China To Increase Subsidies for Rural Co-op Medical 
Scheme,'' Xinhua (Online), 7 January 08.
    \20\ ``China To Provide Basic Medical Care for All Rural Residents 
by 2010,'' Xinhua (Online), 2 November 07.
    \21\ Dong Zhixin, ``China Expands Basic Health Insurance,'' China 
Daily (Online), 5 April 07.
    \22\ Ibid.
    \23\ Watts, ``China's Health Reforms Tilt Away from the Market,'' 
292-293; Shan Juan, ``Medicare Scheme To Go Nationwide,'' China Daily 
(Online), 27 February 08.
    \24\ Shan Juan, ``Medicare Scheme To Go Nationwide,'' China Daily 
(Online), 27 February 08.
    \25\ ``Gov't Promises Equitable Healthcare for All,'' China Daily.
    \26\ ``Basic Urban Medical Insurance Covers More People,'' Xinhua, 
reprinted in China Daily (Online), 21 May 08; CECC, 2007 Annual Report, 
132; Shan Juan, ``Medicare Scheme To Go Nationwide''; ``More Urban 
Chinese Receive Healthcare Benefits,'' Xinhua, reprinted in PRC Central 
People's Government (Online), 13 December 07.
    \27\ Shan Juan, ``Medicare Scheme To Go Nationwide.''
    \28\ Ibid.
    \29\ ``Basic Urban Medical Insurance Covers More People,'' Xinhua, 
reprinted in China Daily (Online), 21 May 08; CECC, 2007 Annual Report, 
132; Shan Juan, ``Medicare Scheme To Go Nationwide''; ``More Urban 
Chinese Receive Healthcare Benefits,'' Xinhua, reprinted in PRC Central 
People's Government (Online), 13 December 07.
    \30\ Of the 50,000 new cases, 44.7 percent were passed through 
heterosexual sex, 42 percent from intravenous drug use, 11.2 percent 
from men having sex with men, and 1.1 percent from mother to infant 
transmission. China has 223,501 registered HIV/AIDS victims as of 2007. 
United Nations General Assembly Special Session on HIV/AIDS, UNGASS 
Country Progress Report, P.R. China, January 2008, 4-5; ``China 
Launches Nationwide AIDS Prevention, Care Program,'' Xinhua (Online), 
28 March 08; Jonathan Watts, ``Sex, Drugs, and HIV/AIDS in China,'' 371 
Lancet 103, 104 (2008).
    \31\ ``HIV/AIDS Discrimination Widespread in China--U.N.,'' Reuters 
(Online), 28 November 07; United Nations General Assembly Special 
Session on HIV/AIDS, UNGASS Country Progress Report, P.R. China, 
January 2008, 8-9.
    \32\ Wen Chihua, ``China's Market Supervisor Joins War Against 
AIDS,'' Xinhua (Online), 8 April 08.
    \33\ China Development Brief (Online), ``AIDS: Anger and 
Recrimination Block Progress in Henan,'' 14 January 08.
    \34\ Ibid.
    \35\ ``Chinese To Undergo Compulsory HIV Testing If Abroad for More 
Than One Year,'' Xinhua (Online), 30 November 07.
    \36\ Watts, ``Sex, Drugs, and HIV/AIDS in China.''
    \37\ ``Chinese To Undergo Compulsory HIV Testing If Abroad for More 
Than One Year,'' Xinhua; Shan Juan, ``HIV/AIDS Travel Ban To Be 
Lifted,'' China Daily (Online), 6 August 08.
    \38\ ``China Continues To Crack Down on HIV/AIDS Web Sites and 
Activists,'' CECC China Human Rights and Rule of Law Update, June 2008, 
3.
    \39\ ``Infection Rate Lowers for Hepatitis B,'' Shanghai Daily, 
reprinted in China Internet Information Center (Online), 21 April 08.
    \40\ Ibid.
    \41\ CECC, 2007 Annual Report, 131.
    \42\ China Labour Bulletin (Online), ``Dongguan Court Orders Vtech 
To Pay Plaintiff 24,000 Yuan in Compensation for HBV Discrimination,'' 
7 January 08.
    \43\ China Labour Bulletin (Online), ``Ministry of Labour Tightens 
Controls on Employment Discrimination,'' 9 November 07.
    \44\ China Labour Bulletin (Online), ``Five Thousand Petitioners 
Demand Hewlett-Packard Take Action Against Hepatitis B 
Discrimination,'' 3 September 07.
    \45\ CECC, 2007 Annual Report, 131.
    \46\ China Labour Bulletin (Online), ``Dongguan Court Orders Vtech 
To Pay Plaintiff 24,000 Yuan.''
    \47\ China Labour Bulletin (Online), ``Fighting Back: People Living 
with Hepatitis B Stand Up for Their Rights,'' 12 October 07.
    \48\ China Labour Bulletin (Online), ``Pressure on Companies' 
Illegal HBV Testing Begins To Pay Dividends,'' 13 March 08.
    \49\ The applicant sought assistance from the HBV Internet forum, 
GanDan XiangZhao, and initiated a civil suit in January 2007. He 
claimed 690 yuan (US$101) for ``loss of work time'' and 50,000 yuan 
(US$7,280) in emotional damages. China Labour Bulletin (Online), 
``Dongguan Court Orders Vtech To Pay Plaintiff 24,000 Yuan.''
    \50\ China Labour Bulletin (Online), ``Shanghai HBV Discrimination 
Case Reaches Satisfactory Conclusion,'' 24 April 08; Cao Li, 
``Hepatitis-B Sufferer Files Job Discrimination Suit,'' China Daily 
(Online), 28 February 07.
    \51\ ``Beijing Authorities Shut Down Online Forum for Hepatitis B 
Carriers'' [Yigan xiedaizhe gongyi wangzhan bei guanbi], Radio Free 
Asia (Online), 29 November 07.
    \52\ One person mentioned the forum may have been closed because it 
helps HBV carriers from across China safeguard their rights. ``Beijing 
Authorities Shut Down Online Forum for Hepatitis B Carriers,'' Radio 
Free Asia; Beijing Interim Measures on Administration of Medical 
Treatment and Health Information Services Over the Internet [Beijing 
hulianwang yiliao weisheng xinxi fuwu guanli banfa (zhanxing)], issued 
27 March 01, arts. 2, 3, 7.
    \53\ Robin Kwong, ``Group Warns China on Website Shutdown,'' 
Financial Times (Online), 25 June 08; Kelly Chen, ``Hepatitis Activist 
Wages War on Prejudice,'' South China Morning Post, 13 July 08 (Open 
Source Center, 14 July 08).
    \54\ Beijjing Muncipality Regulations on Mental Health [Beijing shi 
jingshen weisheng tiaoli], issued 8 December 06.
    \55\ CECC, 2007 Annual Report, 127.
    \56\ Murie Dickie, ``Beijing Hospitals Lock Psychiatric Wards,'' 
Financial Times (Online), 14 August 08.
    \57\ ``IBM Found Guilty of Job Discrimination in Shanghai,'' China 
Daily (Online), 24 June 08.
    \58\ ``Hospitals Need Approval Before Neurosurgical Operations To 
Treat Mental Diseases,'' Xinhua, reprinted in PRC Central People's 
Government (Online), 25 April 08.

    Notes to Section II--Environment
    \1\ Gang He, World Resources Institute (Online), ``China's New 
Ministry of Environmental Protection Begins to Bark, but Still Lacks in 
Bite,'' 17 July 08; ``SEPA Issues Measures on Open Environmental 
Information,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5.
    \2\ ``China's Environment Watchdog Expands,'' Xinhua (Online), 5 
August 08.
    \3\ Li Jing, ``Environment Ministry Adds 2 Departments,'' China 
Daily (Online), 11 July 08; ``China's Environment Watchdog Expands,'' 
Xinhua. As the central government issues legislative and regulatory 
measures aimed at reducing greenhouse gases, implementation and 
enforcement at the local level remains a challenge. According to a 
study released in October by the Chinese Academy of Sciences, China's 
emissions of greenhouse gases could double in the next two decades. 
See, e.g., Chris Buckley, ``China Report Warns of Greenhouse Gas 
Leap,'' Reuters (Online), 22 October 08; ``China Warns of Huge Rise in 
Emissions,'' NewScientist.com (Online), 22 October 08; Elizabeth 
Economy, ``China vs. Earth,'' The Nation (Online), 7 May 07.
    \4\ Gang He, ``China's New Ministry of Environmental Protection 
Begins to Bark''; Charlie McElwee, ``More Tough Talk,'' China 
Environmental Law Blog (Online), 18 September 08.
    \5\ See, e.g., Charlie McElwee, ``More Tough Talk''; ``Local 
Officials to Pay Price of Environmental Failures,'' Xinhua, reprinted 
on China Internet Information Center, 12 September 08.
    \6\ Gang He, ``China's New Ministry of Environmental Protection 
Begins to Bark.''
    \7\ Fu Jing, ``Green Axe Hangs Over Local Officials,'' China Daily 
(Online), 15 August 08.
    \8\ Ibid.
    \9\ ``Environmental Watchdogs To Sharpen Teeth,'' China Daily 
(Online), 16 April 08.
    \10\ `` `Green Olympics' Commitments Raise Concerns Over 
Transparency and Implementation,'' CECC China Human Rights and Rule of 
Law Update, January 2008, 2.
    \11\ The projects include infrastructure improvements addressing 
air and water quality, waste management, and energy. `` `Green 
Olympics' Commitments,'' CECC China Human Rights and Rule of Law 
Update, 2.
    \12\ Beijing officials point to the city meeting its 2007 target of 
245 days of ``blue skies'' as an indicator of improved air quality. But 
it remains to be seen if Beijing's air quality during the Olympics--
determined by measuring the levels of four pollutants--will meet 
promised World Health Organization (WHO) standards. Levels of sulfur 
dioxide meet current WHO standards but particulate matter 10 levels do 
not meet these standards. For a summary of the three areas of 
environmental commitments for the Beijing Olympics, see ``Zhang Lijun: 
Two Measures To Ensure that Air Quality Meets Standards During the 
Beijing Olympics Period'' [Zhang Lijun: liang cuoshi quebao beijing 
aoyunhui qijian kongqi zhiliang dabiao], Xinhua (Online), 11 March 08. 
See also, United Nations Environmental Programme, Beijing 2008 Olympic 
Games--An Environmental Review, 25 October 07, 27; `` `Green Olympics' 
Commitments,'' CECC China Human Rights and Rule of Law Update, 2; 
``Beijing Squeaks by To Hit `Blue Sky' Target,'' Reuters (Online), 30 
December 07; Greenpeace (Online), China after the Olympics: Lessons 
from Beijing, 28 July 08, 13-14.
    \13\ UNEP will be conducting a post-Games environmental assessment. 
United Nations Environmental Programme, Beijing 2008 Olympic Games--An 
Environmental Review, 20; Shi Jiangtao, ``Hazy on the Detail,'' South 
China Morning Post (Online), 14 May 08.
    \14\ Austin Ramzy, ``Is Beijing Manipulating Air Pollution 
Statistics? '' Time (Online), 17 March 08.
    \15\ ``Official: China To Continue Anti-Pollution Campaigns After 
Olympics,'' Xinhua (Online), 4 August 08; `` `Green Olympics' 
Commitments,'' CECC China Human Rights and Rule of Law Update, 2.
    \16\ ``SEPA Issues Measures on Open Environmental Information,'' 
CECC China Human Rights and Rule of Law Update, January 2008, 5.
    \17\ The Measures require environmental protection bureaus (EPBs) 
to disclose information on ``environmental quality conditions'' and to 
take no longer than 30 business days to reply to requests for 
information. EPBs must also disclose environmental statistics, 
information on sudden environmental incidents, and the outcomes of 
petition letters and complaints, among other items. ``SEPA Issues 
Measures on Open Environmental Information,'' CECC China Human Rights 
and Rule of Law Update, 5.
    \18\ Such enterprises must disclose information regarding their 
major pollutants, environmental protection facilities, and 
environmental emergency plans within 30 days of appearing on the list. 
``SEPA Issues Measures on Open Environmental Information,'' CECC China 
Human Rights and Rule of Law Update, 5.
    \19\ Su Yongtong and Zhao Lei, ``The Operation of the New Open 
Information Regulations Test the Government's Ability To Reveal the 
Truth,'' Southern Weekend, 8 May 08 (Open Source Center, 12 May 08).
    \20\ Measures on Open Environmental Information (Trial) [Huanjing 
xinxi gongkai banfa (shixing)], issued 11 April 07, art. 12. 
Furthermore, Article 17 of the measures provides for an EPB to reject a 
request if the information ``does not fall within the scope of 
disclosure,'' ``the law provides that disclosure is not within a 
department's responsibility,'' the information ``does not exist,'' or 
``the content for which the application is being made is unclear.'' 
``SEPA Issues Measures on Open Environmental Information,'' CECC China 
Human Rights and Rule of Law Update, 5.
    \21\ Su Yongtong and Zhao Lei, ``The Operation of the New Open 
Information Regulations Test the Government's Ability To Reveal the 
Truth,'' Southern Weekend, 8 May 08 (Open Source Center, 29 July 08).
    \22\ ``SEPA Director Says Public Protests Over Pollution Rising by 
29 Percent Per Year,'' CECC China Human Rights and Rule of Law Update, 
June 2006, 13-14.
    \23\ CECC, 2007 Annual Report, 10 October 07, 136; Candy Zeng, 
``Green Challenge to China's Mega-Projects,'' Asia Times (Online), 20 
March 08; Diao Jicheng, ``Dissatisfied at the Government Constructing 
Petrochemical Plants, 300 Chengdu Residents `Take a Stroll,' '' Wen Wei 
Po, 6 May 08 (Open Source Center, 12 May 08).
    \24\ ``Relief Work May Help Speed Up Growth of Ad-Hoc Activism,'' 
Reuters, reprinted in South China Morning Post (Online), 9 June 08; Zhu 
Hongjun and Su Yongtong, ``The People and Wisdom Changed Xiamen,'' 
Southern Weekend (Online), 19 December 07, translated on the Web site 
of EastSouthWestNorth.
    \25\ Joey Liu, ``Chemical Plant Not Dead Yet, Officials Say,'' 
South China Morning Post, 19 December 07 (Open Source Center, 19 
December 07); Edward Wong, ``In China City, Protesters See Pollution 
Risk of New Plant,'' New York Times (Online), 6 May 08.
    \26\ Xiamen residents benefited from the concerns of 105 members of 
the Chinese People's Political Consultative Conference, expressed in 
March 2007, as well as the support of several local deputies to the 
National People's Congress. In the Guangzhou case, 14 Guangdong 
legislators voiced worries about pollution from the proposed $5 billion 
Sinopec-Kuwait refinery project, which may have influenced the decision 
to await approval from the Ministry for Environmental Protection before 
proceeding with construction. ``Xiamen Suspends Controversial Chemical 
Project,'' Xinhua, reprinted in China Daily (Online), 30 May 07; Wang 
Er, ``Xiamen Again Says `No' to PX Project,'' Caijing (Online), 19 
December 07. The National Development and Reform Commission had 
approved the refinery project at the end of 2007. Candy Zeng, ``Green 
Challenge to China's Mega-Projects.''
    \27\ For example, see ``East China Maglev Project Suspended Amid 
Radiation Concerns,'' Xinhua, reprinted in People's Daily (Online), 27 
May 07; Xie Liangbing, ``Xiamen PX Incident: Expression of Popular 
Opinion in the New Media Era,'' China Newsweek (Online), 11 June 07, 
translated on the Web site of Danwei.org; Edward Wong, ``In China City, 
Protesters See Pollution Risk of New Plant.''
    \28\ CECC, 2007 Annual Report, 86; CECC Staff Interview; Xie 
Liangbing, ``Xiamen PX Incident.''
    \29\ ``Xiamen Suspends Controversial Chemical Project,'' Xinhua.
    \30\ People used online forums to also discuss concerns over 
pollution at other chemical plants in Haicang district as well as the 
effect on other places should the plant be relocated there. Joey Liu, 
``Chemical Plant Not Dead Yet, Officials Say''; ``People vs. Chemical 
Plant,'' Zhongguo Wang (Online), 14 January 08; Zhu Hongjun, ``Xiamen 
Calls An Abrupt Halt to the PX Project To Deal With the Public 
Crisis,'' Southern Weekend (Online), 28 May 07, translated on the Web 
site of EastSouthWestNorth.
    \31\ Officials reportedly screened the text message and made it 
difficult to send or receive the message after a while. Xie Liangbing, 
``Xiamen PX Incident.'' The plant is slated to produce 800,000 tons of 
paraxylene and generate about 80 billion yuan (then US$10.45 billion) 
in annual revenue, which would have been a significant boost to 
Xiamen's GDP of 112.6 billion yuan in 2006. ``People vs. Chemical 
Plant,'' Zhongguo Wang; ``Xiamen Suspends Controversial Chemical 
Project,'' Xinhua; Edward Cody, ``Text Messages Giving Voice to 
Chinese,'' Washington Post (Online), 28 June 07.
    \32\ Zhu Hongjun, ``Xiamen Calls An Abrupt Halt to the PX 
Project.''
    \33\ Ibid.
    \34\ The exact number of people who ``took a stroll'' is unknown. A 
Wen Wei Po article June 3, 2007, mentions close to 1,000 people while a 
June 13 Straits Times article puts the number at more than 10,000. A 
Washington Post article dated June 28 puts the number at 8,000 to 
10,000 the first day and 4,000 to 5,000 the second day. ``Xiamen 
Police-Civilian Standoff Over Call To Halt Chemical Plant,'' Wen Wei 
Po, 3 June 07 (Open Source Center, 4 June 07); Chua Chin Hon, ``Firm 
Tries To Quash Fears Over Chemical Factory--It Says Paraxylene, Used in 
Polyester and Fabrics, Is no More Dangerous Than Petrol,'' Straits 
Times, 13 June 07 (Open Source Center, 13 June 07); Cody, ``Text 
Messages Giving Voice to Chinese.''
    \35\ ``China To Improve Environmental Assessment After 
Controversial PX Project,'' Xinhua, reprinted in PRC Central People's 
Government (Online), 23 June 07.
    \36\ The Xiamen government also mailed out approximately 250,000 
booklets titled ``How much do you know about PX'' in June. Zhu Hongjun, 
``Behind the Scenes in Xiamen,'' Southern Weekend (Online), 19 December 
07, translated on the Web site of EastSouthWestNorth; Zhu Hongjun and 
Su Yongtong, ``The People and Wisdom Changed Xiamen''; ``Citizens to 
Rejoin Debate Over Controversial Plant,'' Xinhua, reprinted in China 
Daily (Online), 5 December 07.
    \37\ Sun Xiaohua, ``Planning Regulation To Be Ready By Year End,'' 
China Daily (Online), 28 April 08.
    \38\ Ibid.
    \39\ ``Citizens to Rejoin Debate Over Controversial Plant,'' 
Xinhua, reprinted in China Daily (Online), 5 December 07; Zhu Hongjun 
and Su Yongtong, ``The People and Wisdom Changed Xiamen.''
    \40\ ``Citizens to Rejoin Debate Over Controversial Plant,'' 
Xinhua; Joey Liu, ``Xiamen Residents Say No to Toxic Plant,'' South 
China Morning Post (Online), 15 December 07.
    \41\ Zhu Hongjun, ``Behind the Scenes in Xiamen''; Joey Liu, 
``Xiamen Residents Say No to Toxic Plant''; Wang Er, ``Xiamen Again 
Says `No' to PX Project.''
    \42\ Ibid.
    \43\ Zhu Hongjun, ``Behind the Scenes in Xiamen.''
    \44\ Laura Belle Kearns, China Elections and Governance, ``Xiamen 
PX: Have the Chinese People Found Their Voice? '' 19 January 08.
    \45\ Zhu Hongjun, ``Behind the Scenes in Xiamen''; Candy Zeng, 
``Green Challenge to China's Mega-Projects''; ``Xiamen Mayor: 
Controversial Chemical Plant To Be Relocated After Public Protest,'' 
Xinhua (Online), 7 March 08.
    \46\ ``Xiamen Mayor: Controversial Chemical Plant To Be Relocated 
After Public Protest,'' Xinhua.
    \47\ It appears that Gulei Peninsula officials welcomed the 
project. Zhu Hongjun and Su Yongtong, ``The People and Wisdom Changed 
Xiamen''; Edward Cody, ``Thousands Clash with Police in S. China; 
Rumors of Chemical Factory Construction Spark Four Days of 
Demonstrations,'' Washington Post (Online), 4 March 08.
    \48\ The Washington Post reported that at least 10,000 people 
participated in the protests at some point. Cody, ``Thousands Clash 
with Police in S. China''; Joey Liu, ``Chemical Plant Plan Enrages 
Islanders,'' South China Morning Post, 3 March 08 (Open Source Center, 
3 March 08).
    \49\ Cody, ``Thousands Clash with Police in S. China.''
    \50\ ``Victory of Public Opinion in Xiamen Isn't Really a Victory 
for the Common People'' [Xiamen minyi de shengli bingfei shumin de 
shengli], Guangzhou Daily, reprinted in Xinhua (Online), 26 December 
07.
    \51\ ``Shanghai Maglev Extension Not on 2008 Start List,'' Reuters 
(Online), 6 March 08.
    \52\ Howard French, ``Plan to Extend Shanghai Rail Line Stirs 
Middle Class to Protest,'' New York Times (Online), 27 January 08; 
Howard French, ``Ire Over Shanghai Rail Line May Signal Turning 
Point,'' New York Times (Online), 10 August 07.
    \53\ Howard French, ``Ire Over Shanghai Rail Line May Signal 
Turning Point''; Josephine Ma, ``Work On Maglev Reignites Protests,'' 
South China Morning Post (Online), 11 January 08; ``East China Maglev 
Project Suspended Amid Radiation Concerns,'' Xinhua (Online), 27 May 
07.
    \54\ Howard French, ``Plan to Extend Shanghai Rail Line Stirs 
Middle Class to Protest.''
    \55\ Ibid.
    \56\ Ibid.
    \57\ Ibid.
    \58\ ``Shanghai Maglev Extension Not on 2008 Start List,'' Reuters.
    \59\ Fang Yan, ``High-speed Rail Plan may Delay China Maglev--
Mayor'', Reuters (Online), 2 September 08; ``East China Maglev Project 
Suspended,'' Xinhua.
    \60\ The number of protesters is unclear. A New York Times article 
dated May 6 places the number of protesters at 400 to 500, while a Wen 
Wei Po article from the same date mentions 300 protesters. The two 
plants were to be located 35 kilometers (22 miles) northwest from the 
center of Chengdu in Pengzhou. The two plants, a joint venture between 
the Sichuan provincial government and PetroChina, had a combined budget 
of 50 billion yuan (US$5.5 billion). The ethylene plant had an annual 
production capacity of 800,000 tons, and the other plant, an oil 
refinery, had an annual production capacity of 10 million tons. 
``Chengdu's `Stroll': A Rational Expression of Popular Will'' [Chengdu 
``sanbu:'' lixing de minyi biaoda], Beijing News (Online), 6 May 08; 
``200 Chengdu Citizens `Take a Stroll' To Protest Chemical Plants'' 
[Rong liangbai ren ``sanbu'' dizhi jian huagong xiangmu], Beijing News 
(Online), 5 May 08; Edward Wong, ``In China City, Protesters See 
Pollution Risk of New Plant,'' New York Times (Online), 6 May 08; Diao 
Jicheng, ``Dissatisfied at the Government Constructing Petrochemical 
Plants, 300 Chengdu Residents `Take a Stroll,' '' Wen Wei Po, 6 May 08 
(Open Source Center, 12 May 08).
    \61\ ``200 Chengdu Citizens `Take a Stroll' To Protest Chemical 
Plants,'' Beijing News; Wong, ``In China City, Protesters See Pollution 
Risk of New Plant.''
    \62\ ``200 Chengdu Citizens `Take a Stroll' To Protest Chemical 
Plants,'' Beijing News.
    \63\ ``200 Chengdu Citizens `Take a Stroll' To Protest Chemical 
Plants,'' Beijing News; Wong, ``In China City, Protesters See Pollution 
Risk of New Plant.''
    \64\ ``200 Chengdu Citizens `Take a Stroll' To Protest Chemical 
Plants,'' Beijing News.
    \65\ ``Relief Work May Help Speed Up Growth of Ad-Hoc Activism,'' 
Reuters; ``Petrochina Reviews Plan for 50b Yuan Plant in Quake Zone,'' 
South China Morning Post, 16 May 08 (Open Source Center, 16 May 08).
    \66\ One text message read: ``Protect our Chengdu, safeguard our 
homeland. Stay away from the threat of pollution. Restore the clear 
water and green mountains of Sichuan.'' A Chengdu resident posted a 
message online in April that said, ``On 4 May from 1500 to 1700, stroll 
between Jiuyan Bridge and Wangjiang Tower. No banners, no slogans, 
don't assemble, don't demonstrate.'' Wong, ``In China City, Protesters 
See Pollution Risk of New Plant''; Huang Zhiling, ``Chengdu People Walk 
to Express Environmental Concerns,'' China Daily (Online), 6 May 08; 
Diao Jicheng, ``Dissatisfied at the Government Constructing 
Petrochemical Plants.''
    \67\ Diao Jicheng, ``Dissatisfied at the Government Constructing 
Petrochemical Plants''; ``China Social Unrest Briefing 1-14 May 08,'' 
BBC, 14 May 08 (Open Source Center, 14 May 08).
    \68\ Pen American Center (Online), ``Chen Daojun Detained as 
Crackdown Intensifies in China During Olympic Torch Relay,'' 12 May 08; 
Chen Daojun, ``Quickly Together, People of Chengdu Facing Extinction'' 
[Gankuai qilai, mianlin juezhong de chengdu ren], China EWeekly 
(Online), 5 May 08.
    \69\ ``May 4 `Collective Stroll' Organizer Detained Because of 
Sending Text Message Calling for Others to Take Another `Stroll' '' 
[Wusi ``jiti sanbu'' gugan chengyuan yin fa duanxin haozhao zaici sanbu 
zao juliu], Radio Free Asia (Online), 22 May 08; Wu Maosheng, ``Two or 
Three Incidents Involving Author Chen Yunfei--A Public Citizen is 
Born'' [Ji Chen Yunfei xiansheng er san shi--yi ge gongmin de 
dansheng], New Century Net (Online), 22 July 08.
    \70\ ``May 4 `Collective Stroll' Organizer Detained,'' Radio Free 
Asia; ``Chengdu Police Punish Those Who Used the Sichuan Petrochemical 
Project To Disseminate Rumors Over the Internet'' [Chengdu jingfang 
chufa liyong sichuan shihua xiangmu wang shang sanbu yaoyan zhe], 
Sichuan Daily (Online), 10 May 08.
    \71\ Gang He, ``Environmental Challenges after China's Sichuan 
Earthquake,'' World Resources Institute, Earthtrends (Online), 24 June 
08.
    \72\ ``Nuclear Facilities in Quake Regions Safe,'' Xinhua, 
reprinted in China Internet Information Center (Online), 23 May 08; 
William Broad, ``Global Monitor Finds No Radioactive Leaks in Quake 
Zone,'' New York Times (Online), 22 May 08; William Foreman, ``China 
Contains Radiation in Quake Disaster Zone,'' Associated Press (Online), 
24 May 08.
    \73\ ``Nuclear Facilities in Quake Regions Safe,'' Xinhua.
    \74\ Broad, ``Global Monitor Finds No Radioactive Leaks in Quake 
Zone.''
    \75\ Foreman, ``China Contains Radiation in Quake Disaster Zone.''
    \76\ Ouyang Hongliang, ``Shifang's Chemical Fertilizer Plants 
Leak,'' Caijing (Online), 19 May 08.
    \77\ ``China Quake Risk to Dams, Nuclear Sites,'' Reuters, 
reprinted in Australian (Online), 15 May 08.
    \78\ ``Nuclear Facilities in Quake Regions Safe,'' Xinhua.
    \79\ ``No Major Pollution in Quake Zone,'' Xinhua, reprinted in PRC 
Central People's Government (Online), 20 June 08.
    \80\ Hepeng Jia, ``China Assesses Sichuan Earthquake's 
Environmental Costs,'' Royal Society of Chemistry, Chemistry World 
(Online), 18 June 08.

    Notes to Section II--2008 Beijing Summer Olympic Games
    \1\ Official Website of the Beijing 2008 Games, ``Mr. Liu Qi's 
Speech,'' 13 July 01. See, also, ``Journalists To Write Whatever They 
Like If Beijing Holds 2008 Games,'' China Daily (Online), 12 July 01 
(event ``not only promotes our economy but also enhances all social 
conditions, including education, health and human rights'').
    \2\ Official Website of the Beijing 2008 Games, Beijing Candidature 
Files, ``Volume I--Introduction,'' last visited 15 September 08, 15; 
Official Website of the Beijing 2008 Games, Beijing Candidature Files, 
``Volume I--Theme 4 Environmental Protection and Meteorology,'' last 
visited 15 September 08, 55; Official Website of the Beijing 2008 
Games, Beijing Candidature Files, ``Volume III--Introduction,'' last 
visited 15 September 08, 5.
    \3\ Official Website of the Beijing 2008 Olympic Games, Beijing 
Olympic Action Plan, ``I. Overall Strategic Concept--3. Strategic 
Principles,'' 10 September 03.
    \4\ See, e.g., ``Propaganda Chiefs Order Editors To `Toe the Line' 
in Bid To Counter Bad Games Publicity,'' South China Morning Post 
(Online), 13 November 07.
    \5\ ``Beijing Court Sentences Hu Jia to 3 Years 6 Months' 
Imprisonment,'' CECC China Human Rights and Rule of Law Update, March/
April 2008, 1; ``Land Rights Activist Yang Chunlin Sentenced to Five 
Years,'' CECC China Human Rights and Rule of Law Update, March/April 
2008, 1; Jim Yardley, ``China Disbars Lawyers Who Offered to Defend 
Tibetans,'' New York Times (Online), 4 June 08. See, also, Amnesty 
International (Online), ``The Olympics Countdown--Crackdown on 
Activists Threatens Olympics Legacy,'' 1 April 08, 1. Amnesty observed: 
``Peaceful human rights activists, and others who have publicly 
criticized government policy, have been targeted in the official pre-
Olympics `clean up', in an apparent attempt to portray a `stable' or 
`harmonious' image to the world by August 2008.''
    \6\ ``Under Olympics House Arrest,'' Radio Free Asia (Online), 25 
July 08; Ding Xiao, ``Lawyers Have Become a Target of Beijing Olympics 
Security Precautions'' [Lushi cheng Jing ao anbao fangfan duixiang], 
Radio Free Asia (Online), 30 July 08; Ding Xiao, ``Olympic Security 
Requires Dissident Intellectuals To Leave Beijing for Travel'' [Aoyun 
anbao yaoqiu yiyi zhishifenzi li Jing luyou], Radio Free Asia (Online), 
31 July 08.
    \7\ Amnesty International, ``The Olympics Countdown,'' 1; ``Beijing 
Employs Both Soft and Hard Tactics To Drive Out All Petitioners,'' 
Oriental Daily, 17 July 08.
    \8\ Bill Savadore, ``Shanghai Bars Dissidents from Speaking to 
Foreign Journalists,'' South China Morning Post (Online), 25 June 08.
    \9\ ``Beijing Sweeps Out Migrants in Pre-Games Clean-up,'' Agence 
France-Presse (Online), 24 July 08; ``No Workers Will Be Sent Home,'' 
China Daily (Online), 16 September 06.
    \10\ Maureen Fan, ``China Defends Relocation Policy,'' Washington 
Post (Online), 20 February 08; Centre on Housing Rights and Evictions 
(Online), ``Fair Play for Housing Rights: Mega-Events, Olympic Games 
and Housing Rights,'' June 2007, 159; Chinese Human Rights Defenders 
(Online), ``Survey of Land Expropriation in 2008 Beijing Olympics Main 
Competition Venue Areas'' [2008 nian beijing aoyun zhuchang guan diqu 
shidi nongmin diaocha baogao], 4 February 08.
    \11\ ``China Clampdown for Olympic Torch in Xinjiang: Residents, 
Exiles,'' Agence France-Presse (Online), 15 June 08.
    \12\ Kristine Kwok, ``Police Force Pastor To Leave Beijing,'' South 
China Morning Post (Online), 20 July 08; China Aid Association 
(Online), ``Pastor Bike Mingxuan and Wife Released From Detention But 
Prohibited From Returning to Beijing,'' 29 August 08.
    \13\ Falun Dafa Information Center (Online), ``Thousands of Falun 
Gong Adherents Arrested Throughout China in Run Up to Olympics,'' 7 
July 08.
    \14\ ``Beijing Public Security Bureau: Since August 77 Applications 
for Assembly or Demonstrations Have Been Received'' [Beijing gonganju: 
8 yue yilai gong diedai shenqing jihui youxing shi wei 77 qi], Xinhua, 
reprinted in People's Daily (Online), 18 August 08; Jim Yardley, 
``China Sets Zones for Olympic Protests,'' New York Times (Online), 24 
July 08.
    \15\ ``Grannies Vow To Fight on After Punishment for Olympic 
Protests,'' Agence France-Presse (Online), 22 August 08; Andrew Jacobs, 
``Would-Be Protester Detained in China,'' New York Times (Online), 18 
August 08.
    \16\ ``Grannies Vow To Fight,'' Agence France-Presse.
    \17\ Human Rights in China (Online), ``Authorities Relent on 
Reeducation-Through-Labor Sentence for Elderly Women who Applied for 
Protest Permit,'' 29 August 08.
    \18\ ``Chinese Government Relaxes Restrictions on Foreign 
Journalists for Olympics,'' Congressional-Executive Commission on China 
(Online), 30 November 07.
    \19\ CECC, 2007 Annual Report, 10 October 07, 11.
    \20\ ``China's Earthquake Coverage More Open but Not Uncensored,'' 
CECC China Human Rights and Rule of Law Update, June 2008, 2.
    \21\ ``China Blocks Foreign Reporters From Covering Tibetan 
Protests,'' CECC China Human Rights and Rule of Law Update, May 2008, 
2-3; ``China's Earthquake Coverage More Open But Not Uncensored,'' CECC 
China Human Rights and Rule of Law Update, June 2008, 2.
    \22\ Foreign Correspondents Club of China (Online), ``Chinese 
Government Should Live Up to Olympic Spirit With Enduring Commitment to 
Free Reporting,'' 8 July 08.
    \23\ Foreign Correspondents Club of China (Online), ``Reporting 
Interference Tally,'' visited on 21 October 08.
    \24\ Foreign Correspondents Club of China (Online), ``2007 Survey 
on Reporting Conditions,'' 1 August 07; Foreign Correspondents Club of 
China, ``FCCC: China Fails''; Human Rights Watch (Online), ``IV. 
Harassment of Foreign Correspondents' Chinese Staff and Sources,'' 3 
October 07.
    \25\ Reporters Without Borders (Online), ``Disturbing New 
Regulations Prior to Olympic Games, Increased Control in Sichuan,'' 10 
June 08; Stephen Wade, ``Networks, Olympics Organizers Clash,'' 
Associated Press (Online), 8 June 08; ``The Human Toll of the 
Olympics,'' Congressional-Executive Commission on China (Online), 1 
August 08; ``Media Free To Roam in China During 2008 Games,'' Reuters, 
reprinted in China Daily (Online), 27 September 06.
    \26\ Ministry of Foreign Affairs (Online), ``Foreign Ministry News 
Department Head Liu Jianchao Hosts Sino-Foreign Journalists Press 
Conference on State Council's Promulgation of the Regulations of the 
People's Republic of China on News Covering Activities of the Permanent 
Offices of Foreign News Agencies and Foreign Journalists'' [Waijiaobu 
xinwen si sizhang liu jianchao jiu guowuyuan panbu shishi ``zhonghua 
renmin gongheguo changzhu xinwen jigou he waiguo jizhe caifang tiaoli'' 
juxing zhongwai jizhe hui], 17 October 08.
    \27\ Regulations Concerning Foreign Journalists and Permanent 
Offices of Foreign News Agencies [Waiguo jizhe he waiguo changzhu 
xinwen jigou guanli tiaoli], issued 19 January 90, art. 15; ``Analysis: 
China's New Foreign Media Rules an Important Step Toward Making China 
More Open,'' Xinhua (Online), 20 October 08.
    \28\ Regulations of the People's Republic of China on News Covering 
Activities of the Permanent Offices of Foreign News Agencies and 
Foreign Journalists [Zhonghua renmin gongheguo waiguo changzhu xinwen 
jigou he waiguo jizhe caifang tiaoli], issued 17 October 08, art. 17.
    \29\ Ministry of Foreign Affairs, ``Liu Jianchao Hosts Sino-Foreign 
Journalists Press Conference.''
    \30\ Except where otherwise noted, information in this boxed 
subsection is drawn from ``Authorities Increase Repression in Xinjiang 
During Olympics,'' Congressional-Executive Commission on China 
(Online), forthcoming.
    \31\ Information in this bulleted item, other than information on 
Ramadan, is drawn from ``Authorities Increase Repression in Xinjiang 
During Olympics,'' Congressional-Executive Commission on China 
(Online), forthcoming. For information on controls over Ramadan, see, 
e.g., Shayar County Government (Online), ``Town of Yengi Mehelle in 
Shayar County Xinjiang Adopts Nine Measures To Strengthen Management 
During Ramadan'' [Shaya xian yingmaili zhen caiqu jiu xiang 
cuoshijiaqiang ``zhaiyue'' qijian guanli], 28 August 08; ``Five 
Measures from Mongghulkure County Ensure Ramadan Management and 
Olympics Security'' [Zhaosu xian wu cuoshi tiqian zuohao zhaiyue guanli 
bao ao yun wending], Fazhi Xinjiang (Online), 23 August 08; ``Toqsu 
County Deploys Work to Safeguard Stability During Ramadan'' [Xinhe xian 
bushu zhaiyue qijian weiwen gongzuo], Xinjiang Peace Net (Online), 2 
September 08.
    \32\ The directive is entitled ``A Propaganda Outline Regarding the 
Prevention of `Falun Gong' Interference with and Harming of the Beijing 
Olympics,'' or in Chinese ``Guanyu Fangfan `Falun Gong' Ganrao Pohuai 
Beijing Aoyunhui de Xuanjiang Tigang.'' While references to this 
directive are abundant and easy to locate on the Chinese Web, the full 
text does not appear to be publicly available.
    \33\ Examples include: Urumqi Municipal Government, Shayibake 
District, Xinjiang Uighur Autonomous Region (Online), ``The Olympic 
Security Work Implementation Scheme for the Friendly South District'' 
[Youhao nan diqu aoyun anbao gongzuo shishi fang'an], 3 April 08; 
Ge'Ermu City Economic and Trade Commission (Online), ``Municipal 
Economic and Trade Commission Launches Activities and Discussions 
Focusing on `A Propaganda Outline Regarding the Prevention of ``Falun 
Gong'' Interference with and Harming of the Beijing Olympics' '' [Shi 
jingmaowei kaizhan xuanjiang `guanyu fangfan ``falun gong'' ganrao 
pohuai beijing aoyunhui de xuanjiang tigang'], 4 June 08; Weining Yi 
Hui Miao Ethnic Autonomous County Government (Online), ``Xiaohai 
Township Launches Guarding Against `Falun Gong' Interference and 
Destruction of Beijing Olympics Discussion Activities'' [Xiaohai zhen 
kaizhan ``falun gong'' ganrao pohuai beijing aoyunhui xuanjiang 
huodong], 8 July 08; Tibetan Science and Technology Committee (Online), 
``The District S&T Office Studies `A Propaganda Outline Regarding the 
Prevention of `Falun Gong' Interference with and Harming of the Beijing 
Olympics' '' [Qu kejiting xuexi xuanchuan `guanyu fangfan ``falun gong' 
ganrao pohuai beijing aoyunhui de xuanjiang tigang], 13 June 08; 
Political and Legal Committee of Huocheng County, Ili Kazakh Autonomous 
Prefecture, Xinjiang Uyghur Autonomous Region (Online), ``Huocheng 
County Bureau of Public Health Seriously Studies Anti-Cult Discussion 
Outline'' [Huocheng xian weishengju renzhen xuexi fanxiejiao xuanjiang 
tigang], 2 June 08.
    \34\ Er'lianhaote City Law Enforcement Department, Xilinguole 
League (Online), ``Law Enforcement Department Launches Activities to 
Publicize Efforts to Guard Against `Falun Gong' Interference with 
Beijing Olympics'' [Xingzheng zhifaju kaizhan fangfan ``falun gong'' 
ganrao pohuai beijing aoyunhui xuanjiang huodong], 19 June 08; Luxi 
City Department of National Resources (Online), ``Luxi City National 
Resources Department Launches Guarding Against `Falun Gong' 
Interference and Destruction of Beijing Olympics Discussion 
Activities'' [Luxi shi guotu ziyuan ju jiji kaizhan fangfan ``falun 
gong'' ganrao pohuai beijing aoyunhui xuanjiang huodong], 26 June 08; 
Qianjiang District Government (Online), ``Zhengyang Township Steadily 
Carries Out Prevention and Punishment of Cults'' [Zhengyang zhen zhashi 
zuohao fangchu xiejiao gongzuo], 14 June 08.
    \35\ Chengdu Dayi County Adolescent Ideology and Morality 
Development Network (Online), ``Propaganda and Education Activities to 
Guard Against `Falun Gong' Interference with and Destruction of the 
Beijing Olympics'' [Fangfan ``falun gong'' ganrao pohuai beijing 
aoyunhui xuanjiang jiaoyu huodong], 13 June 08; International Cargo 
Transport Limited of China (Online), ``International Cargo Transport of 
China, Hangzhou Headquarters Convenes Plenary Meeting on Situation'' 
[Zhongguo guoji huoyun hangkong hangzhou yunying jidi zhaokai xingshi 
dahui], 24 June 08; Chinese Academy of Social Sciences, South China Sea 
Institute of Oceanology (Online), ``Our Institute Convenes Meeting to 
Discuss Protecting Stability and Defending Security Work'' [Wosuo 
zhaokai weihu wending, anquan baowei yu anquan chansheng gongzuo 
huiyi], 19 June 08.
    \36\ Laigang Anti-Cult Association, reprinted in Zhengqi Web 
(Online), ``Laigang Anti-Cult Association Propaganda Activities Yield 
Results,'' [Laigang fanxiejiao xiehui xuanjiang huodong qude 
chengxiao], 31 July 08.
    \37\ ``Shanghai To Restrict Dissidents During Olympics,'' 
Associated Press (Online), 24 June 08.
    \38\ ``Religious Texts Allowed at Beijing Olympics, But for 
Personal Use; Falun Gong Excluded,'' Associated Press, reprinted in 
International Herald Tribune (Online), 7 November 07.
    \39\ ``Beijing Offers Hefty Rewards for Security Threat Information 
During Olympics,'' Xinhua (Online), 11 July 08.
    \40\ Falun Dafa Information Center (Online), ``Thousands of Falun 
Gong Adherents Arrested Throughout China in Run Up to Olympics,'' 7 
July 08. The list of 141 practitioners detained in Beijing from January 
2008 to June 2008 can be accessed at http://faluninfo.net/media/doc/
2008/07/141-new-cases.pdf.
    \41\ Chinese public security officials also used supposed security 
concerns to justify a request made to the government of Japan in which 
they solicited information on Falun Gong practitioners based in Japan 
who might attend the Games. The Japanese government refused to 
cooperate. ``China Asks Japan for Information on Falun Gong Members 
Ahead of Olympics,'' Kyodo World Service (Online), 17 July 08; Timothy 
Chui, ``More Games Security To Come, Says Expert,'' Hong Kong Standard 
(Online), 19 May 08; Edward Cody, ``China Set to Protect Olympics,'' 
Washington Post (Online), 25 July 08.
    \42\ ``Interview with Tian Yixiang, Head of the Military Affairs 
Department of the Beijing Olympics Protection Leading Group'' 
[Zhuanfang aoyun anbao xietiao gongzuo xiaozu jundui bu tian yixiang], 
Outlook Weekly (Online), 8 July 08; ``PLA Has Finalized Plans to Deal 
With Sudden Contingencies During Olympic Games'' [Jiefangjun aoyun 
anbao budui yi zhiding chongfen cuoshi yingdui tufa shijian], China 
News (Online), 8 May 08.
    \43\ ``Olympic Counterterrorism Warning: Major Threats are Eastern 
Turkestan, Tibetan Independence, and Falun Gong'' [Aoyun laxiang 
fankong jingbao: zhuyao fangfan dongtu zangdu xiejiao falungong], 
ChinaGo (Online), 24 July 08.

    Notes to Section III--Civil Society
    \1\ Lester M. Salamon, S. Wojciech Sokolowski, and Regina List, 
Johns Hopkins Center for Civil Society Studies, ``Global Civil Society: 
An Overview,'' 2003, 7-8. Civil society sector, non-governmental 
organizations, or civil society organizations generally refer to a 
broad array of organizations that are essentially private, i.e., 
outside the institutional structures of government; that are not 
primarily commercial and do not exist primarily to distribute profits 
to their directors or owners; that are self-governing; and that people 
are free to join or support voluntarily.
    \2\ See, e.g., Henry Sanderson, ``China Crackdown Targets Critics 
Ahead of Olympics,'' Associated Press (Online), 11 July 08; Jill Drew, 
``China's Silencing Season: Activist Journalists and Lawyers Jailed, 
Harassed in Far-Reaching Pre-Olympic Operation,'' Washington Post 
(Online), 10 July 08; ``As Olympics Approach, Oppressive Grip 
Tightens,'' Epoch Times (Online), 9 July 08; ``Blockade of NGO Websites 
Seen As Pre-Olympic Crackdown,'' South China Morning Post (Online), 25 
June 08.
    \3\ Xiong Lei, Worldwatch Institute, "Civil Society Emerging Around 
Calls for Sustainable Urbanization," 26 April 07.
    \4\ See, e.g., Wang Yingchun, ``NGOs Play Greater Role in Post-
Disaster Reconstruction'' [NGO zai zaihou chongjian zhongde youshi 
jiang geng mingxian], China Economic Herald (Online), 2 June 08; Wang 
Zhuoqiong, ``CPC Official Praises NGOs' Role in Relief Work,'' China 
Daily (Online), 27 May 08.
    \5\ Liu Xiaobo, ``The Rise of Civil Society in China,'' 3 China 
Rights Forum, 16, 16-17 (2003).
    \6\ See, e.g., Zhang Ye, Brookings Institute (Online), ``China's 
Emerging Civil Society," June 2003, 9-11; Guobin Yang, ``Environmental 
NGOs and Institutional Dynamics in China,'' 181 China Quarterly 46, 54-
55 (2005); Huang An, ``Workers' `Self-Help' Efforts Under 
Globalization,'' South Wind Window [Nanfengchuang], translated by China 
Labor News Translation, 16 November 07.
    \7\ ``Nearly 2.37 Million Chinese Receive Legal Aid in Past Five 
Years,'' Xinhua (Online), 4 September 08. Since the adoption of the 
Regulation on Legal Aid in 2003, 2.37 million people have received 
legal assistance in 1.35 million cases. The government spent 76 million 
U.S. dollars on legal aid in 2007. There were 12,285 full-time legal 
aid personnel, including 5,927 lawyers and 76,890 registered 
volunteers, in 3,239 legal aid organizations by the end of 2007.
    \8\ Ministry of Civil Affairs (Online), 2007 Civil Affairs 
Development Statistics Report (Civil Society Organizations), June 2008. 
According to this report, there were 212,000 social organizations 
(shehui tuanti), 174,000 non-governmental and non-commercial 
enterprises (minban feiqiye), and 1,340 foundations (jijinhui) at the 
end of 2007.
    \9\ Regulations on the Management of Foundations [Jijin hui guanli 
tiaoli], issued 8 March 04, effective 1 June 04; Regulations on the 
Registration and Management of Social Organizations [Shehui tuanti 
dengji guanli tiaoli], issued and effective 25 October 98; Temporary 
Regulations on the Registration and Management of Non-Governmental, 
Non-Commercial Enterprises [Minban feiqiye danwei dengji guanli zanxing 
tiaoli], issued and effective 25 October 98.
    \10\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State (Online), Country Reports on Human Rights Practices--2007, 
China (includes Tibet, Hong Kong, and Macau), 11 March 08.
    \11\ Everyone shall have the right to freedom of association with 
others, including the right to form and join trade unions for the 
protection of his interests, art. 22, International Covenant on Civil 
and Political Rights (ICCPR), adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 79.
    \12\ Many NGOs encounter difficulty in securing a sponsor 
organization and have to struggle for legitimacy. U.S. Embassy in 
Beijing (Online), ``Chinese NGOs--Carving A Niche within Constraints,'' 
20 January 03.
    \13\ Ibid.
    \14\ Only organizations registered for ``public fundraising'' 
purposes can collect donations, and only registered public welfare 
organizations can receive donations. As a result, the government 
monopolizes domestic philanthropy through the Red Cross Society of 
China and China Charity Federation. Regulations on the Management of 
Foundations [Jijinhui guanli tiaoli], issued 8 March 04, arts. 3, 25, 
40; Public Welfare Donations Law [Zhonghuarenmin gongheguo gongyishiye 
juanzengfa], enacted 28 June 99, arts. 3, 10. The Ministry of Civil 
Affairs issued a public notice (No. 108) on June 10, 2008, stating that 
organizations without registered purpose for public fundraising can 
apply for approval to solicit funding and goods for quake relief. 
Ministry of Civil Affairs Public Announcement: Number 108 [Minzheng bu 
gong gao di 108 hao], issued 10 June 08.
    \15\ ``Management of Earthquake Donation Tests the Chinese 
Government,'' ChinaStakes.com, 3 June 08.
    \16\ ``Quake Shakes `Official' Charities in China,'' Caijing 
(Online), 30 June 08; Xie Kangbao, China Development Brief (Online), 
``Wenchuan Earthquake: NGOs' Growth and Challenges'' [Wenchuan dizhen: 
NGO de shenzhang yu jiannan tupo], 4 June 08.
    \17\ Winny Wang, ``China's First Charity Law Under Discussion,'' 
Shanghai Daily (Online), 22 August 07.
    \18\ Bureau of Management of Social Organizations of Shanghai City 
(Online), ``State Council Legal Office Goes to Shanghai to Investigate 
Provisional Regulations on NGOs'' [Guowuyuan fazhiban fuhu diaoyan 
minban feiqiye danwei guanli zhanxing tiaoli], 25 June 08; Wu Xiaofeng 
and Wang Feng, ``Ministry of Civil Affairs: Revisions to the 
Regulations on the Registration and Management of Social Organizations 
Are Underway'' [Minzhengbu shehuituanti dengjiguanli tiaoli xiuding 
gongzuo zhengzai jinxing], Legal Daily (Online), 3 August 08.
    \19\ See, e.g., Mary-Anne Toy, ``China Fears the Power of Its 
Society,'' Sydney Morning Herald (Online), 10 June 08; China 
Development Brief (Online), ``Full Steam Ahead for `Charity' Even as 
Brakes Are Applied to NGOs,'' 20 October 07.
    \20\ Yongding, ``China's Color-Coded Crackdown,'' Foreign Policy 
(Online), 18 October 05.
    \21\ Jill Drew and Maureen Fan, ``China Falls Short on Vows for 
Olympics,'' Washington Post (Online), 21 April 08.
    \22\ See, e.g., U.S. Department of State, Country Reports on Human 
Rights Practices--2007, China; Human Rights Watch (Online), ``World 
Report 2008: China,'' 31 January 08.
    \23\ Human Rights Watch (Online), ``Essential Background: Overview 
of Human Rights Issues in China,'' 1 January 04.
    \24\ Xin Yu, "Authorties Surrounded Guo Quan After His Article 
Critical of the Olympics" [Guo quan wangshang fabiao piping aoyun 
wenzhang shou dangju daliang renyuan baowei], Radio Free Asia (Online), 
11 August 08.
    \25\ ``China Democracy Party's Yue Tianxiang Taken by Shanghai 
Police Without Reason'' [Zhongguo mingzhudang yue tianxiang bei 
shanghai jingfang wugu daizou wenhua], Boxun (Online), 19 June 08.
    \26\ ``Hunan China Democracy Party's Xie Changfa Detained for 
`Inciting Subversion' '' [Hunan minzhudang renshi xie changfa beiyi 
shexian dianfu guojia zhengquanzui juyi], Boxun (Online), 19 July 08.
    \27\ ``Police Continue To Suppress China Democracy Party's Huang 
Xiaoqin After Jail Release'' [Zhongguo minzhudang huang xiaoqin 
chuyuhou jixu shoudao gongan daya], Boxun (Online), 6 July 08.
    \28\ See, e.g., Ethan Cole, "Chinese House Church Head Forced to 
Live on Streets," Christian Post, reprinted in Christian Today 
(Online), 21 July 08; China Aid Association (Online), ``President of 
Chinese House Church Alliance Forced to Live on Streets,'' 18 July 08.
    \29\ China Aid Association (Online), ``International Petition 
Campaign Launched to Free Arrested Senior House Church Leader, Pastor 
Zhang ``Bike'' Mingxuan,'' 26 August 08.
    \30\ Nick Young, China Development Brief (Online), ``Message from 
the Editor,'' 12 July 07. Later in October of 2007, the editor decided 
to discontinue the entire publication.
    \31\ Ibid., 10 October 07. An alien considered a potential threat 
to China's national security and public order shall not be permitted to 
enter China. Law of the People's Republic of China on Control of the 
Entry and Exit of Aliens [Zhonghuarenmin gongheguo waiguoren rujing 
chujing guanlifa], enacted 22 November 85, art. 12.
    \32\ ``China Continues to Crack Down on HIV/AIDS Web Sites and 
Activists,'' Congressional-Executive Commission on China (Online), 25 
June 08.
    \33\ Chinese Human Rights Defenders (Online), ``Detained AIDS 
Activist Quietly Sentenced After Long Delay,'' 26 August 08.
    \34\ Aizhixing Research Institute, ``Call for Wang Xiaoqiao's 
Immediate Release without Conditions'' [Wang xiaoqiao an jintian 
kaiting women huyu liji wutiaojianshifang], reprinted in Boxun 
(Online), 12 June 08.
    \35\ Gao Shan, ``China AIDS Museum Website Shut Down by 
Authorities'' [Zhongguo aizibing buowuguan wangzhan zaodao guanbi], 
Radio Free Asia (Online), 7 May 08.
    \36\ See, e.g., Calum MacLeod, ``China Activists Harassed for 
Speaking on Human Rights,'' USA Today (Online), 27 May 08; ``Activists 
Complain of Harassment Before U.S., China Human Rights Talks,'' 
Associated Press (Online), 27 May 08; Human Rights in China (Online), 
``Press Release: HRIC Deplores Intimidation of Rights Activists Ahead 
of U.S.-China Talks on Human Rights,'' 27 May 08.
    \37\ ``Beijing Court Sentences Hu Jia to 3 Years 6 Months' 
Imprisonment,'' CECC China Human Rights and Rule of Law Update, March/
April 2008, 1; ``Beijing Court Tries Hu Jia, Official Abuses 
Reported,'' Congressional-Executive Commission on China (Online), 28 
March 08; ``Beijing Public Security Officials Formally Arrest Activist 
Hu Jia,'' CECC China Human Rights and Rule of Law Update, January 2008, 
2.
    \38\ Daniel Schearf, ``Chinese Authorities Prevent Multinational 
AIDS Rights Conference,'' Voice of America (Online), 29 July 07.
    \39\ Human Rights Watch (Online), ``Letter to Peter Piot, Executive 
Director of the Joint United Nations Programme on HIV/AIDS,'' 27 
September 07.
    \40\ Public Welfare Donations Law, enacted 28 June 99, effective 1 
September 99, arts. 24, 25, 26, 27; Corporate Income Tax Law 
[Zhonghuarenmin gongheguo qiyesuode shuifa], enacted 16 March 07, 
effective 1 January 08, art. 26(4).
    \41\ ``Companies Rush to Show Generosity Over China Earthquake,'' 
Agence France-Presse (Online), 2 June 08.
    \42\ See, e.g., CSR Guideline for State-Owned Enterprises (SOE) 
[Guanyu zhongyang qiye luxing shehui zeren de zhidao yijian], issued 12 
December 07; Geoffrey See, ``Harmonious Corporate Social Responsibility 
in China: More Prophesy Than Reality? '' ChinaCSR (Online), 12 June 08.
    \43\ ``Harmonious Society,'' People's Daily (Online), 29 September 
07.
    \44\ Christopher C. Pinney, Boston College Center for Corporate 
Citizenship (Online), ``Why China Will Define the Future Corporate 
Citizenship,'' February 2008.
    \45\ John Ruggie, ``Human Rights Policies of Chinese Companies: 
Results from a Survey,'' conducted under the mandate of the UN 
Secretary-General's Special Representative for Business and Human 
Rights, Business and Human Rights Resource Center (Online), September 
2007, 7.

    Notes to Section III--Institutions of Democratic Governance
    \1\ CECC, 2007 Annual Report, 10 October 07, 143-144.
    \2\ Walter C. Clemens Jr., ``China: Alternative Futures,'' 32 
Communist and Post-Communist Studies 1 (1999).
    \3\ CECC, 2007 Annual Report, 144.
    \4\ Li Lianjiang, ``The Politics of Introducing Direct Township 
Elections in China,'' 171 China Quarterly 704 (2002).
    \5\ ``Backgrounder: Key Facts and Figures about Rural Democracy,'' 
Xinhua (Online), 31 January 08.
    \6\ John L. Thornton, ``Long Time Coming: the Prospects for 
Democracy in China,'' Foreign Affairs, January/February 2008.
    \7\ Some experts also translate the phrase as ``public 
recommendation, public election.'' Joseph Fewsmith, ``Staying in Power: 
What Does the Chinese Communist Party Have to Do?,'' in China's 
Changing Political Landscape: Prospects for Democracy, ed. Cheng Li 
(Washington, DC: Brookings Institution Press, 2008), 222-223.
    \8\ Liu Zhaoyang, ``Highlights from `Open Recommendations, Direct 
Elections' Held for Party Organizations in 7 Eastern Communities in 
Jinan'' [Jinan qi dong shequ dang zuzhi `gongtui zhixuan' ceji], 
Xinhua, reprinted in Dazhong Ribao (Online), 17 April 08.
    \9\ Liu Zhaoyang, ``Highlights from `Open Recommendations, Direct 
Elections' ''; Wang Yongbing, ``A Survey of Open Recommendation, Direct 
Elections for Village and Town Committees in Sichuan's Pingchang 
County'' [Sichuan sheng pingchang xian xiangzhen dangwei gongtui 
zhixuan diaocha], 10 China Reform Magazine, reprinted in Jinyueya.cn 
(Online), 2007.
    \10\ ``City's Grassroots Party Organizations Launch Comprehensive 
Experiments with `Open Recommendation, Direct Elections' this Year'' 
[Benshi jiceng dangzuzhi jinnian quanmian shidian `gongtui zhixuan'], 
Liberation Daily (Online), 21 February 08; ``16 Villages/Communities 
Experiment with Open Recommendation, Direct Election of the Secretary 
of the Branch Party Organization'' [16 Ge cun/shequ shidian dang zuzhi 
shuji gongtui zhixuan], Southern Metropolitan Daily (Online), 14 March 
08; Xu Dekun, ``Breaking Through the Promotion by `Village Official' 
Way of Thinking: Our District Opens the Curtain on `Open 
Recommendation, Direct Election' for `Village Official' Work'' [Chongpo 
`cunguan' xuanba de siwei dingshi: wo qu lakai `gongtui, zhixuan' 
`cunguan' gongzuo xumu], Guangxi Daily (Online), 11 April 08.
    \11\ Liu Chaodan and Li Kai, ``Who Will Be the Town's Party 
Committee Secretary? Whoever Is Chosen by the Party Members and the 
Masses'' [Shei dang zhen dangwei shuji, dangyuan qunzhong shuo le 
suan], Guizhou Daily (Online), 28 April 08. For more information on 
electoral experiments held in Guiyang, the capital of Guizhou, see Sean 
Ding, ``Guiyang's Experiment with Democracy,'' Tips & Links, No. 37, 
China Elections and Governance (Online), 25 July 08.
    \12\ Feng Jianhua, ``Experimenting with Democracy: A Look at the 
Grass-roots Election in Yunnan Province,'' Beijing Review (Online), 25 
March 08.
    \13\ ``Ningbo: All Residents Committees Have Changed to Direct 
Election'' [Ningbo: shequ juwei quanbu gai zhixuan], People's Daily 
(Online), 15 January 08.
    \14\ Zhang Xianghe, `` `Village Official' Direct Elections'' 
[`Cunguan' Zhixuan], Hunan Daily (Online), 3 June 08.
    \15\ ``Backgrounder: Key Facts and Figures about Rural Democracy,'' 
Xinhua.
    \16\ ``Highlights: Report on Village Democracy in China, 10-29 June 
2008,'' Open Source Center, 29 June 08 (citing Anhui Daily, 23 June 08, 
report on `villager discussion' system in Hexing village, Guangde 
county).
    \17\ ``Democratic Management of Village Affairs Wins the People's 
Hearts'' [Minzhu guanli cunwu ying minxin], Jiangxi Daily (Online), 21 
June 08.
    \18\ ``Xingzi County's Innovative Decisionmaking System: Expanding 
Inner-Party Democracy'' [Xingzi chuangxin juece jizhi: kuoda dangnei 
minzhu], Jiangxi Daily (Online), 2 May 08.
    \19\ Wu Nanlan, ``Candidates' TV Debate a First for China,'' China 
Internet Information Center (Online), 3 April 08.
    \20\ Huang Shan, ``Migrant Workers' Deputies Voted in via Direct 
Elections,'' China Internet Information Center (Online), 8 November 07.
    \21\ Lu Xianbing, ``Direct Election of the District Residents 
Committees Passes 80 Percent,'' [Ge qu juweihui zhixuan jun chao ba 
cheng], Southern Metropolitan Daily (Online), 10 June 08; Lu Xianbing, 
``The First Direct Elections for Residents Committees to Happen This 
Year'' [Jinnian shouge zhixuan juweihui yansheng], Southern 
Metropolitan Daily (Online), 29 April 08.
    \22\ ``Candidates Campaign With Poise, District Government Foots 
the Bill: the Yantian Model of Community Grass-roots Democracy Matures 
with Each Passing Day in 2nd Direct Election'' [Houxuanren dadafangfang 
lapiao, quzhengfu tongtongkuaikuai chuqian: shequ jiceng minzhu 
`yantian moshi' liangci zhixuan zhong riqu chengshou], Southern 
Metropolitan Daily (Online), 29 May 08.
    \23\ Ye Minghua, ``Change of Leader of General Party Branch 
Attracts `After 80': Luohu's First Residents Committees Try Out `Double 
Direct Elections,' '' [Dang zongzhi huanjie xiyin ``80 hou'': Luohu 
shouge shequ dangzuzhi shixing ``shuang zhixuan''], Southern Daily 
(Online), 18 April 08.
    \24\ ``Shenzhen Reforms to District Head Elections Draw Foreign 
Attention, Sends Out Signal of a Special Political Zone'' [Shenzhen 
quzhang xuanju gaige yin haiwai guanzhu, shifang zhengzhi tequ xinhao], 
International Herald Leader (Xinhua), reprinted in Ouhai District 
Government (Online), 20 June 08; Edward Cody, ``Pioneering Chinese City 
Offers a Peek at Political Ferment,'' Washington Post (Online), 30 June 
08.
    \25\ The CCP's ``socialist democracy'' is not to be confused with 
democratic socialism, such as that of certain European countries, which 
is often praised by democratic advocates in China. Joseph Fewsmith, 
``Democracy is a Good Thing,'' 22 China Leadership Monitor, Fall 2007, 
5; Cody, ``Pioneering Chinese City.''
    \26\ Cody, ``Pioneering Chinese City''; Zhong Wu, ``A Shock to 
`Hand-Raising Robots' '' Asia Times (Online), 31 July 08; ``At the 
Forward Position of Opening & Reform: Shenzhen Wants To Play the Role 
of Head Soldier Again'' [Gaige kaifang de qianyan: Shenzhen yu zai 
banyan ``paitou bing'' juese], China.com, reprinted in China Union 
(Online), 29 July 08.
    \27\ Joseph Fewsmith, ``The 17th Party Congress: Informal Politics 
and Formal Institutions,'' 23 China Leadership Monitor, Winter 2008, 1-
2; Alice Miller, ``China's New Party Leadership,'' 23 China Leadership 
Monitor, Winter 2008, 1-7.
    \28\ ``Full Text of Report Delivered by Hu Jintao at 17th Party 
Congress,'' CCTV, 15 October 07 (Open Source Center, 15 October 07).
    \29\ Mure Dickie, ``Hu Promises Wider Party Democracy,'' Financial 
Times (Online), 15 October 07.
    \30\ State Council Information Office, White Paper on China's 
Political Party System, Xinhua, reprinted in China Daily (Online), 15 
November 07.
    \31\ Human Rights Watch (Online), ``Nipped in the Bud: The 
Suppression of the China Democracy Party,'' Vol. 12, No. 5, September 
00.
    \32\ State Council Information Office, White Paper on China's 
Efforts and Achievements in Promoting the Rule of Law, 28 February 08; 
``Analysis: PRC White Paper on Rule of Law Stresses Progress, Party 
Dominance,'' Open Source Center, 25 March 08.
    \33\ Andrew J. Nathan, ``China's Political Trajectory: What are the 
Chinese Saying?,'' in China's Changing Political Landscape: Prospects 
for Democracy, ed. Cheng Li (Washington, DC: Brookings Institution 
Press, 2008), 39.
    \34\ ``Full Text of Hu Jintao's Report at 17th Party Congress,'' 
Xinhua (Online), 24 October 07.
    \35\ ``New Measures To Promote Scientific Issuance of Laws, 
Democratic Issuance of Laws'' [Tuijin kexue lifa, minzhu lifa de xin 
jucuo], Xinhua (Online), 19 April 08.
    \36\ State Council Decision Regarding Strengthening City and County 
Governance According to Law [Guowuyuan guanyu jiaqiang shi xian zhengfu 
yifa xingzheng de jueding], issued 5 May 08, art. 7.
    \37\ See, e.g., Qianxinan Prefecture Temporary Measures on Hearings 
on Major Administrative Policies [Qianxi'nanzhou zhongda xingzheng 
juece tingzheng zhanxing banfa], issued 4 March 08.
    \38\ Li Xiaohua, He Shan, ``More Political Participation for 
Chinese Citizens,'' China.org.cn (Online), 15 January 08.
    \39\ ``Residents Try Their Hands at Lawmaking,'' China Daily 
(Online), 10 October 07.
    \40\ Ibid.
    \41\ ``China Publishes Draft Regulation on Food Safety to Solicit 
Public Opinion,'' Xinhua (Online), 21 April 08.
    \42\ PRC Legislation Law, enacted 15 March 00, art. 7.
    \43\ In September 2005, Xinhua reported that Chinese officials were 
considering revisions to the PRC Criminal Procedure Law in preparation 
for ratifying the International Covenant on Civil and Political Rights. 
``Amendments to Criminal Procedure Law Likely,'' Xinhua (Online), 8 
September 05.
    \44\ Jamie P. Horsley, ``China Adopts First Nationwide Open 
Government Information Regulations,'' Freedominfo.org (Online), 9 May 
07.
    \45\ ``China Commits to `Open Government Information' Effective May 
1, 2008,'' CECC China Human Rights and Rule of Law Update, May 2008, 2.
    \46\ Opinions on Several Questions Regarding the People's Republic 
of China Regulations on Open Government Information [Zhonghua renmin 
gongheguo zhengfu xinxi gongkai tiaoli ruogan wenti de yijian], issued 
30 April 08, art. 14; Horsely, ``China Adopts Open Government 
Information Regulations.''
    \47\ Among the problems cited in the 2007 Annual Report included a 
``state secrets'' exception that gives officials broad discretion to 
withhold information. CECC, 2007 Annual Report, 75.
    \48\ ``Open Information: Citizens' `Hot' and the Government's 
`Cold' Stand in Stark Contrast'' [Xinxi gongkai: gongmin ``re'' he 
zhengfu ``leng'' xingcheng xianming dui bi], China News Network 
(Online), 22 July 08; David Bandurski, ``China Newsweekly: Government 
`Cold' on `Information Openness,' '' China Media Project (Online), 31 
July 08.
    \49\ See, e.g., Qianxinan Prefecture Temporary Measures on Hearings 
on Major Administrative Policies, art. 6.
    \50\ Xiong Lei, ``Public Participation and Human Rights 
Guarantee,'' China Society for Human Rights Studies (Online), July 
2008.
    \51\ Qianxinan Prefecture Temporary Measures on Hearings on Major 
Administrative Policies, art. 30.
    \52\ Zhu Hongjun, ``First Public Response from Xiamen Officials, 
What Happened Behind the Scenes of Public Participation? '' [Xiamen 
guanfang shouci gongkai huiying gongzhong canyu beihou fasheng shenme?] 
Southern Weekend (Online), 19 December 07; Joey Liu, ``Xiamen Residents 
say No to Toxic Plant,'' South China Morning Post, 15 December 07 (Open 
Source Center, 15 December 07); Wang Er, ``Xiamen Again Says `No' to PX 
Project,'' Caijing (Online), 19 December 07.
    \53\  Cai Dingjian, ``Making Room for Public Participation,'' China 
Daily (Online), 21 January 08.

    Notes to Section III--Commercial Rule of Law
    \1\ A complete and up-to-date compilation of key information on 
China's participation in the World Trade Organization [hereinafter 
WTO], including principal accession documents (Working Party report, 
protocol of accession, General Council decision), schedules, trade 
policy reviews and dispute case documents can be found at the WTO web 
site at www.wto.org.
    \2\ Ibid. See also Office of the United States Trade Representative 
[hereinafter USTR] Web site at www.ustr.gov.
    \3\ Barbara Demick, ``China Tightens Visa Restrictions as Olympics 
Near,'' Los Angeles Times (Online), 1 July 08; ``China Toughens Visa 
Policies Before Olympics,'' Associated Press (Online), 6 May 08.
    \4\ ``New Measures To Promote Scientific Issuance of Laws, 
Democratic Issuance of Laws'' [Tuijin kexue lifa, minzhu lifa de xin 
jucuo], Xinhua (Online), 19 April 08.
    \5\ ``Supreme People's Court Publishes Draft Judicial 
Interpretation of the Property Law for Public Comment,'' Supreme 
People's Court (Online), 6 June 08.
    \6\ U.S. Department of Treasury (Online), ``Joint U.S.-China Fact 
Sheet, Fourth U.S.-China Strategic Economic Dialogue,'' 18 June 08.
    \7\ PRC Anti-Monopoly Law (AML), issued 30 August 07, effective 1 
August 08. See also ``Anti-Monopoly Law Enforcement: Rough Road Ahead'' 
[Fan longduan zhifa qianlu qiqu], Caijing (Online), 21 July 08. For 
commentary in English on the AML and an unofficial English translation, 
see Nathan Bush, ``The PRC Antimonopoly Law: Unanswered Questions and 
Challenges Ahead,'' Antitrust Source (Online), October 2007. See also 
Xiaoye Wang, ``Highlights of China's New Anti-Monopoly Law,'' 75 
Antitrust Law Journal, no. 1, 133 (2008). A number of implementing 
rules and regulations are in the pipeline, but some were issued around 
the time the AML took effect, including: Rules of the State Council on 
Notification Thresholds for Concentrations of Undertakings [Guowuyuan 
guanyu jingyingzhe jizhong shenbao biaozhun de guiding], adopted 1 
August 08, issued and effective 3 August 08, and Supreme People's Court 
Notice on Serious Study and Implementation of the PRC Anti-Monopoly Law 
[Zuigao renmin fayuan guanyu renzhen xuexi he guanche zhonghua renmin 
gongheguo fanlongduan fa de tongzhi], issued and effective 28 July 08. 
See also Chen Yonghui, ``Circular of the Supreme People's Court 
Requires Conscientiously Hearing All Kinds of Anti-Monopoly Cases 
According to Law'' [Zuigao renmin fayuan tongzhi yaoqiu qieshi yifa 
shenlihao gelei fanlongduan anjian], Supreme People's Court (Online), 
31 July 08.
    \8\ ``Anti-Monopoly Law Commission in Force,'' China Daily 
(Online), 16 July 08.
    \9\ Andrew Batson, ``China Creates Antitrust Commission,'' Wall 
Street Journal (Online), 15 September 08.
    \10\ PRC Anti-Unfair Competition Law, issued 2 September 93, 
effective 1 December 93. Specifically, Articles 6 (exclusive dealing by 
firms in a dominant market position), 11 (predatory pricing,), 12 (tied 
selling), and 15 (bid rigging).
    \11\ PRC Price Law, issued 29 December 97, effective 1 May 98. 
Specifically, Articles 14(1) (price-fixing) and 14(2) (predatory 
pricing).
    \12\ Guo Xiaoyu, `` `The Economic Constitution' A Sword Pointing at 
Monopoly Behavior'' [``Jingji xianfa'' jian zhi longduan xingwei], 
Legal Daily (Online), 26 August 07. See also Paul Jones, ``China's New 
Anti-Monopoly Law: An Economic Constitution for the New Market Economy? 
'' 3 China Law Reporter 5 (September 2007), 3.
    \13\ Jones, ``China's New Anti-Monopoly Law.''
    \14\  AML, art. 5.
    \15\ AML, art. 7. (Article 7 provides that, ``in industries that 
implicate national economic vitality and national security, which are 
controlled by state-owned enterprises, and in industries in which there 
are legal monopolies, the state shall protect the lawful business 
activities of those enterprises, supervise and control their conducts 
and prices for the products and services pursuant to law, protect the 
interests of consumers, and promote technological progress.'') SOEs 
account for 35 percent of China's GDP and enjoy monopoly positions in 
some sectors. World Trade Organization (Online), Trade Policy Review 
Report by the Secretariat China, 16 April 08, xi-xii.
    \16\ See, for example: Yang Fan, ``Are M&As Suffocating Chinese 
Businesses? '' Beijing Review (Online), 4 June 07; ``Chinese Lawmakers 
Call for Cautious Handling of Foreign Mergers,'' Xinhua, reprinted in 
People's Daily (Online), 4 March 07; ``Improved Laws Sought on M&A by 
Foreign Firms,'' Shanghai Daily, 5 March 07; Wang Jun, ``A Law To Curb 
Monopoly-Finally,'' Beijing Review, 13 July 06. Previously existing 
regulations on mergers and acquisitions by foreign firms include 
Regulations on Acquisitions of Domestic Enterprises by Foreign 
Investors, issued on 6 August 06, effective 8 September 06 (issued 
jointly by the Ministry of Commerce, the State Assets Supervision and 
Administration Commission, the State Taxation Administration, the State 
Administration for Industry and Commerce, the China Securities 
Regulatory Commission, and the State Administration of Foreign 
Exchange), superseding Temporary Regulations on Mergers and 
Acquisitions of Domestic Enterprises by Foreign Investors, issued 7 
March 03.
    \17\ Jones, ``China's New Anti-Monopoly Law, 10.
    \18\ Zhu Tao, ``Antitrust Claim Puts State Agency on Trial,'' 
Caijing (Online), 27 August 08; CECC Staff Interviews.
    \19\ ``Microsoft Faces an Antitrust Investigation,'' Caijing 
(Online), 26 August 08.
    \20\ United States Trade and Development Agency, ``USTDA Initiative 
Promotes U.S.-China Cooperation Towards Effective Anti-Monopoly Law 
Implementation,'' 7 March 08.
    \21\ AML, art. 31.
    \22\ See Steve Dickinson, ``National Security Review Under China's 
New Anti-Monopoly Law,'' China Law Blog (Online), 29 August 08; Jason 
Subler, ``China's Landmark Antimonopoly Law Finally Taking Effect,'' 
Reuters, reprinted in International Herald Tribune (Online), 31 July 
08. For a useful compilation of quotes expressing concern, see ``PRC's 
Anti-Monopoly Law: Well-known Trademarks and Traditional Chinese Brands 
Are Part of National Security,'' IP Dragon, 1 September 08. See also 
``Anti-Monopoly Civil Cases To Be Decided by Intellectual Property 
Courts'' [Fan longduan minshi an guikou zhishichanquanting shenpan], 
Caijing (Online), 31 July 08.
    \23\ Supreme People's Court Notice on Serious Study and 
Implementation of the PRC Anti-Monopoly Law; ``Anti-Monopoly Civil 
Cases,'' Caijing.
    \24\ State Council, Outline of the National Intellectual Property 
Strategy, 5 June 08; China's State Intellectual Property Office, Fully 
Implement the National Intellectual Property Strategy, 13 June 08; 
Ministry of Commerce, National Office of Rectification and 
Standardization of Market Economic Order, and State Intellectual 
Property Office, China's Action Plan on IPR Protection 2008, 18 March 
08.
    \25\ State Council, Outline of the National Intellectual Property 
Strategy. Paragraphs 16, 53, 59, 61, 63, for example.
    \26\ Office of the United States Trade Representative, 2008 Special 
301 Report, 21, 25, 30, 31.
    \27\ Section 4, paragraph 29 constitutes the entire section on 
trade secrets, quoted here in its entirety: ``Guide market entities in 
establishing a trade secret management system in accordance with law. 
The behavior of stealing trade secret should be severely punished in 
accordance with law. Properly balance the need for protecting trade 
secret and the freedom to choose employment and balance non-competition 
undertaken by insiders and the need for normal personnel flow to 
safeguard employees' lawful rights and interests.'' State Council, 
Outline of the National Intellectual Property Strategy.
    \28\ The PRC Labor Contract Law (articles 23, 24) restricts the use 
of non-competition agreements. Only senior managers and employees with 
access to trade secrets can be required to sign. Moreover, agreements 
may not remain valid for more than two years, may apply only within a 
reasonably limited geographic area and employers must compensate the 
employee for being bound by the agreement during the time it is in 
effect. PRC Labor Contract Law, adopted 29 June 07, arts. 23, 24.
    \29\ The NPC published proposed amendments to the patent law on its 
Web site asking for comments on September 8, 2008.
    \30\ State Council, Outline of the National Intellectual Property 
Strategy, Section V(iv), paragraph 45.
    \31\ Office of the United States Trade Representative, 2008 Special 
301 Report, 2, 10, 19.
    \32\ World Trade Organization, Trade Policy Review Report.
    \33\ Office of the United States Trade Representative Closing 
Statement of the United States of America at the First Substantive 
Meeting of the Panel, China --Measures Affecting The Protection And 
Enforcement Of Intellectual Property Rights, WT/DS362, 16 April 08, 
paragraph 16.
    \34\ Ibid., paragraph 17, 23.
    \35\ Office of the United States Trade Representative, 2008 Special 
301 Report, 21.
    \36\ Ibid., 22; CECC, 2007 Annual Report, 155.
    \37\ Office of the United States Trade Representative, 2008 Special 
301 Report, 10.
    \38\ Guizhou Province Intellectual Property Rights Highlights for 
2008 [2008 Nian guizhou zhishi chanquan gongzuo yaodian], State 
Intellectual Property Office (Online), 6 June 08, referring to Guizhou 
Province Regulations on the Protection of Intellectual Property Rights 
Over Traditional Knowledge [Guizhou sheng chuantong zhishi 
zhishichanquan baohu tiaoli]. See also Guizhou Province Intellectual 
Property Strategy Outline (2006-2015) [Guizhou sheng zhishi chanquan 
zhanlue gangyao (2006-2015)] issued 29 August 2006; ``Prospects for the 
Development of Protection of Intellectual Property Rights Over 
Traditional Knowledge in Guizhou'' [Guizhou kaizhan chuantong zhishi 
chanquan baohu difang lifa de kexing xing] Guizhou Province 
Intellectual Property Office (Online), no date; ``Guizhou Province 
Officially Launches Legislative Research on the Protection of 
Intellectual Property Rights Over Traditional Knowledge'' [Guizhou 
zhengshi hudongsheng chuantong zhishi zhishi chanquan baohu lifa 
diaoyan gongzuo] China Biodiversity IP News Online. 23 Feb 06; 
``Protecting Traditions,'' Xinhua, reprinted in State Intellectual 
Property Office (Online), 7 January 08; Richard Stone, ``Chinese 
Province Crafts Pioneering Law To Thwart Biopiracy,'' Science, 9 May 
08; ``Guizhou Province Drafts Regulation To Protect Traditional 
Knowledge,'' IP Dragon (Online), 8 March 07; ``China Moves To Protect 
Traditional Knowledge,'' Xinhua, 3 March 07; ``Province Crafts New Law 
To Protect Traditional Arts, Medicine,'' Xinhua (Online), 24 December 
07.
    \39\ ``Guizhou is regarded as an undeveloped province. Its 
scientific level is relatively low, but it's rich in traditional 
knowledge. Because we lack the means to turn knowledge into innovation, 
we have to protect the knowledge for future development,'' Guizhou 
Intellectual Property Office Deputy Director quoted in Stone, ``Chinese 
Province Crafts Pioneering Law.''
    \40\ ``China's New Draft Patent Law: Comment from GRAIN,'' GRAIN 
(Online), 25 September 08. (``As it stands, the draft provides no 
safeguards, no restrictions, against outright `biopiracy' in terms of 
traditional knowledge.'') ``GRAIN is an international non-governmental 
organisation which promotes the sustainable management and use of 
agricultural biodiversity based on people's control over genetic 
resources and local knowledge.'' (www.grain.org/about/).
    \41\ Ibid. (``. . . as soon as these laws start talking about 
traditional knowledge, for example based on trade agreements, it can 
mean the government is starting to treat traditional knowledge as 
intellectual property. But the reality is that the Chinese government 
is keen to convert the nation's wealth of traditional medicinal 
knowledge into tangible `benefits.' '').
    \42\ According to environmental lawyer Shalini Bhutani, ``[a]n IP 
system inherently based on private rights may not have solutions for 
the `protection' of traditional knowledge, which is a shared 
heritage.'' Quoted by Stone, ``Chinese Province Crafts Pioneering 
Law.''
    \43\ ``(T)raditional knowledge only means traditional scientific 
knowledge. But our understanding is that it also includes traditional 
culture,'' the Guizhou Intellectual Property Office Deputy Director is 
reported to have said. See Ibid.
    \44\ ``MOFCOM Minister Calls for `Special War' on Product 
Quality,'' China Daily, 27 August 07; `` `Special War' Launched To 
Raise Quality in China,'' China Daily, 24 August 07.
    \45\ CECC, 2007 Annual Report, 168-179.
    \46\ PRC Food Hygiene Law, issued 30 October 95; ``China's Chief 
Quality Supervisor Resigns Amid Public Grumbles Over Tainted Milk,'' 
Xinhua (Online), 22 September 08.
    \47\ ``China's Chief Quality Supervisor Resigns,'' Xinhua.
    \48\ PRC Civil Servant Law, issued 27 April 05, effective 1 January 
06.
    \49\ Regulations on the Punishment of Civil Servants of 
Administrative Organs [Xingzheng jiguan gongwuyuan chufen tiaoli], 
issued 22 April 07, effective 6 January 07.
    \50\ See, e.g., David Barboza, ``China Detains 19 as Toxic Formula 
Sickens Hundreds of Infants,'' New York Times (Online), 14 September 
08; Joe McDonald, ``Chinese Dairy Knew Milk Fault Weeks Before 
Recall,'' 13 September 08; ``China Dairy Firm Knew of Toxic Milk for 
Months: State Media,'' Agence France-Presse, 23 September 08.
    \51\ ``Propaganda Officials Issue 21 Restrictions on Domestic 
Coverage of Olympics,'' Congressional-Executive Commission on China 
(Online), 22 August 08.
    \52\ See, e.g., ``China Food Safety Law To Allow for Life in 
Jail,'' Reuters (Online), 20 April 08; Henry Sanderson, ``China 
Proposes Food Safety Laws,'' Christian Science Monitor (Online), 23 
April 08; ``China Publishes Draft Regulation on Food Safety to Solicit 
Public Opinion,'' Xinhua (Online), 21 April 08; ``China's Top 
Legislator Promises More Public Participation in Food Safety 
Legislation,'' Xinhua, 8 March 08.
    \53\ ``China's Top Lawmakers To Review Food Safety Law: State 
Media,'' Agence France-Presse (Online), 18 August 08.
    \54\ CECC, 2007 Annual Report, 165.
    \55\ Ministry of Land and Resources, Land Registration Measures 
[Tudi dengji banfa], issued 30 December 07, effective 1 February 08.
    \56\ Ashley Howlett and Li Hong, ``New Registration Measures 
Provide Clarity for China Land Owners,'' China Law and Practice 
(Online), May 2008.
    \57\ Land Registration Measures, art. 75.
    \58\ Another noteworthy land and property-related regulation that 
took effect during 2008 is the State Council's Circular on Promoting 
Land Conservation and Improving the Efficiency of Land Use [Guanyu 
cujin jieyue jiyue yong di de tongzhi], January 3, 2008. See Paul D. 
McKenzie, Gregory Sin Oon Tan, `` `New' Regulations on Land 
Conservation in the Peoples' Republic of China,'' Morrison & Foerster 
LLP (Online), 25 August 08.
    \59\ PRC Urban and Rural Planning Law, issued 28 October 07, 
effective 1 January 08.
    \60\ PRC Urban Planning Law [Chengshi guihua fa], issued 26 
December 89, effective 1 April 90, replaced as of 1 January 08 by the 
new PRC Urban and Rural Planning Law [Cheng xiang guihua fa] (see note 
59).
    \61\ ``Supreme People's Court Publishes Draft Judicial 
Interpretation of the Property Law,'' Supreme People's Court.
    \62\ Articles of Agreement of the International Monetary Fund, July 
22, 1944, art. IV-- Obligations Regarding Exchange Arrangements, 
Section 1--General Obligations of Members, subsection (iii), 
International Monetary Fund (Online).
    \63\ Michael Mussa, ``IMF Surveillance over China's Exchange Rate 
Policy,'' in Debating China's Exchange Rate Policy, eds. Morris 
Goldstein and Nicholas R. Lardy, (Washington D.C.: Peterson Institute 
for International Economics, April 2008), 62.
    \64\ ``Comments by Steven Dunaway, Deputy Director, Asia and 
Pacific Department of the International Monetary Fund, on a paper: IMF 
Surveillance Over China's Exchange Rate by Michael Mussa, at the 
Peterson Institute Conference on China's Exchange Rate Policy,'' 
International Monetary Fund (Online), 19 October 07.
    \65\ Goldstein, ``China's Exchange Rate Policy,'' 17; Mussa, ``IMF 
Surveillance over China's Exchange Rate Policy,'' 71.
    \66\ CECC, 2007 Annual Report, 163-164.
    \67\ Arculli Fong & Ng/King and Wood, ``China: New Implementing 
Regulations and Notice in Respect of the PRC Enterprise Income Tax 
Law,'' International Tax Review (Online), February 08; Stephen Nelson, 
``The PRC Enterprise Income Tax Law and its Impact on Foreign 
Investments,'' 3 China Law Reporter, May 2007.
    \68\ World Trade Organization (Online), Member Information, ``China 
and the WTO,'' www.wto.org/english/thewto--e/countries--e/china--e.htm, 
last visited 9 October 08.
    \69\ World Trade Organization (Online), Disputes DS339 (European 
Communities) DS340 (United States) and DS342 (Canada), China--Measures 
Affecting Imports of Automobile Parts WTO Doc. Nos. 08-3275, 08-3276 
and 08-3277, 18 July 08.
    \70\ Ibid.
    \71\ World Trade Organization (Online), Disputes DS339 (European 
Communities) DS340 (United States) and DS342 (Canada), China--Measures 
Affecting Imports of Automobile Parts, Notification of an Appeal by the 
People's Republic of China, WTO Doc. No. 08-4387, 22 September 08.
    \72\ World Trade Organization (Online), Dispute DS363, China--
Measures Affecting Trading Rights and Distribution Services for Certain 
Publications and Audiovisual Entertainment Products, Constitution of 
the Panel Established at the Request of the United States, WTO Doc. 
No.08-1380, 28 March 08; Request for the Establishment of a Panel by 
the United States, WTO Doc. No. 07-4406, 11 October 07.
    \73\ World Trade Organization (Online), Dispute DS363, China--
Measures Affecting Trading Rights and Distribution Services for Certain 
Publications and Audiovisual Entertainment Products, Communication from 
the Chairman of the Panel, WTO Doc. No. 08-4453, 23 September 08.
    \74\ World Trade Organization (Online), China--Measures Affecting 
Financial Information Services and Foreign Financial Information 
Suppliers., Disputes DS372 and DS373, Request for Consultations by the 
European Communities, WTO Doc. No. 08-0979, 5 March 08, Request for 
Consultations by the United States, WTO Doc. No. 08-0981, 5 March 08.
    \75\ World Trade Organization (Online), Dispute DS373, China--
Measures Affecting Financial Information Services and Foreign Financial 
Information Suppliers, Request for Consultations by the United States, 
WTO Doc. No. 08-0981, 5 March 08.
    \76\ Ibid.
    \77\ World Trade Organization (Online), Dispute DS378, China--
Measures Affecting Financial Information Services and Foreign Financial 
Information Suppliers, Request for Consultations by the Canada, WTO 
Doc. No. 08-2985, 23 June 08.
    \78\ World Trade Organization (Online), Dispute DS378, China--
Measures Affecting Financial Information Services and Foreign Financial 
Information Suppliers, Request to Join Consultations, Communication 
from the United States, WTO Doc. No. 08-3221, 4 July 08.
    \79\ See, e.g., World Trade Organization (Online), Dispute DS362, 
``China -- Measures Affecting the Protection and Enforcement of 
Intellectual Property Rights,'' Constitution of the Panel Established 
at the Request of the United States, Note by the Secretariat, WTO Doc. 
No. 07-5564. 13 December 07; United States Trade Representative (USTR) 
(Online), ``WTO Case Challenging Weaknesses in China's Legal Regime for 
Protection and Enforcement of Copyrights and Trademarks,'' Trade 
Delivers, April 2007; USTR (Online), ``United States Files WTO Cases 
Against China Over Deficiencies in China's Intellectual Property Rights 
Laws and Market Access Barriers to Copyright-Based Industries,'' 9 
April 07.
    \80\ World Trade Organization (Online), Dispute DS362, ``China -- 
Measures Affecting the Protection and Enforcement of Intellectual 
Property Rights,'' Communication from the Chairman of the Panel, WTO 
Doc. No. 08-3478, 18 July 08.
    \81\ World Trade Organization (Online), Dispute DS358, China -- 
Certain Measures Granting Refunds, Reductions or Exemptions from Taxes 
and Other Payments, Request for the Establishment of a Panel by the 
United States, WTO Doc. No. 07-2980, 13 July 2007; Request for the 
Establishment of a Panel by Mexico, WTO Doc. No., 07-3005, 13 July 
2007. See also USTR (Online), ``United States Requests WTO Panel in 
Challenge to China's Prohibited Subsidies,'' 12 July 07; USTR (Online), 
``United States Files WTO Case Against China Over Prohibited 
Subsidies,'' 2 February 07.
    \82\ World Trade Organization (Online), Dispute DS358, China -- 
Certain Measures Granting Refunds, Reductions or Exemptions from Taxes 
and Other Payments, Request for the Establishment of a Panel by the 
United States. World Trade Organization Document Number 07-2980, 13 
July 07; World Trade Organization (Online), Dispute DS359, China -- 
Certain Measures Granting Refunds, Reductions or Exemptions from Taxes 
and Other Payments, Request for the Establishment of a Panel by Mexico, 
WTO Doc. No. 07-3005, 13 July 07. See also Frances Williams, ``WTO 
Probes China's Export Subsidy Claims,'' Financial Times (Online), 31 
August 07.
    \83\ World Trade Organization (Online), Dispute DS358, China -- 
Certain Measures Granting Refunds, Reductions or Exemptions from Taxes 
and Other Payments, Communication from China and the United States, WTO 
Doc. No. 08-0025, 4 January 08.
    \84\ World Trade Organization, Dispute DS359, China -- Certain 
Measures Granting Refunds, Reductions or Exemptions from Taxes and 
Other Payments. Communication from China and Mexico, WTO Doc. No. 08-
0639, 13 February 08.
    \85\ A full list of outcomes from the 19th JCCT may be found at: 
http://www.commerce.gov/NewsRoom/PressReleases--FactSheets/PROD01--
007242.

    Notes to Section III--Access to Justice
    \1\ See Carl Minzner, ``Xinfang: An Alternative to Formal Chinese 
Legal Institutions,'' 42 Stanford Journal of International Law 103, 
151-57 (2006).
    \2\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217 A (III) of 10 December 48, art. 8 
[hereinafter UDHR]; International Covenant on Civil and Political 
Rights, adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 9 [hereinafter ICCPR].
    \3\ ICCPR, art. 2.
    China has signed, but has not yet ratified, the ICCPR. The Chinese 
government has committed itself to ratifying, and thus bringing its 
laws into conformity with the ICCPR and reaffirmed its commitment as 
recently as March 18, 2008, when Premier Wen Jiabao told a press 
conference that China is ``conducting interagency coordination to 
address the issue of compatibility between China's domestic laws and 
international law so as to ratify the [ICCPR] as soon as possible.'' 
Ministry of Foreign Affairs (Online), ``Premier Wen Jiabao Answered 
Questions at Press Conference,'' 18 March 08. China's top leaders have 
previously stated on at least four separate occasions that they are 
preparing for ratification of the ICCPR, including on April 13, 2006, 
in China's application for membership in the UN Human Rights Council in 
a September 6, 2005, statement by Politburo member and State Councilor 
Luo Gan at the 22nd World Congress on Law, in statements by Premier Wen 
during his May 2005 Europe tour, and in a January 27, 2004 speech by 
Chinese President Hu Jintao before the French National Assembly.
    \4\ Measures on the Payment of Litigation Costs [Susong feiyong 
jiaona banfa], issued 19 December 06, effective 4 January 07.
    \5\ Measures for the Administration of Lawyers' Fees [Lushi fuwu 
shoufei guanli banfa], issued 13 April 06, effective 1 December 06.
    \6\ Human Rights Watch (Online), ``Walking on Thin Ice'': Control, 
Intimidation and Harassment of Lawyers in China, April 2008.
    \7\ Ibid., 55.
    \8\ Ibid., 62.
    \9\ Ibid., 13-14.
    \10\ Ibid., 87-88.
    \11\ Chinese Human Rights Defenders (Online), ``Tibetans Sentenced 
without Fair Trial; Lawyers Offering Aid Face Punishment,'' 2 May 08.
    \12\ See, e.g., ``Human Rights in China (Online), ``Chinese 
Authorities Target Lawyers Offering Legal Assistance to Tibetans,'' 9 
April 08; Cheng Hai, ``21 Mainland Lawyers Willing to Offer Legal 
Assistance to Detained Tibetans'' [21 ming dalu lushi yuanyi wei bei bu 
zangmin tigong falu bangzhu], Canyu, reprinted in Boxun (Online), 8 
April 08.
    \13\ ``Lawyers Face Loss of Licenses After Offer to Tibetans,'' 
South China Morning Post (Online), 10 May 08; Human Rights Watch 
(Online), ``Tibetan Protestors Denied Fair Trial: Sentenced in Secret 
After Party Urges `Quick Hearings,' '' 30 April 08; ``Judges and 
Lawyers: Rioters in Lhasa Unrest Receive Fair Trial,'' Xinhua (Online), 
1 May 08.
    \14\ ``Lawyers Face Loss of Licenses After Offer to Tibetans,'' 
South China Morning Post.
    \15\ Chinese Human Rights Defenders, ``Tibetans Sentenced without 
Fair Trial''; Human Rights Watch, ``Walking on Thin Ice,'' 62 (quoting 
a Beijing lawyer who had volunteered to represent Tibetans detained in 
the wake of protests in Lhasa: ``We were warned not to represent 
Tibetans.'').
    \16\ Chinese Human Rights Defenders, ``Tibetans Sentenced Without 
Fair Trial.''
    \17\ Jiang Tianyong, China Human Rights Lawyers Concern Group 
(Online), ``Victory for Rule of Law--My Lawyer's License Has Been 
Renewed'' [Fazhi de shengli--wo yi tongguo lushi zhiyezheng nianjian 
zhuce], 30 June 08.
    \18\ ``China Slaps Ban on Lawyers Who Offered Legal Aid to 
Tibetans,'' Agence France-Presse (Online), 4 June 08.
    \19\ See, e.g., ``Milk Scandal: Government Fears Social Protests, 
Threatens Lawyers,'' AsiaNews.it, 23 September 08; Peter Ford, ``What 
China's Tainted Milk May Not Bring: Lawsuits,'' Christian Science 
Monitor (Online), 22 September 08.
    \20\ Edward Wong, ``Courts Compound Pain of China's Tainted Milk,'' 
New York Times (Online), 16 October 08.
    \21\ ``Milk Parents May Sue in U.S.,'' Radio Free Asia (Online), 22 
October 08; Ye Doudou, ``When Calamity Strikes, Who Should Pay? '' 
Caijing (Online), 7 October 08.
    \22\ Minnie Chan, ``Don't Aid Milk-Scandal Victims, Lawyers 
Urged,'' South China Morning Post (Online), 8 October 08.
    \23\ Gillian Wong, ``Chinese Lawyers Face Pressure To Drop Milk 
Cases,'' Associated Press (Online), 7 October 08.
    \24\ Ng Tze-wei, ``Lawyers Warned to Shun Milk Suits,'' South China 
Morning Post (Online), 23 September 08.
    \25\ Ye Doudou, ``When Calamity Strikes, Who Should Pay? ''
    \26\ Ng Tze-wei, ``Lawyers Warned to Shun Milk Suits.''
    \27\ See, e.g., Chan, ``Don't Aid Milk-Scandal Victims''; Ng Tze-
wei, ``Sanlu Court Action Put on Hold,'' South China Morning Post 
(Online), 16 October 08.
    \28\ ``Sanlu Suit Gets Cool Reception in Court,'' South China 
Morning Post (Online), 9 October 08.
    \29\ Ng Tze-wei, ``Sanlu Court Action Put on Hold.''
    \30\ Ng Tze-wei, ``Sanlu Court Action Put on Hold''; PRC Civil 
Procedure Law, enacted 9 April 91, amended 28 October 07, art. 112.
    \31\ See, e.g.,Wong, ``Courts Compound Pain of China's Tainted 
Milk''; Ford, ``What China's Tainted Milk May Not Bring: Lawsuits.''
    \32\ Under the national Regulations on Letters and Visits, citizens 
may ``give information, make comments or suggestions, or lodge 
complaints'' to xinfang (letters and visits) bureaus of local 
governments and their departments. Regulations on Letters and Visits 
[Xinfang tiaoli], issued 10 January 05, arts. 3, 6.
    \33\ PRC Administrative Reconsideration Law, enacted 29 April 99, 
arts. 6, 14.
    \34\ PRC Administrative Litigation Law, enacted 4 April 89, arts. 
11, 12.
    \35\ PRC State Compensation Law, enacted 12 May 94, art. 9.
    \36\ Parents in Dujiangyan, for example, tried to file a lawsuit in 
which they sought compensation and an apology from the government. The 
court refused to accept their suit. One parent told the Associated 
Press, ``We tried the law, and if the law can't solve the problem, how 
do we solve it? '' Cara Anna, ``China Cordons Off Schools Collapsed by 
Quake,'' Associated Press (Online), reprinted in Yahoo!, 4 June 08. 
Some parents who engaged in protests outside local government buildings 
were beaten up, and others were detained. See ``Police Detain Parents 
After China Quake City Protest,'' Reuters (Online), 21 June 08.
    \37\ Minzner, ``Xinfang: An Alternative to Formal Chinese Legal 
Institutions,'' 115-16.
    \38\ Regulations on Letters and Visits, arts. 3, 6.
    \39\ Chinese Human Rights Defenders, China Human Rights Yearbook 
2007-2008 (August 2008), 40.
    \40\ CECC, 2007 Annual Report, 38.
    \41\ Ibid.
    \42\ Chinese Human Rights Defenders, China Human Rights Yearbook 
2007-2008, 40 (reproducing report titled ``Silencing Complaints: Human 
Rights Abuses Against Petitioners in China,'' 14 March 08).
    \43\ See, e.g., Mark Magnier, ``Fun May Be a Casualty of Beijing's 
Effort at Perfect Olympic Games,'' Los Angeles Times (Online), 26 July 
08; Willy Lam, ``China Tries to Put Its Best Face Forward,'' Asia Times 
(Online), 6 August 08.
    \44\ See, e.g., Willy Lam, ``The CCP Strengthens Control Over the 
Judiciary,'' China Brief (Online), 3 July 08; Jerome Cohen, ``Body Blow 
for the Judiciary,'' South China Morning Post (Online), 18 October 08.
    \45\ Human Rights Watch, ``Walking on Thin Ice.''
    \46\ Supreme People's Court Circular on Completing Trial Work 
During the Earthquake Disaster Relief Period to Earnestly Safeguard 
Social Stability in the Disaster Area [Zuigao renmin fayuan guanyu yifa 
zuohao kangzhen jiu zaiqijian shenpan gongzuo qieshi weihu zai qu 
shehui wending de tongzhi], issued 26 May 2008.
    \47\ Ibid.
    \48\ PRC Emergency Response Law, issued 30 August 2007.
    \49\ Lam, ``The CCP Strengthens Control Over the Judiciary''; 
Cohen, ``Body Blow for the Judiciary.''
    \50\ Lam, ``The CCP Strengthens Control Over the Judiciary.''
    \51\ Ibid.
    \52\ ``Wang Shengjun Elected China's Top Judge,'' Xinhua, reprinted 
in China Legal Publicity (Online), 16 March 08.
    \53\ Lam, ``The CCP Strengthens Control Over the Judiciary.''
    \54\ State Council Information Office, White Paper on China's 
Efforts and Achievements In Promoting the Rule of Law, Xinhua (Online), 
28 February 08.
    \55\ Ibid.
    \56\ ``New Plan To Improve Anti-corruption System,'' Xinhua 
(Online), 14 December 07.
    \57\ ``Chinese Premier Pledges Renewed Fight Against Corruption, 
Singles Out Government Officials,'' Associated Press, reprinted in 
International Herald Tribune (Online), 1 May 08.
    \58\ ``CPC Publicizes Five-year Anti-Corruption Plan,'' Xinhua 
(Online), 23 June 08.
    \59\ ``China Vows No Mercy to Corruption,'' Xinhua, reprinted in 
PRC Central Government (Online), 10 March 08.
    \60\ Ibid.
    \61\ See, e.g., Xie Chuanjiao, ``Corruption Prosecution A New 
High,'' China Daily (Online), 10 July 08; ``Former Shanghai Party Chief 
Gets 18-Year Term for Bribery,'' Xinhua, 11 April 08 (Open Source 
Center, 11 April 08); Wang Heyan, et al., ``End of the Line for a 
Shanghai Scandal,'' Caijing (Online), 1 April 08.
    \62\ Xie Chuanjiao, ``Chief Judge Pledges to Fight Judicial 
Corruption,'' China Daily (Online), 24 March 07.
    \63\ ``(Two Sessions Authorized Release) Supreme People's Court 
Report,'' Xinhua, 22 March 08 (Open Source Center, 22 March 08).
    \64\ Vivian Wu, ``High Court Judge Placed Under Party 
Investigation,'' South China Morning Post (Online), 18 October 08; 
Zhang Lisheng, ``Court Director Investigated: Report,'' China Daily 
(Online), 11 July 08.

    Notes to Section IV--Xinjiang
    \1\ See, e.g., CECC, 2007 Annual Report, 10 October 07, 106-108; 
CECC, 2006 Annual Report, 20 September 06, 90-91; CECC, 2005 Annual 
Report, 11 October 05, 21-23.
    \2\ For detailed information, including information on China's 
domestic and international obligations toward ethnic minorities, see 
Section II--Ethnic Minority Rights, as well as the section on ``Ethnic 
Minority Rights'' in CECC, 2007 Annual Report, 105-108 and ``Special 
Focus for 2005: China's Minorities and Government Implementation of the 
Regional Ethnic Autonomy Law,'' CECC, 2005 Annual Report, 13-23.
    \3\ The government has long claimed the continued existence of 
terrorist and separatist threats through spurious statistics and shoddy 
factual support. For an analysis of Chinese reporting on terrorist 
activity, see ``Uighurs Face Extreme Security Measures; Official 
Statements on Terrorism Conflict,'' CECC China Human Rights and Rule of 
Law Update, May 2006, 12.
    \4\ For an analysis of Chinese reporting on one of the alleged 
terrorist plots and on the aircraft attack, see ``Xinjiang Authorities 
Pledge Crackdown Against `Three Forces,' '' CECC China Human Rights and 
Rule of Law Update, March/April 2008, 2. For more information on two of 
the alleged terrorist plots, see ``Ministry of Public Security 
Circulates Notice on Recently Cracking 2 Cases of Plots To Carry Out 
Terrorist Activity'' [Gong'anbu tongbao jinqi pohuo de liangqi cehua 
shishi baoli kongbu huodong anjian], Tianshan Net (Online), 10 March 
08.
    \5\ For reporting from local Xinjiang government Web sites, see, 
e.g., Kashgar District Government (Online), ``Let Society Be Stable and 
Harmonious, For the People To Be Without Fear--Work Report on Poskam 
County Striving To Establish a Region-Level Quiet and Stable County'' 
[Rang shehui wending hexie wei baixing anjuleye--zepuxian zheng chuang 
zizhiquji ping'an xian gongzuo jishi], 3 December 07; Qumul District 
Government (Online), ``Gulshat Abduhadir Stresses at District Education 
Work Meeting, Enlarge Investments for Optimal Environment'' [Gulixiati 
Abudouhade'er zai diqu jiaoyu gongzuo huiyishang qiangdiao jiada touru 
youhua huanjing], 9 March 08; Kashgar District Government (Online), 
``Yengi Sheher County Takes Forceful Measures to Strengthen Carrying 
Out of Current Stability Work'' [Shulexian caiqu youli cuoshi jiaqiang 
zuohao dangqian wending gongzuo], 31 March 08; Kashgar District 
Government (Online), ``Firmly Grasp Stability Work without Slackening, 
Protect Smooth Carrying Out of the Olympics'' [Hen zhua wei wen 
gongzuobuxiedai bao aoyunhui shunli juban], 31 March 08; Kashgar 
District Government (Online), ``122 Members of `Work Team Dispatched to 
Rural Posts for Olympics Safety and Security' Go to Countryside in 
Yorpugha County'' [Yuepuhuxian 122 ming ``ao yun an bao paizhu xiangcun 
gongzuo duiyuan'' xiacun], 28 March 08. For an example of a security 
measure aimed at XUAR residents living in other parts of China, see 
``Kashgar District Ethnic and Religious Affairs Commission Enters into 
Friendly Cooperation with Wuhan City Ethnic and Religious Affairs 
Commission'' [Kashi diqu minzongwei yu wuhanshi minzongwei jiewei 
youhao xiezuo danwei], China Ethnicities News (Online), 28 February 08. 
Overseas organizations reported on the imposition of martial order 
within Ghulja in late March and April and on curfews in multiple 
cities. Local government Web sites within China appear not to have 
publicized the curfews. International Campaign for Tibet (Online), 
``Tibetan Students Hold Vigil in Beijing; Curfew Imposed in Xinjiang 
Towns,'' 17 March 08; ``FYI--Kashgar, Xinjiang PRC Media Not Observed 
To Report Alleged Curfew,'' Open Source Center, 19 March 08; ``FYI--
Hotan, Xinjiang PRC Media Not Observed To Report Alleged Curfew,'' Open 
Source Center, 19 March 08; ``Chinese Government Exercises Martial 
Alert in Ghulja'' [Xitay hokumiti ghuljida herbiy halet yurguzuwatidu], 
Radio Free Asia (Online), 10 April 08; ``Curfew in Xinjiang Town After 
Police Raids,'' Radio Free Asia (Online), 10 March 08.
    \6\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update, May 2008, 
3.
    \7\ ``The Human Toll of the Olympics,'' CECC China Human Rights and 
Rule of Law Update, August 2008, 2-8.
    \8\ For information on these attacks as reported by official 
Chinese media, see, e.g., ``Police Station Raided in West China's 
Xinjiang, Terrorist Plot Suspected,'' Xinhua, 4 August 08 (Open Source 
Center, 4 August 08); ``Xinjiang Official Calls Monday's Raid on Border 
Police a Terrorist Attack,'' Xinhua, 5 August 08 (Open Source Center, 5 
August 08); ``Bombings Kill Eight, Injure Four in China's Xinjiang,'' 
Xinhua, 10 August 08 (Open Source Center, 12 August 08); Mao Yong and 
Zhao Chunhui, ``(Explosions in Xinjiang's Kuqa) Violent Terrorism in 
Kuqa County, Xinjiang, Effectively Dealt With,'' Xinhua, 10 August 08 
(Open Source Center, 10 August 08); ``Three Security Staff Killed in 
Attack at Road Checkpoint in Xinjiang,'' Xinhua (Online), 12 August 08. 
For an updated report by foreign media on one of the events, see Edward 
Wong, ``Doubt Arises in Account of an Attack in China,'' New York Times 
(Online), 28 September 08.
    \9\ For an overview of these reported measures, see box titled 
Increased Repression in Xinjiang During the Olympics in this section, 
which is drawn from ``Authorities Increase Repression in Xinjiang in 
Lead-up To and During Olympics,'' Congressional-Executive Commission on 
China (Online), 7 October 08. See specific sources at, e.g., Uyghur 
Human Rights Project (Online), ``A Life or Death Struggle in East 
Turkestan; Uyghurs Face Unprecedented Persecution in post-Olympic 
Period,'' 4 September 08, 4-7; ``Homes Raided in Xinjiang,'' Radio Free 
Asia (Online), 23 July 08; Jume, ``Public Security Office Police in 
Ghulja City Ransack Uyghurs' Homes'' [Ghulja shehiri j x idarisi 
saqchiliri uyghurlarning oylirini axturmaqta], Radio Free Asia 
(Online), 17 July 08; ``The Human Toll of the Olympics,'' CECC China 
Human Rights and Rule of Law Update; Dan Martin, ``Uyghurs Discouraged 
From Air Travel Amid China's Olympic Security Clampdown,'' Agence 
France-Presse, 31 July 08 (Open Source Center, 31 July 08); Malcom 
Moore, ``China Tightens Grip on Western Province Xinjiang,'' Telegraph 
(Online), 8 August 08; Gulchehre, ``Chinese Authorities Close Some 
Uyghur Discussion Web Sites During Olympics'' [Xitay dairiliri olimpik 
mezgilide bir qisim uyghur munazire tor betlirini taqidi], Radio Free 
Asia (Online), 14 August 08; ``Crackdown on Xinjiang Mosques, 
Religion,'' Radio Free Asia (Online), 14 August 08; ``Mongghulkure 
County `Protect Olympics, Protect Stability' Supervision Group Reports 
Work to Ili Prefecture'' [Zhaosuxian shang yili zhou ``bao ao yun cu 
wending'' dudao xiaozu huibao gongzuo], Ili Peace Net (Online), 16 July 
08; ``Mongghulkure County Promptly Arranges Implementation of Spirit of 
Ili 7.13 Stability Meeting'' [Zhaosuxian xunsu anpai luoshi yili zhou 
``7.13'' wending huiyi jingshen], Ili Peace Net (Online), 16 July 08; 
Kashgar District Government, ``Usher in the Olympics and Ensure 
Stability; Jiashi People Are of One Heart and Mind,'' 8 August 08 (Open 
Source Center, 8 August 08). See also Controls over Free Expression in 
Xinjiang in this section for more information on controls over Web 
sites.
    \10\ Jake Hooker, ``China Steps Up Scrutiny of a Minority in 
Beijing,'' New York Times (Online), 13 August 08; Josephine Ma, 
``Beijing Security Already High, With More Police Checks on Uygurs 
And,'' [sic] South China Morning Post, 5 August 08 (Open Source Center, 
5 August 08); ``Hotels in All Locations Must Report Tibetans, Uyghurs 
and Other Ethnic Minority Guests'' [Gedi luguan dei tongbao jiangzang 
deng shaoshu minzu zhuke], Radio Free Asia (Online), 30 July 08; 
``Beijing and Shanghai Strengthen Inspection and Control of Uyghurs and 
Tibetans on Eve of Olympics'' [Ao yun qianxi jing hu jiaqiang dui weizu 
zangzuren de jiankong], Radio Free Asia (Online), 27 July 08; ``Olympic 
Terror Clampdown Targets Beijing Uighurs After Attacks,'' Bloomberg 
(Online), 18 August 08.
    \11\  ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er Baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08. For an example of mention of 
Rebiya Kadeer in local government reports, see ``Firmly Grasp the 
Overall Situation, Unite the Masses, Conscientiously Forge Firm 
Foundation to Protect Stability'' [Bawo daju tuanjie qunzhong qieshi da 
lao weiwen jichu], Ili News Net (Online), 21 September 08.
    \12\ For reports from local offices and governments, see, e.g., 
``Zhang Yun Stresses: Make Firm Push To Deepen Educational Activities'' 
[Zhang yun qiangdiao: zhashi ba zhuti jiaoyu huodong tuixiang shenru], 
Ili News Net (Online), 25 September 08; ``Must Have Vigorous Education 
Propaganda'' [Zhuti jiaoyu xuanchuan bixu honghonglielie], Ili Daily 
News reprinted in Ili News Net (Online), 16 September 08; ``Autonomous 
Region Youth League Committee Launches Ethnic Unity Education Practicum 
Activities'' [Zizhiqu tuanwei kaizhan minzu tuanjie jiaoyu shijian 
huodong], Xinjiang Daily (Online), 12 September 08. For Wang's 
comments, see ``Autonomous Region Convenes Cadre Plenary Session on 
Making Concerted Efforts to Safeguard Xinjiang's Social and Political 
Stability'' [Zizhiqu zhaokai ganbu dahui qixinxieli weihu xinjiang 
shehui zhengzhi wending], Tianshan Net (Online), 11 September 08; 
``Wang Lequan's Speech at Autonomous Region 5th Commendation Meeting on 
Advancement of Ethnic Unity'' [Wang Lequan zai zizhiqu di wu ci minzu 
tuanjie jinbu biaozhang dahui shang de jianghua], Tianshan Net 
(Online), 16 September 08.
    \13\ For an overview of incarceration trends from the mid-1990s 
onward, see CECC, 2007 Annual Report, 107 and accompanying footnotes.
    \14\ According to the head of the XUAR High People's Court, since 
2003, XUAR courts have accepted a yearly average of roughly 150 cases 
involving endangering state security. ``Work Regarding Courts 
Nationwide Assisting Xinjiang Courts is Launched'' [Quanguo fayuan 
duikou zhiyuan xinjiang fayuan gongzuo qidong], Xinhua (Online), 14 
August 07. Nationwide, the number of arrests between 2003 and 2006 for 
endangering state security numbered 336, 426, 296, and 604 
respectively, and the number of such cases that authorities began to 
prosecute in 2005 and 2006 were 185 and 258 respectively, indicating 
that cases from the XUAR constituted a significant total percentage 
both of arrests and prosecutions for endangering state security. The 
Dui Hua Foundation (Online), ``New Statistics Point to Dramatic 
Increase in Chinese Political Arrests in 2006,'' 27 November 07; The 
Dui Hua Foundation (Online), `` `Endangering State Security' Arrests 
Rise More than 25% in 2004,'' Dialogue Newsletter, Winter 2006.
    \15\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
is Launched,'' Xinhua.
    \16\ Yan Wenlu, ``Xinjiang Higher People's Court To Sternly Crack 
Down on Crimes of the `Three Forces' in Accordance With the Law,'' 
China News Agency, 15 August 08 (Open Source Center, 15 August 08).
    \17\ Except where otherwise noted, information in this boxed 
subsection is drawn from ``Authorities Increase Repression in Xinjiang 
in Lead-up To and During Olympics,'' Congressional-Executive Commission 
on China.
    \18\ Information in this bulleted item, other than information on 
Ramadan, is drawn from ``Authorities Increase Repression in Xinjiang in 
Lead-up To and During Olympics,'' Congressional-Executive Commission on 
China. For information on controls over Ramadan, see, e.g., Shayar 
County Government (Online), ``Town of Yengi Mehelle in Shayar County 
Xinjiang Adopts Nine Measures To Strengthen Management During Ramadan'' 
[Shayaxian yingmaili zhen caiqu jiu xiang cuoshijiaqiang ``zhaiyue'' 
qijian guanli], 28 August 08; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security'' [Zhaosuxian wu cuoshi 
tiqian zuohao zhaiyue guanli bao ao yun wending], Fazhi Xinjiang 
(Online), 23 August 08; ``Toqsu County Deploys Work to Safeguard 
Stability During Ramadan'' [Xinhexian bushu zhaiyue qijian weiwen 
gongzuo], Xinjiang Peace Net (Online), 2 September 08. See also Section 
II--Freedom of Religion--China's Religious Communities--Islam.
    \19\ ``Uyghur Radio Worker Sacked, Detained,'' Radio Free Asia 
(Online), 8 September 08; ``Supplementary Information on Prisoner 
Mehbube Ablesh'' [Tutqun mehbube ablesh heqqide toluqlima melumatlar], 
Radio Free Asia (Online), 8 September 08; ``Uyghur Staff Member in 
Xinjiang Criticizes Government, Is Arrested'' [Xinjiang weizu yuangong 
piping zhengfu bei jubu], Radio Free Asia (Online), 9 September 08.
    \20\ While ``Sweep Away Pornography and Strike Down Illegal 
Publications'' campaigns targeting a range of materials exist 
throughout China, authorities in the XUAR target religious and 
political materials also as part of broader controls in the region over 
Islamic practice and other expressions of ethnic identity among the 
Uyghur population. ``Xinjiang Government Strengthens Campaign Against 
Political and Religious Publications,'' CECC China Human Rights and 
Rule of Law Update, February 2008, 4.
    \21\ In May 2006, for example, XUAR authorities launched a month-
long campaign aimed at rooting out ``illegal'' political and religious 
publications in which they reported finding `` `the existence of books 
with seriously harmful religious inclinations,'' and Uyghur-language 
religious materials with ``unhealthy content.'' ``Xinjiang Government 
Seizes, Confiscates Political and Religious Publications,'' CECC China 
Human Rights and Rule of Law Update, July 2006, 7-8. In February 2006, 
authorities confiscated ``illegal'' religious materials during a 
surprise inspection of the ethnic minority language publishing market, 
as part of a campaign that included focus on materials of an 
``illegal'' political nature, those that propagate ethnic separatism, 
or those of a religious nature. ``Xinjiang Cracks Down on `Illegal' 
Religious Publications,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 9.
    \22\ ``Atush Launches Clean-up Operation in Publishing Market'' 
[Atushi shi kaizhan chubanwu shichang zhuanxiang zhili xingdong], 
Qizilsu Kyrgyz Autonomous Prefecture Peace Net (Online), 11 July 08; 
Jume, ``Chinese Government Starts Urgent Search Activities on Streets 
of Atush'' [Xitay hokumiti atush shehiridiki dukan-restilerde jiddiy 
axturush herikiti bashlidi], Radio Free Asia (Online), 17 July 08.
    \23\ Gulchehre, ``Chinese Authorities Close Some Uyghur Discussion 
Web Sites During Olympics'' [Xitay dairiliri olimpik mezgilide bir 
qisim uyghur munazire tor betlirini taqidi], Radio Free Asia (Online), 
14 August 08. In a review of Uyghur Web sites carried out on August 18 
and 19, 2008, Commission staff found that the bulletin board services 
(BBS) on the Web sites www.diyarim.com, www.orkhun.com, and 
www.alkuyi.com blocked normal message-posting functions and carried 
messages calling for stability during the Olympics games or noting the 
closure of the site's BBS. In June, 2008, overseas media noted the 
closure of the Web site Uyghur Online due to perceived ties with 
overseas ``extremists.'' See ``Uyghur Web Site Shut Down,'' Radio Free 
Asia (Online), 12 June 08. See also ``Notice Concerning the Closure of 
Uyghur Online'' [Guanyu weiwuer zai xian bei guanbi de tongzhi], 
available at http://www.uighuronline.cn/ (last visited 19 May 2008). As 
of September 11, 2008, Commission staff observed that the site was in 
operation again.
    \24\ For information on the Islamic Association of China's 
publishing activities and state controls over the interpretation of 
religious texts, see ``SARA Director Calls for Continued Controls on 
Religion,'' CECC China Human Rights and Rule of Law Update, September 
2006, 8, and ``Islamic Congress Establishes Hajj Office, Issues New 
Rules,'' CECC China Human Rights and Rule of Law Update, June 2006, 12-
13.
    \25\ ``Teacher and 37 Students Detained for Sudying [sic] Koran in 
China: Rights Group'' Agence France-Presse, 15 August 05 (Open Source 
Center, 15 August 05); ``Three Detained in East Turkistan for `Illegal' 
Religious Text,'' Uyghur Human Rights Project (Online), 3 August 05; 
Human Rights Watch and Human Rights in China (Online), ``Devastating 
Blows: Religious Repression of Uighurs in Xinjiang,'' April 2005, 70 
(pagination follows ``text-only'' pdf download of this report).
    \26\ See, e.g., ``Xinjiang Government Promotes Mandarin Chinese Use 
Through Bilingual Education,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 17-18; Xinjiang Uyghur Autonomous Region Ethnic 
Affairs Commission (Online), ``This Fall Ethnic Minority Language-Track 
Middle Schools in Urumchi, Xinjiang, Try `Bilingual' Education'' [Jin 
qiu xinjiang wulumuqishi minyuxi chuzhong changshi ``shuangyu'' 
jiaoyu], reprinted on the State Ethnic Affairs Commission Web site, 9 
May 08.
    \27\ See, e.g., PRC Constitution, art. 4, 121, and Regional Ethnic 
Autonomy Law (REAL), enacted 31 May 84, amended 28 February 01, art. 
10, 21. Chinese law also promotes education in ethnic minority 
languages. See REAL, art. 37. 2005 Implementing Provisions for the REAL 
affirm the freedom to use and develop minority languages, but also 
place emphasis on the use of Mandarin by promoting ``bilingual'' 
education and bilingual teaching staff. State Council Provisions on 
Implementing the PRC Regional Ethnic Autonomy Law (REAL Implementing 
Provisions) [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu quyu 
zizhifa'' ruogan guiding], issued 19 May 05, art. 22.
    \28\ ``Xinjiang Bilingual Education Students Increase 50-fold in 6 
Years'' [Xinjiang shuangyu xuesheng liu nien zengzhang 50 bei], 
Xinjiang Economic News, via Tianshan Net (Online), 31 October 06.
    \29\ See, e.g., CECC, 2007 Annual Report, 107; CECC, 2006 Annual 
Report, 91; CECC, 2005 Annual Report, 22-23.
    \30\ The Xinjiang High People's Court rejected his appeal in 
February 2000, but changed the ``stealing'' state secrets charge to 
``unlawfully obtaining'' them. In 2001, the UN Working Group on 
Arbitrary Detention found his imprisonment arbitrary and in violation 
of his right to freedom of thought, expression, and opinion. See the 
CECC Political Prisoner Database for more information on Tohti Tunyaz's 
case and the other cases cited in this section.
    \31\ The precise charges levied against Abduhelil Zunun are 
unavailable, but Human Rights Watch reported that his sentence took 
place at a mass sentencing rally to punish terrorist and separatist 
activities. Human Rights Watch (Online), ``China Human Rights Update,'' 
15 February 02. See also the CECC Political Prisoner Database.
    \32\ See the CECC Political Prisoner Database for more details. 
Sentencing information on the case and Abdulla Jamal's current 
whereabouts are not known.
    \33\ See the CECC Political Prisoner Database for more details.
    \34\ Ibid.
    \35\ ``Uyghur Radio Worker Sacked, Detained,'' Radio Free Asia; 
``Supplementary Information on Prisoner Mehbube Ablesh,'' Radio Free 
Asia; ``Uyghur Staff Member in Xinjiang Criticizes Government, Is 
Arrested,'' Radio Free Asia. See the CECC Political Prisoner Database 
for more details.
    \36\ For a discussion of these groups, known as meshrep in Uyghur, 
see, e.g., Jay Dautcher, ``Public Health and Social Pathologies in 
Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. S. Frederick 
Starr (Armonk, New York: M.E. Sharpe, 2004), 285-6.
    \37\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update.
    \38\ The editor has surmised that the charge may have been based on 
e-mail correspondence the China Development Brief initiated with a 
Uyghur diaspora organization while conducting research. Nick Young, 
``Message from the Editor,'' China Development Brief (Online), 12 July 
07; Nick Young, ``Why China Cracked Down on My Nonprofit,'' Christian 
Science Monitor (Online), 4 December 07.
    \39\ Authorities also accused the publication's English-language 
editor of conducting ``unauthorized surveys'' and forced the 
publication's closing during a period of heightened scrutiny over local 
and foreign civil society organizations throughout China. Nick Young, 
``Message from the Editor,'' China Development Brief (Online), Nick 
Young, ``Why China Cracked Down on My Nonprofit.'' For more information 
on civil society groups in China, see Section III--Civil Society as 
well as CECC, 2007 Annual Report, 141-143.
    \40\ In the course of an interview with Chinese officials, the 
editor of the China Development Brief (CDB) critiqued repressive 
policies in the XUAR, comments which he believes might have shut down 
further negotiations with authorities on ways to salvage CDB. Nick 
Young, ``Why China Cracked Down on My Nonprofit.''
    \41\ While the government continues to impose hukou, or household 
registration requirements, that place restrictions on citizens' ability 
to formally change their place of residence and receive social services 
and other benefits in their new homes, limited hukou reforms and other 
policies have nonetheless given citizens more leeway to migrate 
internally within China than in previous decades. For more information 
on freedom of residence, see Section II--Freedom of Residence and CECC, 
2007 Annual Report, 111-113.
    \42\ See, e.g., REAL Implementing Provisions, art. 29. For 
additional information, see, e.g., Gardner Bovingdon, ``Autonomy in 
Xinjiang: Han Nationalist Imperatives and Uyghur Discontent,'' East-
West Center Washington 2004, Policy Studies 11, 24-26.
    \43\ Earlier government policies, including forced resettlement to 
the region, have already resulted in broad demographic shifts in the 
XUAR. According to an official government census, in 1953, Han Chinese 
constituted 6 percent of the XUAR's population of 4.87 million, while 
Uyghurs made up 75 percent. In contrast, the 2000 census listed the Han 
population at 40.57 percent and Uyghurs at 45.21 percent of a total 
population of 18.46 million. Scholar Stanley Toops has noted that Han 
migration since the 1950s is responsible for the ``bulk'' of the XUAR's 
high population growth in the past half century. Stanley Toops, 
``Demographics and Development in Xinjiang after 1949,'' East-West 
Center Washington Working Papers No. 1, May 04, 1. See also ``Xinjiang 
Focuses on Reducing Births in Minority Areas to Curb Population 
Growth,'' CECC China Human Rights and Rule of Law Update, April 2006, 
15-16; ``Xinjiang Reports High Rate of Population Increase,'' CECC 
China Human Rights and Rule of Law Update, March 2006, 16-17.
    \44\ State Administration for Ethnic Affairs (Online), ``Important 
Meaning'' [Zhongyao yiyi], 13 July 04.
    \45\ See Development Policy in Xinjiang in this section for more 
information.
    \46\ Scholar Gardner Bovingdon notes that ``Han immigration and 
state policies have dramatically increased the pressure on Uyghurs to 
assimilate linguistically and culturally, seemingly contradicting the 
explicit protections of the constitution and the laws on autonomy[.]'' 
Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives and 
Uyghur Discontent,'' 47.
    \47\ As noted above, Han migration has resulted in high population 
growth in the region. Stanley Toops, ``Demographics and Development in 
Xinjiang after 1949,'' 1.
    \48\ ``Xinjiang Focuses on Reducing Births in Minority Areas to 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update.
    \49\ ``Last Year, 65,000 Fewer People Were Born in Xinjiang'' 
[Qunian xinjiang shao chusheng 6.5 wan ren], Xinjiang Metropolitan 
News, reprinted in Tianshan Net, 28 February 08. Although the 
government has implemented policies throughout China to reward families 
who comply with various population planning dictates, it also continues 
to punish non-compliance. See Section II--Population Planning, for more 
information. The XUAR regulation on population planning allows urban 
Han Chinese couples to have one child, urban ethnic minority couples 
and rural Han Chinese couples to have two, and rural ethnic minority 
couples to have three. Xinjiang Uyghur Autonomous Region Regulation on 
Population and Family Planning [Xinjiang weiwu'er zizhiqu renkou yu 
jihua shengyu tiaoli], issued 28 November 02, amended 26 November 04 
and 25 May 06, art. 15. While this legislation indicates some 
flexibility to adapt national legislation to suit ``local conditions,'' 
as stipulated in the Regional Ethnic Autonomy Law, XUAR residents 
nonetheless lack the autonomy to choose not to implement any limits at 
all on childbearing. REAL, art. 4, 44. For information on the limits of 
the legal framework for autonomy, see, e.g., CECC, 2005 Annual Report, 
15-17. Scholar Gardner Bovingdon discusses the role of population 
planning requirements within the context of the regional ethnic 
autonomy system in Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' 26.
    \50\ See, e.g., Uyghur Human Rights Project (Online), ``Rural East 
Turkistan To Be `Focus' of China's Family Planning Policies,'' 15 
February 06; Human Rights in China: Improving or Deteriorating 
Conditions? Hearing of the Subcommittee on Africa, Global Human Rights, 
and International Operations, Committee on International Relations, 
U.S. House of Representatives, 19 April 06, Testimony of Rebiya Kadeer.
    \51\ For more details, see the CECC Political Prisoner Database as 
well as the sources cited below.
    \52\ ``Chinese Police Attempt to Take into Custody Son of Uighur 
Activist Rebiya Kadeer,'' CECC China Human Rights and Rule of Law 
Update, June 2005, 10; ``Rebiya Kadeer's Employees Released After 
Seven-Month Detention,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 4-5.
    \53\ ``Xinjiang Police Form Special Unit To Investigate Exiled 
Activist Rebiya Kadeer,'' CECC China Human Rights and Rule of Law 
Update, October 2005, 7-8.
    \54\ ``Xinjiang Authorities Question Rebiya Kadeer's Son, Name Him 
a Criminal Suspect,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 5-6.
    \55\ ``Rebiya Kadeer's Sons Charged With State Security and 
Economic Crimes,'' CECC China Human Rights and Rule of Law Update, July 
2006, 3-4.
    \56\ ``Rebiya Kadeer's Sons Receive Prison Sentence, Fines, for 
Alleged Economic Crimes,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 15-16.
    \57\ Uyghur American Association (Online), ``Son of Rebiya Kadeer 
Sentenced to Nine Years in Prison on Charges of `Secessionism,' '' 17 
April 07.
    \58\ Uyghur American Association (Online), ``Rebiya Kadeer's 
Imprisoned Son in Urgent Need of Medical Treatment,'' 11 December 07.
    \59\ See, e.g., Calla Weimer, ``The Economy of Xinjiang,'' in 
Xinjiang: China's Muslim Borderland, 188 (noting improvements in 
transport and communications that have produced ``broad benefits'' in 
the region.); Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' 38.
    \60\ State Administration for Ethnic Affairs (Online), ``Important 
Meaning.''
    \61\ Stanley W. Toops, ``The Ecology of Xinjiang: A Focus on 
Water,'' in Xinjiang: China's Muslim Borderland, 270-271.
    \62\ Although the Chinese government does not aggregate economic 
data by ethnic group, scholars who have looked at other indicators have 
noted that the most prosperous regions in the XUAR are those with 
majority Han populations. Areas in the XUAR with overwhelmingly ethnic 
minority populations remain the region's poorest. Weimer, ``The Economy 
of Xinjiang,'' 177-180; David Bachman, ``Making Xinjiang Safe for the 
Han? '' in Governing China's Multiethnic Frontiers, ed. Morris Rossabi 
(Seattle: University of Washington Press, 2004), 165-168.
    \63\ Weimer, ``The Economy of Xinjiang,'' 179-180; Bachman, 
``Making Xinjiang Safe for the Han? '' 167-168; Ildiko Beller-Hann, 
``Temperamental Neighbors: Uighur-Han Relations in Xinjiang, Northwest 
China,'' in Gunther Schlee, ed., Imagined Differences: Hatred and the 
Construction of Identity (New York: Palgrave, 2002), 65.
    \64\ See Weimer, ``The Economy of Xinjiang,'' 163 (noting strong 
government control over both oil and gas reserves and over the general 
economy).
    \65\ Scholar Calla Weimer has noted that ``in an effort to ensure 
stability in a frontier area,'' the central government ``has more 
actively asserted its control over development in Xinjiang than in any 
other region.'' Weimer, ``The Economy of Xinjiang,'' 164. For 
statements connecting development projects to stability, see, e.g., 
``While Joining NPC Deputies From Xinjiang in Discussing and Examining 
the Government's Work Report, General Hu Jintao Stresses That It Is 
Necessary To Firmly Grasp the Opportunity To Carry out the Large-Scale 
Development of the Western Region and Continuously Create a New 
Situation in the Development of Various Undertakings in Xinjiang,'' 
Xinjiang Daily, 9 March 08 (Open Source Center, 15 March 08); ``State 
Council Made Major Strategic Plans To Further Promote Xinjiang's 
Economic, Social Development,'' Xinjiang Daily, 3 October 07 (Open 
Source Center, 3 October 07); Kashgar District Ethnic and Religious 
Affairs Commission (Online), ``Xinjiang Uyghur Autonomous Region Chair 
Ismail Tiliwaldi Attends Ceremony for Laying Foundation for Kashgar-
Hoten Highway'' [Xinjiang weiwuer zizhiqu zhuxi simayi tieliwaerdi 
chuxi kashi zhi hetian gaodengji gonglu dianji yishi], reprinted on the 
State Ethnic Affairs Commission Web site, 20 November 07.
    \66\ In 2007, the government announced that it had invested over 
231 million yuan from 2001-2006 in funds to support ethnic minority 
development, using the money for healthcare, education, cultural 
undertakings, and broadcast communications. It also announced plans to 
increase funds for 2007. ``State Invests 300 Million Yuan in 7 Years to 
Support Xinjiang Ethnic Minority Economic Development'' [Guojia 7 nian 
tou 3 yi yuan fuchi xinjiang shaoshu minzu jingji fazhan], Xinjiang 
Daily (Online), 17 September 07.
    \67\ For Chinese media reports on the programs, see, e.g., ``Money 
From Our Kids Has Come'' [Zan haizi jiqian laile], Tianshan Net 
(Online), 25 June 07; Qarghiliq County Government (Online), ``Leaving 
Home for the Wide World, Qarghiliq County's Second Batch of 313 Young 
Girls Go to Tianjian To Start Their Undertakings'' [Zouchu jiamen 
tiandi kuan yecheng xian di er pi 313 ming nu qingnian fu tianjin 
chuangye], 17 April 07. For statistics on the makeup of the labor force 
and number of people transferred from Kashgar district, see ``160 Rural 
Women from Kashgar Go to Tianjin To Apply Their Labor'' [Xinjiang kashi 
160 ming nongcun funu fu tianjin wugong], Urumqi Evening News, 
reprinted in Tianshan Net, 19 March 07.
    \68\ Uyghur Human Rights Project (Online), ``Deception, Pressure, 
and Threats: The Transfer of Young Uyghur Women to Eastern China,'' 8 
February 08; Trafficking in China, Briefing of the Congressional Human 
Rights Caucus, U.S. House of Representatives, 31 October 07, Testimony 
of Rebiya Kadeer, President of the Uyghur American Association; 
``Uyghur Girls Forced Into Labor Far From Home By Local Chinese 
Officials,'' Radio Free Asia (Online), 11 July 07.
    \69\ For information on forced labor (hashar, also sometimes 
translated as ``corvee labor'') in English, see Radio Free Asia's blog 
``RFA Unplugged.'' ``Forced, Unpaid Labor for Uyghurs in China's Almond 
Groves,'' RFA Unplugged (Online), 9 April 07. For Uyghur-language 
reporting on the topic, see Gulchehre, ``Forced Labor Started Once 
Again in Kashgar Countryside'' [Qeshqer yezilirida hashar yene 
bashlandi], Radio Free Asia (Online), 7 February 07; Gulchehre, 
``100,000 Farmers in Yeken [Yarkand] Caught Up in Wide-Scale Forced 
Labor'' [Yekende yuz ming dehqan keng kolemlik hashargha tutuldi], 
Radio Free Asia (Online), 11 March 07; Gulchehre, ``Wide-Scale Forced 
Labor Started Again in Kashgar Countryside'' [Qeshqer yezilirida keng 
kolemlik hashar yene bashlandi], Radio Free Asia (Online), 20 March 08. 
For Chinese government reporting on the topic, see Kashgar District 
Government (Online), ``Yeken [Yarkand] County Starts Springtime Wave to 
Cultivate Desert Land'' [Shachexian xianqi chunji gebi kaihuang zaotian 
rechao], 9 March 07; Kashgar District Government (Online), ``100,000 
Rural Laborers Build Pistachio Base in Yeken [Yarkand] County'' 
[Shachexian shi wan nongmingong jianshe kaixinguo jidi], 20 March 07.
    \70\ ``Work-Study Programs Using Child Labor Continue in 
Xinjiang,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5. See also ``Xinjiang Government Continues Controversial `Work-
Study' Program,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 11.
    \71\ ``Civil Servant Recruitment in Xinjiang Favors Han Chinese,'' 
CECC China Human Rights and Rule of Law Update, August 2006, 6; 
``Xinjiang Government Says Ethnic Han Chinese Will Get 500 of 700 New 
Civil Service Appointments,'' Congressional-Executive Commission on 
China (Online), 7 April 05; CECC Staff Interviews. In addition, new 
requirements imposed through the government's ``bilingual'' education 
policies disadvantage the job prospects of ethnic minority teachers. 
For more information, see Addendum: ``Bilingual'' Education in Xinjiang 
at the end of this section.
    \72\ According to one report, personnel shortcomings have meant 
that ``there is no way to guarantee the use of ethnic minority 
languages to carry out litigation.'' ``Meticulously Picking Talent: 
Problem of Faultline in Xinjiang Courts Makes First Steps at 
Improvement'' [Jingxin linxuan rencai xinjiang faguan duanceng wenti 
chubu huanjie], Tianshan Net (Online), 7 February 06. See also ``Lack 
of Ethnic Minority Judges in Xinjiang Basic-Level Courts Especially 
Prominent'' [Xinjiang jiceng fayuan shaoshu minzu faguan buzu youwei 
tuchu], Xinhua (Online), 22 November 07; ``Courts throughout Country to 
Join Forces to Help Xinjiang'' [Quanguo fayuan jiang heli yuan jiang], 
Tianshan Net (Online), 20 August 07. The shortage of legal personnel 
and interpreters who speak ethnic minority languages also impacts legal 
proceedings outside the XUAR, especially since the Supreme People's 
Court returned to the process of reviewing all death sentences levied 
within China. See ``China Exclusive: More Ethnic Judges, Translators 
Needed To Cope With Stricter Death Penalty,'' Xinhua, 13 March 07 (Open 
Source Center, 13 March 07). For legal bases to have judicial 
proceedings conducted in one's native language, see, e.g., PRC 
Constitution, art. 134; REAL, art. 47; Criminal Procedure Law, enacted 
1 January 79, amended 17 March 96, art. 9; Administrative Procedure 
Law, enacted 4 April 89, art. 8; Civil Procedure Law, enacted 9 April 
91, amended 28 October 07, art. 11; Xinjiang Uyghur Autonomous Region 
Regulation on Spoken and Written Language Work [Xinjiang weiwu'er 
zizhiqu yuyan wenzi gongzuo tiaoli], adopted 25 September 93, amended 
20 September 02, art. 12.
    \73\ Information within is based on CECC Staff Interviews except 
where otherwise noted.
    \74\ For background information, including reports from China and 
neighboring countries along with reports from overseas observers, see, 
e.g., Li Zhongfa, ``Hu Jintao Holds Talks With Kyrgyz President 
Bakiyev,'' Xinhua, 9 June 06 (Open Source Center, 11 June 06); 
``Cooperation With China Strengthened: Uzbek President,'' Xinhua, 19 
June 06 (Open Source Center, 10 June 06); ``China's `Uyghur Problem' 
and the Shanghai Cooperation Organization,'' Hearing on China's Role in 
the World: Is China a Responsible Stakeholder?, U.S.-China Economic and 
Security Review Commission, 3-4 August 06, Testimony of Dru Gladney, 
Professor of Asian Studies, University of Hawaii at Manoa; ``China 
Tightly Controls the Cradles of the `Xinjiang Independence' Forces,'' 
Ta Kung Pao, 25 August 06 (Open Source Center, 26 August 06); ``China 
To Urge Tougher Counter-Terrorism Measures at SCO 22 Sep Session,'' 
Agence France-Presse, 21 September 06 (Open Source Center, 21 September 
06); Tao Shelan, ``Xinjiang Uyghur Autonomous Region Chairman Ismail 
Tiliwaldi: Clamping Down On Terrorism Is Common Aspiration of Peace-
Loving People,'' China News Agency, 16 May 07 (Open Source Center, 19 
May 07); ``SCO Nations End Consultations on Anti-Terrorism Military 
Exercise,'' Xinhua, 19 May 07 (Open Source Center, 19 May 07); Yu Sui, 
``Hu's Visit Set To Boost Regional Cooperation,'' China Daily, 14 
August 07 (Open Source Center, 14 August 07); Erica Marat, ``Chinese 
Migrants Face Discrimination in Kyrgyzstan,'' Jamestown Foundation 
(Online), 28 February 08; Robert Sutter, ``Durability in China's 
Strategy Toward Central Asia--Reasons for Optimism,'' China and Eurasia 
Forum Quarterly, Volume 6, No. 1, 2008, 3-10. See also the Shanghai 
Cooperation Organization Web site at www.setsco.org.
    \75\ CECC Staff Interviews. Barriers to local asylum proceedings 
have resulted in problems including statelessness. For more 
information, see, e.g., Refugees International (Online), ``Kazakhstan: 
Neglecting Refugees, Engendering Statelessness,'' 21 December 07; 
Refugees International (Online), ``Kyrgyz Republic: Powerful Neighbors 
Imperil Protection and Create Statelessness,'' 20 December 07; Refugees 
International (Online), ``Refugee Voices: Uighurs in Kyrgyz Republic,'' 
9 January 08.
    \76\ CECC Staff Interviews; Amnesty International (Online), 
``Central Asia Summary of Human Rights Concerns January 2006-March 
2007,'' 2007; Human Rights Watch and Human Rights in China (Online), 
``Devastating Blows: Religious Repression of Uighurs in Xinjiang,'' 24; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State 
(Online), Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06.
    \77\ Convention Relating to the Status of Refugees, adopted 28 July 
51 by the United Nations Conference of Plenipotentiaries on the Status 
of Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33.
    \78\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by General Assembly 
resolution 39/46 of 10 December 84, art. 3(1).
    \79\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2).
    \80\ See, e.g., ``Xinjiang Government Promotes Mandarin Chinese Use 
Through Bilingual Education,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 17-18; Xinjiang Uyghur Autonomous Region Ethnic 
Affairs Commission, ``This Fall Ethnic Minority Language-Track Middle 
Schools in Urumchi, Xinjiang, Try `Bilingual' Education'' [Jin qiu 
xinjiang wulumuqishi minyuxi chuzhong changshi ``shuangyu'' jiaoyu], 
reprinted on the State Ethnic Affairs Commission Web site, 9 May 08.
    \81\ See, e.g., ``Xinjiang's First Round of Love My China Ethnic 
Minority Youth Bilingual Oral Speech Contest Opens'' [Xinjiang shoujie 
ai wo zhonghua shaoshu minzu shao'er shuangyu kouyu dasai qimu], 
Tianshan Net (Online), 15 September 06; Kashgar District Government 
(Online), ``Love My China Bilingual Speech Contest Enters Semi-Finals'' 
[Ai wo zhonghua shuangyu dasai jinru fusai], 31 October 06.
    \82\ ``Wang Lequan Stresses: Firmly Implement the Principle of 
Politicians Managing Education'' [Wang Lequan qiangdiao: jianding 
luoshi zhengzhijia ban jiaoyu yuanze], Xinhua Economic News, reprinted 
in Xinhua, 26 April 05.
    \83\ Cited in Arienne M. Dwyer, ``The Xinjiang Conflict: Uyghur 
Identity, Language Policy, and Political Discourse,'' East-West Center 
Washington 2005, Policy Studies 15, 37.
    \84\ For these and other protections, see, e.g., PRC Constitution, 
arts. 4, 121 and Regional Ethnic Autonomy Law (REAL), enacted 31 May 
84, amended 28 February 01, arts. 10, 21.
    \85\ REAL, art. 37. 2005 Implementing Provisions for the REAL 
affirm the freedom to use and develop minority languages, but also 
place emphasis on the use of Mandarin by promoting ``bilingual'' 
education and bilingual teaching staff. State Council Provisions on 
Implementing the PRC Regional Ethnic Autonomy Law (REAL Implementing 
Provisions) [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu quyu 
zizhifa'' ruogan guiding], issued 19 May 05, art. 22.
    \86\ `` `Bilingual' Policy Reduces Use of Ethnic Minority Languages 
in Xinjiang Preschools,'' CECC China Human Rights and Rule of Law 
Update, March/April 2008, 3; ``Xinjiang Official Describes Plan to 
Expand Use of Mandarin in Minority Schools,'' CECC China Human Rights 
and Rule of Law Update, March 2006, 13.
    \87\ ``Decision Concerning the Vigorous Promotion of `Bilingual' 
Education Work'' [Guanyu dali tuijin ``shuangyu'' jiaoxue gongzuo de 
jueding], cited in e.g., `` `Eight Questions' About Xinjiang 
`Bilingual' Education Work'' [Xinjiang ``shuangyu'' jiaoxue gongzuo 
``ba wen''], Tianshan Net (Online), 7 March 08.
    \88\ ``Results of Xinjiang's Promotion of `Bilingual Education' 
Remarkable'' [Xinjiang tuijin ``shuangyu jiaoxue'' chengxiao xianzhu], 
Xinjiang Daily, reprinted in Tianshan Net (Online), 7 December 05.
    \89\ ``City in Xinjiang Mandates Exclusive Use of Mandarin Chinese 
in Schools,'' CECC China Human Rights and Rule of Law Update, September 
2006, 9-10.
    \90\ ``Xinjiang Bilingual Education Students Increase 50-fold in 6 
Years'' [Xinjiang shuangyu xuesheng liu nian zengzhang 50 bei], 
Xinjiang Economic News, reprinted in Tianshan Net (Online), 31 October 
06.
    \91\ Xinjiang Education Department (Online), ``Notice Concerning 
Soliciting Opinions on `Opinion Concerning the Vigorous and Reliable 
Promotion of Ethnic Minority Preschool and Elementary and Secondary 
``Bilingual'' Education Work (Draft for Soliciting Opinions)' '' 
[Guanyu zhengqiu ``guanyu jiji, wentuode tuijin shaoshu minzu xueqian 
he zhongxiaoxue `shuangyu' jiaoxue gongzuo de yijian (zhengqiu 
yijian)'' yijian de tongzhi], 5 May 08.
    \92\ ``Results of Xinjiang's Promotion of `Bilingual Education' 
Remarkable,'' Xinjiang Daily.
    \93\ Xinjiang Education Department, ``Notice Concerning Soliciting 
Opinions on `Opinion Concerning the Vigorous and Reliable Promotion of 
Ethnic Minority Preschool and Elementary and Secondary ``Bilingual'' 
Education Work (Draft for Soliciting Opinions).' ''
    \94\ Rupert Wingfield-Hayes, ``Language Blow for China's Muslims,'' 
BBC (Online), 1 June 2002.
    \95\ ``Xinjiang Vocational Schools To Implement Two-Year Education 
System, Basic Courses Taught in Mandarin'' [Xinjiang zhiye yuanxiao 
jiang shixing liang nian zhi jiaoyu jichuke shiyong hanyu jiangke], 
Urumqi Evening News, reprinted in Tianshan Net (Online), 27 July 2005.
    \96\ In contrast, an undated description of the college, available 
on the XUAR Personnel Department Web site, describes the institution as 
a combined ethnic minority-Han school that teaches in Mandarin, Uyghur, 
and Kazakh. `` `Bilingual' Policy Reduces Use of Ethnic Minority 
Languages in Xinjiang Preschools,'' CECC China Human Rights and Rule of 
Law Update.
    \97\ Opinion Concerning the Strengthening of Ethnic Minority 
Preschool ``Bilingual'' Education [Guanyu jiaqiang shaoshu minzu 
xueqian ``shuangyu'' jiaoyu de yijian], issued 2005, as cited in `` 
`Eight Questions' About Xinjiang `Bilingual' Education Work,'' Tianshan 
Net. Commission staff was unable to locate the original text of this 
opinion. See also Xinjiang Education Department, ``Notice Concerning 
Soliciting Opinions on `Opinion Concerning the Vigorous and Reliable 
Promotion of Ethnic Minority Preschool and Elementary and Secondary 
``Bilingual'' Education Work (Draft for Soliciting Opinions).' ''
    \98\ ``Xinjiang Makes 5-Year 430 Million Yuan Investment To Develop 
Rural Preschool `Bilingual' Education'' [Xinjiang 5 nian touru 4.3 yi 
fazhan nongcun xueqian ``shuangyu'' jiaoyu], Xinjiang Economic News, 
reprinted in Tianshan Net (Online), 10 October 06; `` `Bilingual' 
Policy Reduces Use of Ethnic Minority Languages in Xinjiang 
Preschools,'' CECC China Human Rights and Rule of Law Update. These 
plans may have stemmed from direction in the 2005 opinion on preschool 
``bilingual'' education. See Opinion Concerning the Strengthening of 
Ethnic Minority Preschool ``Bilingual'' Education [Guanyu jiaqiang 
shaoshu minzu xueqian ``shuangyu'' jiaoyu de yijian], issued 2005, as 
cited in `` `Eight Questions' About Xinjiang `Bilingual' Education 
Work,'' Tianshan Net. Commission staff was unable to locate the 
original text of this opinion.
    \99\ ``[XUAR] Department of Finance Allocates 70.39 Million Yuan To 
Support Preschool `Bilingual' Education'' [Caizhengting xiabo 7039 wan 
yuan zhichi xueqian ``shuangyu'' jiaoyu], Xinjiang Daily (Online), 12 
November 07; `` `Bilingual' Policy Reduces Use of Ethnic Minority 
Languages in Xinjiang Preschools,'' CECC China Human Rights and Rule of 
Law Update. The subsidies include 1.5 yuan each day per child for daily 
expenses, 20 yuan yearly per child for teaching materials, and a 400 
yuan monthly subsidy per teacher. The government had announced 
subsidies for ``bilingual'' preschool education at least as early as 
2005. ``Xinjiang Official Describes Plan to Expand Use of Mandarin in 
Minority Schools,'' CECC China Human Rights and Rule of Law Update.
    \100\ ``105 Teachers College Students Go to Kashgar, Xinjiang To 
Support Educational Undertakings'' [105 ming shifansheng fu xinjiang 
kashi zhijiao], Urumqi Evening News, reprinted in Tianshan Net 
(Online), 28 February 08; `` `Bilingual' Policy Reduces Use of Ethnic 
Minority Languages in Xinjiang Preschools,'' CECC China Human Rights 
and Rule of Law Update.
    \101\ ``State To Invest 3.75 Billion Yuan To Support Xinjiang 
`Bilingual' Preschool Education'' [Guojia jiang touru 37.5 yi yuan 
zhichi xinjiang xueqian ``shuangyu'' jiaoyu], Xinjiang Daily, reprinted 
in Tianshan Net (Online), 12 September 08.
    \102\ In June 2007, official media reported that 42.8 percent of 
rural preschool-age children in Yengisheher county, Kashgar district, 
were enrolled in ``bilingual'' preschool programs. ``40 Percent of 
Rural Youngsters of Appropriate Age Attend `Bilingual' Preschools, 
`Bilingual' Preschool Education Welcomed by the Farmers of 
Yengisheher'' [Si cheng nongcun shiling ertong jiudu ``shuangyu'' 
you'eryuan xueqian ``shuangyu'' jiaoyu shou shule nongmin huanying], 
Xinjiang Daily (Online), 22 June 07. In December 2007, official media 
reported that in 2008, all urban ethnic minority children and 90 
percent of rural preschool-age ethnic minority children in Bayin'gholin 
Mongol Autonomous Prefecture--which has a predominantly Uyghur ethnic 
minority population--would receive ``bilingual'' education. ``Ethnic 
Minority Youngsters of the Appropriate Age Receive `Bilingual' 
Education'' [Shaoshu minzu shiling ertong jieshou ``shuangyu'' 
jiaoxue], Tianshan Net (Online), 26 December 07. The article also noted 
that all urban elementary school students in first grade and higher 
would receive ``bilingual'' education, as would over 80 percent of 
their rural counterparts. For statistics on the ethnic minority 
population within the prefecture, see ``Introduction to the General 
Situation in the Bayin'gholin Mongol Autonomous Prefecture'' 
[Bayinguoleng menggu zizhizhou gaikuang jianjie], Xinjiang Investment 
Net (Online), 24 December 07.
    \103\ Xinjiang Education Department, ``Notice Concerning Soliciting 
Opinions on `Opinion Concerning the Vigorous and Reliable Promotion of 
Ethnic Minority Preschool and Elementary and Secondary ``Bilingual'' 
Education Work (Draft for Soliciting Opinions).' ''
    \104\ See, e.g., Uyghur Human Rights Project (Online), ``Uyghur 
Language Under Attack: The Myth of `Bilingual' Education in the 
People's Republic of China,'' 24 July 07, 8-9; ``Atush Starts Mandarin 
Chinese-Strengthening Training Class in Shenyang'' [Atushi kaiban fu 
shenyang jiaoshi hanyu qianghua peixunban], Qizilsu News, reprinted on 
the Qizilsu Kyrgyz Autonomous Prefecture Government Web site, 16 August 
06; ``China Imposes Chinese Language on Uyghur Schools,'' Radio Free 
Asia (Online), 16 March 04. See also Xinjiang Education Department, 
``Notice Concerning Soliciting Opinions on `Opinion Concerning the 
Vigorous and Reliable Promotion of Ethnic Minority Preschool and 
Elementary and Secondary ``Bilingual'' Education Work (Draft for 
Soliciting Opinions).' '' The opinion calls for giving ``appropriate 
placements'' to older teachers with poor Mandarin skills.
    \105\ ``Autonomous Region Chair Nur Bekri Responds to Separatists' 
Attack on Bilingual Education'' [Zizhiqu zhuxi nu'er baikeli huiying 
fenlie fenzi dui shuangyu jiaoyu gongji], Xinjiang Metropolitan News, 
reprinted in Xinhua (Online), 5 March 08; `` `Bilingual' Policy Reduces 
Use of Ethnic Minority Languages in Xinjiang Preschools,'' CECC China 
Human Rights and Rule of Law Update.
    \106\ Uyghur Human Rights Project (Online), ``Deception, Pressure, 
and Threats: The Transfer of Young Uyghur Women to Eastern China,'' 8 
February 08, 4-6.
    \107\ ``Uyghur Girls Forced Into Labor Far From Home By Local 
Chinese Officials,'' Radio Free Asia (Online), 11 July 07.
    \108\ Radio Free Asia (RFA) reported that the government announced 
in 2004 that all forced labor (hashar, sometimes also translated as 
``corvee labor'') would be abolished by the end of 2005. While one 
government official whom RFA broadcasters contacted said that workers 
were paid and would become owners of the base, another official 
contacted by RFA said that the laborers would not be paid. The spouse 
of a third official, who answered a telephone call from RFA, surmised 
that workers would not be paid. A farmer contacted by RFA reported that 
20 laborers per small village were required to work at the site without 
pay, and were required to pay a fine if they refused. For information 
in English, see RFA's blog ``RFA Unplugged.'' ``Forced, Unpaid Labor 
for Uyghurs in China's Almond Groves,'' RFA Unplugged (Online), 9 April 
07. For Uyghur-language reporting on the topic, see, e.g., Gulchehre, 
``Forced Labor Started Once Again in Kashgar Villages'' [Qeshqer 
yezilirida hashar yene bashlandi], Radio Free Asia (Online), 7 February 
07; Gulchehre, ``100,000 Farmers in Yeken [County] Involved in Wide-
Scale Forced Labor'' [Yekende yuz ming dehqan keng kolemlik hashargha 
tutuldi], Radio Free Asia (Online), 11 March 07.
    \109\ Kashgar District Government (Online), ``Yeken [Yarkand] 
County Starts Springtime Wave To Cultivate Desert Land'' [Shachexian 
xianqi chunji gebi kaihuang zaotian rechao], 9 March 07; Kashgar 
District Government (Online), ``100,000 Rural Laborers Build Pistachio 
Base in Yeken [Yarkand] County'' [Shachexian 10 wan nongmingong jianshe 
kaixinguo jidi], 20 March 07.
    \110\ Gulchehre, ``Forced Labor Begins Again on Wide Scale in 
Kashgar Villages'' [Qeshqer yezilirida keng kolemlik hashar yene 
bashlandi], Radio Free Asia (Online), 20 March 08.
    \111\ ``Work-Study Programs Using Child Labor Continue in 
Xinjiang,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5; ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11.
    \112\ According to one report, personnel shortcomings have meant 
that ``there is no way to guarantee the use of ethnic minority 
languages to carry out litigation.'' ``Meticulously Picking Talent: 
Problem of Faultline in Xinjiang Courts Makes First Steps at 
Improvement'' [Jingxin linxuan rencai xinjiang faguan duanceng wenti 
chubu huanjie], Tianshan Net (Online), 7 February 06. See also ``Lack 
of Ethnic Minority Judges in Xinjiang Basic-Level Courts Especially 
Prominent'' [Xinjiang jiceng fayuan shaoshu minzu faguan buzu youwei 
tuchu], Xinhua (Online), 22 November 07; ``Courts Throughout Country To 
Join Forces To Help Xinjiang'' [Quanguo fayuan jiang heli yuan jiang], 
Tianshan Net (Online), 20 August 07. The shortage of legal personnel 
and interpreters who speak ethnic minority languages also impacts legal 
proceedings outside the XUAR, especially since the Supreme People's 
Court returned to the process of reviewing all death sentences levied 
within China. See ``China Exclusive: More Ethnic Judges, Translators 
Needed To Cope With Stricter Death Penalty,'' Xinhua, 13 March 07 (Open 
Source Center, 13 March 07). For legal bases to have judicial 
proceedings conducted in one's native language, see, e.g., PRC 
Constitution, art. 134; Regional Ethnic Autonomy Law, enacted 31 May 
84, amended 28 February 01, art. 47; Criminal Procedure Law, enacted 1 
January 79, amended 17 March 96, art. 9; Administrative Procedure Law, 
enacted 4 April 89, art. 8; Civil Procedure Law, enacted 9 April 91, 
amended 28 October 07, art. 11; Xinjiang Uyghur Autonomous Region 
Regulation on Spoken and Written Language Work [Xinjiang weiwu'er 
zizhiqu yuyan wenzi gongzuo tiaoli], issued 25 September 93, amended 20 
September 02, art. 12.
    \113\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
Is Launched'' [Quanguo fayuan duikou zhiyuan xinjiang fayuan gongzuo 
qidong], Xinhua (Online), 14 August 07; ``Xinjiang Actively Constructs 
Troops of Ethnic Minority Lawyers'' [Xinjiang jiji jianshe shaoshu 
minzu lushi duiwu], Xinhua, reprinted in Tianshan Net (Online), 15 
October 07. There were 316 ethnic minority lawyers, or 15 percent of 
the total population, in 2006. ``Xinjiang Bilingual Lawyers and Courts 
Develop with Grace'' [Xinjiang shuangyu lushi fating zhan fengcai], 
Tianshan Net (Online), 19 May 2006. For information on conditions in an 
individual prefecture, see a description of the Ili Kazakh Autonomous 
Prefecture, which has 23 ethnic minority lawyers out of a total of 163, 
in ``Xinjiang Uyghur Autonomous Region Sorely Lacks Ethnic Minority 
Lawyers'' [Xinjiang weiwuer zizhiqu shaoshu minzu lushi qique], Uyghur 
Online, 20 April 07.
    \114\ ``First Bilingual Law Firm in China Hangs Out Its Shingle'' 
[Guonei shoujia shuangyu lushisuo jiepai], Xinjiang Legal Daily 
(Online), 30 March 06.
    \115\ For an example of efforts to promote staffing in underserved 
areas, see, e.g., ``Meticulously Picking Talent: Problem of Faultline 
in Xinjiang Courts Makes First Steps at Improvement,'' Tianshan Net.
    \116\ ``Xinjiang Uyghur Autonomous Region Sorely Lacks Ethnic 
Minority Lawyers,'' Uyghur Online.
    \117\ ``Our Region Acts to Train Minority-Han High-Level Bilingual 
Talent'' [Woqu chutai jucuo peiyang minhan jiantong gao cengci shuangyu 
rencai], Xinjiang Daily (Online), 27 September 07.
    \118\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
Is Launched,'' Xinhua.
    \119\ Ibid.
    \120\ Supreme People's Court, ``National Forum Opens To Discuss 
Courts' Work To Assist Their Counterparts in Xinjiang--Jiang Xingchang 
Calls For Forming a Long-Term Mechanism To Assist Xinjiang and Raise 
the Judicial Capability of Its Courts,'' 14 August 07 (Open Source 
Center, 20 August 07).
    \121\ Yan Wenlu, ``Xinjiang Higher People's Court To Sternly Crack 
Down on Crimes of the `Three Forces' in Accordance With the Law,'' 
China News Agency, 15 August 08 (Open Source Center, 15 August 08).

    Notes to Section V--Tibet
    \1\ ``China Detains Tibetan Monks Protesting on Key Anniversary,'' 
Radio Free Asia (Online), 10 March 08.
    \2\ See The Crisis in Tibet: Finding a Path to Peace, Hearing of 
the Committee on Foreign Relations, U.S. Senate, 23 April 08, Written 
Statement Submitted by Steven Marshall, Senior Advisor, Congressional-
Executive Commission on China. See also, ``Protests Fueled by Patriotic 
Education Continue Amidst Lockdowns,'' Congressional-Executive 
Commission on China (Online), 10 April 08.
    \3\ Intermittent armed conflict between Tibetans and the People's 
Liberation Army (PLA) took place at various times and locations 
following establishment of the People's Republic of China on October 1, 
1949, and continued through the 1950s as the PLA cemented political 
control in ethnic Tibetan areas that today comprise the Tibet 
Autonomous Region (TAR), the 10 Tibetan Autonomous Prefectures (TAPs), 
and 2 Tibetan Autonomous Counties (TACs) located in Qinghai, Gansu, 
Sichuan, and Yunnan provinces.
    \4\ The past 25 years (since approximately 1983) in the Tibetan 
areas of China have been characterized by factors including the Tibetan 
rebuilding of the Tibetan Buddhist monastic institution and the 
resumption of Tibetan Buddhism as a central (though constrained) 
feature in the lives of most Tibetans. See, e.g., Tibetan Centre for 
Human Rights and Democracy (TCHRD) (Online), ``Human Rights Situation 
in Tibet: Annual Report 2005,'' 118. TCHRD notes in note 72 that the 
period from 1983 to 1987 ``was one of rapid growth for monasteries and 
nunneries.'' Tibet Information Network, ``News Review No. 26: Reports 
From Tibet, 1997,'' April 1998, 4. The news summary notes, ``Until 1983 
some 70 monks at Drepung monastery were married men with families.''
    \5\ CECC, 2007 Annual Report, 10 October 07, Section IV. ``Tibet: 
Special Focus for 2007'' provides an overview of Commission Annual 
Report coverage since 2002 of key Tibetan issues.
    \6\ The 12 county-level areas are: Lhasa city, Duilongdeqing 
(Toelung Dechen), Linzhou (Lhundrub), and Dazi (Tagtse) counties, 
located in Lhasa municipality in the TAR; Aba (Ngaba) and Ruo'ergai 
(Dzoege) counties, located in Aba Tibetan and Qiang Autonomous 
Prefecture in Sichuan province; and Xiahe (Sangchu), Maqu (Machu), Luqu 
(Luchu), Zhuoni (Chone), and Diebu (Thewo) counties, and Hezuo (Tsoe) 
city, located in Gannan (Kanlho) TAP in Gansu province. ``Judgments 
Pronounced Publicly on Some Defendants Involved in Lhasa's `14 March' 
Incident,'' Xinhua, 29 April 08 (Open Source Center, 30 April 08). The 
Xinhua article refers to five monks sentenced for rioting in Dechen 
township of Duilongdeqing county. ``94 Criminal Suspects in Linzhou 
County Surrender Themselves to Justice,'' Tibet Daily, 19 March 08 
(Open Source Center, 19 March 08). The Tibet Daily article reports the 
surrender of persons allegedly involved in ``serious incidents of 
beating, smashing, looting, and burning'' in Linzhou county. ``Tibet 
Issues Arrest Warrants for 16 Suspects In Riot,'' Xinhua (Online), 5 
April 08. According to the April article in Xinhua, the 16 suspects 
allegedly took part in a March 15 riot in Dechen township, located in 
Dazi county. ``Police: Four Rioters Wounded Sunday in Aba of SW 
China,'' Xinhua (Online), 20 March 08. The Xinhua article from March 
reports Tibetan rioting in Aba (Ngaba) county, Aba Tibetan and Qiang 
Autonomous Prefecture, Sichuan province. Security forces reportedly 
shot and wounded four Tibetans. (The Tibetan Centre for Human Rights 
and Democracy reported on March 18 that security forces shot and killed 
at least 18 Tibetans.) ``Lies Cannot Conceal Evil Nature,'' Sichuan 
Daily, 10 April 08 (Open Source Center, 16 April 08). The Sichuan Daily 
article alleges that on March 15, Lhamo Kirti (Tagtsang Lhamo) 
Monastery monks attacked government offices, police stations, and 
shops. Similar incidents reportedly took place elsewhere in Ruo'ergai. 
``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua (Online), 9 
April 08. According to this Xinhua article: ``From March 14 to 19, 
assaults, vandalism, looting and arson occurred in the Xiahe, Maqu, 
Luqu, Jone, Hezuo and Diebu areas of Gannan . . . .''
    \7\ ``Protests Fueled by Patriotic Education Continue Amidst 
Lockdowns,'' Congressional-Executive Commission on China (Online), 10 
April 08.
    \8\ ``Dalai-Backed Violence Scars Lhasa,'' Xinhua (Online), 15 
March 08; ``China Clamps Down on Tibetan Protests As Many Deaths, 
Injuries Reported,'' Radio Free Asia (Online), 14 March 08; Jim 
Yardley, ``Chinese Police Clash With Tibet Protesters,'' New York Times 
(Online), 15 March 08.
    \9\ ``Police, Officials Hurt in Sichuan Riots,'' Xinhua (Online), 
20 March 08; ``Violence, Protests Spread From Tibet to Western China,'' 
Radio Free Asia (Online), 16 March 08; Benjamin Kang Lim and Chris 
Buckley, ``Tibetan Riots Spread, Security Lockdown in Lhasa,'' Reuters 
(Online), 16 March 08.
    \10\ ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua; 
TibetInfoNet (Online), `` `The World Will Not Look Away.' 
Demonstrations in Amdo Machu and Region,'' 17 March 08.
    \11\ Jill Drew, ``Tibet Protests Turn Violent, Shops Burn in 
Lhasa,'' Washington Post (Online), 14 March 08. According to the 
report, ``The confrontations, initially led by monks, were joined 
Friday by hundreds of Tibetan civilians, who began attacking shops 
owned by ethnic Han and Hui Chinese. Street fights between Tibetans and 
Chinese continued into the night, according to reports from the 
region.'' International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 54. The report quotes an eyewitness description of activity 
on March 14 near Ramoche Temple in Lhasa: ``Then they poured into 
Tromsikhang [the market at the corner of Barkhor Street] from Ramoche 
Temple. On the way, many shops owned by Chinese and Chinese Muslims 
(Hui) were destroyed.''
    \12\ ``Number of Rioters Surrendering to Police Tops 280 in 
Lhasa,'' Xinhua (Online), 26 March 08 (``Rioters [in Lhasa] . . . 
attacked schools, banks, hospitals, shops, government offices, 
utilities and state media offices. Damage is estimated at more than 244 
million yuan (34.4 million U.S. dollars).''); ``More Than 200 Injured, 
Shops Set Alight in Aba Riot,'' Xinhua, reprinted in China Daily 
(Online), 3 April 08 (``More than 200 people were injured and 24 shops 
and 81 vehicles were set alight in the March 16 riot in the Aba Tibetan 
and Qiang Autonomous Prefecture of southwestern China, an official said 
Thursday.''); ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua 
(``From March 14 to 19, assaults, vandalism, looting and arson occurred 
in the Xiahe, Maqu, Luqu, Jone, Hezuo and Diebu areas of Gannan, 
leaving 94 people injured and incurring 230 million yuan (32.8 million 
U.S. dollars) in damages.'')
    \13\ See, e.g., Jim Yardley, ``Tibetans Clash With Chinese Police 
in 2nd City,'' New York Times (Online), 16 March 08. The New York Times 
reported that according to a Tibetan in India who spoke by phone to 
Tibetan protesters in Xiahe county, Gansu province, thousands of 
protesters on March 16 shouted slogans including, ``The Dalai Lama must 
return to Tibet.'' Tibetan Centre for Human Rights and Democracy 
(Online), ``Scores of Tibetans Arrested for Peaceful Protest in 
Lhasa,'' 11 March 08. On March 10 in Guinan (Mangra) county, Qinghai 
province, a few hundred protesters shouted slogans calling for the 
Dalai Lama to return to Tibet. Tibetan Centre for Human Rights and 
Democracy (Online), ``Around 40 Middle School Students Arrested in 
Marthang,'' 17 March 08. Approximately 100 Tibetan middle school 
students in Hongyuan (Kakhog, or Marthang) county, Sichuan province, 
demonstrated inside the school compound, calling for the return of the 
Dalai Lama to Tibet.
    \14\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Protest Erupts After Prayer for Deceased in Drango 
County,'' 25 March 08. More than 400 monks in Luhuo (Draggo) county, 
Ganzi TAP, Sichuan province, shouted slogans on March 25 including, 
``Release [the] Panchen Lama.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``Hundreds of Tibetans Protested in Chentsa, Malho 
`TAP,' Qinghai Province,'' 25 March 08. Hundreds of Tibetans protesting 
on March 22 in Jianza (Chentsa) county, Huangnan (Malho) TAP, Qinghai 
province, carried photographs of the Dalai Lama and Panchen Lama, and 
shouted slogans including, ``Release the eleventh Panchen Lama Erdeni 
Gedun Choekyi Nyima.'' ``Latest Updates on Tibet Demonstrations,'' 
Radio Free Asia (Online), 25 March 08. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \15\ See, e.g., ``Tibet Update (1),'' China Digital Times (Online), 
last visited on 18 June 08. The Drepung monks ``joined the peaceful 
demonstration, demanding the freedom for religious belief.'' In another 
protest, several hundred Labrang Tashikhyil monks and ordinary citizens 
staged a protest march on March 14 and shouted slogans including, 
``Return us to religion freedom.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``China Detains Drakar and Gaden Choeling Nuns in 
Kardze,'' 17 May 08. Two nuns were detained for calling for religious 
freedom, among other things. The detentions sparked a larger protest 
resulting in the detention of at least 10 more nuns. ``Tibet Monks 
Disrupt Tour by Journalists,'' Associated Press, reprinted in New York 
Times (Online), 27 March 08. On March 27, a group of Jokhang Temple 
monks shouted that there was no religious freedom when a group of 
international journalists on a government-handled tour visited the 
temple.
    \16\ International Campaign for Tibet (Online), ``Climate of Fear 
as Olympic Torch Arrives in Lhasa,'' 20 June 08. According to ICT, of 
125 ``separate incidents of dissent'' that the organization documented, 
``47 have been carried out by monks, 44 by laypeople, and 28 by both 
monks and laypeople.''
    \17\ The Dalai Lama is the foremost religious teacher of the Gelug 
tradition of Tibetan Buddhism, whose adherents at present are more 
numerous than those of other traditions of Tibetan Buddhism such as the 
Nyingma, Kargyu, and Sakya. The Crisis in Tibet: Finding a Path to 
Peace, Hearing of the Subcommittee on Asian and Pacific Affairs, 
Committee on Foreign Relations, U.S. Senate, 23 April 08, Written 
Statement Submitted by John Negroponte, Deputy Secretary of State. 
Deputy Secretary Negroponte described the Dalai Lama as ``the 
undisputed spiritual leader of the Tibetan people,'' and ``the 
spiritual leader of the vast majority of Tibetans.''
    \18\ See, for example, Tibetan Centre for Human Rights and 
Democracy (Online), ``Mobile Phone Pictures Depict Intensity of 
Demonstration in Amdo Labrang,'' 14 March 08. A protest demonstration 
by Labrang Tashikhyil monks ``eventually grew into thousands when 
laypeople also joined in.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``At Least Eight Shot Dead in Tongkor Monastery in 
Kardze,'' 5 April 08. Approximately 300 Tongkor Monastery monks 
marching in protest toward government offices were ``later joined by 
hundreds of laypeople.'' ``Tibetans Wounded in Sichuan Protest,'' Radio 
Free Asia (Online), 5 April 08. ``Local people'' joined protesting 
monks from Nyatso Monastery (referred to as ``Mintso'' in the article), 
increasing the crowd to about 1,000 persons.
    \19\ ``Door of Dialogue Still Opens to Dalai: Premier,'' Xinhua 
(Online), 18 March 08. ``There are ample facts and plenty of evidence 
to prove that the riot in Lhasa was organized, premeditated, 
masterminded and incited by the Dalai Lama clique, said Wen.''
    \20\ ``Hao Peng: Patriotic Education Should Be Reinforced Among 
Buddhist Monks at Monasteries,'' China Tibet News, 5 April 08 (Open 
Source Center, 10 April 08). Speaking to the Tashilhunpo Monastery 
Democratic Management Committee, Deputy Party Secretary Hao Peng called 
on the committee to ``educate the masses of monks so that they can see 
clearly the true colors of Dalai and recognize that Dalai has not been 
a Buddhist monk since a long time ago but a politician that engages 
himself in the evil deeds of separating the motherland by means of 
beating, smashing, looting, and burning under the disguise of a lama 
and under the signboard of Buddhism . . . .''
    \21\ Significant factors were Zhang Qingli's arrival in the TAR as 
Acting Party Secretary in November 2005, his promotion to TAR Party 
Secretary in May 2006, the TAR government Standing Committee's issuance 
of the TAR Implementing Measures for the ``Regulation on Religious 
Affairs'' in September 2006, and the State Administration for Religious 
Affairs issuance in July 2007 of the Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism. ``Zhang Qingli 
Becomes New Party Chief of Tibet,'' Xinhua (Online), 29 May 07; 
``Xinjiang Communist Party Official Promoted to Acting Secretary of the 
Tibet Autonomous Region,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 19; Tibet Autonomous Region Implementing Measures 
for the ``Regulation on Religious Affairs'' (Trial Measures) [Zizang 
zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa (shixing)] [hereinafter 
TAR 2006 Measures], issued 19 September 06, effective 1 January 07; 
State Administration for Religious Affairs, Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan 
fojiao huofo zhuanshi guanli banfa], issued 13 July 07, effective 1 
September 07.
    \22\ For example, ``Chinese Foreign Ministry Says: We Hope the 
Dalai Will Treasure the Opportunity of Consultation, and Stop his 
Separatist and Sabotage Activities,'' Xinhua, 29 April 08 (Open Source 
Center, 29 April 08). Ministry of Foreign Affairs spokeswoman Jiang Yu 
said on April 29, ``We hope the Dalai will treasure the opportunity of 
consultation, stop his violent and criminal activities with concrete 
actions, stop his activities to interrupt and sabotage the Beijing 
Olympic Games, and stop his activities to split the motherland so as to 
create conditions for the next consultation.''
    \23\ ``Dalai Lama, Wolf in Human Shape,'' China Tibet News, 21 
March 08 (Open Source Center, 24 March 08).
    \24\ ``Unifying the Masses' Hearts and Will To Fight a People's War 
Against Separatism and To Maintain Stability: The Tibet Autonomous 
Region Holds a Video/Telephone Conference on Handling the `3.14 
Incident' and Maintaining the Region's Stability; Zhang Qingli Gives 
Important Speech,'' China Tibet News, 19 March 08 (Open Source Center, 
19 March 08).
    \25\ ``State Councilor and Minister of Public Security Meng Jianzhu 
Heads Central Work Team on Tibet Inspection,'' China Tibet News, 25 
March 08 (Open Source Center, 25 March 08). Meng Jianzhu said, ``[W]e 
must continue to deepen education in patriotism in the monasteries and 
temples, and unfold in depth there propaganda and education in the 
ethnic and religious policies and the legal system . . . .'' ``Hongyuan 
Begins `Maintaining Stable Thinking Among the Masses' Educational 
Campaign,'' Sichuan News, 27 March 08 (Open Source Center, 27 March 
08). OSC summary: officials in Hongyuan County began a campaign to show 
herdsmen and local farmers the ``truth'' of the March 14 events in 
Lhasa. ``Qiang Wei Stresses the Importance of Resolutely and 
Unswervingly Struggling Against Separatism, Safeguarding Stability, and 
Promoting Unity,'' Qinghai Daily, 29 March 08 (Open Source Center, 1 
April 08) (``We should continuously step up the education campaign and 
extensively reveal the true features of the Dalai clique in separating 
the motherland and sabotaging national unity. We should carry on legal 
system education with a great fanfare. We should make more efforts in 
providing public opinion guidance.''); Jill Drew, ``In Tibetan 
Monasteries, the Heavy Hand of the Party,'' Washington Post (Online), 6 
April 08 (``After widespread protests swept the Tibetan plateau last 
month, Chinese leaders responded with a combination of arrests, 
interrogations and vigorous education campaigns.''); Tibetan Centre for 
Human Rights and Democracy (Online), ``12 Monks of Dingri Shelkar 
Choedhe Monastery Arrested for Opposing the `Patriotic Re-education' 
Campaign,'' 31 May 08 (``The stipulated two-months' renewed ``Patriotic 
re-education'' campaign launched at the beginning of April following 
unprecedented protests across Tibetan plateau since 10 March, not only 
permeates the monastic institutions but also government employees, 
security forces, farmers, nomads, private entrepreneurs and educational 
institutions.'').
    \26\ See, for example, Woeser (Oezer), ``Woeser: Tibet Update (May 
1-6, 2008),'' China Digital Times (Online), last visited 4 June 08. 
April 30, Gonsar Monastery, Dege county, Ganzi (Kardze) TAP, Sichuan 
province: ``[T]he work team force the monks to sign their names in the 
official document entitled ``Expose and Criticize the Dalai Separatist 
Clique'', and also demanded each monk to hand in two photos to paste on 
the document.'' Woeser, ``Tibet Update (2),'' China Digital Times 
(Online), last visited 12 June 08. April 12, Ganzi TAP: officials told 
``religious leaders and other figures'' attending ``emergency 
meetings'' in Ganzi's 18 counties to sign documents ``opposing the 
Dalai Lama.''
    \27\ See, for example, ``Personalities From All Walks of Life in 
Qinghai Province Strongly Condemn Lhasa Violent Crime Incident,'' 
Qinghai Daily, 1 April 08 (Open Source Center, 7 April 08). ``Cadre 
conferences, meetings of villagers, seminars of non-Party personages, 
and seminars of religious figures have been convened in various 
locations in our province in recent days, to continue to expose and 
criticize the Dalai Lama clique's reactionary nature and its monstrous 
crimes which disrupt stability in Tibet.'' ``Update for Friday, 4 April 
08,'' Tibetan Government-in-Exile (Online), 4 April 08. April 2, 
Bathang Choede Monastery, Batang (Bathang) county, Ganzi (Kardze) TAP, 
Sichuan province: officials pressured 200 monks to sign a statement 
alleging that the Dalai Lama ``was responsible for inciting the recent 
demonstrations in Tibet.'' The monks refused to sign the document, 
resulting in an argument with officials that led to the detention of 
five monks, including abbot Jigme Dorje and disciplinarian Yeshe.
    \28\ ``China Publishes Evidences of Dalai Clique's Masterminding of 
Riots,'' Xinhua (Online), 1 April 08. ``Solid facts showed that the 
unrest in Lhasa, the capital of southwest China's Tibet Autonomous 
Region, was organized, premeditated, masterminded and instigated by the 
Dalai clique and its `Tibet independence' forces.'' ``Subsequently, the 
`Tibet independence' forces in the United States proposed the idea of 
the `Tibetan People's Uprising Movement.' Senior officials of the Dalai 
clique studied and approved the plan. They believed that 2008 would be 
their last chance to achieve `Tibet independence' and decided to use 
the `favorable opportunity' before the Olympics to stage sabotage 
activities in the Tibetan-inhabited areas in China.''
    \29\ Tibetan People's Uprising Movement (Online), ``Press Release: 
Launch of the Tibetan People's Uprising Movement,'' 4 January 08. TPUM 
was established in January 2008 as ``a new coordinated Tibetan 
resistance effort in the lead up to the 2008 Beijing Olympics.'' The 
alliance consists of five Tibetan organizations: the TYC, the Tibetan 
Women's Association, the Gu Chu Sum Movement of Tibet (an organization 
established by former Tibetan political prisoners), the National 
Democratic Party of Tibet, and the India chapter of Students for a Free 
Tibet. TYC President Tsewang Rigzin described TPUM as ``a unified 
movement to bring about an end to Chinese rule in Tibet.''
    \30\ Tibetan Youth Congress (Online), ``About Us,'' last visited 3 
June 08. The TYC was established in October 1970. Among the four 
``tasks'' assigned to TYC members are, ``To dedicate oneself to the 
task of serving one's country and people under the guidance of His 
Holiness the Dalai Lama, the Spiritual and Temporal Ruler of Tibet,'' 
and, ``To struggle for the total independence of Tibet even at the cost 
of one's life.'' (The TYC does not, however, accept the Dalai Lama's 
guidance on seeking ``genuine autonomy'' for ``Tibet'' under Chinese 
sovereignty, nor does the TYC expressly disavow the use of violence in 
the campaign for independence.)
    \31\ Office of His Holiness the Dalai Lama (Online), ``His 
Holiness's Middle Way Approach For Resolving the Issue of Tibet,'' last 
visited 3 June 08.
    \32\ Tibetan People's Uprising Movement (Online), ``Background,'' 
last visited 16 September 08.
    \33\ ``China Publishes Evidences of Dalai Clique's Masterminding of 
Riots,'' Xinhua. ``To implement the `Tibetan People's Uprising 
Movement,' the `Tibetan Youth Congress' and other `Tibet independence' 
organizations held two training classes on how to carry out violent, 
terrorist activities.''
    \34\ The English language version of the Xinhua report attributed 
the monks' actions to ``the Dalai Lama.'' The Chinese language version, 
however, attributed the monks' actions to ``the Dalai clique.'' 
Substituting ``Dalai Lama'' in the English language version for ``Dalai 
clique'' in the original Chinese version indicates the level of state-
run media interest in associating nominally ``terrorist'' events with 
the Dalai Lama, especially in international (English) reporting, 
whether or not there is a factual basis for doing so. ``Police in Tibet 
Arrest 16 Monks as Bombing Suspects,'' Xinhua (Online), 5 June 08; 
``Individual Monks in Changdu Area Carried Out Bombings To Echo the `14 
March' Incident. Public Security Organs in Tibet Cracked Three Cases in 
a Row and Daunted the `Tibet Independence' Forces,'' Xinhua, 5 June 08 
(Open Source Center, 6 June 08).
    \35\ ``Tibetans Jailed For Blasts,'' Radio Free Asia (Online), 2 
October 08. According to the article, the court sentenced four Oezer 
(Oser) Monastery monks and a total of five monks from Gonsar Monastery 
and Khenpa Lung Monastery to imprisonment for involvement in setting 
off a series of small explosions in Mangkang (Markham) county. An 
official told RFA that the blasts caused no casualties and minimal 
damage to government property.
    \36\ Terry Friel, ``Dalai Lama Rejects Tibetan Buddhist Praise of 
China,'' Reuters (Online), 29 December 05.
    \37\ ``Think Like a Mosquito--Lhasang,'' Phayul (Online), 25 
February 07; Tibetan Youth Congress (Online), ``Lhasang Tsering'' 
[short bio], last visited 2 August 07. Lhasang Tsering served as TYC 
President from 1986 to 1990.
    \38\ Office of His Holiness the Dalai Lama (Online), ``Statement of 
His Holiness the Dalai Lama to All Tibetans,'' 6 April 08.
    \39\ Ibid. On the Olympics, the Dalai Lama said, ``I have from the 
very beginning supported the holding of these Games in Beijing. My 
position on this remains unchanged. I feel the Tibetans should not 
cause any hindrance to the Games.''
    \40\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, April 2008. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003.
    \41\ Ibid.
    \42\ Ibid.
    \43\ H.R. Con. Res. 196, 110th Cong. (2007) (``Authorizing the use 
of the Rotunda and grounds of the Capitol for a ceremony to award the 
Congressional Gold Medal to Tenzin Gyatso, the Fourteenth Dalai 
Lama.'') The House Concurrent Resolution provided for the award 
ceremony to take place in the Capitol Rotunda, and for the Capitol 
grounds to be available for a public event sponsored by the 
International Campaign for Tibet.
    \44\ S. 2784, Fourteenth Dalai Lama Congressional Gold Medal Act, 
The Library of Congress (Online), enacted 27 September 06; 
International Campaign for Tibet (Online), ``U.S. Congress Passes Bill 
To Award the Dalai Lama the Congressional Gold Medal: Bill Cosponsored 
by 387 Members of U.S. House and Senate,'' 13 September 06. The bill 
was introduced as S. 2782 by Senators Dianne Feinstein and Craig 
Thomas, and as H.R. 4562 by Representatives Ileana Ros-Lehtinen and Tom 
Lantos.
    \45\ ``Dalai Lama's Envoys To Begin China Visit on May 3,'' 
Congressional-Executive Commission on China (Online), 4 May 08. The 
report lists the six previous sessions of dialogue: September 2002, 
May-June 2003, September 2004, June-July 2005, February 2006, and June-
July 2007. All of them took place in China except in 2005, when the 
envoys met their counterparts in Bern, Switzerland.
    \46\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari,'' Tibetan Government-in-Exile (Online), 8 
May 08.
    \47\ Ibid.
    \48\ Ibid.
    \49\ Ibid.
    \50\ Office of His Holiness the Dalai Lama (Online), ``Statement of 
His Holiness the Dalai Lama to All Tibetans,'' 6 April 08.
    \51\ ``Full Transcript of Interview with the Dalai Lama,'' 
Financial Times (Online), 25 May 08. In response to the question, 
``What are your priorities for these talks? '' the Dalai Lama said, 
``Stop the arrests, and release [the arrested].'' To the question, 
``[I]f there were one or two gestures or concrete gestures that the 
Chinese could make, what would they be, to pass your test? '' the Dalai 
Lama responded, ``Then stop, inside Tibet, arresting and torture. This 
must stop. And then they should bring proper medical facilities. And 
most important, international media should be allowed there, should go 
there, and look, investigate, so the picture becomes clear.''
    \52\ ``President Hu: Next Contact With Dalai Lama To Be Held at 
Appropriate Time,'' Xinhua (Online), 7 May 08.
    \53\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari,'' Tibetan Government-in-Exile (Online), 5 
July 08.
    \54\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua, 6 July 08 (Open 
Source Center, 7 July 08).
    \55\ ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China (Online), 30 July 08. The Dalai Lama has expressed support for 
the 2008 Beijing Olympic Games; he counsels Tibetans not to engage in 
violent activity; he does not lead the Tibetan Youth Congress (which 
does not support the Dalai Lama's Middle Way Approach); he seeks 
``genuine autonomy,'' not independence. The Dalai Lama's Special Envoy 
said in his July 5, 2008, statement that the envoys ``categorically 
rejected the Chinese attempt to label [the TYC] as a violent and 
terrorist organization.''
    \56\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua. ``Comrade Du 
Qinglin raised in clear-cut terms a requirement of `four no support's' 
for Dalai; in other words, if Dalai Lama truly wished to do something 
useful for the country, the nation, and the well-being of the Tibetan 
people in his remaining years, he should give an open and explicit 
promise and take corresponding actions in the forms of giving no 
support for activities that aimed to disturb and sabotage the Beijing 
Olympic Games, giving no support for and making no attempt to conspire 
and incite violent criminal activities, giving no support for and 
taking earnest steps to check the violent terrorist activities of the 
`Tibetan Youth Association,' and giving no support for any 
[propositions] or activities that sought to achieve `Tibet 
independence' and split the motherland.''
    \57\ ``Beijing Holds Talks With Dalai's Representatives,'' Xinhua, 
reprinted in China Daily (Online), 3 July 08.
    \58\ ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China. For example, Chinese government pressure on the Dalai Lama to 
take action against ``propositions or activities'' in support of 
Tibetan independence is important because Chinese government targets 
are not limited to plans or activities that include violence--Chinese 
targets include a point of view and the peaceful expression of it. Many 
of the countries where Tibetans live, including India, have 
constitutions that protect the freedom of speech and governments that 
strive to respect that freedom.
    \59\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua.
    \60\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari.'' Tibetan Government-in-Exile.
    \61\ ``Tibet Update (1),'' China Digital Times (Online), last 
visited on 18 June 08. Drepung monks ``joined the peaceful 
demonstration, demanding the freedom for religious belief.'' ``Ethnic 
Unrest Continues in China,'' New York Times (Online), 5 April 08. 
``Tibet was shaken by protests last month by Buddhist monks demanding 
religious freedoms.''
    \62\ Some of the protests reportedly involved hundreds or even 
thousands of monks. ``The Dalai Clique's Scheme To Undermine Tibet's 
Social Stability Is Doomed to Failure,'' Xinhua, 16 March 08 (Open 
Source Center, 17 March 08). Reports that 300 Drepung Monastery monks 
protested in Lhasa on March 10. ``Chinese Police Fire Tear-Gas at 
Protesting Tibetan Monks,'' Radio Free Asia (Online), 12 March 08. 
Reports that an estimated 500-600 Sera Monastery monks protested in 
Lhasa on March 11. International Campaign for Tibet (Online), 
``Protests Spread Throughout Tibet: Thousands Gather in Towns and 
Monasteries,'' 16 March 08. Reports that more than 1,000 Kirti 
Monastery monks protested in Aba county (Aba Tibetan and Qiang 
Autonomous Prefecture, Sichuan Province) on March 16. (Rioting also 
took place at the same location on the same date.)
    \63\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Provisional List of Known Tibetan Arrestees--Updated on 25 
April [2008].'' Of the 518 persons named on the list, 232 are monks 
(none are nuns). (Chinese authorities reportedly detained a substantial 
number of monks and nuns in the period following the publication date 
of the TCHRD list.)
    \64\ See, e.g., Jim Yardley, ``Tibetans Clash With Chinese Police 
in 2nd City,'' New York Times (Online), 16 March 08. According to a 
Tibetan in India who spoke by phone to Tibetan protesters in Xiahe 
county, Gansu province, thousands of protesters on March 16 shouted 
slogans including, ``The Dalai Lama must return to Tibet.'' Tibetan 
Centre for Human Rights and Democracy (Online), ``Scores of Tibetans 
Arrested for Peaceful Protest in Lhasa,'' 11 March 08. On March 10 in 
Guinan (Mangra) county, Qinghai province, a few hundred protesters 
shouted slogans calling for the Dalai Lama to return to Tibet. Tibetan 
Centre for Human Rights and Democracy (Online), ``Around 40 Middle 
School Students Arrested in Marthang,'' 17 March 08. Approximately 100 
Tibetan middle school students in Hongyuan (Kakhog, or Marthang) 
county, Sichuan Province demonstrated inside the school compound, 
calling for the return of the Dalai Lama to Tibet.
    \65\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Protest Erupts After Prayer for Deceased in Drango 
County,'' 25 March 08. More than 400 monks in Luhuo (Draggo) county, 
Ganzi TAP, Sichuan province, shouted slogans on March 25 including, 
``Release [the] Panchen Lama.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``Hundreds of Tibetans Protested in Chentsa, Malho 
`TAP,' Qinghai Province,'' 25 March 08. Hundreds of Tibetans protesting 
on March 22 in Jianza (Chentsa) county, Huangnan (Malho) TAP, Qinghai 
province, carried photographs of the Dalai Lama and Panchen Lama, and 
shouted slogans including, ``Release the eleventh Panchen Lama Erdeni 
Gedun Choekyi Nyima.'' ``Latest Updates on Tibet Demonstrations,'' 
Radio Free Asia (Online), 25 March 08. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \66\ See, e.g., ``Tibet Update (1),'' China Digital Times. The 
Drepung monks ``joined the peaceful demonstration, demanding the 
freedom for religious belief.'' In another protest, several hundred 
Labrang Tashikhyil monks and ordinary citizens staged a protest march 
on March 14 and shouted slogans including, ``Return us to religion 
freedom.'' Tibetan Centre for Human Rights and Democracy (Online), 
``China Detains Drakar and Gaden Choeling Nuns in Kardze,'' 17 May 08. 
Two nuns were detained for calling for religious freedom, among other 
things. The detentions sparked a larger protest resulting in the 
detention of at least 10 more nuns. ``Tibet Monks Disrupt Tour by 
Journalists,'' Associated Press, reprinted in New York Times (Online), 
27 March 08. On March 27, a group of Jokhang Temple monks shouted that 
there was no religious freedom when a group of international 
journalists on a government-handled tour visited the temple.
    \67\ ``A Reader for Advocating Science and Technology and Doing 
Away With Superstitions'' (translated by International Campaign for 
Tibet in When the Sky Fell to Earth: The New Crackdown on Buddhism in 
Tibet, 2004). ``Conducting patriotic education among the monks and nuns 
in the monasteries is an important aspect of strengthening the 
management of religious affairs by the government. . . . Dalai's bloc 
has never stopped penetrating and engaging in splittist activities in 
our region under the support of international antagonistic forces. . . 
. The monks and nuns should be religious professionals who love the 
country, love religion, obey the discipline, and abide by the law.''
    \68\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for 
Opposing the `Patriotic Re-education' Campaign,'' 31 May 08; 
International Campaign for Tibet (Online), ``More Than 80 Nuns Detained 
After Peaceful Protests Continue in Kham,'' 30 May 08; Tibetan Centre 
for Human Rights and Democracy (Online), ``China Arrests 55 Nuns of 
Pang-ri Nunnery for Protesting,'' 17 May 08; Tibetan Centre for Human 
Rights and Democracy (Online), ``China Arrests 16 Monks for Defying 
`Patriotic Re-education' '' 15 May 08; Tibetan Centre for Human Rights 
and Democracy (Online), ``Monks of Drepung Monastery Detained During 
Patriotic Education Campaign,'' 14 April 08.
    \69\ ``Chronology of Events Surrounding Recognition of 11th Panchen 
Lama,'' Tibetan Government-in-Exile, reprinted in World Tibet Network 
News (Online), 6 August 02.
    \70\ P. Jeffrey Hopkins, ``The Identification of the Eleventh 
Panchen Lama,'' University of Virginia, Center for South Asian Studies 
Newsletter, Fall 1995.
    \71\ UN Commission on Human Rights (Online), ``Summary of Cases 
Transmitted to Governments and Replies Received,'' 27 March 06, 24-25. 
The Special Rapporteur on Freedom of Religion or Belief sent a request 
to the Chinese government for information about Gedun Choekyi Nyima on 
June 9, 2005. The Chinese government provided a response on September 
7, 2005.
    \72\ ``Official Urges Dalai Lama To Abandon Secessionist,'' Xinhua, 
reprinted in China Daily (Online), 29 July 07.
    \73\ ``It Is Both Illegal and Invalid for the Dalai Lama to 
Universally Identify the Reincarnated Soul Boy of the Panchen Lama,'' 
People's Daily, 1 December 95 (Open Source Center, 1 December 95).
    \74\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Protest Erupts After Prayer for Deceased in Drango County.'' More 
than 400 monks in Luhuo (Draggo) county, Ganzi TAP, Sichuan province, 
shouted slogans on March 25 including, ``Release [the] Panchen Lama.'' 
Tibetan Centre for Human Rights and Democracy, ``Hundreds of Tibetans 
Protested in Chentsa, Malho `TAP,' Qinghai Province.'' Hundreds of 
Tibetans protesting on March 22 in Jianza (Chentsa) county, Huangnan 
(Malho) TAP, Qinghai province, carried photographs of the Dalai Lama 
and Panchen Lama, and shouted slogans including, ``Release the eleventh 
Panchen Lama Erdeni Gedun Choekyi Nyima.'' ``Latest Updates on Tibet 
Demonstrations,'' Radio Free Asia. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \75\ ``List of Alternate Members of 17th CPC Central Committee,'' 
Xinhua (Online), 21 October 07.
    \76\ ``How Was the Problem Between Religion and Socialism Cracked--
Exclusive Interview With Religious Affairs Administration Director Ye 
Xiaowen,'' Southern Weekend, 13 March 08 (Open Source Center, 10 April 
08).
    \77\ Ministry of Foreign Affairs (Online), ``Did Tibet Become an 
Independent Country after the Revolution of 1911? '' 15 November 00. 
``In 1792 the twenty-nine-article Imperial Ordinance was issued. It 
stipulated in explicit terms for the reincarnation of the Living 
Buddhas in Tibet as well as the administrative, military and foreign 
affairs.'' (The edict sought to impose Qing control over religious, 
administrative, military, fiscal, commercial, and foreign affairs. The 
edict demanded that the Amban, ``Resident Official'' representing the 
imperial court, would have equal status to the Dalai and Panchen Lamas, 
and function as the supervisor of the Tibetan administration.)
    \78\ ``Chinese-Installed Panchen Lama Pledges To Meet Communist 
Party Expectations,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 3.
    \79\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103 (``organize, plot or carry out the scheme of 
splitting the State or undermining unity of the country''; ``incites 
others to split the State or undermine unity of the country'').
    \80\ Tibetan and Himalayan Digital Library (Online), ``The 
Periodization of Tibetan History: General Chronology,'' last visited 18 
June 08. Sonam Gyatso (1543-1588), the Third Dalai Lama, was the first 
person to have the title. The first and second Dalai Lamas were 
recognized posthumously.
    \81\ CECC, 2007 Annual Report, 10 October 07, 191-197.
    \82\ The Dalai Lama is the foremost religious teacher of the Gelug 
tradition of Tibetan Buddhism, whose adherents are more numerous than 
those of other traditions of Tibetan Buddhism such as the Nyingma, 
Kargyu, and Sakya.
    \83\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' (Trial Measures) [Zizang zizhiqu 
shishi ``zongjiao shiwu tiaoli'' banfa (shixing)] [hereinafter TAR 2006 
Measures], issued 19 September 06, effective 1 January 07.
    \84\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 13 July 07, 
effective 1 September 07.
    \85\ ``Tibet Procuratorial Organs Carry Out `Anti-Secession 
Struggle' Intensively,'' Tibet Daily, 13 February 08 (Open Source 
Center, 14 March 08).
    \86\ Ibid.
    \87\ Measures for Dealing Strictly With Rebellious Monasteries and 
Individual Monks and Nuns [hereinafter Ganzi Measures], Order from the 
People's Government of Ganzi Tibetan Autonomous Prefecture, No. 2, 
issued 28 June 08 with immediate effect, translated from Tibetan 
language in International Campaign for Tibet (Online), ``New Measures 
Reveal Government Plan To Purge Monasteries and Restrict Buddhist 
Practice,'' 30 July 08.
    \88\ International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 3, 22-23. ICT states that the actual number of protests is 
certain to be higher than 125.
    \89\ Ibid.
    \90\ Sichuan Province Party Committee Policy Research Office, 
``Improve Capacity to Resolve Minority Issues, Make Efforts to Build a 
Harmonious Ganzi,'' 10 August 05. According to the Sichuan Province 
Party Committee Policy Research Office, August 10, 2005 report, there 
are 515 Tibetan Buddhist monasteries in Ganzi Prefecture and 37,916 
monks and nuns, which represent 4.49 percent of the prefecture's total 
population. ``Facts and Figures of Tibetan Development,'' Xinhua 
(Online), 27 March 08. In comparison, there are 46,000 Tibetan Buddhist 
monks and nuns in the entire TAR. CECC Staff Interview, September 2003. 
According to a Chinese official, there are approximately 21,000 monks 
and nuns in Qinghai province.
    \91\ The current period of Tibetan political activism began on 
September 27, 1987, when 21 monks from Drepung Monastery staged a 
peaceful protest march in Lhasa, calling for Tibetan freedom. It was 
the first Tibetan political protest in China in the post-Cultural 
Revolution period that was internationally reported.
    \92\ As of October 31, 2008, the Commission's Political Prisoner 
Database (PPD) contained records of 2,534 Tibetan political prisoners 
detained or imprisoned since 1987. Of those 2,534 Tibetan political 
prisoners and detainees, 543 are known or believed to be currently 
detained or imprisoned. The rest are known or believed to have been 
released or to have escaped or died. Of the 2,534 Tibetans who became 
political prisoners or detainees since 1987, 321 of them were residents 
of Ganzi Tibetan Autonomous Prefecture (TAP), according to PPD 
information. Of the 321 Tibetan residents of Ganzi TAP who became 
political prisoners or detainees since 1987, 199 of them are known or 
believed to be currently detained or imprisoned. Of the 199 Tibetan 
residents of Ganzi TAP who are known or believed to be currently 
detained or imprisoned, 179 of them have been detained during the 
period beginning March 10, 2008. Due to the large number of detentions 
of Tibetan protesters since March 10, 2008, and a lack of complete 
information about the detentions, the PPD does not contain information 
on a large number of Tibetans detained since that date.
    \93\ International Campaign for Tibet, ``New Measures Reveal 
Government Plan To Purge Monasteries and Restrict Buddhist Practice.''
    \94\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04, translated on the Web site of China Elections 
and Governance.
    \95\ Measures on the Management of the Reincarnation of Living 
Buddhas in Tibetan Buddhism, issued 13 July 07.
    \96\ Ganzi Measures, art. 7, provides for the demolition of 
monastic residential quarters under certain circumstances. Ganzi 
Measures, art. 9, provides for revocation of a monastery or nunnery's 
registration followed by closure of the monastery or nunnery under 
certain circumstances.
    \97\ Ganzi Measures, art. 12, provides for stripping a trulku of 
``the right to hold the incarnation lineage.''
    \98\ PRC Constitution, art. 4 (``The people of all nationalities 
have the freedom to use and develop their own spoken and written 
languages, and to preserve or reform their own ways and customs.''), 
arts. 112-122.
    \99\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01. The REAL's Preamble asserts that the 
ethnic autonomy system ``reflects the state's full respect for and 
guarantee of ethnic minorities' right to administer their internal 
affairs'' and gives ``full play to ethnic minorities' enthusiasm for 
being masters over their own affairs.''
    \100\ REAL, Preamble. ``Regional ethnic autonomy reflects the 
state's full respect for and guarantee of ethnic minorities' right to 
administer their internal affairs and its adherence to the principle of 
equality, unity and common prosperity for all nationalities.''
    ``Regional ethnic autonomy has played an enormous role in giving 
full play to ethnic minorities' enthusiasm for being masters over their 
own affairs, in developing among them a socialist relationship of 
equality, unity and mutual assistance, in consolidating the unification 
of the country and in promoting socialist construction in the ethnic 
autonomous areas and the rest of the country.''
    \101\ State Council Information Office, White Paper on Building of 
Political Democracy in China [Zhongguo de minzhuzhengzhi jianshe], 19 
October 05. ``Democratic centralism is the fundamental principle of 
organization and leadership of state power in China. When democratic 
centralism is practiced, it requires that we give full play to 
democracy and discuss matters of concern collectively, so that people's 
wishes and demands are fully expressed and reflected. Then, all the 
correct opinions are pooled, and decisions are made collectively so 
that the people's wishes and demands are realized and met. The practice 
of democratic centralism also requires that `the majority be respected 
while the minority is protected.' We are against the anarchic call for 
`democracy for all,' and against anybody placing his own will above 
that of the collective.''
    \102\ REAL, art. 7. ``Institutions of self-government in ethnic 
autonomous areas shall place the interests of the state as a whole 
above all else and actively fulfill all tasks assigned by state 
institutions at higher levels.''
    \103\ PRC Constitution, art. 62(12), 89(15). (Only the National 
People's Congress (NPC) and State Council have the constitutional 
authority to approve the establishment of autonomous regions, 
prefectures, and counties, and to alter their boundaries.)
    \104\ REAL, art. 19. ``The people's congresses of ethnic autonomous 
areas shall have the power to enact self-governing regulations and 
separate regulations in the light of the political, economic and 
cultural characteristics of the nationality or nationalities in the 
areas concerned. . . .'' PRC Constitution, art. 116. ``People's 
congresses of national autonomous areas have the power to enact 
autonomy regulations and specific regulations in the light of the 
political, economic and cultural characteristics of the nationality or 
nationalities in the areas concerned.''
    \105\ PRC Legislation Law, enacted 15 March 00, art. 9. ``In the 
event that no national law has been enacted in respect of a matter 
enumerated in Article 8 hereof, the [NPC] and the Standing Committee 
thereof have the power to make a decision to enable the State Council 
to enact administrative regulations in respect of part of the matters 
concerned for the time being, except where the matter relates to crime 
and criminal sanctions, the deprivation of a citizen's political 
rights, compulsory measure and penalty restricting the personal freedom 
of a citizen, and the judicial system.''
    \106\ REAL, art. 20. ``If a resolution, decision, order, or 
instruction of a state agency at a higher level does not suit the 
actual conditions in an ethnic autonomous area, an autonomous agency of 
the area may report for the approval of that higher level state agency 
to either implement it with certain alterations or cease implementing 
it altogether. . . .''
    \107\ PRC Legislation Law, art. 66. ``. . . An autonomous decree or 
special decree may vary the provisions of a law or administrative 
regulation, provided that any such variance may not violate the basic 
principles thereof, and no variance is allowed in respect of any 
provision of the Constitution or the Law on Ethnic Area Autonomy and 
provisions of any other law or administrative regulations which are 
dedicated to matters concerning ethnic autonomous areas.''
    \108\ Andrew Martin Fischer, ``From Labour Polarisation to Urban 
Employment Exclusion,'' in A Theory of Polarisation, Exclusion and 
Conflict within Disempowered Development: The Case of Contemporary 
Tibet in China (Thesis with London School of Economics, November 2007). 
Dr. Fischer conducted fieldwork in the TAR and Qinghai, Gansu, and 
Sichuan provinces.
    \109\ Ibid., 30-31.
    \110\ TAR Regulations on the Study, Use and Development of the 
Tibetan Language, adopted July 9, 1987, by the Fifth Session of the 
Fourth TAR People's Congress, and amended on May 22, 2002, by the Fifth 
Session of the Seventh TAR People's Congress, arts. 3-5. In 2002, the 
TAR People's Congress revised the 1987 TAR Regulations on the Study, 
Use, and Development of the Tibetan Language, ending the precedence of 
the Tibetan language by authorizing the use of ``either or both'' of 
Mandarin and Tibetan languages in most areas of government work.
    \111\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08. ``In middle and 
high schools--even some officially designated as Tibetan schools--
teachers often used Tibetan only to teach classes in Tibetan language, 
literature, and culture and taught all other classes in Chinese.''
    \112\ CECC, 2006 Annual Report, 20 September 06, 169, citing Ma 
Rong and Tanzen Lhundup, ``Temporary Migrants in Lhasa in 2005,'' 
Section IV(4.8), Table 14. Based on a survey published by Chinese 
academics Ma Rong and Tanzen Lhundup, the rate of illiteracy among 
Tibetan migrants (32.3 percent) was almost 10 times higher than for Han 
migrants (3.3 percent), and Han migrants were better prepared to secure 
jobs that require skills learned in junior or senior middle school. Of 
the migrants surveyed, Han reached junior or senior middle school at 
about twice the rate of Tibetans: 53.7 percent of Han compared to 26 
percent of Tibetans reached junior middle school, and 19.4 percent of 
Han compared to 9 percent of Tibetans reached senior middle school.
    \113\ Andrew Martin Fischer, ``Educating for Exclusion in Western 
China: Structural and Institutional Foundations of Conflict in the 
Tibetan Areas of Qinghai,'' CRISE Working Paper, Oxford: Centre for 
Research on Inequality, Security and Ethnicity, Queen Elizabeth House, 
2008 (forthcoming). Dr. Fischer conducted field work in Qinghai 
province.
    \114\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth, 15 June 00 (Open Source 
Center, 15 June 00). Li Dezhu (Li Dek Su) addresses the social and 
ethnic implications of the program that Jiang Zemin launched in 1999. 
Li states that the program is intended to ``accelerate economic and 
social development of the western region and the minority nationality 
regions in particular.''
    \115\ ``Qinghai-Tibet Railway Ready for Operation on July 1,'' 
Xinhua (Online), 29 June 06. Zhu Zhensheng, the vice director of an 
office managing the railway, said that the railway startup is one year 
ahead of schedule due to ``good construction, environment, and safety 
conditions.''
    \116\ ``Qinghai-Tibet Railway Statistics Add to Confusion, Mask 
Impact on Local Population,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 4.
    \117\ ``Province To Be Transport Hub,'' China Daily (Online), 23 
January 08. Sichuan province Governor Jiang Jufeng and Party Secretary 
Liu Qibao signed an agreement on January 10, 2008, with Minister of 
Railways Liu Zhijun to include the ``Sichuan-Tibet railway'' in the 
national railway network plan.
    \118\ Ibid.
    \119\ ``Qinghai-Tibet Railway To Get Six New Lines,'' China Daily 
(Online), 17 August 08. ``The six new tracks include one from Lhasa to 
Nyingchi [Linzhi] and one from Lhasa to Xigaze [Rikaze], both in the 
Tibet autonomous region. Three tracks will originate from Golmud in 
Qinghai province and run to Chengdu in Sichuan province, Dunhuang in 
Gansu province, and Kuerle [Ku'erle] of the Xinjiang Uygur Autonomous 
Region. The sixth will link Xining, capital of Qinghai, with Zhangye in 
Gansu.''
    \120\ CECC China Human Rights and Rule of Law Update, September 
2006, 14; ``Government Announces Extension of Qinghai-Tibet Railway to 
Rikaze,'' Congressional-Executive Commission on China (Online), 28 
August 06.
    \121\ CECC staff map analysis. A more northerly Golmud-Chengdu 
route could traverse southern portions of Hainan (Tsolho) and Huangnan 
(Malho) TAPs in Qinghai province and Gannan (Kanlho) TAP in Gansu 
province before entering Aba Tibetan and Qiang Autonomous Prefecture in 
Sichuan province.
    \122\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4. Based on official 2000 
census data, Tibetans made up 91.6 percent of the Guoluo TAP population 
(126,395 Tibetans among 137,940 total population) and 97.1 percent of 
the Yushu TAP population (255,167 Tibetans among 262,661 total 
population). In Ganzi TAP's three northernmost counties, Dege, Seda 
(Serthar), and Shiqu (Sershul), Tibetans made up 96.5 percent of the 
population (162,974 Tibetans among 168,928 total population). In three 
of the northernmost Aba Tibetan and Qiang Autonomous Prefecture 
counties--Aba, Ruo'ergai (Dzoege), and Hongyuan (Marthang, or Kakhog)--
Tibetans made up 88 percent of the population (145,706 Tibetans among 
165,656 total population).
    \123\ ``Tibet Plans Huge Industrial Investment,'' Xinhua (Online), 
5 September 08. According to the Xinhua report: ``Industrial 
development in Tibet had remained inactive for a long time and the 
sector only accounted for 7.5 percent of the region's overall gross 
domestic product last year, official statistics showed. The 22 projects 
are expected to speed up development of other industrial fields and the 
comprehensive economic growth.''
    \124\ Ibid. According to the report, of the 21.17 billion yuan 
total allocated to the 22 projects, ``the mining sector will absorb 
15.9 billion yuan and the industrial zones will take 3.45 billion 
yuan.''
    \125\ Ibid.
    \126\ ``Qinghai-Tibet Railway Transports 5.95 Mln Tourists,'' 
Xinhua (Online), 8 February 08; CECC, 2006 Annual Report, 167. The 33 
billion yuan construction cost was approximately US$4.12 billion in 
2006.
    \127\ Human Rights Watch (Online), `` `No One Has the Liberty To 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07.
    \128\ For example, incidents of political protest were reported in 
nomadic areas such as Banma (Pema), Jiuzhi (Chigdril), and Dari 
(Darlag) counties in Guoluo (Golog) TAP, Qinghai province. ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 26 March 08. Banma county: ``After the arrival and the 
subsequent tight restrictions by Chinese military forces in Pema 
County, a protest was held during which the people demanded concrete 
results in the Sino-Tibetan dialogue. The same evening in Panchen, 
Pangrue and Markhog villages, Tibetans held peaceful demonstrations.'' 
``Latest Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 23 March 08. Jiuzhi county: ``Around 500 monks and lay people 
from Palyul village are holding a sit-down on a hill-top to demand that 
Karwang Nyima Rinpoche (Dharthang Monastery head) not be harassed by 
the Chinese military. The people have also demanded the United Nations, 
U.S. and other countries intervene to resolve the issue.'' ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 22 March 08. Dari county: ``Around 200 protesters (including 
many horsemen) held protests in Toema and Meyma villages.''
    \129\ The current period of Tibetan political activism began on 
September 27, 1987, when 21 monks from Drepung Monastery staged a 
peaceful protest march in Lhasa, calling for Tibetan freedom. It was 
the first Tibetan political protest in China in the post-Cultural 
Revolution period that was internationally reported.
    \130\ Tibetan Centre for Human Rights and Democracy (Online), 
``Tensions Are High as the Olympic Torch Arrives in Lhasa,'' 20 June 
08. TCHRD reports that it ``has recorded the arrests or arbitrary 
detention of more than 6,500 Tibetans.'' (The report provides no 
information about whether or not, and to what extent, this figure 
includes more than 4,000 Tibetans whom official Chinese news media 
reported surrendered or were detained by police in connection to 
alleged rioting.)
    \131\ ``Latest Casualty Figures in Tibet,'' Tibetan Government-in-
Exile (Online), 21 August 08. ``Update on Death Toll from Tibet 
Demonstrations,'' Tibetan Government-in-Exile (Online), 26 March 08. 
The report lists the first 40 names published by the TGiE of Tibetans 
allegedly killed by Chinese security forces.
    \132\ Tibetan Centre for Human Rights and Democracy, ``Tensions Are 
High as the Olympic Torch Arrives in Lhasa.''
    \133\ ``Update on Tibet, 1 May 2008,'' Tibetan Government-in-Exile 
(Online), 1 May 08. The report alleges that on March 28, Chinese 
security forces cremated ``around 83 corpses'' in a crematorium in 
Duilongdeqing county near Lhasa in an attempt to destroy ``evidence 
related to the recent protests.'' The report described the corpses as 
``dead bodies of people who have been killed since the March 14 protest 
in Tibet,'' but did not disclose how the location, time, or cause of 
any of the deaths was established reliably.
    \134\ ``Update on Tibet Demonstration,'' Tibetan Government-in-
Exile (Online), 16 March 08.
    \135\ ``Governor Denies Use of Lethal Force in Lhasa Riot,'' 
Xinhua, reprinted in China Daily (Online), 17 March 08. ``Throughout 
the process, [security forces] did not carry or use any destructive 
weapons, but tear gas and water cannons were employed,'' Jampa Phuntsog 
told reporters in Beijing.
    \136\ ``Complete One-Week Update on Tibet Protests,'' Tibetan 
Government-in-Exile (Online), 18 March 08. The TGiE reports 3 Tibetans 
shot and killed and 10 others shot and injured.
    \137\ Tibetan Centre for Human Rights and Democracy (Online), 
``Middle School Student Shot Dead in Ngaba County,'' 19 March 08. ``At 
least 23 people including as young as 16 years old student, Lhundup 
Tso, were confirmed dead following Chinese Armed police shot many 
rounds of live ammunitions into the protesters . . . .''
    \138\ International Campaign for Tibet (Online), ``Monks, Nomads 
Protest as Demonstrations Spread Across Entire Tibetan Plateau,'' 19 
March 08. On March 16 protesters stoned government offices and burned a 
police station and vehicles before 11 truckloads of security personnel 
``suppressed the protests.'' ``The number of casualties was unclear, 
although one source that could not be confirmed indicated there could 
be as many as 19 deaths.'' ``Latest Update on Tibet Protests,'' Tibetan 
Government-in-Exile (Online), 18 March 08. In a report dated March 18, 
and beneath the subheading ``18th March, 2008,'' the TGiE report 
states, ``During the protest in Machu County that continued from 
yesterday, People's Armed Police (PAP) shot dead nineteen peaceful 
protesters this morning as confirmed by a source.'' TibetInfoNet 
(Online), `` `The World Will Not Look Away.' Demonstrations in Amdo 
Machu and Region,'' 19 March 08. TibetInfoNet, like the ICT report, 
reported that the protest took place on March 16, resulted in 
significant property destruction, and was suppressed by 11 truckloads 
of security personnel. But, according to TibetInfoNet, no casualties 
were reported.
    \139\ Tibetan Centre for Human Rights and Democracy (Online), ``At 
Least Three Tibetans Shot Dead in Kardze Protest,'' 18 March 08. 
According to the report, security forces firing indiscriminately shot 
and killed three Tibetans and injured 15 more when hundreds of Tibetans 
gathered in the town market and shouted slogans calling for 
independence and the Dalai Lama's long life.
    \140\ Tibetan Centre for Human Rights and Democracy (Online), ``One 
Shot Dead and Another in Critical Condition in Drango Protest,'' 24 
March 08. According to the report, security officials killed one person 
and critically wounded another when they fired indiscriminately on 
about 200 protesters shouting slogans calling for independence and the 
Dalai Lama's long life as they marched toward township offices.
    \141\ ``Chinese Police Fire on Tibetan Protesters, Death Toll 
Unknown,'' Radio Free Asia (Online), 4 April 08; Tibetan Centre for 
Human Rights and Democracy (Online), ``At Least Eight Shot Dead in 
Tongkor Monastery in Kardze,'' 5 April 08. According to TCHRD, security 
forces opened fire on and killed as many as 15 Tibetans, including 
monks of Tongkor Monastery. A monastic protest supported by local 
villagers developed after monks refused to cooperate with officials 
conducting ``patriotic education,'' and the officials responded by 
detaining an elderly monk.
    \142\ ``Tibetans Wounded in Sichuan Protest,'' Radio Free Asia 
(Online), 5 April 08; ``Troops Settle Down in China's Restive 
Sichuan,'' Radio Free Asia (Online), 5 April 08. Ordinary Tibetans 
joined monks of Nyatso Monastery in a peaceful procession to protest 
the deaths of Tibetans killed during recent protests. Security forces 
opened fire on the protesters at crossroads when officials allowed 
monks to continue, but not the ordinary Tibetans, who began to chant 
slogans calling for the Dalai Lama's long life and objecting to 
Tibetans' lack of freedom.
    \143\ ``Dalai Lama Says Will Quit if Violence Out Of Control,'' 
Reuters, reprinted in New York Times (Online), 18 March 08. The Dalai 
Lama said, ``If things become out of control then my only option is to 
completely resign. . . . Please help stop violence from Chinese side 
and also from Tibetan side.''
    \144\ Office of His Holiness the Dalai Lama (Online), ``Statement 
of His Holiness the Dalai Lama to All Tibetans,'' 6 April 08. ``I want 
to reiterate and appeal once again to Tibetans to practice non-violence 
and not waver from this path, however serious the situation might be.''
    \145\ For example, China's state-run media reported that security 
forces in Aba county fired on and wounded four Tibetan protesters on 
March 16. TCHRD reported that security forces fired on and killed at 
least 23 Tibetans in the Aba protest. Xinhua characterized the incident 
as a ``riot''; TCHRD described it as a ``peaceful protest.'' ``Police: 
Four Rioters Wounded Sunday in Aba of SW China,'' Xinhua (Online), 20 
March 08. Police fired on and wounded four rioters ``out of self 
defense,'' a police official said. Tibetans ``destroyed 15 police 
vehicles and more than 20 office facilities,'' according to the report. 
Tibetan Centre for Human Rights and Democracy, ``Middle School Student 
Shot Dead in Ngaba County.'' TCHRD reports the death of ``[a]t least 23 
people'' and injuries to ``scores'' of protesters during ``the peaceful 
demonstration.''
    \146\ State Council Information Office, ``Ministry of Public 
Security Holds News Conference To Brief the Press on the Latest 
Situation of Cracking Cases of 14 March Incident and Make Public the 
Names of Victims,'' 1 April 08 (Open Source Center, 2 April 08); ``Baby 
Burned to Death in Lhasa Riot Fire,'' China Daily (Online), 24 March 
08. ``At least 18 civilians and one police officer have been confirmed 
killed in the unrest in Lhasa, which also saw 382 injured.''
    \147\ International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 17, 54. According to the report, on March 14 in Lhasa 
``Chinese shops were burnt, and Chinese people were beaten severely and 
killed.'' ``Transcript: James Miles Interview on Tibet, CNN (Online), 
20 March 08. Miles witnessed the March 14 Lhasa riot and told CNN, 
``What I saw was calculated targeted violence against an ethnic group, 
or I should say two ethnic groups, primarily ethnic Han Chinese living 
in Lhasa, but also members of the Muslim Hui minority in Lhasa.'' 
Miles, who did not witness lethal violence, said, ``But I can do no 
more really on the basis of what I saw then say there was a probability 
that some ethnic Chinese were killed in this violence, and also a 
probability that some Tibetans, Tibetan rioters themselves were killed 
by members of the security forces.''
    \148\ The largest number of political detentions of Tibetans 
reported internationally as the result of a distinct sequence of 
political events that took place during the period of the current 
Chinese Constitution and Criminal Law, and before the cascade of 
Tibetan protests that began on March 10, 2008, resulted from the Lhasa 
protests of March 5 to 7, 1989. The Commission's Political Prisoner 
Database contains information on fewer than 200 cases of Tibetan 
political prisoners whose imprisonment may be linked to the March 1989 
political events. The Tibet Information Network reported that at least 
1,000 Tibetans were detained in connection with the incident. (Tibet 
Information Network, ``A Struggle of Blood and Fire: The Imposition of 
Martial Law in 1989 and the Lhasa Uprising in 1959,'' 25 February 99.)
    \149\ The current Constitution of the People's Republic of China is 
the fourth. The National People's Congress passed the current 
Constitution on December 4, 1982; it was most recently amended on March 
14, 2004.
    \150\ The National People's Congress passed the Criminal Law on 
July 1, 1979; it was most recently amended on June 29, 2006.
    \151\ The figures reported below (953, 362, 2,204, 8, 432, 94, and 
381) total 4,434 persons who surrendered to security officials or were 
detained by them during the period March 14 to 19 in the nine county-
level areas named in the reports: Lhasa, Linzhou, Aba, Xiahe, Maqu, 
Luqu, Zhuoni, Hezuo, and Diebu. ``953 Suspects in Lhasa Riots 
Detained,'' Xinhua (Online), 9 April 08. TAR government Chairman Jampa 
Phuntsog told reporters that police had detained ``953 people who were 
suspected of participating in the March 14 violence in Lhasa,'' and 
that another 362 persons ``delivered themselves to the law 
enforcement.'' ``Media Tour in Gansu Interrupted, Resumes Soon,'' 
Xinhua (Online), 9 April 08. Acting head of the Gannan TAP government 
told reporters that 2,204 persons (including 519 monks) had surrendered 
to police in connection with riots in the prefecture, and that police 
had ``formally arrested eight people suspected of participating in the 
riots and put another 432, including 170 monks, in temporary custody.'' 
The report said, ``From March 14 to 19, assaults, vandalism, looting 
and arson occurred in the Xiahe, Maqu, Luqu, [Zhuoni], Hezuo and Diebu 
areas of Gannan. . . .'' ``94 Criminal Suspects in Linzhou County 
Surrender Themselves to Justice,'' Tibet Daily, reprinted in China 
Tibet News, 19 March 08 (Open Source Center, 19 March 08). ``Awed by 
the powerful legal and policy offensives, 94 criminal suspects in 
Linzhou County who were involved in serious incidents of beating, 
smashing, looting, and burning surrendered themselves to justice by 
2400 hours on 17 March.'' ``381 Rioters in Aba County Surrender to 
Police,'' Xinhua, reprinted in People's Daily (Online), 25 March 08. 
``A total of 381 people involved in the riots in Aba county of Sichuan 
Province have surrendered themselves to the police as of Monday [March 
17] noon . . . . Law enforcement authorities . . . issued a notice . . 
. urging those who had taken part in the riots on March 16 to submit 
themselves within ten days.''
    \152\ ``953 Suspects in Lhasa Riots Detained,'' Xinhua; ``Media 
Tour in Gansu Interrupted, Resumes Soon,'' Xinhua.
    \153\ ``42 Rioters Sentenced to Prison,'' China Daily (Online), 21 
June 08.
    \154\ Ibid.
    \155\ ``Officials Report Release of More Than 3,000 of the More 
Than 4,400 Detained Tibetan `Rioters' '' Congressional-Executive 
Commission on China (Online), 9 July 08.
    \156\ ``953 Suspects in Lhasa Riots Detained,'' Xinhua (Online), 9 
April 08.
    \157\ ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua 
(Online), 9 April 08.
    \158\ ``94 Criminal Suspects in Linzhou County Surrender Themselves 
to Justice,'' Tibet Daily, reprinted in China Tibet News, 19 March 08 
(Open Source Center, 19 March 08).
    \159\ ``381 Rioters in Aba County Surrender to Police,'' Xinhua, 
reprinted in People's Daily, 25 March 08.
    \160\ ``42 Rioters Sentenced to Prison,'' China Daily (Online), 21 
June 08.
    \161\ ``Lhasa City People's Procuratorate Gives Permission To 
Arrest the First Suspect Who Held Up a Reactionary Flag,'' China Tibet 
News, 25 March 08 (Open Source Center, 27 March 08). At least 13 monks 
of a group of 15 monks apprehended while protesting near Lhasa's 
Jokhang Temple were charged with unlawful assembly. A 14th monk may 
have been charged with separatism for displaying a Tibetan flag.
    \162\ ``Judgments Pronounced Publicly on Some Defendants Involved 
in Lhasa's `14 March' Incident,'' Xinhua, 29 April 08 (Open Source 
Center, 30 April 08). ``Total jailed over Lhasa violence rises to 30,'' 
Xinhua (Online), 29 April 08. Three defendants were sentenced to life 
imprisonment; the rest received sentences to fixed term imprisonment 
ranging from 3 to 20 years. Monk Pasang, whom authorities accused of 
leading a group of 10 persons (including 5 monks) in Duilongdeqing 
county ``to destroy the local government office, smash or burn down 11 
shops and rob their valuables, and attack policemen on duty,'' received 
a life sentence. Two of the monks who ``followed'' Pasang were 
sentenced to 20 years in prison; the other three received 15-year 
sentences.
    \163\ Ibid.
    \164\ ``Tibet Confident on Security During Olympic Torch Relay,'' 
Xinhua (Online), 21 June 08. The article does not name the court (``the 
local court'') or provide details about any of the cases.
    \165\ Ibid.
    \166\ ``List of Appointments and Removals by the Tibet Autonomous 
Regional People's Congress Standing Committee,'' China Tibet News, 30 
March 08 (Open Source Center, 30 March 08). Although it is not clear 
whether or not the reshuffle was linked to the large number of protest- 
and riot-related cases, all of the appointments were to the Rikaze 
(Shigatse) and Shannan (Lhoka) prefectural procuratorates and courts, 
the two locations most easily and quickly reached from Lhasa. It is 
also possible that the transfers were part of a five-yearly reshuffle 
coordinated with central government changes.
    \167\ ``No Death Penalty Handed Down So Far Over Lhasa Violence,'' 
Xinhua (Online), 11 July 08. The report provided information based on 
statements by TAR government Executive Chairman Pema Trinley (Palma 
Trily, Baima Chilie).
    \168\ Ibid.
    \169\ Tibetan Centre for Human Rights and Democracy, ``Provisional 
List of Known Tibetan Arrestees--Updated on 25 April 2008.''
    \170\ Tibetan Centre for Human Rights and Democracy (Online), 
``Olympics and Tibet Under a Cloud of Repression,'' 7 August 08; 
``Latest Casualty Figures in Tibet,'' Tibetan Government-in-Exile.
    \171\ ``Tibetan Monks Still Held in Qinghai,'' Radio Free Asia 
(Online), 28 August 08. ``The remaining 57 monks from outlying areas 
were said to have been taken from smaller Lhasa monasteries.'' (The 
report did not specify the location of the ``outlying areas.'')
    \172\ Ibid. Monks from Tibetan areas in Sichuan province (``Kham'') 
``are still being held . . . in Golmud'' (Ge'ermu city, a principal 
city in Qinghai, located on the Qinghai-Tibet railway). ``The number of 
those still in detention [in Golmud] cannot be independently 
confirmed.''
    \173\ Ibid. RFA described the source of the information as ``an 
authoritative source who spoke on condition of anonymity.'' (The report 
did not name any of the monks and provided information of the specific 
location of relatively few.)
    \174\ Ibid. The source told RFA, ``On April 10 in the afternoon, 
security forces detained 550 monks from Drepung monastery, took them to 
the Nyethang Military School, and detained them on the school campus.'' 
[Nyethang (Nedang) is a township located in Qushui (Chushur) county, 
adjacent to Lhasa city.] ``Then, on the night of April 14, a huge 
contingent of Chinese security forces arrived at Sera monastery and 
took away about 400 monks and detained them at a military prison in 
Tsal Gungthang.'' [Tsal Gungthang is a township under the 
administration of Lhasa city.] (Other published reports have referred 
to detentions of substantial numbers of monks from Drepung and Sera 
monasteries on or about those dates.)
    \175\ CECC, 2005 Annual Report, 83. Officials had already been 
intensifying the ``patriotic education'' program in Tibetan monastic 
institutions since 2005.
    \176\ ``In Tibetan Monasteries, the Heavy Hand of the Party,'' 
Washington Post (Online), 3 June 08.
    \177\ ``Successfully Handling the Work of Maintaining Social 
Stability in All Aspects in a Comprehensive, Deepgoing, and Down-to-
Earth Manner,'' Tibet Daily, reprinted in China Tibet News, 3 April 08 
(Open Source Center, 06 April 08).
    \178\ ``Lhasa's Education System Makes Constant Efforts To Deepen 
Education in Patriotism,'' Xinhua, 17 July 08 (Open Source Center, 18 
August 08). ``A total of 3,691 core instructors were specially assigned 
and properly trained, and 1,057 lecture sessions were held in the 
course of the drive, attended by 179,476 people. In addition, 219 
people took to the floor to tell their story to 94,708 listeners in 193 
sessions, and 265 and 718 sessions were held respectively to greet the 
Beijing Olympics and denounce the criminal conduct of the Dalai 
separatist clique. Furthermore, 2,533 oath-taking sessions were held 
for participants to pledge themselves to safeguard the motherland's 
unification, oppose ethnic separatism . . . [ellipsis as published].''
    \179\ Campaigns were not limited to Party propaganda on religion, 
but also included legal, economic, and historical themes emphasizing 
the well-being of the Tibetan people under the Communist Party and the 
Chinese government. See, e.g., ``China's Tibetan Affairs Expert Says 
There Is a Need To Pay Attention to Educating Young Monks of Tibetan 
Buddhism,'' Xinhua, 2 April 08 (Open Source Center, 3 April 08); 
``Qiang Wei Stresses the Importance of Resolutely and Unswervingly 
Struggling Against Separatism, Safeguarding Stability, and Promoting 
Unity,'' Qinghai Daily, 29 March 08 (Open Source Center, 1 April 08); 
``While Conducting Investigation and Studies in Gannan Prefecture, Liu 
Lijun Stresses Need to Effectively Carry Out in a Down-to-Earth Manner 
Work on Propaganda and Education in Legal Knowledge at Monasteries of 
Tibetan Buddhism,'' Gansu Daily, 4 April 08 (Open Source Center, 26 
April 08).
    \180\ ``Hongyuan Begins `Maintaining Stable Thinking Among the 
Masses' Educational Campaign,'' Sichuan News Net, 27 March 08 (Open 
Source Center, 27 March 08). OSC summarizes an article on political 
education in Hongyuan (Kakhog, or Marthang) county in Aba prefecture 
(where non-violent protests were reported). ``Qiang Wei Stresses the 
Importance of Resolutely and Unswervingly Struggling Against 
Separatism, Safeguarding Stability, and Promoting Unity,'' Qinghai 
Daily. The Qinghai Party Secretary called for stepping up political 
education in Huangnan (Malho) TAP (where non-violent protests were 
reported). ``While Conducting Investigation and Studies in Gannan 
Prefecture, Liu Lijun Stresses Need to Effectively Carry Out in a Down-
to-Earth Manner Work on Propaganda and Education in Legal Knowledge at 
Monasteries of Tibetan Buddhism,'' Gansu Daily. A senior Gansu Party 
official called for propaganda campaigns and tighter control of 
monasteries in Gannan TAP (where non-violent protests and rioting were 
reported.)
    \181\ See, e.g., ``A Briefing Meeting on the Work of Safeguarding 
Stability in Haibei Tibetan Autonomous Prefecture Is Held in Xihai Town 
on 28 March,'' Qinghai Daily, 31 March 08 (Open Source Center, 2 April 
08). Senior Party officials in Haibei (Tsojang) TAP (where no protests 
were reported) detailed efforts to step up political indoctrination.
    \182\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for 
Opposing the `Patriotic Re-education' Campaign,'' 31 May 08; 
International Campaign for Tibet (Online), ``More Than 80 Nuns Detained 
After Peaceful Protests Continue in Kham,'' 30 May 08; Tibetan Centre 
for Human Rights and Democracy (Online), ``China Arrests 55 Nuns of 
Pang-ri Nunnery for Protesting,'' 17 May 08; Tibetan Centre for Human 
Rights and Democracy (Online), ``China Arrests 16 monks for Defying 
`Patriotic Re-education,' '' 15 May 08; Tibetan Centre for Human Rights 
and Democracy (Online), ``Monks of Drepung Monastery Detained During 
Patriotic Education Campaign,'' 14 April 08.
    \183\ ``Abbots, Lamas Refuse To Denounce Dalai Lama,'' Phayul 
(Online), 30 March 08. Officials in Shiqu (Sershul) county, Ganzi TAP, 
convened a meeting of senior Tibetan Buddhist figures from the county's 
43 monasteries to launch a patriotic education campaign. The officials 
said that the Dalai Lama and the Tibetan government-in-exile had 
masterminded the protests across the Tibetan area of China, and told 
the monastic representatives to provide critical statements about the 
protests and to launch signature campaigns criticizing the protests. 
``China Steps Up Crackdown in Tibet,'' Radio Free Asia (Online), 17 
April 08. Officials told (apparently senior) Tibetan Buddhist monks 
attending an April 12 meeting in Kangding, the capital of Ganzi TAP, 
that, among other things, monks and nuns in the prefecture should 
denounce the Dalai Lama as a separatist and state that the Dalai Lama 
and Tibetan government-in-exile were responsible for the ``unrest'' in 
Tibetan areas. RFA cited as the source a monk in India who cited monks 
who attended the meeting. ``Tibet Update (3) April 15 - 27,'' China 
Digital Times (Online), last visited 19 June 08. The report refers to 
an emergency meeting in Ganzi TAP of the heads of all prefecture's 
monasteries and of various work units. All the attendees were told to 
acknowledge that the protest incidents were masterminded by the Dalai 
clique.
    \184\ ``Update for Friday, 4 April 2008,'' Tibetan Government-in-
Exile (Online), 4 April 08. Work teams conducting patriotic education 
pressured 200 monks at Bathang Choede Monastery in Batang county, Ganzi 
TAP, to sign statements supporting the Chinese government position that 
the Dalai Lama was responsible for inciting the Tibetan protests. All 
of the monks refused. Officials detained five monks, including the 
abbot. ``Updates on Tibet, 19 April 2008,'' Tibetan Government-in-Exile 
(Online), 19 April 08. Officials summoned villagers to meetings in 
several locations in Yajiang (Nyagchukha) county, Ganzi TAP, and told 
them to sign a statement saying that the Dalai Lama had instigated the 
recent unrest. Some villagers walked out of such meetings.
    \185\ International Campaign for Tibet (Online), ``Mass Detentions 
of Monks, Suicides and Despair as Enforced Condemnation of Dalai Lama 
Provokes Dissent,'' 29 April 08. The article provides photographic 
images of defaced images of the Dalai Lama at Kirti Monastery in Aba 
prefecture. ``Tibet Update (3) April 15 - 27,'' China Digital Times. 
The report describes an April 17 search of Rongbo Gonchen Monastery in 
Huangnan (Malho) TAP: ``Next they searched the living quarters of the 
monks, confiscated the Dalai Lama's photos and DVDs. They also 
arbitrarily destroy[ed] articles, and stole the monks' possessions.''
    \186\ ``Chinese Police Fire on Tibetan Protesters, Death Toll 
Unknown,'' Radio Free Asia; Tibetan Centre for Human Rights and 
Democracy, ``At Least Eight Shot Dead in Tongkor Monastery in Kardze.''
    \187\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for Opposing 
the `Patriotic Re-education' Campaign.'' ``[C]ell phones were known to 
have been confiscated to curb the report of the incident from leaking 
to the outside world. . . .'' ``Update on Tibet, 9 May 2008,'' Tibetan 
Government-in-Exile (Online), 9 May 08. Referring to police raid on 
Ratoe Monastery, near Lhasa: ``. . . mobile phones belonging to 70 
monks' were confiscated. In addition, the telephone of the monastery 
was confiscated too.'' ``Tibet Update (2),'' China Digital Times 
(Online), last visited 15 June 08. Referring to Tongkor Monastery in 
Ganzi county: ``Each room in the monks' living quarters was searched 
and all cell phones were confiscated.'' International Campaign for 
Tibet (Online), ``Monks reveal concerns about Chinese allegations on 
weapons caches, views on Olympics,'' 16 April 08. Referring to Tibetan 
protest areas generally: ``[A]uthorities have confiscated cellphones 
and computers, turned off cellular transmission facilities or cut 
landlines, and interfered with internet access, according to various 
reports received by ICT.'' ``2,000 Tibetans Defy Sichuan Crackdown as 
China Admits Shooting,'' Radio Free Asia (Online), 20 March 08. 
Referring to Lhasa: ``Another man said many people had been arrested 
but it was hard to know exactly who, because the authorities had cut 
off the mobile phone network.'' ``Police Seize Weapons, Ammunition in 
Southwestern China Monastery,'' Xinhua (Online), 30 March 08. Referring 
to objects, including weapons, seized at Kirti Monastery in Aba county: 
``. . . communication facilities including satellite phones, receivers 
for overseas TV channels, fax machines and computers were 
confiscated.''
    \188\ Tibetan Centre for Human Rights and Democracy, ``12 Monks of 
Dingri Shelkar Choedhe Monastery Arrested for Opposing the `Patriotic 
Re-education' Campaign.'' ``[T]he monks were even known to have been 
threaten[ed] with dire consequences if found `leaking' the information 
to the outside world.'' ``Update on Tibet, May 31, 2008,'' Tibetan 
Government-in-Exile (Online), 31 May 08. Referring to Ramoche Monastery 
in Lhasa: ``[A]ll three monks . . . were again arrested by the 
concerned local Chinese officials on 26 May for keeping in contact with 
outsiders through phone calls. They are suspected of sharing 
information with the outside world.'' Tibetan Centre for Human Rights 
and Democracy (Online), ``A Former Chief of Rong Gonchen Monastery in 
Critical Condition,'' 18 April 08. Referring to Rongbo Gonchen 
Monastery in Tongren county: ``The Chinese authorities have issued 
terse warning to the monks about leaking the information to the outside 
world following the severe crackdown by the Chinese authorities.''
    \189\ ``Tibet To Reopen to Tourists on May 1,'' Xinhua, reprinted 
in China Daily (Online), 3 April 08.
    \190\ Ministry of Foreign Affairs, ``Transcript of Regular News 
Conference by PRC Foreign Ministry on 12 June 2008, Moderated by 
Spokesman Qin Gang,'' 12 June 08 (Open Source Center, 12 June 08). 
After MFA Spokesman Qin Gang stated that the Chinese government is 
``not to blame'' for the closure of Tibetan areas to journalists 
following the `` `3.14' serious violent criminal incidents,'' a 
journalist asked, ``Who is to blame, then? '' Qin replied, ``Do you 
really have no idea? Of course, it is the Dalai clique.''
    \191\ ``Full Transcript of Interview with the Dalai Lama,'' 
Financial Times (Online), 25 May 08. ``Then stop, inside Tibet, 
arresting and torture. This must stop. And then they should bring 
proper medical facilities. And most important, international media 
should be allowed there, should go there, and look, investigate, so the 
picture becomes clear.''
    \192\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103 (``organize, plot or carry out the scheme of 
splitting the State or undermining unity of the country''; ``incites 
others to split the State or undermine unity of the country'').
    \193\ Dui Hua Foundation (Online), ``Sentence Reductions for 
Political Prisoners More Than Previously Thought,'' 17 June 08.
    \194\ Ibid.
    \195\ CECC, 2005 Annual Report, 11 October 05, 112. Jigme Gyatso 
was sentenced in 1996 to 15 years' imprisonment for counterrevolution. 
Chinese officials told a UN Working Group on Arbitrary Detention 
(UNWGAD) delegation in September 2004 that he was guilty of ``planning 
to found an illegal organization and seeking to divide the country and 
damage its unity.'' Another UNWGAD opinion on the case found that 
``there is nothing to indicate that the `illegal organization' . . . 
ever advocated violence, war, national, racial, or religious hatred, 
and that Jigme Gyatso was ``merely exercising the right to freedom of 
peaceful assembly with others in order to express opinions.''
    \196\ Ibid., 111-112. Choeying Khedrub, a monk of Tsanden Monastery 
in the TAR, was sentenced in 2000 to life imprisonment for his role in 
a group of men who allegedly printed pro-independence leaflets. 
According to information that the Chinese government provided to the 
United Nations Working Group on Arbitrary Detention (UNWGAD), he was 
found guilty of endangering state security and ``supporting splittist 
activities of the Dalai clique.'' The UNWGAD reports that the Chinese 
response ``mentions no evidence in support of the charges, or if they 
used violence in their activities,'' and finds that the government 
``appears'' to have misused the charge of endangering state security.
    \197\ CECC, 2007 Annual Report, 10 October 07, 210. Bangri Chogtrul 
(Jigme Tenzin Nyima), who lived as a householder in Lhasa and managed a 
children's home along with his wife, was convicted of inciting 
splittism and sentenced to life imprisonment in a closed court in Lhasa 
in September 2000. ``Lhasa Court Commutes Life Sentence for Children's 
Home Director to 19 Years,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 16. The sentencing document lists evidence against 
Bangri Chogtrul that includes meeting the Dalai Lama, accepting a 
donation for the home from a foundation in India, and a business 
relationship with a Tibetan contractor who lowered a Chinese flag in 
Lhasa in 1999 and tried to blow himself up. Jigme Tenzin Nyima 
acknowledged meeting the Dalai Lama, accepting the contribution, and 
knowing the contractor, but he denied the charges against him and 
rejected the court's portrayal of events.
    \198\ Measures for Dealing Strictly With Rebellious Monasteries and 
Individual Monks and Nuns [hereinafter Ganzi Measures], Order from the 
People's Government of Ganzi Tibetan Autonomous Prefecture, No. 2, 
issued 28 June 08, translated from Tibetan language in International 
Campaign for Tibet (Online), ``New Measures Reveal Government Plan To 
Purge Monasteries and Restrict Buddhist Practice,'' 30 July 08.
    \199\ The Commission does not have relevant information about 
Sichuan province or Ganzi TAP regulations. See, however, Tibet 
Autonomous Region Implementing Measures for the ``Regulation on 
Religious Affairs'' [hereinafter TAR 2006 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on September 19, 2006, art. 16. ``To rebuild, expand, or repair venues 
for religious activities, a petition for examination and approval is 
made to the prefectural (city) administrative office (people's 
government) religious affairs department in the locality, after 
obtaining the consent of the county-level people's government religious 
affairs department in the locality. . . .''
    \200\ Monks or nuns who administer a monastery or nunnery form the 
Democratic Management Committee (DMC). DMC members must implement Party 
policies on religion and ensure that monks and nuns obey government 
regulations on religious practice.
    \201\ The Commission does not have relevant information about 
Sichuan province or Ganzi TAP regulations. See, however, Tibet 
Autonomous Region Implementing Measures for the ``Regulation on 
Religious Affairs'' [hereinafter TAR 2006 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on September 19, 2006, arts. 19, 29. Article 19 stipulates: ``Venues 
for religious activities recruit religious personnel, and handle 
procedures for their confirmation and for placing [the matter] on 
record on the basis of [the venues'] ability for self-cultivation, 
management ability, and the economic capacity of their religious 
adherents, as well as on the basis of the relevant provisions of the 
state and autonomous region.'' Article 29 states that ``religious 
personnel'' may not ``engage in professional religious activities'' 
until their status as a religious professional is confirmed by a 
``religious organization'' (a state-controlled Buddhist association) 
and reported for the record to the religious affairs bureau of a local 
government at county-level or above. (Based on Commission staff 
analysis, a monastery or nunnery is unlikely to succeed in increasing 
the number of resident monks or nuns unless the local government 
endorses the increase.)
    \202\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04, translated on the Web site of China 
Elections and Governance, art. 13. Government officials at the county, 
prefectural, and provincial levels are involved in the approval process 
for establishing a ``site for religious activity.''
    \203\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 13 July 07, 
arts. 3-5.

    Notes to Section VI--Developments in Hong Kong
    \1\ United States-Hong Kong Policy Act of 1992, Public Law No. 102-
383, enacted 4 April 90; The Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China, enacted 4 
April 90; Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted 19 December 84.
    \2\ CECC, 2005 Annual Report, 11 October 05, 115-116.
    \3\ Universal suffrage is described as the ``ultimate aim'' in the 
Basic Law. The Basic Law of the Hong Kong Special Administrative 
Region, arts. 45, 68.
    \4\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Methods for Selecting the Chief 
Executive of the Hong Kong Special Administrative Region and for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2012 and on Issues Relating to Universal Suffrage, 
issued 29 December 2007.
    \5\ The first instance came in April 2004 when the NPCSC ruled 
against universal suffrage for the 2007 Chief Executive election and 
the 2008 LegCo election. For more information, see CECC, 2004 Annual 
Report, 5 October 04, 104-106.
    \6\ Ying-Kit Lai, ``New Poll Confirms People's Support for 
Universal Suffrage,'' South China Morning Post (Online), 13 August 07.
    \7\ Donald Greenlees, ``Democracy Advocate Wins in Hong Kong,'' New 
York Times (Online), 3 December 07; ``Democracy Champion Wins HK 
Poll,'' BBC (Online), 2 December 07.
    \8\ Government of the Hong Kong Special Administrative Region 
(Online), Green Paper on Constitutional Development, July 2007.
    \9\ Donald Tsang (Chief Executive of the HKSAR), Government of the 
Hong Kong Special Administrative Region (Online), ``Report on the 
Public Consultation on Constitutional Development and on Whether There 
Is a Need To Amend the Methods for Selecting the Chief Executive of the 
Hong Kong Special Administrative Region and for Forming the Legislative 
Council of the Hong Kong Special Administrative Region in 2012'', 12 
December 07.
    \10\ ``Hong Kong `To Elect its Leader by 2017' '' BBC (Online), 29 
December 07.
    \11\ Decision of the Standing Committee on Methods for Selecting 
the Chief Executive of the Hong Kong Special Administrative Region, 
Forming the Legislative Council, and on Issues Relating to Universal 
Suffrage; Qiao Xiaoyang, ``Marching Toward a New Course for Democratic 
Development in Hong Kong with One Mind and Joined in Common Effort'' 
[Jixin xieli maixiang xianggang minzhu fazhan xin licheng], Speech 
Delivered at the Forum on Hong Kong's Political Development, 29 
December 07.
    \12\ Qiao Xiaoyang, ``Marching Toward a New Course for Democratic 
Development in Hong Kong.''
    \13\ Government of the Hong Kong Special Administrative Region, 
Registration and Electoral Office (Online), ``The Third Term Chief 
Executive Election: Election Committee,'' 7 February 07; Keith 
Bradsher, ``China Plans to Allow Hong Kong a Bigger Voice in Choosing 
its Leaders,'' New York Times (Online), 25 September 05; Human Rights 
Watch (Online), ``A Question of Patriotism: Human Rights and 
Democratization in Hong Kong,'' 9 September 04, 33-34; Alvin Y. So, 
``The Tiananmen Incident, Patten's Electoral Reforms, and the Roots of 
Contested Democracy in Hong Kong,'' in The Challenge of Hong Kong's 
Reintegration with China, ed. Ming K. Chan (Hong Kong: Hong Kong Univ. 
Press 1997), 70-72.
    \14\ Keith Bradsher, ``On Economy, Voters Move to the Left in Hong 
Kong,'' New York Times (Online), 8 September 08; ``Democrats Face Key 
Test as Hong Kong Votes,'' Agence France-Presse (Online), 7 September 
08.
    \15\ Decision of the Standing Committee on Methods for Selecting 
the Chief Executive of the Hong Kong Special Administrative Region, 
Forming the Legislative Council, and on Issues Relating to Universal 
Suffrage.
    \16\ Jimmy Chueng, `` `Fake' Voting Model Would Backfire, Lawmaker 
Warns,'' South China Morning Post (Online), 9 February 2008.
    \17\ Ambrose Leung and Albert Wong, ``Tsang Hints Legco Trade Seats 
May Be Retained,'' South China Morning Post (Online), 16 May 08.
    \18\ Chris Yeung, ``Change of Tack,'' South China Morning Post 
(Online), 22 January 08.
    \19\ Decision of the Standing Committee on Methods for Selecting 
the Chief Executive of the Hong Kong Special Administrative Region, 
Forming the Legislative Council, and on Issues Relating to Universal 
Suffrage.
    \20\ Anne Marie Roantree and James Pomfret, ``Olympic Torch 
Protesters Denied Entry to Hong Kong,'' Reuters (Online), 27 April 08; 
Keith Bradsher, ``Torch Nears, Posing Test of Autonomy in Hong Kong,'' 
New York Times (Online), 29 April 08.
    \21\ Jimmy Cheung, et al., ``Barring of Rights Activists 
Criticized,'' South China Morning Post (Online), 29 April 08; Bradsher, 
``Torch Nears, Posing Test of Autonomy in Hong Kong.''
    \22\ ``Olympic Torch Arrives in Hong Kong,'' Associated Press 
(Online), 30 April 08; ``Hong Kong Authorities Bar at Least 7 Activists 
From Olympic Torch Relay,'' Voice of America (Online), 30 April 08.
    \23\ James Pomfret, ``Hong Kong Says Olympic Trouble-Makers Not 
Welcome,'' Reuters (Online), 6 May 08; ``Warning Goes Out to the 
Olympic Spoilers,'' Standard (Online), 2 April 08.
    \24\ Dennis Chong, ``Overseas Dissidents Arrive in HK with Plan To 
Confront Authorities,'' South China Morning Post (Online), 8 August 08; 
Nora Boustany, ``Hong Kong Bars Chinese Dissident,'' Washington Post 
(Online), 7 August 08.
    \25\ Peter So and Martin Wong, ``HK Protest Sites `Far from Venues' 
'' South China Morning Post (Online), 31 July 08; ``Tight Rein Kept on 
Tibet, Rights Protesters,'' South China Morning Post (Online), 10 
August 08; ``Tibetan Independence Supporters are Taken Away at the 
Olympic Equestrian Racetrack'' [Zhichi zangdu renshi zai aoyun mashu 
saichang shitu kangyi bei daizou], Radio Free Asia (Online), 10 August 
08.
    \26\ ``Hong Kong Pro-Democracy Activist Ejected from Olympic 
Venue,'' Agence France-Presse (Online), 9 August 08.
    \27\ Hong Kong Special Administration Region, Information Services 
Department (Online), ``Views Sought on Human Rights Report,'' 2 
September 08.

                                 <all>

</pre></body></html>
